<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-383]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-383
 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2643/S. 1696

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR, 
ENVIRONMENT, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2008, AND FOR OTHER PURPOSES

                               __________

                      Department of Agriculture
                       Department of the Interior
                    Environmental Protection Agency
                       Nondepartmental Witnesses
                                 ______

         Printed for the use of the Committee on Appropriations

  Available via the World Wide Web:http://www.gpoaccess.gov/congress/
                               index.html

                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE 

33-923 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


  








































                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agenics

                 DIANNE FEINSTEIN, California, Chairman
ROBERT C. BYRD, West Virginia        LARRY CRAIG, Idaho
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        THAD COCHRAN, Mississippi
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            JUDD GREGG, New Hampshire
JACK REED, Rhode Island              WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                           Professional Staff

                            Peter Kiefhaber
                              Ginny James
                             Rachel Taylor
                             Scott Dalzell
                             Chris Watkins
                       Leif Fonnesbeck (Minority)
                        Rebecca Benn (Minority)
                         Calli Daly (Minority)

                         Administrative Support

                         Katie Batte (Minority)









































                            C O N T E N T S

                              ----------                              

                        Tuesday, March 13, 2007

                                                                   Page

Environmental Protection Agency..................................     1

                        Tuesday, March 20, 2007

Department of the Interior: Office of the Secretary..............    35

                         Tuesday, May 22, 2007

Department of Agriculture: Forest Service........................    81
Nondepartmental witnesses........................................   131


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                        TUESDAY, MARCH 13, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Dorgan, Reed, Nelson, Allard, 
Craig, Domenici, and Alexander.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR
ACCOMPANIED BY:
        MARCUS PEACOCK, DEPUTY ADMINISTRATOR
        BILL WEHRUM, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND 
            RADIATION


             opening statement of senator dianne feinstein


    Senator Feinstein. Let me begin by welcoming everyone here 
this morning, and thank you for attending this hearing on the 
Environmental Protection Agency's fiscal year 2008 budget 
request.
    We have Steve Johnson, the EPA Administrator, as our 
principal witness. So, we look forward to the testimony.
    I'd also like to thank Senator Craig, our ranking member, 
and other members who, hopefully, will join us this morning.
    I think all of us should be extremely concerned about the 
cuts in EPA's budget for fiscal year 2008. The administration's 
request provides $7.2 billion for the EPA. That's $508 million 
less than 2007. That's a 6.6 percent cut. So, this, then, is 
the smallest EPA budget in more than a decade, and more than 
$1.1 billion less than the agency's budget in 2004.
    Now, we all know we have to make tough fiscal choices, 
but--and we need to reduce the deficit, but I don't believe 
that cutting funding for clean water or clean air is the 
answer. In particular, I can't begin to understand why the 
administration would cut $400 million out of the Clean Water 
State Revolving Fund. That's a 37 percent cut. Congress funded 
this Fund at nearly $1.1 billion last year, because we know 
that our communities depend on this funding to meet their clean 
water needs. EPA's own GAP analysis tells us that our Nation 
needs hundreds of billions of dollars for clean water 
infrastructure just to keep pace with our aging water systems.
    I mean, I remember the day when no one used bottled water 
anywhere. We all drank water straight from the tap. That just 
simply is not true today. Water is not nearly as clean as it 
used to be.
    In my State, the San Joaquin Valley has some of the worst 
air quality in the Nation. Its geography serves as a bowl that 
collects air pollutants from cars, trucks, and farm equipment, 
and it makes the challenges of meeting the Federal air-quality 
deadlines for ozone and particulate matter virtually 
impossible. As a matter of fact, it's one of the two 
nonattainment areas in the State.
    The South Coast air district is also fighting severe 
pollution from ozone and particulate matter. To meet air-
quality standards, they'll have to address pollution from a 
whole host of sources, including heavy trucks, oceangoing 
ships, and locomotives that move goods to the port. Yet, the 
air management district tells me that the EPA's recent 
locomotive and maritime diesel rule is insufficient to allow 
Southern California to meet its clean air deadlines. These 
districts need more Federal assistance to clean up their air, 
not less. In particular, they need the Federal Government to be 
a better partner on clean diesel programs.
    While EPA is moving forward with regulations to reduce 
further diesel emissions, we have to deal with the 11 million 
diesel engines that are polluting our air today. So, this is a 
challenge that could cost billions of dollars.
    Now, I'm very pleased that the administration's budget does 
contain $35 million to fund clean diesel grants. But, Mr. 
Administrator, we both know that $35 million is just not enough 
to get the job done. It's far less than the $200 million that 
Congress authorized for these cleanups, and it's even less than 
the President proposed last year. My own State is already 
spending $100 million each year for diesel emission reduction 
grants. It's not fair for the States to have to pick up the tab 
on this, so I hope the Federal Government can step up to the 
plate and provide more funding.
    So, Mr. Johnson, bottom line, I hope you will commit to 
working with us to make that happen, and I look forward to your 
testimony.
    I'll now call on the ranking member, distinguished Senator, 
Senator Craig.


                    statement of senator larry craig


    Senator Craig. Well, Madam Chairman, thank you very much.
    I must say, at the beginning of my comments, they're going 
to sound a great deal like the chairman's, Steve. But, welcome 
before the committee. Marcus, it's great to have you back 
before the committee to look at your 2008 budget.
    EPA has one of the most important and difficult missions of 
all of our Federal agencies. The agency's jurisdiction ranges 
from responsibility to cleanup--in the cleanup of Superfund 
sites such as the Coeur d'Alene site in my home State of Idaho, 
to funding clean water and drinking water infrastructure 
programs. If you come to my State, I think bottled water is a 
fad, Madam Chairman, not a necessity.
    In Idaho?
    Senator Feinstein. It's not a necessity?
    Senator Craig. It's a fad.
    It's not a necessity.
    But certainly there is infrastructure problem of severity 
and enforcement of the long list of environmental laws that are 
out there, is a phenomenal obligation to some of our 
jurisdictions.
    The administration has requested $7.2 billion in the total 
budget authority for 2008. This is $500 million below the 
enacted level. While I am a supporter of the agency and the 
administration's efforts to curb spending, I think my 
priorities are not unlike the Senator from California's 
priorities, and the chairman of this committee. A reduction in 
EPA's budget is in the form of $396 million cut to Clean Water 
State Revolving Funds, at a time when they are desperately 
needed because of the new requirements in drinking-water 
standards, is tremendously important and enormously impossible, 
I guess is a great way to say it, in some of these small 
communities where the technology is simply not allowing them to 
comply because of the costs involved for the number of patrons 
that are recipients of the water delivered. So, that's a 
tremendously important issue. The State revolving funds work, 
they work very well. They are the kind of assistance we need.
    Now, on a positive note, I am pleased that both the Asian-
Pacific Partnership, $5 million, and Methane to Markets, $4.4 
million, received funding in the budget request. Let me look at 
my home State a little bit. Coeur d'Alene is a beautiful city 
in the north end of my home State, adjacent to a Superfund 
site. I'm way too familiar with the difficulties surrounding 
cleanup processes with Superfund sites. They still are more 
valuable to litigate, it seems, than to partnership on the 
cleanups that are necessary. I appreciate the challenges the 
agency's facing with cleaning up 1,245 active Superfund sites 
on the national priority list. However, I am most concerned 
that EPA is pushing the Superfund program to not only complete 
construction on sites in a timely manner, but also to turn 
these areas into healthy and safe conditions.
    As we emerge out of our difficulties in north Idaho, it is 
amazing the economic renaissance that can occur. But we spent 
20 years fighting and spending lots of money to get there, and 
that does not seem like a very productive way to handle 
resources.
    I would like to look past some of the science of drinking 
water to the realities of our rural communities in Idaho, as I 
mentioned, suffered from arsenic relations that are simply too 
big to deal with. Senator Domenici has just arrived. He and I 
have partnershiped on this issue, because we have communities 
that are in unique geologic regions of the country, where the 
reality of arsenic, with the standards currently set, are 
simply unattainable in a cost-effective way, compared with 
large municipalities.
    So, those are some of our struggles, Administrator Johnson. 
I think you understand them well. We've had not only productive 
dialogue, but cooperation, as we've worked on these issues in 
the past. We'll continue to do so. But to start with a budget 
that is below last year is, in itself, a phenomenal challenge.
    I would hope this isn't just the gamesmanship that 
oftentimes goes on when the administrations, Democrat or 
Republican, know that there are certain congressional 
priorities that they don't necessarily hold. So, if you get 
your funding, and your budget looks good, then Congress will 
come along and stick some of the money in it that they want, 
and, in the end, maybe both win, but the budget loses. That's a 
reality that we all struggle with.
    Madam Chairman, thank you very much.
    Senator Feinstein. Thank you, Senator Craig.
    Does any other member have a statement they might like to 
make?
    Senator, do you?
    Senator Dorgan. Madam Chairman, just 1 minute, if I might, 
and----
    Senator Feinstein. Please.
    Senator Dorgan [continuing]. No more than 1 minute.


                  statement of senator byron l. dorgan


    Senator Dorgan. Mr. Johnson, thank you very much.
    My colleague from Idaho talked about spending less money 
than the previous year. That's been the case repeatedly in 
recent years on this subcommittee, despite the fact there are 
substantial needs. But, Administrator Johnson, I talked to you 
about the Center for Air Toxic Metals, which is a 12-year 
cornerstone program on this issue of research on technologies 
to deal with the air toxic metal issue. I talked to you about 
the fact that Congress has earmarked that for all of these 
years, because it's never put in the budget, I guess because 
you expect us to put it in. But I want to continue to work with 
you to make sure that, in that critical area dealing with the 
environment, that we don't have, in the intervening period, 
before Congress once again indicates its importance to that 
issue, that there not be layoffs and so on in that program 
before October 1st, when Congress almost certainly will fund it 
again.
    So, I'm going to provide you some information again today 
relevant to our phone call, but thank you for your leadership. 
I look forward to working with you.
    Mr. Johnson. Thank you.
    Senator Feinstein. Thank you.
    Going--I beg your pardon. I said I was going to use the 
early-bird rule, and I didn't. I think you were in next, Mr.--
Senator Allard. If you----
    Senator Allard. Madam Chairman, it's not a problem. Thank 
you.


                   statement of senator wayne allard


    Senator Allard. I want to congratulate you for holding the 
hearing. I have a full statement I'd like to make a part of the 
record.
    But I would just, first of all, like to congratulate the 
Environmental Protection Agency for their new building in 
Denver, which I understand is an energy-efficient building 
and----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. Likely to get what they call 
the Silver LEEDs rating, which is very good. I want to 
congratulate you on that. I want to thank you for many of the 
cleanup areas that we've moved forward on in Colorado. This 
hasn't been just in the past year, but it's been over a period 
of time--Rocky Flats, Rocky Mountain Arsenal, Shattuck Cleanup 
Site--and we're working on some other sites, too. I appreciate 
your cooperation in that regard.
    A concern that I raise in my comments is that we have to be 
very sensitive to what is happening in small communities. Many 
times when we're passing rules and regulations and doing 
enforcement in small communities, they simply can't afford to 
do whatever is required. I think we need to be sensitive, in 
some way. We just can't shut down the small community.
    Mr. Johnson. Right.
    Senator Allard. So, somehow or other, we need to figure out 
ways and, I think, maybe take more of a supportive role. Many 
of the fines and everything that get applied are very 
appropriate to a large community. But in a small community it's 
just--becomes unreasonable. I think that, somehow or the 
other--I don't know whether you have that flexibility because 
of current law; sometimes you don't--but in other--in some 
cases, where law permits--and I think we need to be somewhat 
flexible--there are some challenges on some clean-water issues 
for small communities and whatnot, and some environmental 
issues.


                           prepared statement


    I've been contacted by a number of them. I'm sure that 
there's a number of Senators up here from smaller States that 
have had some of the same conversations with their smaller 
communities. So, I'd just bring that to your attention, and 
I'll have my full statement put in the record.
    Thank you very much, Madam Chairman.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Madam Chairwoman, thank you for holding this hearing today. While 
the EPA oversees the many important environmental regulations and 
requirements, some of these regulations may have a disproportionate 
effect on small communities. I think that this fact makes it very 
important for Congress to exercise close oversight of the Agency and 
its funding.
    I would like to begin by congratulating you, Administrator Johnson, 
on EPA's new home in Denver. I understand that the recently completed 
building is likely to receive a silver LEEDs rating. As a founding 
member of the Renewable Energy and Energy Efficiency Caucus I am very 
pleased to hear that the federal government is leading by example in 
this area.
    I would also like to thank you for the leadership role EPA has 
played at the clean-up of the Rocky Flats site, the Rocky Mountain 
Arsenal and the Shattuck site in Denver. Those areas are of great 
importance to the people of Colorado and to me.
    I cannot stress enough the need to utilize sound, peer-reviewed 
science when making decisions about increasing regulations. I also 
believe that the cost-benefit analysis of regulations should be given 
more weight in many situations--such a cost-benefit analysis should 
take into account the size of the systems and income level of the users 
who will bear the cost. Even with such considerations, some communities 
simply cannot afford to implement the types of upgrades that are 
required to meet ever evolving federal requirements. I believe that the 
federal government should step up and help these communities instead of 
pushing down yet another unfunded mandate on them.
    Finally, I have mentioned in previous years that I have had 
concerns with a climate within EPA that seems to lean heavily toward 
enforcement. From communications I have had with constituents, it has 
seemed that EPA was no longer interested in assisting communities in 
complying with regulations set by EPA. Instead reports of heavy-handed 
enforcement were the norm. Although enforcement is certainly a 
responsibility that has been delegated--and sometimes mandated--to EPA 
from Congress, small communities often do not have the expertise to 
meet new regulations on their own. The EPA should be willing to help 
communities who operate in good-faith efforts to meet federal 
requirements, rather than simply wait until they are able to take 
enforcement action.
    I am pleased to report this year that the news I have been hearing 
recently is more encouraging. Several of our small communities are 
reporting that EPA seems to have acquired new flexibility and is more 
willing to work with them. While things are not yet perfect, I am happy 
to hear of this progress. However I noted with some disappointment that 
EPA is requesting a substantial increase in their enforcement budget. 
When small communities are subjected to fines there is less funding for 
correcting the problems that triggered the fines in the first place. I 
think that we can all agree that upgrading water infrastructure, for 
example, is a far better use for a community's funds than is paying a 
fine. I hope this requested increase in funding does not mean that the 
agency is stuck in the mindset that enforcement of regulations is more 
important that helping communities meet those regulations.
    I look forward to working with the Administrator, and my colleagues 
in the Senate, to see that EPA is able to reasonably carry out their 
mission. And I look forward to working with the committee to ensure 
that activities at the Environmental Protection Agency are funded in a 
manner that is responsible and sufficient.

    Senator Feinstein. Thank you, Senator.
    Senator Domenici.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Madam Chairperson, I will just make a 
very brief statement, knowing that it'll--eventually, I'll have 
a chance, during questions, to bring up the issue.
    We have a terrible problem of arsenic in the small 
communities. So do you. We just can't meet the standard that 
they've set. Some of our small communities are now under the 
gun for real. We've been kind of putting it off, putting it 
off, begging, begging. But I think you've gotten to the point 
where you're going to have to do something, but I don't know 
what it will be. I don't think we're going to close a bunch of 
small communities' systems down. They're doing the very, very 
best they can. I'll ask some questions, just to see if there's 
any more chances that we have, and any opportunities, that our 
small communities have to get out again from under this yoke 
that's strangling them.
    I thank you for your cooperation, and your office. You have 
been out there to see how bad it is, and you know the arsenic 
standards for the small communities are, for all intents and 
purposes, not achievable.
    With that I'll hold until my questions. Thank you for your 
time.
    Senator Feinstein. Thank you, Senator.
    Mr. Johnson, we'll turn it over to you now. I think you've 
heard the concerns of individual committee members. I know 
they'd appreciate it, to the extent you can address them in 
your opening remarks.

                SUMMARY STATEMENT OF STEPHEN L. JOHNSON

    Mr. Johnson. Thank you very much, Madam Chairman. Thank you 
and members of the committee.
    I am pleased to be here to discuss the President's fiscal 
year 2008 budget request for the Environmental Protection 
Agency. The President's $7.2 billion request builds upon EPA's 
record of accomplishments and funds its role as our Nation 
enters the next phase of environmental progress.
    Over our 36 years, EPA has laid a strong foundation to 
shift America to a green culture. Our citizens are embracing 
the fact that environmental responsibility is everyone's 
responsibility. So, instead of having only 17,000 EPA employees 
working to protect the environment, we now have 300 million 
Americans as environmental partners.
    These are exciting times. Our air, water, and land are 
cleaner today than a generation ago. With this budget, our 
progress will continue.
    The evolution of environmental progress has come in--about, 
in part, because we have proven that a healthy environment and 
a healthy economy can, in fact, go hand-in-hand. As the economy 
continues to grow, so do our energy needs. In order to help 
meet the President's ambitious clean energy and air goals, 
EPA's budget requests over $82 million to support our Energy 
Policy Act responsibilities. This includes $8.4 million to 
implement the Renewable Fuel Standards, and $35 million for 
grants to cut diesel emissions from trucks and school buses.
    EPA also plays a vital role in advancing the 
administration's aggressive, yet practical, strategy for 
reducing greenhouse gas emissions. The President has requested 
$117.9 million for EPA's climate change programs, including $44 
million for the successful Energy Star program, $5 million for 
the Asia-Pacific Partnership initiative, and $4.4 million for 
the Methane to Markets program.
    The evolution of environmental progress requires EPA to 
work effectively with our State and local partners. The 
President's budget builds upon this cooperation by providing 
$2.7 billion to help our partners improve their water quality. 
We are also promoting the use of innovative, tax-exempt, 
private activity bonds for capital investments in drinking 
water and wastewater projects.
    Additionally, collaboration is the key to protecting 
America's great water bodies. In order to strengthen the 
efforts of EPA and our partners, the President is requesting 
$28.8 million for the Chesapeake Bay, $56.8 million for the 
Great Lakes, $4.5 million for the Gulf of Mexico, and $1 
million for the Puget Sound.
    At EPA, we're working productively with our partners to 
deliver a healthier and more prosperous future. The President's 
budget provides $1.2 billion for the Superfund program to 
continue transforming hazardous waste sites back into community 
assets.
    After highlighting some of these cooperative initiatives, 
we also must recognize the necessity of vigorously enforcing 
our Nation's environmental laws. The proposed fiscal year 2008 
enforcement budget, $549.5 million, is the highest enforcement 
budget ever.
    As EPA helps shape America's green culture, we understand 
the need to advance environmental science. The President's 
commitment to sound science is reflected in his $134 million 
request, an increase of $9.4 million, to fund human health 
risk, clean air, and nanotechnology research.
    Finally, I must mention EPA's evolving role from being 
guardians of the environment to, also, guardians of our 
homeland. The President has requested $152 million for our 
homeland security responsibilities in water security and 
decontamination efforts.
    While the Nation's environment progress continues to 
evolve, so does EPA's role. This budget will fulfill EPA's 
responsibilities of being good stewards of the environment and 
good stewards of our Nation's tax dollars.

                           PREPARED STATEMENT

    By making smart use of our resources, we're not only 
building on our Nation's environmental accomplishments, we're 
creating a lasting legacy for future generations of Americans.
    Thank you, and I look forward to addressing your questions.
    Thank you, Madam Chairwoman.
    [The statement follows:]
                Prepared Statement of Stephen L. Johnson
    Madam Chairman and members of the committee, I am pleased to be 
here today to discuss the fiscal year 2008 budget request for the 
Environmental Protection Agency (EPA). The President has requested $7.2 
billion to support the work of EPA and our partners nationwide. This 
funding illustrates the administration's unwavering commitment to 
setting high environmental protection standards, while focusing on 
results and performance, and achieving the goals outlined in the 
President's Management Agenda.
    The President's request builds on EPA's long record of 
accomplishments and funds its role as America enters into the next 
phase of environmental progress. These are exciting times for our 
Nation's environment. Since its founding, EPA has laid a strong 
foundation of environmental progress. Our air, water and land are 
cleaner today than they were just a generation ago, and with this 
year's budget, this progress will continue.
    While our Nation's environmental results are significant, it is 
important to understand how they're being achieved. Over our 36 years, 
EPA has laid a strong foundation to shift America into a ``green'' 
culture. Today, instead of having just 17,000 EPA employees working to 
protect the environment, we now have over 300 million Americans as 
environmental partners. Americans from all sectors of society--
businesses, communities and individuals--have begun to embrace the fact 
that the environment is everyone's responsibility, not just the 
responsibility of EPA.
    Madam Chairman, the fiscal year 2008 budget will fund our new role 
in this next exciting phase of environmental progress.
    Our Nation is committed to balancing the budget, and EPA is a proud 
partner in this effort. EPA is not only a good steward of our 
environment, but it is a good steward of our Nation's tax dollars. We 
are accountable for spending the taxpayer's money efficiently and 
effectively, while focusing on wisely investing in environmental 
results.
                  clean air and global climate change
    The fiscal year 2008 President's Budget requests $912 million for 
the Clean Air and Global Climate Change goal at EPA. EPA implements 
this goal through its national and regional programs that are designed 
to provide healthier air for all Americans and protect the 
stratospheric ozone layer while also minimizing the risks from 
radiation releases, reducing greenhouse gas intensity, and enhancing 
science and research. In order to carry out its responsibilities, EPA 
utilizes programs that include many common elements, including: setting 
risk-based priorities; facilitating regulatory reform and market-based 
approaches; partnering with state, tribal, and local governments, non-
governmental organizations, and industry; promoting energy efficiency; 
and utilizing sound science.
    The Clean Air Rules are a major component of EPA work under Goal 1 
and include a suite of actions that will dramatically improve America's 
air quality. Three of the rules specifically address the transport of 
pollution across state borders (the Clean Air Interstate Rule, the 
Clean Air Mercury Rule, and the Clean Air Nonroad Diesel Rule). These 
rules provide national tools to achieve significant improvement in air 
quality and the associated benefits of improved health, longevity and 
quality of life for all Americans. In fiscal year 2008, EPA will be 
working with the states and industry to implement these rules.
    In order to address the Nation's growing energy challenges, EPA's 
request supports activities associated with the Energy Policy Act of 
2005. These activities include the implementation of the Renewable Fuel 
Standards that will promote the use of renewable fuels, diversify our 
energy sources, and reduce our reliance on oil. EPA's request provides 
$35 million to support the new Diesel Emission Reduction Grants program 
that is designed to reduce diesel emissions in trucks and school buses 
through retrofitting and replacing existing engines. This program will 
target projects in areas that don't meet air quality standards to help 
ensure improvements occur in areas of the country where the benefits 
are needed most.
    In fiscal year 2008, EPA's climate protection programs will 
continue its government and industry partnerships to achieve reductions 
in greenhouse gas emissions and contribute to the President's goal of 
reducing greenhouse gas intensity by 18 percent in 2012. The 
President's request for EPA's voluntary partnership climate change 
programs and research on technology and science in fiscal year 2008 is 
$118 million. The request includes $4 million for the Methane to 
Markets Partnership which promotes methane recovery and use in 
landfills, coal mines and natural gas facilities. In addition, EPA's 
request provides $5 million to support the Asia Pacific Partnership--
this partnership supports international efforts to reduce greenhouse 
gas emissions by creating new investment opportunities, building local 
capacity, and removing barriers to the introduction of more efficient 
technologies. EPA's climate partnership and technology research efforts 
are components of the administration's Climate Change Technology 
Program. In addition, EPA's Global Change research program coordinates 
its efforts and actively contributes to the administration's Climate 
Change Science Program.
                          clean and safe water
    The fiscal year 2008 President's Budget requests $2.7 billion to 
implement the Clean and Safe Water goal through programs designed to 
improve the quality of surface water and drinking water. EPA will 
continue to work with its state, tribal, and local partners to achieve 
measurable improvements to the quality and safety of the Nation's 
drinking water supplies as well as the conditions of rivers, lakes and 
coastal waters.
    The President's request continues the administration's commitments 
to the Clean Water and Drinking Water State Revolving Funds. The 
President funds the Clean Water State Revolving Fund (CWSRF) at $688 
million, supporting the cumulative capitalization commitment of $6.8 
billion for 2004-2011 and enabling the CWSRF to eventually revolve at 
an annual level of $3.4 billion. The budget proposes $842 million for 
the Drinking Water State Revolving Fund (DWSRF), essentially the same 
as the 2007 level. This request keeps the administration's commitment 
of achieving a long-term $1.2 billion revolving level.
    EPA has worked with Treasury and other parts of the administration 
to propose expanded use of tax-exempt Private Activity Bonds for 
capital investments in drinking water and wastewater projects. The 
President's Budget proposes to exempt PABs from the private activity 
bond unified state volume cap. PABs are tax-exempt bonds issued by a 
state or local government, the proceeds of which are used by another 
entity for a public purpose or by the government entity itself for 
certain public-private partnerships. By removing drinking water and 
wastewater bonds from the volume cap, this proposal will provide states 
and communities greater access to PABs to help finance their water 
infrastructure needs and increase capital investment in the Nation's 
water infrastructure.
    This Water Enterprise Bond proposal would provide an exception to 
the unified annual State volume cap on tax-exempt qualified private 
activity bonds for exempt facilities for the ``furnishing of water'' or 
``sewage facilities.'' To ensure the long-term financial health and 
solvency of these drinking water and wastewater systems, communities 
using these bonds must have demonstrated a process that will move 
towards full-cost pricing for services within 5 years of issuing the 
Private Activity Bonds. This will help water systems become self-
financing and minimize the need for future subsidies.
                   land preservation and restoration
    The Agency's fiscal year 2008 budget request to Congress implements 
the Land Preservation and Restoration goal through EPA's land program 
activities that promote the following themes: Revitalization, 
Recycling, Waste Minimization, and Energy Recovery; Emergency 
Preparedness and Response; and Homeland Security.
    The President's budget provides $1.2 billion for the Superfund 
program to continue progress cleaning up the Nation's most contaminated 
hazardous waste sites. As of the end of fiscal year 2006, cleanup 
construction has been completed at 1,006 National Priorities List (NPL) 
sites. The Superfund program often completes short-term removal actions 
to mitigate immediate health threats at sites prior to completion of 
investigations and the start of long-term cleanup construction.
    EPA has continued its efforts to efficiently utilize every dollar 
and resource available to clean up contaminated sites and to protect 
human health. In fiscal year 2006, EPA obligated $390 million of 
appropriated, state cost-share, and responsible party funding to 
conduct ongoing cleanup construction and post-construction work at 
Superfund sites that includes nearly $45 million to begin construction 
at 18 new Superfund projects. Based upon the construction schedules, 
EPA expects to complete construction of all remedies at 24 sites in 
fiscal year 2007 and 30 sites in fiscal year 2008. EPA expects to 
complete construction at 165 sites during the fiscal year 2007 to 
fiscal year 2011 time period, the goal established in the Agency's 
fiscal year 2006 to fiscal year 2011 Strategic Plan.
    In fiscal year 2008, the Agency is requesting $34 million for the 
Underground Storage Tank Program to provide assistance to states to 
help them meet their new responsibilities, that include: (1) mandatory 
inspections every 3 years for all underground storage tanks; (2) 
operator training; (3) prohibition of delivery to non-complying 
facilities; (4) secondary containment of financial responsibility for 
tank manufacturers and installers; (5) various compliance reports; and 
(6) grant guidelines. The Agency is also submitting new legislative 
language to allow states to use alternative mechanisms, such as the 
Environment Results Program, to meet the mandatory 3-year inspection 
requirement. This proposal provides states with a less costly 
alternative to meet the objectives of the Energy Policy Act.
                   healthy communities and ecosystems
    In fiscal year 2008, EPA's Budget carries out the Healthy 
Communities and Ecosystems goal via a combination of regulatory, 
voluntary, and incentive-based programs. A key component of the Healthy 
Communities and Ecosystems goal is to reduce risks to human health and 
the environment through community and geographically-based programs.
    In fiscal year 2008, $162.2 million was requested for the 
Brownfields program to support research efforts with additional 
assessments, revolving loan fund, cleanup grants and workforce 
development programs. When leveraged with state and local resources, 
this Brownfield funding will help assess more than 1,000 properties, 
clean up more than 60 sites, and address petroleum contamination in 
more than 40 communities.
    EPA focuses on collaborative place-based programs to protect the 
great waterbodies--the Chesapeake Bay, the Great Lakes, the Gulf of 
Mexico and the Puget Sound.
    The Chesapeake Bay is the largest estuary in the United States and 
a water resource of tremendous ecological and economic importance. The 
greatest success in the last 5 years has been the water quality 
initiative that has resulted in new water quality standards for the 
Bay, the adoption of nutrient and sediment allocations for all parts of 
the watershed that meet new standards, and tributary-specific pollution 
reduction and habitat restoration plans. To continue to carry out these 
functions, the fiscal year 2008 President's Budget requests $29 million 
in fiscal year 2008, an increase of over $2 million from the previous 
President's Budget request. Within the request is $8 million for 
competitive grants for innovative, cost-effective non-point source 
watershed projects, which reduce nutrient and/or sediment discharges to 
the Bay.
    The Great Lakes are the largest system of surface freshwater on 
earth, containing 20 percent of the world's surface freshwater and 
accounting for 84 percent of the surface freshwater in the United 
States. The goal of the Agency's Great Lakes Program is to restore and 
maintain the chemical, physical and biological integrity of the Great 
Lakes Basin Ecosystem. The President's fiscal year 2008 budget commits 
$57 million towards continuing efforts by EPA's Great Lakes program, 
working with state, local, and tribal partners and using the Great 
Lakes Regional Collaboration Strategy as a guide to protect and restore 
the Great Lakes. The Agency will focus on working with partners to 
clean up and de-list eight Areas of Concern (AOCs) by 2010, emphasizing 
clean up of contaminated sediments under the Great Lakes Legacy Act. 
EPA will continue to work towards reducing PCB concentrations in lake 
trout and walleye and keeping Great Lakes beaches open and safe for 
swimming during the beach season.
    The fiscal year 2008 President's Budget Request provides $4.5 
million for the Gulf of Mexico program to support Gulf States and 
stakeholders in developing a regional, ecosystem-based framework for 
restoring and protecting the Gulf of Mexico.
    EPA efforts in the Puget Sound are focused on the Basin's highest 
priority environmental challenges: air and water quality. The fiscal 
year 2008 Budget provides $1 million for restoration activities to 
improve water quality and minimize the adverse impacts of rapid 
development.
    Another major focus of the Healthy Communities and Ecosystems goal 
is identifying, assessing, and reducing the risks from pesticides. In 
fiscal year 2008, EPA will continue identifying and assessing potential 
risks from pesticides. In addition, EPA will set priorities for 
addressing pesticide risks and promoting innovative and alternative 
measures of pest control. EPA will continue to meet its pesticide-
related homeland security responsibilities by identifying and reviewing 
proposed pesticides for use against pathogens of greatest concern for 
crops, animals, and humans. EPA will continue to work closely with 
other federal agencies and industry to implement its Registration 
Review program that will review existing pesticide registrations on a 
15-year cycle to ensure that registered pesticides in the marketplace 
continue to be safe for use in accordance with the latest scientific 
information.
                compliance and environmental stewardship
    The EPA's fiscal year 2008 Budget request of $743.8 million for the 
Compliance and Environmental Stewardship goal provides funding for 
programs that monitor and promote enforcement and compliance with 
environmental laws and policies. The Agency will also support 
stewardship through direct programs, collaboration and grants for 
pollution prevention, pesticide and toxic substance enforcement, 
environmental information, and continuing an environmental presence in 
Indian Country.
    In fiscal year 2008, the budget for this goal also provides $56.9 
million for GAP grants, which will build tribal environmental capacity 
to assess environmental conditions, utilize available federal 
information, and build an environmental program tailored to tribes' 
needs. The grants will develop environmental education and outreach 
programs, develop and implement integrated solid waste management 
plans, and alert EPA to serious conditions that pose immediate public 
health and ecological threats. Through GAP program guidance, EPA 
emphasizes outcome-based results.
                              enforcement
    In fiscal year 2008, the proposed total of $549.5 million 
represents the highest requested enforcement budget. This request for 
an increase of $9.1 million reflects the administration's strong 
commitment to the vigorous enforcement of our Nation's environmental 
laws and ensures that we will have the resources necessary to maintain 
a robust and effective enforcement program.
    EPA's enforcement program continues to achieve outstanding 
enforcement results with settlements over the past 3 years resulting in 
commitments of nearly $20 billion in future pollution controls. As an 
outcome of EPA's Superfund enforcement actions in fiscal year 2006, 
parties held responsible for pollution will invest $391 million to 
clean up 15 million cubic yards of contaminated soil and approximately 
1.3 billion cubic yards of contaminated groundwater at waste sites. 
These results show a strong and vigorous enforcement program that will 
be attainable under the fiscal year 2008 Request.
                                research
    EPA conducts research that provides a scientific foundation for the 
Agency's actions to protect the air that all Americans breathe. In 
fiscal year 2008, EPA's air research program will support 
implementation of the Clean Air Act, especially the National Ambient 
Air Quality Standards (NAAQS). The NAAQS programs will focus on 
tropospheric ozone, particulate matter, carbon monoxide, sulfur 
dioxide, nitrogen oxides, and lead. EPA also conducts research to 
improve understanding of the risks from other hazardous air pollutants, 
known as air toxics. EPA is also one of many federal agencies that 
actively contribute to the administration's Climate Change Science 
Program.
    Other important areas of research in fiscal year 2008 will include: 
(1) development of molecular microarrays for detection of bacterial 
pathogens and non-pathogenic microbes in drinking water source waters; 
(2) epidemiological studies on the illness rates resulting from 
untreated groundwater and distribution systems; (3) studies on the 
practices, such as blending, for handling significant wet weather 
events to identify ``best practices'' for preventing peak wet weather 
flows from overwhelming wastewater treatment facilities while 
protecting water quality; and (4) providing more efficient monitoring 
and diagnostic tools through continued research to develop methods of 
using landscape assessments for monitoring and assessing watershed 
conditions. These programs will help assess risks and priorities for 
ensuring clean water.
    EPA is requesting $10.2 million in fiscal year 2008 for 
nanotechnology research, which will focus primarily on the potential 
implications of manufactured nanomaterials on human health and the 
environment. The Agency's efforts are coordinated with other federal 
agencies through the National Nanotechnology Initiative (NNI), which 
the administration has identified as a fiscal year 2008 research and 
development budget priority. In fiscal year 2008, EPA's Science to 
Achieve Results (STAR) program will continue to fund exploratory grants 
on the potential implications of manufactured nanomaterials on the 
environment and human health, in collaboration with other federal 
agencies.
    The Agency also will continue in-house nanotechnology research 
initiated in fiscal year 2007. The integrated programs will focus on: 
(1) assessing the potential ecological and human health exposures and 
effects from nanomaterials likely to be released into the environment; 
(2) studying the lifecycles of nanomaterials to better understand how 
environmental releases may occur; (3) developing methods to detect 
releases of nanomaterials; and (4) using nanotechnology to detect, 
control, and remediate traditional pollutants.
    Recognizing that environmental policy and regulatory decisions will 
only be as good as the science upon which they are based, EPA makes 
every effort to ensure that its science is of the highest quality and 
relevance, thereby providing the basis for sound environmental 
decisions and results. EPA uses the federal Research and Development 
(R&D) Investment Criteria of quality, relevance, and performance in its 
decision-making processes through: (1) the use of research strategies 
and plans; (2) program review and evaluation by the Board of Scientific 
Counselors (BOSC) and the Science Advisory Board (SAB); and (3) 
independent peer review.
                           homeland security
    Following the cleanup and decontamination efforts after the 
terrorist incidents in 2001, the Agency has focused on ensuring we have 
the tools and protocols needed to detect and recover quickly from 
deliberate incidents. The emphasis for fiscal year 2008 is on several 
areas including decontaminating threat agents, protecting our water and 
food supplies, and ensuring that trained personnel and key lab 
capacities are in place to be drawn upon in the event of an emergency. 
Part of these fiscal year 2008 efforts will continue to include 
activities to implement a common identification standard for EPA 
employees and contractors such as the Smartcard initiative.
    EPA has a major role in supporting the protection of the Nation's 
critical water infrastructure from terrorist threats. In fiscal year 
2008, EPA will continue to support the Water Security Initiative 
(formerly known as Water Sentinel) pilot program and water sector-
specific agency responsibilities, including the Water Alliance for 
Threat Reduction (WATR), to protect the Nation's critical water 
infrastructure. The fiscal year 2008 budget provides $22 million for 
the Water Security Initiative to continue operation at the existing 
pilot systems and to begin deployment of the last pilot systems. 
Ultimately, an expansion of the number of utilities will serve to 
promote the adoption of Water Security within the water sector. 
Functioning warning systems, among several utilities of potentially 
divergent configurations, will afford a more compelling outcome than 
just one utility. After start-up of the remaining pilot systems in 
2008, the program will ramp down as EPA shifts its focus to evaluation 
of the pilots. EPA will continue support of each pilot for 3 years, 
after which the host cities will assume maintenance of these systems 
and over time bring them to full-scale operation. By the end of fiscal 
year 2007, EPA will issue interim guidance on design and consequence 
management that will enable water utilities to deploy and test 
contamination warning systems in their own communities.
    In fiscal year 2008, the Agency, in collaboration with our water 
sector security stakeholders, will continue our efforts to develop, 
implement and initiate tracking of national measures related to 
homeland security critical infrastructure protection activities.
    In summary, this budget will enable us to carry out the goals and 
objectives as set forth in our Strategic Plan, meet challenges through 
innovative and collaborative efforts with our state, tribal, and 
private entity partners, and focus on accountability and results in 
order to maximize environmental benefits. The requested resources will 
help us better understand and solve environmental challenges using the 
best available science and data, and support the President's focus on 
the importance of homeland security while carrying out EPA's mission.

    Senator Feinstein. Thank you very, very much. Appreciate 
it.
    Mr. Johnson. Thank you.

                           SAN JOAQUIN VALLEY

    Senator Feinstein. If I may, let me raise an issue of 
concern to me, which is the San Joaquin Valley. As you know, it 
is a nonattainment area. It faces very serious strictures, 
which could shut down the economy if they can't meet their 
attainment standards. There is virtually no way, presently, 
that they know how to meet those attainment standards. The 
valley's geography traps pollution; and so, there are too many 
different sources coming into the valley, many of which are of 
no fault to the valley. Additionally, it's a big area; 
consequently, the diesels play a role.
    Mobile sources are the biggest polluters, but there's no 
way it can meet its Federal ozone standard by 2013, even if it 
were to ban all cars and all trucks from the San Joaquin 
Valley.
    What are you doing to help them comply? What could the EPA 
do, if Congress provided additional resources?
    Mr. Johnson. Well, Madam Chairman, we, too, share your 
concern about the San Joaquin Valley, and, in fact, are 
committed, and have been working through our Region 9 office to 
help businesses and the local air-management districts there. 
As you point out, they are going to require additional time for 
attainment. Their final draft of their ozone plan, which was 
issued in January, moves the attainment time to 2023. This will 
provide some additional time to help, but also will entail 
additional requirements to add local measures to try to help 
achieve.
    Senator Feinstein. Do you----
    Mr. Johnson. So, we're----
    Senator Feinstein [continuing]. Support that--moving the 
attainment time? Can it be done, legally?
    Mr. Johnson. Yes, it can be done, legally. We're very 
supportive of working with the Valley and the businesses to 
help in every way we can. Of course, the steps that we've taken 
for diesel, both on-road and off-road, as well as the recent 
proposal for locomotives and marines, again, all help. You have 
my commitment that we're going to continue to work to help the 
Valley achieve their attainment status as quickly as possible.

                           CLEAN DIESEL GRANT

    Senator Feinstein. Well, as you know, you have to convert 
11 million diesels. As you also know, the Clean Diesel Grant is 
authorized at $200 million. You only ask for $35 million in 
your budget this year. Why is that?
    Mr. Johnson. We believe that we are committed to make the 
diesel puff of smoke something you only read about in history 
books, and, through our regulations, as well as through the 
President's request of $35 million, we believe we continue to 
make progress in doing that. The good news is, we're going to 
continue to deliver results while meeting a balanced budget. 
The $35 million requested as part of the President's budget, 
will be leveraged through the grant mechanism into $72 million. 
Putting it in terms of health benefits, that will derive $1.4 
billion in health benefits. So, while there is much to be done, 
this continues to deliver results, and we're committed to make 
that happen.

                          NONATTAINMENT AREAS

    Senator Feinstein. Now, 30 percent of your request, about 
$10.5 million, will go to States to fund grants for 
nonattainment areas, but the remaining money, about $24.5 
million, is not targeted to any particular need or region. What 
is the plan for that $24.5 million?
    Mr. Johnson. Let me ask our Acting Assistant Administrator, 
Bill Wehrum, to come to the table, and he can describe the plan 
in greater detail.
    Bill?
    Mr. Wehrum. Good morning, Madam Chair. My name is Bill 
Wehrum. I'm the Acting Assistant Administrator for Air and 
Radiation.
    There are needs across the country with regard to funding 
diesel retrofit programs, so we tried to create a balance, in 
the budget that has been proposed: to target a significant 
amount of money in the areas that need it most, which are the 
nonattainment areas, but not to leave out many other areas of 
the country that have clean air, but also have dirty diesels.
    Senator Feinstein. Well, will this be done on a priority 
basis?
    Mr. Wehrum. We try very hard to prioritize, but also to 
provide adequate and substantial funding for the many needs 
across the country, Madam Chair.
    Senator Feinstein. Well, I mean, this is a problem for me. 
If you have an area that geographically can't meet its ozone 
requirements--and this area can't meet it, even as I say, if 
they prohibited every car and truck from entering the area, 
they still can't meet them. Therefore, the only thing they can 
do is make the changes in the diesel engines. It's a priority 
area, because it's a nonattainment area. I don't think any of 
these other areas, outside of Los Angeles, perhaps, in the 
United States, have the same problems as this area does. So, 
it's a pretty important priority, it seems to me. What you 
sounded like is, this is going to be another revenue-sharing 
program that's going to be spread, kind of, based on the 
politics of it. I hope that's not the case.
    Mr. Johnson.
    Mr. Johnson. Well, Madam Chairman, we are very interested 
in prioritizing these grants to those areas of nonattainment. 
As you aptly point out, the San Joaquin Valley and Cleveland, 
Houston, Dallas/Fort Worth, are all areas that are in 
nonattainment that would greatly benefit by these kind of grant 
monies. Again, our first priority is to try to help in those 
nonattainment areas.
    Senator Feinstein. Well, I appreciate that, and I thank you 
for going on the record.
    Mr. Johnson. Thank you.
    Senator Feinstein. The next question--and I'll--this is my 
last one--is, this is just 30 percent, about $10.5 million 
would go to States in nonattainment areas. I would ask you to 
work with me on that and re-look at it, based on these 
nonattainment areas around the United States, and what the 
strictures are on them, and what options they have, and then 
perhaps tailor this money to the most needy.
    Mr. Johnson. Look forward to working with you.
    Senator Feinstein. Thank you very much, Mr. Johnson.
    Senator Craig.

                    CLEAN WATER STATE REVOLVING FUND

    Senator Craig. Administrator Johnson, I spent a little time 
in the San Joaquin on agricultural issues and labor issues. In 
just conversation with the agricultural community alone, I'm 
always amazed at the amount of money they are now committing to 
retrofitting and changing and trying to come into compliance. 
It is literally hundreds of millions of dollars annually. Of 
course, the Senator from California and I work on agricultural 
issues. We know that sometimes their profitability margins are, 
at best, marginal, and their input costs are phenomenal. This 
is an input cost in that valley that is--if it were in Idaho, 
based on our cropping patterns, it would shut our agriculture 
down. It would really be quite that simple. They could not 
afford what California is attempting to afford, at this time.
    Let me talk about Clean Water State Revolving Fund. We've 
all expressed our concern about it. You've heard the Senator 
from New Mexico and I talk about uniqueness's that we have, but 
also a standard that--you know, I can question the science of 
it. It--that hardly makes a headline anymore. The reality is, 
here, the standards have been accepted, and now everybody 
rushes to comply, or attempt to comply.
    Can you tell me how EPA intends to help rural and poor 
communities maintain sewage plants and mitigate nonpointsource 
pollutions, and face the reality of what they need to get done, 
with that kind of a proposed cut?
    Mr. Johnson. Well, Senator, we are committed, as an agency, 
to help each of the States, whether they be small water systems 
or large water systems, to comply. The Clean Water State 
Revolving Loan Fund, that the President has requested in 2008, 
is at a level that supports his commitment. It's his commitment 
to extend the coverage from 2004 to 2011. This year's request 
is $687.6 million, revolving at $3.4 billion. That's the money 
side of it.
    This year, the President is proposing a very innovative 
solution, and that is the use of private activity bonds. Of 
course, that will require a change in the internal tax code, 
which we would urge Members of Congress to pass. We continue to 
support full-cost pricing and other programs, including 
research and development. In part of the President's budget for 
2008, there are monies to help in infrastructure research and 
development. So, we think these, coupled with improvements in 
efficiency, will help move us to a sustainable infrastructure.

                         PRIVATE ACTIVITY BONDS

    Senator Craig. Steve, you mentioned private activity bonds. 
I'm on the board of a think tank out West called the Center for 
the New West. We've held a series of meetings across the West 
and in California about the realities of all of these water 
issues--sewage, waste, water quality, urban water in--the whole 
combination of things--along with Bureau of Reclamation and 
their responsibility. There's a very obvious bottom line out 
there; and that is, nobody should expect the Federal Government 
to pay for all of it.
    Mr. Johnson. Right.
    Senator Craig. At the same time, this standard is a Federal 
mandate, ``You will comply,'' period. It's not a local mandate. 
It's not a State mandate. It is a Federal mandate.
    Having said that, though, the world in which we live in 
today out West is not the world of 70 years ago, when we were 
developing the West; it is a pretty developed, sophisticated, 
and very wealthy area today, in most respects. But when it 
takes on some of these water projects that are just 
phenomenally expensive, it needs flexibility in doing so--a 
little Federal help, local help.
    Talk to us more about this tax-exempt idea. I assembled a 
group of Wall Street investors in San Diego, Madam Chairman, 
about 3 months ago, to have this kind of conversation with 
urban and municipal water managers and developers. The Federal 
Government really does need to move in this area. We ought to 
be sensitive to the values of it, because it is a great new way 
of finding resources that we simply cannot budget up to, if you 
will, at the Federal level.
    Beyond just talking about it, what do you plan to do about 
it? Is it going to be advocated by the administration? Is it 
going to be part of their proposal? Are they going to go before 
the Senate Finance Committee, try to accomplish something like 
this?
    Mr. Johnson. It is part of the President's 2008 budget 
request. We are advocating that the tax code be changed to 
remove the cap that's currently in the tax law. That would 
allow private activity bonds so that additional investments 
could be made.
    Some of the analysis that we've done would indicate that, 
with these private activity bonds, we would see investments 
literally in the billions of dollars that would otherwise not 
be available because of the current cap in the current law. 
Here's a great opportunity for us to help strengthen our 
infrastructure by an infusion of monies through private 
activity funds. Yes, the administration is very supportive.
    Senator Craig. There are also concepts, Madam Chairman, 
that we ought to look at that are scored differently, or it is 
believed they would be scored differently than private activity 
bonds so that they don't fit the kind of frustration that OMB 
has as it relates to the expansion of some of these types of 
things being, if you will, a liability factor involved. They 
really hinge on opportunity and tax--unique tax advantagements 
within--advantages within the investment community that don't 
push a Federal obligation.
    Thank you.
    Senator Feinstein. Thank you----
    Mr. Johnson. Madam Chairman, if I might just add, on March 
21 through March 23, we are having a summit on innovative 
financing. It's a summit that we've been working with, with the 
Western Governors.
    Senator Craig. That's good.
    Mr. Johnson. You're all welcome to come.
    Senator Feinstein. Thank you very much. Thank you.
    Senator Allard, you're next.

                         COST-BENEFIT ANALYSIS

    Senator Allard. Madam Chairman, thank you.
    I'm just curious, do you include a cost-benefit analysis 
when you're setting your new regulations, or when implementing 
new thresholds? If you are, are you applying that to certain 
specific groups of size communities?
    Mr. Johnson. The Executive Order No. 12866 requires that 
any economically significant regulation, which is defined as 
greater than $100 million impact, include a cost-benefit 
analysis. Now, having said that, there are certain restrictions 
that are inherent in legislation. For example, in establishing 
a National Ambient Air-Quality Standard, as Administrator, I am 
strictly forbidden by law to consider the costs associated with 
setting the health standard. Other laws, in some cases, 
specifically, require that a cost-benefit analysis be done, 
regardless of that threshold. So, understand that we have an 
executive order that requires cost-benefit analysis, laws 
sometimes require that we conduct it; in some cases, as I make 
a decision, I'm strictly prohibited from including that cost 
consideration in my decision. The National Ambient Air-Quality 
Standard is a prime example of the latter.

                          GOOD SAMARITAN BILL

    Senator Allard. I see. Now, one of the things that we're 
working on in Colorado--and it's a bipartisan effort, both 
Republicans and Democrats working on it--is a Good Samaritan 
bill----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. Which looks at abandoned mines 
and relieves the new owner of some liability if they move 
forward with cleanup of those particular mines. It's a 
particularly sensitive problem. We have these old abandoned 
mines that continue to discharge and cause water pollution 
problems, and yet nothing's done to clean them up. Until we can 
get that piece of legislation through the Congress, are you 
doing anything, administratively, in your--in the Environmental 
Protection Agency to move that forward so we can begin to get 
some of those abandoned cleaned? As you know, some of them 
are----
    Mr. Johnson. Well----
    Senator Allard [continuing]. Pretty toxic.
    Mr. Johnson. Our commitment is to do everything we can to 
address the estimated 500,000 abandoned--and that is the key 
word--abandoned hardrock mines. We----
    Senator Allard. That's throughout the country----
    Mr. Johnson. That's throughout the country, principally in 
the West.
    Senator Allard. That's a--sure.
    Mr. Johnson. Principally in the West.
    Senator Allard. Yeah.
    Mr. Johnson. We have put in place, through our 
administrative procedures, at least one agreement, with Trout 
Unlimited, to actually clean up a mine. It was very resource-
intensive. We believe that the best solution is legislation, as 
you have suggested. So, we would certainly urge Members of 
Congress to pass the Good Samaritan legislation. It makes sense 
to have groups who don't want to assume liability for an entire 
site, to go in and make a difference and help clean it up. So, 
we certainly are very supportive of Good Samaritan legislation.
    Senator Allard. It doesn't make sense, when they didn't 
cause the problem, to hold them----
    Mr. Johnson. That's exactly----
    Senator Allard. It doesn't make any sense----
    Mr. Johnson [continuing]. Right.
    Senator Allard [continuing]. At all. And----
    Mr. Johnson. It doesn't make any sense.
    Senator Allard [continuing]. And they're there for the full 
sole purpose of making that property better, you know----
    Mr. Johnson. Exactly.
    Senator Allard [continuing]. From an environmental 
perspective. So----
    Mr. Johnson. Good.
    Senator Allard. Okay.
    Madam Chairman, that concludes my questioning. Thank you. 
Or--Mr. Chairman.
    I'm sorry. I didn't see who was in charge around here.
    Senator Craig [presiding]. We're going to third reading 
right quickly.
    Let me turn to the Senator from New Mexico. Senator 
Domenici?
    Senator Domenici. Thank you. Thank you very much, Mr. 
Chairman. I will just take a minute. Thank you, Senator Allard.
    First of all, I wanted to ask, Do you--did you know Paul 
Gilman?
    Mr. Johnson. Yes. Yes. A great scientist, great colleague, 
and he served the agency and the Nation well. So, yes----
    Senator Domenici. I was----
    Mr. Johnson [continuing]. Sir, I did.
    Senator Domenici [continuing]. Going to tell you, that's--I 
figured you and some of your cohorts knew him, but I wanted to 
report that I heard from him the other day. They're up--he's 
working in a private laboratory, and he has--his twins are 
growing like asparagus sprouts, and Angela, my secretary of 
years, was his personal friend----
    Mr. Johnson. Yes.

                            ARSENIC STANDARD

    Senator Domenici [continuing]. He and his wife's, and they 
sent for her the other day. She went up to spend a long 
weekend. She was used to babysitting, so they sent her up to do 
something akin to that.
    Sir, I want to tell you, the problem of arsenic has not--
while it--you know, we continue to say it's just around the 
corner, and therefore, we think it isn't going to bite us. It's 
there, and it's terrible, and we haven't done much about it. 
But I appreciate your ever-consistent ear of concern for the 
very small facilities that are really not going to be able to 
put in this equipment for this new standard. You began 
enforcing the standard in 2006. The level from 50 parts per 
billion down to only 10 parts. My home State of New Mexico has 
high levels of natural-occurring arsenic in its volcanic soil, 
so that 20 percent of the State's municipalities will have to 
treat their drinking water to meet this standard, compared to 
only 5.5 percent of the municipalities nationwide. Of the New 
Mexico communities impacted by this requirement, 90.93 percent 
are small communities--most, well below the national median 
household income level--and yet, they face increased costs of 
water, exceeding $50 to $90 a month. When EPA promulgated these 
new rules in 2001, small-community variances were not allowed, 
because EPA claimed that the rule was affordable for small 
communities based on extraordinary cost thresholds of $1,000 
per family. I am pleased that EPA has agreed to consider 
revisions to the national level affordability and methodology 
for very small drinking water systems. However, the development 
of a new methodology by a lower affordability threshold by 
itself may not help poor communities in my State and some of 
the other States involved.
    Can you commit to me that the EPA will quickly perform this 
revision, and the revision will apply retroactively to arsenic 
standard?
    Mr. Johnson. Well, Senator, what I can commit to you is 
that we'll continue to aggressively work with the small 
communities in your State, and others, to help them achieve 
compliance with the arsenic standard. In the President's fiscal 
year 2008 budget, there's $1.8 million for continuing the 50 
demonstration projects, where we're looking at 15 cost-
effective technologies that would help small systems. One of 
the provisions in the Arsenic Rule is to allow States to 
monitor; some States have availed themselves of additional time 
for monitoring to help sort through things.
    In addition, we have been working with them through 
administrative orders to provide sufficient time to try to help 
them meet the standard. The good news is that, as we sit here 
today, approximately 50 percent of the systems have been able 
to comply with this new standard. The good news, 50 percent 
have; but we have work to do, and that's what we're committed 
to do to help.
    Senator Domenici. Well, listen, I would be remiss if I 
didn't tell you that we very much owe you a debt of gratitude 
for your concern and consideration, and you're doing everything 
humanly possible. When you go out there and find this little 
tiny system out in the boonies, you're not closing them down. 
It wouldn't accomplish a great deal, you know, in terms of real 
effectiveness. I included four or five other questions in my 
packet of questions for today.
    Mr. Johnson. Thank you.
    Senator Domenici. I would appreciate your--if you would 
answer them. Maybe, if we have to, we'll get you and our 
experts together soon.
    Mr. Johnson. Be happy to.
    Senator Domenici [continuing]. To talk about what we might 
do.
    Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Johnson. Thank you.
    Senator Craig. Pete, thank you very much. We've just been 
joined by Senator Reed. Please proceed, if you're ready.

                            CLEAN WATER ACT

    Senator Reed. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    The Rhode Island Department of Environmental Management 
recently sent my office a letter concerning a proposed EPA rule 
regarding the Clean Water Act, section 106 grant funding. The 
proposed rule would set aside a portion of State section 106 
funding to be distributed only to those States that generate 75 
to 100 percent of their NPDS program costs through user fees. 
The Clean Water Act does not require the use of fees to fund 
the NPDS program. So, what legal authority are you using to 
require the States effectively to impose fees in order to 
qualify for these monies?
    Mr. Johnson. Well, thank you, Senator. We believe that it's 
important that we invest in clean water. We believe that this 
section, 106 NPDS permit rule provides a financial incentive to 
utilize adequate fee programs. The comment period closed on 
March 5, 2007. We're reviewing those comments. We believe this 
proposal helps promote sustainable management of State and 
local services, and we look forward to reviewing the public 
comments as we make our final determination on this rule.
    Senator Reed. Thank you very much, Mr. Administrator. Let 
me point out that, for Rhode Island to meet these proposed 
levels to qualify, they would have to increase fees seven times 
their current levels, which would be extraordinarily 
disruptive. Also, the State of Rhode Island contributes their 
general-fund monies, their own monies, to help regulate and 
administer the NPDES program. So, I would appreciate you 
keeping me posted about the rulemaking that goes forward, and 
to take into consideration the burden that this would impose on 
my State. I'm sure I'm not alone.
    Mr. Johnson. Pleased to do so. Thank you, sir.

                        STAG PROGRAM--REDUCTIONS

    Senator Reed. Each year, EPA generates 50 or so new rules. 
They expect the States to make the changes, implement them, et 
cetera. It gets harder and harder to do that when the 
administration continues to propose significant cuts to the 
STAG program. How can we reconcile the ever-increasing burden, 
changes, et cetera, when there are decreasing monies--or at 
least proposed decreases in the STAG program?
    Mr. Johnson. We believe that the President's fiscal year 
2008 continues to deliver results while meeting a balanced 
budget. We continue to use the tax dollars to not only be good 
stewards in the environment, but good stewards of taxpayer 
dollars. We have an excellent working relationship with our 
States, and want to continue that. Certainly, we look for 
opportunities to leverage those tax dollars for the 
environment. Of course, Brownfields is an excellent example of 
that, as well as our actual enforcement program. So, certainly 
we are committed to working with our State partners to continue 
to improve and to use our resources wisely.

                          CLEAN WATER FUNDING

    Senator Reed. Well, let me ask a final question. It follows 
on, I think, a point that Senator Craig made with respect to 
rural communities. That's the proposed cuts in the budget for 
clean water funding. There's a national annual need of almost 
$20 billion, with the Federal share being close to about $5 
billion for public health and economic development with respect 
to clean water. The demand, I know, not only in rural 
communities, but also in urban areas, like Rhode Island, is 
increasing for these clean water projects. One, I think a more 
robust funding level would be in order. Two, perhaps better 
incentives for the smarter use of these dollars might be called 
for, too. Do you have a comment?
    Mr. Johnson. We think that there are a number of tools that 
we need to employ. One is the President's request for private 
activity bonds which requires a change in the tax code, which I 
certainly urge Members of Congress to do. We think that helps. 
Full-cost pricing helps. Another tool is a program that I 
launched recently, called WaterSense, which is modeled after 
Energy Star that would bring water efficiency labeling into 
products as a piece. We're--and, obviously, continue to support 
meeting the President's commitment for both clean water as well 
as drinking water, State Revolving Loan Funds.
    As I mentioned just briefly, we are hosting a conference, 
beginning on March 21 through the March 23. The title is 
``Paying for Sustainable Water Infrastructure: A Summit on 
Innovative Financing.'' We are looking at financing, and we're 
looking at policy. The last piece, which I didn't mention, is 
an investment in research and development, not only for small-
community water systems, dealing with issues such as arsenic, 
but infrastructure needs, in general. So, we think that all of 
these tools will help us move in the direction of a more 
sustainable infrastructure.
    Senator Reed. I think what's been happening is that we've 
been taking water--its prevalence and its accessibility and its 
affordability for granted. I think we're beginning to see 
that--you know, systems all across the country having more and 
more difficult problems, in terms of infrastructure. Up our 
way, it's age. We have water systems that are upwards of 100-
plus years old. But we have a big bill to pay. Our concern--my 
concern is that we're not putting the resources, either through 
appropriations or the tax system, to make it--to pay the bill, 
and do it in a smart way now.
    Thank you.
    Mr. Johnson. Thank you.
    Senator Reed. Thank you, Mr. Chairman.

                           ARSENIC STANDARDS

    Senator Craig. Thank you, Senator.
    We have a revolving chairmanship going on here which is 
fine, because other Senators are coming.
    Let me, in passing through to Senator Alexander, 
Administrator, ask this question, and then I'm going to leave.
    You've heard the whole conversation here. I understand 
policy sometimes can drive a variety of things to happen before 
it's feasible for them to happen. It can drive technology, it 
can do a variety of things. It is also something that is 
phenomenally intimidating to well-meaning people when they feel 
they are out of compliance and cannot get there, have no way of 
getting there without subjecting their clientele and--or their 
voter--to a cost that is just unrealistic. Do you think that 
setting arsenic standards at 10 parts per billion is affordable 
and feasible for a community of less than 1,000 people? Or 
should not, in doing that, there have been some kind of off-
ramp, with certain activities in mind, that they might follow 
over a course of time as technology catches up to us?
    Mr. Johnson. With regard to arsenic, or, for that matter, 
any chemical, we need to focus our decisions on: What is the 
level that provides sufficient health protection to our 
Nation's population, whether they're in a small community or a 
large community or wherever they might live? Of course, that's 
what was done for arsenic.
    Senator Craig. Ten parts per billion, you believe the 
science was amply there to make the decision that was made.
    Mr. Johnson. Yes, I do.
    Senator Craig. Ok.
    Mr. Johnson. So, then it becomes a matter of, if that is 
the health protective standard, then what are the steps that we 
can take to help communities achieve that, and achieve that in 
the most cost-effective way. That's what we're very actively 
working on, on arsenic, as well as other contaminants of 
concern across the United States.
    Senator Craig. Ok.
    Thank you very much. I'm going to have to leave, so I'll 
turn to the Senator from Tennessee, but I'll also turn him over 
the chairmanship.
    How's that?
    Senator Alexander [presiding]. This is a very----
    Senator Craig. I was granted----
    Senator Alexander [continuing]. Dangerous thing to do.
    Senator Craig. I was granted that authority by the 
chairman, so have at it.
    Senator Alexander. Thank you very----
    Senator Craig. Thank you both very much for being with us.
    Mr. Johnson. Thank you, sir.
    Senator Alexander. Thank you, Senator Craig. I thank the 
chairman for this.
    Administrator, welcome. I'm----
    Mr. Johnson. Thank you.

                       CLEAN AIR INTERSTATE RULE

    Senator Alexander [continuing]. Glad to have a chance to 
talk with you. I'd like to talk with you a little bit about the 
Clean Air Interstate Rule----
    Mr. Johnson. Yes.
    Senator Alexander [continuing]. A little bit about the 
success you've had over the last 15 years working on sulfur and 
nitrogen, and ask you about the future.
    Mr. Johnson. Yes.
    Senator Alexander. Let me start with the Clean Air 
Interstate Rule. My sense of the Clean Air Interstate Rule is 
that it--which is the rule that you've adopted, I guess, nearly 
2 years ago, to--in the EPA, to----
    Mr. Johnson. Yes.
    Senator Alexander [continuing]. To regulate the use of 
sulfur and nitrogen--the emission of sulfur----
    Mr. Johnson. Emission of sulfur dioxides----
    Senator Alexander [continuing]. And nitrogen----
    Mr. Johnson [continuing]. Yes.
    Senator Alexander [continuing]. Pollutants. How would you 
describe the acceptance of that rule by those who care about 
the environment in the United States?
    Mr. Johnson. Well, we're making great progress. There are 
28 States and the District of Columbia that are subject to the 
Clean Air Interstate Rule. Nineteen States and the District of 
Columbia are preparing full State implementation plans. Eight 
States are preparing abbreviated, and two States are adopting 
the Federal implementation plan. We're very pleased that there 
is good progress.
    Senator Alexander. Is it generally accepted--I know this is 
a generalization, but does it seem to be generally accepted 
that the--those are sufficiently strong rules to clean the air 
of sulfur and nitrogen over a period of time, or----
    Mr. Johnson. Well, as with any EPA regulation, we believe 
that they are not only sufficient, but appropriate for 
achieving significant health benefits. As with any regulation, 
there are those who believe that we have gone too far, and 
others who believe we haven't gone far enough. But at EPA, we 
believe the Clean Air Interstate Rule provides significant 
public-health benefits. When you combine that rule, plus the 
rules I have signed dealing with diesel, these are the most 
health-protective rules in the history of the Environmental 
Protection Agency, with the possible exception of getting lead 
out of gasoline. So, it's a----
    Senator Alexander. Well, that----
    Mr. Johnson [continuing]. Significant health benefit.
    Senator Alexander [continuing]. That's what I was getting 
around to. Let me take it one step further. Do you recommend 
that the rules that you've adopted, the Clean Air Interstate 
Rule and the standards you've set for sulfur and nitrogen, be 
adopted by law, codified in law?
    Mr. Johnson. We do, and, in fact, would urge Congress to 
push forward the President's Clear Skies legislation, for a 
number of reasons. First is that it codifies them in law. 
Second is that it makes it nationwide. Because of the 
limitations of the Clean Air Act and our use of Title I for the 
Clean Air Interstate Rule, we were limited in our ability to 
make it nationwide.
    Senator Alexander. Right. Just so I understand you 
accurately--so, you're suggesting that the--that, in essence, 
the Clean Air Interstate Rule be codified.
    Mr. Johnson. Yes.
    Senator Alexander. The standards that are there be 
standards in the law, so that there--so that people who care 
about the environment can see that that's permanent, and those 
who are in business and who are making plans can have certainty 
as they make these very large investments to rid the air of 
sulfur and nitrogen.
    Let me pick up on something you just said. I would----
    Mr. Johnson. Just to answer that, yes.
    Senator Alexander. Is yes to that. Well, I would--I would 
urge you to urge the administration to more strongly urge our 
Congress to codify the Clean Air Interstate Rule, and take 
credit for it. Because I agree with you, I think there are a 
number of actions this administration have taken which are 
strong environmental actions and strong conservation actions, 
and I think you should urge the Congress to adopt it, and take 
credit for it. Specifically, I've been a critic of the 
administration, and of other proposals, that haven't been 
strong enough on sulfur and nitrogen, because I live in a part 
of the country, the Great Smoky Mountains, which we have 
discussed--has a clean air problem. But I believe that the 
sulfur and the nitrogen provisions in the Clean Air Interstate 
Rule are sufficiently strong to address that problem, and that 
they ought to be codified.
    Second, I think you're exactly right that the low-sulfur 
diesel-fuel provision that the EPA stuck to, that was started 
under President Clinton, but it was implemented under President 
Bush. I think you deserve credit for that. As I look at my area 
of the country, the Great Smoky Mountains, we have--one of our 
truck stops there is the second-busiest big truck stop in the 
United States, and the low-sulfur diesel-fuel provision will 
make a big difference, in terms of the health of our citizens 
and the visibility of the Great Smoky Mountains.
    When I look at the fact that you are proposing the first 
regulations on mercury----
    Mr. Johnson. Yes.
    Senator Alexander [continuing]. I think you should take 
credit for that. Now, I would like to see them a little bit 
stronger, but the fact of the matter is, no one has proposed 
doing that before you did it. Last session, the Congress 
enacted legislation that extended drilling for oil and gas into 
the Gulf of Mexico, but it also took $1 out of $8 and put it 
into the State side of the Land and Water Conservation Fund, on 
a mandatory basis, as a conservation royalty. I know that's not 
under the EPA, but, to me, it's important as a conservation 
matter. I also like the fact, since I live next to the Great 
Smoky Mountains and not far from other areas, that the 
President has proposed a 10-year centennial initiative that 
basically gives all the--gives the national parks all the money 
they need----
    Mr. Johnson. Yes.
    Senator Alexander [continuing]. For the next 10 years, with 
a bold initiative to attract private money for that.
    So, I think this administration is greener than it gets 
credit for being, and I think, part of the reason, it doesn't 
take enough credit for itself. One thing I would like to see is 
stronger advocacy by the administration to codify the Clean Air 
Interstate Rule.
    I'd like--in doing that, I'd like to ask you a question 
about how it applies. My sense of the regulations over the last 
15 years on--well, let me put it this way, there's a lot of 
talk today about a cap-and-trade system, a market-based so-
called cap-and-trade system----
    Mr. Johnson. Yes.
    Senator Alexander [continuing]. For dealing with carbon.
    Mr. Johnson. Yes.

                         CAP-AND-TRADE PROGRAM

    Senator Alexander. Well, we've had a good deal of 
experience with that, starting in the early 1990s. How has that 
worked? How successful has it been?
    Mr. Johnson. Our cap-and-trade program has been very 
successful. It started with the Acid Rain Program----
    Senator Alexander. What year was that?
    Mr. Johnson. That was--Bill----
    Senator Alexander. First President--that was under the 
first President Bush, I believe.
    Mr. Johnson. Enacted in 1990----
    Senator Alexander. Yeah.
    Mr. Johnson. Our focus was, what is the level of 
environmental control that's needed? That is, that cap. There 
are a variety of ways to do trading: input allocations or 
output allocations. Our experience with the Acid Rain Program 
was input allocation. The Acid Rain Program showed significant 
progress. Our Clean Air Interstate Rule was modeled after the 
Acid Rain Program. The Montreal Protocol was a success, as 
well. We have a great deal of experience, and believe that it's 
a very effective way of controlling SO<INF>X</INF> and 
NO<INF>X</INF>.
    Senator Alexander. What's----
    Mr. Johnson. Since----
    Senator Alexander [continuing]. What has been the reduction 
of SO<INF>X</INF> and NO<INF>X</INF>, of sulfur and nitrogen--
--
    Mr. Johnson. Well, our----
    Senator Alexander [continuing]. Pollutants?
    Mr. Johnson [continuing]. Clean Air Interstate Rule will 
achieve approximately 70 percent reduction.
    Senator Alexander. Will. But what about the last 15 years?
    Mr. Johnson. Over the last 15 years, about 9 million tons.
    Senator Alexander. Is there a percentage----
    Mr. Johnson. That's----
    Senator Alexander [continuing]. That can be--from the level 
where we were in the early 1990s to the level where are today, 
what amount of reduction is--what percentage reduction is that?
    Mr. Johnson. Cut about in half.
    Senator Alexander. Cut about----
    Mr. Johnson. That's what----
    Senator Alexander [continuing]. In half?
    Mr. Johnson. Yes.
    Senator Alexander. Then----
    Mr. Johnson. Yes.
    Senator Alexander. Then, you'd go--so, if that's 50 
percent, you'd go on to 70 percent----
    Mr. Johnson. Seventy----
    Senator Alexander [continuing]. Reduction----
    Mr. Johnson [continuing]. Percent.
    Senator Alexander [continuing]. With the Clean Air 
Interstate----
    Mr. Johnson. That's correct.
    Senator Alexander [continuing]. Rule, if that were----
    Mr. Johnson. That's correct.
    Senator Alexander [continuing]. Codified or if it stayed a 
rule. If I may----
    Mr. Johnson. Oh----
    Senator Alexander. Go right ahead.
    Mr. Johnson. I was just going to say, if I might add just 
two interesting facts. When you look at the history of the 
United States over the past 35 years or 36 years ago, we've had 
a population increase of about 40 percent. We've had vehicle 
miles more than tripled, our GDP almost tripled, and yet, when 
you look at the air pollutants, they have come down 51 percent. 
So, it indicates a number of things to me. One is that economic 
development and environmental success go hand-in-hand. The 
other is that we're not finished yet. We're continuing to move 
down that path of accelerating environmental progress while 
maintaining our economic competitiveness.
    The last comment I just wanted to make on the issue of 
mercury is that, we are the first country in the world to 
regulate mercury from coal fired powerplants. It is a 
regulation now in place. I'm very proud of the fact that this 
was done under my watch, and under the President's watch. 
Another great example of commitment that the President has to 
improving the environment--at the same time, maintaining our 
economic competitiveness.

                          CAP-AND-TRADE SYSTEM

    Senator Alexander. Could you give me, in a follow-up note, 
an estimate of--or any comment that you might have now--about 
the cost of reducing the sulfur--SOx and NOx over the last 15 
years through this cap-and-trade system and its effect on our 
competitiveness. I know, at the time that it was proposed, 
there were a great many people who were afraid that the 
imposition of the cap-and-trade system and the regulations on 
sulfur would produce an--a burdensome cost on utilities and an 
excessive addition to the ratepayers. My impression is, that's 
not been the case, but I don't know the--I don't have the 
facts. Can you give me----
    Mr. Johnson. Be happy to respond to the record.
    [The information follows:]
      Impacts of Title IV of the Clean Air Act Amendments on U.S. 
                            Competitiveness
    When the Clean Air Act was being amended in 1990, EPA projected 
that the full cost of implementation of the S0<INF>2</INF> portion of 
the Acid Rain Program would be about $6.9 billion per year (in 2006 
dollars). In 2005, a study in the Journal of Environmental Management 
estimated annual costs of the Acid Rain Program in 2010 will be $3.5 
billion (in 2006 dollars) with the S0<INF>2</INF> program accounting 
for about $2.3 billion. This decreased overall cost has also lead to 
less impact on consumers and competitiveness in general. Generally 
retail electricity prices have remained at or below what they were in 
1994 before the program began (see figure 1 below). While this does not 
definitively show that prices would not have been even lower in the 
absence of the Title IV program, it at a minimum suggests that 
increases have not been significant. This is consistent with work that 
EIA has done on this subject. In 1997, EIA looked at the cost of 
compliance for six utilities and concluded, ``compliance has not caused 
electricity prices to increase at least for the six utilities examined 
in this report.'' While there have been increases in electricity prices 
since 2000, those prices are generally related to other factors such as 
increases in natural gas prices. Both EPA and EIA have looked into the 
issue of whether Title IV contributed to increases in natural gas 
prices and have concluded that it did not.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Johnson. From our analysis, the benefits significantly 
exceeded the costs associated not only with the Clean Air 
Interstate Rule of controlling SO<INF>X</INF> and 
NO<INF>X</INF>, but mercury. The same is true for our diesel 
rules, as well. We see a significant increase in public-health 
benefit for, you know, relatively minimal costs.
    Senator Alexander. Well, I----
    Mr. Johnson. But I'd be happy to provide that for the 
record.
    Senator Alexander. I would appreciate--and I understand the 
public-health benefit, but I'm just trying to get a rough idea 
of----
    Mr. Johnson. Sure.
    Senator Alexander [continuing]. What the--how much it added 
to the electric bill in order to take it down.
    Mr. Johnson. Yes.
    Senator Alexander. Now, if I could pursue, a little bit, 
your comment, the--when you impose this cap-and-trade system, 
as I understand it, you basically, 15 years ago, and you 
continue to do that, give a set of allowances, or you set 
limits on the amount of pollutant that can come out of a 
smokestack, and you say to a company: ``You can--here are 100 
units. You can pollute this much.'' That's--one way to do that 
is to look into history and say: ``Here's what you're doing 
today; and so, we're going to permit you to do this much this 
year, this much next year, this much this year, and your 
allowances go down.'' Another way to--that's called ``input,'' 
as I understand it.
    Mr. Johnson. That's correct.
    Senator Alexander. Another way to do that would have been 
an output system, where you look at some goal and say to 
someone emitting pollution, ``All right, here's your goal, and 
we'll spread these allowances around over the entire 
industry.'' Can you tell me why you chose the input system, or 
the historical system, for the cap-and-trade system that you 
imposed 15 years ago? What would be the effect on the utilities 
around the country if you were to make an abrupt change of that 
kind of an input allocation system to an output allocation 
system?
    Mr. Johnson. Well, I'd like to invite Bill Wehrum, who's 
the Acting Assistant Administrator Office of Air and Radiation, 
to come to the table and can give you a lot more specifics.
    Bill?
    Senator Alexander. Senator Nelson, I will wind up my 
comments in just a moment, and you'll become the chairman of 
the subcommittee.
    We have a--so--if that's all right.
    Senator Nelson. Quite a promotion, yes.
    Senator Alexander. So----
    Mr. Wehrum. Thank you, Senator Alexander.

                           ACID RAIN PROGRAM

    Senator Alexander. Yeah.
    Mr. Wehrum. Again, my name is Bill Wehrum. I'm the Acting 
Assistant Administrator for Air and Radiation.
    Going back to the Acid Rain Program, we used an input 
allocation system, because that's what the law required. We had 
to make a choice, when the Clean Air Interstate Rule was 
designed, as to whether to continue with that approach or to 
shift to a different approach, and an output basis was the 
choice that was available to us.
    Our judgment was that it was far better to be consistent 
with the Acid Rain Program, because we were trying to dovetail 
the Clean Air Interstate Rule into the existing obligations 
created by the Acid Rain Program, to have a seamless structure 
over time that would create predictability and consistency for 
the regulated community.
    Shifting from input allocation to output allocation could 
have significant financial impacts both to the benefit and to 
the detriment of companies. The number of allowances we 
allocate would not change, regardless of the system we use. 
What would change is how many allowances each particular 
regulated entity gets. So, if we were to shift from the current 
input basis to an output basis, many of the entities that are 
getting significant allowance allocations right now under the 
Acid Rain Program and the Clean Air Interstate Rule would no 
longer get those allocations, because they would be sent to 
other companies. So, the financial consequences for individual 
companies could be significant.
    Interestingly, in the aggregate----
    Senator Alexander. They would have to buy them from other 
companies, wouldn't they?
    Mr. Wehrum. That's exactly right. The primary advantage of 
using an input basis is, the allowances are allocated in a 
proportion to the amount of emissions, and they're proportioned 
such that the allowances don't cover the current level of 
emissions, and that's what provides incentive for emissions 
reduction to occur under the program. But the basic concept of 
the input approach is that we look at the level of emissions 
across the industry and then allocate proportional to the 
emissions that people have experienced in the recent past.
    Senator Alexander. What happens to the allowances when the 
standards come down a level as you move through 2009 and 2010?
    Mr. Wehrum. The number of allowances we allocate goes down 
in proportion to the step----
    Senator Alexander. So, the----
    Mr. Wehrum [continuing]. Reduction----
    Senator Alexander [continuing]. Allowances track the 
limits.
    Mr. Wehrum. That's exactly right. The Administrator made an 
excellent point, and I believe you're making an excellent 
point, which is, the amount of environmental control achieved 
under these cap-and-trade programs is dictated by where the cap 
is set and the total number of allowances that are distributed. 
If we have an economically efficient market system in place, 
which we believe we have, under the Acid Rain Program, and will 
have under CAIR, the allowance trading system gives regulated 
entities the ability to make financially efficient judgments as 
to where to install air-pollution controls, versus where they 
should buy allowances to cover the emissions that they make. 
So, that's one of the great values of Acid Rain, you get 
permanent significant reductions in emissions, but, at the same 
time, have an economically very efficient way of managing the 
emissions reductions.
    Senator Alexander. So, whether it's an input allowance 
system or an output allowance system, the clean air standard 
stays the same, the amount--the environmental standard stays 
the same. The issue is about----
    Mr. Wehrum. That's correct.
    Senator Alexander [continuing]. Who pays the bill----
    Mr. Wehrum. That's correct----
    Senator Alexander [continuing]. To reach that----
    Mr. Wehrum. [continuing]. Senator. That's exactly right.
    Senator Alexander [continuing]. To reach that standard.
    Mr. Wehrum. That's exactly right, Senator.
    Senator Alexander. Senator Nelson, do you have time for me 
to ask one more question, or are you----
    Senator Nelson. Sure, that's okay.

              CARBON CAPTURE AND STORAGE--ENERGY STRATEGY

    Senator Alexander. It'll be--if you'll--out of respect for 
his time, you'll give him--I want to explore, just for a 
moment, the carbon capture and storage that is so much talked 
about around here. All of us are interested in a coal-based--I 
say ``all of us''--many of--Senators are interested in a coal-
based solution to clean energy, for a variety of obvious 
reasons; and the limit on it is capturing the--and storing--the 
carbon. What's your opinion about the viability of capturing 
and storing large amount of CO<INF>2</INF> emissions from fuel-
based--fuel-fired powerplants? What resources would it take, if 
you don't have it now, to help you assess the implications of 
carbon capture and sequestration so it can be a viable strategy 
for our country in developing clean energy? That will be my 
last question.
    Mr. Johnson. Let me start off, and Bill can add to it.
    Certainly we, at EPA, want to help the President meet the 
energy security and clean energy goals that he has outlined, 
and certainly would encourage Congress to pass the legislation 
to, one, change the CAFE standard, provide Department of 
Transportation with the authority to make that change, and also 
the alternative fuel standard. As part of our overall energy 
strategy, we're working cooperatively with the Department of 
Energy on the issue of carbon sequestration, both in their 
focus on the technologies to be able to sequester the carbon 
and on our end, in particular, of what are the environmental 
safeguards that need to be put in place to make sure that it 
can not only be captured in a cost-efficient way, but also: 
What do we do with that carbon? We want to make sure that the 
environment isn't going to be harmed as we, if you will, inject 
the carbon, or whatever we end up doing with it. So, we're 
working very cooperatively with Department of Energy to address 
that.
    Bill, I don't know if you have any additional comments.
    Mr. Wehrum. Sure. Thank you, Mr. Administrator.
    EPA's role today primarily is focused on the sequestration 
piece of your question. My office, in conjunction with the 
Office of Water, were asked a question and made a determination 
as to whether the Underground Injection Control Program should 
be applied to those who want to get a permit for operating 
CO<INF>2</INF> and carbon sequestration wells. After careful 
consideration, we made a determination that, in fact, we do 
believe the Underground Injection Control Program should apply, 
and determined that, from now into the near future, these wells 
should be permitted under what's called Class 5, which is an 
experimental classification that allows case-by-case decisions 
to be made. We also understand, and believe, that there's a 
need for greater certainty in the long run. There are many, 
many people talking about doing carbon sequestration projects, 
on many scales and in various parts of the country and around 
the world, so we are already actively working on a new 
classification for carbon sequestration wells that would apply 
specifically to that type of well and have a set of 
requirements that's tailored to the particular needs of people 
who want to engage in that activity. So, we're spending a lot 
of time and effort on that issue right now. As the 
Administrator pointed out, we're working closely with the 
Department of Energy, and the DOE is focusing most of its 
attention and resources on the capture side of this question.
    In any event, we would be more than happy to respond, to 
the record, to particular questions you have on this topic.
    Senator Alexander. Thank you very much.
    Senator Nelson [presiding]. Thank you.
    Well, first of all, I want to thank the Administrator for 
coming before the committee this morning. And I appreciate your 
time.
    Mr. Johnson. Thank you.

                            OMAHA LEAD SITE

    Senator Nelson. I'd like to ask you a few questions about 
the lead cleanup project that EPA has been administering at the 
Omaha lead site for a number of years. As you know, EPA has 
completed soil cleanup at about half of the 5,600 household 
sites agreed to as a part of its interim action plan. While I'm 
obviously glad to see continued progress in addressing the soil 
remediation, I have concerns about the project as a whole. Does 
the EPA agree that education activities for homeowners, 
landowners, and tenants would be a vital part of the overall 
effort to limit toxic exposure of lead in children? I'm 
concerned, for example, that we're being foolish if we don't 
provide education on the dangers of the interior of the home as 
we physically address the exterior problems. For example, I 
know my constituents in Omaha have had a very difficult time 
securing funds for these activities. So, I'd like to know what 
they need to do to get adequate funding, since cleaning up the 
yard's one thing, being in a house, breathing toxic fumes with 
lead-based paint is another thing. Is it possible for EPA to 
coordinate with other agencies such as HUD, if that's what's 
necessary? What I need to have you tell me is: What can we do 
so that we're not cleaning up yards and leaving the interior of 
homes as toxic as they can possibly be? It just doesn't make a 
lot of sense to spend all the money to fix someone's yard and 
leave the homes as they are.
    Mr. Johnson. Well, Senator, we are committed to cleaning up 
the Omaha lead site. Putting that site in perspective, Love 
Canal was about 70 acres, and the Omaha lead site is 
approximately 9,000 acres. So, when we talk about the 
complexity of the Superfund sites today, versus yesterday, the 
Omaha lead site, unfortunately, is a prime example of the 
complexity. We're committed to, and we will continue to, clean 
up the yards there. As you point out, we've completed about 
2,800 yards.
    We are committed, across the Nation, to eliminate childhood 
lead poisoning, and we are in the process now of working on a 
final regulation, called the Renovation and Remodeling Rule, 
which focuses on the households that you are referring to. Just 
within the past couple of days, we released a new study that we 
had commissioned to help us better understand what are the safe 
practices for remediating lead in buildings, homes, and our 
commitment is to continue to work to that end, to have a final 
regulation in place that helps to eliminate childhood lead 
poisoning. It is a priority for us. We expect to finalize the 
rule by 2008. In fact, this is such a priority area that there 
is actually an increase in the President's 2008 budget request 
of $2.2 million to help us finalize and implement this rule.
    One last point, specifically for the Omaha lead site, we, 
too, share the concern about making sure that people are 
informed. In fact, last year, we provided $160,000 to the 
Douglas County Department of Health for outreach and education. 
We continue to believe that that's an important effort for 
outreach and education. We, too, believe that it's important 
for us to use those dollars wisely. Actually what we see from 
cleaning up these yards is that, indeed, blood lead levels are 
coming down. That's what our goal is. So, thank you.
    Senator Nelson. So, would part of the funding for the 
preparation/completion of the rule involve making people aware 
of it? In other words, education about the existence of the 
rule so that, if you've got remodeling and remediation underway 
of a building, that the contractor would be aware of what you 
do, or the homeowner would be aware of what you would do, if 
you want to do it yourself, within your own home--repainting, 
whatever----
    Mr. Johnson. That----
    Senator Nelson [continuing]. It may be?
    Mr. Johnson. That will certainly be part of the role of 
education and outreach, the appropriate methodologies for 
actually doing the lead abatement, as well as the test to make 
sure that, once you have cleaned and remediated, that you have 
addressed it? So, we're looking at a variety of ways to get the 
word out, but it is an important area for us, and a priority as 
part of this 2008 budget request.
    Senator Nelson. We appreciate what's being done. We looked 
at the budget, and your budget actually requests, for Superfund 
cleanup, almost 11 percent less than fiscal year 2006 funding 
levels. EPA has averaged soil cleanup of about 1,000 yards per 
year in 2005 and 2006 in Omaha. I guess my questions is, Can 
you commit to me that your fiscal year 2008 budget request 
provides enough funding to complete soil cleanup of at least 
1,000 more households in the Omaha lead site in fiscal year 
2008? Also, what date do you have scheduled for completion?
    Mr. Johnson. Certainly have my commitment that it is a 
priority, and remains a priority, to clean up the Omaha lead 
site. The precise number, let me ask Susan Bodine, the----
    Senator Nelson. She was nodding her head, so I assume she's 
got an answer.
    Ms. Bodine. Susan Bodine, Assistant Administrator for 
Office of Solid Waste and Emergency Response. Yes, the cleanup 
of the yards has been proceeding at a tremendous rate. With the 
2008 budget, that progress will continue at the same rate. As 
you know, ongoing work is being done under an interim ROD, and 
that the agency is working on a final ROD. That work is 
ongoing. So, because of that, I don't have a date for when the 
whole site will be cleaned up. But the yards are being cleaned 
up as quickly as they can, and that pace is going to continue.
    Senator Nelson. Well, are we looking at 3, 4, or 5 years, 
or do you have a ballpark number of what timeframe you might be 
looking at?
    Ms. Bodine. I'm going to have to get back to you, for the 
record, on that one.
    Senator Nelson. If you would, I would appreciate that.
    [The information follows:]
                         Timeframe for Cleanup
    EPA anticipates that the soil cleanup at the most highly 
contaminated residential properties on the Omaha lead site will be 
completed during the 2008 construction season. EPA plans to issue a 
final Record of Decision (ROD) in 2008 that will determine the scope of 
the final remedy and the time required for remedy implementation. 
Moreover, this schedule provides for continued cleanup work so that 
there should be no stop in work during the transition from the Interim 
to the Final ROD. Currently, EPA is performing ongoing work, including 
a treatability study and a final risk assessment that will support the 
final remedy selection.

    Mr. Johnson. A statistic that I do recall is that there may 
be as many as 16,000 yards that may need to be remediated. 
We're committed to work to turning this problem property into a 
community asset. I should also point out that, with regard to 
Superfund, the President's request is actually higher than last 
year's request and----
    Senator Nelson. Well, yes, but it's 11 percent less than--
--
    Mr. Johnson [continuing]. The response----
    Senator Nelson [continuing]. 2006.
    Mr. Johnson [continuing]. The response cleanup program. 
So----
    Senator Nelson. Well, obviously, at 1,000 a year, 16--I 
haven't decided whether I'm going to try to be around here that 
long. So, I would hope that maybe we could--I'm not suggesting 
it's easy to get done, and it takes a while to get the yards--
but I would hope that we might be able to move a little faster 
than 1,000, if it's going to take 16 years. That's going to 
challenge all of us, timewise. So, that is one of the reasons 
my concern is such about the funding for 2008.
    Mr. Johnson. Well, I think you point out, again, the 
greater complexity of the sites today compared to yesterday. 
Then, there's a variety of ways to look at that. I mentioned 
the acreage. As you're well aware, 9,000 acres, roughly 
speaking, for the Omaha lead site is a lot different than 70 
acres of Love Canal. We've done some analysis of remedies per 
site, and the remedies of the early days of Superfund were, you 
know, 1.7----
    Ms. Bodine. Yes, 1.7 to 1.8 per site.
    Mr. Johnson [continuing]. To 1.8. Today, they are over four 
remedies per site. So, we're still devoting the same amount of 
work and energy, but these sites are definitely more complex.

                 SUPERFUND CLEANUP--HASTINGS, NEBRASKA

    Senator Nelson. I have one other question. I just met with 
the mayor and a city council member from the city of Hastings, 
Nebraska, which has had significant issues with Superfund 
cleanup. On the billing, I guess this is an appropriations 
question as much as it is a substantive question--on the 
billing that I just saw, is it true that the EPA grosses up 
whatever the expenses is--are by 50 percent--adds 50.1 percent 
to whatever the--has indirect cost for direct cost and would be 
billing the city of Hastings 44,000 plus 22,000, with the 
half--the grossing-up, for the Department of Justice? I guess 
I'm a little confused about how appropriations and budgeting 
must work, if you're collecting money for the Department of 
Justice and grossing it up 50 percent to the--as charges to the 
city of Hastings. I just saw the billing. I wish I'd have 
brought a copy of it.
    Ms. Bodine. Yeah, we--I'd have to ask to look at the 
specific numbers and get back, for the record.
    [The information follows:]
                           Hastings, Nebraska
    As a Potentially Responsible Party (PRP), the community would be 
charged by EPA for its share of both direct and indirect costs. EPA's 
indirect cost rate is 50.69 percent, which is based on a methodology 
approved by the Government Accountability Office and upheld by the 
courts in several challenges.

    Ms. Bodine. However, under the Superfund program, EPA is 
spending taxpayer dollars and the Department of Justice is 
spending taxpayer dollars. When we have responsible parties at 
a site, we then take enforcement actions to make the taxpayer 
whole, and collect those funds. That includes not just direct 
costs, but also indirect costs, which are real costs. I mean, 
the costs associated with running the agency are real costs, 
and to the extent----
    Senator Nelson. Aren't those--excuse me--aren't those 
included within the appropriations that are sent back to the 
agency?
    Ms. Bodine. Then--yes, the funds are paid for by 
appropriations, and then we seek cost recovery. Those cost-
recovery funds go back into the trust fund----
    Senator Nelson. Well, I understand----
    Ms. Bodine [continuing]. And then----
    Senator Nelson [continuing]. That the direct costs would, 
but I guess I'm a little surprised that there would be indirect 
costs going back into the Superfund that--for the Department of 
Justice.
    Ms. Bodine. Well, the Department of Justice is also funded 
out of the Superfund.
    Mr. Johnson. Again, the general concept is, if we can 
identify a responsible party, we want to make sure that the 
polluter is paying. We----
    Senator Nelson. Well, this is the city of Hastings. I 
just----
    Mr. Johnson. Again, the way the Superfund law is, whether 
it be a city or another Federal agency or an individual 
business, it is the responsibility of the polluter to pay.
    Senator Nelson. There are some questions about whether the 
audit has to be done on site, with the grassed-in, fenced-in 
area, versus looking at the reports that are submitted--that 
are reviewed once they're looked at in Hastings--versus what 
could be submitted to Region 7 or to some other location. I 
think the costs--this is something I'd like to take up--not the 
whole committee, here, but I do have some serious questions 
about the significant bills that are being run up with direct 
and indirect costs that I think can--could otherwise be handled 
without as many personal visits and audits as are occurring, 
because much of the work is just simply reports that are 
reviewed on site in Hastings, that could be reviewed, either 
electronically submitted to the EPA--to try to cut down on some 
of the costs to the local community. They are taxpayers' 
dollars. These people aren't complaining. They asked me about 
it, and I'm complaining.
    Mr. Johnson. Be happy to work with you, sir.
    Senator Nelson. Okay. Thank you.
    Mr. Johnson. Thanks.
    Senator Nelson. I think that's--those are all the questions 
that I have.

                          SUBCOMMITTEE RECESS

    Thank you very much. The subcommittee will stand in recess 
to reconvene at 2:30 p.m., Wednesday, March 28 in room SD-124. 
At that time we will hear testimony from the Honorable Mark E. 
Rey, Under Secretary for Natural Resources and Environment, 
U.S. Department of Agriculture.
    [Whereupon, at 11:30 a.m., Tuesday, March 13, the 
subcommittee was recessed, to reconvene at 2:30 p.m., 
Wednesday, March 28.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                        TUESDAY, MARCH 20, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building. Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Reed, Nelson, Cochran, 
Domenici, Bennett, Craig, Allard, and Alexander.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. DIRK KEMPTHORNE, SECRETARY

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Good morning, ladies and gentlemen.
    Let me begin by welcoming our former colleague, Dirk 
Kempthorne, Mr. Secretary, welcome. We're pleased to have you 
with us, and we look forward to hearing your perspective on the 
2008 budget request.
    I also want to welcome Tom Weimer, the Assistant Secretary 
for Policy, Management, and Budget, and Pam Haze, the Director 
of the Department's Budget Office. We very much appreciate your 
being here as well.
    Mr. Secretary, in the 10 months that you've been at the 
Department of the Interior, I suspect you've come to appreciate 
that you have one of the most diverse and difficult jobs in 
Washington.
    The Interior Department and its 73,000 employees, are 
responsible for managing--among other things--more than 500 
million acres of land, operating 390 National Parks, 547 
National Wildlife Refuges, and providing educational 
opportunities to 46,000 Native American children through 184 
Bureau of Indian Affairs schools. As my granddaughter might 
say--that's a lot of stuff.
    Obviously, the centerpiece of the Department's 2008 budget 
is the National Parks Centennial Initiative. The discretionary 
side of this proposal would provide an additional $219 million 
for base operations at our National Parks. I know that 
additional rangers, guides, and maintenance workers funded 
through this initiative will be really, a welcome addition. I'm 
particularly pleased to see that our Western parks will finally 
get the extra attention that they deserve.
    I also want to commend you, Mr. Secretary, for putting a 
halt to the recent practice of not fully funding fixed costs. 
Over the past 6 years, the Department has absorbed more than 
$450 million in fixed costs that were not budgeted for. As you 
know, the fact of the matter is, these costs do not go 
unfunded. Instead, they end up being nothing more than back-
door cuts to programs and services.
    So, I very much applaud your efforts on this front, and I'm 
glad to see that all of the $214 million in fixed costs were 
provided for in your budget.
    Now, unfortunately, the laws of budgeting are a lot like 
the law of nature. For every funding increase in one part of 
the budget, there's going to be a decrease in another. It 
appears that this budget is no exception.
    For example, the land acquisition accounts, for Federal and 
State conservation projects have been cut $58.5 million--that's 
a 58 percent reduction from the current enacted level. The 
construction budgets for the National Park Service, the Fish 
and Wildlife Service, and the Bureau of Land Management have 
been cut $123 million--that's a 35 percent cut, and the 
construction budget for the Bureau of Indian Affairs has been 
cut by $74 million, that's a 27 percent reduction. Most of it 
comes from the K-12 School Construction Program.
    The Payments in Lieu of Taxes program, which both Senator 
Craig and I are very much interested in, known as PILT, has 
been cut by $42.5 million, another 18 percent reduction. The 
Indian Land Consolidation Program, which helps alleviate trust 
management problems caused by fractionated Indian lands has 
been cut by $24 million, or 71 percent.
    I'm concerned, Mr. Secretary, that some of these proposals 
really don't make sense, and I believe some of my colleagues on 
this subcommittee have similar concerns. So, we really look 
forward to hearing from you, and then being able to ask some 
questions.
    Now, let me now turn to my friend from Idaho, the ranking 
member of the committee, Senator Craig, for any opening remarks 
he may wish to make, and then--unless others have statements, 
we'll go directly to the witnesses.
    We have a vote at 11 a.m., and I'm hoping to conclude this 
hearing, if it's agreeable to everybody, by that time.
    Senator Allard. Madam Chairman, I do have a statement, I'd 
just like to make it a part of the record.
    Senator Feinstein. All right.
    Senator Allard. Then----
    Senator Feinstein. Directly following the ranking member.
    Senator Allard. Yeah, that's correct, yeah.
    Senator Feinstein. The order is early bird, so we've got 
that list, thank you.

                OPENING STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Well, Madam Chairman, thank you very much, 
for holding this hearing today on the budget for the Department 
of the Interior. It's also an extreme pleasure for me to have 
before us today, Boise's former mayor, one of my Senators, my 
Governor, and now our Secretary of the Interior, Dirk 
Kempthorne. Idaho is extremely proud, Secretary Kempthorne, to 
have you at the helm of the Department of the Interior and to 
be Idaho's second largest landlord. With that comes a local 
responsibility that I hope you won't forget.
    Having delivered that message----
    He wasn't your Governor.
    Senator Feinstein. It might be useful if he were.
    Senator Craig. But having said that, your Department 
administers over 570 million acres of land--that's roughly one-
fifth--of the land area of the United States. It's an extremely 
tough, and oftentimes controversial job, and I know that when 
our President chose you, I felt confident you would be able to 
handle it, and you're handling it very well.
    The total request for the Department is $9.7 billion, which 
is roughly $190 million less, or 2 percent below fiscal year 
2007's enacted level. Much of the decrease, the $130 million, 
is explained by the bulk of the abandoned mine lands programs 
shifted across from discretionary to mandatory--we understand 
that. The most significant aspect of the Interior budget, the 
chairman has already mentioned, the National Park Service 
Centennial Initiative, this proposal would add about $219 
million for operations to our National Parks, that would be the 
single-largest increase ever proposed by any administration.
    Part of the Centennial Initiative relies on authorizing 
legislation that would make available an additional $2 billion 
on a matching basis, over a 10-year period. I think Americans 
given an opportunity to work with our government, and share in 
that responsibility for the sustenance of our parks is going to 
contribute at that level. I think that breaks out at, what, 
$100 million a year to be matched, and that's going to be 
extremely important.
    The chairman has already mentioned PILT--as a former 
Governor working with county commissioners and local 
communities, I think, Mr. Secretary, you know all too well that 
over the last three decades, or more, as Americans have fallen 
in love with their public lands. Often times it's local units 
of government that have to pick up the cost. We see it go on 
day after day as a hiker is lost, or a mountain climber is 
lost--who picks up the bill? In the first instance, it's 
oftentimes, it's either local government, or it could be State 
government, if the National Guard is employed, and all of those 
kinds of resources are used, and to cut PILT doesn't make a lot 
of sense to me.
    Maybe it's OMB's way of looking at budgets and saying--as 
they often do--``Well, let's see, that's a program Congress 
really likes, so we know they'll fund it, so we can cut it.'' 
I've watched that go on year after year, I hope that isn't the 
case here, but it obviously appears to be the case, and that's 
frustrating.
    I also don't support the administration's decisions to 
eliminate the Range Improvement Fund of about $10 million. 
Ranching still remains a vital part of public land resource 
management, both in Idaho, and across the Western Range Lands, 
and I think this cut really shifts to States a responsibility 
that they can't be very good stewards of, simply because of the 
Federal responsibility, and so I think we have to take a look 
at that.
    Finally, we can also see from watching the nightly news 
over the last 2 weeks--the fire season has begun. Last year, a 
record season of 10 million acres of lands burned. That could 
well play out itself again this year. Moisture in our 
watersheds is at 50 to 60 percent of normal. We set a new heat 
record in Boise on Saturday--1 degree above a heat record in 
1952, so you know what's happening in the watersheds of Idaho--
snow is disappearing very, very rapidly, and as a result of 
that, the ability of the Forest Service, the BLM, the National 
Fire Center in Boise, to work cooperatively together will be, I 
suspect, stressed dramatically.
    Last, we've got a little problem that you've--by necessity, 
and I do not criticize it--had to recuse yourself of, and 
that's a little issue of wolves. At minimum count, there are 
now over 700 wolves roaming the hills of Idaho, and probably a 
considerable amount more. Wolves are showing up everywhere--
even in most of our small communities' backyards and 
neighborhoods.
    I have said, and said tragically, maybe we will get really 
excited about this when a life is taken--a human life. The 
wolves are marauding the back country, they're destroying our 
elk and our deer base, they're coming into our neighborhoods 
now, and taking dogs down, and cats--it is a problem that, I 
know, as Governor you started to deal with, I'm sorry that 
Secretary Scarlett is not with us today, I've been her kindest 
and loudest critic-friend on this issue, because this is an 
issue that deserves to be expedited.
    At the same time, I understand that those who love the 
wolves--but don't have to live with them--are probably going to 
sue us and take us through the walk, as we try to de-list the 
wolves for Idaho, and as we work on this issue to bring some 
balance, and allow our State Fish and Game Departments to once 
again, manage the wildlife in the public lands, instead of to 
allow Judges and the Endangered Species Act to do that.
    So, I know you're moving ahead on that, you have a friend 
in that issue, you also will have somebody who will be right 
behind you pushing, to make sure it happens as quickly as it 
possibly can.
    Thanks for being with us, it's great to see you again, Mr. 
Secretary.
    Thank you, Madam Chairman.
    Senator Feinstein. All right, thank you very much, Senator 
Craig. The order is, Senator Alexander, Allard, Cochran and 
Nelson.
    Senator Alexander.
    Senator Alexander. Thank you, Madam.
    Senator Feinstein. If you have a comment, otherwise we'll--
--
    Senator Alexander. No, I'd like to hear the testimony, and 
then I'll come----
    Senator Feinstein. All right, thank you, Senator Alexander. 
Excuse me, Senator Allard.
    Senator Allard. Madam Chairman, I just have my comments I'd 
like to have inserted in the record.
    Senator Feinstein. Thank you, so ordered.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Madam Chairman, thank you for holding this hearing today. I am 
pleased to have a chance to discuss the projected budget for the 
Department of Interior. I would like to welcome Secretary Kempthorne to 
his first appearance before this Committee. This is at least his first 
appearance on that side of the dias.
    The Secretary states in his testimony that his department manages 
one in every five acres of land in this country, and the bulk of that 
land is in the West, so as a western Senator the budget for the 
Department of Interior is very important to me. There are many issues 
difficult issues that face the agencies under your purview. I won't 
address all of them, but I would like to touch on a few.
    First, one of the biggest problems that public land is facing right 
now in my state of Colorado is the bark beetle. I know that this is a 
problem that also exists in the home states of the Chair and Ranking 
Member, as possibly other members of this subcommittee. The state, 
quite simply, has become a danger zone with beetle infected areas 
growing larger and larger all the time. We have to get a handle on 
these insects before they ensure that the entirety of our forests is 
wiped out. This is of gravest concern when we consider that, as a 
headwaters state, the condition of Colorado's waters have the potential 
to be severely impacted by the continued degradation of our forests. 
This will mean a great deal to our neighboring states that receive 
water that flows out of Colorado.
    I would also like to touch briefly on the Endangered Species Act. 
As you are well aware there are a number of proposals before Congress 
to reform this Act and discussions on this issue will likely be 
ongoing. I firmly believe the best way to prevent extinction in species 
is not to place them on a list, but to work proactively up front to 
ensure that they never need to be listed. That said, compliance with 
the ESA costs landowners a great deal of money and time every year. The 
federal government needs to do more to help landowners comply with the 
ESA instead of simply forcing more mandates down their throats. I 
appreciate the work that the Department has done to this end thus far 
and look forward to hearing more about how the Department plans to 
continue these efforts.
    It is my understanding that Landsat 8 is a project being worked on 
jointly by USGS and NASA. It is also my understanding that Landsat 5 
and 7 have thermal infrared (TIR) sensing capability. This capability 
is very important to the state of Colorado. The state is using this 
technology to ensure it meets its interstate compact obligations on the 
Arkansas River. Other uses for this technology include surface and 
ground water management, interstate water use agreements, and dealing 
with drought and wildfire, and other emergency management and military 
applications.
    In this year's budget request USGS has requested funds to develop 
the land-based Landsat control system, to collect and disseminate the 
data, but no funds for the satellite or thermal sensor. NASA has not 
requested the funds for the thermal sensor either and I will have a 
question on this during that portion of this hearing.
    Finally I was interested to note in your testimony the request for 
Safe Indian Communities Initiative to combat methamphetamine--or meth--
in tribal communities. As you may be aware, earlier this year the 
Colorado Methamphetamine Task Force report cited Denver as a major 
distribution center for meth in the United States. This led me to 
introduce the Methamphetamine Trafficking Enforcement Act of 2007 to 
help curb the trafficking of meth both within and across the Nation's 
borders. This problem is one that will not be solved without many 
people coming at it from many different directions and I am pleased to 
see that the Department is working to curb the meth problem in Indian 
Country.
    I think that we are all aware that this is going to be another 
tough budget year. That is why hearings such as this one are so 
important. So I look forward to working with you, and the rest of the 
Committee, again this year, Madam Chairman, to see that worthy projects 
and programs continue to be funded in a responsible manner.

    Senator Feinstein. Senator Cochran. Thank you.
    Senator Cochran. I'll submit a statement for the record.
    Senator Feinstein. Thank you very much.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Madam Chairman, I am pleased to join you in welcoming my friend, 
Secretary Dirk Kempthorne to the committee this morning. Mr. Secretary, 
as you know, Mississippi is still suffering the effects of Hurricanes 
Katrina and Rita. I want to thank you and your staff for helping with 
the recovery of the Gulf Coastregion. A year and half later, we are 
still working to restore our coast and coastal islands, as well as the 
schools, homes, and businesses, and transportation resources that were 
devastated by these horrible hurricanes.
    The Department of the Interior's budget is of great interest to me 
and the people of Mississippi. The National Parks and Wildlife Refuges 
in Mississippi receive thousands of visitors every year, and I am 
pleased to see that the fiscal year 2008 budget focuses on the 
importance of maintaining and protecting our natural treasures. I am 
interested in the new National Parks Centennial Challenge being 
proposed by the Department, and I am hopeful that Mississippi's Natchez 
Trace Parkway and the Gulf Islands National Seashore will have the 
opportunity to benefit from this initiative.
    Mr. Secretary, we appreciate your outstanding public service, and I 
look forward to hearing your testimony.

    Senator Feinstein. Senator Nelson.
    Senator Nelson. I may submit a statement for the record as 
well, thank you.
    Senator Feinstein. Thank you very much.
    Secretary Kempthorne, welcome.

                  SUMMARY STATEMENT OF DIRK KEMPTHORNE

    Secretary Kempthorne. Thank you.
    Chairman Feinstein, thank you very much for your opening 
statement, for the courtesy and the professionalism by which 
you conduct these hearings.
    Senator Craig, thank you for your comments, as well. To all 
members, the distinguished members of this committee, it's a 
great pleasure to be before you.
    As I looked at the membership of this committee, I had the 
honor of serving with 15 of the 17 sitting members of this 
committee, and those I did not, our gubernatorial routes 
intersected, so I appreciate this opportunity.
    I'm pleased to present our 2008 Budget Request for the 
Department of the Interior to this committee. In undertaking 
this task, I committed to ensure that the Department of the 
Interior and its agencies would maintain high levels of service 
to the American people, and reach even higher levels of 
excellence.
    I look forward to working with you, Chairman Feinstein, and 
other members of the subcommittee to achieve this goal, as we 
move forward in the budget process.
    I thank you for your efforts for securing a final 2007 
budget, after three continuing resolutions, and I appreciate 
the extra steps that you took to provide us a portion of the 
2007 pay costs, and funding increases for some of our most 
important programs. We have developed our operating plans for 
2007, and they have been submitted to you.

                          2008 BUDGET REQUEST

    The President's overall 2008 budget request for the 
Department of the Interior is $10.7 billion. This subcommittee 
has oversight responsibilities for most of our Department, 
excluding the Bureau of Reclamation and Central Utah Project. 
So, the 2008 budget for programs under the jurisdiction of this 
subcommittee, as you note, Senator Craig, is $9.7 billion.

                              FIXED COSTS

    Within this request, our budget includes an increase of 
$214 million to fully cover the fixed costs of the entire 
Department. Madam Chairman, I appreciate what you said about 
this, and the significance of the fixed costs. This was 
critical to the well-being of the Department. The success of 
our programs depends on the skills and the dedication of our 
73,000 employees.
    My formal testimony outlines many specific features of our 
budget. This morning, I'd like to focus on four initiatives--
our National Park Centennial Challenge, our Healthy Lands 
Initiative, our Safe Indian Communities, and our Improving 
Indian Education initiative.

                   NATIONAL PARK CENTENNIAL CHALLENGE

    Our first initiative, the National Park Centennial 
Challenge, will foster a decade-long partnership with the 
American people to renew and to revitalize our National Parks 
system for its 100th anniversary in the year 2016. To 
inaugurate this effort, we propose a record $2.4 billion budget 
for the National Park Service. This amount includes $2.1 
billion for park operations, $219 million above the 2007 
enacted level.
    As part of the Park operating budget, we propose a 
Centennial Commitment of $100 million, to upgrade both our park 
infrastructure and the experiences of people visiting our 
parks. This funding will allow us to hire 3,000 more seasonal 
National Park rangers, guides, and maintenance workers. It will 
enable us to repair buildings, to improve landscapes, and 
enroll more children in the Junior Ranger Program.
    We believe our Centennial Challenge will inspire another 
generation of Americans to walk along the Appalachian Trail, to 
climb Mt. Rainier and marvel at the vibrant marine life at Dry 
Tortugas. Linking children to nature will help keep them 
physically fit, so that they can fully enjoy the world around 
them. It will also lay the foundation for this next century of 
conservation.
    We're also requesting $100 million in mandatory spending 
under the Centennial Challenge, to match contributions for 
signature sites and projects. We anticipate that with this 
incentive, Americans will provide $100 million in contributions 
for projects that will improve our parks, and open the way for 
better visitor experiences.
    Our budget request anticipates that Centennial Challenge 
funding will continue at this level for the next 10 years, 
providing at least an additional $3 billion over the next 
decade to support our parks.
    I look forward to joining with all Americans, in the 
historic celebration of our national parks in the year 2016.

                        HEALTHY LANDS INITIATIVE

    Our second initiative, the Healthy Lands Initiative, will 
restore nearly half a million acres of Federal land in six 
targeted areas of the West through cooperative conservation. 
These six areas face growing challenges in maintaining wildlife 
habitat, while providing opportunities for energy production, 
recreation, and other uses.
    We have requested $22 million to partner with local 
communities and companies, and conservation groups, to 
rehabilitate and protect working landscapes. We anticipate our 
partners will provide an additional $10 million, in voluntary 
contributions. Using these funds, we will transform land 
management from the current parcel by parcel approach, to 
landscape-scale management. Through our Healthy Lands 
Initiative, we will preserve habitat corridors and sites that 
benefit species such as sage grouse and pronghorn antelope.

                        SAFE INDIAN COMMUNITIES

    Our final two initiatives will help ensure a brighter 
future in Indian country, especially for Native American 
children. A scourge of methamphetamine has devastated 
communities and families across our country in recent years, 
but few places have seen more devastation than Indian country. 
Tribal leaders I've met with describe a methamphetamine crisis, 
with a potential to destroy an entire generation, if left 
unattended. They call this the second small pox epidemic.
    One of the challenges we face, is lack of adequate law 
enforcement on many tribal lands. As a result, organized crime 
and drug cartels have targeted Indian reservations as a hub for 
the distribution and the transportation of methamphetamine. 
We're requesting $16 million in new investments for a Safe 
Indian Communities Initiative to empower tribes to shut down 
these peddlers of poison. With these funds, we will help tribes 
hire additional officers, and provide specialized drug 
enforcement training that they need to protect their 
communities.
    For example, our budget will increase the number of 
officers that are certified drug enforcement activity officers 
from 11, currently, to 111--a 10-fold increase.

                       IMPROVING INDIAN EDUCATION

    This is more than a budget issue--it's a moral issue. We 
must end this scourge. It's not enough to protect Indian 
children, however, we must also provide them a brighter future 
through better educational opportunities. We're requesting $15 
million in new funding, under our Improving Indian Education 
Initiative, to do just that. Using this funding, we will 
provide educational program enhancements and tools for lower-
performing schools, in the school system which, Madam Chairman, 
you have identified.

                           PREPARED STATEMENT

    Every child in America deserves a safe environment. Every 
child in America deserves a chance to succeed. Our initiatives 
will help Indian country achieve these goals.
    Madam Chairman, I'd be pleased to respond to the questions 
which members of the committee would have, concerning the 
budget.
    [The statement follows:]
                 Prepared Statement of Dirk Kempthorne
    It is a pleasure to appear before you today to discuss the 
President's fiscal year 2008 budget for the Department of the Interior. 
This is my first appearance before this subcommittee. During my time in 
the Senate, I had the pleasure of serving with fifteen of the current 
members of this subcommittee. I hope to work with all of you as we 
chart the future course for what I consider to be one of the most 
interesting and important cabinet agencies: the Department of the 
Interior.
    Since becoming Secretary, I have traveled extensively in order to 
see Interior at work and to talk with Interior employees. I have 
addressed thousands of Interior employees. I have been impressed by the 
dedication and experience of the talented and dedicated Interior 
workforce. Every day, a Bureau of Indian Education teacher, a park 
ranger, a biologist, geologist, naturalist, or land manager is making a 
difference to help Interior fulfill its responsibilities.
    Developing a budget for the Department of the Interior is an 
extraordinary exercise. We have an extensive mandate that rivals just 
about any governmental agency in its breadth and diversity--and its 
importance to the everyday lives of our citizens. Our 73,000 employees 
live and work in communities across America and its territories. We 
have 2,400 field offices. We manage 145,000 assets--second only to the 
Department of Defense. Our work stretches from pole to pole, from 
wildlife refuges in the Arctic to scientific research at the South 
Pole.
    Managing one in every five acres in the United States, we oversee 
land and resources that stretch across 12 time zones from the Caribbean 
to the Pacific Rim. The sun literally never sets on the Department of 
the Interior. We have the third largest contingent of Federal law 
enforcement officers, with 3,400 officers and agents. Interior-managed 
lands and water generate one-third of the Nation's domestic energy 
supply. The Department serves American Indians, including 561 federally 
recognized Tribes, Alaska Natives, and our Nation's affiliated island 
communities. We undertake research and provide information to 
understand the Earth and to assist us in the management of the Nation's 
water, biological and mineral resources, and monitor all manner of 
natural hazards including volcanoes, earthquakes, and landslides. We 
also work with States to restore abandoned mine land sites and protect 
communities.
    Our overall 2008 request for the Department of the Interior is 
$10.7 billion. Included within that is $9.7 billion for programs that 
this subcommittee oversees. Taking into account the shift of funding 
for the Abandoned Mine Land program from discretionary to mandatory, 
the budget is $35.4 million below the 2007 Joint Resolution, enacted on 
February 15, 2007.
    The 2008 budget was carefully crafted within the President's 
commitment to continue to fund the nation's highest priorities while 
eliminating the deficit in five years. The administration is on track 
to achieve this goal.
    At the heart of our budget are four major initiatives:
  --The National Parks Centennial Initiative to enhance National Parks 
        as we approach their 100th anniversary in 2016;
  --The Healthy Lands Initiative, which will allow access to public 
        lands for a number of uses and provide for energy for the 
        nation while also protecting critical lands and habitat;
  --The Safe Indian Communities Initiative to combat the 
        methamphetamine crisis on Indian lands; and
  --The Improving Indian Education Initiative that will enable Indian 
        children to grow up in an environment that allows them to 
        achieve their dreams.
                the national parks centennial initiative
    The President's 2008 parks budget totals a historic $2.4 billion. 
The park operating budget, at $2.1 billion, the largest budget for park 
operations ever, an increase of $219 million over the level funded in 
the Joint Resolution. This is $258.3 million over the 2006 level.
    Last August, in honor of the 90th Anniversary of the National Park 
Service, and with an eye on the upcoming centennial in 2016, President 
Bush directed me to establish specific performance goals to help 
prepare the national parks for another century of conservation, 
preservation and enjoyment. In addition, the President asked that I 
identify signature projects and programs consistent with these goals 
and that continue the NPS legacy of leveraging philanthropic, 
partnership, and government investments for the benefit of the national 
parks and their visitors.
    The President's budget for fiscal year 2008 sets the stage for the 
next 100 years of our national parks. It includes the National Parks 
Centennial Initiative, one of my highest priorities. This Initiative 
proposes up to $3 billion in new funds for the national park system 
over the next ten years.
    Within our operating budget increase, we propose a $100 million 
Centennial Commitment over 10 years, for a total of $1 billion 
dedicated to park operations. Our Centennial Initiative will also 
inspire philanthropic organizations and partners to donate $100 million 
per year over 10 years to the National Park Service. The Centennial 
Challenge Federal Fund will match all private donations up to an amount 
of $100 million. These Federal mandatory matching funds and 
philanthropic contributions, together with the $100 million annual 
Centennial Commitment in discretionary funds for park operations, would 
infuse up to $3 billion into the park system over the next decade.
    During the last five years, the NPS has built a strong foundation 
of improving parks, with more than 6,600 park improvements completed or 
underway. The Centennial Initiative funds are in addition to the nearly 
$1 billion in the President's budget for National Park maintenance and 
construction programs. The proposed fiscal year 2008 budget will 
further improve our national parks during the next decade leading up to 
the 2016 centennial celebration.
    The 2008 budget and the National Parks Centennial Initiative 
emphasize three key goals:
  --To engage all Americans in preserving our heritage, history and 
        natural resources through philanthropy and partnerships, with a 
        special emphasis on linking children to nature. An increase of 
        $100 million is proposed for these programs, plus another $100 
        million in mandatory funds to match donations.
  --To reconnect people with their parks through enhanced technology 
        and the seamless network of the trails system.
  --To build capacity for critical park operations to sustain these 
        efforts over the next century.
    Our Centennial Challenge offers an outstanding opportunity to 
engage this Nation's youth with the outdoors. Our initiative will link 
children with nature through an expanded Junior Ranger program, 
increased visitor services, an improved trail system, and relevant 
interpretive programs for our young people. The Parks Centennial will 
help ensure that our parks offer improved physical activity, play and 
recreation, and opportunities for learning and social interaction.
    Each year, the NPS welcomes more than 270 million visitors as they 
discover America the beautiful, the historical, the cultural. Our 
national parks preserve majestic natural wonders. They keep watch over 
battlefields hallowed by red badges of courage. They keep culture alive 
at sites dedicated to the performing arts, poetry, and music. Parks 
offer recreation and discovery through spectacular backcountry hiking 
and climbing. They honor great leaders like Thomas Jefferson, Abraham 
Lincoln, Frederick Douglass, Chief Joseph, John Muir, Eleanor Roosevelt 
and Martin Luther King, Jr. As havens of enjoyment, recreation, 
learning and personal renewal, national parks must endure. Our budget 
sets the stage for a new century of park excellence.
                        healthy lands initiative
    Another priority for me is my Healthy Lands Initiative, which will 
ensure continued access to public lands for traditional uses and 
recreation, while maintaining strong environmental protections for 
wildlife and habitat. This Initiative builds on the Department's strong 
track record in cooperative conservation to undertake landscape-scale 
conservation efforts and focus on the needs of species that cross 
jurisdictional boundaries.
    As activities on public land increase, we are seeing growing 
conflicts among recreation users, energy developers, hunters, ranchers, 
and others all competing to protect, access, and use these public 
lands. BLM will join with the U.S. Geological Survey and the Fish and 
Wildlife Service to identify, restore, and mitigate the potential 
impacts of increased energy production in wildlife-energy interface 
areas and potentially prevent the listing of certain species such as 
sage grouse.
    The potential listing of sage grouse as an endangered species could 
severely constrain public land use, particularly for current and future 
energy production. The habitat of the sage grouse covers over 100 
million acres. Our Healthy Lands Initiative of $22.0 million will 
implement a strategic vision to protect and restore sage grouse 
habitat, maintain migratory corridors for other species, and assure 
continued access to energy. These investments will support new land use 
planning techniques and new policy tools that will complement current 
activities and enable us to work with non-Federal partners to restore 
and conserve habitat and maintain access for energy and other uses.
    Focused on six strategic areas, these funds will transform land 
management from the current parcel by parcel approach to landscape-
scale decision making, drawing upon partnerships and new policy tools 
to help BLM provide increased access for energy and other uses, while 
simultaneously preserving important habitat corridors and sites for the 
benefit of species. In 2008, including this increase, over 400,000 
acres will be restored in partnership with Federal leaseholders, 
private landowners, state, local, and tribal governments--to benefit 
wildlife. The Healthy Lands Initiative includes $15.0 million for BLM 
to conduct landscape-scale conservation, $2.0 million for FWS, and $5.0 
million for USGS.
              the methamphetamine crisis in indian country
    I would like to highlight two other 2008 priorities, our Safe 
Indian Countries and Indian Education Initiatives. While I recognize 
that the Senate Indian Affairs Committee has jurisdiction over these 
matters, I also know many of you represent States and Tribes that are 
struggling with the impacts associated with methamphetamine.
    Methamphetamine is a highly addictive synthetic stimulant that 
creates intense euphoric highs for periods up to 24 hours. It is 
inexpensive and, unfortunately, has rapidly become the drug of choice 
for an increasing number of Americans. Organized drug cartels have 
targeted reservations to establish methamphetamine operations.
    The President of the National Congress of American Indians has 
stated, ``Meth is killing our children, affecting our cultures and 
ravaging our communities.'' Many tribal leaders have told us 
methamphetamine is destroying lives in Indian country. Some leaders 
believe that on their reservations a whole generation of young people 
may soon be lost to this one drug.
    The social effects of methamphetamine use are tragic. Addicted 
mothers are giving birth to drug-addicted babies. The drug is fueling 
homicides, aggravated assaults, rape, child abuse, and other violent 
crimes. Violent crime in Indian Country is reaching crises levels at 
twice the national average.
    Our budget includes $16 million for a Safe Indian Communities 
initiative that reconfigures and tailors our focus to combat organized 
crime, break up drug trafficking, and interrupt the drug supply.
                       improving indian education
    Improving Indian education is also a priority. One of only two 
school systems operated by the Federal government, the Bureau of Indian 
Education should oversee schools that are models of performance for the 
No Child Left Behind Act. Yet only 30 percent of the schools in the 
Bureau of Indian Education system are meeting NCLB goals.
    In recent years, we have improved school facilities by replacing 32 
schools and renovating another 39 schools. It is now time to focus on 
the classroom. Our 2008 budget proposes to invest $15.0 million to 
improve the performance of students in Indian schools. Additional 
funding will provide educational program enhancements and tools for 
lower performing schools and educational specialists to guide Indian 
schools in achieving academic success. The request also provides 
additional funding for transportation to reduce the redirection of 
education dollars to pay for buses and fuel.
                  supporting the department's mission
    The 2008 budget aligns resources to achieve these and other high-
priority goals guided by the Department's integrated strategic plan. 
Recently revised for 2007-2012, the Department's strategic plan links 
the Departments diverse activities into four common mission areas: 
Resource Protection, Resource Use, Recreation, and Serving Communities. 
A fifth area, Management Excellence, provides the framework for 
improved business practices, processes, and tools and a highly skilled 
and trained workforce.
    Using our strategic plan as the blueprint for improved performance 
and accountability, since 2001, the Department has:
  --Increased access to meet the Nation's energy needs and enhanced 
        energy security by more than doubling the approval of 
        applications for permits to drill; provided greater 
        opportunities for development of alternative energy, including 
        wind energy; advanced oil shale and methane hydrates for 
        potential future domestic use; and significantly expanded 
        environmental protections with inspection and monitoring 
        programs.
  --Collected $56.4 billion in revenues from offshore and onshore 
        mineral leases that provided income for Indian communities, 
        funded State infrastructure, and helped to finance Federal 
        programs.
  --Expanded relationships with partners to restore, improve, and 
        protect three million acres of wetlands and other habitat for 
        migratory birds, anadromous fish, and threatened and endangered 
        species.
  --Reduced risks to communities from the threat of fire, conducting 
        over 6.7 million acres of fuels treatments through the 
        President's Healthy Forests Initiative.
  --Improved park facilities for visitors by undertaking more than 
        6,600 projects at national parks and earned a 95 percent 
        satisfaction rate from park visitors.
  --Completed condition assessments and performance measures for all 
        park facilities and nearly all Interior facilities.
  --Improved the educational environment for Indian children by funding 
        32 new Bureau of Indian Education replacement schools and 39 
        major school repair projects.
    Looking to the future, the Department of the Interior is committed 
to achieving the goals of our four initiatives and other priorities. 
Our budget will:
  --Prepare the national park system for another century of 
        conservation, preservation and enjoyment through the 
        President's National Park Centennial Initiative.
  --Encourage increased donations for signature projects and programs 
        in our national parks with up to $100.0 million a year in 
        matching funds through the National Parks Centennial Challenge.
  --Increase energy security for the Nation through a new Outer 
        Continental Shelf five-year plan (2007-2012).
  --Launch a Healthy Lands Initiative to help meet the Nation's needs 
        for access to public lands for energy and other uses while 
        protecting wildlife and habitat in the West.
  --Leverage Federal funds through partnerships and cooperative 
        conservation to restore 800,000 acres and 734 stream/shoreline 
        miles. These efforts will support the President's government-
        wide goal of increasing the Nation's wetlands by three million 
        acres by 2009.
  --Improve educational programs and meet the requirements of the No 
        Child Left Behind Act by completing educational reforms in the 
        Bureau of Indian Education.
  --Help Indian Country reduce methamphetamine crime and the 
        afflictions it has brought to many Tribes through a new Safe 
        Indian Communities Initiative.
  --Manage a network of parks, sanctuaries, reserves, and refuges to 
        protect ocean and coastal resources as envisioned in the 
        President's Ocean Action Plan.
                            budget overview
    The 2008 budget request for current appropriations is $10.7 
billion. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress will 
provide an additional $5.1 billion, for a total 2008 Interior Budget of 
$15.8 billion.
    The 2008 request includes $9.7 billion for programs funded within 
the Interior, Environment and Related Agencies Appropriations Act.
    The 2008 budget reflects the changes made in financing for the 
Abandoned Mine Land Reclamation Fund in the Office of Surface Mining 
that were required by the Surface Mining Control and Reclamation Act 
Amendments of 2006. Funding for State and tribal AML grants are no 
longer subject to appropriation and are funded as a mandatory 
appropriation. Federal AML components continue to be subject to 
appropriation.
    The change results in a reduction of $134.2 million in 
discretionary budget authority in 2008. After taking into account the 
AML shift of funding from discretionary to mandatory funding, the 2008 
budget request reflects a decrease of $35.4 million, or four-tenths of 
one percent below the 2007 Joint Resolution and $68.7 million below the 
2006 enacted level.
    With enactment of the Joint Resolution, we now have a full year 
appropriation for 2007 of $9.7 billion. Based on direction in the Joint 
Resolution, we have prepared detailed operating plans for each bureau 
for 2007. Based on these plans, we are preparing comparisons at the 
program level with the 2008 budget request, which will be available to 
the subcommittee very soon. The comparisons in our 2008 budget are with 
the third 2007 continuing resolution, which was in effect through 
February 15. Except where noted, comparisons throughout this testimony 
are on that basis.
    In 2008, Interior will continue an exemplary record of producing 
revenue for the Treasury. Estimated receipts collected by the 
Department in 2008 will be $15.6 billion, a record level of collections 
that offsets Interior's discretionary budget by nearly 1.5 to one.
    The 2008 budget assumes enactment of a number of proposals for 
which legislation has been or will be transmitted to the Congress. The 
Centennial Challenge would provide up to $100 million a year for ten 
years in mandatory funds to match private donations for signature 
projects and programs. These projects and programs will be identified 
in the Secretary's report to the President this May, after a number of 
public listening sessions and recommendations from park professionals. 
The costs for this proposal, contained in a legislative proposal 
transmitted to Congress, are offset within the President's 2008 budget.
    The budget also assumes enactment of proposals to change the manner 
in which bonus bids for coal sales are received consistent with oil and 
gas programs, institute a net receipt sharing provision to return to a 
more equitable Federal-State distribution of onshore mineral revenues, 
and repeal deep gas and deep water OCS incentives that were included in 
the Energy Policy Act of 2005.
    The 2008 budget also contains proposals that were assumed in the 
2007 President's budget. Included are proposals to discontinue 
mandatory appropriations from the Range Improvement Fund and amend the 
Federal Land Transaction Facilitation Act to update the public lands 
available for disposal, authorize the use of receipts for restoration 
projects, and change the distribution of revenue. As in 2007, the 2008 
budget proposes repeal of authorizations provided in the Energy Policy 
Act of 2005. Repeal of Section 365 would redirect rental receipts to 
the General Fund and authorize BLM to promulgate regulations to phase 
in cost recovery for energy permits, repeal of Sections 224 and 234 
would restore the historical formula for distribution of geothermal 
energy receipts.
    The budget also proposes leasing in the 1002 area of the Alaska 
National Wildlife Refuge, which significantly increases anticipated 
revenues in 2009 and later years. These proposals, in conjunction with 
the revenue enhancements described above, will increase revenues by 
$136.3 million in 2008 and a total of 5.0 billion through 2012.
                       maintaining core programs
    Department of the Interior programs encompass 390 parks and 547 
wildlife refuges; 261 million acres of multiple use public land; 12 
regional offices, 83 Indian agencies locations, and 184 elementary and 
secondary schools in Indian Country; and numerous laboratories, field 
research facilities, and other offices.
    At each of these sites, the Department's 73,000 employees maintain 
facilities and resources and provide services to those who use or rely 
on them: park visitors, wildlife watchers and hunters, stockmen and 
miners, Tribes and individual Indians, farmers and electric power 
users. In my travels, Interior's managers have told me that funding for 
fixed costs is their highest priority need.
    Pay and benefits for the Department's workforce are a significant 
cost component of Interior's core programs, comprising 58 percent of 
operating budgets. The proportion of Interior's budget committed to 
personnel costs places it among the top three Federal agencies. Only 
the Departments of Justice and Commerce have a higher proportion of 
salary and benefit costs to total budget. Maintaining this dedicated 
cadre of professionals is essential for the uninterrupted delivery of 
programs and services.
    The Department's 2008 budget request includes $214.2 million to 
fully fund increases for pay and other fixed costs. Of this amount, 
nearly 85 percent, or $184.4 million, supports increases in employee 
compensation, including scheduled 2008 pay raises; two additional paid 
days; and projected increases in health benefits. The budget assumes a 
three percent pay raise in January 2008. The request also funds 
increases in workers' and unemployment compensation; rental payments 
for leased space; and centralized administrative and business systems, 
services and programs financed through the Working Capital Fund.
                        other budget priorities
    In addition to the four key initiatives I have already highlighted, 
the budget includes the funding for key goals and objectives.
    Achieving Energy Security.--In his State of the Union address, 
President Bush underscored that America must enhance energy security. 
The Department of the Interior plays a key role in advancing this goal. 
Nearly one-third of the energy produced in the United States each year 
comes from public lands and waters managed by Interior. To carry out 
the goals of the Energy Policy Act and enhance the availability of 
affordable oil, gas, and alternative energy sources, the 2008 budget 
for Interior programs includes $481.3 million for energy programs. With 
these resources, the Department will enhance energy security through 
increased production, protect the environment, promote conservation, 
and expand the use of new technologies and renewable energy sources.
    The BLM 2008 budget request for energy is $142.9 million. Included 
in the BLM request is an increase of $3.1 million for inspection and 
monitoring to ensure environmentally responsible energy development on 
public lands and proper reporting of production. The additional funds 
will provide BLM with the capacity to conduct an additional 1,572 
inspections by 2009, with 522 additional inspections occurring in 2008. 
Also included is an increase of $2.0 million for the Mining Law 
Administration program. This increase is expected to be fully offset by 
anticipated mining claim maintenance fees.
    In 2008, BLM will implement fees for processing drilling permit 
applications to fully replace rental revenue currently available for 
processing oil and gas use authorizations, thereby maintaining BLM's 
capacity for timely permit processing. A legislative proposal will be 
transmitted to the Congress that proposes to repeal Section 365 of the 
Energy Policy Act. Section 365 redirected rental revenue deposits to 
the Treasury to fund BLM pilot offices. Estimated collections of permit 
processing fees in 2008 is $21.0 million.
    The MMS 2008 budget request for energy is $290.8 million, $16.7 
million above 2007. The budget includes increases to facilitate OCS 
development and deepwater activities by implementing the 2007-2012 
Five-Year OCS Oil and Gas Leasing program and completing environmental 
analyses necessary for newly available areas where data are old and for 
future OCS lease sales.
    The Gulf of Mexico Energy Security Act of 2006, signed into law on 
December 20, 2006, significantly enhances OCS oil and gas leasing 
activities and production potential in the Gulf of Mexico. The Act 
opens up 8.3 million acres in the GOM for leasing, including 5.8 
million acres previously withdrawn under Congressional and Presidential 
moratoria. The Act also shares revenues with Gulf-producing States and 
with the Land and Water Conservation Fund, with the first distribution 
estimated to take place in 2009.
    The budget assumes an increase in the royalty rate for new offshore 
Federal oil and gas leases. The Department will begin implementing the 
royalty rate increase in the upcoming 2007 lease sale in the Western 
GOM planning area (Sale 204) scheduled for August 2007. The new rate is 
expected to increase royalty revenues by $4.5 billion over the next 20 
years, and substantially more after that.
    The President's National Energy Policy aims to improve America's 
energy security by increasing domestic production of fossil fuels, 
promoting increased energy conservation, and stimulating the 
development of alternative fuels. The coastal plain in the Arctic 
National Wildlife Refuge is the Nation's single greatest onshore 
prospect for future oil. The 2008 budget assumes enactment of 
legislation opening the Section 1002 area of the coastal plain in ANWR 
to energy exploration and development, with a first lease sale 
occurring in 2009 that would generate $7.0 billion in bonus receipts. 
The budget estimates a total of $8 billion in revenue would be 
generated through 2012. These receipts would be split 50:50 between the 
U.S. Treasury and the State of Alaska.
    Cooperative Conservation.--Through partnerships, Interior works 
with landowners and others to achieve conservation goals across the 
Nation and to benefit America's national parks, wildlife refuges, and 
other public lands. The 2008 budget includes $324.0 million for the 
Department's cooperative conservation programs, $34.6 million over 
2007. These programs leverage Federal funding, typically providing a 
non-Federal match of 50 percent or more. They provide a foundation for 
cooperative efforts to protect endangered and at-risk species; engage 
local communities, organizations, and citizens in conservation; foster 
innovation; and achieve conservation goals while maintaining working 
landscapes.
    The 2008 cooperative conservation budget includes $21.0 million of 
the Department's Healthy Lands Initiative. Also new to the suite of 
cooperative conservation programs highlighted in 2008 are the multi-
agency Open Rivers Initiative and the National Fish Habitat Action 
Plan. These fisheries conservation programs will leverage $16.2 million 
in Federal resources with State, Tribal, local, nonprofit and private 
groups to protect, enhance, and restore aquatic habitats. A program 
increase of $6.0 million for the Open Rivers Initiative will allow FWS 
to enhance its fish passage program by eliminating an additional 190 
obsolete stream barriers such as small dams and open an additional 
1,300 stream miles. The 2008 budget includes an additional $2.3 million 
to implement the National Fish Habitat Action Plan, which will leverage 
resources provided by State, tribal, local, private, nonprofit, and 
private groups to protect, enhance, and restore aquatic habitats.
    The 2008 budget continues funding for high-priority cooperative 
conservation activities, including $13.3 million for the FWS Coastal 
Program, $69.5 million for State and Tribal Wildlife Grants, $4.0 
million for Neotropical Migratory Birds, and $80.0 million for the 
Cooperative Endangered Species Conservation Fund. The 2008 budget 
request for the North American Wetlands Conservation Fund is $42.6 
million, an increase of $6.0 million above 2007. Funding for the 
Partners for Fish and Wildlife program is $48.4 million, a net increase 
of $5.7 million over 2007. These programs provide an effective, 
cooperative approach to conservation and leverage Federal funds. In 
2008, these programs will attract over $274 million in non-Federal 
matches and restore over 800,000 acres of habitat for species at-risk 
and migratory birds.
    In 2008, Interior does not request funding for the Landowner 
Incentive and Private Stewardship Grant programs, in order to 
concentrate conservation funding in a smaller number of high-performing 
programs. This results in a $22.0 million reduction from the 2007 
level. The conservation of at-risk species would benefit from shifting 
resources from these two programs to other programs that can 
demonstrate increased results, such as the Partners for Fish and 
Wildlife and North American Wetlands Conservation Act programs. The 
Landowner Incentive and Private Stewardship grant programs will 
continue to allocate and administer grants from funds appropriated in 
prior years.
    Refuge Operations and Species Protection.--Targeted increases for 
the National Wildlife Refuge System and other FWS species conservation 
programs will focus new resources on conserving and restoring the 
habitat necessary to sustain endangered, threatened, and at-risk 
species and prevent additional species from being listed under the 
Endangered Species Act. A program increase of $4.7 million for refuge 
wildlife and habitat management will allow the refuge system to 
increase the number of recovery plan actions completed in 2008 by 111; 
protect or restore an additional 57,983 acres; and fill three new 
positions to manage the new Northwestern Hawaii Marine National 
Monument. The 2008 budget also includes $2.2 million in programmatic 
increases for the recovery of the gray wolf and the Yellowstone grizzly 
bear.
    Healthy Forests Initiative.--The 2008 budget for the Healthy 
Forests Initiative, a total of $307.3 million, supports the 
Department's efforts to reduce the threat of catastrophic wildfire and 
improve forest and rangeland health. The 2008 budget request funds the 
Hazardous Fuels Reduction program at $202.8 million, an increase of 
$3.0 million for fixed costs over the 2007 level. An additional $1.8 
million in the hazardous fuels program will be shifted from program 
support activities to on-the-ground fuel reduction to help treat high-
priority acres.
    Wildland Fire Management.--The 2008 budget proposes $801.8 million 
to support fire preparedness, suppression, fuels reduction, and burned 
area rehabilitation. This amount represents a net increase of $32.6 
million above 2007, including an increase of $37.4 million for 
suppression operations. This budget will fully fund the expected costs 
of fire suppression in 2008 at $294.4 million, based on the ten-year 
average. The 2008 Preparedness program is funded at $268.3 million, a 
net reduction of $6.5 million from the 2007 level. A significant 
portion of this reduction will be achieved by eliminating management 
and support positions and lower-priority activities. The 2008 Wildland 
Fire Management program will realign its preparedness base resources to 
better support initial attack capability, which will include the 
addition of over 250 firefighters. These actions will help maintain 
initial attack success.
    Oceans Conservation.--Interior bureaus conduct ocean and coastal 
conservation activities that significantly advance understanding of the 
processes and status of ocean and coastal resources. The 2008 
President's budget includes $929.5 million to support the President's 
Ocean Action Plan. This funding will allow Interior bureaus to continue 
their high-priority work within the U.S. Ocean Action Plan and includes 
an increase of $3.0 million for USGS. In 2008, USGS will begin to 
implement the Oceans Research Priorities Plan and Implementation 
Strategy by conducting observations, research, seafloor mapping, and 
forecast models. USGS will also begin to implement an interagency 
national water quality monitoring network. Also included is $600,000 
for three new positions to support management of the new Northwestern 
Hawaiian Islands Marine National Monument.
    Indian Trust.--The 2008 request for Indian Trust programs is $489.9 
million, $17.6 million above 2007. The Indian Land Consolidation 
program is funded at $10.0 million, $20.7 million below 2007. The 2008 
budget also includes $4.6 million in reductions to reflect efficiencies 
and improvements in services to beneficiaries, the completion of trust 
reform tasks, the completion of project task efforts, and management 
efficiencies. The budget includes a $3.6 million increase for the 
Office of Historical Accounting to assist with the increased workload 
associated with additional tribal trust lawsuits.
    The Office of the Special Trustee for American Indians is 
responsible for financial management of the funds held in trust for 
tribal and individual Indian beneficiaries. Currently, the sum of all 
positive Individual Indian Monies account balances is approximately 
$6.0 million less than the sum of all financial assets currently 
invested by OST on behalf of the IIM beneficiaries. To address this 
imbalance the Department will transmit legislation to balance the 
accounts that would authorize up to $6.0 million be made available to 
credit the investment pool.
    Payments in Lieu of Taxes.--PILT payments are made to local 
governments in lieu of tax payments on Federal lands within their 
boundaries and to supplement other Federal land receipts shared with 
local governments. The 2008 budget proposes $190.0 million for these 
payments. The 2008 request is a reduction of $8 million from the 2007 
level. This level of funding is significantly above the historical 
funding level for PILT. From the program's inception in 1977 through 
2001, the program was funded in the range of $96-$134 million.
                               conclusion
    I believe that our 2008 budget will--in its entirety--make a 
dramatic difference for the American people. We will better conserve 
our public lands. We will improve our national parks. We will protect 
our wildlife and its habitat. We will help craft a better future for 
Indian country and particularly for Indian children. And we will 
produce the energy that America needs to heat our homes and run our 
businesses. This concludes my overview of the 2008 budget proposal for 
the Department of the Interior and my written statement. I will be 
happy to answer any questions that you may have.

    Senator Feinstein. Thank you very much, Mr. Secretary, for 
those comments.
    Let me begin the 5-minute rounds, again, the early bird.

                            1998/1999 LEASES

    In February, our subcommittee held a hearing on the 
problems the Interior Department is having with the collection 
of royalties from energy companies who operate in the deep 
waters of the Gulf of Mexico. The taxpayers stand to lose, as 
you know, some $10 billion, because of the Department's failure 
to include price thresholds for leases signed in 1998 and 1999.
    Your Assistant Secretary Allred testified that you had been 
able to persuade six of the companies who hold leases without 
price thresholds, to voluntarily begin paying their fair share. 
That's a good start.
    My first question is, how many companies have now 
voluntarily started paying royalties, and how many are still 
holding out?
    Secretary Kempthorne. Madam Chairman, thank you. This is a 
critical issue. As you have identified, it occurred in 1998 and 
1999. We believe that's the only time that that omission 
occurred. We believe that there was a decision for that, but we 
don't know what the motivation was.
    Since then, those price thresholds have been in place. One 
of the actions I've taken, Madam Chairman, is a secretarial 
directive to our Solicitor, so that all future leases--a 
solicitor will sit there with the representative from Minerals 
Management Service, reviewing the entire document, so that it 
would not occur again. Six companies have currently stepped 
forward and have volunteered to pay that share.
    Senator Feinstein. But it is my understanding that the 40 
companies which are responsible for 80 percent of the 
production from these specific lease sales are not paying 
royalties--is that correct?
    Secretary Kempthorne. I believe that number is accurate.
    Senator Feinstein. Okay. We asked Mr. Allred to work with 
us--we have not had success in doing that. The idea is 
extending the 1998 and 1999 leases for those companies that 
agree to pay royalties. What is your opinion of that? In other 
words, to provide some incentive for the payment? Not that we--
we shouldn't have to be required to provide incentive--every 
one of these companies has made record profits, and they 
haven't, you know, paid for the right to drill oil on what is, 
essentially, public waterways.
    Secretary Kempthorne. Madam Chairman, I appreciate what 
you're saying.
    I believe that those companies are waiting to see if, in 
fact, there's going to be action taken by Congress. Therefore, 
I don't believe, at this time--even though discussions 
continue--that we're seeing any further movement beyond those 
six.
    Senator Feinstein. Well, it would be my intent, then, to 
draft the legislation along the lines that I've suggested, 
which would be, you know, that we would extend leases in return 
for these payments, and if Senator Craig would be interested in 
working with me, I would be very appreciative of that.
    Secretary Kempthorne. Madam Chairman, I know you're looking 
at it, and the Energy Authorizing Committee is looking at it. I 
think to give companies an opportunity to step forward by the 
initiative you're talking about makes a lot of sense.
    I also understand everybody's frustration, at the same 
time. In searching for what might have been--but nobody knows, 
a violation or an intent--these are valid contracts, and valid 
relationships. Contract law is sacred, and that's what we're 
all struggling with here. Do you step in and break a contract? 
No, you don't do that.
    So, I think it's going to take the kind of initiative 
you're talking about, and it is my observation that there's a 
wait-and-see situation here, until Congress finally solidifies 
where they want to be on this issue, but we're talking a lot of 
money.
    Senator Feinstein. I understand. Thank you very much, 
Senator.

                         DRUGS ON FEDERAL LANDS

    Second question--drugs on Federal lands--big problem. The 
Mexican drug cartels have stopped running drugs over the 
border, and have now simply moved their operations onto Federal 
lands.
    I've seen reports which say that in 2006, Federal 
authorities seized some 3 million marijuana plants, worth 
between $10 billion and $15 billion, and I'm told that half of 
that came from public lands in California.
    What I'd like to know is this--what are the National Park 
Service and the Bureau of Land Management doing to address this 
problem? How much money is in the Department's 2008 budget 
request for this?
    Secretary Kempthorne. Madam Chairman, you've identified a 
very important, and a very serious problem. You are correct--
the drug cartels, the organized crime have found that it is now 
more efficient and effective for them to locate their assets on 
the public lands, such as the National Parks, to grow the 
marijuana plants, and harvest and then sell them here in this 
country, rather than growing them in Mexico and bringing them 
across the border.
    I will note, however, Madam Chairman, the crossing of the 
border is a significant problem, which at some point we may 
discuss today as well.
    These plots where they are growing the marijuana, it is not 
unusual to find that they are being operated by heavily armed 
individuals. Individuals who have been told--in no uncertain 
terms by the drug cartels--you are to defend this product with 
your life. Because, anything less than that, and there may be 
repercussions with your family members back in Mexico. That is 
the leverage which they're using. It is truly significant what 
is taking place.
    Now the Department itself, our 2008 budget includes $680 
million for law enforcement activities. That's an increase of 
$48 million. I will tell you that, we are also now moving into 
flexible funds within the Park Service so that we can use these 
funds. We have three different teams of law enforcement 
entities with the Park Service, that we use for this specific 
use of interdiction of the drugs.
    In Sequoia, for example, in 2004, we increased the budget 
there $450 million, we have maintained that, and will see an 
additional increase in that area in the 2008 budget, as well. 
We've seen significant progress. But I will tell you, Madam 
Chairman, if you look at a chart at the amount of production 
that is taking place in the United States, it would be a steady 
increase, and then suddenly this spike, which is happening. 
Because, as you have identified, they have now determined it is 
better to grow it in the United States than to try to smuggle 
it across the border.
    Senator Feinstein. Thank you, Mr. Secretary, my time is 
expired.
    Senator Craig.

                            METHAMPHETAMINE

    Senator Craig. Mr. Secretary, would you continue that 
theme, but talk to us about obviously the initiative you have 
on, in Indian country with meth. We're talking, marijuana grown 
on public lands, but we're talking meth brewed in Mexico.
    Secretary Kempthorne. Yes.
    Senator Craig. Now, in large part, meth labs being brought 
down in this country are fewer and fewer simply because of the 
tightening up of the ingredients, and State efforts, along with 
the Feds.
    You found something startling, and related to me in a 
conversation earlier, would you tell the Committee your 
experience on our southern border? Because you have a 
responsibility for a lot of mileage of border down there. The 
meth movement across that border today, and what Homeland 
Security is--and is not--doing about it.
    Secretary Kempthorne. Yes. Senator Craig, I appreciate your 
interest in this issue.
    The Department of the Interior has jurisdiction for 40 
percent of the U.S.-Mexico border--that includes our parks, our 
wildlife refuges, Indian country, et cetera. That's 755 miles. 
After the first of the year, when I went down there for the 
first time to see what the situation was, my impression was 
that I would see a great deal of illegal immigration. I will 
tell you that this is truly organized crime, and it is the drug 
cartels.
    We anticipate, for example, in one Park, Organ Pipe Cactus 
National Park that daily there is as much as $3 million in 
illegal drugs going through that Park. That is one area of the 
Southern border that has the vehicle barrier fence that's in 
place, which was put in shortly after the shooting death of 
Kris Eggle, a National Park Ranger who was shot down and 
killed, because of drugs.
    They've learned to breach that fence. So, they're crossing. 
We now have a situation, Senator, where in certain areas along 
the border, we do not allow employees, park employees, for 
example, to go perform their normal duties, without being 
escorted by two armed officers. The drug cartels have issued 
the message that they will shoot park rangers on sight, they 
will shoot border patrol officers, they will shoot the 
helicopters from the sky.
    This is huge business for the drug cartels. This is 
organized crime, and so it takes an organized effort. We're 
working with the Department of Homeland Security, we're working 
with DEA and the Office of Drug Control. But I have great 
concerns, because we're seeing, perhaps, upwards of 50 percent 
of our budgets for parks and refuges down in that area, that is 
now moving more and more toward law enforcement, instead of 
what the original intended purpose was.
    Senator Craig. Well, thank you very much.
    Madam Chairman, a couple of weeks ago, I was holding a town 
meeting in Meridian, Idaho, and a man stood up in the back of 
the room and said he was a retired Boisean who'd been to Organ 
Pipe as a photographer, and he was told by the Park Service, 
there were areas of that preserve or reserve that he ought not 
enter for his own security and his own life.

                           FIRE PREPAREDNESS

    Let me talk briefly about fire preparedness, the Budget 
Request for fire preparedness for fiscal 2008 is lower than 
that enacted in 2007, yet the proposed budget claims to be 
maintaining an initial attack success rate of 95 percent. How 
can you maintain this success rate with less money? That would 
be one question.
    One of the efficiencies you plan to employ is the 
elimination of 78 management and support positions--are these 
anticipated to be employees with direct fire support 
experience? I mean, those are some of the concerns we have, 
obviously, with the anticipated fire season coming off of last 
season.
    Secretary Kempthorne. Yes, Senator first, like you, I'd 
like to acknowledge the firefighters themselves, these men and 
women and what they do day in and day out fighting these fires 
for us. As you've noted, the National Inter-agency Fire 
Center--an outstanding resource for the Federal Government.
    In 2008, the fire budget is $801 million. That's $43 
million above the 2007 budget. It includes $37 million for 
suppression. So, while the budget is up, Senator, in the areas 
such as the Wildland-Urban Interface, that's been very 
effective, the Healthy Forest Initiative, that has been very 
effective--we continue that. Because we believe that prevention 
is the best step that you can take.
    We also have made a shift in strategy, based on the input 
from fire professionals and management, to the initial 
response. So, rather than waiting until the fire has gotten to 
the point that it is hundreds of thousands of acres, as we have 
experienced in Idaho, it's to move resources from that effort 
to the initial attack, and to hit them faster, and more 
aggressively. To try to knock them down before they take off 
and reach such large magnitudes, where the only way to 
effectively, then, finally put them out, is when the snow 
begins to fall.
    So, the total fire budget is actually up, but you are 
seeing--in that area of suppression--a shift.
    Senator Craig. Thank you, Madam Chair.
    Senator Feinstein. Thank you.
    I'm going to alternate sides, and so I'll give you the 
order now, it will be Senator Nelson, Senator Alexander, 
Senator Reed, Allard, Cochran, Bennett, and Domenici.
    Senator Nelson?

                  PLATTE RIVER RECOVERY IMPLEMENTATION

    Senator Nelson. Well, thank you, Madam Chairman.
    Mr. Secretary, I want to thank you for your efforts, 
particularly on the efforts of your Department, regarding the 
Platte River Recovery Implementation Program. I'm glad to see a 
$6.4 million increase for the Great Plains Region, to implement 
the program in your proposed budget.
    I was proud to have signed that cooperative agreement back 
when I was Governor of Nebraska in 1997, and I'm equally proud 
to be a co-sponsor of the Senate bill, together with Senator 
Allard and others. This bill, when enacted, will authorize your 
continued participation in this very important program.
    I look forward to working with the Senate Energy and 
Natural Resources Committee, so we can get that bill moving and 
we can further the basin-wide effort between the Department and 
the States of Nebraska, Colorado and Wyoming, to help recover 
species in the basin. I look forward to working with my 
colleagues in this committee to ensure the appropriate funding.
    I know your efforts to date have been very, very 
significant, and the funding requested would be recognized, the 
importance. I hope that we can continue to have that a priority 
for Interior.

                              STREAMGAGES

    I have a question regarding streamgage activities. At the 
time when the Plains States are suffering from an historic 
drought, all of the components of the Department seem to be 
cutting back on the streamgage programs and other projects that 
monitor water levels, stream flows, and similar programs. I 
wonder if you have an explanation for this. It doesn't appear 
that streamgage activities and programs are a priority, and I'm 
perplexed by that, and I wonder if you might help clarify that, 
if you can.
    Secretary Kempthorne. Yes, Senator Nelson--the 2008 request 
with regard to the streamgages is held level with 2007. Now, we 
will look at that, and I will get information back to you, but 
at least it is being held level.
    [Information follows:]
                   Increased Funding for Streamgages
    In 2007, USGS increased funding for streamgages. The 2007 operating 
plan includes $16.6 million for the National Streamflow Information 
Program, which includes an increase of $2.3 million for the streamgages 
operating network. In the 2008 President's budget, USGS has requested 
an additional $1.65 million, including $250,000 that would enable 
installation of three new streamgages in southern California and 
deployment of storm surge monitors in support of the bureau's ongoing 
hazards program.

    Senator Nelson. Yeah, I'm not suggesting it is being cut 
back, I'm just suggesting that it doesn't seem to be picking up 
any support for the future because of the increasing need and 
importance of having streamgauge activities, given the drought 
conditions. Unfortunately, they haven't gone away, they 
continue.

                            INVASIVE SPECIES

    One other question--does the Department give any priority 
or preference to States or regions of the country where 
invasive species are choking rivers, and consuming scarce water 
supplies in drought-stricken areas of the country, especially 
considering the concerns in the Republican Platte River Basins. 
Are you taking into account water problems that come about 
because of the invasive species? Red cedar and other species 
that are invasive?
    Secretary Kempthorne. Senator, we do, and I'm very familiar 
with invasive species. It's something that, as a Governor, I 
dealt with, and that we always included in our State budget. 
It's something, ironically, Senator, that I served on the 
National Invasive Species Commission. I remember attending one 
of the early meetings, and they didn't think I would show up, 
because they didn't think I would understand what the issue 
was, but we lived that issue. We do prioritize. Invasive 
species are a critical, critical issue.
    Also, Senator, going back to Senator Craig's comments about 
the forest fires. It's not unusual to see the devastation of 
the entire loss of a forest, it doesn't necessarily mean that 
the forest will come back, because with invasive species, you 
might get a monoculture of something you don't want.
    Senator Nelson. That's right.
    Secretary Kempthorne. I was down in New Mexico, Senator 
Domenici's State and saw the creosote plant that is now an 
invasive species, and what it's doing. We do prioritize, and 
it's something that we do put a great deal of emphasis on.
    Senator Nelson. Well, I hope that you would take a 
particular look at the Platte and Republican River basins, 
because the influx of invasive species there, due to the 
drought, similar situation to a forest fire, the removal of 
water, or the removal of timber can result in an even greater 
invasion.
    Secretary Kempthorne. Senator, I'd be glad to do that. I 
appreciate your work on the Platte River, and I signed that 
Memorandum of Understanding late last year, and again, thank 
you for leadership that has been there for the years. I've 
signed it now with the Governors of Nebraska, Wyoming, and 
Colorado. Senator, may I just take a moment and acknowledge--
this is a little bit like deja vu, in that when I was a Member 
of the Senate, and you were the Governor of Nebraska, and I 
brought forward with Senator Glenn our efforts to stop unfunded 
Federal mandates, you sat at the witness table, and I was up 
there, so, you did a great job.
    Senator Nelson. Well, sometimes roles are reversed.
    Secretary Kempthorne. Yes, they are.
    Senator Nelson. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman.
    Secretary Kempthorne, thank you for coming.
    If I were authorized to give out report cards--which I'm 
not--I'd give some A pluses in your direction, and I'd give the 
President an A plus for the Centennial Challenge, I'd give you 
one for being bold enough to suggest it at a time of fiscal 
tightness. I would give you an A plus for your decision on the 
management policies, to preserve conservation as the primary 
part of the National Park's mission, and I'd give you at least 
a pat on the back for your picking the Great Smoky Mountains 
National Park as your first visit----
    Secretary Kempthorne. Yes.
    Senator Alexander [continuing]. On your listening tour.
    I would suggest something that would seem to some listeners 
as counter-intuitive--I think quietly, the administration is 
building up a conservation and environmental record that's 
under-appreciated. I mean, if you added those things together--
the law that the extension of conservation easements by the 
last Congress, which is the fastest growing conservation 
movement, the EPA rules on sulfur and nitrogen, the low-sulfur 
diesel rules that President Clinton started, and President Bush 
put in place, the passage of Lease 181 for the expanded 
drilling in the Gulf of Mexico, to put in what, we sometimes 
call the Domenici one-eighth, which took $1 out of every $8 
from that expanded drilling and made it a conservation easement 
to go into the Land and Water Conservation Fund. So, that's an 
under-appreciated record, I think.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    I have three questions to go along with my A pluses. One 
is--as much as we appreciate the extra funds for the Great 
Smokies, and the other Tennessee national parks--when I looked 
in the report in USAToday, Yosemite, Yellowstone, Grand Canyon 
were all receiving more than the Great Smokies, both in 
amounts, and by percentage increase, which surprises me, since 
the Smokies have 10 million visitors a year, which is two or 
three times more visitors a year than any other park.
    I wonder if you would take a look at that, and help me--not 
today--but, if later, you could help me understand why the 
percentage increases for other parks are higher, it would 
appear, than the percentage increases for the Smokies?
    Secretary Kempthorne. Senator, I'd be glad to get back to 
you, and work with you on that, and certainly note that the 
chairman would probably be watching what we do with those 
numbers.
    [The information follows:]
                  Great Smoky Mountains National Park
    The fiscal year 2008 funding level of $18,690,000 includes an 
increase for Great Smoky Mountains National Park of $1,459,000 over the 
fiscal year 2007 enacted level of $17,231,000. The park has experienced 
49 percent growth in base funding over the last 10 years, which is 
equal to the average growth for all parks in the system, and exceeds 
the growth rate at large park units such as Yosemite National Park, 
Yellowstone National Park, Grand Canyon National Park, Gateway NRA, and 
the National Mall. The fiscal year 2008 budget growth rate for Great 
Smoky Mountains National Park likewise exceeds that of many of its peer 
parks, including Yellowstone National Park, Grand Canyon National Park, 
Independence NHP, and the National Mall.
    The fiscal year 2008 increase for Great Smoky Mountains National 
Park of $1,459,000 includes +$676,000 to cover planned pay and cost of 
living increases and projected cost increases for health benefits; 
+$316,000 to fund 26 maintenance seasonals during the peak visitation 
season; +$214,000 to fund 17 interpretation seasonal rangers during the 
peak visitation season; +$157,000 to fund 12 visitor and resource 
protection seasonals during the peak visitation season; and +$96,000 to 
provide a volunteer coordinator, improving the training and 
certification of volunteers, and providing additional funds for 
housing, and recruiting materials.

    Senator Alexander. I respect that as well.

                    LAND AND WATER CONSERVATION FUND

    The second is, the Land and Water Conservation Fund hasn't 
fared too well over the last few years, it's authorized for 
$450 million a year in the Federal account, and in the State 
account, the President's not asked for much if, or nothing.
    You and Senator Nelson were talking about role reversals--I 
remember when I was testifying as Governor 20 years ago, and 
suggested that the Great Smokies, which is managed, basically, 
as a wilderness area, ought to be declared a wilderness area, 
and the whole western side of the Energy Committee nearly went 
into cardiac arrest at the thought of another wilderness area.
    But, there are big differences in the West and the East. I 
mean, we're not like Idaho, we're not mostly owned by the 
Federal Government, we are a rapidly growing State as well, and 
we have very little park space. As you found when you were down 
there in a very highly Republican, conservative area, we like 
the Smokies managed as a wilderness area, and around it we need 
more park space. For example, Alcoa, and the Nature Conservancy 
and others have arranged for 10,000 acres between the Cherokee 
National Forest and the Great Smokies, to be purchased. So we 
need the extra money for open space. My question is--you have 
the authority this year to take some of the funding that 
Congress gave you, and put it in the Land and Water 
Conservation Fund State account or Federal account--do you plan 
to do so?
    Secretary Kempthorne. Senator, as you know from 
conversations you and I have had, I'm a great advocate for the 
State side accounts. I'm dealing in a world of limited 
resources right now, and that's one of the problems. One of the 
things I would like to do and would hope that we would be able 
to do, is work with you to identify new funding sources in the 
future, so that we can properly put the funds into that 
account.
    Senator Alexander. Well, I appreciate that, and I hope that 
we can work together as we expand drilling for oil and gas in 
the Gulf of Mexico or other appropriate places, that we can 
continue this idea that the last Congress passed of the 
Domenici one-eighth, the idea of a conservation royalty, to 
begin to build up funding for the Land and Water Conservation 
Fund, at least the State side, where there's very little 
controversy about it.
    Secretary Kempthorne. Senator, I agree with that. I would 
look forward to working with you, and too, may I say that we 
did have our first listening session in the Great Smokies, 
which is the number one visited National Park in our system, in 
the Nation. Dale Ditmansen and the team down there--he is your 
superintendent, of course, but it was very apparent, too, that 
they recognize that you are the great champion of parks. That 
is all across the country, as well, so we appreciate your 
leadership.
    Senator Alexander. Thank you, Mr. Secretary.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Reed?
    Senator Reed. Thank you, Madam Chairman.

                       WEAVER'S COVE LNG PROJECT

    Welcome, Mr. Secretary. Last October I joined Senator Kerry 
and Senator Kennedy writing to you about the Weaver's Cove LNG 
project up in Massachusetts, but it also affects the Taunton 
River and the Narragansett Bay Estuary, which is a large part 
of my State. I wonder if you might give us an update on that 
project--there are some concerns, in fact, I think reflected by 
the Department of the Interior scientists, that the dredging 
for the project could harm the natural resources and fisheries 
of both the Taunton River, and the Narragansett Bay Estuary.
    Secretary Kempthorne. Senator, I don't believe I can give 
you great details, I will just tell you that----
    Senator Reed. Could you follow up?
    Secretary Kempthorne. Yes. The Fish and Wildlife Service 
and the National Park Service are working in conjunction on 
this issue. So, I would be glad to follow up, though, and give 
you----
    Senator Reed. I wish you would, Mr. Secretary. This is--as 
you can imagine--a very important issue in our way, Taunton is 
in, and Fall River is in Massachusetts, but the transit of 
these ships and the impact is all through--mostly through Rhode 
Island, as they transit from Narragansett Bay up into Fall 
River.
    The real issue here is making sure that scientific and 
legal procedures are followed, particularly, if the best 
science of your Department is used.
    Secretary Kempthorne. Right.
    Senator Reed. I would urge you to take all of those steps 
necessary to make that happen.
    Secretary Kempthorne. Very good. I appreciate that.
    Senator Reed. Thank you. I would also appreciate any 
information you could follow up with in to my office.
    Secretary Kempthorne. Absolutely.
    [The information follows:]
             Weaver's Cove Liquid Natural Gas (LNG) Project
    The Weaver's Cove LNG Facility planned for Fall River, 
Massachusetts on the lower Taunton River called for 2.5 million cubic 
yards of dredge, resulting in 11 acres of permanent intertidal/subtidal 
habitat loss. The Department of the Interior has been coordinating the 
development and review of potential permit conditions based on 
scientific review by National Park Service and U.S. Fish and Wildlife 
Service staff. In particular, FWS has provided technical assistance 
regarding impacts of dredging on anadromous fish species, which use the 
Taunton for migration and spawning habitat. The issue is the number of 
months the company can dredge the river and avoid potential adverse 
effects to anadromous fish species using the river.
    The U.S. Coast Guard issued a preliminary finding in May 2007 that 
the most recent Weaver's Cove proposal did not sufficiently address 
potential navigational and security challenges, that the Federal Energy 
Regulatory Commission (FERC) Environmental Impact Statement (EIS) is 
deficient in analyzing safety and environmental issues, and that a 
supplemental EIS or separate National Environmental Policy Act (NEPA) 
review (Environmental Assessment or EIS) is needed. As of July 12, 
2007, this additional NEPA review had not been initiated.
    The Massachusetts Department of Environmental Protection issued a 
letter in June 2007 to Weaver's Cove Energy (WCE) advising that the 
Department had stopped processing the required 401 Water Quality 
Certificate for the proposed LNG development, and will resume only when 
the Coast Guard issues have been addressed. The Army Corps of Engineers 
confirmed to the National Park Service that they will not proceed with 
processing of its permit for the LNG facility until both the Coast 
Guard and State 401 issues have been settled. Movement on these permits 
is not anticipated until the additional NEPA analysis cited above has 
been completed and the Coast Guard has finalized their position 
relative to navigational safety and environmental concerns.

                   ENDANGERED SPECIES ACT REGULATIONS

    Senator Reed. I also understand that your Department is 
working on regulations for the Endangered Species Act. Can you 
give us an update on those regulations?
    Secretary Kempthorne. Senator, I can't tell you that 
there's anything that's been defined, or any conclusion 
reached, I will tell you that, in meeting with the President 
who has stressed during his entire term, cooperative 
conservation, we held 25 different cooperative conservation 
listening sessions across the United States. Some 2,000 
different speakers came forward, we had over 30,000 written 
comments, based on these listening sessions.
    The number one topic--in fact it was the number one topic 
by a 6-to-1 ratio--was the Endangered Species Act. People, as 
you can well imagine, the full spectrum from, ``The Act is 
doing what it's supposed to do, do not touch it,'' to those who 
think that it should be rescinded.
    But, the bulk of the comments were, we believe that the 
intent of the act is proper, but that improvements could be 
made in how it is administered. So, those are some of the 
things that we're looking at.
    Senator Reed. But, will that be reflected in regulations 
that you propose in the near future? Do you have a work plan to 
revise the regulations?
    Secretary Kempthorne. Senator, at this point, I can't tell 
you there's any conclusion. It's just--it is all part of the 
discussion at the current time.
    Senator Reed. Do you have any notion, Mr. Secretary, when 
you might, sort of, reach a conclusion? At least begin 
proposing regulations? Or is this still in morphs, that you 
don't have any idea?
    Secretary Kempthorne. I'll just tell you that it's very 
much in the discussion phase, and I'd be happy to sit down with 
you, if you'd like, as we get closer to it.
    Senator Reed. Well, thank you.

                        SAVE AMERICA'S TREASURES

    There's one other program that's been very helpful to my 
State, that's the Save America's Treasures program, it's very 
important for historic preservation, it's done a lot, actually, 
for the economic well-being of Providence. It's a city that's 
really coming back, a renaissance. When we've used this 
program, very effectively, to leverage private contributions 
and private development, and I understand that the budget 
request would cut funding below the amount of the last several 
years. I think this is a program that works, and I wonder what 
the justification is for cutting it.
    Secretary Kempthorne. Senator, I can't argue with you on 
all of the positive attributes that you've said. Save America's 
Treasures speaks for itself. Again, in tight budget restraints, 
yes, there is a reduction. I wish it were otherwise, but in the 
total scheme of looking at the budget, and trying to make 
things work, that was one area that had a reduction.
    Senator Reed. Thank you, Mr. Secretary. I appreciate your 
effort, and I wish you well, and we will stay in communication, 
on Weaver's Cove, and Endangered Species and historic 
treasures.
    Secretary Kempthorne. Very good. Thank you very much.
    Senator Reed. Thank you.
    Senator Feinstein. Thank you, Senator.
    Senator Allard.
    Senator Allard. Madam Chairman, thank you very much, and 
welcome, Secretary Kempthorne.
    Secretary Kempthorne. Thank you, Senator.

                 GOVERNMENT PERFORMANCE AND RESULTS ACT

    Senator Allard. Over a decade ago, the Congress passed an 
act called the Government Performance and Results Act, I think 
you're familiar with that, where it directed the agencies to 
set up objectives that are measurable, and then those results 
get reported. Both the Clinton administration and now the Bush 
administration have been working on this program, we have some 
agencies that are rated, as being ineffective, by OMB--they are 
the ones that sort of help manage this and I'm sure that you 
talk to your agencies. I have introduced an amendment in the 
Budget Committee that said that we're looking at those programs 
that are ineffective, and saying, ``Well, we need a 25 percent 
reduction in that group of programs.''
    You know, to me it's hard to explain why we would let taxes 
increase, and the debt increase when we have taxpayer dollars 
going to these ineffective programs. I think even more 
egregious than agencies who have attempted to measure their 
results and failed, are those programs that absolutely have not 
put together any plan at all in how they're going to do it.
    You have a number of those programs that are listed in the 
Department of the Interior. We have about seven of them in the 
Bureau of Indian Affairs, for example. By the way, some of 
these programs, I support because of their benefits. But, on 
the other hand, we want to see taxpayer dollars spent 
effectively, we want accountability on how they're spent.
    The land-use planning section of the Bureau of Land 
Management is one of those that aren't doing anything to try 
and measure their results. Also there's a mining law provision, 
Southern Nevada Land Sales, rural water, Colorado water 
management projects, and planning construction, land and water 
conservation and farmland acquisition which, you said, ``Well, 
you need more resources there,'' but how do you know that the 
dollars are going to be well spent if you're not doing anything 
to measure performance and how the taxpayer dollars are coming?
    So, I hope that you, in the Department of the Interior will 
look at these lists--there's about 21 altogether--you will look 
closely at these, and tell them at the least there's one Member 
in the Senate who's concerned, and I think I'm joined by a lot 
of other Members, who want to see our taxpayer dollars spent in 
a responsible way, and hope that they can report.
    Now, I understand that in some cases, you maybe do need to 
give them more money to be more effective, and get their job 
done. On the other hand, if they absolutely refuse to measure 
their performance, I think that sends the wrong message back to 
Congress on what we're expecting of the agencies.
    I'm wondering if you might comment a little bit about your 
efforts on the PART Program of the President, and what you're 
doing, and what you're going to do about these programs that 
refuse to even demonstrate, and do anything that even 
demonstrates any results.
    Secretary Kempthorne. Right. Senator, the fact that you 
flagged it, I think is significant.
    Senator Allard. I hope so.
    Secretary Kempthorne. It is, indeed.
    Senator Allard. Yeah.
    Secretary Kempthorne. I will tell you that we have been 
working with the Inspector General in our Department, in going 
through and looking at these different entities which you've 
identified. Some have been completed, some are nearing 
completion, but we need to do this. It was prescribed to us, 
and we need to do so. We've been working with OMB. I cannot 
tell you what the final conclusion will be. I can tell you, 
Senator, that this is one of the measures. Approximately 1 or 2 
months ago, there was another measure that was given to us by 
the Office of Personnel Management. It has been used for the 
past few years, and my point to the Assistant Secretaries, to 
the Bureau Directors is, in fact, that, that is a measurement--
what are we going to do about it? We need to use these 
measuring tools. If the tools need to be fine-tuned, then we 
ought to step forward and suggest any changes to that.
    I believe, part of my role in the months that I have 
remaining, is to do what I can to ensure that we have an 
effective, efficient Department.
    Now, I'm very proud to be at the Department of the 
Interior--it's a great Department, outstanding individuals. I 
believe we can continue to make improvements, however.
    Senator Allard. Well, thank you. I'm sure when you were 
Governor of Idaho that you used the management objectives to 
kind of bring accountability to your programs, or under your 
administration. I have all of the confidence in the world, and 
I'll bring up the question next year and see how well things 
are going.

                            LANDSAT SENSORS

    Secretary Kempthorne. I appreciate that, Senator.
    Senator Allard. There's a program on thermal sensing 
technology, this money for this program goes, is funded jointly 
by the USGS as well as NASA. The technology is used to measure 
water flows, among other things. The State of Colorado uses it 
to meet its interstate compact obligation--you know, we're kind 
of at the top of the heap, we have some seven drainage systems 
that come out, and a lot of them are downstream, but it's 
particularly useful in the Arkansas River, where we've had some 
lawsuits because Kansas wanted to make sure they had enough 
water going down there.
    I see that neither USGS or NASA has provided the dollars 
for that program, and I'm concerned that maybe we've got a tug-
of-war between the two agencies, and this is not being taken 
care of like it should.
    I wonder if you have a response for us on that, if you 
don't, some kind of written response would be helpful.
    Secretary Kempthorne. Senator, I believe Assistant 
Secretary Weimer can comment on that.
    Mr. Weimer. Yes, I believe, Senator, you're referring to 
the Landsat sensors----
    Senator Allard. Yes, that's it.
    Mr. Weimer [continuing]. On the new Landsat satellite.
    Senator Allard. Yes, that's it.
    Mr. Weimer. Yes, conversations are continuing with NASA, I 
believe, between USGS Director Myers, looking at the need for 
that new sensor. I'm not sure exactly where those conversations 
are now, so we'll have to get back to you on that.
    [The information follows:]
         Thermal Sensor for the Landsat Data Continuity Mission
    Landsat data continuity, which is the collection of data to 
continue a long-term record, includes the acquisition of thermal data. 
Landsats 5 and 7 both have thermal sensors and have been collecting 
thermal data to add to the USGS data set of 35 years. These data are 
increasingly important to States, water districts, and others, for the 
management of western water resources, particularly agricultural water 
use.
    NASA and the Department are partners in Landsat Program Management. 
NASA built and launched Landsats 5 and 7, which are now owned and 
operated by USGS. The USGS also manages the Nation's Landsat data 
archive and distributes products to a wide variety of domestic and 
international customers.
    Both USGS and NASA have clearly defined roles for the development 
and operation of the upcoming Landsat Data Continuity Mission, or 
Landsat 8, due for launch in 2011:
  --NASA will develop and procure the LDCM spacecraft, sensor(s), 
        mission operations element (flight software), and launch 
        vehicle. NASA is also responsible for end-toend mission 
        integration, in consultation with USGS. To date, NASA has not 
        included a thermal sensor in its design of Landsat 8. USGS is 
        working closely with NASA to influence this issue.
  --The USGS will develop and procure the LDCM ground data processing 
        and archive systems plus a flight operations facility, in 
        consultation with NASA. The USGS will also own and operate the 
        spacecraft after launch, and manage and distribute the LDCM 
        data.

    Senator Allard. Well, it's really important for our ranch 
management, I happen to use the Arkansas River, because right 
now it's got everybody's attention, but I think on these 
interstate compacts, it's important to know what's happening on 
water flows and this is an important program in that regard, 
and I hope you're serious about your discussions.
    Senator Craig [presiding]. The chairman has given me the 
gavel, Mr. Secretary. What else would you like in your budget?
    Having said that, let me turn to Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    Mr. Secretary, I wanted to congratulate you for the 
leadership you're showing on a wide range of subject fronts, 
and as Secretary of the Interior, I specifically appreciate the 
leadership and the off-shore gulf coast area planning and 
supporting legislation to make it possible to invigorate the 
production of natural resources, energy products from that 
region, sharing royalties with the gulf coast States, that's 
really a breakthrough in my view, and it's going to mean a lot, 
not only to helping satisfy our energy needs, but to 
environmental protection and restoration of those offshore 
islands, which were so devastated by Hurricanes Rita and 
Katrina. The leadership you're providing in that area is to be 
commended, I thank you for that.
    Secretary Kempthorne. Thank you, sir.

                        NPS CENTENNIAL CHALLENGE

    Senator Cochran. One other area I think deserves mention, 
too, and that's the Centennial Challenge which you have 
developed to help spur the protection and resource conservation 
in the national parks. This is something that's definitely 
needed--I wondered, in the area of the mandatory match that you 
foresee coming from private contributions, what is your 
assessment of the reception to that proposal--are there any 
early indications that this is really going to be something 
that will achieve the results you anticipate?
    Secretary Kempthorne. Senator Cochran, I appreciate you 
focusing on that.
    The response has been extremely positive. I've met with 
many members of the friends organizations that support our 
national parks. There's 144 different entities, each of which 
supports a different Park. They had told me early on, as did 
NPCA--the National Park Conservation Association, different 
foundations and the private sector--they are willing to step up 
and be the margin of excellence, but they do not want to be the 
margin of survival for the Parks. They said, ``We need to see 
the Federal Government step up and to do its part.''
    The NPCA, for example, had said, ``We'd like to see you 
really reach, and using 2006 as a benchmark, if you could 
increase your operating budget by $250 million,'' they knew 
that was a real stretch for us, but the President came in with 
$258 million. So, they're very supportive.
    Now, we turn to that part about the local matches--the 
philanthropy is part of the heritage of national parks. The 
Great Smoky Mountains that Senator Alexander referenced, the 
Rockefeller family stepped forward initially, and said they 
would put forward $10 million in a match if the private sector 
would come forward, that's what was accomplished. I think 
something like 30 of our parks are the result of families or 
foundations that have stepped forward. Historically, we have 
raised approximately $20 million per year from the private 
sector. We believe now, that with this incentive, that we can 
achieve $100 million.
    A recent example would be in Philadelphia when we announced 
this, Rebecca Rimel who is the Director of the Pew Foundation 
said that the Pew Foundation would bring forward $6 million for 
the renovation and restoration of the Ben Franklin Museum in 
Philadelphia. She'd spoken to Governor Rendell where the State 
and private entities would match that $6 million if the Federal 
Government would use its $6 million as a match. So, there's $18 
million that's real, that shows you the response that we get 
from the foundations and the private sector.
    Senator Cochran. Well, that's very encouraging, and again, 
I think it points to the effectiveness of your personal 
involvement and hard work in this area. We are hopeful that 
some of this will spill over into our State and be helpful to 
us as we try to develop tourist-friendly sites along the 
Natchez Trace Parkway for visitors who choose to use that 
scenic parkway as a way of transportation and an educational 
experience, traveling all the way from Nashville to Natchez, 
Mississippi, the Merriweather-Lewis Area where that famous 
person died. There's an initiative underway to enhance that 
particular area for education benefits, for those who are 
interested in early-American history.
    We're also urging the Department to look carefully at 
developing the Chickasaw and Choctaw Native American historical 
areas of interest. Those were the civilizations that were quite 
prominent in the State of Mississippi, but the Cherokee Nation 
in Tennessee is another example of early history, early-
American history that is very interesting, and these National 
resources can be used as a way to make us all more familiar and 
appreciate the contributions to our country that these Native 
American tribes have made.
    So, your support for initiatives that we're trying to 
develop for that Parkway would be appreciated, as well.
    Secretary Kempthorne. Senator Cochran I appreciate what you 
have said, and one of the areas that we are emphasizing with 
the National Parks Centennial, are the trails, so that we can 
link these magnificent entities to one another, and continue to 
have the tourism be very much a part of this.
    It resonates very strongly with me when you talked about 
the revenue-sharing that we're doing with offshore oil and gas. 
I agree in revenue-sharing, I believe in incentives. I think 
this is a very effective tool that's there, and it can 
certainly help with Coastal restoration. I commend you for your 
leadership, post-Katrina, in helping Mississippi to rebuild, 
and the great progress which you're making there.
    Senator Craig. Thank you very much, Senator Cochran.
    Now, let me turn to Senator Pete Domenici. Pete.
    Senator Domenici. Well, thank you very much, Mr. Chairman. 
It's my privilege to be here today. I had to attend an earlier 
hearing on appropriations, and I'm glad that----

                            1998/1999 LEASES

    Senator Craig. Senator, thank you. Before you arrived, both 
the Secretary and the chairman and I dialogued for a moment 
about the lease issue in the gulf, and the chairman had talked 
about using an extension of lease--I know it's something you've 
looked at seriously--to bring those companies into compliance. 
The Secretary was observant, I think, to that conversation, and 
offered to get something done.
    Senator Domenici. Yeah, well the 1998, 1999 leasehold, I'm 
not going to take much time, other than to tell you that it 
will be my proposal that we extend those leases 3 years, the 
first opportunity I have, whichever is first, this committee, 
or the other Committee on Appropriations, or Senator Bingaman's 
Committee on Natural Resources is just authorizing, I will 
offer that, and indicate that that's going to be made available 
to those who were part of that bid process, that time, and I 
think there's an awful lot of them that are willing to sign on, 
in exchange for which they will receive, under my proposal that 
you all have been referring to, they'll receive the extension 
of their leasehold.
    Thank you for bringing that to my attention so I would not 
waste time.

                    INDIAN WATER RIGHTS SETTLEMENTS

    The other matters that are, obviously very, very important, 
I'm sorry the Senator isn't here, but let's put them on the 
table--Indian water rights settlements. I say, Mr. Secretary, 
this year, this Congress, we have three big ones, that are New 
Mexico in origin, and we have been sort of waiting around, 
wondering when the government would be ready, and it looks to 
me like we can't do that, we have to be a bit more active, than 
just being observant, waiting around to see when they will do 
something.
    We will not--we will be much more proactive, we will tell 
the Secretary, and we start today, so that it's totally clear, 
and we are looking for the money that the settlements envision 
and that we are not, we're not going to just say, just run away 
when somebody from your Department, Mr. Secretary, says, 
``Well, where is the money?'' You know, that's kind of a two-
way street. The money's going to be--we're going to ask you all 
where the money is, too, not just you ask us to go to the 
appropriators to find the money.
    The government is going to get stuck with these because 
we're going to be passing the bills, and passing them along, 
and I can't imagine the President of the United States, 
literally, wanting to veto a bill compensating the three Indian 
tribes in New Mexico for 40-year old water rights, 40-year old 
suit, one's 40, one's 30, one's 28--that's how long we've been 
in court--and in one instance, there's been some real give, a 
big kind give, and we've got to get around to the Federal 
Government understanding that with that, you've got to proceed.

                                 ENERGY

    We've got a BLM, present, has indicated $141 million in 
energy and minerals management, a 31 percent increase, we think 
that's, that's much-needed, and we salute him for putting it 
up, and we want to see if we can get the best possible use for 
that.
    The Department of Energy estimates that technically, in 
recoverable oil--shale in the United States is roughly 
equivalent to three times Saudi Arabia reserves. Section 369 of 
the Energy Policy Act directs the Secretary of the Interior, 
that's you, sir--and it directs you to move ahead and I'm very 
pleased that you included $4 million in your, to add to your 
ongoing oil shale activity.
    You will be feeling in your Department, the vitality of 
that investment as the year goes by. You don't have $4 million 
invested out there in shale not to find some real action. 
Between Shell Oil and a couple of others, and the others and 
the activity in shale development this year, will be a big, big 
item. I don't think we ought to hide it from the rest of the 
world, Mr. Secretary. I believe you ought to flaunt it, and 
make sure that the Arab countries know we have it, and it's 
usable, and it's big, big amounts. If done properly, within a 
decade, you might have a very large shale production on the 
continent side of the United States that will be ours.
    Now, that doesn't satisfy some in America, who think we 
need to just not use oil, and this is oil, but to me, it 
satisfies us in the if we get it working, we don't need to go 
down in the gulf and get it, we use our own, and we'll be able 
to use our own. That's something which I think is vitally 
important. I hope you feel the same way.
    If we pursue it with vigor, it wouldn't hurt you, would it, 
Mr. Secretary?
    Secretary Kempthorne. Senator, it would not. I share your 
enthusiasm. I think it's one of those areas where we need to 
look at the innovation. I will tell you that this summer, we 
will be coming forward with a programmatic EIS that allows us 
to do so. So, again, I appreciate--and may I, if I may just 
reference your comments concerning Indian water rights?
    Senator Domenici. Yes.

                          INDIAN WATER RIGHTS

    Secretary Kempthorne. I know how important that is to you. 
It's important to the tribes. Senator Craig and I know from our 
own experience of water rights settlements, and how critical--
especially with water, it's this finite resource. The leader of 
my team within the Department who is charged with that 
responsibility just returned from New Mexico, that was his 
second trip down there, meeting with----
    Senator Domenici. Who was that?
    Secretary Kempthorne. Michael Bogert.
    Senator Domenici. Yes.
    Secretary Kempthorne. He'll be meeting with your staff as 
well, and Senator Bingaman, because we know of your intention, 
and we want to work with you on that.
    Senator Domenici. Thank you very much.
    Secretary Kempthorne. Thank you.
    Senator Domenici. Thank you, Mr. Chairman.

                            1998/1999 LEASES

    Senator Craig. Well, thank you very much, Senator Domenici, 
and I'm anxious to sign on with you, this initiative to try to 
extend those leases. I think that your leadership there solves 
potentially a very big problem that needs to get solved, sooner 
rather than later, and that seems to be a reasonable way to 
approach it.
    I believe this morning she expressed support for that 
approach of the extension. Yeah.
    Senator Domenici. We will have a nice bipartisan group on 
the committee taking it out of here to the full committee, I 
think we'll be on top of it. Some will complain that it doesn't 
pick up everybody, but nothing picks up everybody.
    Senator Craig. No.
    Senator Domenici. I think ours picks up the most. That's 
good. We don't have to, then, do anything to other people that 
is damaging to their rights and privileges as citizens, 
citizen-entities in the United States, we hope that's the case.
    Senator Craig. Thank you.

                        HEALTHY LANDS INITIATIVE

    Mr. Secretary, one last question of you before we let you 
go--the Department's budget includes $22 million for the 
Healthy Lands Initiative split between U.S. Geological Survey, 
U.S. Fish and Wildlife Service, and BLM for large-scale land 
management approaches. Can you describe how healthy, how the 
Healthy Lands Initiative is different than the approaches the 
Agency is currently employing?
    Secretary Kempthorne. Yes, Senator, this will be a joint 
effort between the Bureau of Land Management, Fish and Wildlife 
Service, and USGS. Again, historically there have been efforts 
dealing with parcel by parcel, or where there is energy 
development, wellhead to wellhead, instead of looking at the 
large landscape. This is now to change the emphasis, so that 
we're looking at the entire landscape.
    I'll give you a specific approach to this, which we're 
seeing in New Mexico. I mentioned the creosote plant. It is 
now, what traditionally had been taking up something 10 to 15 
percent of the landscape, is now approaching 80 percent. And 
nothing grows where the creosote plant is. So, what happened? 
What was past practices? Or what was the past practice? It was 
the Chisholm Trail.
    Senator Craig. Yeah.
    Secretary Kempthorne. Now we're using aerial application by 
helicopter with pellets that are specific to the plant and with 
the rains, it is the demise of that plant. The natural grass 
seeds are already there. So we're now seeing a return of the 
historic grasses.
    When we talk about this, Wyoming, for example, you have 
significant wildlife corridors that have been there for 
centuries, and they need to be there for centuries. So we need 
to look at the total landscape so that we don't get down to 
such fine detail that we inadvertently, somehow, squeeze those 
landscapes. We need to ensure that energy development and 
world-class habitat are not mutually exclusive. We're now to 
the point that, with technology, instead of 10 acres per 
wellhead, we're down to a footprint of a half an acre. That's 
part of what this effort is, is to be sensitive to the world-
class environment we have, knowing that we need to have energy 
development for the well-being of the country.
    Senator Craig. Well, I appreciate that explanation. When 
you were talking creosote, I was hoping maybe we could apply 
that in relation to the Juniper, in part, in Eastern Oregon, 
Southwestern Idaho, which has become an invasive species, 
literally wiping out tens of thousands of acres of rangeland, 
upland game bird habitat, as you know. Like creosote, Juniper 
takes over, controls, robs the land of moisture, and obviously 
other vitalities.
    Secretary Kempthorne. Yes, and Senator, in this Healthy 
Lands Initiative, there's six targeted areas, one of which 
includes Idaho, because of the sage grouse.
    Senator Craig. Good.
    Secretary Kempthorne. Because of the critical nature, we 
want to get ahead of the herd, ahead of the curve, with regard 
to the Sage Grouse so that we don't have difficulties that 
could inadvertently cause us to look at the energy development.
    Senator Craig. Well, thank you very much, on behalf of the 
Chairman and myself, let me thank you for your presence here 
today, we'll look forward to working with you as we shape these 
budgets and get them ready. Well, we're in the debate over the 
budget this week, and that will then allow us, this 
subcommittee, to move forward with your budget and the 
appropriating process.
    Secretary Kempthorne. Senator, I appreciate again, number 
one, your friendship, and your years of service to the State of 
Idaho and to the Nation. You're one of our leaders. It's so 
sorely tempting with you as the Chair, and myself sitting here, 
unanimous consent for something.
    Senator Craig. Okay. Thank you very much.

               SENATOR BENNETT'S STATEMENT FOR THE RECORD

    Senator Bennett has submitted a statement that will be made 
part of the hearing record at this time.
    [The statement follows:]
            Prepared Statement of Senator Robert F. Bennett
    Madam Chairman, thank you for holding this hearing today to examine 
the Department of the Interior's fiscal year 2008 budget proposal. I am 
pleased to see my friend, Secretary and former Senator Kempthorne, this 
morning, and look forward to working with him during this year's 
appropriations process.
    I am sure that Secretary Kempthorne has heard from a lot of people 
regarding the department's oil and gas program in my state. Let me give 
you the senator from Utah's perspective on this program.
    Utah is a public land State. Nearly two-thirds of the State is 
managed by a federal agency. The Department of the Interior, through 
the Bureau of Land Management, oversees the management of approximately 
23 million acres of surface area and an additional 10 million acres of 
subsurface rights in Utah. This represents around 44 percent of my 
State.
    I am pleased at the progress the BLM's oil and gas program has 
made, not only in terms of production but also in terms of conservation 
and efficiency. For example, compare these numbers: in 1984, the BLM 
leased almost 20 million acres for oil and gas resources in Utah. 
Today, that number is only around 4.5 million acres.
    Another interesting fact is that the surface disturbance from an 
average well is only about one-quarter of the acreage that it was 30 
years ago. Opponents of this program often fail to acknowledge that in 
Utah, only approximately 30,000 acres experience actual surface 
disturbance from oil and gas operations--that's less than 1 percent of 
BLM managed land in Utah.
    I am also pleased to see your Healthy Lands Initiative included in 
the president's budget. This will help to mitigate oil and gas leasing 
activities, including secondary impacts, and to benefit endangered 
species, such as the sage grouse. We have funded a similar program in 
the Agriculture Appropriations Bill that has been very successful in 
Utah. I also understand that the State has appropriated funds that will 
be used in conjunction with federal funds for this program. This 
program represents real progress, and I am excited at its future 
prospects.
    These successes notwithstanding, we will continue to hear from the 
alarmists that claim that BLM is not properly managing our natural 
resources. I would urge the department to not overreact to such claims. 
I believe that under Secretary Kempthorne's watch, the department has 
taken positive steps to balance responsible development with 
conservation, and has used the appropriate discretion. I would 
encourage you, Mr. Secretary, to continue your course of action, and 
not be dissuaded by the ill-informed.
    Thank you again for the opportunity to discuss the department's 
budget, and I look forward to productive discussions about this 
appropriations bill.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Craig. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
                     san francisco bay restoration
    Question. I would like to direct your attention to a matter of 
critical concern to me and hundreds of thousands of people who live and 
work near the San Francisco Bay. A few years ago I brokered a transfer 
of land for the Fish and Wildlife Service from the Cargill Corporation. 
Cargill conveyed the land in the south bay for salt production so that 
it could be restored to its natural state--tidal flats and marshland 
perfectly suited for wildlife habitat. In exchange for its generosity 
to the United States, the responsibility for restoring the salt ponds 
fell to the new owners, the Fish and Wildlife Service.
    The earthen water control structures at the salt ponds also serve 
as the flood protection for the communities and businesses along the 
south bay. Unfortunately, this presents a serious threat because the 
levees and dikes are made of clay and sand and sit near a fault line. 
The Corps of Engineers acknowledges that the earthworks are inadequate. 
An earthquake or major flood could turn the levees to mush. If this 
happens, we could face a Hurricane Katrina-type catastrophe because 
much of the occupied land near the south bay is 25 feet below sea 
level. Salt water would inundate the valley, causing untold loss of 
life, property, and agriculture.
    What can the Department of the Interior do to address the public 
safety and ecological problems facing the San Francisco Bay?
    Answer. The Fish and Wildlife Service, in partnership with the many 
State, Federal and local agencies, is working on a long-term 
restoration plan for the salt ponds. The final plan and environmental 
documents are expected to be completed by the end of 2007. Phase I of 
the South Bay Salt Pond Project is expected to begin in fiscal year 
2008. Interim steps have already been taken that have increased fish 
and wildlife populations in the area. The South Bay Salt Pond Project 
will restore and enhance a mosaic of tidal marshes and managed ponds. 
Restored tidal marshes will provide critical habitat for the endangered 
California clapper rail and the salt marsh harvest mouse. Large marsh 
areas with extensive channel systems will also provide habitat for fish 
and other aquatic life as well as areas for harbor seals. In addition, 
the restored tidal marshes will help filter and eliminate pollutants. 
Many of the ponds will continue to be managed ponds, while enhancing to 
maximize feeding and resting habitat for migratory shorebirds and 
waterfowl traveling the Pacific Flyway.
    When the Fish and Wildlife Service acquired the salt ponds, the 
Service agreed to maintain the levees in a manner similar to how 
Cargill had done in the past. In fiscal year 2004, the Service 
reprogrammed $2.5 million in construction funds that has been used for 
levee maintenance at the salt ponds. In the fiscal year 2007 Continuing 
Resolution budget, the Service is allocating $1 million in construction 
funds to maintain the levees.
    The salt pond levees in question were never constructed to provide 
flood control for neighboring communities. Rather, Cargill Salt and its 
predecessors constructed and maintained the levees to provide for 
commercial salt production (i.e., the levees were not designed or 
engineered to meet flood control standards). However, with the land 
subsidence that has occurred in the South Bay, these salt pond levees 
have been providing de facto flood protection. Since the Service is not 
a flood control agency, it is cooperating with the Army Corps of 
Engineers, Santa Clara Valley Water District, and Alameda Country Flood 
Control agency, to complete a Shoreline Study that will provide a long-
term flood protection strategy for the South Bay.
      inspector general report on interior department contracting
    Question. The Department's Inspector General reported this January 
that Interior's franchise fund, GovWorks, and its working capital fund 
have repeatedly and routinely violated Federal appropriations law and 
contracting regulations. The most damaging finding was that there was a 
continuing pattern of abuse of the Antideficiency Act by Departments of 
Defense and Interior. DOD purchasers routinely used Interior revolving 
funds as places to ``park'' or ``bank'' funds that were to expire soon 
for later use. Interior ``placed contracts for DOD customers using 
funds from expired funds, thereby circumventing DOD appropriations 
law.'' Approximately $400 million was identified that should have been 
returned to Treasury. Instead, Interior converted these expiring funds 
into multiyear funds.
    The IG points out that the GovWorks retains 4 percent of the DOD 
money it parks to pay for Interior priorities. This certainly gives the 
appearance of profiting from illegal or irregular contracting. I do not 
think running a profitable business center is one of the authorized 
missions of the Department of the Interior. How much money has GovWorks 
retained?
    Answer. Specifically the OIG recommended that certain transactions 
be reviewed to evaluate the potential use of expired funds and to 
research possible non-compliance with contracting regulations related 
to the bona-fide needs rule. NBC has worked diligently with DOI and DOD 
officials to implement operational improvements and much progress has 
been made.
  --Reviews of compliance with fiscal law have been completed for $577 
        million of interagency agreements. As a result of these 
        reviews, GovWorks identified $200 million in funds that were 
        not expired, referred $119 million to the DOD Comptroller for 
        review and determination of compliance with the agency's rules 
        and interagency agreements, and deobligated approximately $235 
        million, which was returned to the respective client agency.
  --Additional controls have been implemented to ensure that 
        acquisition requisitions provided by the requesting agency 
        identify a bona fide need before the purchase request is 
        accepted and prior to any contract action being taken.
  --Since DOD has implemented policies that are more restrictive than 
        the applicable legislation, the DOD and DOI have jointly 
        developed and approved a Memorandum of Agreement that further 
        defines the roles and responsibilities of the respective 
        organizations and includes additional improvement actions to be 
        completed.
    GovWorks provides acquisition services to Interior bureaus and 
offices, as well as other Federal agencies, under authority of the 
Government Management Reform Act of 1994 and the 1997 Interior and 
Related Agencies Appropriations Act, which established the Interior 
Franchise Fund in 1997.
    From its inception over 10 years ago, GovWorks has evolved into a 
major provider of cost competitive acquisition services for Interior 
bureaus and offices and other Federal agencies. We believe that much of 
the acquisition work provides value added to Interior by contributing 
knowledge and skills to core service areas for Interior, but we are 
currently reviewing the scope of our acquisition services to see if 
further changes are merited.
    Of the $1.4 billion in contract funding received from customers in 
2006, GovWorks retained $47 million or 3.2 percent. This funding 
supported GovWorks acquisition services including development, 
administration and close out of the contracts. Funding used supports 
the acquisition staff and support costs, maintenance of reserves for 
annual leave, depreciation, and potential shut-down costs and for 
capital improvements. The majority of the retained earnings support the 
122 Federal employees and 76 contract employees that perform the 
acquisition services.
    In prior years GovWorks had retained earned amounts each year as 
follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                            Year                                Amount
------------------------------------------------------------------------
2001.......................................................          4.6
2002.......................................................         10.9
2003.......................................................         30.5
2004.......................................................         40.2
2005.......................................................         44.0
2006.......................................................         47.4
                                                            ------------
      Total................................................        177.6
------------------------------------------------------------------------

    The overall percent of fee earned for this period was 3.1 percent 
of contract dollars awarded.
    Question. What did your Department do with these funds?
    Answer. Funding retained was used for operation of GovWorks as well 
as for reserves and investments in equipment and financial management 
improvements. Of the total $177.6 million retained through 2006, $126.9 
million was used to support operations of GovWorks, $1.8 million was 
retained for reserves for accrued annual leave and depreciation, and 
$42.5 million was used for investments. These investments include 
funding for the Financial and Business Management Information System, 
Enterprise Services Network and Information Technology Security 
improvements. These investments provide or will provide enhanced 
information technology and financial services and systems to Interior 
and its customers. For example, GovWorks Interior and other 
governmental customers will benefit from the modernized acquisition 
module of the Financial and Business Management System that is being 
deployed.
    Question. Please explain why this committee should not close this 
enterprise down.
    Answer. The acquisition organizations in DOI are operating in 
compliance with legislation specific to the Department and/or under 
legislation applicable to all Federal agencies as a Federal service 
provider.
    GovWorks provides high quality acquisition services at competitive 
prices. By offering acquisition services that are related to Interior's 
mission, GovWorks can provide specialized, unique services to Interior 
bureaus that may not be available in-house. For example, GovWorks 
manages the Department's contracts for major information technology 
investments--these projects are on a scale and complexity that requires 
skills and capacity that may not available through in-house acquisition 
staffs. GovWorks also has staff that can focus on areas of expertise, 
hiring experts and providing specialized training to create centers of 
excellence. Interior and other customers benefit directly from these 
services by spreading costs over a larger client base resulting in 
lower operational costs resulting from economies of scale and 
efficiencies.
    Further, GovWorks has able to attract and retain the highly 
technical and professional employees who perform these services and are 
thereby able to provide improved expertise and timely support and at 
the same time assure compliance with the complex laws and regulations 
that surround Federal financial and administrative programs.
    Finally, the ability to utilize earning reserves for equipment and 
financial improvement allows the lines of business to have funds to 
invest in improvements and enhanced services that benefit all 
customers. An example, GovWorks' Business Information System provides 
customers with an automated system to track acquisition requests and 
the status of their acquisitions throughout the process from inception 
to close-out.
    Interior has and will continue to implement improvements based on 
the OIG recommendations to strengthen oversight and management of 
GovWorks and the Franchise Fund in order to address the Subcommittee's 
concerns. The following highlights some of the actions that we have 
taken:
  --Established and filled an SES leadership position for the 
        acquisition program.
  --Developed and implemented new policies and enhanced procedures and 
        guidance to ensure funds and contracts are administered in 
        compliance with applicable laws, policies, and regulations. 
        This has included additional requirements regarding the 
        determination of price reasonableness, enhanced file 
        documentation, strengthened procedures for producing the 
        independent government cost estimates, and use of checklists to 
        ensure that all required procurement actions are taken and 
        adequately document.
  --Broadened training requirements for procurement professionals to 
        ensure compliance with FAR and Appropriations Law provisions.
  --Established a new internal review team tasked with conducting 
        independent quality reviews of randomly selected procurement 
        actions to ensure that acquisition procedures are being 
        followed and appropriately documented.
  --Enhanced DOI legal reviews for both solicitation and award. All 
        contracts valued at over $500,000 are reviewed by the Office of 
        the Solicitor.
  --Establishing a formal review program conducted annually and 
        performed by an independent organization/entity (consistent 
        with Department risk assessment program) using sampling 
        techniques to review compliance with FAR, Department/NBC 
        acquisition policies, documentation requirements, etc.
                         wildland firefighting
    Question. Interior's wildland fire management budget request 
includes a proposal to decommission six Type-1 firefighting crews. 
These are the ``hotshot'' crews who lead the frontline fight against 
major wildfires. Why are you shutting down 6 of your top crews when the 
trend has been for more and more severe fires?
    Where are these six crews headquartered--are any in California?
    Answers. While the request notes the reduction in the number of 
hotshot crews, it also provides for an increase in the number of 
initial attack firefighters.
    The Budget proposes reconfiguring approximately 6 hotshot crews, 
which are typically mobilized on long-duration fires, into initial 
attack resources. Individuals would retain their Type-1 credentials, 
and these highly skilled firefighters would be used to build efficient, 
effective and mobile initial attack forces to respond to high-priority 
new fire starts. Critical fire expertise would be retained, but their 
focus would be on keeping fires small. These reconfigured crews would 
be positioned according to where our Predictive Services group believes 
significant fire activity is most likely to occur.
    We are continuing to assess options that would allow us to maintain 
the best possible fire response organization; however, no decisions 
have yet been made regarding which crews, in which locations, would be 
affected.
    Question. The request also zeroes out wildfire assistance grants to 
rural fire departments--the same fire departments that respond and put 
out thousands of wildfires every year. I must tell you that this 
proposal is penny-wise and pound-foolish. These fire departments 
provide an indispensable first response for only $10 million per year. 
I believe these small fire departments, most of them volunteers, save 
the Federal Government many times that amount in fires they suppress 
before they become Federal responsibilities. What incentives do you 
plan to offer rural fire departments in exchange for taking on the 
costs and risks for responding to wildfires?
    Answer. Rural and community fire departments are indeed an integral 
and important component of the nation's wildland fire community. Their 
first-response capabilities are crucial to keeping many wildland fires 
small and manageable, and we agree their services result in tremendous 
cost savings to taxpayers.
    Although Rural fire assistance was a highly successful program from 
2001-2006, it had achieved the primary goal of updating the equipment 
and prevention programs in rural fire departments across the country. 
The program is also duplicative of other Federal fire assistance grant 
programs administered by the Forest Service and the Department of 
Homeland Security.
    We have turned our focus and funding to the Ready Reserve program, 
which provides training to rural departments to enhance their expertise 
and capability in responding to and managing wildland fires. The Ready 
Reserve program is available to the same departments served by the 
Rural Fire Assistance program and is designed to provide critical 
training that meets the needs and schedules of those departments and 
firefighters. This training is available on-line or in packages 
specifically designed to be presented in classrooms and within 
timeframes that meet the needs of rural and community fire departments.
    The goal of the Ready Reserve program is to develop fully trained 
local response units and teams capable of managing a wildfire incident 
within their jurisdiction. More than $1.8 million was allocated to the 
Ready Reserve program in 2006, and an additional $1.8 million is 
targeted for the program in 2007. The 2008 Preparedness budget request 
includes $1.3 million for the Ready Reserve program. The reduction 
reflects completion of the Ready Reserve training package re-write.
    Question. How much funding will rural fire departments in 
California lose because of this proposal?
    Answer. During the life of the Rural Fire Assistance program, 
annual funding to California ranged from $350,000-$390,000. If the 
program had continued, we would expect the amount of RFA grants to 
decline as departments achieved upgrades in their equipment and 
prevention programs. We still offer training to these same departments 
through the Ready Reserve program.
    Also, through the California Department of Fire and a high number 
of full-time, professional departments at the local level, we note the 
State has a first class fire community. We are pleased our 
contributions have contributed to their capability.
                              polar bears
    Question. According to recent accounts in the Washington Post and 
the New York Times, the Director of the Fish and Wildlife Service has 
forbidden his agency's premier polar bear scientists from discussing 
climate change, polar bears and sea ice at international conferences. 
This gives the appearance that he is trying to prevent the truth about 
the seriousness of the threat to polar bears from getting out. Of 
course all the attendees at these conferences are very knowledgeable 
about global warming and the threats to polar bears. Is it now Interior 
Department policy for scientists to be forbidden to publicly discuss 
their areas of expertise?
    Answer. Long-standing Departmental policy requires employees who 
are traveling to foreign countries to make an official foreign travel 
request through our International Affairs office, which forwards these 
requests through the Director's Office to the Assistant Secretary. 
These requests must include the purpose of the travel and the subjects 
expected to be discussed. This policy is intended to ensure that all 
foreign travel is focused on achieving a clear purpose, is cost-
effective and conducted in accordance with Federal laws and policies. 
This policy has been in place for at least two decades within the 
Service. The Service does not, however, limit the ability of our 
scientists to engage in open dialogue with international colleagues on 
climate change, polar bears, sea ice reduction or any other issue 
clearly within their professional discipline while on foreign travel. 
We do, however, specifically assign responsibility for various topics 
among our scientists and manage foreign diplomatic meetings to 
designate which scientists are responsible for various issues.
                           volunteer programs
    Question. The President's budget request includes reductions to 
volunteer programs in several agencies. Volunteers provide the agency 
with hundreds of thousands, perhaps millions, of hours of labor to 
national parks, scenic trails, and wildlife refuges. While their labor 
is donated, volunteers require training, tools, supplies, and travel 
money to do their great work.
    Please provide for the record a table showing 2006 enacted 
appropriations, 2007 funding, and 2008 requests for all of the 
Department's volunteer programs.

                     FUNDING FOR VOLUNTEER PROGRAMS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                       2006         2007         2008
              Bureau                 enacted      enacted      request
------------------------------------------------------------------------
BLM..............................        1,278        1,300        1,300
OSM..............................           60           35           35
USGS.............................           30           30           30
BOR..............................           10           10           10
FWS..............................          735          735          735
NPS..............................        1,831        1,832        5,232
Take Pride.......................          493          495          513
                                  --------------------------------------
      Total......................        4,437        4,437        7,855
------------------------------------------------------------------------

                        healthy lands initiative
    Question. The President's request includes a $22 million increase 
for a healthy lands initiative to improve wildlife habitat while 
allowing recreation and energy production. These seem to be mutually 
exclusive activities. Would you give us some examples of how this would 
work?
    Answer. Improving wildlife habitat and allowing for recreation, 
energy development and other uses are not mutually exclusive when 
approached on a broad scale. For example, the Green River Basin in 
southwest Wyoming contains tremendous energy resources and world-class 
wildlife, including moose, deer, elk, pronghorn and sage-grouse. The 
Healthy Lands Initiative proposes to focus habitat restoration dollars 
on the most important wildlife habitat areas while energy development 
occurs in the most energy-rich areas. The Healthy Lands Initiative is 
not a substitute for onsite mitigation required of energy developers. 
It is designed to complement it. The 2008 BLM Budget Request includes 
$15.0 million for the Healthy Lands Initiative for habitat restoration 
work in six BLM project areas: New Mexico ($3.5 million), Wyoming ($4.5 
million), Utah ($2.0 million), Oregon/Idaho/Nevada ($1.9 million), 
southern Idaho ($1.8 million) and Colorado ($1.3 million). An 
additional $8.2 million in existing funding from various BLM 
subactivities complements the $15 million in new HLI funding for a 
total of $23.2 million available for restoration activities in the six 
emphasis areas of the Initiative. The 2008 Healthy Lands Initiative 
includes additional funding for USGS ($5.0 million) and FWS ($2.0 
million) to support and complement BLM's habitat restoration and 
conservation efforts in the Green River Basin area of Wyoming.
    These project areas were selected because partnerships were already 
in place and NEPA compliance had already been completed. The $23.2 
million in BLM funding will be augmented by private and State 
contributions to achieve immediate results on the ground. BLM estimates 
that its $23.2 million will allow the agency to treat 317,000 acres of 
important wildlife habitat through such means as treating weeds, 
establishing native plants, treating pinyon juniper encroachment and 
improving riparian areas by installing erosion control structures, 
planting willows and cottonwoods, and fencing. The BLM further 
estimates that partner funding will support the treatment of an 
additional 90,000 acres, including 56,000 acres of BLM land and 34,000 
acres of non-BLM land.
    The energy industry is already engaged in projects to support the 
Healthy Lands Initiative. In Utah, for example, energy companies, 
including Questar, Enduring Resources, and the Bill Barrett 
Corporation, are collectively providing $180,000 for projects that 
support Utah's statewide Initiative. In New Mexico, the industry 
contributed $365,000 last year to reclaim roads and pads from orphaned 
wells. The industry also worked with BLM and used their own equipment 
to remove the hard clay soils that were impeding plant growth.
    The Healthy Lands Initiative will also improve habitat in areas not 
affected by energy development, but impacted by other pressures such as 
weed invasions and drought. That is the goal for projects in Nevada, 
southeast Oregon and southwest Idaho, where sage-grouse habitat is 
slated for improvement. Once the six proposed projects prove 
successful, BLM would look to expand the initiative to other key areas 
where Federal and partner investments could reap the greatest return 
for the habitat.
    Question. The budget justification claims that $10 million is 
anticipated from partner contributions. Why would you expect such a 
large amount in contributions? What is the basis for this estimate?
    Answer. This estimate is based on recent experience with the BLM in 
New Mexico and Utah and their completion of vegetation enhancement work 
at the landscape level and success in working with partners. In 
particular, Utah partners committed more than $8.0 million in 2005 to 
restore more than 120,000 acres of public and private land within 22 
counties. The Utah State Legislature contributed $2.0 million of the 
total $8.0 million to support the State's ongoing watershed 
conservation program in 2005 and followed that up with a similar 
appropriation in 2006. Utah energy industry/commercial oil and gas 
exploration and development companies, including Questar, Enduring 
Resources, and the Bill Barrett Corporation, have provided $180,000 in 
funding for habitat management project work. This has included funding 
for archeological surveys, a 1,000 acre pinyon-juniper lop and scatter 
project, a 4,000 acre pinyon-juniper chaining project, and an agreement 
to manage a recently acquired 5,000 acre block of private land for the 
benefit of wildlife.
    In New Mexico, the energy industry contributed $365,000 in 2006 to 
reclaim roads and pads from orphaned wells and provide other 
reclamation work, such as reseeding.
    Question. Over $4.2 million of the Healthy Lands request is offset 
by a reduction in the wild horse and burro budget. What impacts will 
there be to wild horse and burro populations from this 12 percent 
budget cut?
    Answer. By December 2007, the wild horse and burro program is 
expected to be near the Appropriate Management Level for wild horses 
and burro populations, which is the closest the program has ever come. 
We do not expect to conduct any BLM gathers; however, we will conduct 
gathers for the Forest Service which they pay for under an interagency 
agreement. The BLM's focus will be on caring for the animals off the 
range and promoting the adoption and sale of animals in both short-term 
and long-term holding facilities in order to reduce holding costs in 
future years. As of February 2007, there were approximately 28,900 
animals on the range and 29,000 in holding facilities. The population 
on the range by the end of fiscal year 2007 will be approximately 
31,000 with approximately 31,000 animals in holding facilities. The BLM 
will continue to search for ways to decrease costs of long-term holding 
and increase adoption rates. If cost savings are found, BLM gathers 
will be conducted with the funds saved.
                    oil and gas legislative proposal
    Question. The budget request includes proposed legislation that 
would undo provisions of the recently enacted Energy Policy Act. 
Specifically, oil and gas leasing rental receipts would be redirected 
to the general Treasury, and BLM would be able to impose processing 
fees for approving applications for permits to drill (APD). I 
understand why the agency would want to offset some of its costs for 
APD approval, but why are you proposing to give up lease rental 
receipts? How much in lease rentals would BLM return to the Treasury?
    Answer. The BLM believes that the objectives of Section 365 of the 
Energy Policy Act, which called for improved cooperation with other 
Federal and State agencies, can be implemented using cost recoveries as 
the funding source for these important initiatives, rather than 
diverting rental revenue that is needed for other national priorities. 
The BLM would return an estimated $21 million in annual mineral lease 
rental receipts to the Treasury, if the administration's proposal is 
adopted. BLM expects to fully offset the foregone leasing rental 
revenues with cost recoveries.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
  u.s. geological survey--national stream gaging network modernization
    Question. The national network of stream gages provides an 
invaluable tool to water managers across this country in planning for 
water programs, regulating flows, meeting federally mandated compacts 
between States, measuring legal requirements in treaties with our 
neighboring countries of Mexico and Canada, anticipating and reacting 
to flood conditions and many other purposes. The stream gage network 
receives its funding through two USGS programs--the National Streamflow 
Information Program (NSIP) and the State Cooperative Water Program. The 
President's fiscal year 2008 budget provides an increase of $2 million 
for NSIP but no increase for the Cooperative Water Program. The 
increase for NSIP will barely cover the increase in costs and will do 
little to address the backlog of maintenance and other problems left in 
the system by Katrina and other floods. Additionally, this increase 
does not provide for the expansion of the system essential to improving 
our understanding of the nation's water resources.
    What is the size of the existing backlog of maintenance and repairs 
for stream gages nationwide? What is the size of the backlog for stream 
gages in New Mexico?
    Answer. There is a maintenance backlog for streamgages in New 
Mexico as there is for streamgages nationwide. The President's fiscal 
year 2008 Budget Request includes an increase of $1.4 million to fund 
fixed costs of Federally-funded streamgages in the national 
streamgaging network, which includes maintenance. This funding will 
support continued operation and maintenance of currently active 
streamgages that are part of the NSIP national network and funded in 
cooperation with others, in cases where partners are no longer able to 
provide adequate funds. The use of these funds will help keep the 
network more stable and reduce the loss of streamgages in the future, 
including New Mexico streamgages.
    Question. How does the administration plan to address this backlog 
and make a sufficient investment in the national river monitoring 
network to ensure that it continues to fulfill its many crucial 
functions?
    Answer. Because of the cooperative way most USGS streamgages are 
funded, funding shortfalls could be from partners, the USGS, or both. 
This is the instability in the network that the NSIP ``backbone'' 
Federal goal streamgaging network is designed to lessen or eliminate 
for priority streamgages. The goal of NSIP is to provide a unified 
network to meet National needs of streamflow information while ensuring 
that local needs continue to be met. The President's fiscal year 2008 
Budget Request includes a $1.4 million increase for NSIP, over and 
above the $2.325 millon increase in the fiscal year 2007 President's 
Budget request which is reflected in the fiscal year 2007 operating 
plan. These increases will keep the network more stable and reduce the 
loss of streamgages in the future. They will fund currently active 
streamgages in the national network, to reactivate recently 
discontinued NSIP Federal-goal streamgages, or to supplement funding 
for operation and maintenance of NSIP Federal-goal streamgages that are 
currently active but funded through partnerships. The exact allocation 
of funds from this increase will be determined when partner 
contributions to network operations for 2008 are better known.
  u.s. geological survey--water resources research institutes funding
    Question. The National Water Resources Research Act Program 
provides a strong partnership between the Federal geological research 
in the USGS and that partially funded by 54 State research institutes. 
However, the President's budget again does not provide any funding for 
this program.
    Why has the USGS again eliminated funding for the Water Resources 
Research Institutes?
    Answer. The State Water Resources Research Institutes have been 
highly successful in leveraging the USGS grants under the Water 
Resources Research Act Program with other Federal and non-Federal 
funding. The Department considers this program a success, as the 
initial grants from the Department were considered implementation 
funding for the Institutes. Today, the Department anticipates that the 
majority of these Institutes will be able to continue operations 
without Federal grant funding, due to the successful partnerships that 
the Institutes have been able to make with others.
    Question. What funding will be provided to the Water Resources 
Research Institutes out of the fiscal year 2007 funding available to 
the USGS?
    Answer. The USGS operating plan for 2007 includes $5,404,000 for 
the Water Resources Research Act Program, a decrease of $1,000,000 from 
the 2006 funding level. Each of the Institutes will receive a base 
grant in the same amount as last year's, and only the competitive 
grants program will be affected by this reduction.
   u.s geological survey: united states-mexico transboundary aquifer 
                               assessment
    Question. Congress passed the United States-Mexico Transboundary 
Aquifer Assessment Act of 2005 (Public Law 109-448) at the end of the 
109th Congress. This law authorizes the USGS to undertake 
characterization of the aquifers underlying the U.S.-Mexico border. 
This specific region has significant importance to meeting treaty 
obligations with Mexico and for managing two of the most important 
river systems in the western part of the nation--the Rio Grande and the 
Colorado.
    While this new program was not authorized during the time that the 
President's fiscal year 2008 budget was being developed, it is 
essential that the program be initiated given the continued drought 
that afflicts much of the Western United States and growing population 
demands on these water systems.
    What financial and human resources can the USGS dedicate from the 
fiscal year 2007 and fiscal year 2008 budgets to initiate this program?
    Answer. The 2007 and 2008 budgets include no funding for projects 
specifically for the U.S.-Mexico Transboundary Aquifer Act. The USGS 
has begun discussions with the International Boundary and Water 
Commission, representatives from Mexico, and representatives from the 
three State Water Resource Research Institutes who would be partners in 
this program. Mexico has been very receptive to the idea of this work 
and to the concept of cost-sharing that is stipulated in the Act.
                            1998/1999 leases
    Question. Mr. Secretary, one of the ideas that I have been thinking 
of--and I know Senator Feinstein has been looking at this as well--is 
by statute giving the Department of Interior the authority to extend 
the 1998/1999 leases for an additional three years in exchange for the 
lessees agreement to apply price thresholds on the 1998/1999 leases. 
What assurance can you give, if any, based on your preliminary 
discussions with these companies, that they would in fact agree to such 
an arrangement? In other words, what percentage of the full amount of 
the $10 billion over 25 years that has been lost as a result of the 
failure of the Clinton Administration to put thresholds on the leases, 
would you expect to recover from such a provision?
    Answer. We estimate that had the 1998 and 1999 leases included 
price thresholds, the government would have received between $6 and $10 
billion in royalties over the life of the leases that produced or that 
are expected to produce. If the leases had included the price 
thresholds, we estimated that nearly $1 billion in royalties would have 
been paid on resources that have already been produced.
    On December 14, 2006, six companies signed agreements with the 
Department of the Interior to establish price thresholds for deep water 
royalty relief in connection with the leases each company holds from 
sales held in 1998 and 1999.
    While we have had discussions with the companies that have not yet 
signed agreements, it is difficult to predict how many companies would 
be willing to sign agreements if Congress extended the lease terms by 3 
years. Extending the lease terms is one option that was suggested by 
one of the companies during our discussions. We cannot say whether this 
option would encourage the remaining companies to sign agreements. 
However, whatever the motivation of individual companies to 
renegotiate, if all of the remaining holders of interests in 1998 and 
1999 deepwater leases that are expected to produce were to sign 
agreements, we estimate that an additional $4.6 to $7.7 billion in 
royalties could be paid on future production over the life of these 
leases.
    In order to solve this problem, the administration and the Congress 
must work together to ensure that we have the authority to reach an 
appropriate resolution. We appreciate Congress' efforts to encourage 
companies to come to the negotiating table.
    Question. Please comment on your thoughts of Congress setting up an 
independent panel or a special master, or giving you the authority to 
appoint such a person to settle this price threshold issue created by 
the Deepwater Royalty Relief Act of 1995 and the failure of the 
previous administration to implement it properly?
    Answer. In the present circumstances, we do not see a particular 
advantage in establishing a panel or granting authority to appoint a 
special master. Special masters ordinarily are appointed in the context 
of adjudications involving highly complex factual situations. Our 
efforts to resolve the problems with the 1998 and 1999 deep water 
leases involve neither complex facts nor adjudication.
    Question. In your judgment, would Congress create a cause of action 
for the 1998/1999 lessees with a reasonable likelihood of success on 
the merits if it mandated that the Secretary apply a different royalty 
rate going forward for those 1998/1999 lessees who agree to apply price 
thresholds to their leases and those who do not? Potentially, what 
specific impact would an injunction on lease sales in such an instance 
have on our domestic production of oil and gas?
    Answer. We appreciate Congress's efforts to encourage companies to 
come to the negotiating table. However, we must be mindful of potential 
unintended consequences. Were Congress to mandate a different royalty 
rate on future leases only for lessees who own interests in 1998 or 
1999 deep water leases who have not entered into agreements to apply 
price thresholds, we believe that it is very likely that the Department 
would become embroiled in litigation challenging such a law or seeking 
to enjoin a future lease sale in which such a law would be applied, or 
both. If a judge were to enjoin future lease issuance for a period of 
time, the resulting impacts would be significant. Litigation could take 
years to resolve. The MMS has attempted to project the potential loss 
of production, revenue and royalties if lease sales were delayed for a 
3-year period. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Attached Figure C shows for example MMS' estimate that, for a 3-
year delay, production over 10 years could be reduced by 1.6 billion 
barrels of oil equivalent (boe).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Attached Figure D shows for example, the potential cumulative 
revenue decline over a 10 year period of $13 billion for a 3-year 
delay.
    I believe we would all agree this would not be in the Nation's best 
interest. The Outer Continental Shelf (OCS) is a significant supplier 
of our nation's oil and gas. We cannot afford major delays in offshore 
energy production due to unintended consequences.
    Question. Based upon all that you know about the 1998/1999 lease 
issue, do you believe that the failure to include price thresholds on 
those leases during the Clinton administration amounts to the legal 
definition of ``mistake''?
    Answer. It is my understanding that lawyers for both the Department 
of the Interior and the Department of Justice have been closely 
examining the legal definition of ``mistake'' in the context of the 
1998 and 1999 deep water leases and are still in deliberation.
    Question. Hypothetically, if Congress mandated that you issue 
regulations within a year that resulted in recovering the full amount 
lost as a result of the failure to include price thresholds on the 
1998/1999 leases, how do you think you would achieve that objective?
    Answer. It is not clear what type of regulations this question 
contemplates. MMS cannot unilaterally add price threshold terms to 
leases that do not include them by promulgating a regulation 
(particularly if the rule effectively constituted a retroactive 
change). MMS also cannot by regulation require lessees to pay the 
equivalent of royalty on production that under the terms of their 
leases is exempt from royalty. If the question contemplates seeking to 
recover the equivalent of the royalty amount from parties other than 
the lessees of the 1998 and 1999 deep water leases who owned interests 
at the time of production, it is not apparent how MMS could do this by 
rule.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
    Question. Mr. Secretary, can you tell me what--if anything--the 
agencies within the Department of Interior are doing to address the 
bark beetle problems on public lands throughout the Rocky Mountain 
Area?
    Answer. The BLM has been diligently working on bark beetle problems 
in the Rocky Mountain States for many years. In fiscal year 2006, the 
BLM allocated approximately $900,000 from the Public Domain Forest 
Management program to projects that help address bark beetle problems 
in the Rocky Mountain region. This allocation was repeated in fiscal 
year 2007 and is expected in 2008 as well. In addition, in fiscal year 
2007, the BLM will allocate $1,860,000 to the same Rocky Mountain 
region from the Forest Ecosystem Health Recovery Fund for forest health 
and restoration treatments, including insect and disease treatments.
    The BLM's commitment at the State level can be demonstrated by its 
active participation in the Northern Colorado Bark Beetle Cooperative. 
The main objectives of the Cooperative are to address urgent concerns 
about forest health and wildfire risk to communities and watersheds, 
the loss of key wildlife habitat, and the impacts to local economies. 
This Cooperative works to treat infested areas with salvage efforts and 
fuels reduction programs.
    The North Park Stewardship Project, located in Jackson County, 
Colorado, is an example of the project work being planned and initiated 
under this Cooperative. In fiscal year 2006, the BLM sent an additional 
$200,000 to the Colorado BLM State office to plan this large scale 
stewardship contract to respond to the bark beetle infestation in north 
central Colorado. The BLM expects to implement the stewardship project 
in 2007 with the signing and execution of the North Park Stewardship 
Agreement with Jackson County and the addition of $50,000 of Public 
Domain Forestry funding. The BLM is anticipating that in the first year 
of implementing the Operating Plan, 1,000 acres of beetle infested 
trees could be removed as salvage timber or through fuels reduction 
projects. The project has the potential to treat up to 15,000 acres of 
beetle infested BLM managed public lands over the 10 year span of the 
project.
    Question. Please tell me a little more about the Safe Indian 
Communities Initiative and how this initiative will work with tribal 
communities to work toward the elimination of meth in those 
communities?
    Answer. The $16 million Safe Indian Communities Initiative in the 
2008 budget is the first of a multi-year investment to address the 
methamphetamine crisis in Indian country.
    Indian country is faced with the ever increasing threat of drug 
trafficking. In many cases, international drug cartels from Mexico and 
Canada have targeted Indian country as a production and distribution 
point for methamphetamine. This is because of the lack of specialized 
training and law enforcement presence to combat organized crime's 
efforts on Indian lands. Currently BIA has only eleven certified drug 
enforcement officers to service all of Indian country. The budget 
increase will combat the highly visible drug crisis by developing and 
providing specialized drug enforcement training for one hundred 
additional BIA and tribal officers. As a result, more officers on 
patrol will have the essential knowledge and tools to break up drug 
trafficking, disrupt the activities of organized crime groups and 
international cartels, and seize illegal substances. This reduction in 
trafficking and drug supply will have residual positive impacts in 
communities surrounding Indian lands, as well. Increased Federal tribal 
law enforcement activity combined with local city and county law 
enforcement will allow for better coordination between tribal and non-
tribal law enforcement agencies.
    Additionally, these funds will allow for a more robust 
methamphetamine public awareness campaign to educate the at-risk 
American Indians about the dangers of methamphetamine and its affects 
on both physical and mental health. The education campaign will utilize 
the highly successful ``mobile meth labs'' to alert communities to the 
warning signs of clandestine drug labs and the environmental dangers 
associated with these toxic environments. Additionally, the public 
awareness campaign will leverage existing partnerships between the 
Bureau of Indian Affairs, the Office of National Drug Control Policy, 
the Department of Health and Human Services, the National Congress of 
American Indians, and the Partnership for a Drug Free America that are 
currently working to develop an Indian country specific methamphetamine 
public awareness campaign. By increasing the number of officers with 
specialized methamphetamine interdiction training, and by educating the 
public about the dangers of methamphetamine, BIA will take further 
steps toward battling methamphetamine and other drugs in Indian country 
in order to ensure safe and healthy Indian communities.
    With the dramatic increase in violent crimes resulting from 
methamphetamine and the significant shortage of law enforcement 
officers, BIA and tribal law enforcement agencies are often forced to 
make difficult staffing decisions that place their officers and the 
community at risk. This funding will also be used to address this 
shortage by adding fifty one additional officers and enable targeted 
agencies to more directly combat the methamphetamine crisis in Indian 
country.
    Question. How do you plan to work with Congress to provide States 
with more control over the implementation of laws and regulations, for 
example the ESA?
    Answer. The Department continues to work with Congress to ensure 
that laws and regulations pertinent to the mission and programs of the 
Department of the Interior are carried out as effectively as possible. 
The Department also continues to strive to find collaborative efforts 
and partnerships that enhance opportunities to foster a culture of 
responsibility in implementing legislation.
    Interior agencies also continually strive to improve regulations 
and policies to ensure that they are explicit, well defined, and 
consistent with current laws. Program Assessment Rating Tool review of 
the Endangered Species program found that FWS can make improvements in 
endangered species-related regulations and polices. This may include 
revising the definition of adverse modification, issuing critical 
habitat guidance, and explicitly characterizing the benefits of 
critical habitat designations. FWS is currently working on these 
improvements as well as developing a process for regularly scheduled 
independent evaluations of the program.
    The Department is also focusing resources on cooperative 
conservation programs, such as the Private Stewardship Grant, Landowner 
Incentive, and Partners for Fish and Wildlife programs, that foster a 
non-regulatory approach to solving conservation problems at the local 
and State level.

                          SUBCOMMITTEE RECESS

    Senator Craig. Okay. Thank you all very much. The 
subcommittee will stand in recess to reconvene at 10 a.m., 
Tuesday, May 22. At that time we will hear testimony from the 
Honorable Mark Rey, Under Secretary for Natural Resources and 
Environment, Department of Agriculture and Abigail R. Kimbell, 
Chief, U.S. Forest Service.
    [Whereupon, at 11:20 a.m., Tuesday, March 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 22.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         TUESDAY, MAY 22, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Craig, Stevens, Cochran, 
Gregg, Allard, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF HON. MARK REY, UNDER SECRETARY
ACCOMPANIED BY LENISE LAGO, BUDGET DIRECTOR

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. The meeting of the Interior 
Appropriations Subcommittee will come to order. I'd like to 
thank you for attending this hearing on the President's budget 
request for the U.S. Forest Service.
    I'd like to welcome Mark Rey, the Under Secretary for 
Natural Resources and Environment at the Department of 
Agriculture. Under Secretary Rey is accompanied by Lenise Lago, 
the Budget Director for the Forest Service.
    I just want to point out to you that the Chief, Gail 
Kimbell, couldn't be with us today because she's traveled to my 
State, California, to attend the release of the report on last 
year's deadly Esperanza Fire, which took the lives of five 
firefighters in California.
    I happened to go to their funerals, and it was just a 
terrible, terrible thing. I'm very sorry Chief Kimbell could 
not be with us today, but I'm very pleased that she's focusing 
her attention on ensuring the health and safety of our 
firefighters.
    Mr. Rey, as I think you know, approximately 20 percent of 
all the land in California is national forest lands, so this 
account is particularly important to me.
    The President has requested $4.1 billion for the Forest 
Service in fiscal year 2008. This request reduces the agency's 
budget by $200 million from the 2007 enacted level. That's a 
4.6 percent cut.
    These cuts will have a huge impact on the 193 million acres 
of forest and grasslands across the country. As ranking member, 
Senator Craig knows, and Senator Cochran and Senator Stevens, 
we've all tried to work together to create a situation where we 
could both manage our forests and fight our fires in a much 
more effective manner.
    So I'm worried that many of these cuts are being driven by 
the skyrocketing costs of fighting wildfires, and unless 
something changes, the problem's only going to get worse. 
Funding for the 10-year average for fire suppression has 
increased by 23 percent over last year, for a total of $911 
million.
    That means that fire programs now account for 45 percent of 
the Forest Service budget. That's a doubling from 2000--I think 
this is good news, actually--when fire programs accounted for 
21 percent of Forest Service spending.
    I'm concerned, though, that if we continue at this pace, 
the Forest Service will turn into the Nation's fire department 
instead of a land management agency. I understand the choices, 
and I appreciate them, however.
    To pay for these increases, the administration is proposing 
steep program reductions, including $108 million in cuts to the 
operating budgets of national forests, an 8 percent reduction, 
and $78 million in cuts to grants and assistance for State and 
private landowners. That's another 28 percent cut.
    Funding for hazardous fuels reduction is also reduced from 
$301 million to $292 million. As you know, fuels reduction is a 
big public safety issue, since nearly 7 million people in my 
State alone live in the wildland-urban interface near southern 
California forests.
    I should also point out that there has never been more 
drought in southern California than there is today, so this 
year's fire season is very worrisome.
    I'm also concerned about the cuts to the Fire Preparedness 
Program. The Service's budget includes $97 million in cuts for 
training, equipment, and support staff. That's a 15 percent 
reduction. We've seen recently catastrophic wildfire already.
    Despite these enormous budget holes, I'd really like to 
commend the administration for proposing $124 million in 
funding for law enforcement on national forests to help 
eradicate drug production and trafficking. That's an 8 percent 
increase over the 2007 level.
    Mexican drug cartels, I'm sorry to say, have discovered 
that it's easier to grow marijuana on public land than to try 
and smuggle it across the border. In 2006, Federal authorities 
seized some 3 million marijuana plants on public land, worth 
between $10 and $15 billion. Half of that harvest, I'm sorry 
and ashamed to say, came from my State.
    I'm told that nationwide, 83 percent of the problem on 
public land is centered on national forests. Clearly, this 
problem is reaching epidemic proportions, and we should address 
it squarely.
    So I'd like to commend the Forest Service for making 
additional resources available for this effort, despite their 
lean budget.
    I was also pleased to add an additional $12 million to the 
Iraq supplemental that would help the Service fund additional 
hiring and training that's central to solving this problem.
    It's clear from looking at the details of this budget that 
this subcommittee has its work cut out for it, but I'm really 
very pleased to be able to work with my distinguished ranking 
member, Senator Craig. We've worked together before on these 
issues, and I think we see things very similarly.
    So I'd like to offer him now the time, as ranking member.

                OPENING STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Well, Madam Chairman, thank you very much, 
and let me welcome Under Secretary of Natural Resources and 
Environment, Mark Rey, to the subcommittee today.
    As we look at the agency's proposed 2008 budget, what is 
inescapable is that the Forest Service seems to be turning into 
the Fire Service. Now, Madam Chairman, it isn't that you or I 
compared notes prior to this, but it's obvious that we are 
reacting in a similar fashion to the proposed budget.
    As recently as 2000, the percentage of the budget devoted 
to fire management activities was 21 percent. Now, it is 45 
percent. I understand that part of this is because we made a 
policy decision to increase the budget for fire programs to 
fund the national fire plan in the wake of the massive 2000 
fires.
    But that doesn't explain the skyrocketing expenditures on 
fire suppression that we've seen over the last few years. The 
budget for fire suppression has grown from $418 million as 
recently as 2003 to a proposal for fiscal year 2008 of $911 
million. That's a 118 percent increase in just 5 years.
    Mark, all the more disturbing is that over the same period 
of time, we have spent roughly $2.5 billion in fuel reduction 
between the Forest Service and the Department of the Interior. 
I believe all of us had thought this investment would start to 
bring some suppression costs down. That is just not happening.
    From what I see, virtually every program in the budget is 
being cut besides fire suppression in order to pay for these 
skyrocketing costs. The size of the pie stays the same, but 
fire is becoming an even larger slice of that pie. Even 
programs within the fire account are not immune from cuts. This 
budget proposes to cut preparedness by over $95 million.
    Coming off the worst fire season on record, I agree with 
the chairman. It is dry in California. It appears to be getting 
dry in Idaho and in the Rocky Mountain West. To me, this will 
lower the agency's readiness capacity and lead to more 
catastrophic fires.
    Perhaps the most concrete way to see what is proposed in 
this request for the Forest Service is to look at the number of 
people that will lose their jobs. If we were to accept this 
budget without change, it would mean over 2,100 fewer employees 
at the Forest Service level.
    I spend a lot of time with the Forest Service in Idaho at 
the district level and across the forest. I know they are 
dramatically stretched today just to do maintenance--
reasonable, environmentally sound, and appropriate 
maintenance--let alone fight the fires.
    I also find it ironic that at the Department of the 
Interior, which houses three other public land agencies, their 
fiscal year 2008 budget would add over 2,000 people, roughly 
the same amount that will be cut from this budget.
    I simply can't see the equity in that, particularly when so 
many rural communities depend on the Forest Service to sustain 
their fragile economies through timber harvest, recreation, 
grazing, and a host of other important programs that do take 
maintenance, and take personnel on the ground.
    So I thank you, Mark, for being here today. I look forward 
to hearing from you in your testimony as you attempt to justify 
this budget.
    Senator Feinstein. Well, that's a challenge.
    Senator Craig. Thank you, Madam Chairman.
    Senator Feinstein. Senator Cochran, would you like to make 
a statement?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chairman, thank you very much. I'm 
pleased to join you and Senator Craig in welcoming our 
witnesses today to review their budget requests for the Forest 
Service.
    In our State of Mississippi, we have about 70 percent, I 
guess, of forest lands that are privately owned, and much of 
that land borders public forest land. So it's important to us 
that the Forest Service continue its research programs to 
develop management and treatment methods that will help keep 
our national forests healthy and protect forest lands that are 
owned by individuals.
    I want to commend also, just for your information, the 
staff of the Center for Bottomland Hardwoods Research, which is 
located at Stoneville, Mississippi. I was just there, and I 
understand that they are engaged in some very important work on 
hardwood genetics and stand management practices.
    I hope that the funding for that activity will be supported 
by the administration, because the success of hardwood for 
reforestation efforts throughout the Southeast are very 
important.
    I know you've also begun a review of a policy regarding 
all-terrain vehicle use in national forests in Mississippi. 
Some of my constituents have expressed concerns that this might 
unfairly affect those who have disabilities or those who are 
elderly, and prevent them from using all-terrain vehicles in 
the national forest area, so I hope that'll be taken into 
account as you review any changes to those activities.

                           PREPARED STATEMENT

    We appreciate your good stewardship and your leadership, 
and we look forward to working with you in this new fiscal 
year. Thank you.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Madam Chairman, I am pleased to join you in welcoming Under 
Secretary Mark Rey to the committee this morning. We appreciate very 
much his hard work to ensure that our National Forest system is 
maintained in a way to guarantee the appropriate use of our Nation's 
forest resources as well as to protect the health of our forests.
    An important part of forest health in the Southeast is forest land 
research and treatment of insects and disease. In my State, about 70 
percent of the forest land is privately owned, and much of this land 
borders public forest lands.
    It is very important for the Forest Service to continue its 
research programs and develop management and treatment methods that 
will protect Federal lands. I especially want to commend the staff at 
the Center for Bottomland Hardwoods Research at Stoneville, 
Mississippi, for their work on hardwood genetics and hardwood stand 
management practices. This research has been an important part of the 
success of hardwood reforestation efforts throughout the Southeast.
    It is my understanding that the Forest Service has begun a study to 
amend the current policy of all terrain vehicles use on National Forest 
lands. My constituents have expressed concern that the proposed changes 
would not take into consideration the use of these vehicles by the 
elderly and handicapped. I hope that the Forest Service will review 
these issues as policy is developed.
    Madam Chairman, thank you very much for holding this hearing and I 
look forward to the testimony.

    Senator Feinstein. Thank you. Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Just a short comment, Madam Chair. I'm 
disturbed as I look at this budget to realize how far the 
Forest Service has come from being a manager of harvesting 
timber to a fire department, as my two colleagues have said.
    When I came to the Senate, the Forest Service managed the 
harvest of 1.5 billion board feet a year from Alaska. Last 
year, it was, what, 140 million.
    We look at this budget now and I think State and Private 
Forestry in Alaska is reduced. National Forest System budget in 
Alaska is reduced. Wildland Fire Management in Alaska is 
reduced. Capital Improvement and Maintenance in Alaska is 
reduced.
    We have two of the largest forests in the United States, 
and they're basically being neglected, and they're being 
neglected from the pressures you face from the extremists, who 
somehow or other believe they should be turned into national 
parks.
    I just wonder when we're going to wake up and realize that 
we're coming to the point where we have two climaxed forests 
now in Alaska because they've been ignored, and one of these 
days, they're going to burn, too, despite our weather. They're 
normally fairly damp places, but now, they're climaxed.
    Deer are getting smaller. All the wildlife is getting 
fewer. We're losing even some of the birds, because of the lack 
of the vitality of these forests. It can only be restored by 
management. So I'm very disturbed about it, really, and I don't 
know what to do about it. Thank you very much.

                 MEXICAN CARTELS AND MARIJUANA GROWING

    Senator Feinstein. Thank you very much, Senator Stevens. 
Before calling on Senator Allard, I was just handed an article 
entitled ``A Budding Invasion: The Mexican Cartels Have Made 
Marijuana a Cash Crop Worth Billions of Dollars,'' and it goes 
on and describes some of this.
    I'm going to put it in the record, but I'd like to just 
pass it down and ask each one of you to take a look at it.
    [The information follows:]

                   [From Men's Vogue, February 2007]

                           A Budding Invasion
                           (By James Verini)
 the mexican cartels have made marijuana a cash crop worth billions of 
  dollars by infiltrating america's national forests and turning them 
        into vast pot plantations. can anyone halt the harvest?
    The Shasta-Trinity National Forest in Northern California covers 
over two million acres, stretching roughly from the former lumber town 
of Redding north to near the Oregon border, and from close to the 
Pacific Ocean east toward Nevada. Like most of the public land in this 
part of the country, Shasta is beloved of campers and hunters, a 
seemingly endless expanse of pine, fir, and oak trees, glistening 
lakes, and snowy mountaintops. It is the kind of place where a visitor 
resolves to write a check to the Sierra Club immediately upon returning 
home. It is also a new front in something else seemingly endless--the 
drug wars. Which is why I found myself, last August, knee-deep in 
Shasta's undergrowth, bushwhacking my way up a hillside with a group of 
Forest Service agents. Clad in dark camouflage and Kevlar vests, they 
carried M-16 rifles and hip-holstered pistols.
    They were not being overzealous. In 2006, authorities here seized 
over $700 million worth of illicit marijuana from gardens--the 
euphemistic name generally given to pot farms--planted in Shasta, most 
of it by trained, and heavily armed, Mexican growers. As an occasional 
hiker myself, it was not hard for me to imagine being out on a trail 
(we were not far from one now, and only about a mile from the nearest 
road), my gravest concern a twisted ankle or the odd grizzly, only to 
stumble upon a garden and find myself facing a gun barrel. Things could 
go bad fast. They have before. In 2000, a grower shot a hiker and his 
young son. The year before, growers kidnapped a Bureau of Land 
Management botanist. In 2005, Forest Service agent Matt Knudson, 
walking a few yards ahead of me in Shasta, was on a raid near Los 
Angeles when a grower took two blasts at an agent. ``Come harvest 
season they start bringing in more guns,'' Knudson explained. He 
regularly recovers shotguns, AK-47s, even MAC-10s and Uzis.
    Late summer--harvest season was beginning. After an hour of hiking, 
the air grew heavy with a familiar scent, and just as my mind was 
transported back to my college dorm room, we arrived at our quarry: 
Cannabis plants, many thousands of them sprouting five and six feet 
tall from the forest floor, came into focus, their thin, serrated 
leaves and hirsute emerald buds everywhere. This was no Grateful Dead 
concert parking-lot piddle, mind you; these specimens were the size of 
tropical fruit.
    The growers had fled in a hurry the night before, it seemed, 
leaving their camp looking like a scene from Pompeii. Spread on a crate 
between two cheap tents was a freshly dealt hand of cards. Sleeping 
bags, worn and stained, lay in the tents near an outdoor kitchen 
outfitted with a propane-burning skillet. Sweatshirts, chain-store 
jeans, garbage bags, ramen-noodle wrappers, emptied cans of jalapeno 
peppers and El Pato brand tomato sauce, detergent bottles, and 
countless supermarket plastic bags littered the ground. Black PVC 
tubing fed a reservoir dug out of an embankment--a water system for 
drinking, bathing, and irrigation. The growers had bolted in such 
haste, they'd even left their shoes.
    But there were no guns to be found: A bunch of felons, working 
under some very nasty auspices indeed, were now running around this 
bucolic paradise barefoot, cranky, and possibly in possession of some 
large automatic weapons.
    Until recently, marijuana cultivation in the United States was 
mostly the province of small-time ex-hippies and the occasional 
rancher. In the last two decades, however, Mexican drug trafficking 
organizations (DTOs) have taken over the business. Before 9/11, these 
cartels produced much of their marijuana in Mexico and ran it over the 
border. But since then law enforcement has squeezed many smuggling 
routes, and the gangs have increasingly taken to growing it here.
    This is their new, brazen approach: commandeering large patches of 
public land in the United States and smuggling in illegal growers to 
convert them into mega-gardens. They're easy and cheap to grow and 
extremely difficult to detect, except from the air. In 2006, 
authorities seized nearly three million marijuana plants from public 
lands, a harvest with a potential street value of between $10 and $15 
billion, nearly half of it in California. Most investigators I spoke to 
agree that the amount seized was a fraction of the total produced. In 
other words, growing marijuana on public lands is a business worth more 
money than most Fortune 500 companies--more money, in fact, than the 
Mexican cartels (who, since the nineties, have wrested majority control 
of the American drug trade from their Colombian cohorts) make from such 
upper-shelf wares as cocaine, heroin, and methamphetamine, a fact that 
has gone strangely underreported in the press.
    ``You have to be kind of crazy, as a drug trafficking organization, 
not to jump on the marijuana bandwagon,'' Patrick Kelly, a special 
agent with the Drug Enforcement Administration in Sacramento, told me. 
``In California, even if you are caught, the chances of being 
successfully prose-cuted are almost nil.'' Prosecutors, usually a 
contrarian lot, agree. ``The Mexican DTOs have figured out the 
penalties are less for marijuana,'' said McGregor Scott, U.S. Attorney 
for California's vast Eastern District, the hardest hit in the country. 
Building cases is difficult, to put it mildly. A tangle of Mexican 
cartels and families control the trade. In turn, they enlist fierce 
Latin American gangs such as the Surenos and Mara Salvatrucha to 
distribute the weed. Many trails lead back to Michoacan, a rugged state 
on Mexico's Pacific coast, but direct ties are hard to establish. Much 
like members of terrorist cells, the growers who are caught in the 
United States either aren't privy to larger operational details or 
won't talk if they are. This is understandable. According to the 
Associated Press, 2,000 people were killed last year in Mexico's 
escalating drug wars, many of them traficantes, though not all; among 
the casualties were police and journalists.
    Gardens--they're also called ``grows''--have been found in 15 
States, from the Northwest to the Midwest to the Southeast, in a 
pattern that mimics the general trend of Mexican immigration. In 
California, every single national forest and park--from Shasta to 
Sequoia, Kings Canyon to Tahoe, and even Yosemite, the crown jewel of 
the public-land system--has been infiltrated. Each spring, the gardens 
grow more fecund and more growers are smuggled in. And each spring, 
they are bolder and better armed. The average garden requires four men 
to cultivate it. If the higher estimates of total production are right, 
that adds up to the equivalent of about five large army battalions--
roughly the number of U.S. troops dispatched to invade Grenada in 1983.
    ``An informant told us this year that word came down from the 
higher-ups to the growers to shoot if they need to,'' Knudson tells me 
one frosty morning in December. I have come to see him at his station 
in Upper Lake, a tiny town on the edge of Mendocino National Forest, a 
two-hour drive northwest of Sacramento. He doesn't bother to specify 
the growers' intended targets--himself and his fellow Forest Service 
agents. ``It's only a matter of time before a member of the public gets 
killed.''
    Mendocino National Forest is ground zero in the marijuana battles, 
having led the country in seizures last year. Amazingly, though, 
Knudson is one of only four agents patrolling its million acres. A 
young-looking 34, with a goatee and close-cropped hair, he joined the 
Forest Service at 19 to pay for college, working at first as a 
firefighter. When he wasn't putting out forest blazes, he was 
contending with tweakers and exploding kitchen labs: California has the 
distinction of supplying the country with much of its meth, as well as 
most of its pot. Indeed, the same cartels seem to control a large 
portion of both markets. ``You can't look at the whole picture,'' 
Knudson tells me. ``If you looked at the whole picture you'd be on 
medication.''
    As we drive into the forest along dirt roads, Knudson's M-16 rifle 
stowed within arm's reach, he points to the location of a raided 
garden. Then he points to another one. And another. The pointing is 
ceaseless, and the gardens are everywhere, once you know how to spot 
them--usually no more than a few hundred feet from the road.
    Every year in March and April, the growers are driven in to begin 
planting at spots that have been scouted during the winter or used 
before. After being dropped off, they hike into the forest with their 
seedlings and sophisticated lightweight irrigation systems, even 
sprinklers with battery-powered timers. After planting, they live in 
the forest through the summer and into the autumn, when they harvest 
their crop and then pack out the buds in trash bags. In their wake they 
leave terraced, eroding hillsides, dead trees, soil and water 
contaminated with pesticides, and tons upon tons of garbage--an eco-
disaster. (The Forest Service estimates that 18,000 acres have been 
affected since 2005 alone.) With each passing year they become more 
comfortable with the terrain. ``The growers know the land better than 
we do--they live in it,'' Knudson says. ``They know our schedules, they 
know when we work.''
    That none of his colleagues have been killed yet is due to little 
more than luck, Knudson believes. In 2002, a deputy sheriff was shot, 
as was a Fish and Game warden in 2005. So far, five growers have been 
shot and one killed in shootouts with agents. ``Working marijuana is 
not by choice--it's pure necessity,'' Knudson says. ``You'd think a 
Forest Service officer would be out dealing with fires or poaching or 
rowdy campers, that kind of stuff.''
    ``Would you rather be doing those things?'' I ask him.
    ``Truthfully, no,'' he says, smiling faintly. Chasing down the 
grower cells, he adds, has ``become a passion for me.''
    Passionate as Knudson may be, the frustration is audible in his 
voice. ``My job is to protect and serve, but I can't protect and serve 
a quarter million acres,'' he says. The Forest Service, part of the 
Department of Agriculture, is one of the most capacious landholders in 
the United States, but it employs only about 500 full-time agents like 
Knudson. (The National Park Service, better staffed and resourced and 
less affected by marijuana cultivation, is in the Department of the 
Interior.) Help comes from local sheriffs, California's Bureau of 
Narcotics Enforcement, the D.E.A., and the drug czar's office, which 
set up a special marijuana task force for California and an 
intelligence center in Sacramento in 1999. But even with that 
assistance, Knudson usually feels he's on his own. The D.E.A. doesn't 
disagree. ``There's no backup to call,'' Agent Kelly told me. ``There 
are no hospitals nearby.''
    ``We're getting to the point of saturation,'' Knudson admits. ``We 
just can't handle it.''
    Mexico has a long and storied history with marijuana cultivation. 
Traficantes are folk heroes, and in raided gardens, Knudson regularly 
finds figurines depicting Saint Jesus Malverde. Not recognized in the 
Roman Catholic canon, Malverde, also known as El Bandido Generoso and 
El Narcosanton (roughly translated: the Big Drug Saint), is the patron 
saint of the poor and, incongruously, drug traffickers. Some 
investigators believe the growers are indentured servants, brought over 
the border against their will. But Knudson disagrees. He thinks the 
growers brought to the United States hail from this drug demimonde.
    ``There's a true science to it that's probably been handed down 
from generation to generation,'' he says. ``As much marijuana as I've 
worked, I could never grow plants like these.'' Knudson juts out a 
forearm: ``We'll find buds like this''--a foot or more long, inches 
thick. Knudson then points to the hillside where he chased down a 
grower who was packing a 9-millimeter pistol in a belt holster. That in 
turn leads him to recall the raid in which he pulled up a sleeping bag 
and found a grower hiding beneath it, holding a loaded MAC-10.
    A week after riding through Mendocino with Knudson, I meet Scott 
Burns in Washington, D.C. An otherwise unostentatious man who bears the 
raja-length title of Deputy Director for State and Local Affairs at the 
White House Office for National Drug Control Policy (colloquially known 
as the drug czar's office), Burns is the Bush administration's point 
man on domestic marijuana eradication. His office, one block from the 
White House, is not much larger than Knudson's ranger station room, but 
he wields considerably more power, having access to the czar's $12.6 
billion budget. A faithful soldier in the war on drugs, Burns, like his 
boss, czar John P. Walters, professes to be a true believer where 
marijuana is concerned. ``More 12- to 17-year-olds are in treatment for 
marijuana addiction than all other drugs combined,'' he tells me when I 
point out that it's hard to get Americans concerned about rolling 
papers and bongs, even when foreign cartels are involved.
    But when I present him with the figures from California and tell 
him about my tour with Knudson, Burns appears almost unfazed. Unlike 
the Forest Service, the D.E.A., and the U.S. Attorney, Burns implies 
that the problem is under control, and he disputes the claim that only 
a fraction of the marijuana grown on public lands is being found. When 
I point out that public-land seizures have leapt over 300 percent in 2 
years, he tells me the figure is ``not about an explosion in plants, 
but a better efficiency in law enforcement.'' This is a curious 
statement, considering that Walters devoted a mere $3.5 million--.03 
percent of the drug czar's total budget--to the problem of domestic 
marijuana production in 2006.
    Yet Walters says that combating marijuana is a cornerstone of his 
policy. He was chief of staff to the first drug czar, William Bennett, 
who was appointed by President George H.W. Bush in 1989. The current 
President Bush appointed him in 2001, and since then domestic 
production--thanks to grows like those I saw at Shasta and Mendocino--
has reached an all-time high.
    From his cramped quarters, Burns must vie with an indifferent, even 
hostile, public, and he must look south of the border at a situation 
that may well be intractable: Mexico is in the midst of a long and 
bloody drug war all its own. The cartels are battling each other for 
control of production and access routes to the United States, but 
they're also engaged in a lethal struggle with the state governments--
when they're not infiltrating them. Gruesome violence afflicts 
Michoacan--stomping grounds of some of the cartels that dominate the 
American marijuana market--where cartel henchmen have lately developed 
a partiality for leaving human heads, with written warnings attached, 
outside government offices. Last year they rolled five of them onto a 
discotheque dance floor.
    The bloodshed is dismaying, but Burns sees it as a potentially 
promising sign. ``The violence can be an indication of many things, 
such as disrupting the cartels,'' he says. ``If everything is running 
smoothly, there's no reason to shoot somebody. It can be an indication 
of good work by the Mexican and United States governments.'' D.E.A. 
agents and prosecutors are now working with a new crop of extradited 
traficantes and are moving their way up the cartel ranks, but their 
success, and Burns's, may depend on new president Felipe Calderon. So 
far, Calderon, who was educated in Mexico and the United States, seems 
eager to impress. During protests over his controversial election, he 
sent over 6,000 soldiers and federal police into Michoacan to set 
ablaze acres of marijuana fields. He didn't rely on the Michoacan 
police, because they are underpaid, hopelessly inept, and often 
corrupt.
    But no one is safe from the cartels, it seems--perhaps not even the 
presidential family. In December, the body of a Calderon relative was 
found in Mexico City. Calderon has denied any explicit connection 
between the murder and the cartels, but the timing and the manner were 
ominous. It happened just after the crackdown in Michoacon and was 
carried out execution style.
    Then there is the Left Coast of America, an interminable irritant 
to Burns, who describes California marijuana laws with Rumsfeldian 
coyness as ``not helpful.'' California's judges, juries, and sentencing 
laws are famously forgiving, and in 1996 the State flouted Federal law, 
passing Proposition 215, the Compassionate Use Act. Burns and many 
others believe that the law has opened the floodgates for a generation 
of clever dealers claiming to be medicinal marijuana distributors and 
has directly contributed to the precipitate spike in production. In 
other words, they say, not only is California law not preventing 
Mexican cartels from infiltrating the state, it's aiding them.
    Walters may not be particularly effective in combating marijuana--
but then, neither were William Bennett and General Barry McCaffrey; 
nor, in all likelihood, will any future drug czar be. It should be news 
to no one that marijuana is an enduring feature of American life--just 
as it is in Mexico, Europe, and Asia. Recent reports suggest that at 
least a third of Americans have smoked it. Rates of use among various 
age groups rise and fall, but talk to an average high school student--
or, for that matter, an average middle-aged lawyer--and you'll find 
rather quickly that marijuana is not going away anytime soon.
    Still, the war on drugs, no less than the drug wars being waged in 
places like Mendocino National Forest, will go on. For our last stop, 
Knudson took me to an eradicated garden hours deep in the woods. How 
anyone could have found the spot was mind-boggling. Knudson only 
noticed it by chance from a helicopter while on his way to another 
garden across the ravine. The cannabis plants were gone, a field of 
truncated stalks left in their place. The ground, however, was still 
buried ankle-high in the familiar refuse--plastic bags, clothes, the 
ever-present cans of El Pato. The garbage was still there because the 
Forest Service doesn't have the budget to get rid of it. All Knudson 
could do was hope the growers wouldn't come back to this spot in the 
spring--and hope, if they did, that some unfortunate hiker wouldn't 
stumble upon it.

    Senator Feinstein. Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Madam Chairman, for 
holding this hearing. I am going to be joining in the chorus, I 
guess, expressing my concern about the amount of money that we 
actually use for fire suppression when we could be doing so 
much more for managing our forests.
    Colorado is unique in many regards, in that we have 13 
national forests, and they provide lots of scenic viewing 
opportunity. Trees are part of that. We are having health 
problems in our tree populations affecting not only lodgepole 
pine, but also aspen.
    We haven't exactly identified what the aspen problem is. 
The lodgepole pine problem is beetles. Many States are affected 
with beetles, and Colorado is no exception. We're particularly 
being affected by the beetle problem in Colorado.
    Also unique to Colorado is that we are a State where four 
major watersheds are originating: Arkansas, the Upper Colorado, 
Rio Grande, and South Platte Rivers, which supply water to 19 
Western States.
    The key to keeping that water flowing is a good healthy 
forest. They provide the shade and protection for the snow to 
retain later on into the summer, which keeps those streams 
flowing. So we have a particular interest in good healthy 
forest management.
    I'm particularly concerned about the fire suppression cost 
and funding for national forest programs, and I have an 
editorial from Monday's Denver Post outlining the same that I 
would like to submit to the record, Madam Chairman.
    Senator Feinstein. Without objection.
    [The information follows:]

                  [From the Denver Post, May 18, 2007]

                       Fighting Fire With Funding
                   (The Denver Post Editorial Board)
    The restoration of $2 million in U.S. Forest Service funding for 
Colorado fire management projects this year is welcome and potentially 
lifesaving news.
    Until Colorado's congressional delegation intervened, the money was 
set to be diverted to other forestry programs as a midyear effort to 
balance the books at the service, which manages federal forests, 
recreation and wilderness areas.
    The restored Colorado money is intended to thin forest land of 
easily ignitable tinder that can turn a manageable fire into an 
inferno. That the administration even considered diverting the money to 
pay for other expenses points out a systemic problem with the agency's 
budgeting that ought to be addressed.
    The driving force behind the problem is the increasing cost of 
fighting wildfires and the failure of Congress to adequately budget for 
firefighting.
    It's not a problem that's going away. The price of fighting 
wildfires has spiraled as the country faces the effects of drought, 
climate change and residential development in forested areas. In recent 
years, the service has spent more than $1 billion annually to fight 
fires.
    Yet, the agency's overall budget has remained flat. Jay Jensen, 
executive director of the Council of Western State Foresters, notes, 
``Basically, everything else gets squeezed.''
    Since 1998, the agency's fire-suppression costs have routinely 
outstripped the money appropriated to pay them.
    Typically, Congress will pass supplemental measures that only 
partially cover costs incurred. To make ends meet, the agency siphons 
money from other projects. Ironically, the projects that get raided 
frequently are mitigation initiatives intended to lessen the severity 
of fires or prevent them to begin with--things such as forest thinning 
and equipment purchases, according to a 2004 Government Accountability 
Office report.
    The GAO suggested Congress consider alternative funding strategies, 
including the creation of an agency-wide or government- wide recurring 
emergency reserve account that that could be tapped to pay firefighting 
costs.
    While Colorado's congressional delegation deserves a pat on the 
back for its success in persuading Forest Service chief Gail Kimbell to 
restore the Colorado money, it's clear that a structural change in the 
budget is necessary. As fires raged through California, Florida, and 
Georgia last week, it could hardly be more apparent.

    Senator Allard. On forest management, if I may. I'm also 
concerned that funding the Northwest Forest Plan at the levels 
outlined in the President's budget will affect funding for 
forest management programs in Colorado.
    For these reasons, I look forward to this hearing and the 
discussion it will enable us to have about the Forest Service 
budget. I think this will help us to make a responsible 
decision about what is best for our Nation's forests. Thank 
you, Madam Chairman.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Madam Chairman, thank you for holding this important hearing. 
Colorado has an abundance of forests and the Forest Service budget is 
of great importance to me. The role the Forest Service plays in 
managing our public lands is of particular interest to the people of 
Colorado.
    I understand that Chief Kimbell is in our Chair's home State of 
California to unveil an accident report relating to fire, but 
Undersecretary Rey, I thank you for your appearance before the 
subcommittee today. I also appreciate the assistance that you and Chief 
Kimbell gave us in restoring funding to help address the bark beetle 
epidemics in Colorado. This was an important issue to the entire 
Colorado delegation.
    Colorado is home to 13 National Forests, more than almost any other 
State. These forests provide countless scenic vistas and some of the 
Nation's most popular recreational areas. Several of Colorado's ski 
areas lie on or adjacent to Forest Service lands. They are also very 
popular destinations for hunting and fishing, and for summer activities 
such as hiking and camping. Perhaps most importantly, Colorado's 
forests contain 4 major watersheds, the Arkansas, Upper Colorado, Rio 
Grande and South Platte, which supply water to 19 western States. 
Colorado is truly the Headwaters State.
    Unfortunately most areas of the State continue to suffer from 
drought conditions and the potential for catastrophic fires has been 
very high for a number of years. We are also experiencing forest health 
issues on an unimaginable scale. Over 600,000 acres of lodgepole pine 
are infested and dying from mountain pine beetle, over 100,000 acres of 
spruce have been infested and are dying from spruce bark beetle, and 
another 100,000 acres of aspen are affected by aspen decline. And 
forest exerts see no relief in sight. These problems only serve to 
compound one another and increase our fire risk. Colorado was very 
lucky to have dodged the bullet last year in that we did not experience 
the kind of catastrophic wildfires that other states experienced, but I 
am concerned that it is only a matter of time before we have another 
catastrophic fire year like 2002, when the Hayman, Missionary Ridge, 
and other fires burned over 200,000 acres and hundreds of homes and 
other buildings.
    I am particularly concerned about the effect of fire suppression 
costs on funding for all other national forest programs, and I have an 
editorial from Monday's Denver Post outlining the same concern that I 
would like to submit for the record. I am also concerned that funding 
the Northwest Forest Plan, at the levels outlined in the President's 
budget, will affect funding for forest management programs in Colorado.
    For these reasons I look forward to this hearing and the 
discussions it will enable us to have about the Forest Service budget. 
I think that this will help us to make responsible decisions about what 
is best for our Nation's forests. Thank you again, Madam Chairman.

    Senator Feinstein. Thank you very much, Senator Allard. 
Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman. Just two points. 
One, I'd like to commend the Forest Service for what I 
understand are its efforts to establish guidelines for 
alternatives to big cell towers on national forest lands by 
camouflaging, collocating, and concealing them.
    They're some of our most scenic areas of the United States, 
and many communities are now doing that, and I think it would 
be wise to do that wherever we can. I commend you for that; I 
hope I'm correct that that's what you're doing.
    The second is, as we go on, I wanted to raise questions 
about your proposal to sell nearly 3,000 acres of the Cherokee 
National Forest, which is in Tennessee and North Carolina, to 
pay for rural schools and roads. That seems to me like selling 
off the back 40 to pay the rent, and especially when, in 
Tennessee, just 3 percent of our land is Federal land, unlike 
Idaho, where it's 50 percent. We'd like some more Federal land, 
not less.
    We just completed purchase of 10,000 acres for Cherokee 
National Forest from Alcoa Power. There are three additional 
tracts that the Forest Service has identified that you'd like 
to acquire. If you're going to sell low-priority tracts, I 
wonder why you wouldn't take the money and use it to buy high-
priority tracts. So that was the second area, Madam Chairman, 
that I wanted to explore. Thank you.
    Senator Feinstein. Thank you very much, Senator Alexander. 
With that, we will turn to Mr. Rey. Mr. Rey, welcome.
    If you could summarize your remarks, I think we'd love to 
have the opportunity for questions, and if you could possibly 
keep your statement within 5 to 7 minutes, that would be 
appreciated; we'll activate the time clocks. Thank you.

                   SUMMARY STATEMENT OF HON. MARK REY

    Mr. Rey. We'll summarize for the record.
    Senator Feinstein. Thank you.
    Mr. Rey. What I'll do is discuss two issues relating to the 
2008 budget, both of which you all have raised concerns about, 
and then I'll ask Ms. Lago to talk about the broad outline of 
the budget, as she is substituting for the Chief of the Forest 
Service here today.
    The two issues that I will address will be changes to the 
Wildland Fire Management account and associated issues, and the 
need to provide further transitional assistance to rural 
communities through the proposed National Forest Land 
Adjustment for Rural Communities Act.
    With regard to fire, the 2008 budget proposes a total of 
$1.9 billion for activities associated with wildland fire 
management, including a new appropriation for wildland 
firefighters and other cost-saving measures.
    The events of the 2006 season made a compelling case for 
these strategic changes. On the heels of Hurricane Katrina, the 
2005 fire season flowed seamlessly into that of 2006, without 
the respite normally provided by winter precipitation.
    From November through April, extremely low humidity, 
persistent drought, and winds contributed to ignition of fires 
through Texas, Oklahoma, Colorado, Missouri, and New Mexico.
    By late July, the wildland firefighting community had 
entered preparedness level five, the highest level of fire 
activity, during which several geographic areas were 
experiencing simultaneous major incidents.
    During 2006, the Forest Service was at preparedness level 
five from late July through late September without 
intermission.
    Although the 2006 fire season had one of the highest number 
of fire starts in a single day, and an extraordinary number of 
lightning-caused fires, as well as a record number of 
simultaneous large fires, it also resulted in significantly 
fewer dwellings and other structures being destroyed; 750 homes 
in 2006, as compared to more than 4,500 homes lost in 2003.
    That, we believe, is directly attributable to the fuels 
reduction work that's been done over the last 4 years, 
concentrating in the wildland-urban interface, and does 
represent a return on the investment that we've made in fuels 
treatment work.
    Congress has repeatedly expressed concerns, including 
today, about rising fire suppression costs. Large fire costs 
are a persistent challenge for the agency and threaten to 
compromise the achievement of levels of other critical mission 
areas.
    In response, a number of key actions are underway in fiscal 
year 2007, and the 2008 budget request makes additional 
significant proposals. These include a refinement of the 
concept of appropriate management response toward a risk-
informed fire suppression approach.
    This approach provides risk-informed fire protection by 
introducing the concept of managing wildland fire in 
relationship to the risk that the incident poses.
    The Forest Service Chief will also designate an individual 
with access to a support team to provide oversight on fires of 
national significance and assistance to local units, and will 
collaborate with the Department of the Interior on interior 
lands.
    Third, national resources, such as smoke-jumpers, hotshot 
crews, and helicopters will be moved to areas and incidents 
based on predictive services and on planning levels, as opposed 
to simply based on prior practice.
    Fourth, aviation resources will be managed more effectively 
to reduce their high cost. A full-time national helicopter 
coordinator will be selected to provide oversight for the 
assignment and positioning of helicopters.
    Helicopter management will be centralized as a national 
resource, and the agency will attempt to shift more to 
exclusive use versus more expensive call-when-needed contracts 
for helicopters.
    Fifth, efforts will be made to maintain our initial attack 
success, while reducing the dependence on severity funding. 
This explains the distribution of funding between suppression 
and preparedness, and with those two accounts, we believe we 
have adequate flexibility to respond to the 2007 fire season.
    I would note that in a previous appropriations bill, the 
Congress required an independent audit of large incident fires 
each year. Yesterday, we released the independent audit of the 
19 large fires that burned more than 1.1 million acres and cost 
more than $470 million to suppress.
    The independent panel organized by the Brookings 
Institution found that the Forest Service exercised appropriate 
and adequate fiscal diligence in suppressing wildfires on each 
of these 19 incidents.
    The report also provides a number of recommendations for 
additional potential cost reductions, which will be evaluated 
and adopted as appropriate, as we move into the 2007 fire 
season.
    I'll make a copy of the Brookings Institution report 
available for the record of this hearing.
    [The information follows:]

    The report can be accessed at the following location: 
http://www.fs.fed.us/fire/BR6988%7E1.PDF

    Mr. Rey. The second thing that I'd like to talk about is 
the Secure Rural Schools and Community Self-Determination Act 
of 2008, and our proposal to reauthorize that statute.
    The statute was enacted in 2000 to provide transitional 
assistance to rural communities affected by the decline in 
revenue from timber harvests on Federal lands. The last payment 
authorized by the act was for fiscal year 2006 and was made in 
December 2006.
    In lieu of a multi-year reauthorization, the administration 
continues to support a 1-year extension of the act with agreed-
upon offsets as an interim step.
    With our budget proposal, we have submitted the National 
Forest Land Conveyance for Rural Communities Act, which would 
also authorize a 4-year extension of the funding formerly 
provided by the 2000 legislation. The legislation would also 
provide conservation funding for national forests and 
grasslands.
    Sale of identified National Forest Systems lands, similar 
to those lands described in the fiscal year 2007 budget 
proposal, would provide funding to both replace what was 
provided to schools under the 2000 legislation, as well as 
additional money for land acquisition.
    Our proposal would authorize the Secretary to sell the 
sufficient national forest land to fund an $800 million 
account. Under the legislation, 50 percent of the receipts 
obtained from land sales would be used as a funding source to 
make the rural school payments over a 4-year period, with a 
gradual phase-out.
    The remaining 50 percent of receipts from land sales within 
a State would be used for land acquisition and related 
conservation purposes.
    Over the last 20 years, as we've exchanged less desirable 
parcels for more desirable parcels, we have added lands to the 
National Forest System, because the lands that we have been 
exchanging out are more economically valuable and less 
environmentally valuable. Conversely, the lands we've been 
acquiring through these exchanges are more environmentally 
valuable and less economically valuable.
    Because these exchanges are value-for-value exchanges, 
we've averaged about three acres received for every acre 
transmitted out of Federal ownership.
    If this proposal were to become law, using half of the 
money from the sale of lands, we would probably net increase 
the number of national forest acres, and we would do it more 
effectively than doing it through exchanges, because exchanges 
require a one-to-one correlation between what we want to 
exchange and what somebody else wants to exchange, and that's 
often difficult and time-consuming to do.
    We often have to find a third party to bridge the gap--the 
difference between what we'd like to get and what we'd like to 
exchange away.

                           PREPARED STATEMENT

    So I think should this proposal be enacted, we would not 
only have money to fund the schools, but we would have money to 
effect a net increase in national forest acreage, and acquire 
acres that are more valuable for the National Forest System at 
the same time.
    That will conclude my remarks, and I'll turn the podium 
over to Ms. Lago.
    [The statement follows:]
                  Prepared Statement of Hon. Mark Rey
                                overview
    Madam Chairman and members of the Subcommittee, I appreciate the 
opportunity to discuss the President's fiscal year 2008 Budget for the 
Forest Service during today's hearing. I am pleased to join Gail 
Kimbell, newly appointed Chief of the Forest Service, at this hearing 
today.
    I will discuss two issues that relate to the 2008 Budget. First, I 
will address changes in the Wildland Fire account and associated 
issues. I will next address the need to provide further transitional 
assistance to rural counties through the proposed National Forest Land 
Adjustment for Rural Communities Act.
                             wildland fire
    The 2008 Budget proposes a total of $1.9 billion for activities 
associated with Wildland Fire Management, including a new appropriation 
for Wildland Fire Fighters. The events of the 2006 fire season make a 
compelling case for these strategic changes.
    On the heels of Hurricane Katrina, the 2005 fire season flowed 
seamlessly into that of 2006--without the respite normally provided by 
winter precipitation. From November through April, extreme low 
humidity, persistent drought conditions, and winds contributed to the 
ignition of fires through Texas, Oklahoma, Colorado, Missouri, and New 
Mexico. By late July, the wildland fire fighting community had entered 
Preparedness Level 5--the highest level of fire activity, during which 
several geographic areas are experiencing simultaneous major incidents. 
During 2006 the Forest Service was at Preparedness Level 5 from late 
July through late September, without intermission. Although the 2006 
fire season had one of the highest number of fire starts in a single 
day (548), an extraordinary number of lightning-caused fires (over 
16,000), and a record number of simultaneous large fires (affecting 
nearly every region in the country); it also resulted in significantly 
fewer dwellings and other structures destroyed--750 homes lost in 2006 
as compared to more than 4,500 lost in 2003.
    Despite many positive accomplishments, fire suppression 
expenditures topped $1.5 billion in 2006. Moreover, the agency has 
spent over $1 billion on fire suppression in 4 of the last 7 years. The 
increasing frequency of ``billion dollar'' fire-fighting years is 
driving up the 10 year average suppression cost figure, which is used 
to determine suppression funding levels. Congress has repeatedly 
expressed concerns about rising fire suppression costs. Large fire 
costs are a persistent challenge for the agency and threaten to 
compromise the achievement levels of other critical mission areas. In 
response, a number of key actions are underway in fiscal year 2007, and 
the 2008 Budget request makes additional significant proposals.
    The most significant actions underway in 2007 include:
1. From Appropriate Management Response to Risk-Informed Response
    The Appropriate Management Response (AMR) was articulated in the 
2001 update of the Federal Wildland Fire Management Policy. Further, 
the 2008 Budget reflects refinement of the concept of AMR toward a 
risk-informed fire suppression approach. This approach provides risk-
informed fire protection by introducing the concept of managing 
wildland fire in relationship to the risk that the incident poses. If a 
wildland fire has potential benefits to natural resources and poses a 
relatively low risk to impact other valued assets, the fire would 
receive a lower intensity suppression effort. Conversely, if a fire 
incident is determined to pose high risk to property or community, high 
suppression efforts would be applied. The approach utilizes risk 
management and tools such as probability analysis and actuarial data to 
inform rigorous and systematic ways to reach decisions that allocate 
resources on the basis of risk posed by the wildfire and the strategy 
used by managers to address it. The Forest Service has developed a 
draft guidebook that presents a coherent strategy to implement this 
approach. DOI is reviewing this guidebook and will work with Forest 
Service on interagency implementation.
2. Forest Service Chief's Principal Representative
    The Forest Service Chief will designate an individual with access 
to a support team to provide oversight on fires of national 
significance and assistance to local units and will collaborate with 
the DOI on DOI lands. The individual will be highly experienced in 
wildfire management, and the team will have knowledge and capability 
with decision-support tools. These changes will immediately provide for 
experienced decision-making that should reduce costs on large fires.
3. National Shared Resources
    National resources such as smoke jumpers, hot shot crews and 
helicopters will be moved to areas and incidents based on Predictive 
Services and on Planning Levels. This will create a more centralized 
and flexible management of these response resources. Funding and 
decision-making from the national level will ensure consistency across 
regions, flexibility in the assignment of resources and eliminate 
geographic concentration of resources that impose costs in both time 
and money.
4. Aviation Resource Cost Management
    Aviation resources will be managed more effectively to reduce their 
high cost. A full-time National helicopter coordinator will be selected 
to provide oversight for the assignment and positioning of helicopters. 
Helicopter management will be centralized as a national resource. The 
Forest Service will attempt to shift more to ``exclusive use'' versus 
``call when needed'' contracts for helicopters. This will increase 
preparedness costs initially, but is expected to greatly reduce large 
fire suppression cost with potential saving of tens of millions of 
dollars per year. We will pursue longer term aviation contracts for all 
aviation resources with increased performance-based contracting. DOI 
also is pursuing strategies to reduce its costs.
5. Initial Attack and Severity Funding
    Efforts will be made to maintain our initial attack success while 
reducing the dependence on severity funding. The Forest Service will 
require lower thresholds for the approval of severity funding to be 
elevated for approval by the Chief. National Shared Resources will be 
pre-positioned whenever possible in geographic areas where fire risk is 
the greatest during the fire season. The Forest Service and DOI 
agencies will continue to submit a coordinated severity request so as 
to not duplicate effort or expense.
    In addition to the changes for 2007, the 2008 Budget proposes a 
separate appropriation for Wildland Firefighters. The Budget proposal 
moves funding for firefighters out of the Preparedness budget within 
Wildland Fire, and into a separate appropriation. There is no net 
program change as a result of this move. Importantly, this adds a 
higher degree of visibility and transparency to fire suppression 
activities and provides $220 million for hiring and training the 10,000 
firefighters necessary to ensure a successful fire season.
    The Wildland Fire account's Suppression line is funded at $911 
million, reflecting the updated 10-year average for total suppression 
costs as adjusted for inflation and includes indirect costs not charged 
to fire suppression in previous years--but now required by Congress to 
be included in the account.
    The Budget funds Fire Preparedness at $349 million, which is a 
reduction of $97 million as compared to the fiscal year 2007 when 
considering the strategic shifts and creation of the new Wildland 
Firefighter account.
    We expect that the management improvements implemented and underway 
will enable managers to be better prepared for wildfires; help managers 
to make better decisions during firefighting operations; and provide 
managers with the tools necessary to analyze, understand and manage 
fire suppression costs. While the factors of drought, fuels build-up in 
our forests and increasing development in fire prone areas have the 
potential to keep the number of incidents and total cost of wildfire 
suppression high for some time to come, we are confident in our 
strategy to address wildland fire suppression costs and are committed 
to action. We believe that the measures discussed today promise to 
expand efficiency and reduce suppression costs. We look forward to 
continued collaboration with our Federal, State, local, Tribal, and 
other non-Federal partners to address our shared goal of effectively 
managing wildfire suppression costs.
   continuing transitional support to rural communities through the 
       national forest land conveyance for rural communities act
    The Secure Rural Schools and Community Self-Determination Act of 
2000 (SRS) (Public Law 106-393) was enacted to provide transitional 
assistance to rural counties affected by the decline in revenue from 
timber harvests in federal lands. Traditionally, these counties relied 
on a share of receipts from timber harvests to supplement local funding 
for school systems and roads. Funding from SRS has been used to support 
more than 4,400 rural schools and to help maintain county road systems. 
In addition SRS has authorized the establishment of over 55 Resource 
Advisory Committees (RAC) in 13 States, which has increased the level 
of interaction between the Forest Service, local governments, and 
citizens--resulting in greater support and understanding of the 
agency's mission. RACs have implemented more than 4,500 resource 
projects on National Forests, Grasslands, and adjacent non-federal 
lands with a value from SRS funds and leveraged funds of more than $292 
million.
    The last payment authorized by the SRS Act was for fiscal year 2006 
and was made in December 2006. The administration continues to support 
a 1-year extension of the SRS Act with agreed-upon full offsets as an 
interim step. The Budget underscores the President's continuing 
commitment to states and counties impacted by the ongoing loss of 
receipts associated with lower timber harvests on Federal lands. The 
National Forest Land Conveyance for Rural communities Act is included 
in the fiscal year 2008 President's Budget to fund transition payments 
targeted to the areas of greatest need, and to provide counties 
additional time before payments are phased-out. Under the proposal, 
half of land sales proceeds will be available to offset county payments 
and half will be available for national forest acquisition or habitat 
improvement in the states in which lands are sold. Counties benefit 
from 4 additional years of payments, and states receive an 
environmental benefit from exchanging land with low environmental 
values for lands with high environmental value.
    The National Forest Land Conveyance for Rural Communities Act would 
authorize a 4-year extension of the funding formerly provided by SRS. 
The legislation would also provide conservation funding for National 
Forests and Grasslands. Sale of identified National Forest System 
lands--similar those lands described in the fiscal year 2007 budget 
proposal--would provide funding to replace that which SRS had provided. 
Our new legislation differs from our previous proposal by including 
additional provisions which allow for land sale receipts to also be 
used for the acquisition of land for the National Forest System, 
conservation education, improved access to public lands, wildlife and 
fish habitat improvement.
    This year's proposal addresses the concern that affected States 
would not receive financial benefit from the sale of Federal lands 
within their borders. It does so by including a requirement that 50 
percent of all land sale receipts be retained for conservation purposes 
within the State from which the receipts were derived.
    The legislation would authorize the Secretary to sell excess 
national forest land or interests in land that the Secretary determines 
to be both eligible for disposal and in the public interest. Many of 
these lands are isolated from other contiguous National Forest System 
lands, and because of their location, size, or configuration are not 
efficiently managed as components of the National Forest System.
    Isolated tracts can be expensive to manage because of boundary 
management and encroachment resolution costs. The sales of these lands 
will not compromise the integrity of the National Forest System; 
instead, it will allow the agency to consolidate federal ownership and 
reduce management costs. Land sales would be limited to a list of lands 
identified by the Secretary. By selling lands that are inefficient to 
manage or have limited ecological value, and subsequently purchasing 
critical, environmentally sensitive lands; the Forest Service will 
maintain the integrity of the National Forest System, while funding 
payments under the Act in a fiscally responsible manner.
    Our proposal would authorize the Secretary to sell sufficient 
National Forest land to fund an $800 million account. Under the 
legislation, 50 percent of receipts obtained from land sales would be 
used as a funding source to make SRS payments over a four year period 
with a gradual phase-out. The remaining 50 percent of receipts from 
land sales within a State would be used for conservation purposes.
    Finally, the legislation would authorize the establishment of a 
National Advisory Board to advise the Secretary on the land sales and 
the use of their proceeds. State governments will be encouraged to 
participate in formulating recommendations to the National Advisory 
Board for habitat improvement projects and land acquisition needs. By 
selling lands that are inefficient, isolated, or of limited-value and 
purchasing critical, environmentally sensitive lands, the Forest 
Service will maintain the integrity of the National Forest System while 
funding payments formerly provided by SRS.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Feinstein. Thank you very much. Ms. Lago.

                        STATEMENT OF LENISE LAGO

    Ms. Lago. Thank you, Madam Chairman. I'd like to present an 
abbreviated version of Chief Kimbell's testimony, and request 
that her full statement be entered into the record.
    Senator Feinstein. So ordered.
    [The statement follows:]
      Prepared Statement of Abigail Kimbell, Chief, Forest Service
    Madam Chairman and members of the subcommittee, it is a great 
privilege to be here today to discuss the President's budget for the 
Forest Service in fiscal year 2008. Let me also say, having been Chief 
of the Forest Service for just over 3 months, I am deeply honored to 
have this opportunity.
    First, I want to express my gratitude to Secretary Johanns for his 
confidence in me, and to thank the dedicated, hard-working employees of 
the Forest Service for their support and encouragement. Let me also 
express my appreciation in advance to you Mr. Chairman and members of 
the subcommittee for working with the Forest Service and me during this 
transition.
    I will begin by saying a few words about myself and my long-time 
commitment to the Forest Service. I have worked in the Forest Service 
for more than 30 years. I started as a seasonal employee and went on to 
serve as Forester, Planner, District Ranger, Forest Supervisor, 
Regional Forester, and Associate Deputy Chief, among other positions. I 
have worked in Oregon, Washington, Colorado, Alaska, Wyoming, Montana, 
and Washington D.C. Equipped with these experiences, I am eager to lead 
the Forest Service into its second century of service, and am humbled 
by the duties entrusted in me as Chief.
    For those new members who may be unfamiliar with our agency, the 
U.S. Forest Service works to sustain the health, diversity, and 
productivity of the Nation's 193 million acres of national forests and 
grasslands. We not only steward the National Forest System, but also 
provide states, Tribes, and private forest landowners with technical 
and financial assistance. Moreover, we are the world's largest forestry 
research organization.
    In its second century of service, the Forest Service faces diverse 
challenges. These include restoring fire-adapted forests to more 
resilient conditions, providing natural resource raw materials to the 
American public, providing sustainable recreation opportunities, 
mitigating the loss of open space, addressing the spread of invasive 
species, restoring watershed health, and more--all during a period of 
rapid fragmentation, intensive development, and landscape-scale change. 
These challenges occur at a time when our nation is pursuing deficit 
reduction goals. The Forest Service is responding, adapting, and 
modernizing in response to the complex and evolving environment in 
which we operate.
    Before I begin my testimony on the 2008 Budget however, I would 
like to reflect on Chief Bosworth's leadership and some of his many 
achievements during these past six years.
                the forest service under chief bosworth
    When Chief Bosworth took the helm of the Forest Service, the 
agency's finances were in disarray. The General Accountability Office 
had listed the Forest Service among agencies at high risk for waste, 
fraud, and abuse. Under Dale Bosworth's leadership, the agency 
progressed from being ``in receivership,'' to achieving five 
consecutive clean audit opinions from the USDA Office of the Inspector 
General. Chief Bosworth reduced overhead costs, reorganized the Deputy 
areas by eliminating two Deputy Chief positions and reducing staff, and 
guided the agency through the centralization and reengineering of its 
business processes--whose net cost reductions will approach $100 
million by fiscal year 2008. The Forest Service's improved business 
policies, processes, and organization have enhanced internal controls, 
eliminated duplication, and created accurate and complete financial 
data. Under the President's Healthy Forests Initiative, Chief Bosworth 
oversaw hazardous fuels reduction on more than 8.5 million acres. 
Further, the Chief responded with confidence and composure to such 
momentous challenges as September 11th; the Space Shuttle Columbia 
disaster; Hurricanes Katrina and Rita; and a period of wildland fire 
frequency and severity heretofore unprecedented in the modern era. 
Chief Bosworth skillfully ushered the Forest Service into the 21st 
Century's complex and demanding environment.
                 forest service fiscal year 2008 budget
    This budget request must be viewed in the larger context of the 
overall federal budget in which it is presented. Like other non-defense 
domestic discretionary programs, the Forest Service faces a constrained 
budget. And the results of the Administration's policies on economic 
growth and fiscal restraint include cutting the deficit in half, three 
years sooner than originally predicted. The fiscal year 2008 
President's Budget request for the Forest Service is $4.127 billion, 
which is approximately the same level of funding as fiscal year 2006 
and a modest reduction below fiscal year 2007. However, within that 
total are some important shifts: the budget makes important changes to 
the Wildland Fire account, maintains funding for Healthy Forests 
including the commitment to fully fund the Northwest Forest Plan to 
provide 800 million board feet of timber, and emphasizes public health 
and safety by proposing a significant increase in the Law Enforcement 
Operations budget. These increases are offset by reductions in other 
programs so that wider administration goals of supporting the Global 
War on Terror and sustaining the momentum of the economic recovery can 
continue. The President's Budget addresses reductions by continuing or 
implementing new cost saving measures and by enhancing efficiencies and 
streamlining management and organization.
    Wildland Fire.--During the 2006 fire season the United States 
experienced more than 95,000 wildfire ignitions, and more than 9.9 
million acres burned. Of those 9.9 million acres burned, approximately 
5 million acres were on Federal lands and the balance on non-Federal 
lands. The Forest Service continued its excellent track record in 
protecting lives, property, and the environment. However, as occurred 
in 4 of the last 7 years, in 2006 the Forest Service spent over $1 
billion for suppression activities--a record $1.5 billion. The 
increasing frequency of ``billion dollar'' fire-fighting years is 
driving up the 10 year average suppression cost figure, which is used 
to determine annual suppression funding levels.
    The 2008 Budget responds to escalating fire costs in three 
important ways. First, the budget provides funding for suppression at 
the 10 year average level, adjusted for inflation. The 2008 Budget 
funds Suppression at $911 million--a 23 percent increase over 2007 
levels of $741 million. Further, the 2008 Budget reflects refinement of 
the concept of ``appropriate management response'' toward a risk-
informed fire suppression approach. Under the risk-informed approach, 
wildland fire will be managed on a priority basis as determined by 
considering private property, infrastructure, and human values most at-
risk and resource benefits associated with the incident. In 2008 we 
will increase our decision support for this refined approach. New 
tools, including improved fire behavior monitoring and prediction, and 
costs and benefits of alternative suppression strategies will help 
managers decide how to respond to fires. In addition, the 2008 Budget 
pursues a more efficient and precise budget structure by establishing a 
separate account for ``firefighter'' expenditures. The 2008 Budget 
requests $220 million for this new appropriation, which will fund 
salary and training for 10,000 firefighters and 67 type I hot shot 
crews.
    Healthy Forests.--The Healthy Forests Initiative (HFI) was launched 
in 2002 to reduce administrative process delays to implementing 
projects, and Congress passed the Healthy Forests Restoration Act 
(HFRA) in 2003. The Act provides improved statutory processes for 
hazardous fuel reduction projects on certain types of at-risk National 
Forest System and Bureau of Land Management lands and also provides 
other authorities and direction to help reduce hazardous fuels and 
restore healthy forest and rangeland conditions on lands of all 
ownerships. The 2008 Budget maintains funding throughout the programs 
that support the Healthy Forests Initiative, including Hazardous Fuels, 
Forest Products, and applied Fire Science and Silvicultural Research. 
At least 40 percent of hazardous fuels funding will be used on projects 
that contribute to the goal of improving condition class on at least 
250,000 acres by the end of the fiscal year through the use of HFRA and 
HFI authorities. In addition, the Budget supports a hazardous fuels 
reduction target of 3 million acres, a timber sales target of 3.5 
billion board feet, and fully funds the Northwest Forest Plan, 
including an increase in Capital Improvement and Maintenance (Roads) to 
maintain the road infrastructure needed to support Northwest Forest 
Plan timber sales.
    Law Enforcement Operations.--The 2008 Budget proposes a $9 million 
increase from fiscal year 2007 in Law Enforcement Operations. Recent 
years have seen a significant increase in crime on National Forests, 
causing resource impacts and increasing risks to public and employee 
safety. Agency law enforcement officers are increasingly responding to 
violent crimes, including rape, homicide, domestic disputes, assault, 
robbery, drug manufacturing and trafficking, and other serious felony 
crimes. Law enforcement officers routinely respond to traffic 
accidents, search and rescue, medical or emergency assistance, 
hazardous materials spills, domestic terrorist activity, large group 
events and gang activity. In addition to reducing the impacts on 
natural resources and avoiding the associated costs of restoration, the 
requested funding increase will enable the Forest Service to maintain 
public and employee security and reduce illegal occupancy of National 
Forests.
    In order to fund these high priority programs, the Budget makes 
hard tradeoffs to other programs. Moreover, efficiencies gained through 
the centralization of Business Operations and renewed focus on 
collaborative management will help offset reductions under the fiscal 
year 2008 Budget request. In fiscal year 2008 and fiscal year 2009, the 
agency will further its efforts to optimize organizational efficiency 
by restructuring leadership and program management functions at its 
National and Regional Offices. In order to provide additional funding 
for on-the-ground performance, many headquarters and regional 
activities will be consolidated on a centralized basis, and appropriate 
program management functions will be zoned across multiple regions. The 
Forest Service will realize personnel cost decreases of approximately 
25 percent in National and Regional Office operations by the end of 
fiscal year 2009. An executive Steering team, led by Eastern Regional 
Forester Randy Moore, has been appointed to oversee the reorganization 
effort.
    I will now discuss program changes of the Research, State and 
Private Forestry, National Forest System, Capital Improvement and 
Maintenance, and Land Acquisition accounts.
                     forest and rangeland research
    The Forest Service Research Program is a globally recognized leader 
at exploring the fundamental ecological, biological, social, and 
economic questions and issues challenging natural resource management 
and conservation in the modern era. Not only do Forest Service research 
efforts inform Forest Service management, conservation, education, and 
outreach activities; but importantly, our Research programs inform the 
conservation activities of the global community.
    The 2008 Budget funds Research at $263 million. This is a 7 percent 
decrease from the 2007 funding of $280 million. The budget eliminates 
funding for un-requested Congressional earmarks and employs investment 
criteria to ensure alignment between research projects and strategic 
priorities. Funding priorities within the request include continued 
research to improve large fire decision support, particularly with 
respect to improving managers' ability to predict probability of fire 
occurrence and spread related to values at risk, long-term integrated 
planning, successful collaboration with communities, and further 
development of improved tools for integrated risk analysis. The 
invasive species program area includes new funding for research on 
biological control of invasive weeds. To help meet the Nation's energy 
needs there is an increase of $1.3 million to enhance research on wood-
based bio-fuels development and conversion processes, bio-refinery 
applications, energy efficient housing, and processing and 
manufacturing energy reduction, life cycle analysis of wood, and 
marketing analysis for energy and bio-based products. The 2008 Budget 
also retains support for Forest Inventory and Analysis, which is of 
great importance in the context of tracking today's dramatic ecological 
changes and their effects on forest resources.
    Forest Service Research and Development has focused on 
strengthening the conformance of its research program with the 
President's Management Agenda criteria for Federal research agencies: 
quality, relevance and performance. Research has identified 7 Strategic 
Program Areas (SPA), and developed strategic plans for each one. 
Further, Research plans to conduct national external panel reviews of 
each SPA, as well as reviews of each Research Station's alignment with 
the SPAs. These include periodic peer review and evaluation of all 
scientist positions through the Research Panel Process, peer review of 
proposed study plans and manuscripts for publication, and periodic 
updating of station quality assurance and quality control plans. During 
2006, a restructuring of the Research headquarters staff was initiated 
to improve responsiveness, quality, relevance, performance and 
efficiency.
                       state and private forestry
    The State and Private Forestry program is a critical component of 
the Forest Service's conservation mission in that it connects the 
agency's research and federal public lands-based programs to those of 
states and private individuals and entities. State and Private Forestry 
programs work across boundaries to conserve forested landscapes and 
open spaces, and protect the ecological services they provide. State 
and Private Forestry programs assist successful conservation of the 
nation's natural resources by enhancing cooperation between 
individuals, non-governmental organizations, states, and the federal 
government.
    The 2008 Budget funds State and Private Forestry at $202 million, a 
28 percent decrease from 2007 funding levels of $280 million. Funding 
will be focused on priority activities in the Forest Health and 
Cooperative Fire programs.
    The Forest Health program will receive more than $90 million and 
provide for treatments of invasive and native pests on more than 
600,000 acres of priority forest and rangelands. When combined with 
funds received under the National Fire Plan, the total acreage will 
increase by almost one-third and will yield close to 800,000 acres of 
treatments. Attention will be placed on priority pests such as the 
southern pine beetle, the western bark beetle and slowing the spread of 
gypsy moth. In fiscal year 2008, the Forest Health program will 
emphasize increased early survey and monitoring efforts against 
invasive species. These activities are important and integral to the 
overall program--increasing the agency's ability to prevent and detect 
problems early is a more cost-effective way to deal with invasives than 
treatments after wide spread infestations have occurred.
    The Cooperative Fire program will receive more than $42 million and 
will help more than 9,800 communities protect themselves from 
disastrous wildland fires. The majority of funds allow the Forest 
Service to provide financial assistance to state and local fire 
agencies, which in turn use the grant monies to develop and implement 
cooperative wildland fire preparedness programs and conduct hazardous 
fuel treatments around communities. A very successful program funded 
under the Cooperative Fire activity is Firewise, which emphasizes 
individual responsibility for fire hazard mitigation on community and 
private property. The program provides education and support to 
community leaders, and assistance with mitigating wildland fire hazards 
around structures. Moreover, the program leverages $4 in local matching 
funds for every federal dollar spent, allowing the program to assist 
more communities.
    Finally, more than $66 million in the State and Private Forestry 
program will fund priority Cooperative Forestry programs including the 
Forest Legacy Program, which will receive $29 million. These funds will 
be used on 14 projects, which are expected to conserve 97,000 acres of 
important forest resources. To date, more than 1.4 million acres of 
environmentally important private lands have been protected through the 
Forest Legacy Program and with more than 429 million acres of the 
Nation's forest held in private ownership this program continues to be 
important to prevent critical forest lands from being converted or 
fragmented.
    The balance of funding in the Cooperative Forestry program will 
fund Forest Stewardship and Urban and Community Forestry activities. 
All State and Private programs will focus on national goals to produce 
public benefit outcomes. State-developed resource plans will identify 
priority response to national goals. This approach is designed to 
connect with all ownerships in a collective effort to achieve healthy 
forest objectives and protect human communities from wildland fire.
                 national forest system appropriations
    The National Forest System account provides funds for the 
stewardship and management of National Forests and Grasslands. The 2008 
Budget requests $1.344 billion for this account, a 7 percent decrease 
from the fiscal year 2007. This decrease from prior year levels 
reflects greater efficiencies gained through organizational 
restructuring of leadership and program management functions at the 
National and Regional Offices. In order to provide additional funding 
for on-the-ground performance, many headquarters and regional 
activities will be consolidated on a centralized basis, and appropriate 
program management functions will be zoned across multiple regions. 
Moreover, efficiencies gained through the centralization of Business 
Operations, and renewed focus on collaborative management will help 
offset reductions under the fiscal year 2008 Budget.
    As discussed previously, the fiscal year 2008 Budget supports full 
funding for the Northwest Forest Plan and emphasizes pubic safety. 
Specifically, the National Forest System 2008 Budget proposes $319 
million for Forest Products. Funds allow for the continued full 
implementation of the Northwest Forest Plan and support an overall 
timber sales target of 3.5 billion board feet, including 800 million 
board feet from the Northwest Forest Plan. The Budget also proposes an 
increase of $9 million to Law Enforcement for a total of $124 million. 
The increased funding will be used to hire, train, and equip new law 
enforcement officers and special agents. Increased visibility of law 
enforcement will improve public and employee safety and address foreign 
drug trafficking organizations on the National Forests.
    The 2008 Budget proposes to hold funding in Grazing Management at 
prior year levels for a total of $47 million. Maintaining this level 
will enable the Agency to comply with the Rescissions Act of 1995 by 
completing the backlog of NEPA-based environmental analysis.
    Funds are available to other programs in the National Forest System 
account to address highest priority needs. The 2008 Budget proposes 
funding for Land Management Planning at $53 million, a decrease of 9 
percent. Funds will be used to support work to complete Land Management 
Plan revisions and continue work on other plan revisions. The fiscal 
year 2008 Budget also proposes $146 million for Inventory and 
Monitoring programs, a decrease of 12 percent. Funds will focus on 
forest plan monitoring and establishing Environmental Management 
Systems on 50 National Forest units. Environmental Management Systems 
are a comprehensive approach to improving the management of 
environmental issues and performance on individual units.
    The 2008 Budget proposes funding for Recreation, Heritage, and 
Wilderness at $231 million, a decrease of 10 percent. In fiscal year 
2008, the agency will continue to emphasize implementation of the 
travel management rule in order to address issues of unmanaged 
recreation, visitor safety and resource protection. By fiscal year end, 
the agency will have 48 percent of National Forest System lands covered 
by travel plans. Program funds will permit continued operation of 
recreation sites, although some reduction in seasons and hours for 
visitor information services may occur in some locations. National 
Forests are currently undertaking a process to analyze their recreation 
facilities and evaluate the future needs of the recreating public. The 
process, the Recreation Site Facility Master Planning, is an analysis 
tool, to encourage dialogue amongst a variety of interested communities 
on the changing demands for recreation facilities on national forests 
and what options may exist to respond to those changes.
    The recreation program will continue to strengthen relationships 
with private, volunteer-based, and nonprofit organizations to ensure 
some capacity levels are maintained and more particular to make 
programs and services relevant to youth in diverse and underserved 
populations.
    The fiscal year 2008 President's Budget requests $71 million for 
Minerals and Geology Management program, a decrease of 16 percent. The 
energy component of the program will focus on increasing opportunities 
for environmentally sensitive development and supply of oil and gas, 
coal, and geothermal resources from Federal lands in support of the 
Energy Policy Act of 2005. Funding levels to support environmental 
compliance and environmental restoration will continue at prior year 
levels to ensure required audits are continued and to focus on cleaning 
up publicly accessible abandoned mines and other contaminated sites in 
high priority watersheds.
    The budget also proposes funding for Wildlife and Fisheries 
Management at $118 million, a decrease of 11 percent, and for 
Vegetation and Watershed Management at $154 million, a program decrease 
of 14 percent. Focus in the wildlife and fisheries program will be on 
improving fish and aquatic passage, recovery of the Columbia basin 
salmon, and on-going recovery efforts of other species including the 
Bighorn Sheep.
    In addition to efficiencies garnered through organizational 
alignment, the Forest Service will continue to achieve efficiencies by 
centralizing Business Operations, utilizing email and video 
conferencing to lower travel costs, realigning the Agency, and will see 
these efficiencies and reduced costs continue over time. The net result 
is to maintain our foremost commitment to the land and focus funding on 
where the work gets done.
                  capital improvement and maintenance
    The Capital Improvement and Maintenance Program provides for, and 
maintains, the infrastructure for many Forest Service programs 
including; the transportation networks upon which many of our 
management operations, projects, and users depend; the recreational 
infrastructure, including trails that serve many diverse populations; 
and facilities that house Forest Service employees.
    The 2008 Budget funds Capital Improvement & Maintenance at $423 
million, a decrease of $14 million. To support the goal of selling 3.5 
billion board feet of timber, the 2008 Budget requests an additional $4 
million for Road Improvement and Maintenance. In addition to this 
request, the Forest Service will continue to receive revenues from 
sites conveyed under authorities provided by the Facility Realignment 
and Enhancement Act, which has to date provided $34 million in receipts 
to convey unneeded administrative sites and retain the proceeds for 
building maintenance, rehabilitation, and construction.
                            land acquisition
    Land covered by urban areas has more than doubled over the last 40 
years, and more than 44 million acres of private forests are at-risk of 
being developed by 2030. The Land Acquisition account enables the 
Forest Service to perennially stay abreast of, and act upon, the 
changing land-use patterns, demographic trends, and ecological changes. 
The Land Acquisition program allows us to pursue landscape 
connectivity, by purchasing in-holdings and keystone habitat parcels, 
and to manage the national forests as ecosystems rather than simply as 
real estate.
    The 2008 Budget funds Land Acquisitions at $16 million. This 
includes $8 million to purchase land and $8 million for acquisition 
management. The funding will allow us to move forward with 7 high 
priority acquisitions. The funding request continues a trend of 
declining budgets for land acquisition. However, the Budget also 
contains a legislative proposal that permits the Forest Service to 
retain upwards of $400 million in land sales for acquisition of 
national forest lands. The parcels to be sold have already been 
identified as suitable for sale or exchange because they are isolated 
or inefficient to manage. Lands with high environmental value will not 
be offered for sale, while acquisitions would focus on parcels that 
enhance the environmental integrity of our National Forests. Given the 
importance of maintaining assets already in federal ownership, the 
Budget strikes a good balance with the need to acquire and preserve 
special places.
                               conclusion
    Priority forest management issues such as reducing hazardous fuels 
in the Wildland Urban Interface and prevention of property destruction 
by catastrophic wildfires will be increasingly integrated with other 
pressing policy issues, including sequestering carbon, preserving open 
space, improving watershed health, and other mission-driven goals. We 
are addressing the costs of wildland fire suppression to mitigate 
constraints on other Forest Service programs. Our risk-based 
suppression approach and Healthy Forests Initiative fuels reduction 
work--much like our Business Operations centralization and 
collaborative management efforts--will reap tremendous mid- and long-
term efficiencies in the contexts of agency budgets and reducing risk 
to human communities posed by wildland fire. The 2008 Budget reflects 
the President's commitment to providing the critical resources needed 
for our Nation's highest priorities. The 2008 Budget also responds to 
the national need for deficit reduction while preparing the Forest 
Service for a new, more collaborative, era of natural resource 
management. With this Budget, the Forest Service will continue to 
identify and support more efficient and effective methods of pursuing 
its mission. This will be accomplished through increased collaboration, 
the use of legislative authorities, expanded program efficiencies, and 
improved organizational and financial management. Through these efforts 
the Forest Service will continue to sustain the health and productivity 
of the Nation's forests and grasslands.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our fiscal year 2008 
program, and I'm happy to answer any questions that you may have.

    Ms. Lago. Thank you, Madam Chairman, and members of the 
subcommittee. For those of you who weren't here earlier, I'm 
Lenise Lago. I'm the Budget Director for the Forest Service.
    First of all, it's a very great privilege for me to be here 
representing the Chief. Thank you. As you noted, Madam 
Chairman, Chief Kimbell could not be here today because she's 
in California for the release of the report of the 
investigation into the deaths of five Forest Service employees 
who were killed in the Esperanza Fire on October 26.
    The report of the investigation, which was conducted by the 
State of California, along with the Forest Service, will be 
released to the public later today.
    Turning to the Forest Service budget, in our second century 
of service, the Forest Service faces diverse challenges, which 
many of you have noted.
    These include restoring fire-adapted forests to a more 
resilient condition; providing natural resource raw materials 
to the American public; and providing sustainable recreation 
opportunities, and more, during a period of rapid 
fragmentation, intensive development, and landscape scale 
change.
    These challenges occur at a time when our Nation is 
pursuing deficit reduction goals. The Forest Service is 
responding; we're adapting, we're modernizing in response to 
the complex and evolving environment in which we operate.
    This budget request must be viewed in the larger context of 
the overall Federal budget in which it is presented. Like other 
non-defense domestic discretionary programs, the Forest Service 
faces a constrained budget.
    The fiscal year 2008 President's budget request for the 
Forest Service is $4.1 billion. That's about 2 percent less 
than we had in 2006, and as you noted, about a 5 percent 
reduction below 2007.
    However, within that total are some important shifts. Since 
the Under Secretary's testimony focused on wildland fire and 
the proposal for secure rural schools, I'd like to briefly 
discuss three other emphasis areas. We can discuss other 
programs during the question and answer period.
    First of all, Healthy Forests. The 2008 budget maintains 
funding throughout the programs that support the Healthy 
Forests Initiative, including hazardous fuels, forest products, 
and applied fire science and silvicultural research.
    At least 40 percent of hazardous fuels funding will be used 
on projects that contribute to the goal of improving condition 
class, with a target of at least 250,000 acres treated by the 
end of the fiscal year through the use of the Healthy Forests 
Restoration Act and Healthy Forests Initiative authorities.
    This is part of a total hazardous fuels reduction target of 
3 million acres, and a timber sales target of 3.5 billion board 
feet. It fully funds the Northwest Forest Plan, including 
sufficient funds in Capital Improvement and Maintenance-Roads 
to maintain the road infrastructure needed to support the 
Northwest Forest Plan timber sales.
    Our second emphasis area, as you also noted, is law 
enforcement. This budget emphasizes public health and safety by 
proposing a $9 million increase in law enforcement operations. 
Recent years have seen a significant increase in crime on 
national forests, causing resource impacts and increasing risk 
to public and employee safety.
    The requested funding increase will enable the Forest 
Service to maintain public and employee security and reduce 
illegal occupancy on national forests.
    The third area I'd like to talk about are efficiencies. The 
need to fund high-priority programs is severely restricted by 
the requirement to fund the 10-year average for fire 
suppression. This budget begins to look at what we can do to 
attack fire differently to achieve cost savings.
    Throughout the non-fire programs, we're looking at ways to 
increase efficiency and add value. For example, in fiscal year 
2008 and fiscal year 2009, the agency will further its efforts 
to optimize organizational efficiency by restructuring 
leadership and program management functions at the national and 
regional office levels.
    In order to provide additional funding for on-the-ground 
performance, many headquarters and regional office activities 
will be consolidated on a centralized basis and appropriate 
program management functions will be zoned across multiple 
regions.
    The Forest Service will realize cost decreases of 
approximately 25 percent in national and regional office 
operations by the end of fiscal year 2009. The efficiencies 
gained through the continued centralization of business 
operations through Washington and regional office 
transformation, and renewed focus on collaborative management, 
will help offset reductions in the fiscal year 2008 request.
    The net result, and the reason that we're doing this, is to 
maintain our foremost commitment, which is to the land, and 
focus on funding work where it gets done.
    Thank you for this opportunity to discuss the President's 
budget. On behalf of Chief Kimbell, we stand ready to work with 
you to implement our fiscal year 2008 program. I'm happy to 
answer any questions that you have.

                              FIREFIGHTING

    Senator Feinstein. Thank you very much. As chairman of this 
subcommittee, for however long or short it might be, I 
essentially have three priorities with respect to the budget. 
The first is to see that we do everything we can to manage 
forests and fight fires, so that we make a consequential dent 
in what is happening.

                         MARIJUANA ERADICATION

    The second is that we are able to stop marijuana from being 
grown in our national forests. In my State, marijuana is 
currently being grown in every single national forest. That is 
unacceptable. Growers are armed, they shoot, they leave the 
ground as an eco-disaster. It's my understanding 19,000 acres 
have been essentially ruined.
    This is unacceptable. It would just seem to me that if INS, 
instead of going into the homes of innocent people, would go 
into some of these forests and rout these crews, and arrest 
them and send them away, it'd go a long, long way.

                          QUINCY LIBRARY GROUP

    The third is the Quincy Library Group. Quincy was something 
that I authored. I feel strongly about it. It is not working 
adequately now.

               LAW ENFORCEMENT AND MARIJUANA ERADICATION

    So let me just ask a few questions on these points. Let me 
begin with the law enforcement and the marijuana. You're funded 
at $124 million. You've got a $12 million increase, if the 
money survives, in the supplemental. My question is, how many 
new personnel do you plan to hire, and how will you prioritize 
enforcement in areas like my State that have the highest 
concentration of drug activity in our forests?
    Mr. Rey. Our current plans, should our requested increase 
go forward, would be to hire an additional 60 agents, and they 
would be prioritized on the forests with the highest amount of 
marijuana cultivation.
    The reason that the cartels are on the national forests is 
that we have done a pretty good job of interdicting large 
volume shipments across the border, so they're adapting to our 
success.
    The reason they are disproportionately on the national 
forests, as compared to say Bureau of Land Management lands, is 
that we have water, and we have trees, which work as good 
visual barriers to help hide the cultivation work that's being 
done, as opposed to open range lands, where it's more easy to 
identify from the air.
    Senator Feinstein. Is there any relationship between your 
Department and the INS, or ICE now----
    Mr. Rey. Yes, we----
    Senator Feinstein [continuing]. To have those people help 
you going in? These are all Mexican nationals. They don't 
belong here.
    Mr. Rey. Right.
    Senator Feinstein. They've broken the law coming here, and 
they've broken it again by growing marijuana.
    Mr. Rey. We have cooperative agreements with both INS and 
the Border Patrol, as well as the Drug Enforcement 
Administration.
    Senator Feinstein. So they actually go into the national 
forests and pull people out?
    Mr. Rey. When we do a major operation, it's usually a joint 
operation with INS, local law enforcement, and our own agents.
    Senator Feinstein. Okay, good. I'd like to know a little 
bit more about that, if I can.
    [The information follows:]

    Clerk's Note.--Senator Feinstein asked for more information about 
joint operations between agencies to eradicate marijuana on Federal 
lands. A meeting to discuss this subject was scheduled for June 25, 
2007, between Senator Feinstein, Under Secretary Rey, Forest Service 
Director of Law Enforcement and Investigations John Twiss, and 
representative of the Drug Enforcement Administration and the Federal 
Bureau of Investigation.

    Senator Feinstein. Let me speak for just a moment about the 
Quincy Library Group. If I understand it, the Sierraville 
District ranger position is the only one in Sierra County.

                          QUINCY LIBRARY GROUP

    That's 75 percent national forest land, and the county is 
very concerned that a consolidation will hurt the Forest 
Service's ability to the local community's issues and concerns.
    The local board of supervisors unanimously passed a 
resolution on May 15 opposing these plans. I strongly oppose 
these plans. I don't think you can leave this huge area without 
a ranger.
    So my question is, has a decision been made to consolidate 
these ranger districts, and what impact will this plan have on 
the community and the success of Quincy Library Group 
activities?
    Mr. Rey. I don't think it will have any measurable impact 
on the community, and it should have no impact on the 
implementation of the Quincy Library Group activities. While 
we're planning to manage the east side of the forest as one 
district, we're not proposing to close any offices, and we're 
not moving any employees.
    So we're simply extending the span of control of a district 
ranger to include a larger number of offices.
    Senator Feinstein. Well, if I may, I'd like to know more 
about that.
    Mr. Rey. Sure.
    Senator Feinstein. The Forest Service tells us no final 
decision has been made, and I just want to reemphasize the 
importance of this to the Quincy Library Group and to 
everything that we have passed and authorized and moved forward 
with.
    Mr. Rey. Madam Chairman, I think one of the things you may 
be hearing is that there's still a lot of unhappiness with some 
downsizing we did over two decades ago on the east side of the 
Sierras. We moved an office out of Downieville, and therefore, 
anytime we announce any changes, we send up a fair amount of 
flares.
    But we'd be happy to work with you on this one, because I 
don't think what we're doing is going to materially affect the 
communities there.
    Senator Feinstein. All right. The whole point of Quincy is 
to build firebreaks, to do small logging on these fire breaks 
so that you make the forest more secure, and you also create 
jobs for the people.
    The pilot legislation requires the Forest Service to treat 
between 40,000 and 60,000 acres, creating the strategic system 
of fuel breaks.
    My understanding is that you've only been able to reach the 
acreage goal outlined in the legislation once. What are the 
major obstacles to implementation of the goals, and what is the 
Forest Service doing to meet these challenges?
    I know some of it is litigation, but we need to get around 
that somehow, some way, and I thought that our Hazardous Fuels 
legislation created the opportunity to do that.
    Mr. Rey. Both the Quincy Library legislation and the 
Healthy Forests Restoration Act gave us new tools to do fuel 
reduction work. But you put your finger on the main impediment 
that exists today, and that's working through the litigation 
associated with many of the projects that we've proposed.
    The Quincy Library Group area has a somewhat larger 
frequency of litigation than the State as a whole. The State as 
a whole has a somewhat larger frequency of litigation than the 
country as a whole.
    I don't know that there's any easy answer, but to do the 
best job we can in both producing these projects using the 
authorities you've given us, and then do the best job we can 
defending them in court, is what we do.
    Senator Feinstein. Just one last question. In August, I 
hope to meet with the Quincy Library Group and go over this, 
and it would be very helpful if you or someone could be there 
from the Department that we might be able to find a way to 
ameliorate this and move this program forward. I'm very 
concerned about it.
    Mr. Rey. I'd be happy to join you there in August.
    Senator Feinstein. Thank you. Thank you very much. Senator 
Craig?
    Senator Craig. Thank you, Madam Chairman. Revisiting Quincy 
is fascinating to me. Obviously, I helped you legislate that--
--
    Senator Feinstein. Yes, you did.
    Senator Craig [continuing]. As one of the early 
collaborative efforts on the part of community and stakeholders 
to try to resolve what had become, obviously, a point of 
tremendous conflict.
    I must say I'm always frustrated when local environmental 
groups and local stakeholders come together to agree to 
something, but the nationals say no, and then they start filing 
lawsuits--a right hand doth not know what left hand does. In 
this case, you're obviously concerned, as you should be, that 
not all has been carried forward.

                           WILDLAND FIRE RISK

    Mark, there are a variety of questions I want to ask both 
you and Ms. Lago, but let me take you to the Brookings study 
and the overview there.
    Talk to us about some of the key findings. I have tried to 
understand the idea of firefighting, as now envisioned by the 
Forest Service, where I see literally large communities and 
tens of thousands and millions of dollars established and spent 
in the course of a fire.
    But you used one word that worried me a great deal, because 
of the transformation of our public lands, and especially the 
fee lands within them, where large mega-homes are being built.
    I know that we have reason to be proud of the fact that 
we've lost fewer homes, and I'm glad you believe, and have 
justification to believe, that that's a result of thinning and 
cleaning. It certainly is in some areas of my State.
    But you used the word ``risk''. Am I to assume--and this is 
just an assumption--that where there are no big homes, there 
will be therefore less risk to human structures, therefore, 
less focus on fighting fire?
    We've got habitat out there, we've got watershed to worry 
about. We've seen the idea of simply letting it burn go, 
because now we have a cost factor involved.
    We know that in some of these heavily fuel-laden 
environments, the fires are mega-fires, in the sense of 
temperature and damage to the subsoil and subsoil surfaces or 
conditions, and therefore, the ability of the forest to 
regenerate itself is lessened.
    What does your use of the word ``risk'' mean--you used it 
in your testimony--as it relates to the selectivity or the 
decisionmaking as to where to fight and where to engage a fire?
    Mr. Rey. What we're talking about here is doing an analysis 
of the resources that are there against the proposition of 
whether the fire is going to pose a direct risk to those 
resources or a lower risk, or, alternatively, maybe even a 
beneficial effect.
    There are obvious cases where there is property involved 
where the risk is high. The less obvious cases are where 
there's no property involved. But that doesn't necessarily 
mean, even when there's no property involved, that we're 
viewing the fire as one that would be a low priority to 
suppress.
    It would depend on what the ecological values are, and what 
our level of certainty is that we can extinguish the fire if it 
burns beyond the parameters that we want.
    So we are doing fire management plans on all of our units 
to evaluate where there are areas where the risk to the loss of 
some value, whether it's an ecological value or an economic 
value, in the form of property or structures, is sufficiently 
low that we wouldn't----
    Senator Craig. So I was right in my assumption?
    Mr. Rey. You better repeat the assumption, so I can be 
sure.
    Senator Craig. All right. Structure versus non-structure 
decisionmaking.
    Mr. Rey. No, no. Where there are structures, the choice is 
fairly obvious. But where there are no structures, there are 
still instances where we're going to move to immediate 
suppression.
    The most common of those instances would be where the fuel 
loads are too high for the fire to burn safely, and the risk of 
a larger spread is too great, or where there are ecological 
values involved that we know a fire would diminish.
    Conversely, where there are no structures, there are areas 
where the risk of spreading beyond where we'd like to see the 
fire burn is fairly low, and where the resource values are also 
low, and the fire might have a beneficial effect.
    Senator Craig. Okay. Well, I've observed fire all of my 
life. I've observed a time when the slightest smoke put 
smokejumpers in, and the fire was put out. Now, I've watched 
knowledgeable people debate for days whether to engage, while 
the fire roars across the landscape.
    I hope whatever system you put in place allows rapid 
decision-making, instead of will it or won't it or should it or 
could it get into a certain watershed, and if it does, then we 
put it out. Oftentimes, the damage, as you know from your own 
experience, is excessive.
    I won't carry that forward. Let me ask this question of 
you, Mark. We've talked about what went on last year. We saw 
the worst fire season ever in total acreage burn. The chairman 
speaks of drought. Our runoff this year in Idaho is 
substantially less than we thought it would be.
    We hope this year's fire season, as bad as it may be, won't 
be as bad as last year. Your agency could be $750 million short 
of what it needs to fight fires and be forced to borrow massive 
amounts of money from other programs if we have a similar fire 
scenario.
    When GAO looked at firefighting borrowing problems 
recently, it concluded that the borrowing of funds caused 
numerous project delays and cancellations, strained 
relationships with State and local agency partners, and 
disrupted program management efforts.
    In some cases, these cancellations and delays increased 
costs and the time needed to complete the project.
    Can you then, from your own perspective now, and with the 
resources you have, give us some sense of how severe you expect 
this fire season to be, based on what you know now? That's one 
question.
    The supplemental appropriation bill that we have been 
considering has $400 million for Forest Service, for 
firefighting. I understand that some folks at the OMB think 
this funding is unnecessary.
    Is it your sense that these funds are needed by the agency 
to pay for firefighting and to avoid the massive borrowing that 
has occurred in recent years? So, I'd like to know about the 
issue of borrowing and the issue of fire perspective for this 
season.
    Mr. Rey. The answer to the first question is we predict 
this season will be less severe than last year, but still above 
the 10-year average, given the long-term drought indications. 
That's answer one.

                     BORROWING FUNDS TO FIGHT FIRES

    Question two is we believe that it's too early to be 
putting additional money in the account. The fire season is 
developing somewhat more slowly than last year, and if need be, 
we can adjust the 2008 bill and make that work for us.
    Third, the impact of borrowing is basically as GAO has 
stated it. It's not the most perfect way to fund firefighting, 
but it is the way we have. We did propose a governmentwide 
contingency account with our 2003 budget proposal, and that's 
something we'd be willing to pursue with you again.

                           WILDLAND FIRE RISK

    I did, however, so garble the answer to the previous 
question, I'd like to add to it, if I might, Madam Chairman, 
because I think I left you all feeling very uneasy about when 
we do and when we don't decide to suppress fires.
    Senator Feinstein. Please do.
    Mr. Rey. We don't spend time debating whether to suppress a 
fire after it's ignited. The fire management plans make those 
decisions ahead of time.
    Included in those decisions are not only physical 
limitations on where and where not, but other variables as 
well. Just looking at fuel loads and topography in an area, we 
might not move to immediate suppression, but if we're in high 
winds or extended drought, we will.
    So there are triggers within those plans that require 
immediate action in certain circumstances when, if those 
circumstances were not present, we would otherwise think that's 
a fire that might have a salutary effect if it burned.
    Last summer, we heard from a lot of places about the fact 
that we were letting more fires burn, and that it was somehow 
an indictment of this overall risk-based approach to 
firefighting.
    In a normal bad year, we'll have one or two broad-scale dry 
lightning events. Those are events where we get as many as two 
or three thousand ignitions in one 24 or 48-hour period.
    When that happens, we typically try to get all of those 
ignitions, but when you've got that many at once, you don't get 
them all.
    So you leave the ones that are the most remote to get to 
last, and you run the risk that one or more than one of those 
is going to grow into a larger fire. But it makes sense to go 
to the most close-in ones that are nearer property first.
    Last year, we had seven of those large dry lightning 
incidents, so there was a greater number of escapements because 
there was a greater number of large multi-ignition dry 
lightning events.
    Consequently, we heard, and I'm sure you all heard, that 
the Forest Service is letting some of these burn. Well, we 
weren't letting them burn. We were responding to them as 
quickly as possible, given the multiplicity of the ignitions 
that were occurring over a very short and compressed period of 
time.
    Senator Feinstein. Thank you, Mr. Rey.
    Senator Craig. I'll come back for second round. Thank you.
    Senator Feinstein. Very helpful. Senator Stevens?

               LAW ENFORCEMENT AND MARIJUANA ERADICATION

    Senator Stevens. Well, I want to ask you a question, but I 
hope you won't take 5 minutes answering it, because I want to 
get to Alaska in my questions. But I am disturbed you're going 
to hire agents. We have other subcommittees where we deal with 
the problems of illegal growers.
    I don't know why Agriculture needs agents to deal with 
those illegals in the forest areas. It'll take a year to train 
them. Why don't you go out for a task force from DEA and the 
National Guard and Immigration, and go in and take them down?
    If you did one or two, took them down really seriously, you 
wouldn't have any more. But if you wait a year to train agents, 
it'll just get worse. This calls for action, in my opinion. 
Maybe I'm watching too many episodes of 24, but it's time 
someone did something about that.
    We had a little touch of that up North, you know, and our 
people did form a task force, and did go in and took them down. 
I haven't heard any more about it. So I do think you ought to 
really face this--face up to it now, and not just hire agents 
and make plans of how Agriculture's going to do it.
    This isn't your business. You don't know how to handle 
these guys at all. You're used to just normal trespassers in 
the national forest. Give it to people who are trained to do it 
now, and get it done.
    Otherwise, I would oppose that money. I think you should 
use the money we've got on other bills, and go get them now, 
not train more agents. Now, let me----
    Senator Feinstein. Can Mr. Rey respond?
    Senator Stevens. If you want to comment on that, we'll give 
you 5 seconds. Yes.
    Senator Feinstein. I'll give you more time if we let him 
respond.
    Senator Stevens. Yes.
    Senator Feinstein. Thank you.
    Mr. Rey. All of the major takedowns are task force 
takedowns involving ourselves, local law enforcement, and DEA, 
or whatever----
    Senator Stevens. Why are you involved in it at all? DEA 
does it. That's their job. We have UAVs, we have the National 
Guard, we have immigration people already trained. You don't 
need to train people to do that, Mark.
    Mr. Rey. The knowledge of the land and that sort of stuff 
is----
    Senator Stevens. Ah, that's baloney.
    Mr. Rey [continuing]. Somewhat important.
    Senator Stevens. Baloney. You just don't want other people 
on your force. Now cut that out and get them in there and take 
them down. They can be down in 2 or 3 months, and you know it. 
But you should not take this on in Agriculture.
    Senator Feinstein. Well, don't be intimidated by him. Say 
what you think.
    Mr. Rey. If the Congress wants to fund another agency to do 
this, we're----
    Senator Stevens. Don't need to fund them. They've already 
got the money. They got more money than they need right now.
    Senator Feinstein. It's not getting done.
    Senator Stevens. It's not being done. You didn't ask him. 
You didn't tell them, ``It's your job. Come take them down 
now.'' You should do that. You ought to go to the 
administration to demand it.

                 TONGASS LAND MANAGEMENT PLAN AMENDMENT

    Let me go to Alaska, if I can. I was wrong. My staff tells 
me I was wrong. We didn't get 140 million board feet last year. 
We got 50 million board feet out of a forest that used to cut 
1.5 billion. At Chugach, they don't cut any timber now, as I 
understand it. The timber cutting is supposed to be, under the 
Tongass Timber Reform Act, cut out of the Tongass.
    We've had one law office that's kept you all busy now for 
10 years. Are we going to get the Tongass LMP amendment process 
completed this year?
    Mr. Rey. Yes.
    Senator Stevens. Would it allow some cutting of timber next 
year?
    Mr. Rey. It will call for cutting of timber next year. That 
will have to be defended in court, as will the individual----
    Senator Stevens. Will you support an amendment to say ``No 
more challenging this plan in court''? It's been planned. You 
spent $40 million now to defend this plan over 10 years. The 
same lawyers are going to take you to court again.
    Meanwhile, we've got 32 different communities. Is it 32? 
Yeah, 32 different communities in southeastern Alaska dependent 
upon timber harvest. They can't do it. They're just--all the 
timber companies are going to collapse and fail if this goes to 
court again.
    Isn't it time now to say no more appeal of this?
    Mr. Rey. We've been working on the Tongass plan since 1979. 
There are Forest Service employees who started their career and 
have retired before we completed the Tongass Land Management 
Plan.
    I will commit to you that we will produce a Tongass Land 
Management Plan this fall, which will be the best plan that the 
Forest Service can produce.
    Senator Stevens. Well, meanwhile, the second generation of 
lawyers is in that law firm, and they're rich, and all the 
timber people are going bankrupt. Now, we've got to stop that 
litigation over this plan somehow.
    Mr. Rey. I agree.
    Senator Stevens. Good. Thank you. I'm going to offer such 
an amendment. There ought not to be another challenge to this 
plan. We had a plan agreed to. Those people represented by 
these lawyers were involved in settling the Tongass Timber 
Reform Act.
    From the day it was signed, they challenged it, although 
they helped get it passed. It's now been challenged, what are 
you talking about, 27 years, 28 years?
    Mr. Rey. 28 years.
    Senator Craig. Ted, I was a freshman congressman. I was 35 
years of age. I'm near retirement age now. The issue is still 
the same.
    Senator Stevens. Don't use the word retirement. I don't 
believe in that.
    Thank you very much.

                             FOREST LEGACY

    Senator Feinstein. You're very welcome. Senator Gregg?
    Senator Gregg. Thank you, Madam Chairman. Mr. Rey, Ms. 
Lago. There are a number of things I want to talk about, but I 
do want to express my concerns about the funding for Forest 
Legacy in the administration's proposal. Forest Legacy has been 
an extremely successful program, especially in the East.
    In the East, we are still interested in purchasing land and 
protecting land in significant proportions, and especially in a 
place like New Hampshire, which is in the path of the 
megalopolis.
    In the West, or some of the States, I can understand, 
you're overwhelmed with the Federal ownership percentage of the 
State. They feel they've got enough ownership, and probably 
would like to sell some.
    But in the East, we still feel very strongly that we need 
the funds to help us, especially Forest Legacy, leverage 
purchases and easements that make a huge difference in our 
ability to protect land which is critical and in the path of 
the megalopolis.
    Forest Legacy's a big part of that. Unfortunately, the 
Forest Legacy funds have dropped 71 percent in the proposal; 
and not just this year, over the last 4 or 5 years, 3 or 4 
years, even though the administration initially supported 
Forest Legacy with some robustness.
    So I regret this, and this year's request is really 
piddling, and----
    Senator Feinstein. Senator?
    Senator Gregg. Yes?
    Senator Feinstein. If I could, I'm just looking at the 
numbers. 2008 was 29,311. Enacted----
    Senator Gregg. I'm talking about the budget request.
    Senator Feinstein. Twenty-seven--we're going to put some 
money back----
    Senator Gregg. Great.
    Senator Feinstein [continuing]. In the Forest Legacy----
    Senator Gregg. Thank you.
    Senator Feinstein [continuing]. So we'll be happy to work 
with you.

                 WHITE MOUNTAIN NATIONAL FOREST FUNDING

    Senator Gregg. I appreciate that. On a specific issue, I 
wanted to ask you about the White Mountains. I believe the 
White Mountain Forest is the most visited national forest in 
the country. Is that correct?
    Mr. Rey. It's heavily visited, but it's not number one.
    Senator Gregg. Well, it's certainly got to be the most 
visited east of the Mississippi. I would presume it was the 
most visited--it was right up in the top two or three.
    Mr. Rey. It's probably in the top half dozen, I'd guess.
    Senator Gregg. We get hundreds of thousands of people using 
it because, of course, it's right there. I mean, it's 4 hours 
from New York, 1.5 hours from Boston, and it's a great and 
beautiful spot.
    Yet, I notice in the budget that the budget for the forest 
is being reduced by 10 percent, which will reduce the forestry 
programs there by 25 percent, reduce the recreational proposals 
by 15 percent, reduce the seasonal employees by 75 percent.
    It will eliminate the leverage programs we have relative to 
trail protection, and the permanent timber personnel are being 
reassigned to other resource areas. That, I presume, is a 
function of the need to spend money somewhere else.
    I guess my question is if you've got one of the more 
visited forests, no, the most visited forest east of the 
Mississippi, is it appropriate to target that as a place where 
you're reorienting your resources?
    Mr. Rey. I think I'd have to work with you to go over those 
numbers. I don't have forest by forest breakdowns with me 
today. I'm quite confident we wouldn't do anything to reduce 
the partnership dollars that we have coming in, because that's 
how we've boosted the support for some of our recreation 
programs.
    Senator Gregg. Well, actually, you are. They're going to be 
terminated, under the information I have, which I presume is 
accurate, because it's from the people who do the trail 
programs.
    Of course, a 75 percent reduction in temporary employees on 
the White Mountains is a seasonal event. It's used aggressively 
in the winter, but it's for skiing, and those are all private.
    But in the summer, of course, that's when most of the 
seasonal employees are hired. A 75 percent reduction is going 
to lead to problems. I mean, we've got some problems in that 
forest from people using it inappropriately anyway. We've had 
some serious issues with motorcycle gangs, for example.
    But generally, the experience of going to the White 
Mountains is a really good experience, and people pay for it. 
As you know, they pay a parking fee if they're going to hike 
there. I'm interested, what percentage of that parking fee 
stays with the White Mountains, and what percentage goes to a 
central office?
    Mr. Rey. Eighty-five percent stays with the White Mountain, 
under the legislation that Congress enacted in 2003.
    Senator Gregg. So 15 percent comes down here?
    Mr. Rey. Fifteen percent goes into the administration of 
the program, wherever that is required, but 85 percent stays on 
the ground.
    Senator Gregg. So if we were just to give them a 100 
percent--I'm not sure the numbers work out correctly--maybe the 
10 percent cut wouldn't impact them so much?
    Mr. Rey. It'd be a possibility.
    Senator Gregg. It's a $1 million reduction. In the context 
of this budget, obviously, not even an asterisk, even less than 
an asterisk, but it does have an impact.
    So I just wanted to raise the visibility of it to you. I 
recognize that there's tremendous pressure out West to fight 
fires, and that that's absorbing huge amounts of money. I 
recognize that we're our own worst enemies in the area of 
timber cutting, which was used to maintain the forests. We're 
basically at dramatically reduced revenues, as a result of what 
people represent--in many instances inaccurately--as 
environmental concerns.
    Some are correct, but 80 percent reduction in timber 
harvesting is not appropriate. In the context of those resource 
pressures, it does seem to me that when you've got a place like 
the White Mountains, which has a unique role in the forest 
system because it is really more of a visited forest and a 
recreational forest and a multi-use forest than most of your 
properties, certainly most of them east of the Mississippi, 
that we shouldn't be putting it on a path to failure.
    Mr. Rey. What I'd like to do is collect the data from the 
White Mountain and see if we can sit down and visit in greater 
detail.
    [The information follows:]

    Clerk's Note.--Under Secretary Rey offered to discuss funding for 
the White Mountain with Senator Gregg. Forest Service staff will 
schedule a meeting once the information has been collected.

    Senator Gregg. I appreciate your courtesy. Thank you.
    Mr. Rey. Thank you.
    Senator Feinstein. Thank you, Senator Gregg. Before turning 
to Senator Craig, I want to just make one comment.

                          PREPAREDNESS FUNDING

    The cut in your preparedness budget, 15 percent, is really 
unsustainable. In view of what we think is going to happen this 
fire season, despite what Ms. Lago said, there is no reason to 
believe that you can solve the problem with efficiency.
    I think we've got to add some money back here and find a 
way to do it, and I'd like to work with you in that. I am 
really concerned about this year, that we could have really 
catastrophic fire.
    The Esperanza Fire killed five people. I mean, what can 
happen this year is just dreadful. I think we have to be 
prepared. I can tell you this, that the California Governor, 
Governor Schwarzenegger, is moving with preparedness. We all 
know we expect a bad time, and once we know it, we have an 
obligation to do something about it.
    So I want to work with you on this particular number and 
try to change it. Senator Craig?
    Mr. Rey. We'd be happy to work with you.
    Senator Feinstein. Thank you.
    Mr. Rey. Two quick clarifications. This budget is 2008. The 
fire season we're in is 2007, so the money that you've already 
appropriated is what we're spending this year.
    Senator Feinstein. I understand. That's a good point.
    Mr. Rey. Then the other is that we do have the authority to 
move dollars from suppression to preparedness, and will do that 
if circumstances necessitate. But I would still be happy to sit 
down and go through the budget lines.
    Senator Feinstein. Okay. Senator Craig?
    Senator Craig. Thank you very much, Madam Chairman. A 
couple more questions of both of you, and I think I have one 
also for you, Ms. Lago.

                         GRAZING PERMIT BACKLOG

    There is a real problem with a backlog of expiring grazing 
permits that need to be renewed. Congress put a schedule in 
place for a renewal of these permits in the 1995 Rescissions 
Act. The schedule required NEPA to be completed on all 
allotments by 2010.
    Your budget justification says that accomplishments from 
1995 through 2003 were well below scheduled levels. It also 
indicates that significant amounts of work remain to be done to 
finish the NEPA reviews by the deadline.
    In the 2005 Interior Appropriations bill, the committee 
provided additional funds to address the backlog of allotments, 
also provided categorical exclusions from NEPA for grazing 
allotments that met certain conditions. There was a gap of 900 
allotments on this authority.
    How many allotment decisions have been made using this 
authority so far, Mark? Do you know? That'd be the one question 
of either of you. Is this authority helping to speed up the 
process? Does the authority need to be extended?
    We're fighting fire, but there are an awful lot of folks 
who are dependent upon the relationship they have with you for 
grazing in their livelihoods and in their businesses.
    Mr. Rey. To date, we've used the authority on 250 renewals. 
We have another 250 planned for fiscal year 2007. That would 
get us to 500. The cap was 900 renewals. So yes, it would be 
helpful to extend the authority 1 more year, and then we would 
use that time to try to do the other 400 renewals.
    The CE has been helpful in expediting this work. The CE is 
one of the reasons we think we'll still make the 2010 deadline, 
assuming we can use the CE beyond 2007.

                         CATEGORICAL EXCLUSIONS

    Senator Craig. Okay. Speaking of CEs, obviously, in October 
2005, a Federal District Court in the Earth Island Institute 
v., I think it's Ruthenbeck, was it----
    Mr. Rey. Ruthenbeck.
    Senator Craig [continuing]. Case held that the Forest 
Service had to provide notice, comment, and appeal on projects 
implemented through the use of the categorical exclusion. Of 
course, you know, Madam Chairman, this dealt with our Healthy 
Forests legislation.
    Last year, the chief testified before the subcommittee that 
this case delayed or cancelled 723 fuel reduction projects 
affecting over 1 million acres. Here we are, talking about 
worse fire scenarios, and we've got interest groups and courts 
shutting us down in some of those areas. What's the status of 
this litigation?
    How many projects are being affected by this ruling now, 
and is there anything you can do administratively to address 
this situation, or is a legislative fix needed so that the 
Forest Service is treated like every other agency when it comes 
to the use of categorical exclusions?
    Mr. Rey. At this point, I do not believe that there is a 
judicial remedy in this case. We have asked for an en banc 
review by the 9th Circuit. It's been denied. It's highly 
unlikely that the case will be resolved judicially.
    So even though we believe that the court wrongly 
interpreted the 1990 Appeals Reform Act, in terms of 
obligations that it imposed on the Forest Service, that 
nevertheless is where the litigation will stand.
    The only remedy to put the Forest Service back on the same 
footing as every other agency in how it complies with the 
National Environmental Policy Act would be for a legislative 
clarification of the 1990 Appeals Reform Act.
    Senator Craig. Okay. It would be through the 1990 Appeals 
Reform Act?
    Mr. Rey. That was the legislation that the court based the 
decision that----
    Senator Craig. Okay.
    Mr. Rey [continuing]. Unlike every other agency in the 
Federal Government, the Forest Service is obliged to offer an 
opportunity for notice, comment, and administrative appeal 
anytime it uses a categorical exclusion from the National 
Environmental Policy Act.
    That was a reading of the court interpreting the 1990 
legislation, wrongly in our judgment, but there you have it.
    Senator Craig. Okay. Thank you very much, Mark, Ms. Lago. 
Thank you very much, Madam Chairman.
    Senator Feinstein. Thank you, Mr. Rey. Thank you----
    Senator Craig. I have other questions I'll submit for the 
record.
    Senator Feinstein. All right. Excellent. Thank you, Ms. 
Lago.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Service for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
    Question. The California Department of Conservation Estimates that 
there are 47,000 abandoned mines in the State, including 7,000 on 
National Forest Lands. These sites create physical hazards, contaminate 
watersheds in my State and throughout the West, and create physical 
hazards to members of the public recreating on National Forest System 
lands. Your fiscal year 2008 budget reduced funding for the Minerals 
and Geology activities by 16 percent, from $84 million to $71 million. 
What impact will these budget cuts have on the number of sites targeted 
for cleanup in fiscal year 2008, both in California and nationwide?
    Answer. Cleanup of contaminants and mitigation of physical safety 
hazards are addressed in the ``Manage Environmental Restoration'' 
(Restoration), and ``Mitigate Abandoned Mine Land Safety Risk Feature'' 
(Safety) activities in the Minerals and Geology Management Budget Line 
Item.
    The Forest Service Budget Justification on page 9-56 displays the 
changes in budget and outputs in fiscal year 2008 as compared to fiscal 
year 2007 for these two activities. A decrease in budget does not 
easily translate into numbers of sites because of the wide variation in 
site cleanup costs, as well as the number of years it takes to complete 
a project. For that reason, the most accurate measure of the change in 
outputs for both California and the Nation would be the percentage 
decrease in budget for these two activities, which is 6 percent and 17 
percent, respectively, for Restoration and Safety.
    Question. How are you prioritizing which mine sites to clean up? 
Have you developed an estimate of how much funding you would need to 
remediate all abandoned mine sites on National Forest System lands?
    Answer. Hazardous and non-hazardous cleanup projects are submitted 
by each Forest Service regional office along with narratives describing 
the costs and benefits of each. Projects submitted are prioritized at 
the national level using criteria that includes; human health and 
safety, environment protection, public/private partnerships, and public 
interest.
    The Forest Service does not have a current estimate for remediation 
of all abandoned mine sites on National Forest System lands. However, 
it is important to note that previously unknown abandoned mines sites 
are continually being discovered, and that only a small percentage of 
known sites have clean-up designs and associated costs established.
    Question. I have been extremely concerned about the Forest 
Service's slow pace in using the Healthy Forest Restoration Act 
authorities provided by Congress to increase the efficiency of your 
hazardous fuels reduction program. I have also raised concerns that you 
are not using these authorities in California. How many acres in 
California will the agency treat using HFRA authorities in fiscal year 
2007 and fiscal year 2008? What percentage of total fuels treatments 
will be accomplished using HFRA in fiscal year 2007 and fiscal year 
2008? What steps is the agency taking to ensure that these authorities 
are actually being used?
    Answer. In fiscal year 2008, not less than 40 percent of program 
funding will be used on projects that contribute to the goal of 
improving the condition class on at least 250,000 acres across the 
Nation by the end of fiscal year 2008 through the use of Healthy Forest 
Restoration Act and Healthy Forests Initiative authorities. The Forest 
Service is committed to using all available authorities to reduce the 
risk to communities and resources from wildland fire. Healthy Forest 
Restoration Act authorities are an important set of tools available to 
land managers.
    In fiscal year 2007 the Forest Service and Department of Interior 
anticipate treating hazardous fuels on over 4 million acres with 
Federal funding using all available authorities. The Forest Service is 
expanding use of HFI and HFRA authorities throughout the country with 
an 88 percent increase in acres treated under the authorities from 
fiscal year 2005 to fiscal year 2006. To date, the Forest Service has 
treated over 115,000 acres in fiscal year 2007, more than 6,000 of 
which are in California. The Pacific Southwest Region has placed 
increased emphasis on HFRA projects, and continues to work with 
communities to develop the Community Wildfire Protection Plans (CWPP) 
necessary to proceed with HFRA authorities. As more communities 
implement CWPPs, the Forest Service can expand use of HFRA authorities 
in California and throughout the country.
    In 2006, the Forest Service conducted a review of Healthy Forests 
and associated authorities including Stewardship Contracting. The 
review team found widespread agreement among both Forest Service and 
partners that while useful in many scenarios, HFI and HFRA authorities 
were not appropriate or feasible in many situations. The agency is 
proceeding with implementation of many of the recommendations made by 
the review team. A copy of the review report will be made available to 
Congress following Departmental approval.
    Question. Your budget calls for decisions on whether to mobilize a 
number of preparedness resources, including helicopters, hotshot crews 
and smokejumpers, to be made at the national rather than the regional 
level starting in fiscal year 2007?
    Who will be in charge of deciding to deploy these resources?
    Answer. An interagency delegation of authority is being finalized 
for members of the National Multi-Agency Coordinating Group (NMAC) to 
implement the national mobilization and prioritization of these 
resources. NMAC members include representatives from the four DOI 
bureaus, the Forest Service, and the National Association of State 
Foresters.
    These resources may be deployed locally by the host unit if no 
higher geographic area or national priority is pending. Deployment at 
the geographic area level will be determined by the geographic area 
multi-agency coordinating groups.
    Question. What is the proposed timeline for nationalizing these 
resources?
    Answer. Hotshot crews, smokejumpers, Type 1 helicopters, and a 
portion of the Agency's Type 2 helicopter fleet are currently managed 
as national resources. For 2007, our remaining Type 2 helicopters will 
be converted from local to national resources for the impending fire 
season. Additional analysis will be required before converting our 
local Type 3 helicopters to national resources, this analysis will 
occur prior to the 2008 western fire season.
    Question. How will you balance local concerns against national 
needs?
    Answer. Consistent with our policy of allocating resources on the 
basis of risk mitigation, control of these resources will transfer to 
higher levels as the national preparedness level escalates. Priorities 
for resource deployment will be based on anticipated initial attack 
requirements, Predictive Services analysis, and decision support tools.
    Question. The agency will spend $301 million on fuels treatments in 
fiscal year 2007--a significant investment in the face of other budget 
constraints. How does the Forest Service measure the amount of fire 
risk generated through these fuels treatments?
    Answer. We do not have a system designed to track fire risk 
generated, as our programs are aimed at mitigation of fire risk through 
the reduction of hazardous fuels. Often our restoration and fuel 
reduction objectives require multiple entries to achieve. There have 
been cases in which the first treatment puts fuel on the ground that 
temporarily increases fire risk. That risk is short lived and balanced 
by the long term benefit of the fuel reduction treatments. To enter a 
treatment in our accomplishment reporting system, it must meet the 
definition of hazardous fuel reduction. In 2006, the Forest Service 
reduced fire risk on approximately 2.5 million acres from management 
actions with a direct or indirect benefit of fuels reduction.
    Question. How much funding is proposed in your fiscal year 2008 
budget for fuels reduction related to the bark beetle infestation in 
the San Bernardino National Forest? How much funding is proposed to 
address infestation and fire risk on adjacent State or private lands?
    Answer. The fiscal year 2008 allocation to the San Bernardino will 
depend on the final allocation to Region 5 and reflect consideration of 
regional priorities. We anticipate that expected funding for the San 
Bernardino bark beetle infestation will be at or above historical 
levels.
    Question. I am concerned that California fuels treatments are at a 
disadvantage because the region has higher unit costs due to the 
abundance of wildland-urban interface and other factors. Has the Forest 
Service examined what factors contribute to higher unit costs in the 
State? Has the agency taken steps to try to reduce the unit costs for 
California fuels treatments?
    Answer. High unit costs within the region are a significant concern 
for the administration. The region has conducted several region wide 
assessments of unit costs and visited a forest to conduct a specific 
unit cost review and develop a strategy for reducing unit costs. A 
significant part of the cost of activities in the region is the general 
cost of doing business in California. A typical vegetation mastication 
contract is over $500/acre. Typically the California program is greater 
than 60 percent mechanical treatments. Some of the treatments on the 
San Bernardino have exceeded $2,500/acre. The only choice is whether or 
not to proceed with implementation of the treatment. We will continue 
to re-examine the program mix, choices of project areas, and 
opportunities for modification of objectives to reduce contract costs.
    Question. It is critical that the Forest Service has incentives in 
place for the agency to fund the highest priority fuels treatments, 
regardless of unit costs. What role do unit-cost measures play when you 
are allocating fuels dollars? How does the agency balance cost-
effectiveness with other priorities?
    Answer. For fiscal year 2007, the Forest Service developed the 
Ecosystem Management Decision Support model, which will assist with 
establishing national priorities and allocation of funds. This model is 
under continuing development and enhancement for fiscal year 2008 to 
incorporate improved data on wildfire potential and consequences of 
problem fires, particularly the wildland-urban interface. The model 
will be used in fiscal year 2008 for national- to regional-scale 
strategic planning, broad ecological assessments, and resource 
allocation. The model emphasizes areas with the highest potential for 
problem wildfire, consequences, and greatest opportunity for efficient 
and effective treatments while meeting multiple objectives. Based upon 
this analysis, the Forest Service will identify national priorities 
within the fuels program and focus funding on those priorities, 
consider performance in risk reduction through systematic risk analysis 
tools for fire hazard analysis and fuels treatment implementation, and 
assess project criteria for WUI fuels treatments. Average Regional unit 
cost comes into effect in allocation of funding.
    The objective in the allocation is to distribute funding to the 
highest priority projects while optimizing accomplishments. In essence, 
the agency must provide optimal benefits at an efficient and effective 
level of cost as reflected in a risk-informed decision process. 
National program allocations and local project selections would attempt 
to optimize wildfire risk mitigation (i.e., net benefits) over time by 
choosing projects that provide cost-effective risk reduction. Having a 
risk-informed approach provides a path forward for both national and 
local decision-makers that is suitable in a variety of circumstances, 
including where there exist differing State and local government codes 
or where there are numerous fire protection alternatives. It also 
recognizes the ecological benefits associated with wildfires occurring 
within normal ranges of intensity.
    Question. How will you improve incentives for local decision-makers 
to choose higher priority treatments, even when they are more 
expensive?
    Answer. Both national and local decision makers seek cost-effective 
risk reduction. Local decision-makers focus on a balance between high 
priority, high cost work near communities and lower cost restoration 
and maintenance treatments that will restore sustainability in the long 
term. The selection of projects is accomplished in collaboration with 
local communities, partners and stakeholders and includes balancing 
values at risk with costs. Decision makers participate as partners in 
the formulation and execution of community wildfire protection plans 
(CWPPs) that help to prioritize fuel treatment and restoration 
activities. These plans describe the common vision between Federal land 
managers and adjacent communities on how we may work together to meet 
our objectives on both sides of the property line. Those projects 
determined with the use of the CWPP become eligible to use streamlined 
planning protocols made available under the Healthy Forest Restoration 
Act, with fewer action alternatives to analyze, reducing planning 
workloads.
    Question. How much funding does your fiscal year 2008 budget 
contain to support the activities of the California Fire Safe Councils, 
and how does this compare to fiscal year 2007 levels? How much funding 
in your budget will go toward community wildfire protection planning in 
California in fiscal year 2008?
    Answer. A portion of the funding to be allocated to the Pacific 
Southwest Region is available, as the California State Forester deems 
appropriate, to fund California Fire Safe Councils. In fiscal year 2007 
approximately $1.9 million was made available to the California Fire 
Safe Councils. There is no set amount established or programmed for 
community wildfire protection planning in any of the States. Our 
program direction will include community wildfire protection planning 
as a high priority for funding in 2008.
    Question. On March 10, 2007, the Riverside Press-Enterprise ran a 
story regarding increased illegal dumping in the San Bernardino 
National Forest. According to the story, there has been a dramatic 
increase in the amount of illegal dumping in the forest as fees at 
public dumps and recycling centers has increased. The story also notes 
that the problem is no longer limited to dumping household garbage, but 
rather ``trash by the trailer load. Truckloads of old tires. Fifty cans 
of paint at a time. Assortments of junked refrigerators and recliner 
chairs, mattresses and TV sets.'' The San Bernardino National Forest 
may be at risk for dumping more because of its large residential 
population and proximity to urban areas. Have you assessed the 
situation, and do you have an estimate of how much funding will be 
required to clean up the forest? How much funding with the Forest 
Service devote to these clean-up efforts in fiscal year 2007?
    Answer. The San Bernardino National Forest has not assessed the 
forest dumping situation. In fiscal year 2007, approximately $250,000 
will be spent on the San Bernardino to address unauthorized and illegal 
dumping in key areas located in the urban interface and watersheds. 
Increased funding levels requested in the President's fiscal year 2008 
budget justification for law enforcement will be used to prevent 
further and future dumping from occurring. Additional officers should 
help deter and eliminate future dumping. In addition, collaboration 
with local partners and volunteers will assist the Forest in cleanup 
efforts.
    Question. Are there other forests, especially in California, where 
you have seen significant increases in illegal dumping? What measures 
is the Forest Service taking to prevent dumping on national forests in 
California?
    Answer. This is strictly a reactionary/responsive enforcement 
action. In the rare cases that we have a ``pattern'' we have scheduled 
officers to try to catch the individuals in the act. But that is rare. 
Prevention requires a prolonged presence. Our limited presence is most 
often concentrated where people are. Illegal dumping does not usually 
take place in those locations--that's why it's successful. Our best 
prevention tool is patrol ``being in the right place at just the right 
time''. Officers will look through debris to see if we can find any 
evidence of ownership, etc, and every once in a great while we'll find 
some household mail with an address that allows officers to conduct 
follow-up contacts.
    Question. Public Law 109-154, the Public Lands Corps Act, 
authorizes the Secretary of Agriculture to enter into contracts and 
cooperative agreements with our Nation's Service and Conservation Corps 
for projects that reduce fire risk. What steps has the Forest Service 
taken to implement this act, and what steps does the agency plan to 
take in fiscal year 2007 and fiscal year 2008?
    Answer. The Forest Service has a long-standing and rich history of 
working with State and local Service and Conservation Corps throughout 
the Nation. Public Law 109-154 allows the agency to continue this rich 
tradition and to develop even greater Partnerships.
    The Public Land Corps Healthy Forests Restoration Act of 2005 
amends the act governing the youth conservation corps laws to include 
provisions for ``priority projects'' that meet the purposes of HFRA. 
Essentially, it allows the FS and DOI to give preference to certain 
youth and conservation corps to carry out projects that meet the 
purposes of HFRA.
    The FS supports opportunities for qualified youth and conservation 
corps to further the goals of the Healthy Forests Restoration Act when 
the corps have the appropriate skills and capabilities to safely 
complete the projects under the provisions of the Public Land Corps 
Healthy Forests Restoration Act.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig
                           fire preparedness
    Question. Your budget proposes to create a new appropriation called 
Wildland Firefighters. These funds were previously funded within the 
Preparedness line item of the overall fire budget. When I add what you 
are proposing for this new appropriation to what remains of the 
traditional preparedness budget it looks to me like a cut of about $95 
million for overall fire preparedness.
    What will be the impact on our fire readiness capability?
    Answer. The agency will have approximately 10,010 firefighters in 
fiscal year 2008 as compared to 9,550 firefighters in fiscal year 2006; 
however other resources will be reduced commensurate with the agency's 
transition to Appropriate Management Answer. The agency will focus and 
prioritize resources, such as engines, to the areas where the highest 
risk exists. The following displays planned resource changes:

------------------------------------------------------------------------
                                                Fiscal years
                                  --------------------------------------
             Resource                  2006         2007         2008
                                      actual      planned     estimated
------------------------------------------------------------------------
Firefighters \1\.................        9,550       10,010       10,010
    Type I Interagency Hot Shot             67           67           67
     Crews (20 person)...........
Other Firefighters:
    Smoke Jumpers................          277          277          190
    Prevention Technicians.......          419          399          277
Engines..........................          940          950          726
Water Tenders....................           57           63           48
Dozers & Tractor Plow Units......          144          152          119
Type I, II, and III helicopters             80           84           65
 for local mobilization..........
Type II helicopters for national             7            7            5
 mobilization....................
    Airtankers...................           18           16           14
    Type 1 helitankers/                     15           15            8
     helicopters.................
------------------------------------------------------------------------
\1\ Includes IHC crews.

    Question. Won't this lower the agency's initial attack success rate 
and lead to more catastrophic fires?
    Answer. The agency anticipates a 2-5 percent reduction in initial 
attack success and an increase in acres burned in fiscal year 2008, 
which will be consistent with our transition to a risk informed 
performance based fire suppression system.
    This strategy will minimize cost and recognize contributions of 
lower intensity wildfires to healthy forests. Initial attack capability 
will remain a priority for the agency and as fire activity and risks 
elevate, existing resources may be supplemented to enhance capability.
    Question. How does it make sense to cut money for firefighter 
training and equipment following the worst fire season we have ever had 
in terms of acres burned?
    Answer. The Wildland Firefighter Appropriation provides adequate 
funding to ensure continued firefighter training. In fiscal year 2006 
approximately $30 million was spent on wildland fire training, we 
anticipate a similar amount in fiscal year 2008. While some large 
firefighting equipment, such as engines, will be reduced, adequate 
funding will be provided to ensure field and safety equipment is 
available for firefighters. Compared to earlier years, the 9.9 million 
acres burned in 2006 was indeed a large amount but still significantly 
lower than the numbers of acres burned earlier in the 20th Century, 
including an average of 35 million acres per year in the 1920s and 38 
million acres per year in the 1930s.
                        forest planning process
    Question. Under the old forest planning rules, the time and expense 
to complete Forest Plans became incredibly expensive. Plans designed to 
last for 15 years were taking 6-8 years to complete and many millions 
of dollars. This Administration streamlined that process and I see that 
your budget reflects a reduction of $5 million or roughly 10 percent of 
the total budget for the program.
    Can you tell us what your experience is so far under the new 
planning rules? For example, how much less are individual plans costing 
now than before?
    Answer. The agency has not yet completed an approved plan under the 
2005 Planning Rule. In addition the agency's financial management 
system does not track actual expenditures to the activity level. Thus, 
even if we had an approved plan under the new rule, it would be 
difficult to estimate the costs of producing that plan and to compare 
those costs with those from revisions conducted under the 1982 planning 
rule. However, anecdotal evidence suggests that the costs of revising a 
plan under the new rule are lower than those incurred under the 1982 
rule.
    In addition to having the option of using streamlined NEPA 
procedures, forest and grassland supervisors have found the 2005 
planning rule identifies and encourages the use of much more engaging 
procedures to involve the public in land management planning. Rather 
than relying on predominantly a ``notice and comment'' method for 
public involvement, the 2005 planning rule improved the planning 
process by collaboratively involving the public. The public is offered 
more opportunities to help with existing condition and trend 
evaluations, developing guidance for land management plans, and 
developing monitoring programs for the plan. While a ``notice and 
comment'' opportunity still exists with the required 90-day comment 
period and 30-day objection period, the public has many opportunities 
to be involved in the planning process prior to these comment/objection 
periods.
    Question. Quite a number of Forest Plans have gone beyond their 15 
year revision date. Are the new rules helping address this backlog?
    Answer. Although the 2005 planning rule is expected to reduce the 
time and cost associated with revising a forest plan, the rule has not 
been in place long enough to affect the backlog of Land and Resource 
Management Plan revisions. Implementing the new rule has taken longer 
than expected because of the need for many units to engage in lengthier 
transition tasks while changing over to the new rule.
    In addition, the new rule has been litigated. The United States 
District Court for the Northern District of California has enjoined the 
2005 planning rule. This will delay some plan revision approvals. The 
Forest Service has started the rulemaking process to approve a new 
planning rule.
                           recreation budget
    Question. I see that your budget for the recreation program is 
decreased by over $27 million--that's a 10 percent cut. In many of our 
Western States, recreation is helping to reduce some of the impacts 
from reduced harvesting on our national forests by providing another 
means to attract investment and dollars into rural communities. This 
seems like a large cut for this program.
    What impacts will there be on effectively managing recreation 
facilities, administering special use permits for various private 
operators, and providing interpretive services for visitors?
    Answer. The proposed reduction in funds will result in a number of 
program reductions, including shortened seasons at some developed and 
dispersed recreation sites; reduced hours for visitor information 
services with minimal staffing; processing new special use permit 
applications would be limited; restoration and adaptive reuse of 
heritage properties for interpretation, recreation, and tourism will 
occur at very low levels; and a limited number of wilderness rangers 
will be available to provide visitor information and education. 
However, recreation resources will continue to be directed towards 
efforts that maximize program delivery, including strengthening 
partnerships which are vital to accomplishing stewardship work on the 
ground. Additionally, the Recreation Site Facility Master Planning 
process is working to analyze our existing recreation site inventories 
to identify sites that are most used and most valued by the public, 
allowing the agency to determine where to prioritize recreation site 
investments in response to public needs.
                            grazing permits
    Question. There is a real problem with a backlog of expiring 
grazing permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions Act. The 
schedule requires NEPA to be completed on all allotments by 2010. Your 
budget justification says that accomplishments from 1995 through 2003 
were well below scheduled levels. It also indicates that significant 
amounts of work remain to finish the NEPA reviews by the deadline.
    In the fiscal year 2005 Interior appropriations bill, the Committee 
provided additional funds to address the backlog of allotments and also 
provided a Categorical Exclusion from NEPA for grazing allotments that 
met certain conditions. There was a cap of 900 allotments on this 
authority.
    How many allotment decisions have been made using this authority so 
far?
    Answer. The Rescissions Act schedule identifies 6,886 allotments 
that need NEPA based analysis and decisions by the end of CY 2010. At 
the end of fiscal year 2006, 4,616 allotments had NEPA completed and 
management decisions made. To date, approximately 250 allotment 
decisions have been completed using the Categorical Exclusion (CE) 
authority provided in the fiscal year 2005 Interior and Related 
Agencies Appropriations Act. Another 250 CEs are planned for fiscal 
year 2007.
    Question. Is this authority helping to speed up the process?
    Answer. Yes. The CE authority helped the Forest Service complete 
more allotments on the Rescissions Act schedule then without it. On 
those allotments that meet the established criteria, the Forest Service 
was able to reduce the time and effort necessary to complete the NEPA 
process. In addition, the CE authority has allowed the Forest Service 
to focus funding and staffing on those allotments with more complex 
management issues.
    Question. Does this cap need to be raised so you can get more 
allotments processed that meet the standard for use of this authority?
    Answer. No. The 900 allotment cap appears to be sufficient for the 
number of allotments that meet the established criteria. However, an 
extension of the authority to September 30, 2008, would be very useful 
so that the remaining 400 CEs would continue to be available should 
they be needed.
    Question. Will you be able to complete the NEPA on these allotments 
consistent with the Rescissions Act schedule?
    Answer. The Forest Service continues to place a strong emphasis on 
allotment NEPA in order to complete the Rescissions Act schedule. It is 
our intention to complete the NEPA by the scheduled time frame. 
However, from fiscal year 2007 through fiscal year 2010 the agency will 
need to further accelerate the process to complete NEPA on an average 
of over 500 allotments per year in order to meet the Rescissions Act 
schedule.
                             timber budget
    Question. For 2007, the timber budget was increased by roughly $33 
million. The increase was to fully fund the implementation of the 
timber sales piece of the Northwest Forest Plan. Your fiscal year 2008 
budget retains this level of funding for the Plan.
    I can acknowledge that promises were not kept to the timber 
industry in the Northwest Forest Plan, but I wonder whether such a 
large increase primarily aimed at 2 regions of the Forest Service 
covering Washington and Oregon is the most efficient use of timber 
dollars.
    Aren't there still major litigation problems with timber sales in 
Oregon and Washington?
    Answer. The agency does not expect that litigation will 
significantly affect the timber sale program under the Northwest Forest 
Plan, and the volume needed to meet the Settlement Agreement. In fact, 
there is a good deal of support for thinning in late successional 
reserves, where much of the treatments need to be conducted.
    Question. Could these funds be allocated in a fashion where more 
Regions could benefit and would have a better chance to maximize actual 
harvest volumes?
    Answer. The administration has made a commitment to fully fund the 
Northwest Forest Plan, and the proposed Forest Products allocations to 
Regions 5 and 6 are necessary to achieve that commitment. The unit 
costs to produce timber volume under the Northwest Forest Plan are some 
of the lowest in the agency, so shifting funds to other Regions would 
likely reduce our capability to produce timber.
                         categorical exclusion
    Question. In October of 2005, a Federal District court in the Earth 
Island Institute v. Ruthenbeck case held that the Forest Service had to 
provide notice, comment, and appeal on projects implemented through the 
use of Categorical Exclusions. This judicially created requirement 
regarding CE's applies to no other agency in the Federal Government.
    Last year, the Chief testified before this subcommittee that this 
case delayed or canceled 723 fuels reduction projects affecting over 1 
million acres. What is the status of this litigation?
    Answer. Injunctions issued in Earth Island Institute v. Ruthenbeck 
(E.D. Cal.) and Wilderness Society v. Rey (D. Mont.) remain in effect, 
as do the Chief's instruction letters issued after each ruling.
  --Categorically excluded activities listed by the court (timber sales 
        and 10 other types of activities) are subject to notice, 
        comment and appeal; and
  --Eligibility to appeal is to be determined under the 1993 version of 
        36 C.F.R. 215.11(a)--not 36 C.F.R. 215.13(a)(2005).
    A brief status report on the three nationwide challenges to the 
project appeal regulations follows:
Earth Island Institute v. Ruthenbeck
    The District Court's injunctive order remains in effect. The Ninth 
Circuit declared eight claims were not ripe for judicial review, but 
affirmed the District Court's application of the Appeal Reform Act to 
certain categorical exclusions (CE). The agency petitioned for a 
rehearing with a suggestion for rehearing en banc seeking reversal of 
the adverse portion of the ruling. The petition was denied by the Ninth 
Circuit June 8, 2007.
Wilderness Society v. Rey
    The District Court's injunctive order remains in effect. An appeal 
was filed, but briefing in this case was stayed pending action by the 
Ninth Circuit on the Forest Service's petition for rehearing in Earth 
Island v. Ruthenbeck. It is expected that briefing will now move 
forward.
Wildlaw v. USDA
    No injunction was issued. All Appeal Reform Act issues were 
dismissed as unripe facial challenges. The Forest Service was affirmed 
on NEPA claims. The deadline for filing notice of appeal was March 27, 
2007.
    Question. How many projects are being affected by this ruling now?
    Answer. We do not have a current survey of projects being affected.
    Question. Is there anything you can do administratively to address 
this situation or is a legislative fix needed so that the Forest 
Service is treated like every other agency when it comes to the use of 
categorical exclusions?
    Answer. The courts' rulings relate to the Appeal Reform Act and the 
types of activities subject to administrative appeal under the act. The 
agency clarified through its 2005 appeal regulations that CEs are not 
subject to appeal under the Act and thus do not require notice, comment 
and opportunity for appeal. However, the courts have rejected that 
interpretation. The courts' rulings require notice, comment and 
opportunity for appeal of several types of categorically excluded 
activities. This undermines the purpose of CEs established through the 
National Environmental Policy Act implementing regulations--to reduce 
documentation requirements for project analysis and decision-making for 
projects that typically have no significant effects.
    There is no further administrative action the agency can take to 
address the effects of these court rulings.
                  wildland fire outlook for this year
    Question. A number of fires have been in the news already this 
year, particularly in the chairman's home State. Drought is persisting 
in much of Interior West. I know that it is very early for predictions 
but it concerns me that if this year's fire season is as bad as last 
year's your agency could be $750 million short of what it needs to 
fight fires and will be forced to borrow massive amounts of money from 
other programs.
    When GAO looked at this fire borrowing problem recently, it 
concluded that ``the borrowing of funds caused numerous project delays 
and cancellations, strained relationships with State and local agency 
partners and disrupted program management efforts. In some cases, these 
cancellations and delays increased costs and the time needed to 
complete the projects.''
    Can you give us some sense of how severe you expect this fire 
season to be based on what you know now?
    Answer. Most of the eastern, central, and northwestern United 
States has a normal outlook for wildland fire potential. A portion of 
the Southwest is predicted to have a below-normal wildland fire season. 
This area includes northeastern New Mexico, and small parts of 
southeastern Colorado, western Oklahoma, and northern Texas, where it 
borders New Mexico. Wildland fire potential is expected to be higher 
than normal across much of the Southwest, California, portions of the 
Great Basin, the Northern Rockies, a small portion of the Northwest, 
Alaska, and the Southeast. The amount of precipitation many areas 
receive in the early summer will determine the severity of the fire 
season.
    Predictive Services' May through August outlook is available at: 
http://www.nifc.gov/nicc/predictive/outlooks/season_outlook.pdf
    Question. The supplemental appropriations bill that we are 
considering on the floor this week has $400 million for the Forest 
Service for firefighting. Is it your sense that these funds may very 
well be needed by the agency to pay for firefighting and avoid the 
massive borrowing that has occurred in recent years?
    Answer. Current funding is sufficient for foreseeable suppression 
needs.
                           personnel cutbacks
    Question. As I mentioned in my opening statement, if we accept this 
budget as proposed, there will be a cut of over 2,000 Forest Service 
employees. That's over 6 percent of the work force. I understand the 
need for belt tightening given the budget climate that we're in, but it 
strikes me as a little odd that at the Department of the Interior, 
other land management agencies like the BLM and the Fish and Wildlife 
Service will face virtually no cutbacks in personnel. The Park Service 
is slated to go up by over 2,000 employees.
    I believe the important role that the Forest Service plays in rural 
areas that rely on grazing, recreation, and timber could be harmed by 
such cutbacks. I'm also concerned about how we address the massive 
forest health problems that we are facing with fewer boots on the 
ground.
    Can you explain this difference in treatment between your budget 
and those of the land management agencies at the Department of the 
Interior?
    Answer. The priorities reflected in the requests for the Department 
of the Interior bureaus and the Forest Service with regard to proposed 
staffing levels for fiscal year 2008 are based on the President's 
Budget request.
    Question. How will these cutbacks affect the agency's mission?
    Answer. We know that our personnel costs are increasing. We are 
taking action to respond to this. We are focusing on reducing operating 
costs at the WO/RO/Northeastern Area, which may result in a reduction 
of personnel at these levels of the organization. Taking this action 
will enable us to invest more resources toward mission delivery through 
enhanced services to the public by agency field units.
    Question. Are there really that many efficiencies that can be 
achieved at the Forest Service that would warrant such a reduction of 
employees?
    Answer. In our best judgment, the answer is yes. It is critical to 
the Forest Service to reduce costs at the WO/RO/Northeastern Area so to 
provide opportunities to enhance program delivery and services on the 
ground to benefit the public.
                         wilderness management
    Question. I have a question regarding the agency's position on 
recommended wilderness management. It seems that different Regions 
treat recommended wilderness differently and as you know I have two 
forest service Regions in my State.
    NFS: Does the agency believe it is their job to designate 
wilderness?
    Answer. No, the agency studies areas to determine whether they have 
wilderness characteristics and then determines their eligibility and 
decides whether to recommend their designation to Congress. These 
analyses occur during the forest planning process and the forest plans 
may then contain a recommendation for wilderness designation. However, 
only Congress has the power to designate wilderness areas.
    Question. If not, would the agency attempt to restrict historical 
mechanized access to recommended wilderness areas even though it is 
congress' job to designate wilderness?
    Answer. Once an area has been recommended to Congress for 
wilderness designation, the agency has the responsibility to maintain 
its wilderness character until Congress has had the opportunity to 
decide whether to designate it. Maintaining its wilderness character 
while an area is being considered by Congress may, in some cases, mean 
limiting the types of use an area receives, including mechanized use.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
    Question. I believe that Forest Service staff on-the-ground in 
Colorado are working hard, and we appreciate the funding that was 
shuffled last month, but the final fiscal year 2007 timber and fuels 
program funding is still less than the national forests in Colorado 
need to address the bark beetle epidemics.
    Are you willing to work with me on some meaningful strategies to 
address the bark beetle epidemic and the risk of catastrophic fire to 
see if there isn't a way to get more funding to the national forests in 
Colorado this year, and in future years, until we've dealt with the 
problems to the best of our ability?
    Answer. Yes, we are interested in working with you Senator as we 
have in the past, on meaningful strategies to address bark beetles.
    Question. Is it true that ``fully funding the Northwest Forest 
Plan'', as proposed in the President's budget, will require reductions 
in timber and fuels funding to Colorado's national forests?
    Answer. To the extent possible we will try to maintain level timber 
and fuels funding from for the other regions in fiscal year 2008.
    Question. I strongly support spending money proactively on 
hazardous fuels projects if it will reduce the risk of forest fires and 
the associated risks to watersheds, communities, and residents. 
However, I'm concerned that some of the acres treated aren't the 
highest priority acres. From your reviews of the hazardous fuels 
program, is there room to improve what's being done on-the-ground, and 
how are you working toward that objective?
    Answer. The agency is continually looking to improve efficiency and 
effectiveness of program delivery. Based on preliminary results from 
the 2006 Healthy Forests Review, the agency feels that greater 
efficiency will be gained through increased use of Stewardship 
Contracting authorities and greater coordination with communities 
through the Community Wildfire Protection Plan process. The Forest 
Service anticipates that we will be in better position to address high 
priority projects in an efficient manner through the use of these two 
initiatives and other relevant authorities. The agency works to balance 
the high costs of some projects through lower cost maintenance 
treatments to both protect earlier investments and meet National 
resource and community protection goals.
    For fiscal year 2007, the Forest Service developed the Ecosystem 
Management Decision Support model to assist with establishing national 
priorities and allocation of funds. This model is under continuing 
development and enhancement for fiscal year 2008 to incorporate 
improved data on wildfire potential and consequences of problem fires, 
particularly the wildland-urban interface. The model will be used in 
fiscal year 2008 for national- to regional-scale strategic planning, 
broad ecological assessments, and resource allocation. The model 
emphasizes areas with the highest potential for problem wildfire, 
consequences, and greatest opportunity for efficient and effective 
treatments while meeting multiple objectives. Based upon this analysis, 
the Forest Service will identify national priorities within the fuels 
program and focus funding on those priorities, consider performance in 
risk reduction through systematic risk analysis tools for fire hazard 
analysis and fuels treatment implementation, and assess project 
criteria for WUI fuels treatments.
    The objective in the allocation is to distribute funding to the 
highest priority projects while optimizing accomplishments. In essence, 
the agency must provide optimal benefits at an efficient and effective 
level of cost as reflected in a risk-informed decision process. 
National program allocations and local project selections would attempt 
to optimize wildfire risk mitigation (i.e., net benefits) over time by 
choosing projects that provide cost-effective risk reduction. Having a 
risk``) informed approach provides a path forward for both national and 
local decision-makers that is suitable in a variety of circumstances, 
including where there exist differing State and local government codes 
or where there are numerous fire protection alternatives. It also 
recognizes the ecological benefits associated with wildfires occurring 
within normal ranges of intensity.
    Question. In addition, how successful has the Forest Service been 
at integrating multiple budget line items, for instance hazardous 
fuels, forest health, and timber sales funding, into individual 
projects and getting ``more bang for your buck?''
    Answer. Integration of budget line items is occurring at all levels 
in the organization. The Washington Office Directors of the vegetation 
treatment programs (Fire & Aviation Management, Forest Management, 
Range Management, Forest Health Protection, Wildlife Management, etc.) 
are working at the National level to enhance coordination across 
program areas and foster greater integration of allocations to the 
Regional level. For fiscal year 2008, the Directors developed new 
allocation methodologies that incorporate integrated objectives.
    Hazardous fuels, forest health, wildlife and forest management 
coordinate the budget line item allocations to each region. In 
addition, the construction and landline location line items are 
coordinated to support these vegetation treatments. This exercise 
delivers a total package of vegetation treatments for regions to build 
integrated programs.
    Integration of projects has been increasing every year. The ability 
to use multiple funding sources to achieve a total vegetation treatment 
has worked well with recent new authorities, such as stewardship 
contracting and the Healthy Forests Restoration Act.
    Examples of integrated projects at the forest level include 
restoration of native species, provisions for T&E habitat, catastrophic 
event recovery, and suppression of insect epidemics. As part of the 
long-term recovery efforts implemented after Hurricanes Katrina and 
Rita in 2005, the agency integrated and aligned a wide range of 
programs (hazardous fuels, forest management, wildlife, and forest 
health) and tools (salvage timber sales, mechanical fuels treatments, 
stewardship contracts, prescribed burns, and wildlife habitat 
treatments) to achieve restoration of the native longleaf pine 
ecosystem, restore habitat for threatened and endangered species such 
as the Red-cockaded Woodpecker and Gopher Tortoise, reduced insect and 
disease risks, and protected adjacent communities.
    Question. The Forest Service is in the process of considering 
forest plan amendments that would determine how Canadian Lynx habitat 
is managed. As I understand it, in order to manage the Lynx habitat, 
precommercial thinning in critical habitat areas will be greatly 
reduced. Is this the case? How will the proposed amendments affect 
long-term forest health and productivity?
    Answer. The following information is specific to the Northern 
Rockies Lynx Amendment (NRLA) area, which includes several National 
Forests in Montana, Idaho and Wyoming, and one Forest in Utah. A final 
decision on these amendments was made on March 23, 2007. The vegetation 
management standards in the amendment do not apply to fuel treatments 
in the Wildland Urban Interface as defined by the Healthy Forest 
Restoration Act. Precommercial thinning within mapped lynx habitat 
(areas capable of supporting snowshoe hares) could occur on a total of 
about 135,000 acres over the next decade. There are an additional 
180,890 acres per decade available for precommercial thinning outside 
of lynx habitat in the NRLA area. A total of 314,870 acres are now 
available for thinning each decade. The historic average precommercial 
thinning within the NRLA area has been 193,530 acres per decade. 
Precommercial thinning may also be conducted for essential restoration 
activities for aspen, western white pine, and whitebark pine. 
Precommercial thinning may also be permitted elsewhere if new 
information indicates that long-term benefits exceed short-term adverse 
effects.
    The following information is specific to the Southern Rockies Lynx 
Amendment (SRLA) area, which includes several National Forests in 
Colorado and Wyoming. Public comments on the Draft Environmental Impact 
Statement for these amendments are being reviewed and considered. A 
final decision on these amendments is expected this fall.
    Effects of the amendments on forest health are difficult to 
quantify as many factors and values are involved, including very 
diverse forest plan management goals and objectives. Forest health and 
productivity for Canada lynx will be increased. Much management 
flexibility remains during the design of individual projects for land 
managers to respond to insect and disease outbreaks with silvicultural 
treatments, should that be desirable and feasible.
    Question. I am concerned that the multiple-use philosophy may be 
falling by the way-side in our National Forests. I understand that the 
Boulder Ranger District is in the process of holding public input 
sessions on limiting campfires, overnight camping, and shooting on 
parts of the forest. The community believes that the District is 
essentially hoping to close the forest off in certain areas to these 
activities. Similar closures have taken place in other forests in 
Colorado. Can you tell me why the Forest Service has moved toward 
limiting multiple use?
    Answer. Operating and managing recreation opportunities on National 
Forest System lands is authorized under the Organic Act of 1897 and has 
been further defined under many subsequent acts, such as the Multiple 
Use Sustained-Yield Act of 1960. The Forest Service is currently 
working under these authorities to identify a variety of sustainable 
uses to determine conditions which indicate a potential purpose and 
need for future action. This charge is particularly challenging on 
highly fragmented lands with high levels of recreation uses, such as 
the Arapaho Roosevelt National Forest (one of the highest in the 
Nation). The Boulder Ranger District, in particular, is reviewing its 
past implementation of dispersed camping, campfires and recreational 
shooting as these are the uses that cause the most conflict between 
users and adjacent private homeowners, and between visitors expecting 
different settings and experiences. Involvement of the local public, 
surrounding communities and each national forest's recreation visitors 
will continue to remain a critical and essential component of this 
process to respond to public needs and ensure that a variety of 
multiple uses are available to the American people on our national 
forests, while ensuring sustainable management of the land, protection 
of private property and the safety of those visiting.
    Question. I ask this question in light of the fact that my office 
has received several phone calls from constituents who claim that they 
have had agreements for years--sometimes decades--and are abruptly 
being told that their access road is closing and they will not have 
access to their property. What process does the Forest Service use to 
close a road and is this process dictated by agency policy or statute?
    Answer. Current authorities provided through each year's 
appropriations act allows for the use of road maintenance funds for 
decommissioning roads, including unauthorized roads not part of the 
transportation system, and that no funds be expended to decommission 
any system road until notice and an opportunity for public comment has 
been provided on each decommissioning project. Changes to the existing 
use (open road to closed road or vice versa) on Forest Service system 
roads also require notice and an opportunity for public comment. In 
2001, the Forest Service implemented the Road Analysis Process (RAP) to 
utilize a science-based method of determining the minimum road system 
needed for managing lands under Forest Service jurisdiction. 
Implementation of this policy utilizes the input from interested 
citizens, other State and Federal agencies and tribal governments. The 
Forest Service is also implementing the Travel Management Rule which 
will determine the portion of the Forest Service road system that will 
be available for motorized use. Public involvement is being utilized 
for the implementation of this regulation.
    Question. After passage of the Ditch Bill the agency set a goal to 
have all Ditch Bill easements issued within four years. It is my 
understanding that, with the level of funding requested this year that 
goal might not be met. Can you please tell me if the agency is still on 
track to meet that goal? If not, what can be done to ensure that the 
goal is met?
    Answer. In June 2004, the Forest Service issued direction for the 
consistent and timely processing of the remaining 1,800 Ditch Bill 
applications by the end of fiscal year 2008. The agency expects to 
complete 1,200 (two-thirds) of these cases by October 2008. The 
processing of the remaining Ditch Bill applications is a high priority. 
Although completion of the remaining applications is very near, many of 
the remaining Ditch Bill cases are complex, involving Endangered 
Species Act consultations and the need for additional information from 
applicants. Often, these complex situations require more time and 
attention to resolve.
    Question. With regard to the aspen die-off happening around the 
State of Colorado. We have several sawmills in Colorado that depend 
heavily on aspen sales from the national forests; can you increase the 
volume of aspen sales to regenerate young, thrifty aspen stands? Please 
tell me what--if anything--the Forest Service is doing to determine the 
reasons for these die-offs and what can be done about it.
    Answer. The Region 2 Forest Health Management Staff has initiated a 
study, in cooperation with the San Juan and Grand Mesa-Uncompahgre-
Gunnison National Forests and the Rocky Mountain Research Station, to 
better understand the causes and extent of recent accelerated mortality 
of aspen. Results of the study will include management recommendations. 
In addition, the Region 2 Forest Health Management Staff and 
cooperators are assessing the expanse of the problem across Colorado, 
and in adjoining States. We know from the 2006 aerial survey data that 
over 140,000 acres of recent aspen mortality were documented in the 
State of Colorado alone.
    Our current plan for aspen treatments ranges from 500-1,000 acres 
each year. This generates 10,000-20,000 CCF (5-10 million board feet) 
of aspen sawlogs and other products.
    Question. Can anything be done to mitigate these losses? Do you 
need additional authorities to take action?
    Answer. Regeneration of aspen is key. Our observations indicate 
that some aspen stands are regenerating beneath a recently dead 
overstory, other aspen stands are not regenerating. One of the aspects 
of the study is to determine the condition of root systems. If the 
aspen root system is dead, no amount of prescribed burning or harvest 
will be successful in regenerating the aspen. The mortality trigger was 
likely drought. With recent years of increased moisture, it has been 
hypothesized that the stands/clones will recover. However, stands 
already seriously impacted by disease cankers, wood borers and aspen 
bark beetles will continue to decline.
    At this time we do not need additional authorities to take action.
    I believe that Forest Service staff on-the-ground in Colorado are 
working hard, and we appreciate the funding that was shuffled last 
month, but the final fiscal year 2007 timber and fuels program funding 
is still less than the national forests in Colorado need to address the 
bark beetle epidemics.
    Question. Please provide me with the percentage and dollar amounts 
of the total funding that was appropriated for the purposes of Fire 
Preparedness and Fire Suppression that actually ``reach the ground?'' 
By ``reach the ground'' I mean the amount that is actually used at the 
lowest level to fund temporary hires, permanent positions, purchase 
equipment, let contracts, etc to deal with the upcoming fire season.
    Answer.
    Fire Preparedness.--The Forest Service has $665 million of 
Appropriated Fire Preparedness funds for fiscal year 2007. Sixty 
percent or $397 million will be available to fund firefighting 
capability and operations including temporary hires, permanent 
positions, purchase equipment, dispatchers, and contracting resources.
    Fire Suppression.--The Forest Service has $741 million of 
Appropriated Fire Suppression funds for fiscal year 2007. Seventy one 
percent or $523 million are available to fund temporary hires, 
permanent positions, purchase equipment, contracts, etc. for the 
upcoming fire season. The funds are available on an as needed basis.
    Question. Please provide nation-wide information, as well as 
numbers specifically relating to my home State of Colorado.
    Answer.
    Fire Preparedness.--The Forest Service has $665 million of 
Appropriated Fire Preparedness funds for fiscal year 2007.
    Within the State of Colorado, the Forest Service will spend 
approximately $13.7 million on Preparedness capability and operations.
    Fire Suppression.--The Forest Service has $741 million of 
Appropriated Fire Suppression funds for fiscal year 2007.
    Through mid June 2007 the Forest Service has expended approximately 
$215,000 of Fire Suppression funds in Colorado.

                         CONCLUSION OF HEARINGS

    Senator Feinstein. Thank you all very much. The 
subcommittee will stand in recess subject to the call of the 
Chair.
    [Whereupon, at 11:13 a.m., Tuesday, May 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
          Prepared Statement of the Alabama Trails Association
    The Alabama Trails Association appreciates the opportunity to 
submit written testimony concerning the appropriation of funds for 
USDA, U.S. Forest Service land acquisition projects for the fiscal year 
that will begin October 1, 2007. The Association requests that Congress 
appropriate $1,650,000 which will leverage another $550,000 in private 
funds to buy a key 1,100 to 1,200-acre inholding along the Pinhoti 
Trail corridor on Rebecca Mountain in the Talladega National Forest.
    The Alabama Trails Association is a membership organization that 
was founded in 1985. The major reason behind the founding of the group 
was to work toward linking the Pinhoti Trail in the Talladega Mountains 
of east Alabama to the Appalachian Trail and to expand the Pinhoti 
Trail to cover the full 140- to 145-mile length of the Talladega 
Mountains. The link to the Appalachian Trail will complete the vision 
of Benton MacKaye, the founder of the Appalachian Trail, whose plan for 
the famed ``AT'' was adopted at the first meeting of the Appalachian 
Trail conference in 1925 and included an ``extension trail'' running 
into Alabama from the Appalachian Trail in north Georgia.
    Working with the Georgia Pinhoti Trail Association and other trail 
organizations, the Alabama Trail Association is on the verge of 
completing the link to the Appalachian Trail. Since the late 1980s, the 
Pinhoti Trail effort has received considerable support from Congress in 
both funds appropriated to acquire land for the trail corridor and 
funds appropriated to construct trail. Those appropriations have led to 
the protection of over 6,000 acres and over 20 miles of mountain ridge 
crest in Alabama and to the construction of over 100 miles of trail in 
both Alabama and Georgia. The first acquisitions in this long-term 
project took place in the 1989-1990 time. The two most recent 
acquisitions are closing this spring, and the U.S. Forest Service in 
Alabama is acquiring two tracts that lie along the crest of Rebecca 
Mountain a few miles east of the 1,100 to 1,200-acre tract involved 
here.
    With those two closings, only the 1,100 to 1,200-acre tract 
involved in this request for funds is needed to complete the 
acquisition of land for the Pinhoti in the Talladega National Forest of 
Alabama. This tract includes around two and a quarter miles of the 8-
mile long ridge crest of the portion of Rebecca Mountain that lies 
south and west of Bull Gap and Alabama State Highway 148. If this tract 
is acquired, the Pinhoti Trail can be completed along the crest of 
Rebecca Mountain which is the southernmost mountain in the Talladega 
National Forest range and one of the southernmost mountains in the 
entire Appalachian Range. Acquisition of this tract will complete U.S. 
Forest Service ownership of all but two quite small portions of the 8-
mile long Rebecca Mountain. Further, the tract involved is native 
habitat for a rare mountain-top long-leaf pine community and is bounded 
on three sides by U.S. Forest Service lands which the U.S. Forest 
Service plans to manage and restore the long-leaf pine community.
    Based on an early 2007 purchase of a 700 to 800-acre tract that 
lies within 2 miles of this 1,100 to 1,200-acre Rebecca Mountain tract, 
$2,200,000 will be needed to buy this property. A private donor has 
committed to provide $550,000 of the purchase price if Congress will 
provide the other $1,650,000. Thus, the Congress has a rare opportunity 
to protect a beautiful inholding in the Talladega National Forest and 
pay only 75 cents for each dollar of land value.
    In light of the above considerations, this 1,100 to 1,200-acre 
Rebecca Mountain project in the Talladega National Forest is an 
excellent project in that it will (1) ``fill in'' one of the major 
inholdings in the Talladega National Forest, (2) complete U.S. Forest 
Service ownership of the 8-mile crest of Rebecca Mountain, (3) allow 
the construction of the southernmost portion of the Pinhoti Trail in 
the Talladega National Forest, (4) allow the U.S. Forest Service to 
restore a rare mountain-top long-leaf pine community, and (5) leverage 
$550,000 in private funds and allow the public and U.S. Forest Service 
to protect a significant mountain ridge tract by paying only 75 percent 
of the cost.
                                 ______
                                 
           Prepared Statement of the Alliance to Save Energy
         environmental protection agency's energy star program
                              introduction
    The Alliance to Save Energy, a bipartisan, nonprofit coalition of 
more than 120 business, government, environmental, and consumer 
leaders, appreciates this opportunity to submit testimony in support of 
a $20 million increase in funding for the Environmental Protection 
Agency's (EPA's) Energy Star Program in fiscal year 2008 compared to 
the fiscal year 2006 appropriated level. The Alliance's mission is to 
promote energy efficiency worldwide to achieve a healthier economy, a 
cleaner environment, and greater energy security. The Alliance, founded 
in 1977 by Senators Charles Percy and Hubert Humphrey, currently enjoys 
the leadership of Senator Mark Pryor as Chairman; Duke Energy President 
and CEO James E. Rogers as Co-Chairman; and Representatives Hall, 
Markey, and Wamp, and Senators Bingaman, Collins, Craig, and Dorgan, as 
its Vice-Chairs. The American Council for an Energy-Efficient Economy 
(ACEEE) also supports the recommendations in this testimony.
    The Energy Star program is the brightest light in the galaxy of 
voluntary climate change programs, and is the single most effective 
Federal consumer information program on energy efficiency. Indeed it is 
one of the most successful efforts anywhere to promote marketplace 
solutions for greater energy efficiency. The program works with 
thousands of business partners to make it easy for consumers to find 
and buy energy-efficient products, buildings, and services by awarding 
the well-known Energy Star label and by providing other consumer 
information. The Energy Star program is an entirely voluntary program 
that reduces energy demand, lowers energy bills, and helps avoid 
pollution and greenhouse gas emissions.
    Increased investment by the Federal Government in the Energy Star 
program will translate to increased energy savings by consumers and 
businesses across the country. The EPA estimates that every Federal 
dollar spent on the Energy Star program results in an average savings 
of $75 or more in consumer energy bills, the reduction of about 3.7 
tons of carbon dioxide emissions, an investment of $15 in private 
sector capital, and the contribution of over $60 to the economy.
    In 2006 alone, Energy Star helped Americans save 35,000 megawatts 
of peak power, avoiding the need for about 70 new power plants. The 
electricity savings--170 billion kilowatt-hours--represent 5 percent of 
total 2006 electricity use. Working together with Energy Star, 
Americans prevented the emission of 37 million metric tons of 
greenhouse gas emissions, which is equivalent to removing 25 million 
cars from the road. And Americans, with the help of Energy Star, saved 
$14 billion on their energy bills. As these statistics exemplify, the 
Energy Star program is helping millions of Americans get the energy 
they need, while saving money and avoiding pollution.
        energy efficiency is america's greatest energy resource
    Energy efficiency is the Nation's greatest energy resource--we now 
save more energy each year from energy efficiency than we get from any 
single energy source, including oil, natural gas, coal, or nuclear 
power. The Alliance to Save Energy estimates that if we tried to run 
today's economy without the energy-efficiency improvements that have 
taken place since 1973, we would need 43 percent more energy supplies 
than we use now (43 quadrillion Btu). What's more, increasing America's 
energy efficiency is the quickest, cleanest, and cheapest way of 
meeting our energy needs. Without these enormous savings, our 
difficulties in meeting energy demand would be far, far worse than they 
are today.
              how energy star capitalizes on this resource
    EPA's Energy Star program has proven to be an extremely effective 
way for this Nation to capitalize on the potential of energy efficiency 
as a resource. Energy Star's voluntary partnership program--which 
includes Energy Star Buildings, Energy Star Homes, Energy Star Small 
Businesses, and Energy Star Labeled Products--works by removing 
marketplace barriers to existing and emerging technologies, providing 
information on technology opportunities, generating awareness of 
energy-efficient products and services, and educating consumers about 
life-cycle energy and cost savings.
    Energy efficiency is an investment. There is often a modest 
additional cost for purchasing more efficient, smarter technologies, 
but that additional cost and more is paid back to the consumer through 
lower energy bills. Energy Star helps consumers understand and realize 
these benefits. The label represents the ``good housekeeping seal of 
approval'' for energy efficiency. The program sets rigorous guidelines 
representing high energy-efficiency and product quality goals that 
products, buildings, or services must meet in order to qualify for the 
Energy Star label.
    In 2003 the Alliance to Save Energy undertook an extensive public 
opinion survey and found that the name recognition of the Energy Star 
program is very high--86 percent among U.S. homeowners. Approximately 
one-third of U.S. consumers report using the Energy Star label as an 
information tool for making purchase decisions, and an even higher 
number report using Energy Star as an information tool to help them 
save energy. Most consumers who are aware of the Energy Star label 
correctly understand that products bearing the Energy Star label use 
less energy and can save them money on energy bills.
                   about the energy star partnerships
    Energy Star works through voluntary partnerships, and these have 
grown since the early 1990s to include thousands of businesses. These 
partnerships demonstrate that energy efficiency delivers ``pollution 
prevention at a profit.'' And the Energy Star program testifies to the 
important environmental achievements that can be made through 
cooperative partnerships between government and businesses.
    Energy Star serves broad constituencies in every State in the 
country. Energy Star currently has more than 9,000 partners who are 
committed to improving the energy efficiency of our homes, businesses 
and products. Among those partners are over 1,700 manufacturing 
partners who make and market over 44,000 different models of Energy 
Star qualifying products, and more than 900 retail partners 
representing thousands of storefronts, as well as building owners and 
operators, utilities, State and local governments, and nonprofit 
organizations. Energy Star counts more than 3,500 builder partners and 
partners who supply products and services for energy-efficient home 
construction. More than 725,000 families now live in Energy Star 
Homes--locking in financial savings for homeowners of more than $170 
million annually. In the past 2 years, the total number of Energy Star 
qualified homes has doubled.
    As you may know, 2007 marks the seventh year that the Alliance has 
asked Energy Star company partners to join us in our request for a 
significant increase in funding for the program. The response has been 
remarkable. Joining us in our request this year are 464 companies and 
Energy Star partners. I ask that this letter be included in the hearing 
record.
    much has been accomplished, but huge potential remains untapped
    Although the Energy Star program has made a significant 
contribution to reducing consumer energy use, a wide array of 
important, additional opportunities to use the program to promote 
energy efficiency remain untapped. In 2001, the President's National 
Energy Plan recommended that the Energy Star program be expanded to 
label more products, appliances, buildings, and services. Time and 
again, the President and the EPA Administrator have noted that 
voluntary measures are vital to addressing climate change and have held 
up Energy Star as an exemplary program.
    Yet funding for the program has declined. The fiscal year 2008 
proposed budget for Energy Star, $43.9 million, is down 12 percent from 
fiscal year 2006 and, after inflation, is down more than one-quarter 
from fiscal year 2002. In addition, internal funding cuts at EPA have 
plagued the program over the past several years. In the fiscal year 
2007 operating plan, EPA cut the Energy Star budget $4 million below 
the fiscal year 2006 level on which the continuing resolution was 
based.
    Even with tight budgets, the number of products and manufacturers 
in the labeling program has greatly expanded, and the number of 
partners in the Buildings, Homes, and Small Business programs has 
soared. But more funds are needed.
    Considering the sky-high energy prices around the country and the 
concerns about electricity reliability, natural gas supplies, air 
pollution, and global warming, the Alliance believes that funding for 
the Energy Star program should be increased by at least $20 million 
over the fiscal year 2006 appropriated level in fiscal year 2008, and 
should be doubled over the next 5 years. This would enable the Energy 
Star program to label additional products, update its criteria, 
increase consumer education campaigns, and--especially important--
address energy-efficient home improvements nationwide.
    By building on the Energy Star name, we can save much more energy 
and break through additional market barriers, building homeowner trust 
in energy audit programs and whole-home retrofits, including 
insulation, duct sealing, and home envelope sealing. In addition to 
labeling products and buildings, Energy Star has begun a successful 
effort working with State and local organizations to help homeowners 
audit and upgrade the efficiency of their homes. Home Performance with 
Energy Star is growing as State and utilities look for opportunities to 
save energy and reduce peak load. More than 26,000 homes have been 
improved through this program. While this is a good start, much more 
needs to be done to expand this program across the country. With 
additional funding, the Energy Star program could develop a supportive 
infrastructure for contractors around the country, partner with 
interested State organizations, and develop marketing efforts in up to 
10 metropolitan areas per year.
                            recommendations
    The Alliance to Save Energy recommends the subcommittee take the 
following actions to best leverage the proven results that stem from 
EPA's Energy Star program:
  --First, we recommend that Congress increase funding of the Energy 
        Star program by $20 million over the fiscal year 2006 
        appropriated level, to $69.8 million, in order to expand the 
        number of products, programs, and partners involved in the 
        current program. This should be a first step to doubling the 
        $50 million budget for the Energy Star program within 5 years. 
        In particular, the added funds will allow expansion of the new 
        Energy Star ``Home Performance'' program nationwide.
  --Second, we ask that the House, Senate, and conference reports again 
        specify the exact level of Federal funding that is appropriated 
        for the Energy Star program as in the fiscal year 2006 reports. 
        Such direction to EPA is needed to assure that funding intended 
        by Congress for the program is used by the agency for that 
        purpose. Unfortunately, EPA has a history of imposing internal 
        cuts in the program, especially in years when Congress has not 
        specified Energy Star funding.
                               conclusion
    The Energy Star program proves that we can protect the environment 
while simultaneously saving consumers money on their energy bills and 
enhancing the economy. Energy Star provides the catalyst for many 
businesses, State and local governments, and consumers to invest in 
energy efficiency, which in turn yields multiple private and public 
benefits. It does this by providing access to information, improving 
brand recognition, and providing positive publicity.
    While there are many demands on the country's financial resources, 
Energy Star has proven tremendously cost-effective, and it returns 
important benefits to the Nation. Every added Federal dollar invested 
in Energy Star in fiscal year 2008 will return a significant and cost-
effective yield in pollution reduction, economic stimulation, energy 
security, and consumer savings.
                                 ______
                                 
            Prepared Statement of the American Arts Alliance
    Madam Chairwoman and distinguished members of the subcommittee, I 
am grateful for this opportunity to submit testimony on behalf of the 
American Arts Alliance and its member organizations. The American Arts 
Alliance is a national network of more than 4,100 members comprising 
the professional, nonprofit performing arts and presenting fields. For 
more than 30 years, the American Arts Alliance has advocated for 
national policies that recognize, enhance, and foster the contributions 
the performing arts make to America.
    We urge the committee to designate a total of $176 million to the 
National Endowment for the Arts (NEA). This testimony is intended to 
highlight the importance of the Federal investment in the arts to 
sustaining a vibrant cultural community.
 the nea increases opportunities for the american public to enjoy and 
                    benefit from the performing arts
    Since the establishment of the NEA in 1965, access to the 
performing arts has improved in communities large and small across the 
country. The NEA has helped to foster the development of the many 
regional theatres, opera companies, dance companies, orchestras, and 
performing arts centers that Americans now enjoy. Despite diminished 
resources, the NEA awards more than 1,700 grants annually to nonprofit 
arts organizations for projects that encourage artistic creativity, 
provide lifelong learning opportunities, and engage audiences in the 
best the arts have to offer. This modest public investment in the 
Nation's cultural life has resulted in both new and classic works of 
art reaching all 50 States.
 the nea supports the creation and presentation of the performing arts 
                           in your community
    Last year, performing arts organizations received grants to support 
a wealth of performing arts productions in communities large and small. 
The NEA supported a symphony tour to rural communities, an Asian arts 
festival, a deaf theatre company, a program to provide hands-on music 
training to African American and Latino students in the 3rd and 4th 
grade, the 14th annual International Women's Playwriting Festival, the 
world premiere of an opera based on Nebraska history, a 34-year-old 
chamber music festival and more. These productions happened not only in 
major metropolitan areas but in Shepherdstown, West Virginia, Lebanon, 
New Hampshire, Chico, California and Moscow, Idaho. Few other Federal 
investments realize economic benefits, not to mention the intangible, 
intrinsic benefits that only the arts make possible.
                with more funding, the nea could do more
    The NEA has never recovered from a 40 percent budget cut in fiscal 
year 1996 and all of its programs are seriously underfunded. Any 
additional monies over the NEA's current budget of $124.4 million will 
ensure that the NEA continues to support arts organizations in all 50 
States. Additional funds would allow the size of individual grants to 
increase and provide support for the many high-quality grants 
applications that go unfunded each year.
                the nonprofit performing arts community
    The following profiles of the current State of the arts presenting, 
orchestra, dance, musical theatre, opera and theatre fields exemplify 
the economic, educational and quality of life benefits that performing 
arts organizations bring to American communities.
                            arts presenters
    Performing arts presenters bring professional performing artists 
from all over the world into the communities they serve. They include 
organizations such as performing arts centers, academic institutions, 
local arts agencies, festivals and fairs. In coordinating all the 
necessary steps to bring the arts to a local community, presenters 
facilitate the interaction between artists and audiences, support the 
creation and touring of new works and are civically engaged in their 
communities. The number of nonprofit presenting organizations in the 
United States has grown from fewer than 400 in 1965 to more than 7,000. 
Collectively, presenters in the United States serve 6 million audience-
goers each week and constitute more than a $5 billion industry. This is 
in large part due to support from the NEA. Presenters not only bring 
the arts into communities, but value arts education and give back to 
the communities they serve. The Association of Performing Arts 
Presenters, a national service and advocacy organization with more than 
2,100 members worldwide, commissioned an Urban Institute survey 
revealing that:
  --77 percent of presenting organizations develop programs and offer 
        performances for students K-12.
  --75 percent of presenting organizations offer free tickets through 
        programs serving the poor, elderly and youth groups.
  --50 percent of presenting organizations facilitate programs for 
        adult education and outreach.
  --54 percent of presenting organizations offer special services for 
        persons with hearing, sight or mobility impairments.
                                 dance
    In 1965, there were approximately 35 nonprofit professional dance 
companies. Today, there are more than 600. America's dance companies 
perform a wide range of styles and genres. These include both classical 
and contemporary ballet, both classical and contemporary modern, as 
well as jazz, tap, cross-disciplinary fusions and traditional to modern 
work rooted in other cultures. When the NEA instituted its Dance on 
Tour program in the 1970's, great dance became accessible to every 
community in America. NEA programs today, like the National College 
Choreography Initiative, continue to ensure that the best of American 
dance is for all of America, and a showpiece for the rest of the world 
as well.
    Based on a 2005 survey, Dance/USA estimates that the 79 largest and 
most visible non-profit dance companies in the United States do the 
following:
  --Employ over 7,000 people;
  --Perform for total home audiences of nearly 3.3 million people. This 
        does not include touring audiences, nor does it count the 
        millions who attend performances given by the hundreds of dance 
        companies with budgets under $1 million;
  --Utilize 26,500 volunteers, including 3,100 members of boards of 
        trustees;
  --Pay nearly $227.9 million in wages and benefits;
  --Receive 3 percent of their income from government sources.
                            musical theatre
    Located in 35 States and 7 countries, the 148 member organizations 
of the National Alliance for Musical Theatre include not-for-profit and 
commercial theatres, presenting houses, universities and independent 
producers. Founded in 1985 and based in New York City, the National 
Alliance for Musical Theatre (NAMT) is the national service 
organization dedicated exclusively to musical theatre and serving some 
of the leading musical theatre producers in the world. Last season, 
NAMT members cumulatively staged over 27,000 performances attended by 
16 million people, and had revenues totaling over $500 million. NAMT 
has presented its Festival of New Musicals annually since 1989, 
bringing together theatre producers and writers, with the goal of 
furthering the development and production of new musicals. NAMT's 
Festival has showcased over 300 writers and 200 new musicals, which 
have had thousands of subsequent productions worldwide. Past Festival 
shows include Children of Eden (over 1,000 productions), The Drowsy 
Chaperone (five Tony Awards in 2006 and named ``Best Musical'' by the 
Drama Desk Awards, New York Drama Critics Circle, and L.A. Ovation 
awards), I Love You Because (Off-Broadway in 2006), Meet John Doe 
(world premiere at Ford's Theatre in 2007), Songs for a New World (over 
400 productions), and Thoroughly Modern Millie (2002 Tony Award for 
Best Musical).
                                 opera
    OPERA America members are found in communities all across the 
country--a total of 116 companies in 44 States. American opera 
companies are well known for their innovative and exemplary education 
and outreach programs, many of which are funded in part with NEA 
grants. Virtually all U.S. opera companies run such programs in their 
communities. Opera companies help fill the void left by discontinued 
arts education in many public school systems and can help young people 
communicate the realities of their lives via disciplined artistic 
expression. The audience for education and community programs served by 
US and Canadian companies during the 2004-2005 season totaled over 2 
million people.
    All together, the opera companies of America contribute more than 
one half billion dollars to the U.S. economy each year and provide more 
than 20,000 jobs each year (paying almost $473 million in taxable 
salaries and fees).
                               orchestras
    In its 40-year history, the NEA has provided invaluable leadership 
and support for musicians, orchestras, and the communities they serve 
through direct grants, support to State arts agencies, and national 
leadership initiatives. Supported by a network of musicians, 
volunteers, administrators, and community leaders, America's adult, 
youth, and college orchestras total more than 1,800 and exist in every 
State and territory, in cities and rural areas alike. They engage more 
than 150,000 instrumentalists, employ (with and without pay) more than 
8,000 administrative staff, and attract more than 475,000 volunteers 
and trustees.
    In 2004-2005, orchestras perform more than 37,000 concerts to total 
audiences nearing 28 million. In addition to concerts, orchestras offer 
more than 40 different kinds of programs for their communities, 
including:
  --in-depth, multi-year residencies
  --long-term partnerships with schools
  --after-school and summer camps
  --programs in hospitals and libraries
  --instrumental education
  --educational classes for seniors
    The NEA's fiscal year 2006 grants to organizations included 111 
grants to orchestras and the communities they serve, supporting arts 
education for children and adults, expanding public access to 
performances, preserving great classical works, and fostering the 
creative endeavors of contemporary classical musicians, composers, and 
conductors.
                                theatre
    In 1961, nonprofit theatre in America consisted of only 16 theatre 
companies. Today, thanks in large part to the pivotal role played by 
the NEA, the number of theatre companies is estimated to be greater 
than 1,400. Nearly every Pulitzer Prize winning play since 1976 has 
originated at a NEA-funded theatre.
    Theatre Communications Group (TCG), the national organization for 
the American non-profit theatre, reports that the estimated 1,490 
theatres in the U.S. employ more than 110,000 workers--actors, 
directors, playwrights, designers, administrators and technicians--and 
constitute a more than $1.5 billion industry. Collectively, these 
theatres are estimated to have offered 169,000 performances that 
attracted over 32 million patrons.
    Based on recent surveys of 202 non-profit theatres, TCG reports the 
following:
  --Over 1,283 outreach and educational programs are in existence 
        today.
  --Over 3.5 million people--including a large number of at-risk 
        children--are served by these programs. This network of 
        educational and outreach programs all across the country, 
        ensures access to all Americans and helps develop new 
        generations of audiences.
  --These programs include touring productions, artists-in-the-schools, 
        teacher training, workshops and lectures in local community 
        centers and libraries, programs for at-risk youth, and lifelong 
        learning opportunities.
                               conclusion
    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our Nation's culture and heritage 
through excellent artistic programming. The arts illuminate the human 
condition, our history, contemporary issues and our future. The NEA is 
an investment that realizes significant returns on the Federal dollars 
invested, both measurable and intangible. We urge you to designate no 
less than $176 million to the NEA. Thank you for your consideration of 
our request.
                                 ______
                                 
              Prepared Statement of Americans for the Arts
    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior, Environment, 
and Related Agencies, supporting fiscal year 2008 funding for the 
National Endowment for the Arts (NEA) at a restored level of $176 
million. Through this statement, we hope to provide you with a snapshot 
of some national trends in the arts community.
    A month ago, Americans for the Arts hosted Arts Advocacy Day, an 
event that was cosponsored by 93 national organizations representing 
dance, theatre, music, literature, visual and media arts--the full 
gamut of American culture. Collectively these groups represent tens of 
thousands of nonprofit and governmental cultural organizations at the 
State and local levels across the country. On that day, we came 
together on a common agenda, and the above request--for $176 million 
for the NEA in fiscal year 2008--is the result of the collaborative 
work of these passionate groups.
    Our Nation's leaders recognize that creativity and innovation are 
the key to remaining competitive in the 21 century. Too often, however, 
the role of the arts in fostering these attributes is overlooked or 
minimized. The fact is that creativity and innovation do not fit into 
the simple silos of ``arts'' or ``science'' or ``mathematics'' or 
``technology.'' Any scientist will tell you that science is not merely 
a matter of logic but also one of creativity. It's no accident that 
Donna Shirley, who managed the Jet Propulsion Laboratory's Mars Rover 
project, said that 70 percent of her top scientific staff had an arts 
background. Any artist can testify to the discipline needed to excel. 
Many of our cultural and educational institutions, such as MIT, have 
educational programs, performances, and exhibitions that reveal and 
celebrate the complex relationships among art, science, and technology. 
The mathematical and scientific elements in music are obvious, from 
rhythm to acoustics. The physical and chemical properties of light, 
paint, and canvas are well known to visual artists--not to mention to 
those who are charged with the conservation of such works. But the arts 
also stand on their own as powerful stimulants of creativity. They 
demand intense concentration and keen observation; they facilitate 
comparison, judgment, and critical thinking; just as surely as does a 
complex math problem or a feat of engineering.
    Leading voices in this field such as Daniel Pink, Sir Ken Robinson, 
and Richard Florida are speaking about the interdependent nature of 
arts, sciences, creativity, innovation, technology, education, and the 
economy, and the importance of developing multi-faceted policies that 
take advantage of their rich connections to each other. Congressional 
Arts Caucus Co-Chair Louise Slaughter has called attention to ``the 
stunning gifts American artists make to our daily lives. Their creative 
force not only helps our children learn but also makes them smarter. It 
brightens the life of each one of us, bringing us joy and comfort, 
enlightenment and understanding, in ways impossible to find otherwise. 
The arts and artists of America are our national treasure, which this 
great Nation needs, deserves, and must support as other nations do.''
                 economic impact and reach of the arts
    For some policy makers, the human enrichment factor of the arts is 
not always enough to motivate spending taxpayers' money. To that point, 
I say that the arts also mean business. In 2002, Americans for the Arts 
released a groundbreaking national report, ``Arts & Economic Prosperity 
II: The Economic Impact of Nonprofit Arts Organizations and Their 
Audiences,'' documenting the economic return for communities that 
support the arts. It revealed that the nonprofit arts industry 
generates $134 billion in economic activity annually, supporting 4.85 
million full-time equivalent jobs and generating $24.4 billion of tax 
revenue back to Federal, State, and local governments. The best news is 
that the nonprofit arts industry is a growing industry that is a full 
partner of America's new ``information economy'' and is inextricably 
rooted in creating home-grown American jobs that cannot be later 
outsourced abroad.
    On May 22, we will release our largest-ever national report on the 
economic impact of the arts. More than 6,000 nonprofit arts 
organizations and 90,000 arts audience attendees in 157 communities in 
every State, including the District of Columbia, participated in this 
updated study.
    According to data that we collect from Dun & Bradstreet, an 
astounding 547,000 companies in this country directly or indirectly 
center their business on the arts. We have mapped each of these 
companies by congressional district. The economic importance of the 
arts does not stop there. The arts fuel creativity and innovation in 
hundreds of other industries, ranging from product and software design 
to breakthroughs in science and medical research. It is no wonder 
Daniel Pink's best selling book A Whole New Mind: Why Right-Brainers 
Will Rule the Future has taken the business community by storm with his 
assessment that ``the MFA is the new MBA.''
 status of public and private support for nonprofit arts organizations
    Despite the economic and societal potential of the arts, the 
Federal Government has not kept pace with its government partners at 
the State and local level. Except for declines in funding after 9/11, 
local and State government budgets for the arts have collectively and 
steadily increased, respectively representing a 32 percent and 45 
percent increase since 1994. On the other hand, Federal support for the 
National Endowment for the Arts took a deep 40 percent cut in 1995 and 
has had only modest increases in the subsequent years, representing a 
27 percent decrease.
    During the mid-90s when Congress decided to cut funding for the 
arts, one rationale was that private sector charitable giving would 
easily make up for the funding gap. Unfortunately, the problem became 
worse. The matching requirement that is prerequisite in NEA grants acts 
as a powerful funding magnet for the arts. Despite record increases in 
total philanthropy for charities over the last decade, the market share 
of private giving to the arts has rapidly decreased, perhaps not so 
coincidentally around the same time as the cuts in Federal funding for 
the arts.
    Last October, the Wall Street Journal ran a major article on this 
topic, ``Hunger vs. the Arts,'' which described the challenges that 
arts organizations are facing as this market share of private sector 
support for the arts declines. Expressed in real dollars, if the 
nonprofit arts had merely maintained the 8.4 percent market share of 
total philanthropic giving that it enjoyed back in 1992, instead of the 
5.2 percent market share it has today, there would have been an 
additional infusion of $8.4 billion for the arts this year alone. The 
Federal Government can help reverse this trend by bringing back 
national attention and incentives for giving to the arts in America.
                          local arts agencies
    Since its inception, the NEA has had great influence on growing the 
local arts agency field, providing powerful incentives for local 
governments to step up their own government funding programs for the 
arts. The local arts agency field of community-based arts service and 
organizational capacity builders has expanded to include united arts 
funds, arts and business councils, statewide arts service 
organizations, and other community-based arts organizations. In 1967, 
shortly after President Johnson signed the act that created the NEA, 
there were 500 local arts agencies. That number has grown to about 
4,000 today, an 800 percent increase.
    Local arts agencies, along with State arts agencies, are the only 
organizations that are Federally designated to re-grant NEA funds to 
help serve the unique needs of local arts organizations and individual 
artists. Also, in many cases, they are Federal grantees themselves. 
Local arts agencies use NEA grants to create diverse public programs 
that include developing cultural plans; creating economic zones for 
cultural districts; distributing emergency relief funds; partnering 
with school districts to create arts education plans; and even 
coordinating local business groups with `central ticketing' marketing 
projects. Perhaps most importantly, local arts agencies facilitate 
public and private charitable giving to the arts through united arts 
funds. Examples of recent NEA grants to local arts agencies include:
Los Angeles County Arts Commission, Los Angeles, CA
    To support leadership development opportunities for municipal arts 
staff and commissioners. Project activities will include an internship 
program and the provision of grants for cultural planning or 
assessments that will culminate in a written plan with implementation 
strategies.
Mimbres Region Arts Council, Silver City, NM
    To support the Youth Mural Project. Students will be paired with 
professional artists, local historians, and community elders to produce 
murals that express aspects of the cultural history of the Grant County 
Region.
Salt Lake Arts Council Foundation, Salt Lake City, UT
    To support Living Traditions: A Celebration of Salt Lake's Folk and 
Ethnic Arts. Nationally recognized artists and local artists, including 
craftspeople, dancers, and musicians identified with the assistance of 
the staff folklorist of the Utah Arts Council, will share contemporary 
customs founded on local heritage.
City Cultural Commission, Portsmouth, NH
    To support an arts district planning process. This arts district 
planning study will build on priorities articulated in the current 
citywide cultural and master plans and will lead to the development of 
the Islington Street Arts District.
    The NEA has also provided grants to local arts agencies to help 
administer emergency relief funds to communities affected by disaster, 
including grants to the New Orleans Arts Council after Hurricane 
Katrina and to the Lower Manhattan Arts Council after 9/11. However, 
because the NEA has no dedicated relief funds for the arts, it has been 
sometimes difficult to identify and disburse the funds as quickly as 
needed. For that reason, Americans for the Arts established its own 
permanent Emergency Relief Fund that disbursed over $100,000 to Gulf 
Coast arts organizations within the first two weeks of Katrina hitting.
                    national endowment for the arts
    Federal support carries increased value because it sends a signal 
to other funders. As NEA Chairman Gioia recently noted, ``In case after 
case, the NEA learned that its grants had a powerful multiplying 
effect. Every dollar that the NEA gave in grants typically generated 
seven to eight times more money in terms of matching grants, further 
donations and earned revenue.'' The NEA should be a national leader in 
responding to the organizational capacity of arts organizations to help 
meet the growing needs of a growing population. Currently, however, the 
NEA budget of $124 million is woefully inadequate to carry out this 
role. In 1992, the NEA's all-time-high budget was $176 million and we 
ask the subcommittee to return the agency's budget to this level. Thank 
you very much for the opportunity to submit formal testimony on these 
issues.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association
    The American Forest & Paper Association \1\ (AF&PA) supports the 
sustainable management of our Nation's public and private forests. The 
recommendations outlined in this testimony concern fiscal year 2008 
appropriations for the U.S. Forest Service and related agencies. 
Restoring the health of our national forests through active management, 
while maintaining a strong forest products infrastructure, is AF&PA's 
number one priority for the fiscal year 2008 budget.
---------------------------------------------------------------------------
    \1\ AF&PA is the national trade association of the forest, paper 
and wood products industry. AF&PA represents more than 200 companies 
and related associations that engage in or represent the manufacture of 
pulp, paper, paperboard and wood products. The U.S. forest products 
industry accounts for approximately 6 percent of the total U.S. 
manufacturing output, employs more than a million people, and ranks 
among the top 10 manufacturing employers in 42 States with an estimated 
payroll exceeding $50 billion.
---------------------------------------------------------------------------
active management to restore forest health and keep america competitive
    Increased funding for the Forest Service and Bureau of Land 
Management (BLM) to implement the President's Healthy Forests 
Initiative and the Healthy Forests Restoration Act is critical. 
Government researchers estimate that almost 200 million acres of 
Federal lands are at increased risk for catastrophic wildfire due to 
the buildup of hazardous fuels. This poses serious threats to adjacent 
private forestlands, communities, air and water quality, and wildlife 
habitat. Insect epidemics in both the west and east now cover millions 
of acres, creating additional risks to private forestlands and also 
increasing the risk of catastrophic wildfire. A further risk posed by 
catastrophic wildfires is the immediate release of carbon dioxide into 
the atmosphere.
    The Forest Service wildfire suppression budget over the last 16 
years has increased from 13 percent of the total agency's budget to 45 
percent, and it is predicted to continue to increase. As a result of 
the rising suppression costs and a relatively flat overall budget, the 
National Forest System budget as a proportion of the total Forest 
Service budget has shrunk significantly over this period, limiting the 
resources that can be used to proactively reduce fuel loads and improve 
forest health. It is critical that the Forest Service focus on active 
management strategies in order to ``get ahead'' of fires and insect 
epidemics. We also encourage consideration of alternative strategies to 
budget for large wildfires to avoid the impact on vegetation management 
and other programs, as well as greater emphasis on suppression cost 
containment measures.
    Specific tools available to the Forest Service to help address 
these problems include:
    Forest Products.--AF&PA supports an increase to the Forest Products 
program, for a funding level of $318.5 million, and the proposed 
increase in program outputs to 3.5 billion board feet. Timber sales and 
stewardship projects are important tools to achieve forest health and 
hazardous fuels reduction objectives. Furthermore, these activities are 
crucial to retaining forest industry infrastructure, which is vital for 
meeting national forest objectives. Lost industry capacity cannot be 
replaced easily, especially in rural communities where sawmills have 
traditionally relied on timber supplies from the national forests. The 
resulting lost capacity diminishes the Forest Service's ability to 
economically manage the national forests and address forest health.
    A reliable and increased supply of national forest timber is 
critical to the stability of industry infrastructure. The volume sold 
through timber sales has increased slightly over the last several 
years, but currently is still less than three billion board feet. This 
level is well below sustainable harvest levels, and is insufficient to 
develop and maintain the industry capacity needed to meet ecological, 
economic, and social needs. Forest Service data indicate that annual 
growth of trees on the national forests is five times greater than 
annual harvest, further exacerbating the risk of catastrophic fires and 
insect epidemics.
    An increase to the forest products program is a necessary and 
important step towards implementation of all national forest plans. 
Current funding levels compromise the ability of the agency to 
implement these forest plans, including forest health activities and 
timber sales. We are pleased to note, however, that the agency is 
proposing a substantial reduction in unit costs, which we applaud.
    Timber sales provide important revenue to the Treasury and an 
opportunity to offset significant restoration costs on our Nation's 
public lands. Timber sales and mechanical thinning represent 
economically worthwhile strategies, and funding can be leveraged to 
provide additional acres of hazardous fuels reduction activities.
    We support measures to reduce costs and increase efficiencies. We 
urge Congress to monitor the cost effectiveness of Forest Service 
management and provide direction that will allow the Forest Service to 
reduce costs of doing business. The Forest Service has proposed a $63 
million savings through indirect cost pool reductions, and further 
savings through a 25 percent reduction in the Washington office and 
regional offices. We support these goals and strongly urge Congress to 
require a fiscal year 2008 mid-year report on the agency's progress in 
achieving them. Further, those savings should be directed to active 
management to improve forest health.
    Hazardous Fuels Reduction.--AF&PA supports an increase to the 
Hazardous Fuels Reduction program. Treating hazardous fuels within the 
wildland-urban interface and across the landscape is essential to 
preventing catastrophic wildfires and insect and disease outbreaks and 
protecting resource values and species habitat. In order to reduce 
costs, we urge emphasis of these activities in areas with existing 
forest industry infrastructure. We further support a greater emphasis 
on mechanical thinning to reduce hazardous fuels and greenhouse gas 
emissions, from prescribed and wildland use fires, with particular 
priority on Condition Class 3 acres (acres representing the greatest 
departure from the natural regime). Mechanical thinning provides 
ecological benefits, economic benefits through the value of fiber 
removed, and climate change benefits, since wood products help prevent 
the use of other products that have larger carbon impacts, such as 
aluminum, steel, concrete, and plastic.
    We are concerned about the lack of accountability within the 
agency's forest health strategy. The agency currently measures its 
accomplishments through acres treated, which is too simplistic a metric 
to capture the landscape needs. The metrics need to focus on improving 
conditions on the landscape, in order to fully ensure that appropriated 
funds achieve the desired land stewardship goals. We recommend separate 
accounting for maintenance of acres and improvement of acres relative 
to the fire regime condition class. Furthermore, we urge that each 
National Forest improve at least 5 percent of Condition Class 3 acres 
annually over 20 years.
    We also continue to be concerned about the lack of integration 
between the hazardous fuels program and other vegetation management 
programs. In particular, we are concerned that the Forest Service has 
not moved the hazardous fuels program and funding into the National 
Forest System, even though Congress has provided this authority. In our 
view, this shift would increase the agency's ability to fully integrate 
fuels reduction and other vegetation management programs, thereby 
achieving greater efficiencies on the ground, and we urge Congress to 
require this shift.
     research to restore forest health and keep america competitive
    Targeted research is needed to support forest health, restoration, 
and economic utilization of fiber. Research helps find innovative ways 
to promote and enhance forest sustainability and provides 
scientifically sound data that benefits both public and private 
forests. Forest Service research investments in enhancing forest 
productivity, addressing the threats of insect and disease, quantifying 
carbon sequestration, and understanding forest management decisions on 
wildlife, water quality, biodiversity, landscapes and habitats, all 
contribute to efforts to achieve healthy forests.
    Forest Inventory and Analysis (FIA).--AF&PA recommends full funding 
of the program, an $11 million increase over the President's fiscal 
year 2008 request. The FIA program is the Nation's most comprehensive 
forest data collection and analysis program. It is a critical program 
that allows us to assess the sustainability and health of the Nation's 
forest resources. Full funding is needed to allow the Forest Service to 
achieve its stated goals to cover 100 percent of U.S. forest lands, 
fully implement the annual inventory, expedite data availability and 
analysis, improve working relationships with the States, and modernize 
FIA management systems.
    Forest Products and Utilization Research.--AF&PA supports the 
research on forest products and utilization at the Forest Products Lab 
and other Research Stations. Innovative wood and fiber utilization 
research contributes to conservation and productivity of the forest 
resource. The development of new forest products and important research 
on the efficient use of wood fiber directly address the forest health 
problem through exploration of small diameter wood use and bioenergy 
production.
    Agenda 2020 Research.--AF&PA recommends increased funding within 
the Forest Service R&D program in support of the Agenda 2020 
Sustainable Forest Productivity roadmap. The forest product industry's 
Agenda 2020 program has a proven track record for pre-competitive R&D. 
Working in partnership with universities and the private sector, Forest 
Service R&D funding for the Agenda 2020 program supports research to 
develop and deploy wood production systems that are ecologically 
sustainable, socially acceptable, and economically viable in order to 
enhance forest conservation and the global competitiveness of forest 
product manufacturing and biorefinery operations in the United States. 
There are significant benefits for industry and the Nation, including 
an improved regulatory and business climate for domestic timber 
production in managed forests, increased investment in new 
technologies, and the production of lower cost, higher quality wood on 
fewer acres of forestland.
                               conclusion
    AF&PA appreciates the opportunity to provide the subcommittee with 
testimony regarding the fiscal year 2008 budget. If implemented, 
increased funding for key programs will help promote sustainable 
management and forest health on our Nation's public and private lands.
                                 ______
                                 
        Prepared Statement of the American Geological Institute
    Thank you for this opportunity to provide the American Geological 
Institute's perspective on fiscal year 2008 appropriations for 
geoscience programs within the subcommittee's jurisdiction. We ask the 
subcommittee to support the well-informed, yet fiscally responsible 
increases in the administration's budget proposal for the Minerals 
Management Services (MMS), the Bureau of Land Management's Energy and 
Mineral Management program and the Smithsonian Institution. AGI also 
supports new funding for fixed costs and a few high priority programs 
within the United States Geological Survey (USGS). The high priority 
programs include a new Integrated Multi-Hazards Demonstration Project, 
the National Streamflow Information Program, the Energy Resources 
Program and some new funding for the Landsat Continuity Mission.
    Regrettably, the administration also proposes significant cuts to 
the USGS mineral resources and water programs. If the President's 
request were enacted, the USGS would receive a total budget of only 
$975 million, a 0.3 percent decrease compared to last year's funding, 
while the Mineral Resources Program would receive a more than $24 
million cut, leaving the program with less than $30 million in fiscal 
year 2008 and the Water Resources Program would be cut by about $7 
million. If enacted, these reductions would hamper the Survey's ability 
to carry out its important objectives to monitor environmental 
conditions and provide resource assessments for economic development 
and national security. The value of domestically processed nonfuel 
mineral resources is estimated to be about $478 billion and growing. 
The USGS Mineral Resources Program is the only entity, public or 
private, that provides an analysis and assessment of the raw materials 
and processed minerals accessible from domestic and global markets. 
Specifically, we ask the subcommittee to restore funds to the Mineral 
Resources Program and the Water Resources Program and to support a $1.2 
billion overall budget for USGS. This budget would allow essential, but 
consistently under funded, programs throughout the agency to fulfill 
their basic mission and such a request is supported by the 70 
organizations of the USGS Coalition. AGI is a charter member of the 
USGS Coalition.
    For the Environmental Protection Agency (EPA), the proposed fiscal 
year 2007 is $7.3 billion, a 5.1 percent decrease from last year with 
significant cuts for State water programs. AGI supports full funding 
for water programs in EPA and USGS, given the importance of clean and 
readily available water for our citizens, industries, local to Federal 
Government agencies and the environment.
    AGI is a nonprofit federation of 44 geoscientific and professional 
associations that represent more than 100,000 geologists, 
geophysicists, and other earth scientists who work in industry, 
academia and government. The institute serves as a voice for shared 
interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role that the geosciences play in society's use of resources and 
interaction with the environment.
                         u.s. geological survey
    For the fifth year in a row, the USGS faces cuts in the 
administration's request. AGI thanks the subcommittee for its record of 
restoring critical funds and recognizing the Survey's essential value 
to the Nation. The USGS is a critical Federal science agency and it 
should receive increased funding like the proposed increases in the 
President's American Competitiveness Initiative for the National 
Science Foundation and the Office of Science within the Department of 
Energy. The USGS performs complementary research, analysis and 
education and should be part of the President's initiative to advance 
innovation, reduce imported oil dependencies and ensure American 
competitiveness in science and technology.
    Virtually every American citizen and every Federal, State, and 
local agency benefits either directly or indirectly from USGS products 
and services. As was made clear by the National Research Council report 
Future Roles and Opportunities for the U.S. Geological Survey, the 
USGS's value to the Nation goes well beyond the Department of the 
Interior's stewardship mission for public lands. USGS information and 
expertise address a wide range of important problems facing this 
Nation: earthquakes and floods, global environmental change, water 
availability, waste disposal, and availability of energy and mineral 
resources. Some of the most important activities of the Survey serve 
the entire Nation. At the same time, AGI recognizes that the Survey 
does have a responsibility to provide scientific support for its sister 
land management agencies at Interior, an important mission that needs 
to be well executed if land management decisions are to be made with 
the best available scientific information. It is imperative that these 
missions be recognized and valued within the Department and by the 
administration. AGI asks the subcommittee to continue its efforts to 
help the administration better understand the Survey's value to the 
Nation as a whole.
    Mineral Resources Program.--This highly regarded research program 
is the Nation's premier credible source for regional, national and 
global mineral resource and mineral environmental assessments, 
statistics and research critical for sound economic, mineral-supply, 
land-use and environmental analysis, planning and decision-making. AGI 
urges the subcommittee to reject the administration's requested cuts to 
this program and to fund it at the fiscal year 2005 appropriated level 
of $54 million. The huge cut, leaving the program with less than $30 
million in fiscal year 2008 would decimate the program. It would cost 
about 210 of 380 full time positions and would eliminate or reduce 
global mineral resource assessments of mineral commodities, research on 
industrial minerals, research on inorganic toxins, materials flow 
analyses, and the Minerals Resources External Research program. The 
essence of the program would be jeopardized at a time when mineral 
products account for a rapidly growing and valuable commodity of the 
U.S. economy.
    The Mineral Resources Program (MRP) has 6 divisions with offices 
across the United States working on a broad range of initiatives to 
secure the Nation's economic base and environmental welfare. Each 
month, the Minerals Information Services of the MRP responds to over 
2,000 telephone inquiries and more than 90,000 email or facsimile 
inquiries from the Federal Government, State agencies, domestic and 
foreign agencies, foreign governments and the general public. Cutting-
edge research by MRP scientists investigates the role of microbes in 
the geochemical cycles of arsenic, mercury, lead and zinc to understand 
the transport and accumulation of health-threatening toxins related to 
these elements and to distinguish their natural or anthropogenic 
sources. MRP scientists also investigated and prepared a report on the 
asbestos-bearing debris in the aftermath of the World Trade Center 
disaster. The Global Mineral Resource Assessment Project of the MRP 
provides unbiased and timely information about the current and future 
availability of mineral resources around the world, which is needed to 
understand and anticipate economic, health, environmental and political 
factors that will affect how these resources are used in this 
increasingly interconnected world.
    The data and analyses of the MRP are used by the Department of the 
Interior, Department of Defense, the Central Intelligence Agency, the 
Department of State, the Federal Reserve, other Federal, State, and 
local government entities, foreign governments, private companies and 
the general public. Analyses based on the MRP data are essential for 
guiding economic and environmental policy and for providing options for 
land use decisions posed by industry, government and private land 
owners. We urge the subcommittee to restore the Mineral Resources 
Program to its fiscal year 2005 level of $54 million so that it may 
perform its core missions effectively and efficiently.
    National Cooperative Geologic Mapping Program.--AGI is encouraged 
by the administration's continued requests for small annual increases 
for the National Cooperative Geologic Mapping Program (the fiscal year 
2008 request is for $26 million) and values Congress' past support for 
much larger increases. This important partnership between the USGS, 
State geological surveys, and universities provides the Nation with 
fundamental data for addressing natural hazard mitigation, 
environmental remediation, land-use planning, and resource development. 
The program was authorized (Public Law 106-148) to grow by about 10 
percent to 20 percent per year from a starting level of $28 million in 
1999 to $64 million in fiscal 2005. Re-authorization at $64 million per 
year over the next 5 years is currently being considered in Congress. 
AGI strongly supports the increased funding being considered by 
Congress because the program provides a timely basis for assessing 
water availability and quality, risks from hazards and other major land 
and resource-use issues that are of increasing prominence in many 
States.
    Natural Hazards.--A key role for the USGS is providing the 
research, monitoring, and assessment that are critically needed to 
better prepare for and respond to natural hazards. The tragic 
earthquake/tsunami in the Indian Ocean, hurricanes Katrina and Rita 
striking the Gulf Coast and the massive earthquake in Pakistan, remind 
us of the need for preparation, education, mitigation and rapid 
response to natural hazards. A 2006 National Academies report entitled 
Improved Seismic Monitoring estimates that increased seismic monitoring 
leads to increased future savings from the damaging effects of 
potential earthquakes. Given recent events and this timely report, AGI 
strongly supports the administration's request for increased funding 
for Earthquake, Volcano and Landslide Hazards and appreciates Congress' 
past support for these programs. With great forethought, the Earthquake 
Hazards Reduction Authorization Act of 1999 called for a significant 
Federal investment in expansion and modernization of existing seismic 
networks and for the development of the Advanced National Seismic 
System (ANSS)--a nationwide network of shaking measurement systems 
focused on urban areas. ANSS can provide real-time earthquake 
information to emergency responders as well as building and ground 
shaking data for engineers and scientists seeking to understand 
earthquake processes. ANSS has been allocated about 10 percent of its 
authorized funding level per year, which is not nearly enough to deploy 
the 7,000 instruments called for in the law. Currently, 66 are 
operating and there is much more work that needs congressional support. 
We would like to commend the subcommittee for your leadership in 
securing previous increases for ANSS and ask for additional increases 
in fiscal year 2008. ANSS was authorized to receive $36 million in 
fiscal 2008 and the President's request is only for about $8 million. 
The National Earthquake Hazards Reduction Program (NEHRP) was 
reauthorized in October, 2004 and AGI supports the appropriation of 
full funding for this vital program. We hope that all of these under 
funded systems will receive additional support to meet their timely 
goals of better protection and mitigation of earthquake hazards long 
before we need to react.
    Water Programs.--The president's request calls for the termination 
of the Water Resources Research Institutes. AGI strongly encourages the 
subcommittee to oppose these reductions and to fully support this 
program at its small, but effective fiscal year 2005 level of $6.4 
million. AGI is pleased that the administration supports increased 
funding for stream gages and the National Streamflow Information 
program.
    Homeland Security.--Another troubling aspect of the President's 
request is the lack of funding for the USGS activities in support of 
homeland security and the war on terrorism overseas. All four 
disciplines within the Survey have made and continue to make 
significant contributions to these efforts, but the fiscal year 2008 
request does not provide any direct funding. Instead, those costs must 
be absorbed in addition to the proposed cuts. AGI encourages the 
subcommittee to recognize the Survey's important role in homeland 
security and ensure adequate support for its newfound responsibilities.
                        smithsonian institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the subcommittee to build up Smithsonian research with steady 
increases that are a tiny fraction of the overall budget, but would 
dramatically improve the facilities and their benefit to the country. 
We support increased funding for Smithsonian research in fiscal year 
2008.
                         national park service
    The national parks are very important to the geoscience community 
as unique national treasures that showcase the geologic splendor of our 
country and offer unparalleled opportunities for both geoscientific 
research and education of our fellow citizens. The National Park 
Services's Geologic Resources Division was established in 1995 to 
provide park managers with geologic expertise. Working in conjunction 
with USGS and other partners, the division helps ensure that 
geoscientists are becoming part of an integrated approach to science-
based resource management in parks. AGI would like to see additional 
support for geological staff positions to adequately address the 
treasured geologic resources in the national parks.
    Thank you for the opportunity to present this testimony to the 
subcommittee. If you would like any additional information for the 
record, please contact me at 703-379-2480, ext. 228 voice, 703-379-7563 
fax, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3b1acb4a2ad83a2a4aab4a6a1edacb1a4">[email&#160;protected]</a>, or 4220 King Street, Alexandria VA 22302-1502.
                                 ______
                                 
           Prepared Statement of the American Hiking Society
    American Hiking Society fiscal year 2008 trail and recreation 
funding recommendations:
    National Park Service (NPS):
  --Rivers, Trails and Conservation Assistance program: $12 million
  --National Trails System: $11.915 million, plus $1.25 million for GIS 
        Network
    Bureau of Land Management (BLM):
  --National Landscape Conservation System: $69 million
  --Recreation and Wilderness Management: $70 million
    U.S. Fish & Wildlife Service
  --National Wildlife Refuge System: $451 million
    USDA Forest Service (FS):
  --Recreation Management, Heritage and Wilderness: $271 million
  --Capital Improvement and Maintenance--Trails: $78 million
    Land and Water Conservation Fund (LWCF):
  --Stateside LWCF (NPS): $125 million
  --Federal LWCF: $220 million, including $47.265 million for National 
        Scenic and Historic Trails, as follows: Appalachian NST: $9.32 
        million (FS); Continental Divide NST: $200,000 (BLM); Ice Age 
        NST: $4.75 million (NPS); Florida NST: $5 million (FS); North 
        Country NST: $4 million (FS); Pacific Crest NST: $23.8 million 
        (FS); Overmountain Victory NHT: $195,000 (FS).
    Madam Chairwoman and members of the subcommittee, American Hiking 
Society is the only national nonprofit organization that promotes and 
protects foot trails and the hiking experience. With a strong 
membership base of individual hikers and hiking clubs, American Hiking 
represents half a million outdoors people and serves as the voice of 
the American hiker. American Hiking Society, our members and member 
organizations, and the 75 million Americans who hike have a strong 
interest and stake in the future of trails and our parks, forests, and 
other public lands. We appreciate the subcommittee's past support for 
trails and recreation and urge you to support strong funding in fiscal 
year 2008 that will keep our trails open, safe, and enjoyable today and 
for future generations.
    Our Nation's trails provide unparalleled opportunities for hiking 
and other outdoor recreation activities, enjoyment and appreciation of 
natural and cultural resources, healthy physical activities, 
alternatives for transportation, and economic development for local 
communities. Hiking in particular offers a healthy, enjoyable and 
relatively simple way to deepen one's connections to nature, people, 
and place. Whether it is for fitness, recreation, or learning about 
nature, hiking is inspirational, fun, and an activity for a lifetime. 
Hiking can also motivate people to protect the places they love and 
preserve them for future generations.
    Recreation and conservation have increased greatly in importance 
for the American people, yet the Federal investment for trails, 
recreation, and land conservation has not increased accordingly. This 
lag has resulted in high maintenance backlogs, deteriorating 
infrastructure, loss of open space, and negative impacts to resources. 
In order for Americans to enjoy the outdoors, experience our rich 
natural heritage, and find healthy places to recreate, we need 
protected open spaces and well-maintained trails and other recreation 
facilities. We recommend the following investments in trails and 
recreation to protect resources and recreational experiences for future 
generations, benefit local communities and the economy, and enhance 
public health and quality of life.
    National Park Service.--Under the administration's proposed fiscal 
year 2008 budget, the NPS would receive a $258 million increase for 
operations, including the funding of 3,000 new seasonal employees, 
increases for park maintenance and operations, and modest increases for 
the Rivers, Trails and Conservation Assistance program and national 
scenic and historic trails administered by the Park Service. American 
Hiking supports these increases and urges the following improvements to 
the proposed NPS budget.
NPS, Rivers, Trails, and Conservation Assistance program (RTCA)--$12 
        million
    RTCA is a technical assistance program that yields enormous 
conservation and recreation benefits to communities by fostering 
partnerships between Federal, State, and local interests. The resulting 
cooperative efforts restore rivers and wildlife habitat, develop trail 
and greenway networks, preserve open space, and revitalize 
communities--all contributing to improved quality of life and close-to-
home recreation. RTCA is a very successful and efficient program, but 
its funding has remained relatively flat during the last decade and 
lagged well behind the rate of inflation. The program's declining real 
budget has resulted in significant cuts to staff and reduced staff 
participation in on-the-ground projects. RTCA requires at least a $3.8 
million increase--a total $12 million appropriation--to remedy the 
program's continued erosion, compensate for losses due to inflation, 
and enable the program to respond to growing needs and opportunities in 
communities throughout the country.
NPS, National Trails System--$11.915 million
    We request $11.915 million for the National Trails System for 
resource protection, trail maintenance, interpretation and volunteer 
coordination, plus $1.25 million to further develop mapping through a 
Geographic Information System network for the National Trails System. 
We request $4.5 million for the NPS Challenge Cost-Share Program, with 
one-third of it earmarked for the National Trails System, or the 
establishment of a separate Challenge Cost Share Program for the 
National Trails System at $1.5 million. American Hiking Society is a 
member of the Partnership for the National Trails System (PNTS) and 
endorses the specific funding requests for administration and 
construction for the individual national scenic and historic trails 
submitted by the PNTS.
                    bureau of land management (blm)
National Landscape Conservation System (NLCS)--$69 million
    The National Landscape Conservation System represents the crown 
jewels of western public land managed by the BLM, yet it faces a $10 
million cut. The fiscal year 2008 administration budget request would 
cut funding for the trails and special places in the BLM's Conservation 
System to less than $2 per acre. American Hiking urges the following:
  --Fund the Conservation System at $69 million in fiscal year 2008. 
        This funding level will enable the BLM to retain volunteers, 
        protect visitor safety, survey cultural resources and engage in 
        sound science to manage resources for future generations to 
        enjoy. We support the specific funding requests for national 
        scenic and historic trails submitted by the PNTS totaling 
        $4.652 million.
  --Support any Member requests for additional funding, including LWCF 
        requests, for Conservation System units in their districts.
  --To promote greater management transparency and accountability for 
        the System, we urge the committee to request expenditure and 
        accomplishment reports for each of the System's Monuments and 
        Conservation Areas for fiscal year 2007 and to ask BLM to 
        include unit-level allocations by major sub-activities for all 
        System units (including Monuments, National Conservation Areas, 
        and National Scenic and Historic Trails) but Wilderness and 
        Wilderness Study Areas (WSAs). These unit-level allocations are 
        to be combined with Wilderness and WSAs under a new activity 
        account for the entire System.
BLM, Recreation Management--$70 million
    The BLM supports a broad range of recreational opportunities within 
its multiple use mission yet continues to receive very limited funding 
for recreation. The BLM faces daunting challenges with a growing 
deferred maintenance backlog for upkeep of more than 15,500 miles of 
trails. BLM is also facing critical inventory, planning and management 
challenges as it manages a staggering network of an estimated 600,000 
miles of roads, trails, routes and ways available for public use--with 
80,000 miles maintained and signed. Increased funding will support the 
development of travel management plans, interpretation projects, 
stewardship education, outreach projects, expansion of partnerships, 
and the protection of natural and cultural resources.
U.S. Fish & Wildlife Service, National Wildlife Refuge System (NWRS)--
        $451 million
    With refuges in all 50 States and U.S. Territories, the NWRS 
protects countless species of wildlife, fish, plants, and critical 
habitat and provides recreational opportunities for nearly 40 million 
visitors annually, yet it continues to face significant budget 
shortfalls. The operations and maintenance backlog for the system 
totals about $2.75 billion. Approximately 200 refuges do not have any 
staff. The Refuge System needs an additional $15.1 million annually 
just to keep pace with inflation and to keep refuges from cutting 
conservation and public use programs. The NWRS uses its approximately 
2,500 miles of land and water trails to deliver its congressionally 
determined six priority wildlife dependent recreation activities. 
Without adequate and appropriate staff, refuges will suffer from 
deteriorating conditions and disrepair. Important management activities 
such as law enforcement, trail maintenance, biological programs, 
facilities maintenance, wildlife management, habitat restoration, 
recreational activities, and educational programs will be diminished or 
eliminated. At least $8 million is needed for Visitor Facility 
Enhancements in the NWRS construction budget.
USDA Forest Service, Recreation Management, Heritage and Wilderness--
        $271 million
    Although recreation accounts for the greatest use of National 
Forest System lands, recreation remains woefully underfunded and 
understaffed. We are deeply concerned about the administration's fiscal 
year 2008 proposed funding level for recreation. The proposed cuts, 
combined with years of inadequate funding, would result in devastating 
reductions to programs and staff, adversely impact trails and 
recreation opportunities throughout the country, exacerbate maintenance 
backlogs, and result in degraded trails and recreation resources, 
negative impacts to resources, and diminished hiking experiences. The 
Forest Service requires increased funding for recreation management and 
wilderness to protect critical resources, upgrade recreation 
facilities, reduce the $200+ million deferred maintenance backlog, 
augment on-the-ground recreation staff, improve recreation resource 
analyses and planning, and more effectively utilize partnerships and 
volunteers. We ask for your continued strong support of the world class 
recreation heritage of our National Forest System.
Forest Service, Capital Improvement and Maintenance--Trails--$78 
        million
    The Forest Service manages 133,000 miles of trails and requires 
increased funding to restore and maintain these thousands of trail 
miles, improve trail infrastructure, prevent and mitigate resource 
impacts, and provide safe, high-quality recreational experiences for 
millions of hikers and other trail enthusiasts. Deferred maintenance 
costs for trails currently exceed $240 million. We support the 
individual requests for national scenic and historic trails submitted 
by the Partnership for the National Trails System totaling $10.24 
million.
Land and Water Conservation Fund (LWCF)--$125 million Stateside; $220 
        million Federal
    The LWCF provides and protects hiking opportunities nationwide 
through Federal land acquisition and State recreation grants. The 
program helps create parks, protect trails and open spaces, preserve 
wilderness and wildlife habitat, and enhance recreational 
opportunities. While LWCF funds have been cut severely, the need for 
open space and recreation has soared. Through the LCWF, more than 
40,000 local and State park, recreation, and conservation projects have 
been completed in virtually every county across America. Authorized at 
$900 million annually, LWCF is one of the most important conservation 
tools ever designed and is critical to the future protection of our 
public lands and national trails. We strongly oppose the 
administration's recommendation to zero out the stateside LWCF program.
                               conclusion
    Federal policy encouraging partnerships, healthy lifestyles, and 
promoting volunteerism to protect and maintain our public lands 
warrants increased funding for trail and recreation programs across the 
Federal agencies. Volunteer contributions are also essential to trails 
and recreation programs, and American Hiking and its members and 
partners contribute hundreds of thousands of hours each year, worth 
millions in labor, to help maintain our Nation's trails. However, an 
increase in volunteerism on public lands must not be perceived as a 
panacea to agency budget constraints. American Hiking is coordinating 
nearly 100 week-long Volunteer Vacation trail maintenance trips in 2007 
on national parks, forests, and other public lands. On June 2, 2007, 
American Hiking will coordinate the fifteenth National Trails Day to 
raise public awareness and appreciation for trails, with more than one 
thousand events nationwide to maintain and celebrate trails. We work 
tirelessly to build, maintain and protect hiking trails and their 
natural corridors so that current and future generations can experience 
the many joys and benefits of hiking and are inspired to protect this 
legacy. American Hiking members and outdoorspeople nationwide 
appreciate the subcommittee's past support for trail and recreation and 
look forward to continued strong support. Thank you for the opportunity 
to testify and for considering our requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) encourages 
Congress to provide the United States Geological Survey (USGS) with at 
least $1.2 billion for fiscal year 2008, and at least $200 million for 
programs of the Biological Resources Discipline.
    The USGS provides independent research, data, and assessments 
needed by public and private sector decision-makers. A unique 
combination of biological, geographical, geological, and hydrological 
research programs enables USGS scientists to utilize innovative 
interdisciplinary research techniques to answer important questions. 
For instance, USGS data are essential to improving our understanding of 
climate change, including how biological and environmental systems may 
respond. Moreover, the USGS collects data that other Federal agencies 
and nongovernmental scientists do not collect. We cannot afford to 
sacrifice this information; rather, we should increase our investments 
in this work.
    USGS scientists work collaboratively and are vital members of the 
research community. Through offices and science centers located in 
every State and partnerships with more than 2,000 Federal, State, 
local, tribal, and private organizations, the USGS has built the 
capacity to leverage additional research expertise. For example, 
through the Cooperative Research Units program, USGS scientists are 
stationed at universities. This proximity to academic researchers 
heightens the intellectual and technical resources devoted to answering 
biological and natural resource questions. Moreover, Cooperative 
Research Units are a vital component of our Nation's education and 
training infrastructure, helping to develop the skills that graduate 
students need to become the natural resource professionals that 
government agencies require.
    Natural resource managers demand reliable, relevant, and timely 
information. The Biological Informatics Program develops and applies 
innovative technologies and practices to the management of biological 
data, information, and knowledge. Increased funding for the USGS would 
enable the Biological Informatics Program to continue on-going 
activities and begin to implement initiatives that the resource 
management and research communities have identified as priorities. For 
instance, new nodes could be added to the National Biological 
Information Infrastructure program, allowing scientists and managers to 
better access and unlock the power of existing data.
    Biological science programs within the USGS gather long-term data 
not available from other sources. This data has contributed 
fundamentally to our understanding of bird migratory patterns and the 
status and dynamics of biological populations, and it has improved our 
understanding of how ecosystems function. This array of research 
expertise not only serves the core missions of the Department of the 
Interior, but also contributes to management decisions made by other 
agencies and private sector organizations. In short, we need to 
increase our investments in these important research activities.
    Funding for the USGS has remained flat for nearly a decade. The 
situation is even worse when the budget is adjusted for inflation. 
Despite inadequate budget requests from the present and prior 
administrations, Congress has demonstrated its recognition of the 
importance of USGS science by restoring proposed cuts. In response, the 
USGS has made every effort to be responsible stewards of public funds 
and has sought to leverage its limited human and financial resources to 
the greatest extent possible.
    There is growing concern from within the government and outside 
that funding for the USGS must improve if it is to continue to serve 
its mission. Without an increased investment in USGS science, core 
missions and national priorities will suffer. Thus, any effort that 
Congress can make to fundamentally improve funding for the USGS will be 
appreciated.
    Thank you for your thoughtful consideration of this request. If you 
require additional information, please contact me at 202-628-1500 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="017174636d6862716e6d68627841606863722f6e73662f">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to 1 of every 7 electric consumers (approximately 44 
million people), serving some of the Nation's largest cities. However, 
the vast majority of APPA's members serve communities with populations 
of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2007 funding priorities within the jurisdiction of the 
Interior and Related Agencies Subcommittee.
         environmental protection agency: energy star programs
    APPA is disappointed in the administration's request of $44 million 
for fiscal year 2008 for EPA's Energy Star Programs as it represents a 
$1.7 million reduction in their request of approximately $45.7 million 
from fiscal year 2007 as well as a reduction in the congressional 
allocation of $49.5 million for fiscal year 2007. We urge the 
subcommittee to allocate at least the fiscal year 2007 amount for 
Energy Star.
    Energy Star is a voluntary partnership program pairing EPA with 
businesses and consumers nationwide to enhance investment in 
underutilized technologies and practices that increase energy 
efficiency while at the same time reducing emissions of criteria 
pollutants and greenhouse gases. In particular, APPA member systems 
across the country have been active participants in a subset of the 
Energy Star program called ``Green Lights.'' The Green Lights program 
encourages the use of energy efficient lighting to reduce energy costs, 
increase productivity, promote customer retention and protect the 
environment.
    According to the EPA, Energy Star is saving businesses, 
organizations, and consumers more than $9 billion a year, and has been 
instrumental in the more widespread use technological innovations like 
LED traffic lights, efficient fluorescent lighting, power management 
systems for office equipment, and low standby energy use.
   environmental protection agency: landfill methane outreach program
    APPA is also disappointed in the administration's request of $1.9 
million for fiscal year 2008 for the Landfill Methane Outreach Program 
at EPA. We would urge the subcommittee to again consider an allocation 
for this program over and above the administration's request.
    The Landfill Methane Outreach Program (LMOP) helps to partner 
utilities, energy organizations, States, tribes, the landfill gas 
industry and trade associations to promote the recovery and use of 
landfill gas as an energy source. According to the U.S. Environmental 
Protection Agency (EPA), LMOP has more than 490 Partners that have 
signed voluntary agreements to work with EPA to develop cost-effective 
landfill-gas-to-energy (LFG) projects. There are approximately 395 
operational LFG energy projects in the United States with approximately 
140 projects currently under construction or exploring development 
options and opportunities. LMOP has also developed detailed profiles 
for over 1,300 candidate landfills.
    Landfill gas is created when organic waste in a landfill 
decomposes. This gas consists of about 50 percent methane and about 50 
percent carbon dioxide. Landfill gas can be captured, converted, and 
used as an energy source rather than being released into the atmosphere 
as a potent greenhouse gas. Converting landfill gas to energy offsets 
the need for non-renewable resources such as coal and oil, and thereby 
helps to diversify utilities' fuel portfolios and to reduce emissions 
of air pollutants from conventional fuel sources.
    In 2005, all operational LFG energy projects in the United States 
prevented the release of 19 MMTCE (million metric tons of carbon 
equivalent). This reduction is the carbon equivalent of removing the 
emissions from 13.3 million vehicles on the road or planting 19 million 
acres of forest for 1 year. This reduction also has the same 
environmental benefit as preventing the use of 162 million barrels of 
oil or offsetting the use of 341,000 railcars of coal.
    As units of local and State governments, APPA's member utilities 
are uniquely poised to embark on landfill-gas to energy projects. EPA's 
LMOP facilitates this process by providing technical support and access 
to invaluable partnerships to our members and the communities they 
serve.
                    council on environmental quality
    APPA is disappointed with the administration's request of $2.7 
million for fiscal year 2008 for the White House's Council on 
Environmental Quality (CEQ), and urges the subcommittee to consider 
allocating at least $3.2 million for this office. Public power 
utilities have experienced a general lack of consistency in Federal 
Government regulation, particularly involving environmental issues. 
While additional layers of government should be avoided, a central 
overseer can perform a valuable function in preventing duplicative, 
unnecessary and inconsistent regulation. CEQ is responsible for 
ensuring that Federal agencies perform their tasks in an efficient and 
coordinated manner.
                                 ______
                                 
                 Prepared Statement of American Rivers
    American Rivers, on behalf of our 65,000 supporters nationwide 
urges the subcommittee to provide $3,562,562,000 for the following 
programs in the Interior, Environment, and Related Agencies 
Appropriations bill for fiscal year 2008. I request that this testimony 
be included in the official record.
                    environmental protection agency
    The Clean Water State Revolving Fund (SRF) provides capitalization 
grants to States, which in turn provide low-cost loans to communities 
for a variety of programs to clean up impaired water bodies and protect 
pristine waters. This program has been extremely effective in helping 
communities to improve water quality and provide safe drinking water. 
However, the needs to improve, repair and replace the Nation's aging 
water infrastructure are tremendous. Postponing necessary water 
infrastructure investments will only defer and increase costs that must 
eventually be met. The annual need for clean water funding is close to 
$20 billion. Historically, the Federal Government has provided between 
10 and 20 percent of those funds or what should be $2 to $4 billion. 
The SRF programs have also been used to fund nonstructural projects 
that reduce non-point source pollution, protect estuaries, prevent 
contamination of drinking source waters, and reduce polluted runoff by 
protecting natural areas and other ``green infrastructure,'' such as 
stream buffers. These approaches are often more cost-effective then 
traditional pipe and cement options and provide a wide array of 
environmental and social benefits, including open space, wildlife 
habitat, recreation, and improved water supply. American Rivers urges 
the committee to appropriate $1.35 billion for the Clean Water SRF and 
$850 million for the Drinking Water SRF in fiscal year 2008. 
Additionally, within the funds appropriated for the Clean Water SRF at 
least $75 million should be dedicated to Low Impact Development or non-
structural green infrastructure to deal with stormwater run-off and 
combined sewer overflows.
    WaterSense.--EPA established a water efficiency market enhancement 
program in the fiscal year 2005 budget similar to the Energy Star 
program that promotes energy efficient appliances and practices. 
Promoting water efficient products and practices would represent a 
significant step forward in moving the Nation towards more efficient 
water use. American Rivers urges the committee to appropriate $3.3 
million for the WaterSense program in fiscal year 2008.
    The establishment of Total Maximum Daily Loads (TMDLs) allows 
States and the Environmental Protection Agency (EPA) to identify all 
sources of water quality impairment to rivers, streams and lakes that 
do not meet water quality standards, develop specific goals for 
improvement, and design plans to reduce pollutant loads into receiving 
water bodies. The development of strong TMDLs by the States done 
through funding under section 106 of the CWA requires a commitment of 
adequate resources. American Rivers urges the committee to appropriate 
$250 million for State Program Management Grants in fiscal year 2008.
    Non-point Source Management Program (Clean Water Act Section 319) 
grant money that States, territories, and Indian tribes can use for a 
wide variety of non-point source pollution reduction activities 
including technical and financial assistance, education, training, 
technology transfer, demonstration projects, and monitoring. American 
Rivers urges the committee to appropriate $250 million for Section 319, 
the Non-point Source Management Program in fiscal year 2008.
    The Targeted Watersheds Grants program provides direct grants to a 
limited number of watershed groups, tribes and communities working to 
improve water quality. Portions of these funds are designated for 
technical assistance programs and to train community groups engaged in 
watershed-level protection and restoration projects. This training is 
essential to protect and restore the Nation's rivers and watersheds. 
American Rivers urges the committee to appropriate $35 million, 
including $3.5 million dedicated to technical assistance for Targeted 
Watersheds Grants in fiscal year 2008.
    The National Estuary Program protects and restores the Nation's 
estuaries by creating partnerships with local communities. The program 
focuses not just on improving water quality in an estuary, but also on 
maintaining the integrity of the whole system--its chemical, physical, 
and biological properties, as well as its economic, recreational, and 
aesthetic values. Since its inception, the program has grown to include 
28 programs across the country, but funding levels have stagnated. 
American Rivers urges the committee to appropriate $35 million for the 
National Estuary Program in fiscal year 2008.
                         wild and scenic rivers
    The National Wild and Scenic Rivers System protects free-flowing 
rivers with outstandingly remarkable scenic, recreational, geologic, 
fish and wildlife, historic, cultural, or other similar values. The 
Bureau of Land Management, Fish and Wildlife Service, National Park 
Service, and Forest Service share responsibility for conducting studies 
to determine if rivers qualify for designation, and administering and 
developing river management plans for designated rivers. Unfortunately, 
none of these agencies receive sufficient funding to adequately protect 
the Wild and Scenic Rivers System, as Congress intended. Although 
84,500 stream miles are potentially eligible for designation, only 165 
rivers covering almost 11,500 miles are currently designated. The 
condition of many Wild and Scenic Rivers is unknown as Federal agencies 
have been forced to turn a blind eye to their protection and management 
requirements for these jewels. Streams are becoming degraded and 
restoration is needed in many locations. Increased funding, will allow 
these agencies to better manage and protect designated rivers and 
promote their values to the public. American Rivers urges the committee 
to appropriate a total of $38.862 million for the management of the 
Wild and Scenic River System. These funds should be split as follows: 
U.S. Forest Service--$9 million for wild and scenic river management, 
$6 million for the completion of river studies and the creation of 
river management plans; BLM's National Landscape Conservation System--
$7 million for WSR management and $5 million for completion of WSR 
studies; U.S. FWS--$1,787,000 for wild and scenic river management, 
restoration and studies; NPS Rivers and Trails Studies--$1 million for 
wild and scenic rivers studies and $16 million for wild and scenic 
river management; NPS Partnership Wild and Scenic Rivers--$2.1 million 
for management of the wild and scenic rivers.
                     u.s fish and wildlife service
    The National Fish Passage Program has opened more than 3,750 miles 
of river and restored 69,000 acres of wetlands for fish spawning and 
rearing habitat. Restoring fish migration enhances entire watersheds 
and benefits birds and mammals, such as eagles, ospreys, herons, 
kingfishers, brown bears, otters, and mink. Since its inception in 
1999, working with local, State, tribal, and Federal partners, the Fish 
Passage Program has leveraged Federal dollars nearly three-to-one. The 
Fish Passage Program is also one half (with NOAA) of the $12 million 
Open Rivers Initiative which will provide grants to communities and 
local dam owners to remove their dams that no longer make sense. Many 
others are either dilapidated, having outlived their 50-year life 
expectancy, or are no longer providing the benefits for which they were 
built. These dams are unnecessarily degrading the riverine ecosystem 
and holding up economic development. These restoration projects provide 
significant environmental improvements and offer noteworthy economic 
and societal benefits. They create new opportunities for recreational 
fishing, river rafting, and kayaking; provide cost savings by 
eliminating the need for dam repairs; and remove safety and liability 
risks associated with outdated structures. American Rivers urges the 
committee to appropriate the National Fish Passage Program $11 million 
in fiscal year 2008, of which $6 million should be dedicated to the 
implementation of the Open Rivers Initiative.
    The National Fish Habitat Initiative will harness the expertise of 
existing efforts to create a coordinated approach to improving fishery 
habitat. The combined force of Federal agencies, State, and local 
governments, and conservation groups will leverage Federal dollars with 
both private and non-profit resources in order to maximize funding for 
fish habitat conservation projects across the Nation. The initiative 
partners have created an ``action plan'' in 2006 that will foster 
geographically focused, locally driven, and scientifically based 
partnerships to protect, restore, and enhance aquatic habitats. The 
plan is non-regulatory and will succeed only through its collaborative 
nature. American Rivers urges the committee to appropriate the National 
Fish Habitat Initiative $3 million in fiscal year 2008.
    The Fisheries Restoration and Irrigation Mitigation Act Program 
(FRIMA) is a unique voluntary program that helps improve anadromous and 
resident fish passage through installing better fish screens for 
irrigation and water diversions in Oregon, Washington, Idaho and 
western Montana without impairing existing water withdrawals. American 
Rivers urges the committee to fund Fisheries Restoration and Irrigation 
Mitigation Act Program at $5 million in fiscal year 2008.
    The Partners for Fish and Wildlife Program has worked with more 
than 28,700 landowners to restore 639,550 acres of wetlands; 1,069,660 
acres of native prairie, grassland, and other upland habitats; and 
4,740 miles of riparian and in-stream aquatic habitat. American Rivers 
urges the committee to appropriate $52 million for the Partners for 
Fish and Wildlife program in fiscal year 2008.
    The Coastal Program has worked through partnerships to reopen 3,450 
miles of coastal streams for anadromous fish passage; restore 130,325 
acres of coastal wetlands, 27,746 acres of coastal upland habitat, and 
1,275 miles of riparian habitat; and protect 1,639,232 acres of habitat 
through conservation easements since 1994. American Rivers urges the 
committee to fund the FWS's Coastal Program at $15 million in fiscal 
year 2008.
                         national park service
    The Rivers, Trails and Conservation Assistance Program (RTCA) has 
helped produce some of the best examples of conservation based local-
Federal partnerships by providing communities with assistance to help 
revitalize riverfronts, protect open space, and build trails and 
greenways. If funded at $15 million, RTCA could expand to assist 
approximately 250 additional projects in some 25 new and currently 
underserved locations. American Rivers urges the committee to fund the 
RTCA program at $15 million in fiscal year 2008.
    Elwha River Restoration.--Removal of Glines Canyon and Elwha dams 
will restore salmon access to the Elwha river's wilderness heart in the 
Olympic National Park for the first time in 100 years. This dam removal 
will produce a landmark in river restoration for our national parks and 
an unprecedented opportunity to study a large dam removal and its 
impact on the river and wild salmon populations. American Rivers urges 
the committee to provide $25 million to complete the restoration of the 
Elwha River ecosystem and its fisheries in fiscal year 2008.
    Dam Safety Program.--Dams that have outlived their average life 
expectancy now threaten the health of rivers inside the National Park 
System. Of the 482 dams in the Park System, some 330 are in poor or 
fair condition. Since its formation, the Dam Safety program has 
repaired 198 dams and removed 159 hazardous dams. American Rivers urges 
the committee to fund the Dam Safety Program at $3.6 million in fiscal 
year 2008.
                         u.s. geological survey
    These water resource investigation programs provide vital 
information on water quality conditions and trends on the health of our 
Nation's rivers and water supply. American Rivers urges the committee 
to provide the following amounts in fiscal year 2008:
  --National Water Quality Assessment Program: $70 million
  --Toxic Substances Hydrology Program: $17.4 million
  --National Streamflow Information Program: $28.4 million
                        office of surface mining
    Abandoned Mine Land Program--Clean Streams Initiative.--The Clean 
Streams Initiative coordinates and funds community, citizen, and 
government abandoned mine reclamation efforts. American Rivers urges 
the committee to appropriate $285 million to the Abandoned Mine Land 
Program and should earmark $20 million for the Clean Streams Initiative 
in fiscal year 2008.
                    land and water conservation fund
    The Land and Water Conservation Fund (LWCF) provides much-needed 
dollars for purchasing ecologically important lands. LWCF has proven 
highly successful, projects have helped States and localities purchase 
some 2.6 million acres of land and advanced river restoration through 
acquisition of riverside lands to serve as buffer zones. In particular, 
the following river protection projects deserve funding this fiscal 
year. Within the BLM there are Oregon's Rogue Wild & Scenic River- 
Winkle Bar project that needs $1.5 million, the Sandy River/Oregon 
National Historic Trail that needs $500,000, Idaho's Upper Snake/South 
Fork Snake River project that needs $2 million and Colorado's Gunnison 
Gorge National Conservation Area that needs $856,000. Within the U.S. 
Forest Service Michigan's Ottawa National Forest- Sturgeon River Gorge 
Wilderness project for $4 million. And within the NPS $5.6 million is 
needed to purchase the Riverstone tract for the Congaree National Park 
and $5.2 million is needed to protect riparian land in New Jersey and 
Pennsylvania as part of the Delaware Water Gap National Recreation 
Area. American Rivers urges the committee to appropriate at least $220 
million for the Land and Water Conservation Fund in fiscal year 2008.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2008 appropriation for the 
U.S. Environmental Protection Agency (EPA) research and education 
programs. The ASM is the largest single life science organization with 
more than 42,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and for 
economic and environmental well-being.
    The EPA relies on sound science to safeguard both human health and 
the environment. The EPA Office of Research and Development (ORD) 
sponsors leading-edge research that provides the solid underpinning of 
science and technology for EPA regulatory and public outreach 
activities. ORD conducts research on ways to prevent pollution, protect 
human health, and reduce risk. The work at ORD laboratories, research 
centers, and offices across the country helps improve the quality of 
air, water, soil, and the way we use resources. Optimal EPA oversight 
clearly depends upon the Agency's access to scientific expertise and 
its ability to respond quickly to our changing environment.
    The ASM is very concerned with the diminishing budget for EPA's 
research and development programs. The fiscal year 2008 budget request 
for the ORD is $540 million, a 9 percent, or a $55 million, decrease 
from fiscal year 2006. This cut will further erode the scientific 
foundation, which is critical to EPA's abilities to make science-based 
decisions on regulations designed to protect human health and the 
environment. The ASM urges Congress to provide at least $595 million 
for the ORD in fiscal year 2008, the same as the funding level provided 
in fiscal year 2006.
                      star grants and fellowships
    The proposed budget decreases for ORD include a reduced level of 
spending for the Science to Achieve Results (STAR) program. The ORD 
budget proposes only $62 million for STAR, a 4.6 percent reduction from 
fiscal year 2007, cutting the program for the sixth consecutive year. 
The ASM urges Congress to increase funding for the STAR grants program 
to at least the fiscal year 2002 level of $102 million. Reductions in 
the STAR program will severely limit the ability of EPA to draw upon 
critically needed scientific expertise from the academic community, a 
valuable source of research insights and personnel for EPA programs. 
For the third straight year, EPA's research campus in Research Triangle 
Park, NC, is ranked among the top three institutions in the United 
States for postdoctoral fellows to work, yet the ability of EPA to 
support these important young scientists is diminishing.
    Limited funding for STAR will diminish U.S. competitiveness in 
environmental research, training, and development of new technologies 
for solving environmental problems. The STAR program revitalizes all 
areas of EPA research and fosters workforce development in 
environmental science and technology through fellowships. In December 
2006, EPA reported results from several STAR-funded studies on 
biomarkers--substances or processes that can be measured in biological 
samples like blood and that indicate toxic exposure or predict disease. 
Extramural researchers confirmed that easy-to-collect saliva can be 
used to assay pesticide exposure in children and adults; other grantees 
used biomarkers to demonstrate that specific insect management 
techniques effectively reduce prenatal pesticide exposure. Other high-
priority strategies within the STAR program include funding climate 
change studies with grants administered through EPA's Global Climate 
Research Program in two principal areas: assessments of consequences of 
global climate change and human dimensions research.
                           indoor air quality
    One impact of cuts to ORD over the last several years includes the 
loss of capacity for research on indoor air quality. This is an 
important issue because we spend 80 percent or more of our time indoors 
and climate changes will likely affect indoor air quality in yet 
unpredictable ways. Funding needs to be restored for this important 
program.
                             climate change
    Climate change affects all of earth's biota, including microbes 
that often dominate the living mass of many ecosystems. The potential 
effects of climate change include sea level rise, shrinking glaciers, 
changes in the range and distribution of plants and animals, changes in 
plant and animal life cycles, changes in the water (or hydrologic) 
cycle and thawing of permafrost. The impact of these changes on 
microbial activities is often unpredictable, but the central role of 
microbes in the mobilization and toxicity of selenium, arsenic and 
mercury provides apt examples of the potential for deleterious outcomes 
if microbial activity is altered by climate change. Because microbes 
play major roles in water quality, environmental integrity and human 
health, it is essential that the EPA retain and expand its ability to 
support research on climate change and subsequent impact on both 
beneficial and pathogenic microorganisms.
    The ASM is concerned with the proposed 9 percent cut to the Global 
Change research program at ORD because it is clear that certain 
diseases and pathogens are sensitive to climate changes. Since 1995, 
Lake Erie has experienced a microcystis algal outbreak every summer; 
scientists have concluded that the warmer the water temperature, the 
more extensive the outbreak. Although the toxic algae can be filtered 
out of drinking water, microcystis can kill fish and birds, and coastal 
communities often ban swimming and water skiing when the algae bloom. 
Heavy rainfall has been associated with waterborne disease outbreaks 
throughout the United States, while outbreaks of vector-borne diseases 
like encephalitis have been linked to a pattern of warm winters and hot 
dry summers. As global temperatures rise, the incidence of malaria and 
other serious diseases, some of which are currently limited to tropical 
latitudes, could expand significantly in incidence and geographic 
distribution. Public health officials elsewhere are reporting unusually 
high incidences or new geographic locations of diseases like ciguatera 
poisoning (toxic algae in marine fish), Lyme disease, and hemorrhagic 
dengue fever, which officials suspect might be linked to climate 
changes. Global climate experts predict even more striking changes in 
infectious diseases as global temperatures rise and regional climate 
patterns change.
    The climate research programs at ORD can provide valuable 
information necessary for prevention of, response to, and recovery from 
changing patterns of pathogens and disease. Last December, the EPA 
released a draft document on its review of the impact of climate 
variability and changes in aeroallergens in the United States (pollens, 
molds and indoor allergens), concluding that climate changes likely 
will increase allergy-related issues. In 2006, the Agency completed a 
study of publicly owned water treatment systems in the Great Lakes 
Region, finding that climate change could have significant effect on 
pollutant discharge.
                          clean and safe water
    Congress has mandated that the EPA ensure the safety of our 
drinking and recreational waters, an enormous regulatory and assessment 
task that relies on sufficient EPA funding and personnel resources. The 
ASM supports the proposed 7 percent and 10 percent increases for the 
Drinking Water and Water Quality programs at ORD, respectively. It is 
imperative that the EPA continue to: develop analytical methods for 
accurately measuring contaminant levels in drinking water and surface 
water; ensure proper certification and assessment of laboratories that 
analyze drinking-water samples; conduct research that strengthens the 
scientific basis for standards that limit public exposure to 
contaminants; and assess, restore and protect aquatic systems. Topics 
of growing concern include, among others, the dissemination into the 
environment through water and wastewater treatment systems of diverse 
anthropogenic compounds, such as pharmaceuticals and estrogens or 
estrogen-like compounds. These compounds are now ubiquitous, but their 
fates in the environment and impacts on humans and other organisms are 
inadequately known.
    EPA researchers have aggressively sought improved techniques for 
water quality assessment, building ``toolkits'' of assays and 
computational models that can be used by local and State public health 
officials. Recent examples include a new rapid DNA analysis to quantify 
enterococci and bacterioides bacteria in water, reducing the time for 
detecting these sewage contaminants from 24 hours to just two and 
making possible same-day decisions on beach warnings or closings--some 
of the first research findings from a multi-year water study being 
conducted jointly by the EPA and the Centers for Disease Control and 
Prevention. Other current ORD research efforts include developing 
laboratory cell lines and assays to measure chemical interactions with 
human hormone receptors and using new genomics technologies to assess 
risks from widely used conazole fungicides. Last year, the Agency, in 
collaboration with other Federal agencies, launched the Harmful Algal 
Blooms Observing System in South Florida, the first component of a 
planned surveillance network to rapidly identify and track red tide 
outbreaks in ocean waters.
                  water and wastewater infrastructure
    In order to provide safe and secure drinking water for its 
citizens, the Nation must improve the sustainability and energy 
efficiency of its water distribution systems from sources to ``sinks''. 
Energy efficiency is an important but often overlooked consideration. 
At present, the Nation's water distribution infrastructure consumes 
approximately 5 percent of total electricity use. The development of 
non-fossil fuel energy sources for water distribution can not only 
contribute to a more secure water supply, but can also contribute to 
the Nation's energy security. Coupling microbial activity during 
wastewater treatment to electricity generation provides one example for 
increasing energy efficiency.
    Researchers, supported by the National Science Foundation (NSF) and 
the U.S. Department of Agriculture (USDA), have made great strides in 
advancing the technology of microbial fuel cells to benefit wastewater 
treatment plants. Microbial fuel cells work through the action of 
bacteria, which can produce electricity in fuel cells. In the process, 
the bacteria consume organic matter in the wastewater and thus, improve 
water quality. This approach uses the bacteria that naturally occur in 
wastewater, requiring no special bacterial strains or unusual 
environmental demands. The benefit of microbial fuel cell applications 
is that while they generate electricity, they purify wastewater, a goal 
of wastewater treatment facilities that usually requires the 
consumption of energy.
    The ASM urges Congress to support a collaborative relationship 
between the EPA and the Department of Energy (DOE), the NSF, and the 
USDA to explore energy production from waste treatment, and to develop 
mechanisms for improving energy efficiency in water distribution.
                               conclusion
    Sound science is necessary for the protection of human health and 
the environment. The ORD is an integral component for conducting 
research needed to answer many of the challenges we face, such as 
climate change, and clean and safe water. The ASM urges Congress to 
provide at least $595 million for the ORD and $102 million for the STAR 
program in fiscal year 2008.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2008 appropriation for the EPA.
                                 ______
                                 
      Prepared Statement of the American Symphony Orchestra League
    On behalf of America's orchestras, the American Symphony Orchestra 
League urges the subcommittee to approve fiscal year 2008 funding for 
the National Endowment for the Arts (NEA) at a level of $176 million. 
Bipartisan congressional support for the NEA has strengthened in recent 
years, evidenced by meaningful incremental funding increases. Still, 
the NEA has never fully recovered from a 40 percent budget cut in 
fiscal year 1996. The current fiscal year 2007 level of funding for the 
NEA--$124.4 million--is well below the 1992 appropriation of $176 
million.
    The arts are essential to life in American communities nationwide. 
From small towns to urban centers, communities look to the arts to 
generate economic activity and educate our Nation's citizenry. Most 
significantly, as a Nation we also turn to the arts for their unique 
capacity to offer comfort in times of stress, provide meaning amidst 
uncertainty, spark unity during conflict, and to mark many of our most 
historically significant moments. More than 40 years of support from 
the National Endowment for the Arts has fostered the development of 
many orchestras and has increased the capacity of the arts to serve and 
strengthen communities across our country.
    Founded in 1942, the American Symphony Orchestra League is the 
national service organization for nearly 1,000 symphony, chamber, 
youth, and collegiate orchestras, with budgets ranging from less than 
$50,000 to more than $70 million. Together with the NEA, we share a 
common goal of strengthening orchestras as organizations and promoting 
the value of the music they perform.
    A significant increase in funding will expand the NEA's ability to 
serve the American public through grants supporting and promoting the 
creation, preservation, and presentation of the arts in America through 
the NEA's core programs--Access to Artistic Excellence, Challenge 
America: Reaching Every Community, Learning in the Arts for Children 
and Youth, and Federal/State partnerships--and through important 
national initiatives.
      nea grants uniquely support the creation, presentation, and 
                        preservation of the arts
    The NEA awarded more than 1,700 grants last year to nonprofit arts 
organizations for projects that encourage artistic creativity and that 
bring the arts to millions of Americans. The NEA's fiscal year 2007 
Grants to Organizations included 127 grants to orchestras and the 
communities they serve, supporting arts education for children and 
adults, expanding public access to performances, preserving great 
classical works, and fostering the creative endeavors of contemporary 
classical musicians, composers, and conductors.
    Orchestras across the country are essential and active partners in 
increasing access to music, improving the quality of life in their 
communities by collaborating with school systems and other local 
partners in a wide array of performances and programs.
  --Funding from the NEA has been a key source of support for The 
        Phoenix Symphony's One Nation program, a partnership between 
        the Symphony and the Salt River Pima-Maricopa Indian Community. 
        Through the One Nation program, the Symphony enhances the 
        fundamental music education programs of the community's 
        elementary and secondary schools while simultaneously 
        interacting with new audiences in the Native American 
        community. The community-to-community connection forged by this 
        partnership will facilitate good relations between the 
        reservation and the community as a whole. This project 
        exemplifies how NEA funding can help local arts organizations 
        respond to the emerging needs and priorities of their 
        communities.
    This project is just one of the many community-based programs 
supported by the NEA's competitive grant-making process and for 
hundreds of other community-based arts programs across the country.
  nea funding uniquely increases the creative capacity of the united 
                                 states
    NEA funding is a critical component in the network of public, 
private, corporate, and philanthropic support that makes the work of 
America's orchestras possible. Orchestras exist in all 50 States, in 
virtually every community, with annual budgets ranging from less than 
$50,000 to more than $70 million. Nationwide, concert income accounts 
for only 37 percent of orchestra revenue. Further funds are provided 
through the generosity and vision of thousands of individuals, 
corporations, and foundations. This delicate balance of public and 
private support is key to supporting the nearly 1,800 orchestras across 
the United States.
    The grants awarded directly to local orchestras by the NEA, and 
support provided to orchestras through NEA funds administered by State 
arts agencies, provide critical support for projects that increase 
access to music in communities nationwide. NEA funding also makes good 
economic sense. In this Federal/State partnership, 40 percent of the 
NEA's program dollars are granted to State arts agencies, conditional 
on each State devoting its own appropriated funds. NEA funds produce a 
similar leveraging effect at the local level. For many communities, the 
benefit of an NEA grant goes far beyond the dollar-value of the award, 
multiplying private support by attracting additional sponsorship and 
recognition.
  --The New West Symphony received an NEA grant for the commission and 
        performance of a new work by composer-in-residence Bright 
        Sheng. The project also included collaborations with local 
        Chinese cultural groups, public discussions and visits to a 
        local Chinese school. Support from the NEA helped attract a 
        $25,000 grant from a private foundation. Donors and other 
        members of the community view the support provided by the NEA 
        as a significant endorsement of this project, generating 
        additional financial support and press coverage, and increasing 
        public participation and concert attendance.
     nea funding connects the arts and artists to their communities
    The NEA identifies and supports projects that connect the arts--and 
artists--to their broader communities, encouraging creative 
collaboration and building artistic strength. Orchestral music is the 
product of a vast network of hundreds of thousands of local musicians, 
volunteers, administrators, and community leaders--all dedicated to 
adding value and meaning to life by fostering creativity and engaging 
the public in the extraordinary experience of orchestral performances.
  --The Nashville Symphony received an NEA grant to support outreach 
        concerts in rural areas of Tennessee and Alabama. In 
        partnership with local community organizations, the orchestra 
        performed eleven concerts in six counties outside of Nashville, 
        Tennessee's Davidson County. The Symphony reached 9,800 
        children and adults through outdoor concerts, participation in 
        community-wide events, and at indoor concert venues in the 
        community. These concerts are offered free of charge to the 
        public, or are offered for a minimal fee that the communities 
        themselves charge, so that funds go the communities' own local 
        arts programs and initiatives. This program has strengthened 
        communities by promoting the local arts, and showcasing talent 
        inherent in each community.
    Thank you for this opportunity to illustrate the value of NEA 
support for orchestras and communities across the Nation. The 
Endowment's unique ability to provide a national forum to promote 
excellence, both through high standards for artistic products and the 
highest expectation of accessibility, remains one of the strongest 
arguments for a Federal role in support of the arts. We urge you to 
support creativity and access to the arts by approving a substantial 
increase in funding for the National Endowment for the Arts.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy
    In behalf of the Appalachian Trail Conservancy (formerly the 
Appalachian Trail Conference), I am requesting an fiscal year 2008 
appropriation from the Land and Water Conservation Fund in the amount 
of $9.32 million for the USDA Forest Service for the acquisition of 
lands bordering the Appalachian National Scenic Trail in the States of 
Virginia, Tennessee, and North Carolina.
                               background
    The Appalachian Trail (A.T.) is America's premier long-distance 
footpath. Initially established between 1923 and 1937 as a continuous 
footpath extending from western Maine to northern Georgia, the trail 
gained Federal recognition in 1968 with the passage of the National 
Trails System Act. Later 1978 amendments to that act expanded the 
authorization for Federal and State land acquisition to establish a 
permanent, publicly owned right-of-way as well as a protective corridor 
or greenway along the trail. Since 1978, the Appalachian National 
Scenic Trail land-acquisition program of the National Park Service and 
USDA Forest Service has become one of the most successful land-
conservation efforts in the Nation's history with the acquisition of 
more than 187,000 acres, more than 3,360 parcels, in 14 States. Today, 
only approximately 7 miles of the 2,175-mile Appalachian Trail remain 
to be protected through public ownership.
                        resource characteristics
    The Appalachian Trail is a 2,175-mile footpath extending generally 
along the crests and valleys of the Appalachian Mountain chain through 
14 States from Maine to Georgia. Often characterized as a ``string of 
pearls,'' the trail, which is considered a unit of the National Park 
System, connects eight National Forests, six other units of the 
National Park System, and approximately 75 State parks, forests, and 
game-management units. With an estimated 3 to 4 million visitors per 
year, the trail ranks among the most heavily visited units of the 
National Park System and also ranks among the top 10 units from the 
standpoint of natural and cultural resource diversity. For example, 
based on natural-diversity inventories conducted in the 1990s, more 
than 2,000 occurrences of rare, threatened, and endangered Federally 
and State-listed flora and fauna have been identified at more than 500 
discrete sites within the trail corridor. More recent cultural-resource 
inventories in selected States suggest that the Appalachian Trail 
greenway is equally diverse from the standpoint of historic and 
cultural resources.
    The Appalachian Trail is equally well known as a remarkable public/
private partnership. For more than 80 years, the Appalachian Trail 
project has been recognized as one of America's most successful 
examples of private-citizen action in the public interest. Since the 
initial construction of the trail in the 1920s and 30s, volunteers 
affiliated with the Appalachian Trail Conservancy (ATC) have 
constructed, reconstructed, and maintained the footpath as well as a 
system of more than 250 shelters and associated facilities such as 
privies, improved campsites, bridges, signs, and parking lots. More 
recently, as a result of a 1984 agreement between the National Park 
Service and ATC that is unique in scope if not in concept, the 
Conservancy has accepted management responsibility for more than 
110,000 acres acquired by that agency along the trail. ATC, through its 
network of 30 club affiliates and many thousands of volunteers, is now 
responsible for virtually all phases of ``park'' operations, ranging 
from trail and facility maintenance and construction to land and 
resources management to visitor education and services. Through other 
agreements with the USDA Forest Service and most of the 14 trail 
States, ATC also provides ongoing, volunteer-based stewardship for 
other trail lands, totaling more than 250,000 acres. In 2006, for 
example, more than 5,000 volunteers contributed more 200,000 hours of 
labor along the trail.
                        need for appropriations
    As noted previously, while the Appalachian National Scenic Trail 
protection program represents perhaps the most successful Federal, 
State, and private land-acquisition program in the history of the 
conservation movement in the United States, that program is not yet 
complete. Although our hope had been to complete the program by the 
year 2000, escalating land values coupled with diminished 
administrative capacity in the affected agencies have conspired to 
delay full program completion. Nowhere are those trends more apparent 
than in the southeastern region of the trail, in the National Forests 
of Virginia (George Washington/Jefferson), Tennessee (Cherokee), and 
North Carolina (Pisgah/Nantahala). Nevertheless, five key parcels are 
now ``ripe'' for land acquisition and we are seeking fiscal year 2008 
LWCF appropriations to secure those properties. The following narrative 
provides a brief description of each of those critical parcels. More 
detailed descriptions, along with maps and photographs of each of the 
referenced properties, have been provided to subcommittee staff.
             new river, virginia/jefferson national forest
    For more than 30 years ATC and the USDA Forest Service have sought 
to establish a final alignment for the Appalachian Trail adjacent to 
the New River in Giles County, Virginia. The current route crosses a 
private property owned by Celanese LLC immediately adjacent to a busy 
highway (U.S. 460) directly across from a large Celanese industrial 
facility offering no real scenic or recreational value. After many 
years of negotiations, Celanese representatives have expressed an 
interest in selling--potentially at a bargain-sale price--a 400-acre 
parcel in fee and an additional 25-acre scenic easement that will 
permit a relocation of the footpath to a much improved location along a 
more remote and scenic portion of the property. Additional scenic-
easement interests also are being sought along the back portions of 
approximately a dozen private lots bordering the eastern edge of the 
property. Total project costs are estimated at $1.6 million. However, 
ATC has been successful in attracting a private donation and also is 
seeking additional funding from the Commonwealth of Virginia. In 
addition, due to limited administrative capabilities in the affected 
National Forest, ATC also is providing pre-acquisition assistance for 
appraisal and environmental-clearance work. While total project costs 
are estimated to be $1.6 million, our request for fiscal year 2008 LWCF 
appropriations is $1.25 million.
            tilson farm, virginia/jefferson national forest
    This 170-acre property is situated near the northern boundary of 
Smyth County on the Smyth/Bland county line near the town of Ceres, 
Virginia. The property is adjacent to a narrow Appalachian Trail 
corridor that was acquired some years ago. Acquisition of the property 
will provide an important scenic buffer along the A.T., conserve the 
headwaters of the North Fork of the Holston River, provide an 
opportunity to develop a 5-mile loop trail, conserve the site of an 
early settler cemetery on the property, and consolidate Forest 
ownership. The current property owner has expressed an interest in the 
selling the tract at a favorable or bargain-sale price and ATC is 
contributing toward pre-acquisition costs including appraisal and 
environmental clearance work. Total project costs are estimated at 
$400,000. ATC is requesting an fiscal year 2008 LWCF appropriation of 
$300,000.
             rocky fork, tennessee/cherokee national forest
    The Rocky Fork property is a 10,000-acre property in eastern 
Tennessee situated midway between Johnson City and Asheville, North 
Carolina. It represents the largest privately owned in-holding within 
the southern National Forest System. Named for the cool waters of one 
of several prominent watersheds and high-quality trout streams that 
pass through the property, it is adjacent to 22,000 acres of designated 
wilderness or potential wilderness lands including the 8,000-acre 
Sampson Mountain Wilderness, the 3,000-acre Sampson Mountain Addition 
Inventoried Roadless Area (IRA), and the 11,700-acre Bald Mountain IRA. 
For many years, the Tennessee Wildlife Resources Agency has leased the 
property for its game and non-game wildlife values, including 16 miles 
of ``blue-ribbon'' trout streams and outstanding black bear, white-
tailed deer, and wild turkey habitat. The property also contains a 
number of Federal species of concern or State-listed species in need of 
management including the peregrine falcon, the eastern hellbender, the 
woodland jumping mouse, smoky shrew and star-nosed mole, and a 
potential new species of salamander, the Yonahlossee salamander. The 
property also includes 1.2 miles of the Appalachian National Scenic 
Trail with no protected right-of-way.
    The Rocky Fork property presently is owned by New Forestry, LLC and 
is being managed by Timbervest. It is currently being marketed for 
primary and second-home development and is readily accessible from 
Interstate 26. However, the owners have expressed a willingness to sell 
the property for conservation purposes and negotiations are underway 
now to secure a purchase and sales agreement. ATC is working closely 
with The Conservation Fund, the Southern Appalachian Highlands 
Conservancy, and a number of other local conservation and sportsmen 
organizations to secure the property. Total estimated costs are 
approximately $43 million. However, ATC and its partners already have 
secured financial support from the State of Tennessee and through a 
number of private-sector donations. We are requesting an fiscal year 
2008 LWCF appropriation of $7 million and an additional fiscal year 
2009 LWCF appropriation for another $7 million. Those contributions are 
likely to be matched 2:1 by State and private funds.
            shook branch, tennessee/cherokee national forest
    This 20-acre property is situated in eastern Tennessee in the 
Cherokee National Forest. Since at least 1983, ATC, together with the 
Tennessee Eastman Hiking Club and the USDA Forest Service, have sought 
a safe passage for the Appalachian Trail between the Pond Mountain 
Wilderness and the shoreline of Watauga Lake. The A.T. currently 
follows a dangerous road-walk and crosses U.S. 321 at a location with 
limited site distances to on-coming traffic. A proposed new route has 
been identified and a number of parcels have been acquired by the 
Forest Service to establish the route. The Shook Branch property is 
necessary in order to complete the proposed relocation. The current 
property owner has expressed a willingness to sell the property. Total 
project costs, including construction of the trail relocation, is 
estimated at $550,000. ATC is requesting an fiscal year 2008 LWCF 
appropriation of $500,000.
         wesser bald, north carolina/nantahala national forest
    This 90-acre property is situated in western North Carolina in the 
Nantahala National Forest. The Appalachian National Scenic Trail passes 
within 200 feet of the property and affords a number of outstanding 
scenic views at several locations along the northern portion of the 
property and from a viewing platform atop the Wesser Bald fire tower 
which is maintained for visitor use. The platform provides 360-degree 
views encompassing the Great Smoky Mountains skyline, Cheoah Bald, the 
Nantahala Mountains, and Brasstown Bald in northern Georgia. The 
current property owners are working with The Conservation Fund and the 
USDA Forest Service to conserve the property. TCF, with the aid of a 
private donation, is seeking to acquire conservation easements 
affecting 65 to 80 percent of the property. The remainder of the 
property--approximately 20 acres--is proposed for fee-simple 
acquisition by the Forest Service. Total project costs are estimated at 
$450,000. ATC is requesting an fiscal year 2008 LWCF appropriation in 
the amount of $270,000.
    With the acquisition of the above-described properties, ATC hopes 
to complete a substantial portion of the remaining land-acquisition 
needs in the Appalachian National Scenic Trail program in the southern 
National Forest System. Again, we respectfully request an fiscal year 
2008 Land and Water Conservation Fund appropriation of $9.32 million 
for the USDA Forest Service.
    Thank you for the opportunity to submit this testimony and for your 
consideration of our request.
                                 ______
                                 
         Prepared Statement of the APS-Four Corners Power Plant
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
  Prepared Statement of the Archery Trade Association; Association of 
    Fish and Wildlife Agencies; Bear Trust International; Boone and 
    Crockett Club; Bowhunting Preservation Alliance; Congressional 
Sportsmen's Foundation; Ducks Unlimited; Foundation for North American 
    Wild Sheep; National Trappers Association; North American Bear 
Foundation; North American Grouse Partnership; Pheasants Forever; Pope 
  and Young Club; Quail Forever; Quality Deer Management Association; 
Safari Club International; Theodore Roosevelt Conservation Partnership; 
   Wildlife Forever; Wildlife Management Institute; and the Wildlife 
                                Society
    We write to ask for your assistance in meeting this Nation's 
pressing natural resource challenges by providing sufficient fiscal 
year 2008 funding to make greater use of the U.S. Geological Survey's 
Cooperative Fish and Wildlife Research Units (CFWRU). This important 
research and training partnership already brings together State fish 
and wildlife agencies, State universities, and Federal agencies around 
applied research agendas.
    The CFWRUs are crucial to successfully addressing the natural 
resource management challenges posed by climate change, energy 
development needs, invasive species, infectious diseases, wildfire, and 
increased demand for limited water resources. These challenges also 
include replacing the unprecedented number of natural resource 
professionals who will be retiring over the next 10 years.
    As you know, each of the CFWRUs in 38 States is a true Federal-
State-university-private partnership among the U.S. Geological Survey, 
a State natural resource agency, a host university, and the Wildlife 
Management Institute. The CFWRUs build on these partner contributions 
to leverage more than $3 for every $1 appropriated to the program by 
Congress.
    Finding workable solutions to our natural resource challenges 
requires the CFWRU's management-oriented, community-based approach to 
research, which relies on interdisciplinary efforts and fosters 
collaboration and accountability. The CFWRUs also are well positioned 
to help replace our retiring workforce. They have an established record 
of educating new natural resource professionals who are management-
oriented, well-versed in science, grounded in State and Federal agency 
experience, and able to assist private landowners and other members of 
the public.
    To begin meeting these high priority research and training needs in 
fiscal year 2008, we ask that you request establishment of a 
competitive, matching fund program within existing CFWRU legislative 
authority that would make available $20 million annually in new funds 
beyond base operational costs. These new funds would support future 
cooperative, high priority research efforts and essential training of 
new natural resource professionals to replace the large number who will 
retire within the next decade.
    To begin meeting these high priority research and training needs in 
fiscal year 2008, we ask that you establish a competitive, matching 
fund program within existing CFWRU legislative authority that would 
make available up to $20 million annually in new funds beyond base 
operational costs. These new funds would support future cooperative 
research efforts in key areas and essential training of new natural 
resource professionals to replace the large number who will retire 
within the next 10 years.
    In order to fill current scientist vacancies, restore seriously 
eroded operational funds for each CFWRU, and enhance national program 
coordination, the fiscal year 2008 Interior Department budget request 
for the CFWRUs must increase approximately $5 million more than the 
fiscal year 2007 funding level. This funding would restore necessary 
capacity in the CFWRU program for it to meet the Nation's research and 
training needs, and it would ensure that the Interior Department 
provides the Federal scientist staffing agreed to with partners so that 
the return on their continuing investment in the CFWRUs is realized and 
fully leveraged. Without an infusion of funds, one quarter of all CFWRU 
scientist positions (29) will need to be vacant by the end of fiscal 
year 2008.
    We thank you for consideration of our request. With your 
assistance, the Cooperative Fish and Wildlife Research Units can become 
even more effective in using science and collaboration to address the 
natural resources challenges facing the Interior Department and other 
Federal, State, and local agencies.
                                 ______
                                 
     Prepared Statement of the Association of American Universities
    On behalf of the Association of American Universities (AAU), an 
organization of 60 leading U.S. public and private research 
universities, I appreciate the opportunity to submit testimony on the 
fiscal year 2008 budget of the National Endowment for the Humanities 
(NEH). The Endowment is the single most important source of Federal 
support for the humanities. We believe that the Nation would benefit 
from a significant funding increase for NEH, in part as a complement to 
the Federal investment in science and engineering research. It is 
through the humanities that we can better understand and address the 
human encounter with social, economic, and political change. It is 
through the humanities that we can come to understand who we are as a 
people and our place in the global community. We also believe that as 
teachers and supporters of the humanities, we have an obligation and an 
opportunity to educate through history, literature, and language the 
framework of a culture of tolerance and civility that is so needed 
today. The NEH serves to strengthen and benefit the Nation, as a whole, 
by promoting excellence in the humanities and conveying the lessons of 
history to all Americans.
    Now is the time to make a significant investment in the humanities, 
and so we ask Congress to fund NEH at the level of $177 million in 
fiscal year 2008, an increase of $37 million, or 26 percent, above 
fiscal year 2007 funding.
                 the history of aau and the humanities
    AAU universities are devoted to maintaining a system of high-
quality academic research and education in a wide range of fields at 
the undergraduate, graduate and professional levels. Our member 
universities perform about 60 percent of Federally funded university-
based scientific and engineering research. But our schools also are 
leaders in humanities through their support of academic departments, 
public performance and lecture facilities, museums, and centers. For 
our institutions, the humanities are both subjects of research and a 
critical element of undergraduate and graduate education. AAU 
institutions use NEH grants for research and scholarship, preserving 
the Nation's diverse heritage, educating the next generation of 
Americans, and bringing the humanities to the wider public through 
libraries, museums, centers, and public programs.
    Faculty at a large number of universities, including Stanford 
University and the University of Southern California, are engaged in 
productive NEH-funded grants. For example, the King Papers Project at 
Stanford University is a major research effort to assemble and 
disseminate historical information concerning Martin Luther King, Jr. 
and the social movements in which he participated. The King Papers 
Project's principal mission is to publish a definitive fourteen-volume 
edition of King's most significant correspondence, sermons, speeches, 
published writings, and unpublished manuscripts. The published volumes 
of The Papers of Martin Luther King, Jr., have already influenced 
scholarship and become essential reference works. Building upon this 
research foundation, the Project also engages in other related 
educational activities. Using multimedia and computer technology to 
reach diverse audiences, it has greatly increased the documentary 
information about King's ideas and achievements that is available to 
popular as well as scholarly audiences. The Project also offers unique 
opportunities for students to become involved in its research through 
the King Fellowship Program. The University of Southern California has 
an NEH-funded grant called the Virtual Italian Experience. The grant is 
a virtual learning environment created by the university faculty to 
teach foreign language and culture to undergraduate students. The goal 
is to engage students with every type of learning style and enrich 
their knowledge of the language and culture and is linked to the goals 
of the NEH's Digital Humanities initiative. It is important to remember 
that universities supplement Federal funds with their own funds to 
support researchers and scholars. NEH-funded challenge grants, which 
require universities to provide a 4-to-1 match, leverage significant 
resources from universities and other institutions to achieve the goals 
of the Endowment.
    AAU led an effort to identify ways in which academic institutions 
and the Federal Government can partner in increasing the visibility and 
public support of the humanities. AAU's 2004 report, Reinvigorating the 
Humanities: Enhancing Research and Education on Campus and Beyond, not 
only called for university presidents and chancellors to give increased 
attention to the humanities but also provided an inventory of exciting 
campus projects and programs around the country. Indeed, AAU 
institutions are engaged in a wide range of activities that focus 
attention on the benefits of a humanities education. As a follow-up to 
the 2004 report, AAU encouraged its members to convene roundtable 
discussions on emerging trends and best practices in the humanities. 
While many institutions had been actively engaged in these discussions 
for some time, the AAU report provided a focal point for the 
deliberations among campus constituencies. These campus efforts 
culminated in a national convocation with the American Council of 
Learned Societies in 2006, which brought together university, 
association, Federal agency and congressional leaders to discuss the 
appropriate role for the humanities in meeting today's challenges and 
to begin building an action agenda for the humanities in academic and 
national life. AAU more recently assembled a small group of provosts 
and graduate deans to discuss how academic institutions and the 
Endowment might better support the current needs of humanities graduate 
students and faculty. These discussions have helped to shape our 
funding priorities, including a preliminary program proposal to 
facilitate greater interaction among humanities graduate students and 
faculty, I am about to describe.
                   aau funding priorities for the neh
    In nominal dollars, NEH was funded at $177.5 million in fiscal year 
1994 ($231.4 million in constant dollars based on the 2005 annual 
Consumer Price Index). In the following years, the agency sustained 
some of the most severe reductions of any Federal agency. Over time, 
the combined impact of budget cuts and inflation has reduced the 
number, diversity, and buying power of grants provided by the NEH. The 
President's fiscal year 2008 request would further undermine the grant 
programs: it is estimated that the President's request would cut 
competitive grant funds by approximately $1 million within each of the 
following NEH core programs: education, preservation and access, public 
programs, research and challenge grants. While some universities have 
tried to close the funding gap themselves, it is getting increasingly 
difficult to do so and misleading to assume that higher education can 
compensate for a lack of growth in Federal funds. In addition, 
foundation support for the humanities has slipped during the past 
decade, according to the first comprehensive study on the topic 
completed by the Foundation Center. The humanities community is not 
only concerned over the reduction in foundation support, but also the 
fact that there has been a long-term shift away from funding for 
scholarship and core disciplines and toward funding for public 
programming. These funding trends are of particular concern to AAU 
because of the unmet need and rising debt assumed by humanities 
students.
    The community's fiscal year 2008 request of $177 million for the 
NEH represents an important step in restoring the Endowment to its 
historic funding levels. Within our overall request, AAU has two 
funding priorities for the Endowment that I would like to share with 
you today. The first collective priority shared by the National 
Humanities Alliance, is to provide proportional increases to all NEH 
grant programs, including research, education, preservation and access, 
public programs, and State councils, giving preference to the core 
divisions that have sustained the deepest cuts since fiscal year 1994. 
When funding for the Endowment was cut in the mid-1990s, 60 percent of 
the cuts were made to the education and research core programs, which 
are both of particular importance to AAU members. In fiscal year 2006, 
these programs were funded at approximately $12 million, or less than 
10 percent of total Endowment funding.
    Within the education division, AAU is particularly focused on the 
Summer Seminars and Institutes, which support national faculty 
development programs in the humanities. These programs provide a 
critical forum for leading scholars and faculty to deepen their 
knowledge of current scholarship in the key fields of the humanities. 
Similarly, Faculty Humanities Workshops support local and regional 
professional development programs that allow faculty and scholars to 
engage in collaborative study. Within the research division, several 
programs, including Summer Stipends and Fellowships, support 
individuals or teams of two or more scholars (not including graduate 
students) pursuing advanced research that will contribute to scholarly 
knowledge or to the public's understanding of the humanities. Increased 
funding for competitive peer-reviewed grants in the education and 
research divisions, and all the core divisions, is essential to 
addressing many of today's social, cultural, economic and international 
relations challenges.
    The second priority for AAU is a new pilot program that would 
simultaneously expand scholarship in key areas of inquiry, support the 
critical education of graduate students in the conduct of research, and 
bring faculty and graduate students in the humanities together in 
collaborative arrangements that have long characterized the sciences. 
In the sciences, such collaborations foster rich and creative 
interactions of faculty and graduate students defining new areas of 
inquiry in seminars and carrying them out jointly in the lab, combining 
the knowledge and experience of faculty with the energy and creativity 
of graduate students. The ancillary benefits of faculty mentorship, the 
early and in-depth engagement of graduate students in research, and the 
enrichment of the scholarly endeavors by the close interaction of 
faculty and graduate students has been all too lacking in the 
humanities.
    We propose a national competitive program in which proposals from 
universities would be judged on the scholarly inquiry to be conducted, 
the manner in which the central organizing research topic would be 
expanded by faculty-supervised graduate student research, the 
intellectual, social or cultural significance of the research, the 
contribution of the research to interdisciplinary research, and the 
plans to communicate the research within and beyond the academic 
community. We believe that the first step should be internal 
competitions within institutions, with the university selecting which 
proposals should be submitted to the national competition to be 
conducted by NEH. The institutional proposals might involve a team of 
one faculty member and one graduate student, or they might involve two 
or more faculty working with several graduate students on an 
interdisciplinary research topic.
    The NEH does not currently support graduate research in the 
humanities. While the National Institutes of Health, National Science 
Foundation, Department of Defense, Department of Energy, and the 
National Aeronautics and Science Administration, among others, each 
have a graduate education component that complements the agencies' 
research, the NEH stands as one of the few Federal agencies that does 
not support or train the next generation of researchers or support 
collaboration between students and faculty. While the Endowment funded 
a small dissertation fellowship program, the program was de-funded when 
the agency was cut significantly in the mid-1990s. We believe that NEH 
is uniquely positioned to promote a higher level of collaboration 
between faculty and graduate students in a manner that helps to supply 
our Nation with the talented and knowledgeable individuals who will 
contribute to a culturally competent workforce.
    Many details of course remain to be worked out, but we strongly 
believe that such a collaborative, interactive faculty/graduate student 
research and education program at the NEH will enrich humanities 
scholarship and improve humanities graduate education, essentially 
gaining two for one in a single program. We hope that we can further 
discuss this proposal as you move forward in crafting your Interior, 
Environment, and Related Agencies Appropriations bill.
    AAU encourages you to take seriously the importance of the 
humanities in our society today. NEH helps our universities--and other 
colleges and universities around the country--ensure that the 
humanities remain central to their missions and to the cultural life of 
the Nation. The NEH, as the largest Federal supporter of the 
humanities, broadens public awareness of and participation in the 
humanities through teaching, scholarship and research. We, in coalition 
with the larger humanities advocacy community, support a significant 
increase in the Endowment to help restore historic cuts to all grant 
programs, with a focus on the core research and education programs. In 
addition, we believe that the 110th Congress provides a unique 
opportunity to develop a new program that facilitates more interaction 
between students and faculty in the humanities.
    Again, thank you for the opportunity to testify today and I welcome 
any questions.
                                 ______
                                 
  Prepared Statement of the Association of Fish and Wildlife Agencies
    State fish and wildlife agencies enjoy a long history of working in 
partnership with the Federal Government to conserve our Nation's fish 
and wildlife resources. Working together, we are able to ensure robust 
fish and wildlife populations living in healthy lands and waters, 
providing critical recreational opportunities and economic benefits to 
local communities and preventing fish and wildlife from declining to 
the point of becoming endangered.
    As the subcommittee moves forward with the fiscal year 2008 
Interior and Environment Appropriations bill, we urge you to put the 
greatest emphasis on programs that:
  --take a preventive rather than reactive approach to conservation 
        problems, saving money by making an investment now to get a 
        larger return.
  --advance landscape-level conservation efforts that are targeted at 
        addressing the needs of many species and habitats across large 
        regions, rather than individual projects.
  --facilitate & catalyze partnerships that leverage additional 
        resources, magnifying the impact of every Federal dollar.
    The Association has provided the subcommittee with a full report 
that outlines the fiscal year 2008 Budget Recommendations of State fish 
and wildlife agencies. We offer the following highlighted priorities:
                     u.s. fish and wildlife service
    State Wildlife Grants.--The Association appreciates the 
subcommittee's strong support for the State Wildlife Grants program. 
This program has become the core Federal program to advance the 
national interest in preventing fish and wildlife from becoming 
endangered. Over the last 6 years, States have made great strides in 
developing strong programs to take action on the ground to rebuild 
populations of imperiled fish and wildlife, conserve and restore 
important lands and waters, and gather data to support sound management 
decisions.
    We recommend that Congress provide at least $85 million in fiscal 
year 2008 order to restore this program back up to the highest level of 
funding it has ever received, in fiscal year 2002. Consistent funding 
is essential to the long-term success of this program. As you know, 
every State has completed a comprehensive wildlife conservation 
strategy, or wildlife action plan, as mandated by Congress. These 
action plans detail each State's species of greatest conservation need, 
their habitats, the problems and data gaps that confront them, and the 
conservation actions that are needed in order to prevent them from 
becoming endangered. A funding level of $85 million would reflect the 
Congress's commitment to following through on providing the Federal 
support needed to implement the wildlife action plans. At the same 
time, the need is much greater.
    The State Wildlife Grants program is supported by the Teaming with 
Wildlife coalition, a coalition of more than 5,000 organizations, 
agencies, and businesses in every State. The diverse support for this 
program is reflected in strong support that this program receives among 
your colleagues. This year, 60 Senators, representing both parties and 
nearly every State have signed on to a letter of support for at least 
$85 million.
    Fisheries Programs.--The Association urges Congress to increase 
funding for the Fisheries Program to $124.75 million in fiscal year 
2008. The Association, in partnership with the Service, developed a 
draft strategic plan for the Fisheries Program that outlined goals and 
performance targets for the next decade. Increased funding will allow 
the Service to address several priority issues identified in the 
strategic plan. In addition, the Association urges an expansion of 
funding for implementation of the National Fish Habitat Action Plan to 
a level of at least $6 million in fiscal year 2008. This national 
aquatic conservation effort will complement the highly successful North 
American Waterfowl Management Plan implemented in the 1980s. The Fish 
Habitat Action Plan has the support of State fish and wildlife agencies 
as well as the Secretaries of Commerce and Interior. To date more than 
500 organizations have signed on as partners to this effort.
    Refuges.--The Association supports increased funding in fiscal year 
2008 for the Wildlife and Habitat Management and Refuge Operations. 
There is a tremendous backlog of funding needs that must be addressed 
in the future to successfully meet the Service's Refuge System mission 
of conserving fish and wildlife. Several years ago, the Association, 
along with 16 other organizations, created the Cooperative Alliance for 
Refuge Enhancement (CARE) specifically to address this growing backlog. 
The Association continues to support the CARE recommendations to 
eliminate the backlog of Refuge operations and maintenance and also 
strongly urges these recommendations be used to guide future budget 
requests. The Association supports the increase to the visitor services 
portion of the National Wildlife Refuge System.
    North American Wetlands Conservation Act.--The North American 
Wetlands Conservation Act is authorized at $75 million. With every 
Federal dollar being matched by almost three non-Federal dollars, the 
program has more than 2,000 partners from communities, governments 
(including of Canada and Mexico), nonprofit organizations, States, and 
academia. The program has put thousands of projects on the ground in 
North America, including a total of more than of 16 million acres of 
wetlands and associated uplands in the United States, Canada, and 
Mexico. The Association supports the President's request at $42.64 
million and urges Congress to make progress towards the fully 
authorized funding level by appropriating $50 million.
    Cooperative Endangered Species Conservation Fund.--The Association 
supports the $80 million requested by the President for fiscal year 
2008. Cooperative efforts between the FWS and the State fish and 
wildlife agencies are the surest way to meet objectives for species 
recovery and conservation under the act. The Association recommends 
that funds be made available to the States through a mechanism that 
maximizes spending discretion to the States, such as a State fish and 
wildlife agency ESA Conservation and Recovery Block Grant Program, with 
the individual States deciding the best mix of information, incentives, 
and acquisitions to achieve habitat conservation and protection and 
recovery objectives. Much of the Section 6 grant funds are already 
earmarked for program needs such as HCPs and CCAs. While these 
certainly represent useful purposes, the Association's first priority 
for Section 6 grants to the States remains those dollars that allow the 
States the greatest discretion in satisfying priority needs.
    Landowner Incentive Program.--The Association strongly urges 
Congress to fund the Landowner Incentive Program at the $21.6 million 
level in fiscal year 2008. The administration has not provided funding 
for this program in fiscal year 2008, which would discard the hard work 
that States have undertaken to develop this program. LIP has forged 
unique partnerships between public agencies and private landowners, 
including water rights holders, and is being used to emphasize the 
opportunity and importance of proactive conservation of at-risk species 
in private watersheds and landscapes. LIP is perhaps the best working 
model for how to work collaboratively with private landowners to 
proactively addressing the life needs and habitat requirements of 
threatened and endangered species.
                         u.s. geological survey
    The U.S. Geological Survey's Biological Resources Division provides 
critical information for wildlife and habitat management and 
conservation. The Association is concerned that uncontrollables such as 
mandated cost of living increases are not fully funded in the budget 
request. The Association strongly recommends that Congress increase the 
fiscal year 2008 budget for the Biological Resources Division to a 
level that fully funds uncontrollables in order to prevent further 
erosion to essential programs and services.
    Cooperative Research Units.--Fiscal year 2001 was the last time 
Congress fully funded the Cooperative Research Units, thereby allowing 
unit productivity to rise to record levels. Since that was achieved, 
budgetary shortfalls have caused an erosion of available fiscal 
resources, resulting in a current staffing vacancy of 22 positions and 
a corresponding decrease in productivity. Applied research efforts and 
dissemination of research information to States and other cooperators 
has suffered due to the lack of funding for critical research and 
publication of results. In many States, the Cooperative Research Units 
are the research arm of the State fish and wildlife agency, and as a 
result, excellent cooperative relationships have been established. 
Accordingly, the Association strongly recommends that Congress increase 
the fiscal year 2008 budget for the Cooperative Research Unit by $25 
million to fill the vacancies of 22 essential staff necessary to 
achieve full function including a proposed matching fund program, as 
detailed in the Association's Budget Recommendations.
                       bureau of land management
    The Association appreciates the emphasis given to fish and wildlife 
within the Bureau of Land Management's fiscal year 2008 request, but 
recommends increased funding for multi-state conservation strategies to 
benefit at-risk species in Western Grasslands, Shrub-steppe, Hawaiian 
Islands, and Sierra Nevada Foothills. Proposed funding levels will 
continue to present a significant challenge to the BLM to address the 
current levels of activity on public land, without providing the agency 
any capability to enhance its management presence and programs. 
Congress needs to bring BLM's operational budget into parity with the 
other Federal land management agencies.
    The Association supports the Secretary of the Interior's $22 
million Healthy Lands Initiative, $15 million of which would be 
allocated to the BLM which would carry out habitat enhancement projects 
in six regions across the West.
    We also encourage the committee to continue to support the BLM in 
working to integrate collaborative wildlife conservation planning 
efforts into their own activities. As outlined above, every State has 
produced a wildlife action plan. These were developed in concert with 
Federal agency partners, and the Association recommends that Congress 
support the efforts of the BLM to integrate the wildlife action plans 
into their own activities and urge the agency to consult with the 
respective State wildlife agencies to identify collaborative 
opportunities to advance shared wildlife action plan priorities. 
Similarly, the BLM is a participant in the National Fish Habitat Action 
Plan, and we respectfully urge Congress to support the agency in 
adopting those priorities as well.
                          u.s. forest service
    Wildland Fire Management.--We are concerned that management of 
forest fires is consuming an increasing portion of the Forest Service's 
budget, impairing the agency's ability to manage national forest lands, 
fund critical research, and deliver the services to citizens and 
taxpayers. While the Forest Service is working hard to manage fire 
costs within their control, their current ``constrained'' budget 
structure forces increases in the fire program to come at the expense 
of all other Forest Service work. When adjusted for inflation, non-fire 
programs in the Forest Service's budget have dropped by 35 percent from 
2001-2008. We recommend that fire suppression activities be removed 
from Forest Service ``base'' funding, so that the Forest Service is not 
forced to cut other programs in the annual request process in order to 
finance the ever increasing costs of fighting wildfires. In particular, 
we urge that you consider developing a Reserve Fund or Emergency Fund 
funding process.
    Wildlife and Fisheries Habitat Management Program.--The Association 
is deeply concerned that the President's budget for this program 
proposes an approximate 11 percent reduction over the 2006 enacted 
budget. The Association urges Congress to provide $135 million in 
fiscal year 2008. The Association requests that the USFS closely 
coordinate use of these funds with State fish and wildlife agencies to 
recognize and fully utilize the States' authorities for fish and 
wildlife management.
    As with the BLM, the Association recommends that Congress support 
the efforts of the U.S. Forest Service to integrate the National Fish 
Habitat Action Plan and the State wildlife action plans into their own 
activities, and we urge you to encourage the agency to consult with the 
respective State wildlife agencies to identify collaborative 
opportunities to advance shared fish and wildlife priorities.
                                 ______
                                 
       Prepared Statement of the Association to Preserve Cape Cod
    Madame Chairwoman and honorable members of the committee: I 
appreciate the opportunity to provide testimony in support of an 
appropriation of $4 million from the Land and Water Conservation Fund 
for the Cape Cod National Seashore in Massachusetts. I also want to 
take this opportunity to thank the chairman and committee for their 
leadership in supporting land acquisition programs such as the Land and 
Water Conservation Fund, which are so critical to preserving our 
treasured public lands.
    The Association to Preserve Cape Cod (APCC) is the largest and most 
prestigious environmental advocacy organization on Cape Cod, with more 
than 5,000 families comprising its membership. APCC's mission is to 
promote programs and policies that protect the natural resources of 
Cape Cod. As such, APCC has been in the forefront of all of the most 
important efforts to protect Cape Cod's rich natural heritage for 
almost four decades.
    APCC is particularly interested in the Cape Cod National Seashore, 
which we consider to be the shining star of Cape Cod and emblematic of 
all that our organization seeks to safeguard. Cape Cod has a simple 
geography--it is a land of sand and of water. Nowhere is this 
simplicity and grace more apparent than at the Cape Cod National 
Seashore. Thus, when APCC learned that the National Park Service (NPS), 
which manages the Seashore, has the opportunity to acquire the 57-acre 
North of Highland Campground, a family-run private campground within 
the Seashore's congressionally authorized boundary in Truro, we began 
working with The Trust for Public Lands and our U.S. congressional 
delegation, Senators Kerry and Kennedy and Congressman Delahunt, to 
advocate for purchase of this land by the NPS.
    The Cape Cod National Seashore, designated by Congress in 1961 to 
preserve its precious resources for future generations, includes 40 
miles of coastline and boasts some of the world's most beautiful white 
sand beaches. With over 4 million visitors a year, the Cape Cod 
National Seashore is one of the most heavily visited places in the 
National Park system, with peak visitation occurring during the summer 
months.
    There are many recreational opportunities at the Seashore, 
including six swimming beaches--including the popular Head of the 
Meadow Beach that provides some of the most exciting body-surfing 
available in the area. The Seashore has more than 11 miles of self-
guided nature trails, a variety of picnic areas, scenic overlooks, 
historic building tours and many fishing opportunities. The Seashore 
also maintains three bicycle trails that wind through forests and past 
sand dunes, marshes and kettle ponds.
    Nestled in the pines with trail access to the nearby Head of the 
Meadow Beach, the 57-acre North of Highland Campground, is a Seashore 
in-holding completely surrounded by National Park Service lands. It has 
been owned and managed since 1954 as a family-oriented campground. The 
campground operates from mid-May through mid-September and includes 
four bathhouses, a camp store, two dwellings and 237 sites for camping. 
The property also contains seven acres of wetland habitat. Preferring 
not to sell the land to a developer who would likely build houses, the 
owners of the campground have been working with the NPS to place the 
campground in NPS ownership to ensure that it is not developed and 
remains open to the public.
    In fiscal year 2008, an appropriation of $4 million from the Land 
and Water Conservation Fund will protect the final 57 acres of this 
property, helping to ensure that the campground remains open to the 
public, thereby maintaining affordable recreational opportunities for 
the public in one of most heavily visited national parks in the 
country. An initial allocation of $2 in fiscal year 2007 is allowing 
the National Park Service to begin this critical public acquisition.
    Thank you, Madame Chairwoman, for the opportunity to provide this 
testimony in support of the appropriation of $4 million for Cape Cod 
National Seashore.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    James D. Taft, Executive Director, on behalf of the Association of 
State Drinking Water Administrators (ASDWA), is pleased to provide 
testimony to the Interior and Related Agencies Subcommittee on fiscal 
year 2008 Appropriations for the U.S. Environmental Protection Agency.
    ASDWA represents the State drinking water programs in each of the 
50 States and territories in their efforts to ensure the provision of 
safe drinking water to more than 275 million consumers nationwide. 
ASDWA's primary mission is the protection of public health through the 
effective management of State drinking water programs that implement 
the Safe Drinking Water Act (SDWA).
                           summary of request
    ASDWA respectfully requests that, for fiscal year 2008, the 
subcommittee appropriate funding for three State drinking water 
programs at levels commensurate with Federal expectations for 
performance and at levels that continue to ensure appropriate public 
health protection. Specifically, ASDWA requests an appropriation of 
$112 million for the Public Water System Supervision (PWSS) program; 1 
billion for the Drinking Water State Revolving Loan Fund (DWSRF) 
program; and $6 million for State drinking water program security 
initiatives. A more complete explanation of the needs represented by 
these requested amounts and a further explanation of these particular 
requested levels follows.
                      how states use federal funds
    States Need Increased Federal Support to Maintain Public Health 
Protection: State drinking water programs strive to meet their public 
health protection goals through two principal funding programs: the 
Public Water System Supervision Program (PWSS) and the Drinking Water 
State Revolving Loan Fund (DWSRF) Program. These two programs, with 
their attendant State match requirements, provide the means for States 
to work with drinking water systems to ensure that American citizens 
can turn on their taps with confidence that the water is safe to drink 
and that the supply is adequate. In recent years, State drinking water 
programs have accepted additional responsibilities to work with all 
public water systems to ensure that critical drinking water 
infrastructure is protected and that plans are in place to respond to 
disasters both natural and manmade.
    The PWSS Program.--To meet the requirements of the SDWA, States 
have accepted primary enforcement authority for oversight of regulatory 
compliance and technical assistance efforts for 160,000 public water 
systems to ensure that potential health-based violations do not occur 
or are remedied in a timely manner. Going beyond these longstanding 
core responsibilities, since 1996, State drinking water programs have 
participated in the development and implementation of more than 20 new 
Federal regulations and strategic initiatives designed to enhance the 
protection of public health. States are also implementing an array of 
proactive initiatives to protect public health from ``source to tap''--
including source water assessments and controls; technical assistance 
with water treatment and distribution; and enhancement of overall water 
system capacity. State activities go well beyond simply ensuring 
compliance at the tap.
    The DWSRF Program.--In a little over 10 years, States have 
leveraged funding for the DWSRF program into more than $11 billion in 
loans to thousands of communities as a means to help them improve the 
quality and quantity of the water they drink. State drinking water 
programs have also used DWSRF funds to support the technical assistance 
and training needs of small drinking water systems and to help them 
obtain the technical, managerial, and financial proficiency that 
enables them to meet the requirements of the SDWA.
    State Drinking Water Security Responsibilities.--Since the event of 
September 2001, as well as since the recent experiences of Hurricanes 
Katrina and Rita, States have taken extraordinary measures to meet the 
security and emergency response-related needs of the drinking water 
community. State drinking water programs have responded to the 
significant number of requests for assistance, training, information, 
and financial support from the systems under their purview as well as 
support utility-based mutual aid networks. States have also been 
instrumental in providing support and assistance to systems in 
assessing whether a contamination event has occurred and, if so, 
evaluating the magnitude of the public health implications. States have 
devised training and technical assistance programs, initiated new 
communications structures, and begun the work of integrating the 
concepts of enhanced security concerns throughout all aspects of the 
drinking water program.
               why increased funding is critically needed
    States must accomplish all of the above-described activities and 
take on new responsibilities while responding to escalating pressures 
to further cut their budgets, streamline their workforces, and operate 
with less State-provided financial support. State drinking water 
programs have always been expected to do more with less and States have 
always responded with commitment and ingenuity. However, State drinking 
water programs are now in crisis. Congress and the Executive Branch, 
through EPA, have implemented national program guidance calling for 
both States and water systems to continually improve their contaminant 
rule compliance rates. However, many States are now experiencing 
declining compliance rates in the face of declining or stagnant 
financial resources. Decreases in available Federal dollars increase 
the likelihood of a contamination event that puts public health at 
risk.
    Although the 1996 SDWA Amendments authorized the PWSS Program at 
$100 million per year, appropriated amounts have only recently reached 
or come close to that originally-authorized level. ($98.2 million was 
appropriated for the PWSS program in fiscal year 2007.) Of the $1.2 
billion in PWSS grants that States could have received since 1996, 
actual appropriations have only been $949 million through fiscal year 
2006. This level of funding, 11 years after enactment, is now woefully 
inadequate for the enormity of the task faced by State drinking water 
programs. In fiscal year 2006, State drinking water program 
administrators identified an annual shortfall nationally of 
approximately $360 million between available funds and those needed to 
administer their programs. That gap continues to grow and has 
consequences. It is estimated that one-third of the States may not be 
able to conduct timely implementation of major provisions of the newer 
regulations, leaving the work undone or forcing U.S. EPA to undertake 
rule implementation tasks that they may not have the resources or 
expertise to perform. This situation has been illustrated, over the 
past year, in several States being unable to undertake all or part of 
the initial phases of the most recent microbial contaminant/
disinfection by-products rules (known as LT 2/Stage 2). This situation 
could create a significant implementation crisis in several regions of 
the country and ultimately delay implementation of several critically 
needed public health protections.
    Similarly, for the DWSRF, the authorized level of $1 billion per 
year has never been appropriated. States have received less than 80 
percent of the $11 billion authorized for the DWSRF program since 1996. 
This underfunding, coupled with the decline in the spending power of 
these dollars due to inflation and cost of living increases, has 
severely hampered State drinking water programs' ability to fulfill 
their mission and provide critically needed support to drinking water 
systems.
      fiscal year 2008 request levels and sdwa program obligations
    The PWSS Program.--The State PWSS program request level in the 
administration's budget is $99.1 million. This reflects an alarming 
downward trend from prior year administration requests and the enacted 
budget high point of $101.9 million appropriated just 3 years ago--in 
fiscal year 2004. State drinking water programs are hard pressed to 
understand a justification for the decreased funding since this is the 
year when they must begin critical phases of implementation of the LT 
2/Stage 2 Rule cluster--two very sophisticated and complex initiatives 
as well as prepare to implement the recently promulgated Ground Water 
Rule and soon-to-be promulgated changes to the Lead and Copper Rule. 
States want to offer the flexibilities allowed under these and other 
rules; however, fewer dollars mean less opportunities to work one-on-
one with water systems to meet their needs. Looking ahead, States 
expect that new rules for contaminants on EPA's Contaminant Candidate 
List will be forthcoming. Revisions to the Total Coliform Rule and 
possibly, a new distribution system rule are planned over the next few 
years. The number of regulations requiring State implementation and 
oversight as well as performance expectations continue to grow while, 
at the same time, Federal funding support necessary to maintain 
compliance levels and meet expectations is in decline.
    ASDWA, therefore, respectfully requests that the fiscal year 2008 
funding for the PWSS program be appropriated at $112 million. This 
figure represents a baseline of $101.9 million as appropriated in 
fiscal year 2004 plus an additional 2.5 percent increase over the past 
three fiscal years and into fiscal year 2008 to adjust for inflation. 
(Note: ASDWA also calls the committee's attention to an alternative 
States' Budget for fiscal year 2008 developed by the Environmental 
Council of the States (ECOS). The level recommended in that budget for 
the PWSS program, $104,170,000, would represent a welcome increase in 
the appropriated amount of recent years. The PWSS appropriation should 
be at least that amount; however, as noted above, we believe a 
significantly greater appropriation is warranted.)
    The DWSRF Program.--The fiscal year 2008 DWSRF program request in 
the President's budget is ``flat-lined'' at $842 million and reflects 
no change from the fiscal year 2007 request and continues the downward 
funding trend of the 3 previous years--an $8 million decrease. The 
primary purpose of the DWSRF is to improve public health protection by 
facilitating water system compliance with national primary drinking 
water regulations through the provision of loans to improve drinking 
water infrastructure. EPA's most recent National Drinking Water 
Infrastructure Needs Survey (2003) indicated that water system needs 
total $276.8 billion over the next 20 years to comply with SDWA 
mandates. Despite these documented needs, the maximum amount requested 
by the administration for the DWSRF has been $850 million and Congress 
has appropriated less than those requested levels. Without reasonable 
increases, the DWSRF will never be able to meet the SDWA compliance and 
public health protection goals for which it was designed.
    ASDWA, therefore, respectfully requests that the fiscal year 2008 
funding for the DWSRF program be appropriated at authorized level of $1 
billion.
    Security Responsibilities.--The administration's fiscal year 2008 
budget request includes $4.9 million for State drinking water programs 
to continue to expand their security activities, particularly for small 
and medium systems and support utility-based mutual aid networks for 
all drinking water systems. While States are appreciative of the 
funding, once again it is difficult to understand why the request level 
is decreased from previous years. Given the realities exemplified by 
ongoing Homeland Security initiatives, the anticipation of metrics 
under the National Infrastructure Protection Plan, and the lessons 
learned from Hurricanes Katrina and Rita, State drinking water programs 
are working more closely than ever with their water utilities to 
evaluate, assist, and support drinking water systems' preparedness and 
response capabilities. Beyond the mandates of the Bioterrorism Act of 
2002, States are being directed to expand their efforts to reflect an 
``all hazards'' approach to water security and to focus their efforts 
toward smaller water systems not covered by the act. These systems are 
much less likely to have the organizational or financial wherewithal to 
better secure either their physical or cyber infrastructures and rely 
on the States to help them meet their needs and identify potential 
funding sources (DWSRF). There is no dedicated fund to support or 
assist these smaller systems.
    ASDWA, therefore, respectfully requests that the fiscal year 2008 
funding for the State security initiatives program be appropriated at 
$6 million. This figure represents a maintenance baseline consistent 
with previous year funding request levels adjusted for the eroding 
effects of inflation since the originally appropriated level of $5 
million in fiscal year 2002.
                               conclusion
    In conclusion, ASDWA respectfully recommends that both State and 
Federal fiscal year 2008 budget needs for the provision of safe 
drinking water be adequately funded by Congress. The subcommittee can 
meet those needs through relatively modest increases in funding over 
the administration's requested fiscal year 2008 budget or by a 
``budget-neutral'' reallocation of funding within the overall budget of 
the U.S. Environmental Protection Agency. ASDWA calls the 
subcommittee's attention to the afore-mentioned alternative State-
recommended fiscal year 2008 budget developed by the Environmental 
Council of the States (ECOS) as a constructive starting point for these 
discussions.
    A strong drinking water program supported by the Federal-State 
partnership will ensure that the quality of drinking water in this 
country will not deteriorate and, in fact, will continue to improve--so 
that the public can be assured that a glass of water is safe to drink 
no matter where they travel or live. States are willing and committed 
partners. Additional Federal financial assistance is needed, however, 
to meet ongoing and ever growing regulatory and security needs. In 
1996, Congress provided the authority to ensure that the burden would 
not go unsupported. In 2007, ASDWA asks that the promise of that 
support be realized.
    ASDWA appreciates the opportunity to provide this testimony to the 
subcommittee for its consideration and stands ready to work with the 
subcommittee to ensure the continued protection of public health 
through provision of safe drinking water. Should questions or the need 
for additional information arise, please contact James D. Taft, ASDWA's 
Executive Director, at 703-812-9507.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association
    This testimony pertains to the Biomass Energy Research 
Association's (BERA) recommendations for fiscal year 2008 in support of 
appropriations for the U.S. Department of Agriculture (USDA) that are 
related to bioenergy. This includes support for the USDA Forest Service 
(USDAFS) for bioenergy-related R&D under the President's Healthy Forest 
Initiative and through the USDAFS Forest Products Laboratory. Both 
activities are conducted under the auspices of the Natural Resources 
and Environment program of the U.S.D.A. This testimony also supports 
the conduct of bioenergy-related research by the Agricultural Research 
Service (ARS) and the Cooperative State Research, Education, and 
Extension Service (CSREES) under Research, Education and Economics 
programs of the U.S.D.A. In total, BERA recommends that $106,500,000 be 
appropriated for these efforts in fiscal year 2008. A separate 
statement has been prepared for submission on other biomass energy RD&D 
performed by the Department of Energy's (DOE) Office of Energy 
Efficiency and Renewable Energy (EERE) under the Energy and Water 
Development Bill. Specific line items are as follows:
  --$40,000,000 under the President's Healthy Forest Initiative for the 
        reduction of hazardous fuels via removal of forest thinnings, 
        waste and underbrush, including infrastructure development.
  --$10,000,000 to continue the Biobased Products and Bioenergy 
        Research (BPBR) program of the USDAFS Forest Products 
        Laboratory.
  --$30,000,000 to support renewable energy research by the 
        Agricultural Research Service (ARS) to maximize production, 
        harvesting and storage of plants for bioenergy purposes, 
        including $10 million for collaborative efforts with the U.S. 
        Department of Energy on harvesting and other production 
        equipment research.
  --$25,000,000 to support research under the National Research 
        Initiative on energy crops and crop residues with the specific 
        purpose of creating viable energy resources.
  --$1,000,000 to support interagency coordination on planning and 
        infrastructure development.
  --$500,000 to help re-establish the Biomass Conference of the 
        Americas (co-sponsored with DOE).
                               background
    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a non-profit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research on the economic production of energy and 
fuels from freshly harvested and waste biomass, and to serve as a 
source of information on biomass RD&D policies and programs. BERA does 
not solicit or accept Federal funding for its efforts.
    There is a growing realization in our country that we need to 
diversify our energy resources and reduce reliance on foreign oil. 
Economic growth is fueling increasing energy demand and placing 
considerable pressure on our already burdened energy supplies and 
environment. The import of oil and other fuels into the United States 
is growing steadily and shows no sign of abating. Industry and 
consumers both are being faced with rapidly rising costs for petroleum 
and natural gas, which are vital to our economy. A diversified energy 
supply will be critical to meeting the energy challenges of the future 
and maintaining a healthy economy with a competitive edge in global 
markets. The recently announced Biofuels Initiative at the DOE provides 
funding to support the use of cellulosic biomass as a feedstock for 
ethanol, including wood and forestry resources, with the potential to 
replace as much as 30 percent of domestic gasoline demand in 2030. We 
support this Initiative, as well as the administration's target for 
supplanting 20 percent of our gasoline consumption in 10 years (by 
2017) through biofuels and efficiency gains.
    Forest biomass energy plantations that provide feedstocks for 
forest biorefineries producing paper products as well as fuels and 
biopower could make an important contribution to our energy supply 
while providing a boost for rural economies and reducing wildland 
forest fires. Wood also can be used instead of petroleum and natural 
gas to produce many high-value products such as plastics and chemicals. 
However, targeted research is needed to make this a reality.
    Other cellulosic feedstocks, such as agricultural residues and 
dedicated energy crops (short rotation poplar, switchgrass) are 
expected to be a primary resource for bioenergy in the future. However, 
research will be needed to overcome issues of recalcitrance, low 
yields, cost effective harvesting and storage, and other challenges to 
ensure these resources are viable as future bioenergy feedstocks. Some 
of this research is ongoing at the U.S. Department of Energy; however, 
there is a role for R&D in this area at USDA as well. Without 
additional targeted research with significant Federal investment, the 
ambitious goals set by this administration will not likely be met, nor 
will the real promise of a domestic bioindustry be realized.
              bera recommendations for usda bioenergy r&d
    BERA's recommendations support key areas that will contribute to 
sustainable forestry as well as the creation of viable renewable 
resources as part of a diversified energy supply. Specific 
recommendations are:
    Support the President's Healthy Forest Initiative: Reduction in 
Hazardous Fuels via Forest Waste Recovery for Fuel and Feedstocks.--
Large, repetitive, wide-spread losses have occurred in the Nation's 
forests over the last several years because of wild fires. Such fires 
are supported by the accumulation of dense undergrowth and brush 
coupled with poor forest management practices, insect infestation and 
disease that increase the number of dead trees, and other factors. As a 
result, loss and injury to fire fighters and others, large property, 
financial, and esthetic losses, and environmental harm have occurred in 
commercial as well as private and Federally owned forests. BERA 
believes that this problem can be optimally addressed by conducting a 
targeted RD&D program to develop economic, practical methods for 
collection and removal of forest wastes, underbrush, and small-diameter 
tree thinnings, for the purpose of using them as energy resources. 
Forest wastes could be combined with large-scale forest biomass energy 
plantations to provide fuel and feedstocks for forest biorefineries 
producing fuels and high-valued products. Funding should be provided to 
start an RD&D program in this area as soon as possible. Potential R&D 
and technology development issues related to infrastructure should be 
explored in cooperation with DOE.
    Continue to Conduct Wood-based Feedstock Research at the USDAFS 
Forest Products Laboratory.--Critical research to develop, plant, grow, 
and manage energy crops, particularly forest biomass, for conversion to 
cost-competitive energy and fuels, was once conducted by the DOE but 
has since been terminated. While DOE's feedstock production program has 
made significant research contributions over the last 25 years, BERA 
strongly endorses the idea that the USDA should assume responsibility 
for this program. The USDA has a long history in biomass production and 
is recognized worldwide for its accomplishments in developing advanced 
agricultural and forest biomass production methods. BERA strongly 
recommends that RD&D on woody biomass production for dedicated energy 
and feedstock uses be continued by the USDAFS Forest Products 
Laboratory Biobased Products and Bioenergy Program (BPBR) under the 
Interior and Related Agencies Bill. This program is developing new and 
more economical technologies for the production, management, harvest, 
and utilization of woody materials for energy and high-value products.
    Support and Expand Renewable Energy Research by the Agricultural 
Research Service (ARS).--This important research is needed to maximize 
production, harvesting and storage of plants for bioenergy purposes. 
While the focus is on R&D to effectively use energy crops and residues 
and maximize their conversion to biofuels and bioenergy, there is also 
the need to develop the production equipment and practices needed to 
ensure a viable supply infrastructure at the large volumes necessary 
for an expanded bioindustry. In addition to existing program, we are 
recommending research be initiated, in collaboration with programs at 
the U.S. Department of Energy, on harvesting and other production 
equipment as well as storage and transportation. This research should 
include demonstration and validation of systems at the appropriate 
scale.
    Support Bioenergy Research Under the National Research 
Initiative.--This includes considerable expansion of R&D to enhance the 
use of energy crops and crop residues as viable energy resources. In 
addition to current activities that cover genomics, crop yields, and 
other areas, we recommend activities with a specific focus on the 
ecological and environmental sustainability of using energy crops and 
residues for bioenergy, including impacts to water, soil and the carbon 
balance. Definitive and long term research is needed, and should be 
initiated now, to understand the true impacts of removing agricultural 
residues from the soil, increased burdens on the water use and 
aquifers, and the potential environmental issues of increasing use of 
fertilizers, pesticides and other agricultural chemicals that may 
result from residue removal. This research should go beyond models and 
simulations to real world testing and monitoring of soil and water 
conditions under residue removal scenarios.
    Interagency Coordination Activities.--BERA strongly urges close 
interagency coordination between USAD and DOE, EPA, DOT, DOC, NSF, DOD, 
and others in the areas of Basic Science, Feedstock Infrastructure and 
Distribution Infrastructure (pipelines, blending terminals, rail and 
other transport). This should include collaboration on RD&D as 
appropriate, planning, and clarification of agency roles to eliminate 
duplication, fine-tune pathways to program goals and maximize the 
return on the Federal investment.
    Biomass Conference of the Americas.--BERA requests DOE/USDA to 
consider support to re-establish the biannual Biomass Conference of the 
Americas (or similar venue), which would be partly subsidized by 
industrial and other sponsors, and organized through BERA in 
coordination with USDOE/USDA.
                              conclusions
    Expansion of the USDA programs as recommended by BERA enables a 
considerably higher probability of significantly increasing the 
contribution of biomass to primary U.S. energy demand through use of 
forestry residues while eliminating a national fire hazard, encouraging 
sustainable energy crop production, improving the cost effectiveness 
and diversity of biomass resources for bioenergy, and providing 
opportunities for rural development.
    BERA recommends that all aspects of the feedstock infrastructure--
from sustainable production of high yield crops to cost-effective 
delivery of those crops to the bioenergy customer--be developed with 
support from USDA, as outlined above. While grain crops are a viable 
solution for the near term for bioenergy, they will not provide a 
sustainable solution at the volumes needed to really impact our energy 
use. Thus, BERA includes R&D recommendations to ensure the availability 
of a wide diversity of non-food cellulosic feedstocks for bioenergy, 
such as dedicated energy crops and agricultural residues, while 
considering the challenges of environmental and societal sustainability 
and maintaining the economic vitality of America's farmers.
                                 ______
                                 
     Prepared Statement of the Bird Conservation Funding Coalition
    The Bird Conservation Funding Coalition (BCFC) consists of national 
organizations who together advocate for Federal funding to advance bird 
conservation. This year we ask that you once again provide funding to 
programs we believe are crucial for maintaining healthy and abundant 
bird populations throughout the United States. These programs are:
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the United States, 
Latin America, and the Caribbean, where approximately 5 billion birds 
representing over 500 species spend their winters, including some of 
the most endangered birds in North America. Projects include activities 
to benefit bird populations and their habitats such as research and 
monitoring, law enforcement, and outreach and education. The BCFC 
respectfully requests the committee prioritize fiscal year 2008 funding 
for the Neotropical Migratory Bird Conservation Act Grants Program at 
$5.5 million, the currently authorized level, an increase of $1.5 
million from the appropriated amount in fiscal year 2007.
    Joint Ventures are regionally based partnerships of public and 
private organizations dedicated to the delivery of bird conservation 
within their boundaries. Originally formed to support programs 
involving waterfowl and wetlands, the Migratory Bird Joint Ventures 
have recently adopted a 5-year growth strategy to embody an ``all-bird 
approach,'' to provide additional capacity for partnership development 
and enhancement, and to expand monitoring and assessment efforts. The 
BCFC respectfully requests the committee allocate $15.1 million for 
fiscal year 2008, an increase of $4.3 million from the appropriated 
amount in fiscal year 2007.
    USFWS Science and Science Support provides invaluable information 
on the status and trends of bird species necessary for sound management 
decisions. This scientific information helps to ensure that funds are 
allocated wisely within all other BCFC priorities. The slight increase 
in funds requested by the BCFC will help to close a multimillion dollar 
shortfall which currently exists within the Office of Migratory Bird 
Management. Therefore, the BCFC respectfully requests the committee 
provide $29.52 million for this important program, an increase of $2.58 
million in fiscal year 2007 and consistent with President Bush's fiscal 
year 2008 budget mark.
    The North American Wetlands Conservation Act (NAWCA) provides 
funding for conservation projects for the benefit of wetland-associated 
migratory birds in the United States, Canada, and Mexico. More than 
half of the original wetlands in the United States. have been lost. 
This has contributed to the steady decline of migratory birds. NAWCA, 
in existence since 1989, has preserved over 20 million acres of 
wetlands by leveraging $573 million in Federal funds with more than 
$1.6 billion in partner contributions. The BCFC respectfully requests 
the committee prioritize fiscal year 2008 funding for NAWCA at $50 
million, an increase of $10.6 million appropriated in fiscal year 2007.
    State Wildlife Grants fund is the Nation's core program for 
preventing wildlife from becoming endangered, and supports a wide 
variety of wildlife-related projects by State fish and wildlife 
agencies throughout the United States. In order to receive Federal 
funds through the State Wildlife Grants Program, Congress charged each 
State and territory with developing an ``action plan.'' Every State and 
territory submitted their wildlife action plan to the U.S. Fish and 
Wildlife Service for review (and approval) by the October 1, 2005 
deadline. The State Wildlife Action Plans are the result of a 
collaborative effort by scientists, sportsmen, conservationists, and 
other members of the community. The BCFC respectfully requests the 
committee allocates $85 million for fiscal year 2008, an increase of 
$17.5 million appropriated in fiscal year 2007.
    Wildlife Without Borders (WWB), within USFWS Division of 
International Conservation, is a mainstay of bird conservation in 
Mexico, Central America, and the Caribbean. Since the termination of 
the USAID funding to the National Fish and Wildlife Foundation for its 
Neotropical Migratory Bird Program, the WWB program is more critical 
than ever. These programs, which typically leverage $4 for every 
appropriated $1, are a foundation for long-term conservation efforts, 
because they focus on developing in-country capacity. At this time, 
there are four WWB programs, each covering an extensive area: Latin 
America and the Caribbean; Mexico; Russia and East Asia; the Near East, 
South Asia, and Africa. The BCFC respectfully requests the committee 
prioritize fiscal year 2008 funding for WWB at $4.8 million for fiscal 
year 2008, an increase of $500,000 over fiscal year 2007.
    International Programs, within the USDA Forest Service, supports an 
array of extremely effective bird conservation projects with a 
relatively small budget. Among these are restoration of Kirtland's 
Warbler with programs in Michigan and the Bahamas, and conservation of 
breeding habitat in Canada's Boreal Forest. The BCFC supports an 
increase in funds which would expand and accelerate work on these 
projects, as well as projects benefiting the rapidly-declining Cerulean 
Warbler and the mangroves and wetlands of Mexico's Sonora Coast and San 
Pedro River watershed. The BCFC respectfully requests the committee 
provide $8 million for fiscal year 2008, an increase of $1.1 million 
over fiscal year 2007.
    Again, we thank you for your steadfast support of these critically 
important programs.
                                 ______
                                 
                 Prepared Statement of Rosemary S. Bunn
    Thanks so much for considering our little perfect part of the world 
here in Mason Township, Maine. We have a 600+ acre parcel up here at 
Haystack Notch that is on your agenda for funding during the 2008 
fiscal year. Although I do not know a lot about all the different 
agencies who do all this (and I know you have stacks of papers to 
read!), I do know that the White Mountains National Forest is seeking 
your help for funds for the U.S. Forest Service to purchase this. 
Although I am originally from Florida, I have a small little camp up 
there and it is absolutely part of my heart. I hope it gets funded.
    I lost my husband, Denny, to cancer in 2003, but one of the last 
things he wanted was to come up to our camp in Mason Township. Denny 
was a triathlete and it was a place where he had often run, mountain 
biked, and just generally enjoyed. There are a few full-time residents 
and also some other summer people like us and all of us had become 
quite close. It was perfect and I am glad we got to make the trip.
    I now live here full time and can tell you that on a year-round 
basis, Haystack Notch is a rare find in our country. The trees, 
wildlife, streams, and ecological setting are pristine and classic. It 
is possible to hear the wind marching down from the top of the Notch, 
watch the sun peek through the deep foliage, and nothing beats the 
smell of balsam pines. You know, if you get the chance, I would love to 
have you come up for a visit. My camp is close to a stream and you 
could have a first-hand look at Mother Nature and her work! In a year 
which seems to be really gearing up for positive environmental work, 
this would be a great move.
    OK, I ramble too much and you have a lot of work to do! Thanks 
again for considering the parcel of land and also for all the work you 
do for us.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                    California Ozone Study Coalition
    Madam Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2008 funding request of $400,000 
from the Environmental Protection Agency for CCOS. These funds are 
necessary for the State of California to address the very significant 
challenges it faces to comply with new national ambient air quality 
standards for ozone and fine particulate matter. The study design 
incorporates technical recommendations from the National Academy of 
Sciences (NAS) on how to most effectively comply with Federal Clean Air 
Act requirements.
    First, we want to thank you for your past assistance in obtaining 
Federal funding for the Central California Ozone Study (CCOS) and 
California Regional PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study 
(CRPAQS). Your support of these studies has been instrumental in 
improving the scientific understanding of the nature and cause of ozone 
and particulate matter air pollution in Central California and the 
Nation. Information gained from these two studies is forming the basis 
for the 8-hour ozone, PM<INF>2.5</INF>, and regional haze State 
Implementation Plans (SIPs) that are due in 2007 (ozone) and 2008 
(particulate matter/haze). As with California's previous current SIPs, 
all future SIPs will need to be updated and refined due to the 
scientific complexity of our air pollution problem. Our request this 
year would fund the completion of CCOS to address important questions 
that won't be answered with results from previously funded research 
projects.
    To date, our understanding of air pollution and the technical basis 
for SIPs has largely been founded on pollutant-specific studies, like 
CCOS. These studies are conducted over a single season or single year 
and have relied on modeling and analysis of selected days with high 
concentrations. SIPs are now more complex than they were in the past. 
The National Academy of Sciences (NAS) now recommends a weight-of-
evidence approach that will involve utilizing more broad-based, 
integrated methods, such as data analysis in combination with seasonal 
and annual photochemical modeling, to assess compliance with Federal 
Clean Air Act requirements. This will involve the analysis of a larger 
number of days and possibly an entire season. In addition, because 
ozone and particulate matter are formed from some of the same emissions 
precursors, there is a need to address both pollutants in combination, 
which CCOS will do.
    Consistent with the NAS recommendations, the CCOS study includes 
corroborative analyses with the extensive data provided by past 
studies, advances the state-of-science in air quality modeling, and 
addresses the integration of ozone and particulate pollution studies. 
In addition, the study will incorporate further refinements to emission 
inventories, address the development of observation-based analyses with 
sound theoretical bases, and includes the following four general 
components:
    Performing SIP modeling analyses--2005-2011
    Conducting weight-of-evidence data analyses--2006-2008
    Making emission inventory improvements--2006-2010
    Performing seasonal and annual modeling--2008-2011
    CCOS is directed by Policy and Technical committees consisting of 
representatives from Federal, State, and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study, are landmark 
examples of collaborative environmental management. The proven methods 
and established teamwork provide a solid foundation for CCOS.
    For fiscal year 2008, our Coalition is seeking funding of $400,000 
from the EPA through Clean Air funds.--The requested funds would be 
used in conjunction with other funding to conduct weight-of-evidence 
data analyses, which will help address future SIP needs as well as the 
NAS recommendations. This funding will also allow for computational 
improvements and air quality modeling validation studies that are 
associated with multi-pollutant air pollution assessments for extended 
periods (e.g. seasonal or annual). These are necessary to ensure that 
models are representing the results for the right reasons. The U.S. EPA 
has a direct stake in, and will benefit from, the CCOS program. This 
program will further the development of corroborative analysis methods 
and improve the fundamental science upon which to base future SIPs in 
California and nationwide.
    California should not bear the entire cost of the study for several 
reasons. There is a national need to address issues regarding air 
quality modeling, especially for long-term multi-pollutant scenarios. 
The study itself is very cost-effective since it builds on other 
successful efforts including the 1990 San Joaquin Valley Ozone Study 
and the current California Regional PM<INF>10</INF>/PM<INF>2.5</INF> 
Air Quality Study. Use of models for future ozone SIPs (and updating 
existing SIPs) is a national issue. The Federal Government should fund 
continuing efforts to improve the performance of models used in SIPs. 
Much of the information generated by CCOS will further the fundamental 
science of air quality modeling which makes it valuable from a national 
perspective.
    Thank you very much for your consideration of our request.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Coalition
    Mr. Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior Appropriations Bill for fiscal year 2008.
    First, the Coalition supports the President's budget request for 
the Department of Interior's Cooperative Endangered Species 
Conservation Fund, especially funding for HCP land acquisition.
    Second, the Coalition urges the subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President. The additional funding requested by the Coalition 
anticipates that $1 million will be needed by the Kern County program 
to be used for purposes of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP. The County's local oil and gas production 
industry and Water Districts have contributed over $450,000 to the 
development of this program. In 1997, the U.S. Fish and Wildlife 
Service allocated $500,000 of Federal Endangered Species Act Section 6 
funds to assist in program implementation. The California State 
Government has authorized $1 million to augment the Federal funds. In 
order to secure the $3 million total necessary to assist in the 
implementation of the plan, we will require $1 million for fiscal year 
2008 and $500,000 for fiscal year 2009.
    The Coalition requests that the subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and urgency support this request.
    Kern County's program is unique from other regions in the Nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 11 wildlife 
species and 14 plant species covered as threatened or endangered under 
the program. The potential for conflict with the Federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities, water conveyance efforts and the urbanization that is 
occurring. Since Kern County is the top oil producing county in the 
Nation and experiencing rapid urban growth, potential conflicts with 
the ESA and their resolution through a proactive conservation program 
has significant national importance.
    In recognition of the conflicts posed to economic growth by Federal 
and State endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish and Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Division of Oil and Gas and Geothermal Resources, California Department 
of Fish and Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and Federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, water conveyance and other industry 
activities to continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, State, and local government agencies, as well as the oil and 
gas industry, agricultural interests, utilities and environmental 
groups.
    Kern County's Valley Floor Habitat Conservation Plan is one of the 
largest and most diverse endangered species conservation programs under 
development in the Nation encompassing over 3,110 square miles. The 
program represents a departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it is based on an incentive-
based system of selling or trading habitat credits in an open market. 
This innovative approach, for the first time, provides landowners with 
real incentives and more importantly, the ability to choose how best to 
manage their own private property. The KCVFHCP is in the final stages 
of preparation. The HCP document is completed. An environmental impact 
statement is being prepared for public review in the near future. Final 
approval will occur in 2008.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. The KCVFHCP program will be completed in 2008, provided 
there is the necessary Federal funding for the acquisition of habitat 
to mitigate for oil and gas operations and development. Additional 
funding is critical to completing the HCP. This is one of the final 
steps necessary to implement the conservation strategy. Because of the 
extensive private, local, and State government financial support that 
went into the development of this program, Federal participation in 
program implementation will demonstrate that the burden of ESA 
compliance is not being placed exclusively on private property owners. 
Program funding will also contribute to eventual species recovery.
                         program funding needs
    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
State and Federal funding received in 1997) that could be funded in 
increments over the first 2 years of the program. The purpose of this 
funding is described as follows:
Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3.0 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.
Urban Development/County Infrastructure Issue
    The conservation program includes an Urban Development/County 
Infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws which will encourage the owners of such 
properties to offer lands for the benefit of species conservation. 
Protected species of plants and animals will benefit from a program 
that promotes private property owners to conserve permanent habitat 
preserves consistent with the objectives of the ESA.
Water District Activity Issue
    A water district strategy is included un the program address 
Covered Species protection duet to the construction of new facilities 
and the operation and maintenance of existing water management and 
conveyance facilities. The Covered Species will benefit form reduced 
and less intrusive operation and maintenance measures than have been 
conducted historically due to concerns for conflicts with endangered 
species laws.
Federal Funding Support will Augment Local Government and Private 
        Industry Efforts to Comply with the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and urban development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair Federal share of financial support for this 
important effort. This unique cooperative partnership involving State 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
subcommittee's consideration of this request for a fiscal year 2008 
appropriation to support implementation of this significant program.
                                 ______
                                 
     Prepared Statement of the California State Coastal Conservancy
                            project requests
    Funding for the Don Edwards San Francisco Bay Wildlife Refuge (FWS, 
Partners for Fish and Wildlife)--$7,000,000
    Monitoring of San Francisco Bay Salt Ponds (USGS, Biological 
Research and Monitoring)--$900,000
                                summary
    The following testimony is in support of the California State 
Coastal Conservancy's fiscal year 2008 Interior and Environment 
Appropriations request. The Conservancy respectfully requests needed 
funding for the following critical projects: $7 million, U.S. Fish and 
Wildlife Service, Partners for Fish and Wildlife Program (Base Budget 
would be preferable; Partners for Fish and Wildlife Program is second 
choice) and $900,000, U.S. Geological Survey, Biological Research and 
Monitoring. Both of these requests are for the South Bay Salt Pond 
Restoration Project.
                         conservancy background
    The California Coastal Conservancy, established in 1976, is a State 
agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore. We work in partnership with local governments, other public 
agencies, nonprofit organizations, and private landowners.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy: protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has: 
helped build more than 300 access ways and trails, thus opening more 
than 80 miles of coastal and bay lands for public use, assisted in the 
completion of over 100 urban waterfront projects, joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups, making local community involvement an integral part of the 
Coastal Conservancy's work and completed projects in every coastal 
county and all nine San Francisco Bay Area counties. In addition, we 
currently have over 300 active projects that are benefiting the 
citizens of California.
         south san francisco bay salt pond restoration project
    This project is of national significance because in conjunction 
with the Napa River Salt Marsh Restoration project it will create the 
largest restored wetland on the west coast of the United States. In 
addition, the project will provide extensive habitat for Federally 
endangered species and migratory waterfowl and will also provide tidal 
and fluvial flood protection in South San Francisco Bay protecting 
approximately 42,800 acres, 7,400 homes and businesses, and significant 
urban infrastructure, to include major highways, hospitals and airport 
facilities. Finally, the project will also improve wildlife-oriented 
public access and recreational opportunities. The combination of these 
extensive benefits make the project of critical importance to the State 
of California and the region which is evidenced by the amount of 
support this project enjoys in local, State and Federal circles.
    In order to continue to advance this important study it is 
imperative that local interests and the Federal Government work 
together to ensure a reliable funding stream for the project. In 
accordance substantial cost-sharing has already begun among the land 
management agencies. The U.S. Fish and Wildlife Service contributed $8 
million toward the $100 million acquisition of the salt ponds. The 
State of California provided $72 million and the Hewlett Foundation, 
Packard Foundation, Moore Foundation, and Goldman Fund provided $20 
million. The foundations are providing an additional $15 million for 
restoration planning and $9 million for land management. The State of 
California is providing over $8 million for planning and $6 million for 
land management.
                       fish and wildlife funding
    For the upcoming fiscal year, we respectfully request the inclusion 
of $7,000,000 in funding for the Don Edwards San Francisco Bay National 
Wildlife Refuge for continued management and maintenance.
    The Don Edwards San Francisco Bay National Wildlife Refuge is now 
managing 9,600 acres of the recently acquired South Bay Salt Ponds that 
were acquired from Cargill in 2003. In order to effectively manage 
these lands, including installation and management of water control 
structures, levee maintenance, and monitoring of salt ponds increased 
funding is needed through the Department of Fish and Wildlife. In 2004 
$460,000 was added by the President to the Refuge's base budget in and 
$540,000 in appropriations in fiscal year 2005 and 2006 have allowed 
for the successful implementation of interim management of the site. 
The cost of maintenance has increased over what had originally been 
estimated by Cargill and an additional $1,000,000 is needed for levees 
maintenance to protect Silicon Valley from tidal flooding prior to 
implementation of the permanent flood control solution by the Corps, 
which will not commence until at least 2012 and will require years to 
complete.
                              usgs funding
    We respectfully request the inclusion of $900,000 in funding for 
the United States Geological Survey for the purpose of monitoring the 
San Francisco Bay.
    The funds being requested for fiscal year 2007 would be used by the 
Geological Survey to conduct interdisciplinary monitoring, specifically 
USGS will be engaging in biological, hydrological, and water quality 
studies of Salt Ponds in San Pablo Bay and San Francisco Bay. This 
monitoring is essential to the health of the Bay Area and the future of 
the project as it will be critical in shaping the outcome of the 
feasibility study and future design and implementation of the project. 
Without the proposed monitoring activities, there will be little to no 
understanding of the benefits and impacts of the restoration activities 
that are being planned by the Army Corps of Engineers and local 
sponsors. The State of California is providing gap funding to USGS, but 
cannot continue to fund the monitoring without assistance from the 
Federal Government.
                                 ______
                                 
           Prepared Statement of the Cascade Land Conservancy
    Cascade Land Conservancy is supporting four funding requests from 
the Land and Water Conservation Fund and one for the Forest Legacy 
Program in Washington State in fiscal year 2008. These will protect 
wildlife habitat, sustain forest management, and improve recreation 
opportunities. They will also help achieve the goals of The Cascade 
Agenda, a 100 year vision for the region developed by citizens. We urge 
you to fully fund these important projects.
                land acquisition--national park service
Mount Rainier National Park--Carbon River--$3 million
    These funds would allow the National Park Service to acquire 
approximately 200 acres within the 800-acre Mount Rainier National Park 
Expansion Area, which was established by the Mount Rainier National 
Park Boundary Adjustment Act of 2004 (Public Law 108-31). The area 
includes frontage on the wild and meandering Carbon River that flows 
from the glaciers of Mount Rainier. It provides habitat for salmon, 
steelhead and terrestrial species.
    This scenic property will be the site for the new northwest 
entrance to the park, replacing facilities along a road frequently 
washed out by floodwaters from the Carbon River. Thus, along with 
providing park visitors improved access, the new entrance will reduce 
the cost of road repairs for taxpayers. A new campground is also 
planned to be built near the entrance above the floodplain. 
Conservation of these properties will help connect the surrounding 
wildlife corridors and protect the ecosystem health of the Carbon River 
Valley, linking the Fairfax Forest to the north, the National Park to 
the east, and the proposed pathway of the Foothills Rails-to-Trails 
corridor. Pierce County has invested in other properties along the 
Carbon River that complement this expansion of the Mount Rainier 
National Park.
                    land acquisition--forest service
Central Cascade Ecosystem Land Acquisition--Big Creek--$1.3 million
    This request would allow the Forest Service to acquire key 
inholdings in the central Cascade Mountains, enhancing the protection 
of a major wildlife corridor. Significant sums from Federal, State, 
county, city and private sources have been invested to conserve lands 
in this area. Congress has appropriated nearly $60 million for land 
acquisition in the central Cascades over the past 6 years.
    Among several parcels of land central to conservation in this 
ecosystem, one stands out as highest priority--the 640-acre Big Creek 
parcel on Manastash Ridge, which is surrounded by the Wenatchee 
National Forest. This parcel contains late successional forest habitat, 
including one mile of Big Creek, which supports elk, deer, spotted owl 
and other species of wildlife, some of which are listed under the 
Endangered Species Act by the U.S. Fish and Wildlife Service. The 
parcel also contains portions of a roadless area, which if acquired by 
the Forest Service, would link to other designated roadless areas in 
the Wenatchee National Forest. Big Creek is a tributary of the Yakima 
River.
    Acquisition of the Big Creek parcel by the Forest Service would 
accomplish a number of conservation goals, some of which were 
identified in the original 1998 Plum Creek Land Exchange, which was 
never completed. These include:
  --No new roads and no logging
  --Preserving fish and wildlife habitat
  --Allowing USFS to apply consistent land management practices in the 
        area
  --Returning more than 5,000 acres to the Roadless Area Inventory
Wild Sky Wilderness--Wallace River--$1.5 million
    This funding would allow the Forest Service to acquire 470 acres 
located in the Mount Baker-Snoqualmie National Forest. The properties 
are identified as priority acquisitions in the Wild Sky Wilderness 
legislation (H.R. 886) which passed the House recently. The property is 
within 2 hours drive for over 2.5 million Washington residents, 
including those residents in Seattle, Everett, and Tacoma. Recreation 
in the area include fishing, hiking, mountain climbing and wildlife 
watching.
    Wallace River is an important source of clean water for critical 
salmon habitat in the Skykomish River, one of the top three salmon 
producing rivers in Puget Sound. Public ownership will reduce impacts 
to water quality by logging and road building. The parcel supports a 
large grove of old growth forest and critical wetland habitat along 
Wallace River. Its remote location provides important security habitat 
for rare and threatened species such as gray wolf and wolverine. Public 
ownership of this inholding will improve protection from wildfires and 
thus reduce the hazard of wildfire to citizens and property. 
Additionally, blocking up ownership facilitates efforts to contain and 
eradicate invasive species.
    Acquiring these properties will save taxpayers by eliminating 
approximately five miles of inholding boundaries within the National 
Forest.
Carbon River--Section 4--$115,000
    This request is for the Forest Service to purchase a 5.3 acre 
parcel in section 4, known as the Crandall property, which is a short 
distance from Mount Rainier's Carbon River entrance. This property is a 
private inholding in the Mount Baker-Snoqualmie National Forest. It 
serves as a critical wildlife and recreation corridor. Public ownership 
would protect watershed, wildlife, fisheries and will provide for 
recreation opportunities such as hiking and camping. This property will 
then be managed under the Mount Baker-Snoqualmie National Forest Land 
and Resource Management Plan.
                         forest legacy program
Tahuya Headwaters--Working Forest Initiative--$3.5 million
    This appropriation would fund a grant under the Forest Service 
Forest Legacy Program, and would complete Phase 2 of the Tahuya Forest 
Conservation Project. The Headwaters portion would protect 1,705 acres 
in fiscal year 2008, in partnership with Pope Resources. A 25 percent 
dollar match would be provided by a combination of State and Kitsap 
County funds.
    This area contains some of the most ecologically significant, 
productive, and at-risk commercial forests in the Puget Sound Lowlands. 
It is part of a regional forest conservation effort in Kitsap and Mason 
counties. The Hood Canal Alliance is a sponsor partner for the project, 
which includes Kitsap County, Great Peninsula Conservancy, Washington 
Department of Natural Resources, Washington Department of Fish and 
Wildlife, Port Gamble S'Klallam Tribe, Point No Point Treaty Council 
and Hood Canal Environmental Council. Ultimately, the Project seeks to 
remove development rights from 15,640 acres of private working 
forestland on the Kitsap Peninsula, creating a network of working 
forests linking State and private forest lands, including the watershed 
for Bremerton. The project also seeks to maintain the viability of 
commercial forestry in the county.
    We appreciate your consideration of these requests. Please contact 
us if you have any questions.
                                 ______
                                 
 Prepared Statement of the Cedar City/Brian Head Tourism & Convention 
                                 Bureau
    Madame Chairwoman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
acquisition of the Ashdown Gorge property by the U.S. Forest Service. 
An appropriation of $5 million from the Land and Water Conservation 
Fund is needed to purchase the 320-acre inholding at the Dixie National 
Forest in southwestern Utah.
    I would also like to take this opportunity to commend the 
Chairwoman and subcommittee members for supporting funding for land 
acquisition accounts such as the Land and Water Conservation Fund 
(LWCF). By acquiring lands within the boundaries of Federal land units, 
the LWCF is essential to protecting the natural, recreational, 
wildlife, and scenic resources that Americans cherish within their 
public lands. In the case of inholdings, acquisition improves land and 
resource management, ensures continued public access, consolidates land 
ownership, and prevents further fragmentation.
    The mission of the Cedar City/Brian Head Tourism & Convention 
Bureau is to increase visitation in Iron County. Established in 1987, 
the Tourism Bureau is a division of Iron County Government, charged 
with three specific objectives: (1) to promote Iron County as a unique 
destination to visit; (2) to encourage longer stays and repeat visits; 
and (3) to enhance, quality visitor experiences through services 
provided by our Visitor Center and through co-operative partnerships. 
The Ashdown Gorge land acquisition will in no doubt help us in 
fulfilling our objectives.
    The largest national forest in Utah, the 2 million-acre Dixie 
National Forest spans 170 miles across the southern part of the State. 
Known for its solitude, splendor, beauty, and recreational 
opportunities, the forest surrounds and links together Bryce, Capitol 
Reef, and Zion national parks, as well as Cedar Breaks and Grand 
Staircase-Escalante national monuments. The 7,000-acre Ashdown Gorge 
Wilderness. Area, within the forest, is characterized by forest and 
meadows and is located southeast of Cedar City, and just west of Cedar 
Breaks National Monument. Many of the red limestone formations of the 
park can be seen from areas within the wilderness area. Like the famous 
Cedar Breaks National Monument, which receives over 500,000 visitors a 
year, the Ashdown Gorge is known for its multicolored rock formations 
and plateau-top stands of 1,000 year old bristlecone pines. The gorge 
is named after the family of George Ashdown, who built a sawmill there 
in 1898.
    In fiscal year 2008 there is an opportunity to protect the 320-acre 
Ashdown Gorge inholding properties. The two 160-acre properties are 
owned by descendants of George Ashdown and have been in family 
ownership for over 100 years. They are completely surrounded by the 
Ashdown Gorge Wilderness Area and have been historically used for 
grazing and timber harvesting. Now, however, the Ashdown Gorge is a 
popular destination for backpacking and hiking with three heavily used 
trails traversing the properties, connecting both the Cedar Breaks 
National Monument and the Ashdown Gorge Wilderness area to the canyons 
near Cedar City. Except for the remains of the historic sawmill and a 
makeshift cabin, the properties have been left in a natural state. 
Rattlesnake Creek runs through the property and is joined by several 
smaller tributaries in the narrow red-rock canyons below. Trails along 
the streambed are used to access Flannigan's Arch, just a couple of 
miles downstream.
    The Ashdown Gorge inholdings are located just 20 miles from Cedar 
City putting them under considerable development pressure. The U.S. 
Census Bureau ranked the Cedar City MSA 11th in the nation for 
population growth between 1990 to 2000, with an increase of 62.5 
percent. It continues to grow about 5 percent annually, and the 
surrounding mountains are also in great demand for recreational 
properties. The city's growing population will place greater demand on 
local hiking trails and water resources. Protecting the Ashdown Gorge 
inholdings from development and enhancing public access would benefit 
both residents and tourists, and sustain the area's economic vitality 
and quality of life.
    This area has tremendous potential to attract tourists as a major 
destination in Utah. Assessing the popularity of neighboring Cedar 
Breaks alone, gives reason to believe that once Ashdown is protected as 
a national monument, it too could enjoy the same flow of people. 
Furthermore, the convenience of making a loop tour of Bryce, Capitol 
Reef, and Zion national parks, as well as Cedar Breaks and Grand 
Staircase Escalante National Monuments will help in enticing people to 
visit the Ashdown Gorge Wilderness Area and get a complete Utah 
wilderness experience.
    Recognizing this uniqueness, the Forest Service has offered various 
parcels in exchange for the Ashdown Gorge inholdings over the last 
several decades. No land exchange agreement was reached, however, now 
that the current generation of landowners are interested in selling the 
properties outright, there is now a unique opportunity to bring these 
properties into public ownership. In fiscal year 2008, if the 
appropriation of $5 million could be obtained from the Land and Water 
Conservation Fund, then the Forest Service could finally acquire the 
Ashdown Gorge properties as part of the Dixie National Forest.
    Thank you again, Madame Chairwoman, for the opportunity to present 
this testimony to the subcommittee in support of the acquisition of 
Ashdown Gorge and of the Land and Water Conservation Fund.
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District
    The Central Arizona Water Conservation District (CAWCD) is pleased 
to present written testimony regarding the fiscal year 2008 proposed 
budget for the Bureau of Reclamation (Reclamation).
    CAWCD is a political subdivision of the State of Arizona, governed 
by an elected 15-member board of directors. CAWCD was created in 1971 
for the purpose of contracting with the United States to repay the 
reimbursable construction costs of the Central Arizona Project (CAP) 
authorized by the Colorado River Basin Project Act of 1968. CAWCD 
subsequently assumed the responsibility for operating and maintaining 
the Project. CAWCD has and continues to meet its repayment 
responsibility. In addition to a $175 million upfront contribution from 
CAWCD, Reclamation has been paid about $710 million in principal and 
interest since repayment began in January 1994.
                         bureau of reclamation
    CAWCD generally supports Reclamation's budget request. However, we 
believe that some of the priorities are misplaced. In early fiscal year 
2008 Reclamation is scheduled to complete a scoping process to develop 
new guidelines for managing the Colorado River system and to adopt 
Lower Basin shortage sharing guidelines. CAWCD strongly supports 
Reclamation's process and encourages Reclamation to take several 
actions to preserve, enhance and more efficiently manage the Colorado 
River water supply. Reclamation's Lower Colorado River Operations 
budget request has funds identified to complete the scoping process, 
but does not have sufficient funds for structures and programs to 
improve operational efficiency or augment supplies.
    We would urge the committee to reorder priorities in this budget to 
focus meaningfully on important strategies for the Lower Colorado 
River.
                lower colorado river water conservation
    Specifically, we are concerned about the lack of concrete focus on 
preserving storage capacity in Lake Mead by undertaking activities that 
would augment water availability and improve system operational 
efficiency.
    Congress is well aware of the huge impacts that a multi-year 
drought has imposed on this region, and of the significant drawdown of 
stored water in the river's reservoirs that has resulted from this 
drought. A significant amount of water has been released over these 
years from Hoover Dam that could have been retained if effective 
downstream strategies had been implemented.
    The construction of an off stream regulatory storage reservoir near 
Drop 2 of the All-American Canal has been identified as capable of 
saving over 60,000 acre-feet per year. In order to ensure that this 
critical reservoir is constructed, the Seven Basin States have approved 
a program to make contributed funds available from Southern Nevada 
Water Authority (SNWA) to construct the reservoir. SNWA is prepared to 
contribute $84 million over 2 to 3 years of construction (the full 
estimated cost). Reclamation should be prepared with plans, 
administrative procedures and personnel to accept the money and 
continue construction in fiscal year 2008. The Lower Colorado River 
Front Work and Levee System budget request has $1,515,000 of the total 
of $3,318,000 designated to complete the cost sharing process and 
continue construction. CAWCD strongly supports this effort.
                          yuma desalting plant
    Reclamation's budget justification concerning the Yuma Desalting 
Plant (YDP) continues to be disingenuous. Reclamation continues to say 
that the plant is in ``ready reserve'' status, but States it would take 
4 years and adequate funding to have the YDP fully operational yet no 
such funding is identified or requested. Continuing the budget request 
to pay U.S. water delivery contractors to forebear use of water 
indicates the Reclamation preference for a forbearance program as 
opposed to salvaging the saline water by operating the YDP. A long-term 
program relying primarily on forbearance in the United States is not 
acceptable to CAWCD or any of the Lower Basin States. Decisions need to 
be made and resources need to be applied to bring the YDP into actual 
operation. Every year the YDP remains idle results in the loss of 
enough water to supply the annual water needs of half a million people. 
Lessons learned from the pilot operations in fiscal year 2007 should 
clearly identify what actions are needed to make the plant fully 
operational. This budget request contains no requests for funds or 
stated intention to operate the YDP in the future. We urge the 
committee to direct Reclamation to make the Yuma Desalting Plant 
operational at one-third capacity and initiate regular operations no 
later than September 30, 2008.
                      colorado river augmentation
    CAWCD would like to call the committee's attention to the 
provisions of sections 201, 202 and 203 of Title 1 of the Colorado 
River Basin Project Act of 1968 (Public Law 90-537). These provisions 
call for studies and actions to augment the supply of water available 
for distribution within the Colorado River Basin. These provisions 
specifically make satisfaction of the obligations of the 1944 Treaty 
with Mexico a national obligation and anticipate that such obligation 
will be met through augmentation of the Colorado River supply. The 
Seven Basin States have a program in process, led and funded primarily 
by the Southern Nevada Water Authority, to review previous augmentation 
studies and evaluate new concepts. Reclamation has participated in this 
process. A draft report will be completed before the end of fiscal year 
2007. We intend to develop recommended augmentation programs to be 
undertaken by local, State, and Federal organizations. At the very 
least, Reclamation needs to commit sufficient funds to support 
implementation of some of the programs beginning in fiscal year 2008. 
CAWCD suggests that at least $500,000 be committed from Reclamation's 
overall appropriations for such activities as General Planning, 
Research and Development, or Water 2025. CAWCD urges the committee to 
direct Reclamation to take action and provide funding to fulfill the 
commitment Congress made 39 years ago to augment the water supply in 
the Colorado River Basin.
                    cap indian distribution systems
    We support Reclamation's request for $21,140,000 in funding for CAP 
Indian Distribution Systems. A key element of the negotiated settlement 
embodied in the Arizona Water Settlements Act is continued Indian 
distribution system funding through 2009.
                           tucson reliability
    We note that Reclamation has increased its funding request for 
``Tucson Reliability'' to $491,000, more than double the fiscal year 
2007 level. We have testified before and we reiterate here that 
Reclamation is obligated to confer with CAWCD before proceeding with 
any reliability projects that would increase the CAWCD repayment 
obligation. That said, we believe the $491,000 requested will be 
sufficient for Reclamation's planned activities in fiscal year 2007.
                lower colorado river operations program
    In its fiscal year 2007 budget request, Reclamation includes 
$7,982,000 in its Lower Colorado River Operations Program for the Lower 
Colorado River Multi-Species Conservation Program (MSCP).
    The MSCP is a cost-shared program among Federal and non-Federal 
interests to conserve endangered species and their habitat along the 
Lower Colorado River from Lake Mead to Mexico. CAWCD is one of the 
cost-sharing partners. This program will provide habitat for threatened 
and endangered species and, at the same time, allow current water and 
power operations to continue. CAWCD supports Reclamation's budget 
request for the Lower Colorado River Operations Program. This funding 
level is necessary to support the MSCP effort as well as environmental 
measures necessary to fully implement the interim surplus criteria for 
the Lower Colorado River. These are critical programs upon which Lower 
Colorado River water and power users depend.
    increased security costs for reclamation hydro power facilities
    We continue to oppose the funding of post-9/11 increased security 
costs for Reclamation facilities through hydropower rates. The 
increased costs are being incurred for national security reasons, not 
project maintenance or operation. Details of these costs must be kept 
secret and cannot be disclosed like other data in Power Marketing 
Administration rate cases, raising serious due process issues. Other 
project beneficiaries are not and, in some cases, cannot be charged a 
fair share of these costs. Congress should make these increased 
national security costs nonreimbursable.
                               conclusion
    We have worked for over three decades with the Congress and all the 
succeeding administrations to make the Central Arizona Project a 
reality as envisioned by Congress in the 1968 Act and to ensure its 
major contribution to the economic welfare of the State of Arizona. 
Improving the ability of the Lower Colorado River system to conserve 
and store precious Colorado River water supplies is central to our 
mission and, we believe, a core directive of the 1968 Act. The lengthy 
drought on the Colorado River has proven the correctness of that focus 
and the wisdom of Congress in passing the 1968 Act. It is time to move 
forward to aggressively accomplish the additional tasks that have been 
identified. We look forward to working with the Congress, the Bureau of 
Reclamation and the other Federal agencies and the Basin States to get 
this work done.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    The Chugach Regional Resources Commission requests that the 
subcommittee restore $350,000 in recurring base funding in the BIA 
Trust-Natural Resources budget. The Commission also seeks an additional 
$150,000 to support the Alutiiq Pride Shellfish Hatchery.
    The Chugach Regional Resources Commission (CRRC) is an Alaska 
Native non-profit organization that was created by the villages of the 
Chugach Region to address environmental and natural resource issues and 
to develop culturally sensitive economic projects at the local level 
that support the sustainable development of the natural resources. The 
mission of CRRC is to work with our seven member villages to promote 
and develop sound economic resource-based projects and to work 
collectively to address any natural resource and environment-related 
issues that affect the Native people of the Chugach Region.
    CRRC received annual funding from the Bureau of Indian Affairs for 
nearly 16 years. In fiscal year 2006, CRRC was funded at $300,000--a 
significant cut from our previous level of funding. After across-the-
board reductions, we received approximately $270,000 in fiscal year 
2006. This was the last year for which CRRC received funding. Although 
the BIA received that same amount of money in fiscal year 2007 under 
the Continuing Resolution, the Bureau elected not to provide CRRC with 
funding. After losing funding, we were forced to take out a bank loan 
in order to keep our doors open. We are working actively with the BIA 
to secure fiscal year 2007 funding in the amount necessary to pay back 
the loan, and also to be included in the BIA base budget going forward.
    Employment.--CRRC employs 35 Native people in the Chugach Region, 
all of whom will lose their jobs if CRRC if forced to close. With the 
scarcity of employment opportunities in rural Alaska, the impact of 
approximately six families per village losing this income in a village 
with an average population of 100 strikes a devastating blow to the 
local community economy. In addition, these 20 families will create a 
much larger burden on State and Federal financial resources as they 
will be forced to depend upon State and Federal welfare programs for 
necessary living expenses.
    Community Projects.--Over the past 16 years, CRRC funding has 
supported the development and operation of many programs that have 
assisted communities in providing meaningful employment opportunities 
as well as valuable services and products, including:
  --Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
        Hatchery is the only shellfish hatchery in the State of Alaska. 
        A 20,000 sq. ft. shellfish hatchery located in Seward, Alaska, 
        the hatchery houses shellfish seed, brood stock, and algae 
        production facilities. The hatchery employs 4 individuals and 
        is operated by CRRC. Alutiiq Pride is undertaking hatchery, 
        nursery and grow out operations research to adapt mariculture 
        techniques for the Alaskan shellfish industry.
  --King Crab Research.--Recently, CRRC staff have begun conducting 
        scientific research on blue king crab and red king crab. This 
        research is part of a larger Federally-sponsored program. 
        Because Alutiiq Pride is the only hatchery in the State, CRRC 
        is the only organization in Alaska that can carry out this 
        research.
  --Natural Resource Curriculum Development.--Partnering with the 
        University of Alaska, Fairbanks and the National Oceanic and 
        Atmospheric Administration, CRRC is developing a model 
        curriculum for Alaska Native students, integrating traditional 
        knowledge and Western science. The goal of the program is 
        encourage more Native students to pursue careers in science. So 
        far, there are 10 students enrolled in the program who have 
        earned a total of six university credits each that can be 
        applied toward a certificate or degree.
  --Avian Flu Monitoring.--CRRC is the entity responsible for 
        monitoring avian flu in Southcentral Alaska villages and would 
        carry out the initial warning and response to the villages in 
        case of an outbreak.
  --Alaska Migratory Bird Co-Management Council.--CRRC is a member of 
        the Council responsible for setting regulations governing the 
        spring harvest of migratory birds for Alaska Natives.
    Budget.--CRRC's base operating funding supports the continued 
operation of the various community projects. The total operating budget 
for CRRC, Alutiiq Pride, and the community projects is close to $2 
million. Specific projects receive independent funding from sources 
such as ANA grants, the EVOS Trustee Council, the State of Alaska and 
the Forest Service. However, base operating funding is essential to 
continue work on these projects. Building on its base funding, CRRC has 
been able to build several community programs and partnerships, as 
described above. See next page for a detailed budget breakdown by 
project.
    For further information, please contact Addie Rolnick 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6c7f626163646e664d7e6263627e6674236e6260">[email&#160;protected]</a> or Mary Pavel <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee3feeff8ebe2cefde1e0e1fde5f7a0ede1e3">[email&#160;protected]</a> at Sonosky, 
Chambers, Sachse, Endreson & Perry, LLP, at (202) 682-0240.

                              BUDGET DETAIL
------------------------------------------------------------------------
                        Projected                              Cost
------------------------------------------------------------------------
Chugach Region Shellfish Mariculture Development:
    Oyster grow-out operations in Tatitlek..............         $50,000
    Oyster marketing....................................  ..............
    Alutiiq Pride Shellfish Hatchery....................  ..............
Nanwalek Sockeye Salmon Development Project:
    Seek funds for disease free water engineering study.          20,000
    Operate smolt out-migration weir....................  ..............
Port Graham Pink Salmon Hatchery:
    Broodstock development..............................  ..............
    Sockeye and pink salmon fry production..............          50,000
    Training and education for hatchery crew............  ..............
Program Development/Regional Office Operations:
    1 staff person/supplies/quarterly board meetings....  ..............
    Biological Professional Assistance..................         180,000
    Project development and Planning....................  ..............
    GIS Mapping.........................................  ..............
    Resource Evaluation and Management..................  ..............
                                                         ---------------
      Total Direct Costs................................         300,000
                                                         ---------------
Indirect Cost (28.6 percent)............................          85,800
                                                         ---------------
      Total projected base budget.......................         385,800
------------------------------------------------------------------------

                                 ______
                                 
            Prepared Statement of the City of Healdsburg, CA
                            project request
    Wastewater Treatment/Effluent Recycling Project.--$2,000,000
    (U.S. Environmental Protection Agency: State and Tribal Assistance 
Grants)

    We are requesting $2,000,000 from the Environmental Protection 
Agency's State and Tribal Assistance Grant (STAG) Program in the fiscal 
year 2008 Interior and Environment Appropriations bill for the City of 
Healdsburg's Wastewater Treatment/Effluent Recycling Project. Total 
funding for development of the wastewater reclamation and reuse 
facility is estimated to be $8,000,000; however, we are only requesting 
$2,000,000 in Federal funding this year to commence the project.
    The City of Healdsburg is a municipality located within Sonoma 
County, California, which blends the best qualities of turn-of-the-
century America with the ambiance of a European countryside. Nearly 
11,000 people live within a 3.68 square mile radius approximately 65 
miles north of San Francisco; with a number of agricultural producers 
owning property just outside the city's incorporated limits. Our 
government provides a full range of services typical of any local 
government, including but not limited to maintenance of local roads, 
highways and bridges, as well as water resource utilities and 
infrastructure.
    I appear before the subcommittee to discuss a single project, but a 
project of great importance to the City of Healdsburg. Like many 
municipalities throughout California and other parts of the western 
half of the United States, we regularly confront water issues, and are 
consistently in search of how best to plan for and manage the use of 
this renewable, though sometimes rare and increasingly demanded, 
resource. The City of Healdsburg also has the added geographic 
challenge of how to dispose of its wastewater effluent in accordance 
with new environmental requirements. To that end, we are seeking your 
support in fiscal year 2008 of Healdsburg's efforts to develop a 
storage disposal and reclamation component to its new wastewater 
treatment plant.
    The city's wastewater treatment plant is located just west of the 
Russian River and south of the Dry Creek-Russian River confluence, 
approximately one mile southwest of the main city limits. In 1973, the 
city annexed the parcels on which the plant is located, and today the 
city's 36-acre treatment plant site is located on Foreman Lane on two 
adjoining parcels, with the existing treatment plant occupying 
approximately 17.4 acres of this area.
      healdsburg's wastewater treatment/effluent recycling project
    In an effort to effectively dispose of its wastewater effluent in 
accordance with new requirements, the city is including a storage 
disposal/reclamation component as part of its new wastewater treatment 
plant (WWTP), which is planned to be online by May 2010.
    This fiscal year 2008 STAG request is needed to develop the 
reclamation facility, create storage capacity at the WWTP, and build 
operational storage and provide for urban reuse within the City of 
Healdsburg. To accommodate limited storage capacity, the city will be 
disposing of its effluent though urban irrigation. This project will 
also support the construction of distribution lines measuring several 
miles that will carry recycled water to 85 acres of parks, school 
grounds and other turf areas within the city. A reliable means for 
disposing of our wastewater effluent by 2010 is especially important to 
the city because we must comply with a Ninth Circuit Court of Appeals' 
decision in Northern California River Watch v. City of Healdsburg, 457 
F.3d 1023 (9th Cir. 2006), which required us to redirect our summertime 
wastewater effluent away from the Russian River by a date certain. This 
court-enforced agreement and the city's inability to dispose of the 
effluent in any other manner due to our geographical location makes the 
upgrading of the wastewater treatment plant and the inclusion of a 
recycling component a critical priority for the city and region at this 
time.
    By beneficially reusing our summertime effluent for urban 
irrigation, we will then be able to better manage the use of our water 
resources and reduce environmental concerns. As a result, we expect 
that the recycled water project will substantially address the region's 
water needs and reduce current environmental concerns. Without 
development of this facility, the City of Healdsburg simply will not 
have the means to legally dispose of our effluent given our 
geographical location and the ecological significance of the Russian 
River.
    This project represents a sound and important investment in the 
city's infrastructure, as the city has no choice but to find innovative 
ways to dispose of its effluent. I believe this treatment plant upgrade 
and advanced recycling component not only allows us to accomplish this, 
but also provides us an opportunity to responsibly manage and conserve 
scarce water resources. Thank you.
                                 ______
                                 
       Prepared Statement of the Coachella Valley Water District
        colorado river basin salinity control program, title ii
    Support for fiscal year 2008 Federal Funding of $5.9 Million for 
the Department of the Interior--Bureau of Land Management (BLM) to 
assist in the Colorado River Basin Salinity Control Program, with 
$1,500,000 to be designated specifically to identified salinity control 
efforts
    This testimony supports fiscal year 2008 funding for BLM for the 
subactivity that assists Title II of the Colorado River Basin Salinity 
Control Act. This successful and cost-effective program is carried out 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act. Such an investment by Congress for the upcoming fiscal year 
will enable this Federal/State program to help alleviate hundreds of 
millions of dollars in economic losses caused annually by salinity.
    Coachella Valley Water District (CVWD) is a public agency that 
provides agricultural irrigation and drainage, domestic water and 
sanitation services, recycled water, groundwater recharge and 
management, regional flood control, conservation and other water-
related services and programs across an area of 1,000 square miles in 
an arid desert region of Southern California. CVWD has several hundred 
thousand residential and agricultural constituents, and is fortunate in 
that it can rely on several sources of water. Colorado River water, 
however, is the predominant source for agricultural irrigation and the 
sole source for groundwater recharge.
    While disputes among States that rely on the Colorado River for at 
least a portion of their water are well publicized, the presence of 
salt represents the biggest threat to the freshwater of this vital 
waterway. In California, this river is responsible for meeting drinking 
and other domestic water needs of 18 million residents. This waterway 
also is a lifeline for a multibillion-dollar agricultural industry in 
the southernmost areas of the State. In some areas Colorado River water 
is the only source for irrigation. Without it, some large farming areas 
would disappear.
    Coachella Valley's agricultural industry annually harvests more 
than $575 million in produce--a remarkable gross return in excess of 
$11,500 an acre--and gets at least two-thirds of its irrigation water 
from the Colorado River. Without imported water the area's vast aquifer 
would have been mined into extinction decades ago. With Colorado River 
water the region is economically vibrant, but removing salt-laden 
drainage from farmland to ensure continued fertility requires an 
elaborate, costly removal system, featuring nearly 2,500 miles of 
underground tiles and other pipeline.
    Our region's rapidly expanding residential population does not 
(yet) use Colorado River water in its homes directly, but this will 
occur in the very near future; and this water is used extensively to 
recharge the aquifer--more than two million acre-feet since 1973. The 
loss of Colorado River water as a viable source of freshwater would 
devastate Coachella Valley's economy and threaten the livelihood and 
lifestyle of virtually every resident.
    For more than three decades several Federal agencies have been 
seeking effective ways to combat Colorado River water salinity. BLM's 
role is crucial since it is the largest land manager within the river's 
basin. Much of its property is salt laden; and it is essential to 
prevent soil and rocks from being deposited in streambeds and flood 
plains. Significant results are possible through effective rangeland 
improvements. This is a team effort, with the Bureau of Reclamation's 
emphasis on irrigation delivery systems and the Department of 
Agriculture emphasizing on-farm programs.
    Some of these programs' success has been offset by recent drought 
conditions, which are expected to continue and have contributed to 
increased salinity levels in the Colorado River. Every increase of 30 
mg/l in salinity concentrations adds an estimated $75 million in 
economic losses. This is in addition to the $330 million in quantified 
damages in the United States, and significant unquantified losses.
    These losses include reduced yields of salt-sensitive crops and 
greater use of water for salt leeching; reduced service life for 
domestic and commercial water delivery systems and appliances; greater 
consumption of water than normal for a wide variety of purposes and 
difficulty in meeting wastewater discharge requirements.
    The Colorado River Basin Salinity Control Forum presented Congress 
with compelling testimony that the rate with which salinity control 
projects are implemented needs to be accelerated. Funding of $5.9 
million for BLM's Colorado River Basin Salinity Control Program will 
ensure one of the most valuable resources in the Southwest is not 
jeopardized by excessive salt.
                                 ______
                                 
            Prepared Statement of Cochise Trails Association
    Madame Chairwoman and honorable members of the committee: I 
appreciate the opportunity to provide testimony in support of a 
$500,000 request from the Land and Water Conservation Fund to protect 
the 38.5-mile San Pedro Rail-Trail property (containing approximately 
470 acres of fee land) at the Bureau of Land Management's San Pedro 
Riparian National Conservation Area in Arizona.
    I would also like to urge your support for increased overall 
funding for the Land and Water Conservation Fund, which has been so 
vital in protecting our most prized conservation and recreation lands 
throughout our Federal parks and forests for over 40 years.
    The San Pedro Riparian National Conservation Area, containing about 
40 miles of the upper San Pedro River, was designated by Congress as a 
National Conservation Area (NCA) on November 18, 1988. The primary 
purpose of the designation was to protect and enhance the desert 
riparian ecosystem, a rare remnant of what was once an extensive 
network of similar riparian systems throughout the Southwest, and the 
unique resources of this public land. Managed by the Bureau of Land 
Management, it contains over 58,000 acres of public land in Cochise 
County, Arizona, between the Mexican border and St. David, Arizona. 
This riparian habitat is rare in the desert Southwest. The river can be 
spotted from far off because of the band of cottonwood trees that grow 
densely along its shores, drawing migrating birds and other wildlife. 
The San Pedro Riparian NCA is a key component of the BLM's National 
Landscape Conservation System, and in 1995 the American Bird 
Conservancy, in partnership with the National Audubon Society, named it 
a ``globally important bird area,'' the first designation of this kind 
in the Western Hemisphere.
    The river has long had an attraction for humans as well. Evidence 
of prehistoric hunters of 11,000 years ago has been found in the area, 
and in 1776 the Spanish attempted to establish the presidio of Santa 
Cruz de Terrenate on a hill overlooking the river. It was the discovery 
of silver, however, at Tombstone that caused the most activity along 
the formerly peaceful San Pedro. The railroad tracks along the San 
Pedro River connected the mining areas to the Southern Pacific 
Railroad's east-west main line at Benson. Tracks were later extended to 
the Mexican border. Today, the riparian conservation area offers bird-
watchers, hikers and other nature lovers a chance to enjoy the beauty 
of the river and ponder its eventful past.
    Located in the San Pedro Riparian National Conservation Area, and 
available for acquisition by BLM in fiscal year 2008, are 38.5 miles of 
a recently abandoned rail corridor. The mission of the San Pedro Rail-
Trail Task Force (a partnership including BLM, Cochise County, 
municipalities, and conservation organizations including Cochise Trails 
Association) is to coordinate and achieve the acquisition and 
conversion of this railroad corridor, currently owned by the San Pedro 
Railroad Operating Company and Union Pacific Railroad, into a rail-
trail. Beginning in 1975, the industrial use of the railroad line 
steadily declined, and in 2005 the operators of the railroad line filed 
for abandonment of the railroad corridor with the Surface 
Transportation Board (STB). STB has approved abandonment, and the rails 
and ties are currently being removed. The goal of the task force is to 
have a rail-trail corridor secured in 2008, and to begin the conversion 
of the corridor to trail use under BLM management. This rail-trail will 
provide unparalleled access for a world-class non-motorized outdoor 
recreation experience that will foster widespread appreciation for the 
San Pedro Riparian National Conservation Area. The rail-trail will 
connect the outstanding local features that showcase Cochise County's 
reputation as the ``Land of Legends.''
    As background, the Cochise Trails Association is a not-for-profit 
advocacy group benefiting Cochise County residents and visitors through 
development of partnerships to establish, protect, and preserve trails 
for recreational use such as hiking, mountain biking, and horseback 
riding. One of our primary goals is to establish a regionally 
integrated, non-motorized, shared-use trail system. The proposed San 
Pedro rail-trail is strategically located near the heart of the 
county's thriving communities of Sierra Vista, Benson, Tombstone, and 
Bisbee. It is positioned to provide the hub of a future regional trail 
network that connects communities, historical sites, State Parks, 
National Forests, and other points of interest throughout the county. 
We believe the San Pedro rail-trail will create a successful transition 
from railroad-related economic activities to increased recreation and 
tourism opportunities for county residents and visitors. It has 
potential to be a world-class trail opportunity thru and beyond the San 
Pedro Riparian National Conservation Area, providing a unique 
recreational destination as well as opportunities for nature-oriented 
tourism.
    Nature-based and cultural tourism can play an important role in the 
county's future economic growth, and the rail-trail can provide an 
important draw for visitors. It will connect the communities in the 
region, increase access to high-quality outdoor recreational 
opportunities, and raise awareness of the importance of the San Pedro 
River as a unique natural resource.
    An fiscal year 2008 appropriation of $500,000 from the Land and 
Water Conservation Fund would assist the Bureau of Land Management in 
acquiring and protecting this corridor and all of its natural resources 
for public use and enjoyment for generations to come.
    Madame Chairwoman, thank you for this opportunity to submit 
testimony.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
       bureau of land management--fiscal year 2008 appropriation
    In support of $5,900,000 to assist in Colorado River Salinity 
Control, Title II from the Soil, Water and Air Management effort, and 
with support for the President's request for that activity. Also a 
request that $1,500,000 be spent on identified salinity control related 
projects and studies.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for the subactivity that assists the Colorado River 
Basin Salinity Control Program authorized by the Congress. The BLM 
budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management Program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal, 
and international agreements to control salinity of the Colorado River.
    The BLM's 2008 Budget Justification document states, with respect 
to 2005 Planned Program Performance, that the BLM continues to 
implement on-the-ground projects, evaluate progress in cooperation with 
the U.S. Bureau of Reclamation (USBR) and the U.S. Department of 
Agriculture (USDA), and report salt-retaining measures in order to 
further the Plan of Implementation of the Federal Salinity Control 
Program in the Colorado River Basin. The Colorado River Basin Salinity 
Control Forum (Forum) believes that fiscal year 2008 funds appropriated 
by the Congress for the Soil, Water, and Air Management Program should 
be used, in part, for reducing saline runoff in the Colorado River 
Basin.
    The seven Colorado River Basin States, through the Forum, have 
engaged the BLM in a partnership with the Basin States as has been done 
previously with the two other Federal agencies implementing salinity 
control in the Basin. The Forum has requested and the BLM has selected 
a salinity control coordinator for this basinwide effort. This person 
now serves with the two full-time coordinators in place for the USBR 
and the USDA efforts. This enhanced working relationship has taken 
advantage of the availability of Basin States' cost-sharing monies to 
leverage Federal funds. The Forum is encouraged by the words in the BLM 
budget document. The Forum supports the funding request of $32,053,000 
for the Soil, Water, and Air Management Subactivity. As one of the five 
principal Soil, Water, and Air Program priorities, the Forum believes 
that the BLM needs to specifically target $5,900,000 to activities that 
help control salt contributions from BLM managed lands in the Colorado 
River Basin. In the past, the BLM has used $800,000 of the Soil, Water 
and Air Program funding for proposals submitted by BLM staff to the 
BLM's salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council 
report States that the BLM has now identified projects that in fiscal 
year 2007 could use $1.5 million. For years, Congress has dedicated 
$800,000 on the effort and now the Forum believes $1.5 million should 
be so designated.
    The success of the BLM in controlling erosion and, hence, salt 
contributions to the Colorado River and its tributaries is essential to 
the success of the Colorado River Basin Salinity Control Program, 
including adherence to the water quality standards adopted by the seven 
Colorado River Basin States and approved by the U.S. Environmental 
Protection Agency (USEPA). Inadequate BLM salinity control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that the BLM program can move ahead at a pace that is needed 
to sustain these water quality standards.
                                overview
    This testimony is in support of funding for a portion of the Title 
II program. The Colorado River Basin Salinity Control Program was 
authorized by the Congress in 1974. The Title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through a minute of the International Boundary & 
Water Commission, to Mexico specific to the quality of water being 
delivered to Mexico at the international boundary. Title II of the act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly enacted Clean Water Act. Initially, the Secretary of 
the Interior and the USBR were given the lead Federal role by the 
Congress.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. In response to the Basin States' requests, the Congress 
revised the act in 1984 to give new salinity control responsibilities 
to the USDA and to the BLM. That revision, while leaving implementation 
of the salinity control policy with the Secretary of the Interior, gave 
new salinity control responsibilities to the USDA and to the BLM. The 
Congress has charged the administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin States are strongly supportive of that concept and 
have proceeded to implement salinity control activities for which they 
are responsible in the Colorado River Basin.
    Since the congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $330 million per year and 
there are very significant additional damages yet to be quantified. 
Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration,
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 mg/l increase in salinity concentrations, there is $75 
million in additional damages in the United States.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming. The Forum 
has become the seven-state coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the USEPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report analyzing the salinity of the Colorado 
River, anticipated future salinity, and the program elements necessary 
to keep the salinities at or below the concentrations in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.
                             justification
    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the BLM is heavily laden with salt. Past management practices, which 
include the use of lands for recreation; for road building and 
transportation; and for oil, gas, and mineral exploration have led to 
man-induced and accelerated erosional processes. When soil and rocks 
heavily laden with salt erode, the silt is carried along for some 
distance and ultimately settles in the streambed or flood plain. The 
salts, however, are dissolved and remain in the river system causing 
water quality problems downstream.
    The Forum believes that the Federal Government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. The Congress has explicitly directed specific 
Federal agencies, including the BLM, to proceed with measures to 
control the salinity of the Colorado River, with a strong mandate to 
seek out the most cost-effective options. It has been determined that 
rangeland improvements can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the USBR and by the USDA. They are very 
environmentally acceptable as they will prevent erosion, enhance 
wildlife habitat, increase dependable stream flows and increase grazing 
opportunities.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of Federal and State agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the BLM's portion of the Colorado River Salinity Control 
Program as set forth in the Forum's adopted Plan of Implementation.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    Support for fiscal year 2008 Federal Funding of $5.9 Million for 
the Department of the Interior--Bureau of Land Management (BLM) to 
assist in the Colorado River Basin Salinity Control Program, with 
$1,500,000 to be designated specifically to identified salinity control 
efforts
    This testimony is in support of fiscal year 2008 funding for BLM 
for the subactivity that assists Title II of the Colorado River Basin 
Salinity Control Act (Public Law 92-500). This successful and cost-
effective program is carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500).
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California and the other six Basin States through the 
Colorado River Basin Salinity Control Forum (Forum), the interstate 
organization responsible for coordinating the Basin States' salinity 
control efforts, established numeric criteria in June 1975, for 
salinity concentrations in the River. These criteria were established 
to lessen the future damages in the Lower Basin States, as well as, 
assist the United States in delivering water of adequate quality to 
Mexico in accordance with Minute 242 of the International Boundary and 
Water Commission. California's Colorado River water users are presently 
suffering economic damages in the hundreds of million of dollars per 
year due to the River's salinity.
    The BLM budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management Program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal, 
and international agreements to control salinity of the Colorado River.
    As you are aware, BLM is the largest landowner in the Colorado 
River Basin. Due to geological conditions, much of the lands that are 
controlled and managed by the BLM are heavily laden with salt. Past 
management practices have led to human-induced and accelerated 
erosional processes from which soil and rocks, heavily laden with salt 
have been deposited in various stream beds or flood plains. As a 
result, salts are dissolved into the Colorado River system causing 
water quality problems downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the Bureau of Reclamation (Reclamation) through its 
Basin-wide Program and by the U.S. Department of Agriculture through 
its on-farm Environmental Quality Incentives Program.
    In keeping with the congressional mandate to maximize the cost-
effectiveness of the salinity control program, the Colorado River Board 
requests that Congress appropriate $5,900,000 to BLM in fiscal year 
2008 for activities that help control salt contributions from BLM 
managed lands in the Colorado River Basin. In the past, BLM has used 
$800,000 of this funding for proposals submitted by BLM staff to the 
BLM's salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council 
report States that the BLM has now identified projects that in fiscal 
year 2008 could use $1.5 million. The Colorado River Board urges the 
subcommittee to specifically designate $1,500,000 for the Colorado 
River Basin Salinity Control Program as has been the direction to BLM 
from the subcommittee in past years.
    Since the congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
Reclamation estimates that the quantified economic impacts and damages 
to water users in the United States alone is about $330 million per 
year. However significant unquantified damages also occur. For example, 
damages can be incurred related to the following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration;
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are an additional $75 million damages within the 
United States. In addition, the Federal Government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin States with regard to the delivery of quality water to Mexico. In 
order for those commitments to be honored, it is essential that in 
fiscal year 2008, and in future fiscal years, that the Congress 
provides adequate funds to BLM for its activities related to salinity 
control in the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California, 
including municipal, industrial, and agricultural water users in 
Imperial, Los Angeles, Orange, Riverside, San Bernardino, San Diego, 
and Ventura Counties. Preservation and improvement of Colorado River 
water quality through an effective salinity control program will avoid 
the additional economic damages to users in California and the other 
States that rely on Colorado River water resources.
                                 ______
                                 
     Prepared Statement of the Colorado River Commission of Nevada
    As a Nevada representative of the Colorado River Basin Salinity 
Control Forum, the Colorado River Commission of Nevada (CRC) supports 
funding for the Bureau of Land Management (BLM) for the subactivity 
that assists the Colorado River Basin Salinity Control Program. The CRC 
supports the fiscal year 2008 funding request of $32,053,000 for the 
Soil, Water, and Air Management Subactivity. As one of the five 
principal Soil, Water, and Air Program priorities, the CRC believes the 
BLM needs to specifically target $5,900,000 to activities that help 
control salt contributions from BLM managed lands in the Colorado River 
Basin.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations that support the Colorado River Basin 
Salinity Control Program is essential to move the program forward so 
that the congressionally directed salinity objectives are achieved.
                                 ______
                                 
          Prepared Statement of the Colorado Springs Utilities
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado Water Congress
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
 Prepared Statement of the Confederated Tribes of the Umatilla Indian 
                          Reservation (CTUIR)
    Thank you for the opportunity to provide testimony on the fiscal 
year 2008 proposed budget for Native American programs in the 
Department of Interior budget.
    Once again the proposed budget for Indian Affairs does not support 
strong tribal self-government and self-determination. The fiscal year 
2008 proposed budget is essentially flat funding the Indian Affairs 
budget but an increasing amount is being used for Indian Affairs 
headquarters operations and not out in the field where it is most 
needed. In the newly created Bureau of Indian Education the Management 
costs have gone from $8.8 million in fiscal year 2006 to $23.7 million 
in the fiscal year 2008 proposal. According to a NCAI historical budget 
analysis, the total OIP budget is still below the fiscal year 1994 
enacted level, without adjusting for inflation. This proposed budget 
does not live up to meeting the trust responsibilities the Federal 
Government has to tribes.
    Tribal governments are like State governments in many ways--
providing critical services, shaping values, and promoting jobs and 
growth. Though Federal spending for Indians has lost ground compared to 
spending for the U.S. population at large, tribal self-government has 
proven that the Federal investment in tribes pays off, as documented in 
the 2006 Harvard Project report. Unfortunately, tribal governments are 
treated much differently than States by being forced to compete for 
funds (when even eligible) to address local needs rather than directly 
receiving those funds.
    Even with the gains, substantial gaps remain--real per capita 
income of Indians living on reservations is still less than half of the 
national average. Indian unemployment is nearly quadruple the rest of 
the country and the poverty rate is three times the national average. 
Thus, while the work of tribal self-determination is well under way, 
much work is left to be done. These long enduring socio-economic 
disparities, and the success of tribes in addressing them, warrant 
continued Federal investment in tribal self-determination.
    With respect to the Indian Affairs budget, the CTUIR would like to 
address several issues beyond the total amount of funds that are being 
proposed. These include:
  --Proposed reductions to specific line items in the TPA will have 
        disproportionate impacts on different tribes.
  --The CTUIR is adamantly opposed to any redistribution of TPA funds 
        based upon a needs analysis and asks that Congress prohibit the 
        Department from pursuing any such plan.
  --The CTUIR would like to point out that the review of the budget 
        justifications was very difficult as the comparisons to fiscal 
        year 2007 were essentially comparisons with the President's 
        proposal, not the amounts actually funded.
      The CTUIR has several specific areas of the actual budget being 
        proposed for Indian Affairs that we would like to comment on.
  --The CTUIR requests that the Water Management program be restored to 
        at least the fiscal year 2004 budget levels. Apparently this 
        administration does not consider water to be an important 
        resource or a trust asset of tribes. The proposed budget 
        reduces the Water Management, Planning and Pre-Development 
        program by $1.4 million from the fiscal year 2007 Operating 
        Plan level (not the level funding as shown in the budget 
        justifications) and $1.8 million from the fiscal year 2006 
        level. This is on top of a more than 30 percent decrease in 
        these funds since fiscal year 2004. At the CTUIR these funds 
        play an important role in our water management program, in 
        determining the amount of water available on the Reservation 
        and the amount of water required for various purposes such as 
        municipal service, agricultural irrigation, fish passage and 
        setting water quality standards.
  --The CTUIR requests that the Water Rights Negotiation/Litigation and 
        Litigation Support/Attorney Fees programs be restored to at 
        least to the fiscal year 2004 budget levels. These programs 
        have received reductions for the past several years and the 
        fiscal year 2008 budget calls for another $2 million reduction 
        or 17 percent. A Federal water rights team has just been 
        appointed to address CTUIR water rights in the Umatilla Basin 
        that have been ignored for the last 100 years. The lack of 
        available resources for this activity will result in 
        protracted, expensive and divisive litigation. The success the 
        CTUIR has had in the Umatilla and Walla Walla basins is 
        recognized as a national model for bringing together the 
        diverse interests to cooperatively solve the multi-dimensional 
        problems around use of water.
  --The CTUIR strongly objects to the continuing decline in resources 
        for Trust--Natural resources Management. The budget 
        justifications indicate that these programs support the goal of 
        fulfilling Indian fiduciary trust responsibilities and 
        assisting tribes in the management, development and protection 
        of Indian trust land and natural resource assets. The 
        justification goes on to State that a significant portion of 
        these activities are carried out by tribes under contracts/
        compacts--in other words are having positive impacts at the 
        reservation level. In the fiscal year 2007 Operating Plan the 
        BIA reduced funding for these activities by $7.5 million or 5 
        percent. In the proposed budget the category is reduced by 
        another $4 million from the fiscal year 2007 levels. The CTUIR 
        has chosen to leave the operation of the Agriculture, Range and 
        Forestry programs under the direction of the BIA. The Umatilla 
        Agency Superintendent has identified a need for an increase of 
        $310,000 for 6.5 additional FTE's to the agency's budget. These 
        funds are required to implement the Forestry, Agriculture and 
        Range Management Plans that will be adopted this year. 
        Additionally the CTUIR is seriously considering compacting for 
        these functions over the next 2 years but is extremely 
        concerned that there are not sufficient resources available to 
        adequately manage these resources. What good is it to build up 
        a system to track funds when the natural resources cannot be 
        managed in a way will generate funds?
  --The CTUIR requests that under the Trust--Real Estate Services 
        budget category the TPA Trust Services be increased by at least 
        $5 million and the $3 million requested for Probate Backlog 
        (over the fiscal year 2007 Operating Plan) be added to the TPA 
        Probate line item. Increases to the TPA base directly increase 
        services to individuals and tribes at the local level where the 
        needs are most acute and the greatest benefits are achieved. 
        The CTUIR elected to leave these services under the management 
        of the BIA, but as with the natural resources, the Tribe is 
        seriously considering compacting them. The concern is having 
        adequate resources to meet the requirements. In fiscal year 
        2006 the BIA conducted a review of the Umatilla Agency's 
        services and recommended that two (2) additional real estate 
        staff be added to meet the work load. More recently the Agency 
        Superintendent conducted a review of his staffing needs and 
        found that three (3) additional real estate staff and one (1) 
        additional probate staff were needed to meet the increasing 
        work load demands being created by the implementation of the To 
        Be Trust Model and to reduce the current probate and realty 
        backlogs.
  --The CTUIR fully supports the requested $6 million increase to 
        contract support costs along with the additional $11 million 
        provided for in the fiscal year 2007 Operating Plan. It is 
        anticipated that the requested amount will meet the full 
        indirect contract support cost needs of tribes, something that 
        has not happened since the late 1980's.
  --The CTUIR supports the proposed increase to the Law Enforcement 
        Budget. Another bright spot in the proposed budget is the 
        continuing commitment to increase law enforcement funding. The 
        CTUIR has been very supportive of this initiative because of 
        the disparity of law enforcement recourses in Indian Country as 
        compared to the rest of rural America.
  --The CTUIR requests that $5.3 million be added to the Tribal Court 
        TPA line item to increase resources at the local level. The 
        increases to law enforcement have not been accompanied by 
        increases to the tribal court budget even though it has 
        resulted in increasing the court's work load. Additionally, as 
        the Tribe has grown its economy, the demands on the court 
        system have increased. The Tribe has adopted a number of codes, 
        all of which call for final dispute resolution to be heard by 
        the Tribal Court. In fiscal year 2006 an independent review of 
        our Tribal Court system showed it is working, but additional 
        resources to support the basic infrastructure that allows for 
        the timely adjudication of criminal cases as well as for the 
        expanded role in civil matters needs to be provided. Last year 
        the BIA and Congress had a prefect opportunity of increasing 
        Tribal Court basic funding by moving the $5.3 million Court IIM 
        initiative funding, which was not successful because it was 
        impossible to implement at the local level, to the Court TPA 
        line item.
  --The CTUIR requests that Welfare Assistance funding be restored to 
        at least the fiscal year 2005 enacted level. While not 
        described in the budget justifications a $6 million reduction 
        is being proposed which is on top of the $5 million reduction 
        imposed in fiscal year 2007, a 13 percent reduction over the 
        fiscal year 2006 enacted level. As pointed out above, Indian 
        Country remains the poorest of the poor in this country. This 
        program is not duplicative of other Federal and State programs 
        as claimed because clients must apply for services from all 
        other sources that they are eligible for before receiving 
        assistance. Due to the already extremely constrained resources, 
        the CTUIR can serve less than 50 percent of the eligible 
        clients per month.
  --The CTUIR requests that the JOM and Scholarships/Adult Education 
        programs be restored at least to the fiscal year 2004 budget 
        levels and that these programs be moved back to the BIA 
        structure. The budget justifications for the newly created 
        Bureau of Indian Education (BIE) make it very clear that the 
        entire focus of the new Bureau will be on BIE operated and 
        funded schools. While such improvements are clearly needed, the 
        BIE is completely leaving out the 93 percent of Indian children 
        that receive their education from public schools. If the BIE 
        does not want to contend with tribally controlled TPA funding, 
        then the programs need to be moved to an environment that 
        supports tribal self-determination. While not outlined in the 
        budget justifications, the Johnson O'Malley (JOM) program is 
        again being proposed to be completely eliminated (the fiscal 
        year 2007 Operating Plan continued JOM at $12 million, a 25 
        percent reduction). The assertion that these funds are 
        duplicative of the Title VII program is simply not true. These 
        funds go to tribal governments to provide support and services 
        to Indian children, while Title VII funds generally go to 
        school districts and tribes have little or no say over how they 
        are used. Recent data shows that of the 552 tribal students 
        from our reservation that attend local schools, 40 percent are 
        not meeting the statewide standards in English/Language or in 
        Math and are in need of the types of additional services 
        provided by the JOM program. The fiscal year 2008 proposed 
        budget also calls for a $4.6 million or 16 percent reduction to 
        the TPA scholarship/adult education line item. As tribes build 
        their local economies, these programs are essential to having a 
        well educated work force and to provide basic skills and 
        opportunities to adults to participate in those economies.
  --The CTUIR requests the restoration of Community Fire Protection to 
        at least the fiscal year 2005 level. This line item within the 
        TPA has been eliminated in the proposed budget. The BIA's 
        assertion that since this is a small amount of funds, $1.14 
        million, it would have limited impact again shows the 
        inadequate understanding of Indian Country by the Washington 
        bureaucrats. While the CTUIR receives limited funding under 
        this program it has provided the core from which the Tribe has 
        developed a full service fire department, including emergency 
        medical and ambulance services to serve all reservation 
        residents and visitors.
  --The CTUIR requests the restoration of the Housing Improvement 
        Program. The budget justification States that this program is 
        being eliminated to meet higher priority items in the budget. 
        What could be a higher priority than providing safe housing to 
        the least well off individuals on the reservation? The 
        assertion that these needs can be met through the HUD program 
        demonstrates a lack of understanding by Washington bureaucrats 
        of how programs operate in the field.
    With respect to non Indian Affairs components of the bill the CTUIR 
would like to offer the following comments:
  --The CTUIR recommends that IHS funding for Contract Health Care 
        Services be increased by $36 million over the requested amount 
        and that the total IHS budget be increased by $200 million over 
        the request. These numbers are based on an early analysis of 
        the fiscal year 2008 budget request done by the Northwest 
        Portland Area Indian Health Board and are less than half the 
        amount that more recent analysis have shown as needed. The CHC 
        budget is of critical importance to the CTUIR as there are no 
        IHS hospitals or specialty clinics in the region so all 
        referral work must be performed by the private health care 
        community. In the first 6 months of fiscal year 2007 the CTUIR 
        has used 85 percent of its CHC budget. It has been well 
        documented that Native Americans health status is well below 
        that of the overall U.S. population which is all too evident on 
        the Umatilla Reservation. A 2003 study showed that on a per 
        capita basis, Native American health care funding was 50 
        percent of the amount the government spent on Federal 
        prisoners.
  --The CTUIR opposes the proposed decrease for the Land Consolidation 
        Program in the Office of Special Trustee. This program is 
        recognized as being highly successful in reducing the 
        fractionation of Indian allotments, thereby reducing the 
        accounting nightmare and saving the government substantial sums 
        of money by not having to track very tiny interests. A $50 
        million reduction to this program does not meet the needs of 
        the United States or tribes.
  --The CTUIR supports an increase to the National Park Service's 
        NAGPRA activities. These funds have remained constant over the 
        past several years while the number of tribes trying to access 
        the funds has continued to grow. There has been a large 
        increase in the number of NAGPRA activities with the return of 
        many museum collections and the increased awareness. The Tribe 
        would also like to point out that it is ironic funding for 
        these activities comes through the NPS and there are no funds 
        within Indian Affairs for such work or to support tribal 
        efforts.
                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon
                                summary
    Mr. Chairman, I am Ron Suppah, Chairman of the Confederated Tribes 
of the Warm Springs Reservation of Oregon. I hereby submit the 
following requests for the fiscal year 2008 BIA and IHS appropriations.
    (1) In BIA, restore the $1 million cut to the Timber Harvest 
Initiative in BIA Forestry Projects.
    (2) In BIA, significantly increase the BIA basic Forestry budget, 
starting with a $5 million increase to Forest Development.
    (3) In BIA, add $2.2 million to Endangered Species funding for 
required Northern Spotted Own and marbled murrelet surveys, and provide 
a national BIA total of $5 million for ESA.
    (4) In BIA, double the $16 million increase for Law Enforcement.
    (5) In BIA, fully fund Johnson O'Malley and the Housing Improvement 
Program.
    (6) In IHS, increase Contract Health Care funding by $142.4 
million.
    (7) In IHS, require that Contract Support Cost appropriations for 
new contracts be used for those purposes, and that Contract Support 
Costs be increased by $27.2 million for fiscal year 2008.
(1) Restore the $1 million cut to the Timber Harvest Initiative in BIA 
        Forestry Programs
    Mr. Chairman, Warm Springs' foremost priority for the BIA fiscal 
year 2008 budget is the restoration of $1 million to the Timber Harvest 
Initiative in Forestry Projects. Our base BIA Forestry budget is 
significantly below what is needed to adequately manage our forest. 
Currently, five of the BIA's 20 Forestry positions at Warm Springs are 
unfunded. The BIA's Timber Harvest Initiative is designed to help 
alleviate at least some of this problem on our Reservation and other 
reservations in the BIA's Northwest and Pacific Regions. At Warm 
Springs, the Timber Harvest Initiative provides funds for two 
additional Forestry personnel whose 2.3 million board feet harvest 
increase brings us close to our sustainable annual allowable cut. This 
additional harvest means logging and mill jobs in our community and 
critically needed revenues for our Tribal government. Given the chronic 
underfunding of the BIA's base Forestry budget, maintaining the Timber 
Harvest Initiative is particularly essential because it is directed at 
improving our harvest, which is a key element in our commercial 
forestry activities.
(2) Significantly increase the BIA basic Forestry budget, starting with 
        a $5 million increase to Forest Development
    As I discussed above, the necessity for a Timber Harvest Initiative 
is an indicator of a serious deficiency of funding for the basic BIA 
Forestry program. Even with the Initiative, one quarter of BIA's 
Forestry positions at Warm Springs are vacant, and BIA is unable to 
fulfill the Tribe's desired level of management for our forest. For 
instance, to provide a measure of economic certainty for our Tribe and 
to give our sawmill the flexibility to meet strong timber markets, we 
ask that, at any given time, BIA Forestry have 3 years of timber 
harvests sold and available. But manpower shortages prevent BIA from 
meeting that goal, and as a result, our forest is not managed to our 
best advantage.
    Inadequate BIA Forestry funding causes management deficiencies in 
many aspects of our forest. In addition to not meeting the Tribe's 
expressed management goals, the BIA Forestry program at Warm Springs 
does not have any funding for Federally mandated archeological surveys 
and endangered species assessments. Funds to provide bare coverage of 
those requirements must come out of other program funds, diminishing 
the Forestry program capacity. Additionally, BIA has not been able to 
reduce our Forest Development backlogs of 32,000 reforestation acres 
and 57,000 thinning acres due to flat funding over the past 8 years. On 
a national basis, this BIA Forestry funding shortage has been 
thoroughly documented over the past 14 years in the independent IFMAT 
reviews. So today we ask this subcommittee to undertake correcting this 
problem. IFMAT recommends that the BIA Forestry budget be doubled to be 
brought to parity with the Forest Service. But recognizing today's 
budget realities, Warm Springs supports the Intertribal Timber Council 
suggestion that an additional $5 million be provided for Forest 
Development. In addition to starting to ease the strain on the overall 
BIA Forestry program, this addition will help improve the future value 
of the Warm Springs forest. We also note that increased forest thinning 
improves forest health and, in our case, will help provide woody 
biomass to the 15 megawatt biomass electric generation facility we are 
developing at our sawmill.
(3) In BIA, add $2.2 million to Endangered Species funding for required 
        Northern Spotted Owl and marbled murrelet surveys, and provide 
        a national BIA total of $5 million for ESA
    The Endangered Species budget item is the only BIA funding for 
tribal Endangered Species Act compliance for the Northern Spotted Owl 
and marbled murrelet in our forests. Funding for this mandate was 
initiated in fiscal year 1993 by this subcommittee. Thirteen years ago 
in fiscal year 1995, Congress provided $1.83 million for tribes 
affected by the Northern Spotted Owl and the marbled murrelet. In 
fiscal year 2002, Congress provided a total of $3 million for the BIA's 
national Endangered Species program. Since then, the administration has 
succeeded in driving the appropriation down so that today, the program 
is funded at just $230,000, which provides no funds to conduct required 
ESA activities actually on the ground--the funds just cover Central 
Office administration. The proposed fiscal year 2008 budget now before 
you essentially continues this level, requesting just $247,000.
    Warm Springs requests that the subcommittee increase the BIA 
Endangered Species budget by at least $2.2 million designated for 
Northern Spotted Owl and marbled murrelet surveys on affected 
reservations. These species are still listed and ESA compliance is 
required for our forest management and our timber harvest. I must also 
note that our Reservation is affected by listed spring Chinook and 
summer steelhead. Currently on our Reservation, these are pure unfunded 
mandates, and compliance either goes lacking or other desperately 
needed services for our community must be reduced. To correct this on a 
nationwide basis, we roughly estimate that Indian Country easily needs 
a total of $5 million in fiscal year 2008 for ESA activities, of which 
$2.2 alone is needed for the Northern Spotted Owl and the marbled 
murrelet.
(4) In BIA, double the $16 million increase for Law Enforcement
    Beginning in the early 1960s, as our Tribe began to assert more 
jurisdiction and authority over Reservation law enforcement, the BIA 
responded by gradually transferring Federal funding elsewhere. 
Unfortunately, today our diminishing tribal budget is sharply reducing 
our ability to meet our Reservation law enforcement requirements, and 
we desperately need assistance from BIA. But we have seen scant relief 
from the BIA despite appropriations increases.
    Warm Springs law enforcement needs are severe. Our tribal police 
force is overextended. Major crime is increasing on our reservation, 
and the insufficient law enforcement has attracted meth labs, 
compounding our difficulties. Warm Springs appreciates the 
administration's proposed $16 million increase in Law Enforcement, but 
our Tribe has not received much assistance from previous law 
enforcement increases. BIA must meet its responsibilities for the 
public safety of the Warm Springs Reservation, so we accordingly 
request that Congress double the administration's proposed increase, 
adding $32 million to law enforcement--without stripping it from other 
BIA programs--so that the BIA can provide needed Law Enforcement 
Services for Warm Springs and other Tribes.
(5) In BIA, fully fund Johnson-O'Malley and the Housing Improvement 
        Program
    Mr. Chairman, the Federal Government's obligation to provide our 
Tribe with educational assistance is no different than that for any 
other tribe. Yet over the years, a massive disparity has developed in 
the BIA's distribution of education funding so that nearly a third of 
the total BIA Operation of Indian Programs budget is now directed to a 
few States with perhaps 15 percent of all Indian students. What is left 
for most other tribes is Johnson-O'Malley, and it is a shame that, for 
fiscal year 2008, the administration is proposing to strip us of even 
those funds, so that they can shift those funds to BIA schools and 
boast how they are improving Indian education. Not at Warm Springs, 
they're not! They are proposing to destroy JOM, which is a last 
critical link for our Tribe and our children to off-reservation public 
schools. JOM funds the special programs that help our children's 
adjustment and unique needs in these off-reservation schools, and JOM 
is the only K-12 educational assistance that is subject to tribal 
direction. JOM is the BIA's sole remaining contribution to our 
children's educational needs. It is already extremely modest, and it is 
the only tool available to our Tribe to directly participate in the K-
12 education of our children. We ask that it be restored to $17 million 
in the Bureau of Indian Education, as well as in TPA.
    Warm Springs also objects to the administration's proposed 
elimination of the Housing Improvement Program (HIP). HIP is essential 
to providing housing repairs and, in limited cases, modest housing for 
very needy tribal members who have difficulty qualifying for HUD 
housing. If HIP is eliminated, it becomes a gaping hole in an already 
badly frayed safety net for our neediest citizens. We ask that it be 
restored to $19 million in BIA Human Services.
(6) In IHS, increase Contract Health Care funding by $142.4 million
    The Confederated Tribes of Warm Springs, as are all Northwest 
Tribes, and almost all Tribes throughout the country, are significantly 
dependent upon Contract Heath Care funding to assure minimum health 
care for our enrolled membership. These funds provide for the delivery 
of our young children, specialty care, hospitalization and the 
treatment of life long, chronic diseases. The current request of an 
increase of $28.7 million in fiscal year 2008 is significantly 
inadequate and we would recommend an increase of $142.4 million would 
be more appropriate to address the minimal current needs. This is a 25 
percent increase over the administration's fiscal year 2008 proposal, 
and represents the roughly one quarter of the year that the Contract 
Health Care program runs out of money, forcing those needing care to 
either postpone it or, in our case at Warm Springs, seek care paid for 
directly by our Tribe.
(7) In IHS, require that Contract Support Cost appropriations for new 
        contracts be used for those purposes, and that Contract Support 
        Costs be increased by $27.2 million for fiscal year 2008.
    For the past 2 years, we have had before the IHS a 638 proposal to 
assume the Public Health function, which our local IHS Service Unit 
provides on our Reservation. However, we have been unable to complete 
the contract due to the refusal of the IHS to provide Contract Support 
Costs as required by the Public Law 93-638 and its regulations. While 
the Congress has appropriated increases for new assumptions, the IHS 
has refused to allow those funds to be used for those purposes, citing 
ambiguous language in the appropriations bill. We are requesting two 
things. First, that the IHS language in the appropriations bill be 
changed to mandate that appropriations for new or expanded contract 
support costs ``shall''--not ``may''--be used for new or expanded 
contracts. Secondly, that fiscal year 2008 IHS Contract Support Costs 
be increased from $5.5million to $27.2 million to allow ourselves and 
other tribes to participate in the benefits of the Public Law 93-638.
    That concludes my testimony. Thank you.
                                 ______
                                 
    Prepared Statement of the Connecticut Chapter of the Sierra Club
    Madame Chairwoman and honorable members of the committee: I submit 
this testimony on behalf of the 11,000 members of the Connecticut 
Sierra Club who support the protection of important natural habitats 
and wildlife areas in our State. This property is of particular 
interest because of its unique location contiguous to the Stewart B. 
McKinney Wildlife Refuge, the only Federal refuge in Connecticut.
    We urge you to approve the $710,000 appropriation from the Land and 
Water Conservation Fund for the Menunketesuck Salt Meadow Marsh project 
in Westbrook, CT.
    Unique characteristics of this salt meadow marsh underscore its 
importance for protection:
  --A rock outcropping that towers above 1,000 of frontage along the 
        gentle Menunketesuck River as it winds its way to Long Island 
        Sound,
  --Spectacular bird habitat designated by the National Audubon Society 
        as an ``Important Bird Area'' critical to the wildlife species 
        listed as special concern by the State,
  --Important aquatic habitat for recreational fish and species of 
        special concern such as Tom Cod which may soon be listed as 
        threatened or endangered.
    Since the McKinney Refuge was originally established to protect 
migratory bird habitat and the Menunketesuck Salt Meadow Marsh would 
add a critical piece to expand this habitat, the Sierra Club designates 
this acquisition as a top priority.
    As our founder John Muir said, ``When we try to pick out anything 
by itself, we find it hitched to everything else in the universe.''
    Thank you for the opportunity to express our views to you.
                                 ______
                                 
    Prepared Statement of the Connecticut Ornithological Association
    Madame Chairwoman and honorable members of the committee: The 
Connecticut Ornithological Association (COA) appreciates the 
opportunity to present this testimony in support of a $710,000 
appropriation from the Land and Water Conservation Fund for the 
Menunketesuck Salt Meadow Marsh project in Westbrook, CT. The COA is a 
not-for-profit organization and is the only organization specifically 
dedicated to birds and birding in Connecticut.
    The Stewart B. McKinney National Wildlife Refuge--the only Federal 
Refuge in Connecticut--was created to protect migratory bird habitat 
along 60 miles of Connecticut's Long Island shoreline. The 20-acre 
Menunketesuck Salt Meadow Marsh includes undeveloped and pristine 
coastal tidal marsh, forested upland, and scrubland, which provides 
prime habitat for neotropical migratory birds, wading birds, 
shorebirds, songbirds and terns (including the endangered roseate 
tern). As a result, this property is the top property for acquisition 
for the Refuge.
    The Refuge--used by over 280 species of migrating neotropical 
birds--is also designated as an ``Important Bird Area'' by the National 
Audubon Society. Notably, a nesting population of Salt Marsh Sharp-
tailed Sparrows, listed by the State of Connecticut as a Species of 
Special Concern, has been documented at the Stewart B. McKinney NWR. In 
addition to the conservation value, the acquisition will also enhance 
opportunities for scientific research, environmental education, and 
fish and wildlife oriented recreation.
    The acquisition of this parcel by the Refuge will continue efforts 
to protect bird habitat along Connecticut's highly developed coastline. 
If funding is not made available in fiscal year 2008, there is a strong 
possibility that the parcel could be developed and Connecticut would 
lose more of the already-rare salt marsh habitat found on the subject 
property. On behalf of the COA, I hope you will provide the $710,000 in 
the fiscal year 2008 Interior Appropriations bill to ensure the success 
of this important conservation project.
    Thank you for the opportunity to present this request.
                                 ______
                                 
         Prepared Statement of the Conservation System Alliance
    The Conservation System Alliance is a coalition of more than 50 
conservation, historic preservation, recreation, and other groups 
working to protect and restore the Bureau of Land Management's National 
Landscape Conservation System. This testimony is submitted by John 
Garder, Public Lands Associate at The Wilderness Society, on behalf of 
the coalition.
    Ms. Chairman, the Conservation System Alliance would like to thank 
you for the opportunity to provide recommendations and comments on the 
fiscal year 2008 Department of the Interior and Related Agencies 
Appropriations bill. On behalf of our millions of members, we provide 
below our fiscal year 2008 funding recommendation for $69 million, and 
increased budget clarity and accountability, for the Bureau of Land 
Management's National Landscape Conservation System.
    The Conservation System is comprised of the most spectacular lands 
and waters under the stewardship of the Bureau of Land Management 
(BLM), like National Monuments, Wild and Scenic Rivers, and National 
Scenic and Historic Trails, that have been designated for protection by 
Congress or the President. Created in 2000, the System provides 
economic benefits to neighboring communities across the West through 
unparalleled opportunities for solitude, adventure and recreation such 
as hunting, fishing, and wildlife watching. These lands and waters 
offer opportunities for science, education, economic growth and 
recreation, and uses as diverse as grazing and archaeological research. 
Yet with bare-bones funding for management and land stewardship, the 
BLM is unable to keep its most extraordinary 26 million acres healthy, 
wild, and open.
    Adequate funding for the Conservation System is vital to protect 
America's most pristine BLM landscapes, which are vital components of 
our natural and cultural heritage. These lands and waters are a network 
of the last places where visitors can still experience the history and 
wild beauty of the American West. These special areas provide a 
uniquely American visitor experience; they are places where people can 
bring their families to escape the crowds and create their own 
adventure. Furthermore, they are a living classroom for academic 
researchers and outdoor educators. Congress can ensure that 
Conservation System lands and waters will remain valuable resources for 
present and future generations of recreators, ecologists, 
archaeologists, educators, and others by protecting these intact 
landscapes for public enjoyment, scientific research and outdoor 
education.
    However, Conservation System lands will not remain resource-rich 
without active stewardship. These extraordinary places are being ruined 
by vandalism, reckless off-road vehicle use, irresponsible resource 
extraction, and neglect. With an average of less than one ranger for 
every 200,000 acres, BLM lacks sufficient staff to adequately protect 
these lands. As a result, the agency spends more to repair damage than 
it would to provide the necessary staff and other resources to protect 
and restore invaluable cultural sites, riparian habitat, and other 
culturally and naturally significant places. Continuing damage to 
Conservation System lands and waters poses considerable threats to the 
integrity of these historically and biologically extraordinary 
landscapes.
fiscal year 2008 operations, maintenance, and planning budget needs for 
                               the system
    The President's fiscal year 2008 budget is the lowest level of 
funding ever proposed for the National Landscape Conservation System: 
$49.2 million, or less than $2 an acre. This constitutes a destructive 
cut of almost $3 million from the already inadequate fiscal year 2007 
enacted budget, and nearly $10 million, or more than 16 percent, from 
the insufficient fiscal year 2006 enacted level of $59 million. When 
accounting for inflation alone, and not even normal uncontrollable 
operating increases, the President's proposal is over 20 percent below 
average funding over the last 5 years. The administration's total 
proposed budget of just $49.2 million would leave critical BLM 
responsibilities and needs unmet, including law enforcement, management 
of illegal off-road vehicle traffic, archaeological site protection, 
control of invasive species, and the implementation of new Resource 
Management Plans.
    We respectfully request that the committee provide $69 million as 
permanent base funding for operations and management of the 
Conservation System, a modest increase over historic funding levels 
when adjusting for inflation. Priority needs include additional rangers 
and field staff, investments in monitoring and restoration to sustain 
the system's unique resources, cultural and historical site protection, 
and volunteer program support.
    This funding level would enable the BLM to restore needed services 
lost to recent funding cuts, while providing additional capacity to 
address areas of acute need, including:
  --Law enforcement and visitor management.--A 2005 survey of 15 
        Monuments and Conservation Areas in the System found that only 
        one-third has more than one full-time law enforcement ranger. 
        On average, one ranger patrols 200,000 acres. Enforcement staff 
        capacity needs to keep pace with growth in use; in some areas, 
        visitor numbers have quadrupled in the past 5 years.
  --Science and natural resource monitoring.--The BLM cannot meet its 
        responsibility to obtain adequate information on the health of 
        flora and fauna, riparian condition, water quality, and other 
        resources--a problem recently highlighted by the Heinz Center 
        and the Government Accountability Office.
  --Cultural Resource Management.--BLM does not have the personnel to 
        meet its congressionally mandated responsibility to identify, 
        evaluate, and nominate historic properties to the National 
        Register of Historic Places, and to protect cultural sites. The 
        Conservation System contains hundreds of thousands of 
        significant cultural and historic resources, yet the agency has 
        comprehensively inventoried just 6-7 percent of the area 
        encompassed by Conservation System Monuments and Conservation 
        Areas.
  --Support for Volunteer Programs and Conservation Partnerships.--The 
        Conservation System relies heavily on volunteers to help 
        educate visitors, restore areas damaged by illegal off-road 
        vehicle use, monitor cultural sites, and more. While volunteers 
        provide free work, BLM still needs at least modest resources to 
        create, run, and expand volunteer programs; ``partner'' groups 
        need support for their work as well. Few areas have adequate 
        resources to capitalize on the good will and free labor that 
        volunteers supply.
    The System offers innumerable examples where currently bare-bones 
funding is leading to irreparable resource damage. Colorado's Canyons 
of the Ancients National Monument, which has the highest density of 
cultural sites in America, has faced budget cuts of hundreds of 
thousands of dollars. The Monument has cut education and interpretive 
positions while existing staff contend with vandalism and theft of 
cultural resources. Another unmet BLM need, in Oregon's Cascade-
Siskiyou National Monument--an ecological wonder with a mandate to 
protect and retain its biological diversity--is to monitor the impacts 
of grazing and rangeland health on biological objects the Monument was 
created to protect.
    We also ask the committee to give serious consideration to any 
member requests for increasing programmatic funding or land acquisition 
funding for Conservation System units in the fiscal year 2008 
appropriations bill. These increases should be allocated in addition 
to, not in lieu of, funding already budgeted for each System unit in 
the BLM's fiscal year 2008 budget.
    conservation system land and water conservation fund priorities
    The President's fiscal year 2008 budget would provide just $4.1 
million for BLM land acquisition via LWCF--the lowest level ever and 
far below historic levels. We do support the projects proposed for 
funding from the Land and Water Conservation Fund in the President's 
request, but strongly recommend at least an additional $20 million for 
projects in Santa Rosa and San Jacinto Mountains National Monument 
(CA), Canyons of the Ancients National Monument (CO), Lewis & Clark 
National Historic Trail (MT), Cascade Siskiyou National Monument (OR), 
Steens Mountain Cooperative Management and Protection Area (OR), Rogue 
National Wild and Scenic River (OR), and the Oregon National Historic 
Trail (OR). These projects offer willing sellers, local support, and 
opportunities to resolve inholder/access issues and protect 
recreational opportunities and biological integrity.
   extend the president's fiscal year 2007 cultural resource funding 
                      increase to fiscal year 2008
    We supported the President's proposed $3 million program increase 
for cultural resource enhancement on BLM lands in fiscal year 2007 and 
are puzzled by the administration's failure to propose the increase 
again this year. We encourage the Interior Appropriations Subcommittee 
to increase funding for the BLM's cultural resource program by at least 
$8 million and direct the BLM to devote $5 million of this increase to 
inventory and protect the Conservation System's hundreds of thousands 
of significant archaeological and historic sites (both known and 
unknown), and the wild lands surrounding these sites. The subcommittee 
should also restrict the use of these funds to proactive management of 
cultural resources (surveys, necessary maintenance and stabilization of 
historic sites), and provide adequate funding to comply with Section 
106 of the National Historic Preservation Act, which should be funded 
by that account only.
         restore needed funding for the national trails system
    The BLM has prepared a 10 Year Strategy and Plan to bring its 13 
National Scenic and Historic Trails into full operation for public 
appreciation and enjoyment. Funding is needed to implement this Plan, 
including actions to preserve historic and cultural resources along 
national historic trails, to administer the Iditarod and Old Spanish 
National Historic Trails, to continue progress toward completing the 
Continental Divide National Scenic Trail in Wyoming and New Mexico, and 
to protect the Pacific Crest National Scenic Trail in southern 
California.
     conservation system management accountability and transparency
    BLM's budget structure for the Conservation System discourages 
program integration and limits accountability. For example, the System 
receives funding from 47 budget categories and subcategories, obscuring 
the total funding devoted to the System and how it is used within its 
different lands and waters. The BLM cannot effectively track 
Conservation System funding, so the President's budget does not provide 
a clear depiction of System expenditures. In order to ensure the 
efficient use of scarce conservation dollars, we urge the subcommittee 
to direct the Interior Department provide annual reports on System 
revenues, expenditures, and accomplishments, starting with budget 
documents for fiscal year 2007 and fiscal year 2008.
    Directing the DOI and the BLM to provide budget information on the 
System at the unit level (for example, accomplishments and financial 
information for each Monument, National Scenic and Historic Trail and 
Conservation Area)--akin to the level of detail DOI can provide on oil 
and gas leasing, and minerals management--would promote good government 
and accountability and help clarify the goals and needs of BLM's 
National Landscape Conservation System. We request that in future 
budget requests, the committee direct BLM to include unit-level 
allocations by major sub-activities for all non-wilderness and 
Wilderness Study Area (WSA) units. These unit-level allocations should 
be combined with Wilderness and WSAs under a new activity account for 
the entire National Landscape Conservation System.
                                 ______
                                 
    Prepared Statement of the Conservation Commission of Westbrook, 
                              Connecticut
    On behalf of the Conservation Commission of Westbrook, Connecticut, 
I appreciate the opportunity to present this testimony in support of a 
$710,000 appropriation from the Land and Water Conservation Fund for 
land acquisition within the Stewart B. McKinney National Wildlife 
Refuge. The Conservation Commission has, by Town ordinance, the 
responsibility for developing criteria for prioritizing open space 
protection and acquisition. The 20-acre Menunketesuck Salt Meadow Marsh 
meets the four top criteria: (1) protection of water resources 
including coastal zone resources; (2) protection of unique and 
sensitive habitats; (3) significantly contributes to the viability of 
adjacent protected open space; and (4) is under threat of development. 
The Commission has also has the responsibility for recommending 
acquisition of priority lands to the Town of Westbrook, or to private, 
State or Federal agencies, when appropriate. Acquisition of the 20-acre 
Menunketesuck Salt Meadow Marsh within the Stewart B. McKinney National 
Wildlife Refuge will add significant protection to the Refuge, to the 
Menunketesuck River estuarine habitat (one of Westbrook's most valuable 
natural resources), and a coastal resource of State and national 
significance.
    Named to honor the late U.S. Congressman who was instrumental in 
its creation, the Stewart B. McKinney National Wildlife Refuge was 
established to protect migratory bird habitat considered important to 
wading and shorebird species including heron, egrets, terns, plovers 
and oystercatchers among others. Stewart B. McKinney NWR is currently 
comprised of eight units stretching along 60 miles of Connecticut's 
coastline. In addition to the increase in habitat protection over the 
years, the refuge now provides opportunities for scientific research, 
environmental education, and fish and wildlife-oriented recreation. 
Located in the Atlantic Flyway, the refuge provides important resting, 
feeding, and nesting habitat for many species of wading birds, 
shorebirds, songbirds and terns, including the endangered roseate tern. 
Adjacent waters serve as wintering habitat for brant, scoters, American 
black duck and other waterfowl. Overall, the refuge encompasses over 
800 acres of barrier beach, tidal wetland and fragile island habitats.
    Available for refuge acquisition in fiscal year 2008 is the 20-acre 
Menunketesuck Salt Meadow Marsh in Westbrook, Connecticut. The property 
is comprised of pristine coastal tidal marsh, a forested upland, 
scrubland, and a rock outcropping that towers above 1,000 feet of 
frontage along the gentle Menunketesuck River as it winds its way to 
Long Island Sound. As a migratory stopover for neotropical migrant land 
birds, this riparian area is the top priority for acquisition for the 
refuge. The marsh property will enhance the resources of the current 
Salt Meadow Unit of the refuge, as it contains part of the least 
developed upland borders of any remaining tidal marsh in all of 
Connecticut. As much of the State's coastline has been built upon, it 
is rare to find such a large undeveloped marsh area in Connecticut. 
Under imminent threat of development into condominiums, this parcel 
must be acquired by the Refuge if it is to continue to serve as an 
island of forested habitat land on an otherwise highly developed 
coastline. In order to acquire the Menunketesuck Salt Meadow Marsh 
property, an appropriation of $710,000 is needed from the Land and 
Water Conservation Fund in fiscal year 2008. This priority acquisition 
will increase wildlife habitat protection at the Stewart B. McKinney 
NWR and ensure the public continued opportunities for recreation and 
environmental education along Connecticut's coastline.
    I respectfully request that you include an appropriation of 
$710,000 for the Stewart B. McKinney NWR in the fiscal year 2008 
Interior and Related Agencies Appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
            Prepared Statement of the Coquille Indian Tribe
                              introduction
    Mr. Chairman, my name is Tom Younker and I am the Vice Chairman of 
the Coquille Indian Tribe. Our Tribe is located on the southwest coast 
of Oregon. I appreciate the opportunity to submit testimony to you 
concerning the fiscal year 2008 budget requests for the Bureau of 
Indian Affairs and the Indian Health Service.
                    fiscal year 2008 budget requests
    In our efforts to provide quality government services to our tribal 
members and be responsible stewards in the management of our tribal 
lands, I bring to the attention of the subcommittee serious concerns 
that our Tribe has relating to the following Federal programs and 
proposed fiscal year 2008 funding levels for tribes:
Bureau of Indian Affairs (BIA)--$10 million
    Endangered Species Act--$4 million
    Road Maintenance--$5 million
    Development of Renewable Energy Resources--$1 million
Indian Health Service (IHS)--$210.1 million
    Contact Health Services--$47.1 million
    Behavioral Health (Alcohol and Substance Abuse)--$13 million
    Contract Support Costs--$150 million
Total Fiscal Year 2008 Budget Requests (BIA & IHS)--$220.1 million
    In addition to these specific budget matters, I also want to bring 
your attention to an issue that is also very important not only to my 
Tribe, but all of Indian country:
  --Reauthorization of the Indian Healthcare Improvement Act
Endangered Species Act Funding--$4 million
    The BIA has a trust responsibility to provide comprehensive 
management of Indian forest lands. This responsibility includes surveys 
and other on-the-ground activities mandated by the Endangered Species 
Act (ESA) of 1973, as amended. Despite this mandate, funds appropriated 
to the BIA for ESA compliance have been limited and have declined 
substantially since Congress first appropriated funds to the BIA for 
ESA compliance. The President's fiscal year 2008 budget request will 
fund just two central office personnel, failing to comply with ESA 
mandates that must be carried out in the field.
    For the Coquille Indian Tribe, which is harvesting timber within 
the range of endangered species such as the Northern Spotted Owl and 
Marbled Murrelet, surveys are essential to comply with ESA mandates. 
The current support provided by the BIA is limited to $5,000 to $7,000 
annually (if available). This amount of funding satisfies only 6-10 
percent of the Tribe's annual need ($75,000). Without this funding, the 
Coquille Forest Tribal Timber Harvest program is in danger of failing 
to meet the ESA compliance mandates. In addition, general Tribal funds 
which can be applied to other Tribal programs must be reallocated to 
cover the funding shortfall. The Coquille Indian Tribe recommends that 
a minimum of $4 million be appropriated to the BIA to meet ESA 
compliance requirements.
Road Maintenance--$5 million
    The BIA Road Maintenance program provides maintenance of roads and 
bridges constructed under the Indian Reservation Roads Program in 
Indian Country. The goal of this program is ``the Advancement of 
Quality Communities for Tribes & Alaska Natives.''
    Unfortunately, the President's Budget falls tragically short of 
achieving this worthy goal. The fiscal year 2008 President's Budget 
would result in only 14 percent of participating roads in acceptable 
condition and only 44 percent of bridges in acceptable condition. As a 
consequence many roads and bridges in Indian country are in 
unacceptable levels of disrepair. We urge you to raise this funding 
level to help this program reach its goal by supplementing this funding 
by at least $5 million.
Woody Biomass Project to Support Renewable Energy Supply--$1 million
    There are 18 million acres of Indian forests and woodlands which 
produce large amounts of woody biomass material suitable for energy 
production. The goals of Indian forest management are to restore and 
maintain health of Tribal forests and woodlands and to provide a 
sustainable supply of forest products for economic opportunities. 
Indian tribes place a high importance on resource protection and 
emphasize that an integrative, holistic approach be taken in managing 
all forest resources, recognizing a multiplicity of uses and values. 
While biomass utilization supports tribal goals and desired management 
approaches for Indian forests and woodlands, opportunities for biomass 
projects have been limited due to lack of specific funding in the BIA 
forest management program.
    Our Coquille Forest lands are located in the Oregon Coast Range 
which includes some of the most productive forest lands in the Nation. 
These Tribal lands and surrounding Federal forests contain thousands of 
acres of dense forest stands capable of producing vast quantities of 
woody biomass as a renewable energy supply. Production of woody biomass 
by thinning of these overstocked forest stands will improve forest 
health, reduce hazardous fuels and decrease the risk of wildfires. The 
Coquille Tribe recently initiated a study to determine the feasibility 
of developing a 20 megawatt or larger power generating facility 
utilizing woody biomass. While the feasibility study has the support of 
the State of Oregon and numerous other entities, full implementation of 
the project is currently delayed due to lack of funding which has been 
requested from the BIA.
    The Coquille Tribe requests additional funding in the amount of $1 
million be provided to the BIA forestry program to provide technical 
assistance to Tribes in the planning and development of woody biomass 
projects for renewable energy production.
Contract Health Services--$47.1 million
    Like all other tribes in the IHS Portland Area, the Coquille Indian 
Tribe depends heavily upon Contract Health Services to serve Tribal 
members' medical needs because there are no IHS hospitals within the 
region. Long-term, gross under-funding of the IHS Contract Health 
Service Program has forced the Coquille Indian Tribe to make harsh 
choices regarding the level of medical care that it provides to the 
Coquille Indian People. The fiscal year 2008 budget falls short of even 
maintaining the existing Contract Health Service Program. The Coquille 
Tribe's Contract Health Services expenses have increased at an average 
of 18 percent per year from 1996-2006, far outpacing any increase in 
IHS funding. The vast discrepancy between the IHS budget and medical 
inflation have forced the Coquille and other tribes to choose between 
funding programs for education, social services, law enforcement, 
economic development, housing and natural resource management, or 
maintaining a basic health care program for their people. To maintain 
current services in fiscal year 2008, the Coquille Indian Tribe 
recommends that Congress appropriate $47.1 for the Contract Health 
Services Program, an $18.4 million increase over the President's 
request.
Behavioral Health (Alcohol and Substance Abuse)--$13 million
    The Coquille Indian Tribe supports the President's proposed 
increase of $12.3 million to the Indian Health Services budget for 
Alcohol and Substance Abuse Programs, but notes that this increase is 
required only to maintain existing services. Problems with substance 
and alcohol abuse continue to plague Indian people and their families. 
There is a significant lack of adequate and appropriate treatment 
facilities within the Southern Oregon region. The methamphetamine 
epidemic has impacted the Coquille Tribe as drastically as other tribes 
in the Northwest. Treatments for successful recovery from meth addition 
have been demonstrated, but the costs to adequately treat 
methamphetamine addiction are enormous and there are few facilities in 
our area that provide this specialty care. To fight these addictive 
diseases and this growing epidemic in Indian country, the Coquille 
Indian Tribe recommends increased funding for these programs 
significantly beyond the President's request.
Contract Support Costs--$150 million
    For more than three decades the promise of Self-Determination has 
been undermined by chronic under-funding of contract support costs. 
Contract support costs provide tribes with the funding necessary to 
administer the programs assumed from the Federal Government through 
Self-Determination. Despite congressional amendments to the Indian 
Self-Determination Act in 1988 and 1994 aimed at correcting 
deficiencies, the agencies still request and Congress still 
appropriates less than needed each year to meet their legal obligation, 
paying far less than tribes are entitled to or need. According to the 
IHS, that deficiency has accumulated over the years to over $150 
million. This shortfall robs Tribes of precious limited resources that 
might otherwise be put to the important work of economic self-
sufficiency, education of our young, health care and numerous other 
priorities.
        reauthorization of the indian healthcare improvement act
    Although we recognize it is not in this committee's jurisdiction, 
The Coquille Indian Tribe wishes to note our strong support for 
reauthorization of the Indian Healthcare Improvement Act (IHCIA). 
Provisions of the IHCIA are crucial to assuring the health and 
wellbeing of the Coquille and all Indian people. Major provisions of 
the IHCIA address significant health concerns of the Coquille Tribe, 
including behavioral health programs, eldercare, modernization of 
health care delivery, and health promotion and disease prevention.
    Thank you, Mr. Chairman. That concludes my testimony.
                                 ______
                                 
                Prepared Statement of the Corps Network
    The Corps Network (formerly the National Association of Service and 
Conservation Corps or NASCC) urges you to fully fund the Public Lands 
Corps at $12,000,000 in fiscal year 2008 through the Departments of 
Agriculture and Interior. The Corps Network is the voice of our 
Nation's 115 Service and Conservation Corps which operate in 42 States 
and enroll more than 23,000 young people every year.
    The Public Lands Corps is an authorized program that was signed 
into law through the Public Lands Corps Healthy Forests Restoration Act 
of 2005 (Public Law 109-154) and authorizes the Secretaries of 
Agriculture and Interior to contract with ``qualified youth and 
conservation corps'' to carry out critical projects on public lands. 
The primary purposes of the Public Lands Corps Healthy Forests 
Restoration Act of 2005 are twofold:
    (1) to employ youth Service and Conservation Corps as a tool to 
assist land managers in the ongoing efforts to fight wildfires, 
invasive species and other threats to our public lands, and
    (2) to engage young people, particularly those who are 
disadvantaged, in these efforts.
    The priority projects identified in the authorization legislation 
address issues of significance to our Nation. Priority projects are 
designed: ``(A) To reduce wildfire risk to a community, municipal water 
supply, or other at-risk Federal land; (B) To protect a watershed or 
address a threat to forest and rangeland health, including catastrophic 
wildfire; (C) To address the impact of insect or disease infestations 
or other damaging agents on forest and rangeland health'' and for other 
purposes. These funds would also enable Corps to do disaster prevention 
and relief activities on Federal, State, local and private land as part 
of a Federal disaster relief or prevention effort. This is the kind of 
work at which Corps excel.
    Funding the Public Lands Corps (PLC) will allow Federal land 
managers to more cost-effectively deploy resources to fight the effects 
of wildfires and invasive species, as well as complete backlogged 
projects. Youth Service and Conservation Corps are cost-effective 
partners and Corps provide a 25 percent non-Federal match for every 
project. In addition, Corps represent trained, experienced and mobile 
workforce that can quickly and efficiently complete a wide variety of 
projects.
    With a diverse pool of 23,000 young people, Corps are a means for 
Federal land managers to hire skilled and experienced Corpsmembers to 
fill the shoes of the many career land managers that are nearing 
retirement. With this in mind, the Public Lands Corps Act allows the 
Secretary of Agriculture and the Secretary of Interior to provide non-
competitive hiring status for Corps alumni for 120 days after service 
is complete, allowing Federal land managers to more easily hire 
Corpsmembers into fulltime jobs.
              service and conservation corps and wildfires
    Service and Conservation Corps are an experienced, cost-effective, 
and valuable resource in the fight against wildfires. The Public Lands 
Corps can, and should, play a key role in the implementation of the 
National Fire Plan, especially with regard to forest and wildland 
rehabilitation, hazardous fuels reduction and community assistance.
    Corps help to ensure that the necessary resources are available to 
respond to fires and provide logistical support to firefighters. Across 
the Nation, they participate in emergency stabilization and 
rehabilitation activities like reforestation, road and trail 
rehabilitation, fence replacement, fish and wildlife habitat 
restoration and replanting and reseeding with native vegetation. They 
have experience reducing hazardous fuels to reduce the risks of fires 
to people, communities and natural resources. Corps also have 
experience in helping communities that have been, or are at-risk of 
fire by educating citizens on the effects of fire and doing community 
fire protection planning.
    According to the Climatic Data Center of the Department of 
Commerce, in 2006 some 96,326 fires consumed 9.8 million acres--the 
worst year for fires since 2000. Federal agencies spent $1.9 billion on 
fire suppression in 2006. One factor that increases the wildfire threat 
and cost is the growing number of new homes in the wildland/urban 
interface. About 8.4 million new homes, or 60 percent of new homes, 
were built in the interface during the 1990s.
    In 2004 the National Fire News noted that ``as firefighters control 
wildland fires, another group of quiet heroes move into the area to 
start the healing. After a wildland fire, the land may need 
stabilization to prevent loss of topsoil through erosion and prevent 
the movement of dirt into rivers and streams. Land management 
specialists and volunteers jump start the renewal of plant life through 
seeding and planting with annuals, trees, and native species that help 
retain soils and fight invasive weeds. It's a long term process that 
comes alive as the wildland fires die down.'' Corpsmembers quite often 
serve as these ``quiet heroes.'' Corps nationwide are proving to be 
cost-effective partners in the effort to combat wildfires:
    The Washington Conservation Corps (WCC) has partnered with Olympic 
National Park for 12 years. Since January 2007, the WCC crew has been 
bucking up hundreds of downed old growth trees toppled during several 
fierce windstorms that hit the region during the winter. The primary 
goals of this project are to reduce fire fuels and increase access. 
Many of the downed trees are in popular campgrounds. The WCC crew is 
also limbing trees and cleaning up areas around park headquarters and 
residences.
    The California Conservation Corps (CCC) operates statewide and has 
a dedicated 18-person crew that partners with Whiskey Town National 
Park located near Redding, CA. This CCC crew is 100 percent focused on 
wildfires and performs controlled burns, completes hazardous fuels 
reduction and cuts fuel breaks. The CCC and NPS have partnered together 
on providing trainings and other related work for 6 years. The CCC crew 
typically works year round.
    The Southwest Conservation Corps (SCC), based in Durango, CO, 
worked with Mesa Verde National Park to complete fire fuels reduction 
at Chapin Mesa to reduce the risk of wildfire. Mesa Verde NP has a 
significant history of wildfire, especially in recent years. Mesa Verde 
NP needed assistance from SCC in removing hazardous fuels from key 
areas in advance of 100th anniversary celebrations. The entire SCC crew 
received 40 hour chainsaw training and certification by SCC staff. 
Corpsmembers also received S130/S190 Introduction to Wildland 
Firefighting at the conclusion of their 4 month term of service so as 
to prepare them for obtaining jobs in the wildland fire management 
industry.
    The Coconino Rural Environment Corps (CREC), based in Flagstaff, 
AZ, thins hundreds of acres of Federal, State, county, city, and 
private lands every year. CREC has created multiple partnerships in 
local communities to mitigate the hazards of catastrophic wild fires 
including one to provide local Native American communities with more 
than 400 cords of fire wood. The Corps has increased community 
awareness to the dangers of wildfire and the risks associated with 
living in one of the most fire prone forests in the world, thus 
creating a more ``fire wise'' community. CREC thins more than 500 acres 
a year and returns more than 4,000 acres to native grasslands.
          service and conservation corps and invasive species
    Invasive species are another enormous and growing threat to our 
public lands. Almost half of the plants and animals listed as 
endangered species by the Federal Government have been negatively 
affected by invasive species. Purple loosestrife, for example, 
diminishes waterfowl habitats, alters wetland structure and function, 
and chokes out native plants. The Asian long horned beetle destroys 
valuable city trees and could spread. According to the U.S. Department 
of Agriculture, invasive alien plant infestations cover 100 million 
acres (an area twice the size of Delaware) and are spreading at a rate 
of 14 percent per year. Recent studies have also revealed that the San 
Francisco Bay is invaded by a new exotic species on the average of once 
every few weeks. NASA estimates a cost to the U.S. economy to monitor, 
contain, and control these species, including plant, animal and 
disease-related invasives, at $100-$200 billion per year--an annual 
cost greater than that for all natural disasters combined.
    Corps have been mobilized nationwide to combat invasive species 
like Tamarisk, Leafy Spurge and Russian Olive and to combat 
agricultural pests and insects such as the Bark Beetle and Pine Beetle. 
For example:
    The Alaska Service Corps (ASC) was tasked with a week-long invasive 
removal project in one of Alaska's premiere National Parks, Wrangell 
St. Elias. Alaska's National Parks have few invasive species compared 
to National Parks in other States. Wrangell St. Elias is invested in 
maintaining this relatively pristine gene pool and provide early 
detection and rapid response and removal when new invaders are 
observed. The ASC crew help eradicate White Sea Clover & other invasive 
plants from key areas near the Slana Visitor Center. The ASC crews 
efforts allows native plants opportunities to reseed and enhance the 
experience for residents and tourists.
    The Rocky Mountain Youth Corps (RMYC), based in Taos, New Mexico 
and the Western Colorado Conservation Corps (WCCC), based in Grand 
Junction, Colorado, have been actively involved in Tamarisk removal for 
several years. The WCCC has partnered with the Colorado State Parks 
Department and the State Division of Wildlife, the Audubon Society, and 
the Tamarisk Coalition to control acres of Tamarisk and Russian Olive, 
Hounds Tongue, Canada Thistle and other species, as well as 15 miles of 
Salsafy, Russian Thistle, and Storks Bill.
       about the corps network and service and conservation corps
    The Corps Network is the voice of our Nation's 115 Service and 
Conservation Corps which operate in 42 States and enroll more than 
23,000 young people every year who contribute 13 million hours or 
service to their communities each year.
    Service and Conservation Corps are direct descendents of the 
Civilian Conservation Corps (CCC) of the Depression-era that provided 
work and vocational training for unemployed single young men through 
conserving and developing the country's natural resources. Between 1933 
and 1941 when it was disbanded, the CCC had employed almost 3.5 million 
men who planted an estimated 2.5 billion trees, protected 40 million 
acres of farmland from erosion, drained 248,000 acres of swamp land, 
replanted almost a million acres of grazing land, built 125,000 miles 
of roads, fought fires, and created 800 State parks and 52,000 acres of 
campgrounds. But the biggest legacy of the CCC may have been the hope 
it provided both the young men and their families.
    Today's Corps are a proven strategy for giving young men and women, 
many of whom are economically or otherwise disadvantaged and out-of-
work and/or out-of-school, the chance to change their own lives and 
those of their families, as well as improve their communities. Of the 
23,000 Corpsmembers enrolled in 2004-2005, 55 percent had no High 
School diploma, 64 percent reported family income below the Federal 
poverty level, 30 percent had previous court involvement and, at least 
10 percent had been in foster care. Contemporary Corps provide 
thousands of 16-25 year olds the opportunity to earn a second chance in 
life through hard work and service to their communities.
    In the Corps model, Corpsmembers are organized into crews of 8-12 
to carry out these projects while being guided by adult leaders who 
serve as mentors and role models as well as technical trainers and 
supervisors. For the past 25 years Corps have re-engaged society's most 
vulnerable young people through a comprehensive approach of full-time 
service, a minimum-wage based stipend, job training, life skill 
development, career counseling and education. Most importantly, these 
young men and women learn to value their personal contribution, learn 
the importance of teamwork and experience the recognition that comes 
from making a positive investment in their community.
    Research has shown that youth who complete Corps programs have 
higher rates of employment and earn more than their counterparts. 
Corpsmembers also score higher on measures of personal and social 
responsibility and are more likely to earn a college degree. Corps 
generate a positive return for every dollar invested.
    The Public Lands Corps will provide work experience to low-income, 
disadvantaged youth between the ages of 16-25, giving them the chance 
to develop the skills and habits they will need to become employed and 
productive citizens. This experience will help them help themselves, 
their families, and their communities. It will also enable Federal land 
managers to cost-effectively complete critical backlogged maintenance 
projects. We urge you to provide $12 million for the Public Lands Corps 
and we appreciate your attention to this request.
                                 ______
                                 
Prepared Statement of the Cradle of Texas Conservancy and the Galveston 
                             Bay Foundation
    Mr. Chairman and honorable members of the committee: Thank you for 
the opportunity to testify in support of a Land and Water Conservation 
Fund request for $3 million to permit the U.S. Fish and Wildlife 
Service to acquire the 1,988 acre McGinnes property at the San Bernard 
National Wildlife Refuge in Texas.
    I would also like to take this opportunity to commend the chairman 
and subcommittee members for supporting ample funding for land 
acquisition through the Land and Water Conservation Fund. This project 
at the San Bernard National Wildlife Refuge provides but one example of 
the profound need for Federal funding for land acquisition nationwide. 
In Texas, and throughout the country, Federal land acquisition is 
critical to both protect our public lands and to augment State and 
community efforts to preserve natural and recreational resources.
    For the past 35 years I have been involved in coastal conservation 
issues on the local, State, and national level. Those include coastal 
management, oil spills, RECRA, CWA, wetlands, land conservation, on-
shore impacts of oil spills and CBRA. These are issues that I have 
testified before the United States House and Senate committees in 
Washington. I received two presidential/congressional appointments to 
the National Advisory Committee on Oceans and Atmosphere. I have 
received 4 Governor's appointments in these issue areas in Texas; and 
other appointments from the General Land Office of Texas, and Texas 
Parks and Wildlife. In the mid-80's I lobbied for and co-submitted the 
States application to Congress for the inclusion of Galveston Bay in 
the Clean Water Act. As a result of the creation of the Galveston Bay 
Estuary Program, I worked with attorney Jim Blackburn to create the 
Galveston Bay Foundation to parallel the functions of the Chesapeake 
Bay Foundation. We are now 20 years old, and I still serve on the 
executive committee. The Cradle of Texas Conservancy was founded by 
conservationist Andrew Sansom in 1984 to be the land trust for Brazoria 
County as it developed a county park system, and for conservation 
purposes. I have served on the board since the beginning. We have 
helped create 11 county parks and many city parks. We also hold over 
3,000 acres including critical habitat in the Galveston Bay area and 
the Columbia Bottomlands/Austin's Woods within Brazoria County.
    The Texas Mid-Coast National Wildlife Refuge (NWR) Complex is 
comprised of three refuges: the Brazoria NWR, the Big Boggy NWR, and 
the San Bernard NWR. Located just south of Houston, this refuge complex 
serves as a haven for both wildlife and thousands of people living in 
the Houston metropolitan area. These three units form a vital complex 
of coastal wetlands harboring more than 300 bird species and offering 
exceptional wildlife viewing opportunities. The vast expanses of salt 
and freshwater marshes, sloughs, ponds, coastal prairies, and 
bottomland forest provide feeding and nesting habitat for a myriad of 
species throughout the year. Further, they serve as an end point of the 
Central flyway for migrating waterfowl in the winter months and as an 
entry point for neotropical songbirds migrating north from Mexico.
    The San Bernard National Wildlife Refuge was established in 1968 to 
provide quality habitat for wintering migratory waterfowl and other 
bird life. The 41,000-acre refuge is located in Brazoria and Matagorda 
counties, 12 miles west of Freeport in southeastern Texas. The refuge 
consists of flat coastal prairie and salt marsh with numerous saltwater 
lakes, shallow freshwater lakes, associated marshlands, intermittent 
streams, and bottomland hardwood forest areas.
    Available for acquisition in fiscal year 2008 is the 1,988-acre 
McGinnes tract located in the Linville Bayou Unit of the San Bernard 
NWR. Comprised of old growth bottomland forest, wetland, and associated 
upland habitats, the McGinnes tract would serve as an important 
addition to the Linville Unit as it would consolidate tracts of high 
quality habitat rarely seen. The addition of the McGinnes tract would 
consolidate over 1,400 acres of old-growth bottomland forest, making it 
one of the largest old-growth bottomland forests in public ownership. 
Once acquired, the refuge will seek to restore the entire tract to its 
original forested State. Located directly adjacent to previous-year 
acquisitions, the protection of the McGinnes tract will help 
consolidate refuge lands and safeguard previous Federal investments.
    The National Significance of adding these bottomland hardwood areas 
to the Austin's Woods/San Bernard Refuge now, while there's still some 
left is that this bottomland forest is located directly in the center 
of the Gulf of Mexico. It is a visual clues in this area for migrating 
birds 200 miles out in the Gulf. The biggest visual clues are the 
Brazos River in the Columbia Bottomland/Austin's Woods, and Galveston 
Bay. The Brazos River is the second largest stream flow into the Gulf 
of Mexico after the Mississippi River, anywhere in the Gulf from 
Florida to Yucatan. Birds also migrate using magnetic fields. The long-
shore current of the Gulf of Mexico changes direction twice a year, 
usually in April and October. Off-shore debris washes up along the 
Brazoria/Matagorda coastline more than any other part of the coast. 
This was documented in the 80's and 90's by marine debris studies done 
by the Texas General Land Office and the Department of Interior, Marine 
Management Service. The significance of this is location. This 
bottomland forest, located in the middle of the gulf is more 
significant than any other bottomland forest in the United States for 
migrating and wintering songbirds.
    As a result of a wetland lawsuit in the mid-90's, increased studies 
have shown the significance of this wetland forest for the majority of 
the Nations migrating songbirds. These birds migrate three ways. One, 
down the Pacific Coast. Two, down the Atlantic Coast and either across 
Cuba from Florida--or around the coast to Mexico. Three, the Central 
Flyway of mid-America comes through Texas and particularly through this 
mid-coast area. The tall canopy of trees along the multi-waterways of 
these coastal counties provides resting space where these birds spend 
up to 2 months building up strength for their flight across or around 
the Gulf. And in the spring, it is more significant for those who fly 
across the Gulf to rebuild their body weight prior to migrating on.
    Current research is finding a much larger number and species of 
wintering birds than previously believed. Any real estate agent will 
tell you that the first and last rule of real estate is location, 
location, location. As Houston expands these critical spots for habitat 
are disappearing rapidly, and the price is accelerating rapidly. Look 
on the map, this is the only major forest for these birds that close to 
the coast. It is also the only bottomland forest along the Gulf that 
still has Old-Growth tracts left! If it isn't acquired now it will be 
impossible to acquire it later. This acquisition also provides 
opportunity for Carbon Sequestration. It is already impossible to find 
a tract that has not been partially cleared due to the taxation policy 
(agricultural exemption) of the United States. Since it does not seem 
likely that the tax policy is going to change quickly, that pressure 
will not be lessened. This refuge complex provides sequestration and 
habitat opportunities that U.S. environmental policy supports.
    Mr. Chairman, thank you for this opportunity to testify for this 
significant project at the San Bernard National Wildlife Refuge in 
Texas. If you have any questions, please feel free to contact me, and I 
will do my best to provide the answers.
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Madam Chairwoman and distinguished members of the subcommittee, 
Dance/USA is grateful for this opportunity to submit testimony on 
behalf of our members. We urge the committee to designate a total of 
$176 million to the National Endowment for the Arts (NEA) for fiscal 
year 2008. This testimony is intended to highlight the importance of 
the Federal investment in the arts to sustaining a vibrant cultural 
community.
    Dance/USA, the national service organization for not-for-profit 
professional dance, believes that dance is essential to a healthy 
society, demonstrating the infinite possibilities for human expression 
and potential, and facilitating communication within and across 
cultures. Dance/USA sustains and advances professional dance by 
addressing the needs, concerns, and interests of artists, 
administrators, and organizations. By providing services and national 
leadership, Dance/USA enhances the infrastructure for dance creation, 
education and dissemination. To fulfill its mission, Dance/USA offers a 
variety of programs, including data research and regional professional 
development, and works with organizations within and outside the arts 
field with whom common goals are shared. Dance/USA's membership 
currently consists of over 400 ballet, modern, ethnic, jazz, culturally 
specific, traditional and tap companies, dance service and presenting 
organizations, artist managers, individuals, and other organizations 
nationally and internationally. Dance/USA's member companies range in 
size from operating budgets of under $100,000 to over $50 million.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The Arts Endowment has 
helped strengthen regional theater, opera, ballet and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographical limitations. The Endowment embodies the ideal that no 
one should be deprived of the opportunity to have art in their lives. 
The Arts Endowment has helped the arts become accessible to more 
Americans, which in turn has increased public participation in the 
arts.
    Despite diminished resources, the NEA awards more than 1,000 grants 
annually, to nonprofit arts organizations for projects that encourage 
artistic creativity. These grants help nurture the growth and artistic 
excellence of thousands of arts organizations and artists in every 
corner of the country. NEA grants also preserve and enhance our 
Nation's diverse cultural heritage. The modest public investment in the 
Nation's cultural life results in both new and classic works of art 
reaching all 50 States.
    NEA grants are instrumental in leveraging private funding. On 
average, each NEA grant generates at least $7 from other sources. 
Government cultural funding plays a catalytic leadership role that is 
essential in generating private support for the arts.
  nea is a great investment in the economic growth of every community
    The return of the Federal Government's small investment in the arts 
is striking. The non-profit arts generate approximately $134 billion 
annually in economic activity, support 4.85 million jobs, and return 
$10.5 billion in Federal income taxes. Few other Federal investments 
realize such economic benefits, not to mention the intangible benefits 
that only the arts make possible. Even in the face of tremendous 
cutbacks in recent years, the NEA continues to be a beacon for the arts 
organizations across the country.
                           nea grants at work
    NEA grants are awarded to dance organizations through its core 
programs Access to Artistic Excellence, Challenge America: Reaching 
Every Community, Federal/State Partnerships, and Learning in the Arts, 
as well as through initiatives such as American Masterpieces: Dance. 
The following is a description of a dance organization that is able to 
capitalize on its NEA Access to Artistic Excellence grant and bring 
outstanding artists in the dance field to the people of Massachusetts 
and the United States:
    Jacob's Pillow Dance Festival in Becket, MA is renowned throughout 
the world as a cultural icon; it celebrates its 75th anniversary this 
year. Called ``the hub and mecca of dancing in North America,'' by Time 
Magazine, Jacob's Pillow has been named one of America's Irreplaceable 
Dance Treasures by the Dance Heritage Coalition, is listed on the 
National Register of Historic Places, and recently became the first 
dance institution to be designated by the Federal Government as a 
National Historic Landmark. The Christian Science Monitor has referred 
to Jacob's Pillow as ``the largest, longest, oldest and most 
comprehensive dance festival in the world,'' and it is indisputably one 
of the most beloved and enduring cultural institutions in existence 
today.
    In 2007, Jacob's Pillow was awarded $70,000 to support residencies 
and performances of dance companies during Jacob's Pillow Dance 
Festival's 75th anniversary. The project will include a Creative 
Development Residency, presentation of national and international dance 
companies, and audience engagement programs and educational programs.
                non-profit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And, yet, America can boast some of the greatest dance 
companies of the world and can take credit for birthing two indigenous 
dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970's, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. NEA programs today, 
like the National College Choreography Initiative, continue to ensure 
that the best of American dance is for all of America and a showpiece 
for the rest of the world as well. There are now over 600 professional 
dance companies in America as well as over a thousand pre-professional 
and semi-professional groups. Based on recent surveys, Dance/USA 
estimates that the 79 largest and most visible non-profit dance 
companies in the United States do the following:
  --Employ over 7,000 people.
  --Perform for total home audiences of nearly 3.3 million people. This 
        does not include touring audiences, nor does it count the 
        millions who attend performances given by the hundreds of dance 
        companies with budgets under $1 million.
  --Pay nearly $227.9 million in wages and benefits.
  --Have operating expense budgets totaling $439.4 million.
  --Earn $171.0 million, or 38 percent of their income, from 
        performances.
  --Earn $104 million from sales, tuitions and activities other than 
        performances.
  --Received $14.2 million from State, local, and government 
        contributions.
  --Receive $25.6 million from corporate contributions.
  --Receive $55.4 million from private foundations.
  --Receive $132 million from individual contributions through 
        donations, benefit events, guilds, and United Arts drives.
  --Have over 26,500 volunteers, including over 3,100 members of Boards 
        of Trustees.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, and its programs are 
seriously underfunded. Dance/USA and other performing arts service 
organizations work hard each year to strengthen support for the NEA in 
Congress. As the NEA banner underscores, a great Nation deserves great 
art. In order for there to be great art, organizations need stronger 
infrastructure and stability. We urge you to increase the 2008 NEA 
funding allocation to $176 million.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife
    Madam Chairwoman and members of the subcommittee, I am Jamie 
Rappaport Clark, Executive Vice President of Defenders of Wildlife. 
Founded in 1947, Defenders of Wildlife has over 500,000 supporters 
across the Nation and is dedicated to the protection and restoration of 
wild animals and plants in their natural communities.
    I come before today you not only in my capacity with Defenders of 
Wildlife but as a former Federal career employee with the U.S. Fish and 
Wildlife Service, and, subsequently its director, to tell you that the 
Fish and Wildlife Service (FWS) is an agency in crisis, and the 
wildlife related programs in the other land management agencies also 
are at the breaking point. Budgets over the last 6 years have left the 
Service in danger of failing at mission critical programs, unable to 
meet its inherently Federal obligations for both domestic and 
international wildlife conservation. Fixed costs have gone unmet and 
the agency is cannabilizing itself to stay afloat. As staffing keeps 
shrinking far below needed levels, the agency is undergoing a massive 
restructuring, institutionalizing a smaller FWS with resources 
inadequate to satisfy its mission. Defenders deeply appreciates the 
needed infusion of funds provided in H.J. Res. 20, the fiscal year 2007 
appropriations bill. Unfortunately, significant additional funding will 
be needed over the coming years to reverse the damage to the FWS and 
other agencies and to make them once again whole. We know that the 
subcommittee must operate within the constraints of its 302(b) 
allocation, but we ask you to do as much as possible. Defenders has 
worked during the development of the fiscal year 2008 congressional 
budget resolutions to support important increases for the environment 
and natural resources budget function, and we will continue to work for 
increases for the subcommittee for fiscal year 2008 and the coming 
years.
    To prevent collpase of the agency's functions, the subcommittee 
should begin to rebuild the FWS workforce which has suffered 
substantial losses. H. Rpt. 109-465 accompanying H.R. 5386, the fiscal 
year 2007 House Interior, Environment and related agencies 
appropriations bill expressed concern that FWS has lost 600 staff from 
2004-2006, equivalent to a 7 percent staffing reduction. Information on 
specific programs corroborates that the Service is facing a staffing 
crisis, and reductions in force or buyouts may be imminent in some 
regions. In addition, numerous key vacancies in mission critical 
functions are being left unfilled, creating serious challenges for 
program implementation in many areas.
  --The endangered species program is experiencing a 30 percent overall 
        vacancy rate in the ecological services account and in some 
        areas that rate may be close to 50 percent.
  --The Refuge System has lost nearly 230 staff from 2004-2006 and 
        projects a further reduction of at least 335 positions that 
        equal a 20 percent reduction in total.
  --Since 2002, the law enforcement program has lost 45 staff, more 
        than 8 percent overall, including 16 percent of its special 
        agents, and is in desperate need of both agents to enforce 
        Federal wildlife conservation laws and scientists for their 
        world renowned wildlife crime forensics laboratory. In 
        addition, the program will lose 10 more staff due to mandatory 
        law enforcement retirement by 2011 and another 10-15 agents 
        eligible are expected to retire voluntarily.
  --Over the past 3 years, under the International Wildlife Trade 
        program, the Division of Scientific Authority has lost one 
        third of an already very small number of employees and the 
        Division of Management Authority has suffered a 15 percent 
        staffing reduction.
    To stop severe erosion of programs, the subcommittee should fully 
fund fixed costs, including, if possible, unfunded amounts from earlier 
years. H. Rpt. 109-465 correctly highlighted severe erosion of programs 
throughout the bill due to absorption of rising fixed costs, such as 
pay, rent, utility and fuel, observing that the nine largest agencies 
in the bill have suffered over $1.2 billion in ``hidden'' decreases 
from fiscal year 2001-2006. The National Wildlife Refuge System is a 
poster child for these impacts. According to Service data, the System 
needs a $15 million yearly increase just to keep up with annual fixed 
costs. Based on this figure, just to stay even with the peak fiscal 
year 2004 level of $391.5 million, its fiscal year 2008 funding level 
should be $451.5 million. Other programs in FWS need 3-5 percent in 
increases each year to keep up with fixed costs. They, like the refuge 
system, are continuing to spiral downwards in an unacceptable manner.
    The subcommittee should restore the integrity of the National 
Wildlife Refuge System, one of the crown jewels in our Nation's 
conservation heritage. To cope with funding shortfalls, the Service is 
in the process of making an unacceptable ``Sophie's choice'' to 
restructure the Refuge System, practically ensuring that the Refuge 
System envisioned in the landmark 1997 National Wildlife Refuge System 
Improvement Act will never be realized. Forced to leave vacancies open, 
FWS is shifting staff to ensure that mission critical functions are 
carried out at highest priority refuges. Determining ``highest 
priority'' has been hugely challenging due to discrepancy among regions 
and lack of national policy guidance to ensure that critical 
conservation functions of the System as a whole are being maintained. 
Scores of refuges are being de-staffed, significant acreage is now 
overseen by distantly located staff, and services to the public and 
wildlife are being significantly cut, including loss of law 
enforcement, invasive species control, species restoration, and 
environmental education and other public use programs. The Cooperative 
Alliance for Refuge Enhancement, a diverse coalition of 21 national 
conservation, sporting, and scientific organizations will soon release 
a comprehensive analysis of Refuge System funding needs that recommends 
a yearly level of $765 million for Refuge Operations and Maintenance by 
fiscal year 2013.
    The subcommittee should provide increases to important FWS grant 
programs where it will not take needed funding from core agency 
operations, and provide direction that maximizes their efficiency. 
Defenders' highest priorities among the grant programs are the State 
and Tribal Wildlife Grants (STWGP), Cooperative Endangered Species 
Fund, and Landowner Incentive and Private Stewardship Grants. While we 
strongly support these programs, we also have been concerned that, 
under the guise of increasing cooperative conservation, the 
administration has justified cuts to core FWS operations by purporting 
to meet these obligations through funding the grant programs. The STWGP 
was established to serve the Federal interest by conserving species 
before they decline to the point where they need Endangered Species Act 
protection. We ask the subcommittee to continue its strong oversight of 
the implementation of the new Action Plans created through STWGP and to 
consider giving the Service direction to explore ways to maximize 
efficiency of all its grant programs by using the proactive Action 
Plans to help target their funding.
    The subcommittee should refocus the Bureau of Land Management (BLM) 
on its multiple use mission, and, in particular, halt the diversion of 
BLM wildlife funding to pay for energy and other programs. The 
administration has virtually converted the BLM from a multiple use 
agency to an agency dominated by one use: energy development. The full 
cost of the administration's energy policies has not been accounted for 
in budget requests, yet energy development and other extractive 
industries on Federal land are expected to generate $4.5 billion in 
2008 We ask the subcommittee to explore ways in which the extractive 
industries can be required to pay their fair share for mitigation needs 
and Federal costs associated with energy development. For example, we 
support the administration's proposal to repeal provisions in Section 
365 of the Energy Policy Act that prohibit BLM from implementing cost 
recovery fees for processing applications for permits to drill. Also, 
of high importance to Defenders, we ask the subcommittee to include 
language prohibiting the uncompensated diversion of resources from the 
Wildlife and Fisheries Management and Threatened and Endangered Species 
Management activities to other programs. As highlighted in the BLM's 
own internal reviews, these activities have routinely seen more than 30 
percent of funding siphoned away to pay for compliance activities of 
BLM's energy, grazing and other non-wildlife related programs, which 
should instead come from benefiting programs. In particular, funding in 
the Threatened and Endangered Species activity should be focused on 
proactive efforts to recover listed species on BLM lands. Moreover, 
this diversion of resources has made the Challenge Cost Share program 
increasingly important, with reports that it is the primary means 
through which proactive wildlife conservation work is accomplished. 
Finally, while the budget touts a $15 million cross-cutting ``Healthy 
Lands Initiative'' that it says is targeted to protecting wildlife and 
restoring habitat in energy interface areas, it is unclear exactly how 
this money will be spent, and whether it will be effective, given the 
small amount proposed in the face of such massive damage to the 
resources.
    The subcommittee should restore the LWCF. Habitat loss is the 
single biggest threat facing wildlife. According to a recent Forest 
Service report, the United States loses 6,000 acres of open space a day 
or 4 acres each minute. The Bush administration has repeatedly cut LWCF 
funding by increasingly greater levels each year. Even though the 
unspent balance in the Fund on paper will exceed $15 billion by the end 
of fiscal year 2007, the Bush administration proposed just $57.9 
million in its fiscal year 2008 budget, a 60 percent cut below fiscal 
year 2006 levels.
    The subcommittee should begin to address pressing needs related to 
increased U.S.-Mexico border traffic and enforcement. Federal lands 
along the Southwest border continue to suffer significant damage from 
the impacts of illegal immigration and related enforcement, including 
tons of trash, hundreds of miles of illegal trails and roads, hundreds 
of abandoned vehicles, fouled water sources, vandalized and stolen 
facilities and equipment, and degraded habitat across the landscape. 
Public lands in the area are spending significant portions of already 
insufficient budgets in inadequate attempts to deal with the impacts. 
To date, there has been no assessment by land management agencies of 
the costs to fully address the situation--we ask the subcommittee to 
include language in the bill requesting a full estimate of these costs 
in the fiscal year 2009 budget so that the subcommittee can take steps 
to provide the level of funding to ensure these lands and the wildlife 
they support are not irreparably harmed.
    The subcommittee should restore the integrity of the USGS 
cooperative fish and wildlife research units. Without an infusion of 
funds, one fifth of all CFWRU scientist positions (24) will be vacant 
by the end of fiscal year 2008 to remain within allowable spending 
levels. The Research Units provide critical scientific capability to 
the four land management agencies.
    The subcommittee should reject the administration's proposed cut to 
Forest Service (FS) wildlife and fisheries habitat management. Although 
more than 425 listed species and another 3,200 at-risk species occur on 
FS lands, the budget proposes an 11 percent cut ($14.1 million) and 
reduction of 187 staff.
    The subcommittee should take steps to block any administrative 
proposal that would undermine the Endangered Species Act. Recently, FWS 
draft documents were leaked that propose sweeping changes that, if 
enacted by rule, would dramatically alter implementation of the ESA. 
While Department of the Interior officials have stated that many of 
these changes are no longer under consideration, it is clear that new 
regulations are being developed. Defenders remains highly concerned 
that damaging administrative changes will yet be proposed, and we urge 
the subcommittee to include language intended to prevent any such 
proposal.

           RECOMMENDED FISCAL YEAR 2008 PROGRAM FUNDING LEVELS
                        [In millions of dollars]
------------------------------------------------------------------------
                                          President's      Recommended
                Program                     request           level
------------------------------------------------------------------------
FWS Endangered Species Total..........            146.5            185.2
Candidate Conservation................              8.6             12
Listing...............................             18.3             25.2
Recovery..............................             68.1             84.8
Consultation..........................             51.6             63.2
FWS National Wildlife Refuge O&M......            394.8            451.5
FWS Law Enforcement O&M...............             57.6             66.6
FWS Migratory Bird Management.........             40.6             52.7
FWS International Affairs.............             10               17.6
FWS State and Tribal Wildlife Grants..             69.5            100
FWS Cooperative Endangered Species                 80               96.2
 Fund.................................
FWS Multinational Species Conservation              4.3             10
 Fund.................................
FWS Neo-tropical Migratory Bird Cons.               4                5
 Fund.................................
FWS Landowner Incentive Program.......  ...............             27.4
FWS Private Stewardship Grants........  ...............             11
BLM Wildlife and Fisheries............             41               55.9
BLM Threatened and Endangered Species.             22               29.4
BLM Native Plants.....................              4.6             15.8
BLM Challenge Cost Share..............              9.4             19.4
FS Wildlife and Fisheries Habitat                 117.6            159.9
 Management...........................
USGS Coop. Fish and Wildlife Research              15.4             20.5
 Units................................
Land and Water Conservation Fund:                  57.9            220
 Federal..............................
------------------------------------------------------------------------

                                 ______
                                 
        Prepared Statement of the Delaware Highlands Conservancy
    Madame Chairwoman and honorable members of the committee: I 
appreciate the opportunity to testify on behalf of an important Land 
and Water Conservation Fund request of $4 million to allow National 
Park Service acquisition of the 120-acre Santos Farm property within 
the legislated boundary of the Delaware Water Gap National Recreation 
Area. I also want to urge the committee to increase overall funding for 
the Land and Water Conservation Fund account, which is critical to 
helping communities protect our Nation's natural and recreational 
lands.
    The Delaware Highlands Conservancy is a non-profit land trust 
dedicated to working with landowners, other conservation organizations 
and local and State government to conserve the natural and cultural 
heritage of the Upper Delaware River region. Specifically the 
Conservancy serves Pike and Wayne Counties in PA, as well as Sullivan 
and Delaware counties New York. We are members of the National Land 
Trust Alliance and follow their best management standards and 
practices.
    To date the Conservancy has helped landowners protect nearly 10,000 
acres for the benefit of future generations. Located within easy 
driving distance of the Nation's most populous metropolitan area, New 
York City, and within a 5-hour drive of one-third of the population of 
the United States, the primary industry in this area is tourism.
    Protecting our natural areas is of vital economic importance to the 
region. The Pocono Mountain Visitors Bureau (PMVB), reports that the 
travel and tourism industry produces $1,073 billion in expenditures to 
the four primarily rural counties they serve. The Bureau recently 
completed extensive research with visitors and determined that the top 
values were: preservation of the natural environment; preservation of 
the authentic small town charm; and responsible development.
    A coalition of diverse groups--including local elected officials, 
the Pike County Commissioners, local planning commissions, watershed 
groups, the Conservancy, and like-minded organizations--have identified 
key parcels in the region that need to be protected to maintain the 
scenic rural character. The Santos Farm is viewed by all to be a 
critical component of the landscape and critical for protection.
    Please allow me to provide some background on the area. After 
flowing south to Port Jervis, New York, the Delaware river turns along 
the long ridge of the Kittatinny Mountain. For 40 miles the river runs 
southwest in a valley confined by the Kittatinny Mountain in New Jersey 
and the Pocono Mountains in Pennsylvania. Just east of Stroudsburg, the 
river breaks through the Kittatinny Mountain creating a dramatic 
``water gap'' in the ridge. The forested and craggy mountains on both 
sides of the Delaware River tower over it by more than 1,200 feet.
    Geologists believe the water gap was created by separate rivers on 
both sides of the Kittatinny Mountain. For thousands of years the two 
rivers, assisted by wind and rain, eroded the mountain, carrying away 
more earthly material at weak spots in the rock than at stronger spots. 
Several million years ago, the rivers linked at a particularly weak 
spot in the mountain's geology. This action created both the water gap 
and the current Delaware River. The creation of the water gap increased 
erosion by the more powerful single river, which led to the dramatic 
chasm that is today referred to as the Delaware Water Gap.
    In the 1960s the Army Corps of Engineers planned to dam the 
Delaware River and create the Tocks Island Reservoir. Congress approved 
the proposal in 1965 and instructed the Corps and the Interior 
Department to acquire lands around the proposed reservoir for ``public 
outdoor recreation use and enjoyment of the proposed Tocks Island 
Reservoir . . . and for preservation of the scenic, scientific, and 
historic features contributing to public enjoyment of such lands and 
waters.'' This 1965 legislation created the present Delaware Water Gap 
National Recreation Area, covering nearly 70,000 acres in New Jersey 
and Pennsylvania. However, controversy over the dam blocked its 
construction for nearly 15 years. Many critics found the two purposes 
of the authorizing law, damming the River and preserving the land and 
water, contradictory.
    Congress resolved the issue by designating the portion of the 
Delaware River within the Recreation Area as a National Wild and Scenic 
River, ending the possibility of building a dam and making the 
conservation of the natural, recreational, historical, and cultural 
attributes of the water gap and the River valley the primary mission of 
the park.
    Today the Delaware Water Gap National Recreation Area is a natural 
and recreational treasure in the mid-Atlantic section of the 
Appalachians Mountains. It is the largest recreation area unit between 
Maine and Virginia. Its proximity to the metropolitan areas of northern 
New Jersey, New York City, and Philadelphia places it within reach of 
tens of millions of people. Its accessibility to these populations--
Interstate 80 runs through the water gap--brings more than 5 million 
annual visitors. Attractions include scenic viewpoints in the water gap 
on I-80 and in the valley along U.S. 209, waterfalls, hiking, biking, 
rock climbing, horseback riding, hunting, fishing, camping, canoeing, 
kayaking, rafting, tubing, swimming, wildlife observation, and the 
opportunity to learn about the many historical and cultural sites in 
the park. River recreation and wildlife thrive on the exceptionally 
clean waters of the Delaware River throughout the valley. Additionally 
the Recreation Area includes 27 miles of the Appalachian Trail.
    Within the legislative boundary, there are a number of privately 
owned properties that could be potentially sold for development. 
Acquisition of these inholdings from willing sellers allows the 
National Park Service to consolidate ownership and improve management 
of forest, wildlife habitat, and recreational resources. In fiscal year 
2007 the National Park Service has the opportunity to acquire the 120-
acre Santos Farm property in Milford, Pike County, Pennsylvania.
    The Santos Farm property is located along the Delaware River at the 
northern end of the National Recreation Area. The property is one of 
the last undeveloped farmland tracts in Pike County and provides 
significant wildlife habitat. Milford Borough, Township, and county 
officials have expressed strong support for protecting this property, 
which could otherwise be developed into a ``big box'' retail commercial 
site or residential lots. If developed, the loss of scenic, 
recreational, and habitat resources would be significant.
    Pike County voters recently approved the Scenic Rural Character 
Preservation Bond for the protection of natural areas in the County, 
with a yes majority of 68.2 percent. Support for the conservation of 
this land is high, but there are insufficient funds locally to raise 
the entire purchase price.
    While this property is valued at approximately $7 million, it is 
anticipated that at least $3 million can be raised at the local or 
State level, leaving a $4 million Federal need to protect the Santos 
Farm.
    An appropriation of $5.2 million to the National Park Service for 
the acquisition of both the Minisink Bluffs property in adjacent New 
Jersey and the Santos Farm property would consolidate ownership and 
improve management of forested areas within the park, protect wildlife 
habitat, enhance local park and trail networks, and protect the 
watershed of the Delaware River within the National Recreation Area.
    Madame Chairwoman, and distinguished subcommittee members, I wish 
to thank you for this opportunity to provide testimony in support of 
this critical land acquisition funding need at the Delaware Water Gap 
National Recreation Area.
                                 ______
                                 
                   Prepared Statement of Denver Water
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
          Prepared Statement of the Eastern Forest Partnership
    On behalf of the Eastern Forest Partnership and our 15 member 
groups and coalitions representing citizens from Mississippi to Maine, 
I would like to offer testimony concerning fiscal year 2008 
appropriations for U.S. Forest Service State and Private Forestry and 
the Department of the Interior's Land and Water Conservation Fund 
(LWCF). We feel that recent Federal studies, most notably the U.S. 
Forest Service's recently released Forests on the Edge and Cooperating 
across Boundaries reports, support our call for the strongest possible 
mark for conservation funding programs in the fiscal year 2008 
Interior, Environment and Related Agencies Appropriations Bill. We are 
strongly recommending that the committee reject the administration's 
proposed cuts to key programs within U.S. Forest Service State and 
Private Forestry such as Forest Stewardship, Urban and Community 
Forestry, and Forest Inventory and Analysis, and make appropriate 
increases in key State and Private Forestry programs, including a $100 
million appropriation for the Forest Legacy Program. We are also 
recommending that committee provide at least $220 million for the 
Federal side and $100 million for the State side of LWCF. We have 
included at the end of this testimony a list of priority eastern 
projects for Forest Legacy and LWCF that we feel are especially 
meritorious of fiscal year 2008 funding.
                      eastern forests on the edge
    Over the past 15 years, Federal agencies have been studying our 
eastern forests and the unique value of these lands as ``green 
infrastructure'' for the American people. In particular, forested 
watersheds play an essential role in the crowded eastern States 
providing clean drinking water supplies for rural communities and 
distant cities alike. U.S. Forest Service and interagency studies like 
the Southern Forest Resource Assessment and New York-New Jersey 
Highlands Study Update have highlighted the acute threats to some of 
the most important forested water supply areas across the East, 
including the Southern Appalachians, Highlands, and Northern Forest. 
The release of the U.S. Forest Service's Forests on the Edge report has 
added another stark view of the future: it projects that through 2030 
the Nation will lose 44 million acres of private forestland to 
development. According to the report, the effects will be particularly 
acute in the East, with all of the top fifteen watersheds for projected 
future development in the eastern forests and three of those in the 
State of Maine alone.
    This conversion is driven on one track by the wave of industrial 
forest landowners across the United States now developing or divesting 
their timberlands at an unprecedented rate, responding in part to 
international competition that has hurt domestic producers. While these 
short-term economic challenges are real, there are many reasons to 
believe that domestic forest products will once again be highly 
competitive in a carbon-constrained economy that better represents the 
true costs of transportation of goods. It is also important to note 
that the slower growing and high value northern hardwoods found in 
areas like the Northern Forest are largely on the upswing of long 
harvest cycles, and will be peaking again in future decades--holding 
our forests will pay off.
    Despite these long-term considerations, the sell-off of working 
forestland continues at an accelerating rate. In the Northern Forest 
region, for example, an incredible 23.8 million acres of forestland has 
changed hands since 1983, with 45 percent of that total in the last 5 
years.\1\  What was once constrained to certain corners of the Nation 
like the Northern Forest has now become a national trend led by 
companies like International Paper selling millions of acres of 
productive forestland and sensitive areas in the Upper Midwest and 
Southeast. Timber Investment Management Organizations (TIMO) and other 
investment entities are the most notable buyers for the forestland that 
has remained in traditional uses. These entities rely heavily on 
conservation easements, funded in significant part by Forest Legacy, to 
help generate returns from forest ownership. If continued easement 
funding is not available, it is likely that investment capital will dry 
up and lands controlled by investors will be converted for development 
to generate adequate returns. We know that many of the major investment 
groups that are playing an essential role in maintaining our forest 
future have written to the Appropriations Committee this spring in 
support of strong fiscal year 2008 Forest Legacy funding.
---------------------------------------------------------------------------
    \1\ Hagan, J.M., L.C. Irland, and A.A. Whitman. 2005. Changing 
timberland ownership in the Northern Forest and implication for 
biodiversity. Manomet Center for Conservation Sciences, report 
#MCCS0FCP-2005-1, Brunswick, Maine, at p. iii.
---------------------------------------------------------------------------
    On another track, family forest owners across the country are also 
selling their lands. The return for these landowners from traditional 
forest uses has been undermined by rising taxes, management challenges 
including new pests and invasive species, and turbulence in the forest 
products industry. Land sales are also driven by the fact that family 
forest owners are statistically an elderly group nearing or at 
retirement age. The 4.9 million family forest owners in the 
Northeastern States average 60 years of age, creating a looming threat 
of massive ownership transfer in the coming decades.\2\ As these owners 
increasingly look to retirement and consider passing their land onto 
their families, the growing gulf between forestland's forest value and 
development value is a significant problem. For example, from 2001 to 
2005, the median price per acre of open land and forestland parcels in 
Vermont of 25 acres or more rose 62 percent, from $974 per acre in 2001 
to $1,580 in 2005. Further subdivision only increased value: the median 
price per acre of open land and forestland parcels of between 1 and 25 
acres rose from $4,505 per acre in 2001 to $10,000 in 2005--a 117 
percent increase.\3\  Slowing parcelization will require helping to 
close the gap between the returns that landowners can expect from 
keeping lands forested and selling for development. This includes 
providing landowners with technical assistance through continued 
funding for highly effective USFS State and Private Forestry programs 
like Forest Stewardship. Forest Legacy easements can also be an 
effective tool for supporting these landowners. For many, a Forest 
Legacy easement would provide sufficient new revenue from forest 
ownership to enable them to stay on the land.
---------------------------------------------------------------------------
    \2\ America's Family Forest Owners, 2003, U.S. Forest Service, 
Butler and Letherberry.
    \3\ Vermont's Housing Market--Trends and Perspectives, Handout by 
Phil Dodd for Forest Roundtable, Oct. 18, 2006. Available at http://
svr3.acornhost.com/vnrcorg/frt//presentations.htm
---------------------------------------------------------------------------
        controlling forest parcelization: forest legacy and lwcf
    It is clear that the Nation faces an historic moment in its 
conservation history in fiscal year 2008, as it will for the next 
decade. Forest Legacy and LWCF work very well as a paired set of tools 
that enable government agencies and non-profit organizations to keep 
private landowners on the land for traditional uses and also to 
purchase lands for new public ownership where appropriate. We feel that 
conservation on both tracks will have to reach unprecedented levels if 
we are to conserve adequate green infrastructure for the needs of the 
eastern States, from clean drinking water and clean air to forest 
products, wildlife habitat and recreation.
    Our top priority Forest Legacy and LWCF projects were for the first 
time in many years very poorly represented in the President's fiscal 
year 2008 Budget. This was in part due to the administration's totally 
unacceptable proposed overall funding levels for both programs. Perhaps 
most striking was the total absence of a single Region 8 U.S. Forest 
Service LWCF project. This region has the fastest rate of forestland 
loss in the country and suffers from a highly fragmented national 
forest system that is being quickly and permanently compromised by 
development of private inholdings. The agency described this dire 
situation well in fiscal year 2007 testimony:
    ``The watersheds of the Chattahoochee National Forest supply the 
drinking water for the largest urban areas in the State of Georgia . . 
. The cumulative impact from this development and population growth 
surrounding the Forest is seriously threatening water quality by 
generating non-point source pollution.''
    The administration also failed to support funding for the Highlands 
Conservation Act, nor even many of the Highlands' Forest Legacy or LWCF 
projects, despite the leadership role of the U.S. Forest Service in 
Highlands conservation and research. We were also surprised and 
disappointed not to see our projects for the highly threatened 
Connecticut River watershed included in the administration's lists--
neither the four-State LWCF request for Silvio Conte National Fish and 
Wildlife Refuge acquisition nor the Forest Legacy request for the 
community-led Brushwood Community Forest project that will help a rural 
municipality buy its first ever town forest.
    All of these projects are also notable for the enthusiastic local 
support for conservation that has been evidenced through letters, 
communications with elected officials, and attendance at public 
meetings. In March we traveled to Washington with local supporters for 
many of these projects and the others listed below, which produced more 
than 50 meetings with individual congressional offices across the 
Capitol. We encourage the Federal Government to maintain its catalytic 
leadership role that has delivered so much for conservation over the 
last decade. Thank you very much for your consideration of this 
testimony and the projects listed below.

    LAND AND WATER CONSERVATION FUND--FISCAL YEAR 2008 EASTERN FOREST
                               PRIORITIES
------------------------------------------------------------------------
     State                       Project                      Request
------------------------------------------------------------------------
             AL Alabama National Forests                    $1,800,000
         AR, OK Ouachita/Ozark-Plum Creek Inholding          2,000,000
                 Tracts
             CT Stewart McKinney National Wildlife             710,000
                 Refuge
             FL Suwannee Wildlife Corridor/Pinhook           1,500,000
                 Swamp
             GA Chattahoochee-Oconee National Forests--      4,000,000
                 Riparian Project
             KY Daniel Boone National Forest                 2,848,000
          KY/TN Cumberland Gap NHP                           2,800,000
             ME White Mountain National Forest--Maine          500,000
                 Access
             ME Rachel Carson National Wildlife Refuge       2,000,000
             MS Delta National Forest--Lower Yazoo             150,000
                 Basin
             NC Uwharrie National Scenic Trail                 800,000
             NH Lake Umbagog National Wildlife Refuge        1,000,000
             NJ Cape May National Wildlife Refuge            7,500,000
             NJ E.B. Forsythe National Wildlife Refuge       1,375,000
             NJ Great Swamp National Wildlife Refuge         1,500,000
             NJ Wallkill National Wildlife Refuge            2,000,000
             NJ Delaware Water Gap NRA--Minisink             1,200,000
                 Bluffs
 PA, NJ, NY, CT Highlands Conservation Act                  10,000,000
             SC Francis Marion & Sumter NFs--Tibwin          2,350,000
                 Project Area
             SC Congaree National Park                      14,500,000
             TN Cherokee National Forest--Ripshin            3,000,000
                 Mountain Wetlands
     VA, NC, TN Appalachian National Scenic Recreation       5,115,000
                 Trail
 VT, NH, MA, CT Silvio Conte National Fish & Wildlife        8,250,000
                 Refuge--Multiple
             VT Green Mountain National Forest--Cold         2,883,000
                 Brook, Mt. Snow; Spruce Peak; Pine
                 Brook
             WV Monongahela National Forest                    300,000
                                                       -----------------
                      Total                                 70,031,000
------------------------------------------------------------------------


        FOREST LEGACY--FISCAL YEAR 2008 EASTERN FOREST PRIORITIES
------------------------------------------------------------------------
     State                       Project                      Request
------------------------------------------------------------------------
             AL Mobile Tensaw Delta                         $2,000,000
             AR Moro Big Pine phase II                       2,450,000
             CT Skiff Mountain phase II                        770,000
             GA Paulding County Land Area                    3,500,000
             KY Marrowbone Creek State Forest (Garmon        1,222,000
                 tract)
             MA Westfield Heritage Woods                       975,000
             ME Lower Penobscot Forest                       3,300,000
             ME Stowe Mountain                               1,500,000
             MS State Start Up                                 500,000
             NC Clarendon Plantation                         1,500,000
             NH Ossipee Pine Barrens                         2,380,000
             NH Crotched Mountain                            2,750,000
             NJ Sparta Mountain South phase II               5,700,000
             NY Tahawus Extensions                             605,000
             PA Little Bushkill Headwaters Forest            7,000,000
                 Reserve
             RI Yawgoo Pond II, South Kingstown and          1,500,000
                 Exeter
             SC Belfast                                      3,000,000
             TN Big Forks                                    1,000,000
             VA Nottoway River                               1,500,000
             VT Brushwood Community Forest                   1,500,000
             WV South Branch                                   750,000
                                                       -----------------
                      Total                                 48,027,000
------------------------------------------------------------------------

                       eastern forest partnership
    Appalachian Mountain Club--Appalachian Trail Conservancy--
Environmental Defense--Highlands Coalition; NC Coastal Land Trust--
Northern Forest Alliance--National Wildlife Federation--Southern 
Appalachian Forest Coalition; SC Coastal Conservation League--Southern 
Environmental Law Center--TN Parks and Greenways Foundation; and Trust 
for Public Land--The Wilderness Society--Western PA Conservancy.
                                 ______
                                 
         Prepared Statement of the Endangered Species Coalition
    On behalf of the millions of members represented by the undersigned 
organizations, we urge you to increase funding for the implementation 
of the Endangered Species Act to no less than $185.2 million for the 
fiscal year 2008. We ask that this letter be included in the official 
committee record for the fiscal year 2008 appropriations bill.
    The Endangered Species Act is a safety net for wildlife, plants and 
fish that are on the brink of extinction. This law successfully helped 
to bring back our Nation's majestic symbol, the American Bald Eagle. We 
have a responsibility to future generations to protect endangered 
species and the special places they call home. However, for years, the 
Endangered Species Act has been under funded, making it difficult for 
the U.S. Fish and Wildlife Service experts to carry out their 
responsibilities under the Endangered Species Act.
    The four Fish and Wildlife Service endangered species operating 
accounts are key to effective implementation of the Endangered Species 
Act. All four program areas are currently experiencing at least a 30 
percent staffing shortage due to budget constraints, an unacceptable 
vacancy rate. To adequately implement the endangered species program, a 
total of at least $305.8 million is needed for the four main accounts 
by 2012, an increase of $158 million over fiscal year 2006. Our 
recommendation for fiscal year 2008 is $185.2 million and the break out 
is detailed below.
    The undersigned organizations request the following funding 
increases for the U.S. Fish and Wildlife Service endangered species 
operating accounts:
    Listing.--The listing line item funds the addition of species to 
the endangered and threatened species list and the designation of 
critical habitat. This line item has suffered years of chronic under 
funding. There are more than 270 species currently awaiting protection 
on the Candidate List. An astounding 64 species have been languishing 
without protection since 1975. While it would be ideal to address this 
listing backlog rapidly, we understand that it takes time and diligence 
to determine these listing decisions. We therefore request an increase 
to accomplish the average listing number under both Presidents Bill 
Clinton and George H.W. Bush--these administrations were able to list 
an average of 60 species per year. This would require approximately 
$36.5 million per year by 2012. We request $25.2 million for fiscal 
year 2008, an increase of $7.6 million over fiscal year 2006 levels and 
$6.9 million over the President's request.
    Recovery.--While the Endangered Species Act has been extremely 
successful at preventing wildlife from going extinct, the purpose of 
the act is to protect and recover endangered and threatened fish, 
plants and wildlife. The President's budget request cuts the recovery 
program by 7.5 percent, nearly $5.5 million. By turning its back on 
recovery funding, the Bush administration is setting the Endangered 
Species Act up for failure. The Fish and Wildlife Service must meet its 
mandatory responsibilities under the act to research, develop and 
implement recovery plans; to monitor the populations of listed species; 
and to oversee species recovery. It is difficult to estimate the true 
needs for the recovery program--current estimates place it at 
approximately $100 million. However, the U.S. Fish and Wildlife Service 
is currently developing a new database--Recovery Online Activity 
Reporting--which is expected to be complete in 2007 and will allow for 
better estimates of true costs. The conservation community would like 
to see the recovery program funded at no less than $121.6 million by 
2012 (the increased level over $100 million accounts for fixed costs 
increases needed over that time period) therefore, we request recovery 
be funded at $84.8 million for fiscal year 2008 as a first step, an 
increase of $11.2 million over fiscal year 2006 levels and $16.7 
million over the President's request.
    Consultation.--The consultation program is the ``look before you 
leap'' mechanism that the Federal departments and agencies must go 
through in order to proceed with a Federal project in areas where 
endangered and threatened species are located. This process reviews the 
impacts to species, while identifying alternatives and mitigation 
measures needed to ensure that the Federal Government is not driving 
species to extinction through its actions. It is an important part of 
the checks and balances system to ensure that endangered fish, 
wildlife, and plants are protected on the ground. Shortage of personnel 
in this program area causes delays of project reviews thus creating 
conflicts between agencies. The consultation budget also funds the 
Service's work with non-Federal entities for permitting and development 
of Habitat Conservation Plans; lack of funding prevents the Fish and 
Wildlife Service from ensuring that these plans are properly developed, 
implemented and monitored. There are approximately 800 HCPs that have 
been approved or are under development. Yearly costs of monitoring HCPs 
range from $2,000 for a simple, single species HCP to $500,000 for a 
complex Multi-Species HCP. To adequately implement the consultation 
program would require an overall program budget of $122.4 million by 
2012. We request $63.2 million for fiscal year 2008, an increase of 
$15.2 million over fiscal year 2006 levels and $11.6 million over the 
President's request.
    Candidate Conservation.--This program protects species before they 
are actually listed, thus in theory averting the need to ever list them 
at all. The theory fails to hold up when not enough money is provided 
to arrest the decline of candidate species. The program is currently 
extremely under staffed and staffing should be doubled to ensure 
adequate program implementation. This would require $25.4 million. The 
conservation community again requests this increase to be accomplished 
over 5 years and, therefore, requests the program be funded at $12 
million for fiscal year 2008, an increase of $3.4 million over fiscal 
year 2006 levels and $3.4 million over the President's Request.
                 voluntary endangered species programs
    Non-Federal lands are crucial to the conservation of rare species. 
At least 65 percent of Federally listed plants and animals are found on 
non-Federal lands, with many absolutely dependent upon these lands for 
their survival. However, the President's budget request eliminated two 
important programs to carry out proactive recovery efforts on private 
lands--the Landowner Incentive Program and the Private Stewardship 
Grants Programs. These programs should be restored through the 
congressional appropriations process. (While these programs are 
important for the recovery of our Nation's imperiled species, they 
should not be funded at the expense of the Fish and Wildlife Service's 
core endangered species programs.)
       landowner incentive program and private stewardship grants
    Endangered and other at-risk wildlife depend upon private lands for 
their survival. The help of private landowners is essential for the 
conservation of these species. Landowner Incentive Program and Private 
Stewardship Grants provide funding for voluntary conservation actions 
taken by landowners to conserve plants and animals at risk on private 
lands. The Landowner Incentive Program awards competitive grants to 
State and tribal conservation agencies for their work with private 
landowners and tribal lands, while the Private Stewardship Grants 
Program allows the Fish and Wildlife Service to provide funding 
directly to individuals and groups implementing private land 
conservation actions. In 2006, funding was awarded to efforts in 46 
States, Puerto Rico and the U.S. Virgin Islands. The need for these 
programs far outstrips available funding--the amount requested for 
worthy projects on average totals two to three times the yearly 
available funding. To support private landowners in their voluntary 
conservation efforts, a total of at least $77 million is needed in 
these two incentive programs, an increase of $48.3 million over fiscal 
year 2006. Again, we request that the increase in funding occur over a 
5-year period from fiscal year 2008 to fiscal year 2012 to reach this 
goal. For fiscal year 2008, we request these two programs be funded at 
$27.4 million and $11 million respectively, an increase of $9.5 million 
over fiscal year 2006 levels and $38.4 million over the President's 
request.
                  cooperative endangered species fund
    The Cooperative Endangered Species Fund provides grants to States 
for wildlife and habitat conservation activities on non-Federal lands 
for listed and candidate species. Without the proposed increases States 
will fall further behind in their ability to independently work to 
protect imperiled species. Crucial conservation activities funded by 
these grants include: research, species status surveys, habitat 
restoration, captive propagation and reintroduction, planning 
assistance, and land acquisition by States for Habitat Conservation 
Plans and recovery. Twenty-seven States received funding under this 
program in 2006 to benefit species ranging from orchids to bull trout 
to migratory birds to Canada lynx. To adequately fund State endangered 
species conservation activities a total of at least $160 million is 
needed, an increase of $80 million over fiscal year 2006. The 
conservation community recommends this increase occur over a 5-year 
period from fiscal year 2008 to fiscal year 2012. We request $96.2 
million for fiscal year 2008, an increase of $16.2 million over fiscal 
year 2006 levels and $16.2 million over the President's request.
    The Endangered Species Act is a broadly supported and very 
successful law. A recent poll illustrated that 86 percent of voters 
nationwide support the Endangered Species Act. We have a responsibility 
to prevent the extinction of fish, plants and wildlife because once 
they are gone, they are gone forever. Without the necessary funding to 
carry out conservation of imperiled species, an increasing number will 
slip closer to the brink of extinction. We ask the members of the 
Appropriations Committee to fully fund the Endangered Species Act this 
year.
    American Lands Alliance, Washington, DC; American Rivers, 
Washington, DC; Animal Protection Institute, Sacramento, CA; Arkansas 
Valley Audubon Society, Pueblo, Colorado; Association of Zoos & 
Aquariums, Silver Spring, MD; Biodiversity Conservation Alliance, 
Laramie, WY; Buckeye Forest Council, Columbus, OH; Buffalo Field 
Campaign, West Yellowstone, MT; California Trout,San Francisco, CA; 
Center for Biological Diversity, Washington, DC; Center for Native 
Ecosystems, Denver, CO; Citizens to Complete the Refuge, Palo Alto, CA; 
Colorado Wild, Durango, CO; Defenders of Wildlife, Washington, DC; 
Earthjustice, Washington, DC; Endangered Habitats League, Los Angeles, 
CA; Endangered Species Coalition, Washington, DC; Environment Maine, 
Portland, ME; Farallones Marine Sanctuary Association, San Francisco, 
CA; Federation of Fly Fishers, Livingston, MT; Forest Guardians, Santa 
Fe, NM; Great Old Broads for Wilderness, Durango, CO; Gulf Restoration 
Network, New Orleans, LA; The Humane Society of the United States, 
Gaithersburg, MD; Izaak Walton League of America-Maine, Holden, ME; 
Maine Audubon, Falmouth, ME; National Audubon Society, Washington, DC; 
National Wildlife Federation, Washington DC; Native Plant Conservation 
Campaign, San Francisco, CA; Natural Resources Defense Council, 
Washington, DC; Oregon Wild, Portland, OR; Predator Conservation 
Alliance, Bozeman, Montana; RESTORE: The North Woods, Hallowell, ME; 
San Luis Valley Ecosystem Council, Alamosa, CO; Save the Species 
Worldwide Foundation, Vancouver, WA; Sierra Club, Washington, DC; 
Sinapu, Boulder, CO; Southern Rockies Ecosystem Project, Denver, CO; 
Synod of Southern California and Hawaii Presbyterian Church (USA), 
Carlsbad, CA; Virginians for Wilderness, Staunton, VA; Wildlife 
Alliance of Maine, Bangor, Maine; and The Xerces Society for 
Invertebrate Conservation, Portland, OR.
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States
    These are the comments of the Environmental Council of the States 
(ECOS) to the United States Senate, Appropriations Committee, on the 
U.S. Environmental Protection Agency's 2008 Budget. ECOS is asking 
Congress to allocate no less than $3,729,407,000 to the State and 
Tribal Assistance Grants (STAG) portion of U.S. EPA's budget.
    The Environmental Council of States is the national non-partisan, 
non-profit association of the leaders of State environmental agencies. 
Our members are the officials who manage and direct the environmental 
agencies in the States and territories. They are the State leaders 
responsible for making certain our Nation's air, water and natural 
resources are clean, safe and protected. ECOS members have been 
following the EPA budget for many years, and very closely since fiscal 
year 2005, the year that reductions in the STAG first began to occur. 
Our comments are primarily directed to the STAG portion of EPA's 
budget.
    States are co-regulators with U.S. EPA and have the challenging job 
of front-line implementation of our Nation's environmental pollution 
laws. States have increased their capacity and as environmental 
protection has become increasingly important to the general public, 
more and more responsibilities have been moved to the level of 
government best able to carry them out efficiently--State and local 
governments--which are most efficient because they are closest to the 
problems, closest to the people who must solve the problems, and 
closest to the communities which must live with the solutions.
    Today States are responsible for:
  --Managing most of the delegable environmental and public health 
        programs and rules--96 percent of the programs that can be 
        delegated have been delegated to the States;
  --Issuing environmental and public health standards under the Federal 
        laws and for State-specific laws;
  --Issuing most environmental permits;
  --Collecting nearly 94 percent of environmental monitoring data in 
        EPA's six biggest databases; and
  --Conducting over 90 percent of all enforcement actions.
    From the earliest days of EPA, funds have been provided to the 
States to assist them in the implementation of Federal programs. States 
also provide funds for these programs, typically many times over the 
Federal amount. The Federal funds are important to States because they 
are targeted to specific programs and help states meet Federal 
requirements such as permitting, enforcement, monitoring, standards 
development, rule issuance, and reporting--in short, all the 
significant components of our co-regulator agreements with the Federal 
Government.
    During the past few years, U.S. EPA has promulgated a significant 
number of new rules for the States to implement. These are documented 
regularly in EPA's Regulatory Agenda, which designates the rules that 
are likely to have an impact on State and local governments (and 
others). EPA has compiled a list of these rules from the period 2000 
through 2006 at ECOS' request. During this time, the agency issued 284 
new final rules with a significant impact on the States, with many more 
pending. Many of these rules are well-known and involve significant 
effort. For example, the Clean Air Mercury Rule (CAMR) and the Arsenic 
in Drinking Water Rule are two of them. States must invest considerable 
effort to adopt and implement these rules on behalf of the agency, and 
real costs are involved in doing so. More rules are expected, of 
course, in 2007 and 2008, and so this trend continues. To be clear, the 
States believe many of these rules are needed. We acknowledge that they 
are often crucial in meeting Congress' expectations for environmental 
protection. Our concern is over our ability to implement them.
    If Congress accepts the agency's 2008 proposal for STAG, it will 
mean that States will have lost over $1 billion in Federal support 
since 2004. The loss of these funds will certainly result in the 
deterioration of environmental quality and public health in the United 
States. The States strongly urge Congress not to accept these 
proposals.
    In the 2008 budget development cycle, EPA for the first time 
involved the States in the early stages of the budget's development, 
and we were very appreciative of this opportunity. The ECOS officers 
presented information to the agency, and proposed a tier of priorities. 
Our highest priorities included the programs mandated by Congress in 
the major environmental statutes. We also had medium priorities and 
even low priorities. We asked that the high priority areas receive 
modest increases, and the moderate priorities be held at previous 
levels, while the low priority areas could be reduced. Our belief was 
that this would be the best approach to assure the most environmental 
protection for the areas Congress had entrusted to EPA and the States 
in a fiscally prudent manner. Our list of priorities is shown in Table 
1. This is a list of the Categorical Grants and Infrastructure that 
Congress includes in the STAG portion of EPA's appropriation. The ECOS 
membership endorsed this approach.
    EPA accepted a few of the States' recommendations, but for the most 
part continued the pattern of the budget from the 2007 cycle. The 
States nevertheless remain hopeful that continued consultation will 
result in a budget that supports the States' role as co-regulator and 
implementer of most Federal environmental programs. The States' 
alternative STAG budget is based on the following principles, agreed 
upon by the ECOS members:
    1. In times of fiscal crisis, when resources are in short supply, 
the core mandated environmental programs funded through STAG, including 
infrastructure capitalization, must be funded first;
    2. Reductions in EPA's budget, if they must occur, should be shared 
proportionately by EPA and the States after STAG levels are returned to 
their 2004 levels; and
    3. States should be afforded the flexibility to run their core 
programs in a manner that will obtain the highest level of attainment 
with the standards set by Congress and EPA without undue hindrance from 
EPA, but within its oversight responsibilities.
    The combination of reduction in funds and increased numbers of new 
rules is causing great pressure on the State environmental agencies. 
While States are reluctant to return Federal programs to EPA for many 
reasons, we have begun to see programs returned, as well as delays in 
implementation of new rules. This combination potentially means 
increased costs to the Federal Government as well as delays, as the 
agency must take over implementation for items that States cannot 
address.
    Among our top priorities, ECOS wants specifically to address the 
air programs, the clean water programs, the drinking water programs, 
and the waste programs.
    The 2008 proposed EPA budget will cut $35 million from State and 
local air programs. This cut comes at a critical time for States and 
localities. States are juggling the many responsibilities associated 
with putting together three--and in some cases four--sets of State 
implementation plans (SIPs). The development of effective SIPs is 
essential to ensure that measures will be adopted that reduce air 
pollution and protect public health.
    If the proposed $35 million budget cut is enacted, on average, each 
State will lose $700,000 (i.e., an average reduction of approximately 
$340,000 in fine particulate monitoring and $360,000 from the other 
elements of the air quality program). This is at the same time States 
are beginning to prepare to implement the new National Ambient Air 
Quality Standard (NAAQS) that EPA issued last year for fine particulate 
matter (PM2.5). The budget cuts would be further exacerbated by the 
proposal to shift the fine particulate monitoring program from section 
103 to section 105 authority, requiring a 40-percent match. ECOS is 
asking Congress to provide States an increase for the air categorical 
grant of just over $25 million for 2008, when compared to the 2006 
amount.
    According to a report jointly prepared by EPA and the States in 
2002 (State Water Quality Management Resource Analysis), the amount of 
funds (from all sources) that States needed to implement the Clean 
Water Act rules that were in force at that time was between $1.54 
billion and $1.68 billion per year. Since that time, EPA has asked 
States to implement several new rules, including rules on stormwater 
phase II and permit fees, and to prepare for new rules such as one 
expected this summer on confined animal feeding operations. ECOS is 
asking Congress to provide States a Federal share of these funds of 
$241,542,000 for non-point source pollution control (sec. 319), and for 
$229,326,000 for point source pollution control (sec. 106).
    Another report entitled State RCRA Subtitle C Core Program 
Implementation Costs (January 2007), found that ``the shortfall in 
Federal funding to run effective and adequate RCRA Part C core programs 
is approximately $90 million.'' States also note that Congress has yet 
to appropriate funds for the States to meet the mandates of the 2005 
Energy Policy Act with respect to inspections at underground storage 
tanks. ECOS is asking for $50,000,000 for the Brownfields categorical 
grant, $103,689,000 for the Hazardous Waste Financial Assistance 
categorical grant, and for $37,567,000 for the new requirements of the 
Underground Storage Tanks program.
    Our fourth top priority is drinking water, the Public Water System 
Supervision categorical grant. The most recent rules promulgated by 
U.S. EPA are extremely resource-intensive for a State agency to 
implement. These rules are the next suite of Disinfection By-Product/
Microbial Contaminant rules (referred to as LT 2/Stage 2; promulgated 
in December 2005) and the Ground Water Rule (promulgated in October 
2006). These new resource-demanding rules layer on top of a suite of 
rules issued in the 2000/2001 time frames (arsenic, uranium, 
Disinfection By-Products Stage 1) that are just now hitting with full 
force. ECOS asks Congress to provide at least $104,170,000 for this 
categorical grant.
    Finally, the States have two infrastructure programs as their top 
priorities: the Clean Water State Revolving Loan Fund (SRF) and the 
Drinking Water SRF. Each of these programs addresses only a portion of 
the total infrastructure needs, but provides an important source of 
funds for small towns. The States are asking for $1.379 billion and $1 
billion respectively for these programs.

                                 TABLE 1.--THE STATES' PRIORITIES FOR STAG, 2008
                                 [Items are not rank ordered within categories]
----------------------------------------------------------------------------------------------------------------
                                           Fiscal year   ECOS' proposal
             STAG Programs                   2007 CR          2008                      Rationale
----------------------------------------------------------------------------------------------------------------
            Highest PriorityState and Local Air Quality Management.        $220,250        $245,297  increase for new rules
Public Water System Supervision (PWSS).          98,274         104,170  increase for new rules
Brownfields CG.........................          49,262          50,000  max. allowed
Hazardous Waste Financial Assistance...         101,939         103,689  same as 2004
Underground Storage Tanks..............          11,774          37,567  increase for new rule
Nonpoint Source (Sec. 319).............         204,268         241,542  same as 2004
Pollution Control (Sec. 106)...........         216,162         229,326  increase for new rules           Moderate PriorityEnvironmental Information..............          19,705          14,850  reduced request
Beaches Protection.....................           9,852           9,852  same as last year
Homeland Security......................           4,926           4,926  same as last year
Lead...................................          13,498          13,498  same as last year
Pesticides Enforcement.................          18,621          18,621  same as last year
Toxics Substances Compliance...........           5,074           5,074  same as last year
Pesticides Program Implementation......          12,907          12,907  same as last year
Pollution Prevention...................           4,926           4,926  same as last year
Radon..................................           7,439           7,439  same as last year
Tribal Air Quality Management..........          10,887          10,887  same as last year
Tribal General Assistance Program......          56,651          56,651  same as last year
Underground Injection Control (UIC)....          10,838          10,838  same as last year
Wastewater Operator Training...........           1,182           1,182  same as last year
Water Quality Cooperative Agreements...  ..............          16,608  same as 2004
Wetlands Program Development...........          15,764          15,764  same as last year              Low PrioritySector Program.........................           2,217           1,838  same as 2004
Targeted Watersheds....................          16,607  ..............  elim. in favor of WQCA above
                                        --------------------------------
      Subtotal, Categorical Grants.....       1,113,022       1,217,451
                                        ================================
    Infrastructure Highest PriorityClean Water SRF........................       1,083,817       1,397,785  same as 2004
Drinking Water SRF.....................         837,454       1,000,000  increase for new requirements    Infrastructure Moderate PriorityBrownfields Projects...................          88,672          88,672  same as last year
Clean Diesel...........................           6,897  ..............  move to EPM account
Alaska Native Villages.................          34,483          15,500  President's request
Infrastructure Assistance: Mexico                49,262          10,000  President's request
 Border.
Infrastructure Assistance: Puerto Rico.  ..............  ..............  President's request
                                        --------------------------------
      Subtotal, Infrastructure.........       2,100,585       2,511,956
                                        --------------------------------
      Total, all items.................       3,213,606       3,729,407
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils
    Madam Chairwoman and members of the subcommittee, I appreciate the 
opportunity to present testimony on behalf of the State humanities 
councils, the State-based programs of the National Endowment for the 
Humanities. I am here to support the humanities community request of 
$177 million for the National Endowment for the Humanities and to 
request an increase of $30 million over the next 2 to 3 years for the 
Federal-State Partnership, to begin to address the many unmet 
programming needs identified in the communities served by State 
humanities councils.
    The State humanities councils were created in the early 1970s, 
pursuant to the original act creating the NEH, to provide local access 
to the humanities through public programs offered in communities 
throughout the State. The councils are seen as full partners of the 
NEH, receiving their core funding through the Federal-State Partnership 
line of the NEH budget and using that funding to leverage additional 
funding from State government, foundations, corporations, and private 
individuals. Unlike the other programs in the Endowment, the councils 
operate as independent nonprofit organizations charged with conducting 
a statewide program supported entirely by their Federal funding and the 
other funds they leverage through those Federal dollars.
    For the State humanities councils, the needs increasingly outstrip 
available resources. Following the severe cuts of the mid-1990s, 
funding for the NEH and the State humanities councils has continued to 
decline in real dollars. The Federal-State Partnership line in the NEH 
budget has been basically flat for more than a decade, and yet, since 
1995 the Nation's population has increased by 15 percent, and the rate 
of inflation has been 35 percent. Meanwhile, the needs have steadily 
grown for programs that address illiteracy, support humanities 
teaching, and contribute to the understanding of our democratic 
institutions and culture. Further, new but costly technologies present 
expanded opportunities that councils are attempting to use in 
fulfilling their missions and responding to community needs.
    A recent study conducted by the Federation of State Humanities 
Councils illustrates the challenge. Along with the extremely important 
grants that councils make to local institutions and organizations, the 
Federation identified four key areas of programming that councils carry 
out in their States: (1) Support for humanities education, including 
funding for both teacher development and classroom programs, (2) 
reading and literacy, (3) media and technology, and (4) community and 
institution building. Data the Federation collected about all these 
areas of programming reveal unmet programming needs in the amount of 
$50 million in communities throughout the States. In other words, 
councils could expend $50 million above what they are now providing to 
support critically important humanities education for both teachers and 
students; improve the reading skills of parents and children; create 
additional opportunities for community residents to explore their own 
history, learn about the cultures of their new neighbors, and discuss 
issues of vital importance to their future; and expand the use of 
technology to engage citizens in the study of their local and national 
history. With an increase of $30 million in Federal funds over the next 
2 to 3 years, councils could leverage the additional funding at the 
State and local level to begin to meet these pressing needs.
    These calculations do not take into account the many new areas of 
programming that councils are exploring daily to strengthen the 
underpinnings of democracy--expanded programs that involve young people 
in the understanding of history and ethics and prepare them for 
productive engagement in the civic process; strategic support for the 
cultural institutions that sustain public life throughout their States; 
and new technologies that offer the possibility for engaging and 
educating greater numbers of people.
    In grantmaking alone, councils nationally expend more than $15 
million, funding half to two-thirds of the requests they receive. But a 
survey of the councils reveals that these figures are far from defining 
actual needs, because councils discourage funding proposals from 
community groups when they see that they are reaching the end of their 
available grant funds for the year. With adequate resources, councils 
could easily provide three to four times the dollar amount in grants 
for programs designed by local groups to improve the understanding of 
history and engage citizens in the lives of their communities. Further, 
because each Federal dollar must be matched by dollars at the local 
level and often leverage many times the amount of the council grant, 
the increase in the Federal investment would multiply the funding 
available for humanities programs at the State and local level.
    Many councils, in an effort to achieve maximum impact with their 
grant funds, develop special grant initiatives addressing particular 
needs in their States. The Kentucky Humanities Council, for example, 
through their ``Lincoln Interpretive Grants'' program, will provide 
grants to nonprofits throughout Kentucky to plan and implement high-
quality programs defining and interpreting the Lincoln era in Kentucky, 
including the Underground Railroad and the Civil War. The New Mexico 
Humanities Council developed an initiative called ``Bridges and 
Fences,'' based in part on the Smithsonian's Museum on Main Street 
``Between Fences'' exhibit that toured the State in 2006, to initiate 
dialogue among the diverse communities of the State about divisive 
historic events. The African-American Heritage Program conceived and 
supported by the Virginia Foundation for the Humanities is the first 
project in that State to systematically capture the cultural history of 
the African-American community, through a database of historic sites, 
grants, publications, and a community partnership initiative. Through 
each of these initiatives and many others, councils are serving a 
unique and vital role in capturing endangered legacies and prompting 
important public dialogue.
    In other areas of programming the picture is equally compelling, 
with needs and demand for resources far outstripping the funding 
available. The following are only very brief examples of the important 
roles councils are playing and the potential for expansion.
    Support for Humanities Education.--A solid grounding in history, 
literature, and other areas of the humanities is the most valuable 
foundation we can offer our children as they begin the road to becoming 
engaged and responsible citizens. The teachers who provide this 
grounding deserve access to all the resources possible to improve their 
own knowledge and build their enthusiasm for the task. Councils across 
the country play a key role in offering content-based professional 
development for our Nation's teachers at a surprisingly modest cost. 
The New Hampshire Humanities Council, for example, this year is 
offering not only a summer institute on poetry but also a series of 1-
day workshops on voting history in the Nation. The Florida Humanities 
Council, through their Florida Center for Teachers, provides week-long 
education frequently focused on topics mandated but not funded by the 
State. Councils provide important web-based resources for teachers, as 
well as curriculum development and classroom programs.
    Reading and literacy.--Councils also help strengthen not only 
reading skills but also family ties with their support for family 
reading programs such as the very successful and widespread Motheread 
and Prime Time programs. Councils in more than a dozen States offer 
training and curriculum development for Motheread instructors who work 
with small groups of parents and children to read and discuss high-
quality children's literature. Prime Time, developed by the Louisiana 
Endowment for the Humanities in 1991, focuses on low-income families 
with children aged 6 through 10, encouraging family reading and 
discussion and promoting use of libraries. Several councils have 
specifically included immigrant family in these programs, easing their 
transition into their new homes and strengthening their language 
development.
    Other councils have designed their own programs shaped for specific 
audiences. The Missouri Humanities Council offers a program called Read 
from the Start for at-risk parents of children 1 to 5 years of age. The 
New York Council for the Humanities offers ``Together--Book Talk for 
Kids and Parents'' to involve parents and their 9-to-11-year-old 
children in discussion of issues about American identity and culture, 
using children's books that address such themes as ``courage'' or 
``freedom.'' Their program aims to encourage the habit of reading and 
discussing books and strengthening family relationships in the process. 
The demand for these council-supported family literacy programs across 
the Nation is such that the current investment of $10 million could 
easily be doubled and still not meet the demonstrated needs.
    In addition, many councils encourage the practice of reading and 
discussing books within communities as a forum for exchanging ideas on 
issues of concern, anchored in a common text. One of the Maine 
Humanities Council's reading and discussion series, for example, is 
entitled ``Behind the Headlines: An Introduction to the Middle East.'' 
Councils also use these programs as a way to strengthen institutions in 
their State. The Pennsylvania Humanities Council's ``Read About It'' 
program has a two-fold purpose--to expose a wide demographic of readers 
to new authors and to help develop the network of libraries in their 
State as community learning centers.
    Media and Technology.--Councils are increasingly expanding their 
use of media and technology, not only to increase the audiences for 
their programs but to include new audiences, such as younger people, 
who are more comfortable with electronic forms of communication. They 
are also using technology to provide programming not available through 
other means. Humanities Tennessee is nearing completion of a web-based 
guide to the Unicoi Turnpike Trail, supported by NEH ``We the People'' 
funding, which the council has developed with its Story Mapper software 
application. Using a Google Maps interface, the guide shows points of 
interest on this historic trail, each accompanied by a digital image or 
audio or video files providing an interpretive narrative of the trail 
by those familiar with it. The council will provide training and 
support to organizations and individuals who can use the software to 
produce cultural tours, cultural resource inventories, virtual museum 
exhibitions, or K-12 lesson plans.
    Several other projects provide a glimpse of the dazzling variety of 
content and purpose councils pursue in using these technologies. The 
Massachusetts Foundation for the Humanities has been educating 
residents about their State's history for 3 years through daily 
``Massachusetts Moments'' aired on commercial radio and made available 
on a website that offers readers the opportunity for further reading. 
The California Council for the Humanities, now in the third year of 
their multi-year initiative entitled ``California Stories,'' has 
launched a new program, ``As I See It,'' which uses a variety of media 
to allow young people from diverse backgrounds to explore community and 
personal issues and present their thoughts, ideas, and discoveries to 
the public, gaining new skills and perspectives in the process. The 
Arizona Humanities Council's ``Arizona Heritage Traveler Web Site,'' 
launched in collaboration with the Arizona Office of Tourism, features 
nearly 300 heritage destinations throughout the State, allowing 
travelers to design trips based on topics ranging from Native American 
history to contemporary architecture and astronomy.
    Community and Institution-Building.--Among the most important 
functions State councils serve is to provide programs and services that 
bring communities together and strengthen local institutions. The 
Pennsylvania Humanities Council's special initiative, ``Our Stories, 
Our Future,'' provides a variety of settings and formats for citizens 
of the State to reflect on stories from American history that highlight 
issues important to how we live our lives today. The council helps 
civic groups take leadership in their communities by shaping projects 
that illuminate current concerns and advance knowledge of the American 
experience. The Connecticut Humanities Council, through its Statewide 
Heritage Advancement Program, assists heritage institutions in 
addressing organizational needs identified through a formal strategic 
planning process. This ongoing program strengthens the museums and 
other history institutions that present the State's story to both 
residents and tourists.
    With 30 years of experience, humanities councils have become 
remarkably effective in extending the reach of NEH programs to a wide 
variety of communities through an array of programs that provide 
resources for teachers, support scholars, increase literacy, offer 
opportunities for community discussions, and educate the public. With 
the additional Federal investment of $30 million that we are requesting 
over the next 2 to 3 years, we could do so much more. We appreciate the 
opportunity to describe our programs and needs, and we thank you for 
your support.
    Contact: Esther Mackintosh, President, FSHC, 703/908-9700 (p), 703/
908-9706 (f), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfdad2dedcd4d6d1cbd0ccd7ffcccbdecbdad7cad2ded1d6cbd6dacc91d0cdd8">[email&#160;protected]</a>, 1600 Wilson Blvd., Suite 
902, Arlington, VA 22209
                                 ______
                                 
           Prepared Statement of the Florida State University
                           summary of request
    Florida State University proposes to create a Florida Coastal 
Marine Institute (FCMI), for the purpose of bringing researchers on 
southeastern coastal marine environments together with Minerals 
Management Service (MMS) scientists on projects related to MMS' work on 
the marine resources of the outer continental shelf (OCS). We are 
requesting $850,000 from the Minerals Management Service for this 
project in fiscal year 2008.
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $190 
million this past year in research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interest today. Beach 
erosion and renourishment are critical issues in regions that are 
dependent on tourism and recreation. Much of the Nation's sandy 
coastline is eroding at rates averaging 3 ft/yr, threatening coastal 
structures, infrastructure and wetlands, and increasing our 
vulnerability to major storms. As an example, Florida's beaches and 
barrier islands protect $150 billion in coastal structures and 
infrastructure. Beach-related tourism generates approximately $40 
billion in direct and indirect annual spending. More than half of 
Florida's sandy beaches are classified as critically eroding, the 
result of frequent storms, sea-level rise, and the loss of sand sources 
due to coastal development. Recent hurricanes have drastically added to 
the erosion problem.
    To that end, Florida State University proposes to create an MMS 
Florida Coastal Marine Institute (FCMI), for the purpose of bringing 
researchers on southeastern coastal marine environments together with 
MMS scientists on projects related to MMS' work on the marine resources 
of the outer continental shelf (OCS).
    Our work will predominantly entail research into the environmental 
effects of extracting OCS sand resources for beach renourishment in the 
Southeast. Sand for renourishment is nearly always sought offshore, 
where the extraction process is potentially disruptive to the marine 
environment. Beach renourishment is the principal tool employed in 
Florida to address coastal erosion. State government agencies alone 
spend about $30 million annually on beach renourishment-related 
activities. Similar amounts come from local sources and the Federal 
Government, for a total of nearly $100 million annually expended on 
beach restoration in Florida. The readily available sand resources 
close to shore are rapidly being depleted. OCS sand is being used more 
and more frequently for replenishing beaches in Florida and other 
States. Such use will accelerate in the future, as sources further and 
further offshore are tapped for sand.
    Research into the environmental effects of sand extraction is 
multi-faceted. The offshore resource itself needs to be quantified and 
evaluated. Environmentally sensitive zones on the shelf need to be 
identified. The potential biological and physical impact on offshore 
extraction sites needs to be carefully evaluated. The proposed Florida 
CMI would be a source of much-needed expertise into these issues, and 
would serve as a national center to provide a focus for both generic 
and site-specific studies into the environmental effects of sand 
extraction from the continental shelf.
    We are requesting $850,000 from the Minerals Management Service for 
this project in fiscal year 2008.
    Mr. Chairman, we believe this research is vitally important to our 
country and would appreciate your support.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa
    Madam Chairwoman, members of the committee, my name is Karen R. 
Diver. I am the Chairwoman of the Fond du Lac Band of Lake Superior 
Chippewa. On behalf of the Fond du Lac Band, I would like to thank you 
for this opportunity to present testimony on fiscal year 2008 
Appropriations. Our Tribe occupies a reservation in northeastern 
Minnesota which encompasses 100,000 acres. It is a part of our 
aboriginal homeland and was established by the Treaty of September 30, 
1854. We provide health, education, social and other governmental 
services to a population of 6,500 Indian people that live on or near 
our Reservation.
    We support those parts of the President's fiscal year 2008 budget 
which are recommended for increases in funding. However, we are 
concerned that those increases do not fully address the massive unmet 
needs in Indian country. We are further concerned about those portions 
of the President's budget that would reduce or cut funding for other 
programs. All these programs are essential to our ability to educate 
our children, care for our elderly and infirm, prevent crime, and 
protect and manage our natural resources. We urge Congress to restore 
or increase the funding on which we depend to provide essential 
services to our members.
    BIA: Education.--We support the administration's request for an 
increase of $15 million in the Bureau's Improving Indian Education 
Initiative, to ensure Indian students graduating from the Bureau of 
Indian Education-funded elementary and secondary school system possess 
the academic knowledge and skills necessary to successfully compete for 
employment at home and in a global economy. We also support the 
proposal to increase by $4.3 million the funds for Student 
Transportation. In addition, we support an $1.85 million increase in 
funding for the Native American Student Information System (NASIS) if 
those funds are directed to the schools themselves to offset the costs 
associated with implementing NASIS. If the Bureau of Indian Education 
does not consider supporting the schools' costs for implementing 
technology, then the funds should be dedicated to school operations.
    While we support the overall increase to Indian education programs, 
we do not support the administration's proposal to increase funding for 
Education Program Enhancements ($5.3) or Education Management ($3.6 
million) because both would allocate funds to administrative functions 
specific to Bureau of Indian Education personnel. In our view, these 
funds should not be spent on administrative costs, but instead should 
be added to school operations as a specific line item that would 
increase funding for schools coping with the cost of living factors 
associated with retaining qualified teachers. Investing funds into 
school operations is an investment in improving Indian education. 
Funding levels must increase at the most critical level--teachers--in 
order to improve opportunities for all students to achieve success in 
their academic pursuits.
    Additionally, we do not support the manner in which the 
administration proposes to pay for the overall increases for education 
programs by cutting higher education scholarship funding and 
eliminating the Johnson O'Malley (JOM) program. We request that 
Congress restore full funding to these vitally important programs. 
While the Department of the Interior attempts to justify the 
elimination of the JOM program by claiming that it duplicates funding 
provided by the Department of Education, that is not the case. JOM 
funds help Indian children with tutoring, cultural enrichment and 
Native language education.
    We also ask that Congress appropriate $860,000 for the use of the 
Fond du Lac Tribal College in converting the accreditation it now 
shares with a Minnesota Community College into a separate 
accreditation. The Fond du Lac Tribal College was established by the 
Band in 1987 and has since provided post-secondary education to Indian 
students under a partnership with a Minnesota Community College. The 
College currently serves approximately 500 Indian students. The 
Interior Department previously recognized the Tribal College as an 
entity eligible for Federal financial assistance under the Tribally 
Controlled College and University Assistance Act, 25 U.S.C. Sec. 1801, 
but has advised the Tribal College that to maintain eligibility for 
assistance under this act, the Tribal College must convert the 
accreditation that it has shared with the Community College into a 
separate accreditation. This requires considerable resources. The Fond 
du Lac Band has committed staff and resources to do this work, but 
needs additional financial assistance to make this transition while 
ensuring that the best interests of the students continue to be served.
    BIA: Public Safety and Justice.--We strongly support the 
administration's proposed $16 million increase for the Safe Indian 
Communities Initiative but urge Congress to appropriate additional 
funds above that amount. We ask that Congress increase the Band's base 
funding by $1.5 million for court operations and law enforcement, and 
request a one-time appropriation of $6 million to allow us to expand 
the facility that houses our law enforcement and natural resources 
departments but which, because of the demands on both, is no longer 
adequate for those purposes.
    The Fond du Lac Band--like other tribes throughout the Nation--
faces massive unmet needs for law enforcement. Our responsibilities for 
law enforcement substantially increased in the last 10 years. In 1997, 
when a Minnesota Supreme Court ruled that the State did not have 
jurisdiction to enforce traffic laws on roads within Indian 
reservations, State v. Stone, 572 N.W.2d 725 (Minn. 1997), it became 
necessary for us to establish a Tribal law enforcement department to 
address on-reservation law enforcement needs. The Band has done this, 
using a combination of tribal and Federal funds (made available through 
the Community Oriented Policing Services (COPS) program and the Bureau 
of Indian Affairs), and by cooperative agreements with local law 
enforcement agencies. At the same time, our law enforcement 
responsibilities have increased as a result of the insurgence of 
methamphetamine, alcohol, illegal prescription drug use, and gang-
related activities on our Reservation. We have developed many different 
initiatives to try and combat these serious problems, and Federal 
assistance is critical to those efforts.
    Our law enforcement department currently employs ten officers and 
three administrative staff-persons, but this is not adequate to address 
our needs. In each of the last 2 years, our officers have responded to 
several thousand calls. These address a wide range of matters including 
traffic stops, domestic assaults, disturbances, theft, drug and alcohol 
related incidents, suicide threats and accidents, to name just a few. 
With only ten officers, we cannot provide law enforcement services 7 
days a week, 24 hours a day without having those officers work 
considerable overtime. Our limited staff also means that we are 
handicapped in our ability to implement pro-active measures, such as 
youth education and outreach programs, and assistance to the clinics in 
developing means for identifying and preventing prescription drug 
abuse. To adequately carry out law enforcement duties, we need fifteen 
to twenty officers. This, however, would require additional funding for 
staffing, training, recruitment and retention. Further, because of 
budget limitations, we have not been able to offer competitive salaries 
needed to recruit and retain officers.
    Federal funding is also vital for law enforcement equipment. Our 
ability to effectively address crime--especially given the increase in 
methamphetamine-related crimes--requires basic equipment like 
binoculars, video cameras and other surveillance tools. Other equipment 
is needed as well. For example, because the Band does not own an 
intoxilyzer, our officers must transport persons arrested for DWI on 
our Reservation an hour drive each way to the St. Louis County Jail for 
DWI processing--pulling our limited number of officers away from their 
other responsibilities for long periods of time. We also anticipate 
incurring significant equipment costs within the next few years in 
order to integrate the Band's dispatching system with the more advanced 
dispatching system recently adopted by St. Louis and Carlton Counties--
with whom we coordinate our law enforcement responsibilities. We do not 
yet know the full cost of converting this system, but expect it to be 
substantial as it will involve the purchase of new equipment and 
software as well as the installation of a T-1 line.
    We also urge Congress to increase Tribal Court funding. As the 
demands on the Band's law enforcement have grown, so too has our Tribal 
Court docket. We support additional funding to meet detention facility 
needs, but that increase should not come at the expense of a reduction 
in funding for Tribal Courts which have been historically under-funded 
and which are essential to effective law enforcement efforts.
    BIA: Natural Resources.--We urge Congress to increase Federal funds 
for Natural Resources Management. Related in part to the Band's law 
enforcement work are the Band's responsibilities for enforcing 
conservation laws that protect natural resources and regulate Band 
members who hunt, fish and gather those resources both within and 
outside the Reservation pursuant to rights reserved under Treaties with 
the United States in 1837 and 1854. The Band's rights to hunt, fish and 
gather on lands ceded under these treaties have been upheld by the 
Federal courts and the United States Supreme Court. Under established 
Band conservation law, the Band is responsible for enforcing 
regulations over approximately 8,000,000 acres in northern and central 
Minnesota. It is also essential that the Band continue to manage its 
on-reservation resources in order to meet the demands of an increasing 
population. The on-reservation resources are vitally important to Band 
members as they provide the foundation for our culture, subsistence, 
employment and recreation. The Band seeks an additional $1.5 million to 
be added to the Band's base budget for the Band's Resource Management 
programs to enable us to continue to protect natural resources for the 
future generations at Fond du Lac. The funds for this program have not 
been increased since 1991.
    BIA: Natural Resources, Circle of Flight.--We ask Congress to 
restore the Circle of Flight Wetland/Waterfowl Enhancement Program in 
the BIA's fiscal year 2008 budget to at least the fiscal year 2007 
level of $600,000, and to consider providing the amount of $1,113,000 
to cover actual program needs. Circle of Flight has been one of 
Interior's top trust resource programs for more than a decade. Since 
fiscal year 1991, Great Lakes tribes and our partners have restored or 
enhanced more than 66,000 wetland, grassland, and native prairie acres. 
Circle of Flight has invested more than $6 million in habitat projects, 
and has leveraged these dollars for an additional $18 million in 
Federal, State, private, and tribal funding, yielding an impressive 
match ratio of 3 to 1.
    BIA: Human Services.--We urge Congress to reject the 
administration's proposal to decrease Human Services and Indian Child 
Welfare funding. These programs are not only historically under-funded, 
but Tribes generally are further severely disadvantaged by the fact 
that current law does not provide the Tribes with direct access to 
Title IV-E funds. Funding levels for human services that will lead to 
the successful implementation of the Indian Child Welfare Act should be 
increased. This is essential if this critical part of Federal law is to 
have its intended impact on American Indian communities and families. 
Furthermore, we urge Congress to increase funding for childcare 
subsidies for tribally licensed daycare and foster care homes and to 
provide 100 percent FMAP (Federal Medical Assistance Percentage) for 
both Title IV-E services provided by tribal employees and for child 
welfare case management activities. We also ask Congress to appropriate 
funds to analyze State non-compliance with the Indian Child Welfare 
Act.
    Indian Health Service.--While we support the President's proposal 
to increase the budget for Indian Health Services, the amount of that 
increase ($212 million from the current funding level) still will not 
meet the actual costs of providing health care to Indian people. The 
proposed increase fails to address the high rates of medical inflation 
and the substantial unmet need for health care among Indian people. For 
instance, Indians at Fond du Lac, like Indians throughout the Nation, 
face disproportionately higher rates of diabetes and the complications 
associated with diabetes, than the rest of the population. Heart 
disease, cancer, obesity, chemical dependency and mental health 
problems are also prevalent among our people. While other Federal 
programs, like Medicare and Medicaid, have seen annual increases in 
funding of 5-10 percent to address inflation, the budget for IHS has 
never had comparable increases, and, as a result, IHS programs have 
consistently fallen short of meeting the actual needs. The Band 
supports the efforts of all Indian tribes to receive 100 percent of the 
Level of Need Formula (LNF), which is absolutely critical for tribes to 
address the serious and persistent health issues that confront our 
communities. The Band serves approximately 5,900 Indian people at our 
clinics, but the current funding level meets only 38 percent of our 
health care funding needs. In addition, the Band requests an increase 
in funding for substance abuse and mental health programs in order to 
combat the growing methamphetamine problem on our Reservation.
    In conclusion, the needs at Fond du Lac and throughout Indian 
Country remain massive. Your support on these funding issues is 
essential to our ability to maintain vitally important programs and 
will enable us to improve the delivery of services to Band members so 
that we may enter the 21st Century with a renewed sense of hope. 
Miigwech. Thank you.
                                 ______
                                 
            Prepared Statement of the Fort River Partnership
    Madam Chairwoman and members of the subcommittee I appreciate the 
opportunity to present this testimony in support of a $4 million 
appropriation to the Fish and Wildlife Service from the Land and Water 
Conservation Fund (LWCF) for the Silvio O. Conte National Fish and 
Wildlife Refuge (Conte NFWR) in Massachusetts.
    The Fort River Partnership coordinates the work of Federal, State, 
and nonprofit partners \1\ to protect wildlife habitat, working farms, 
and water quality in the Fort River region of the Connecticut River 
valley in Massachusetts. As board Chair of The Kestrel Trust, I 
strongly support the efforts of the U.S. Fish and Wildlife Service to 
expand the Fort River Division of the Conte NFWR through land 
acquisitions that protect grassland bird habitat along and near the 
Fort River.
---------------------------------------------------------------------------
    \1\ The Fort River Partnership participants include representatives 
from the USFWS Conte NFWR, the Massachusetts Department of Conservation 
and Recreation, The Kestrel Trust, Valley Land Fund, Franklin Land 
Trust, the Conservation Fund, and the Trust for Public Land.
---------------------------------------------------------------------------
    Silvio O. Conte was a conservationist, fisherman, and champion of 
the Connecticut River who served as a U.S. Representative for 
Massachusetts' 1st District from 1959 until his death in 1991. Just 
before he died, Congressman Conte introduced legislation to establish a 
national wildlife refuge in the Connecticut River watershed, and his 
congressional colleagues paid tribute to his conservation legacy by 
authorizing the U.S. Fish and Wildlife Service (FWS) to establish the 
Silvio O. Conte National Fish and Wildlife Refuge in 1991. The refuge, 
officially established in 1997 under a plan set forth in a 1995 
Environmental Impact Statement (EIS), protects native and endangered 
fish, wildlife, and plant species throughout the 7.2 million acre 
Connecticut River watershed, located in portions of Massachusetts, 
Connecticut, Vermont, and New Hampshire.
    Available for acquisition in the Conte NFWR in Massachusetts are 
several tracts in Hadley--the Fort River Grasslands--that total nearly 
150 acres. These parcels are part of the Grasslands Complex Special 
Focus Area identified in the 1995 EIS, and are prized for their 
frontage on the Fort River and for their habitat potential for 
grassland bird species such as the grasshopper sparrow, bobolink, and 
upland sandpiper. The Fort River is the longest free-flowing tributary 
of the Connecticut River in Massachusetts. In its lower reach above the 
confluence with the Connecticut River, the Fort River is home to the 
Federally listed endangered dwarf wedgemussel and many other rare 
species, including the bridle shiner dragonfly and burbot, a freshwater 
cod.
    With roughly 2.5 million people in the Connecticut River watershed, 
the threat from development poses a challenge to the mission of the 
refuge and the protection of the valley's resources. Hadley, a 
traditional farming town rich in prime soils, is increasingly facing 
the challenges of rising land values and loss of rural character. The 
addition of these parcels to the Refuge's Fort River Division will 
contribute strongly to the creation of a viable land base for grassland 
bird species and to the health of other critical Fort River species, 
including the Federally endangered dwarf wedgemussel. Failure to 
protect these parcels will inevitably lead to housing developments in 
this sensitive area. An assemblage of three of the available parcels 
were ranked as the second highest priority for fiscal year 2007 funding 
for the entire FWS Region 5 because of their resource value and urgent 
threat, but the Conte NFWR ultimately received no acquisition funding 
for the fiscal year. Those parcels are subject to an agreement expiring 
in May 2007 that the landowners are unwilling to extend, forcing 
conservation groups to consider taking expensive steps to protect the 
Service's opportunity to acquire them in fiscal year 2008.
    The select board of the Town of Hadley has declared its support for 
the establishment and expansion of this Division. The FWS and its 
partners are working closely with local land trusts to ensure that the 
refuge additions are leveraged through local, State, and Federal 
investments in farmland protection, creating a conservation mosaic in 
the focus area that preserves its rural, historic and scenic character 
and protects the quality of the town's drinking water aquifer.
    The estimated value of the Fort River Grasslands properties is $4 
million, which is part of a larger $8.2 million request to fund other 
conservation opportunities throughout the four Conte NFWR States in 
fiscal year 2008. The $4 million appropriation to protect these Fort 
River properties will allow the Conte NFWR to continue to provide 
valuable resource protection within the Connecticut River valley in 
Massachusetts.
    I respectfully request that you include an appropriation of $4 
million for the Silvio O. Conte NFWR in Massachusetts in the fiscal 
year 2008 Interior and Related Agencies Appropriations bill. I also 
support the request of the Friends of the Silvio O. Conte National Fish 
and Wildlife Refuge for a total of at least $8.2 million for the entire 
four-State refuge. This amount will help fund the current high-priority 
Conte NFWR projects that are at risk of being lost in the Connecticut 
River watershed, a region comprising one sixth of New England's land 
mass and providing over 70 percent of the freshwater inflow to Long 
Island Sound.
    Thank you for your attention to this request.
                                 ______
                                 
        Prepared Statement of Friends of the Archie Carr Refuge
    We are requesting an increase in fiscal year 2008 operations and 
maintenance funding to $500 million, for the National Wildlife Refuge 
System program, which is part of the U.S. Fish and Wildlife Service.
    We are greatly concerned about the detriment to the Archie Carr 
National Wildlife Refuge, due to the severe cuts in workforce which 
have resulted from inadequate funding.
    The Archie Carr is the only refuge established for the protection 
of sea turtles. This twenty and one half mile stretch of beach in 
Brevard and Indian River Counties in Florida hosts the largest 
concentration of loggerhead and green sea turtles in the United States. 
It is the second most important nesting site in the world for 
loggerhead turtles.
    The Archie Carr NWR presents a special management challenge because 
of the extensive private in-holdings of residents and businesses. The 
refuge is configured linearly along the beach and is peppered with a 
multitude of private in-holdings. The only way to effectively manage 
these private in-holdings, and insure they are not harming the 
endangered and threatened species found within the refuge, is through 
refuge outreach.
    Management of the Archie Carr NWR is supported by a Working Group 
which consists of representatives from the Federal, State, and county 
governments, as well as several national and local environmental 
organizations and universities, all chaired and directed by the refuge 
staff. This important cooperative effort would be put at risk as a 
result of the severe cuts in the USF&WS refuge staff.
    The loss of refuge staff will also greatly affect sea turtle and 
other wildlife surveys, as well as habitat management such as predator 
and exotic plant controls. Education and outreach programs will be 
eliminated and the volunteer program will be hampered. The ``Turtle 
Watch'' programs, which are an important method for educating our 
children to the importance of wildlife in their lives, will be 
affected.
    The Archie Carr NWR has a great potential to show that humans and 
wildlife can coexist in a shared environment. This is a message that is 
of utmost importance in today's world. An increase in funding for 
additional refuge staff is critical for the refuge to perform the 
function as originally intended when first created by an act Congress. 
We urgently request an increase in refuge funding.
                                 ______
                                 
   Prepared Statement of the Friends of Blackwater National Wildlife 
                                 Refuge
    My name is Lisa Mayo, and I have been the volunteer webmaster at 
Blackwater National Wildlife Refuge for the last 6 years. I am 
requesting that Congress approve a $451.5 million budget for the 
National Wildlife Refuge System for fiscal year 2008.
    Throughout its life, the Friends of Blackwater have been at the 
forefront of helping the National Wildlife Refuge System to do more 
with less. In 2003, the FoB was named the ``Friends Group of the 
Year,'' due in large part to our efforts to improve the Nation's 
Friends organizations and to help refuges find volunteers and 
additional funds during lean times.
    At Blackwater NWR, the FoB performs the equivalent annual work of 
7-10 full-time USFWS employees because the staffing is so low at 
Blackwater Refuge--this is despite the fact that Blackwater NWR is the 
largest refuge in Maryland and one of the most popular in the mid-
Atlantic States due to its large breeding population of bald eagles.
    If not for the FoB, Blackwater Refuge would not be able to keep its 
Visitor Center open during the entire year--the USFWS staff would have 
to close it multiple times during the week and possibly for weeks 
during the summer. The Refuge staff would also not have the recently 
added second floor at the Visitor Center, or the new land trails or the 
new paddling trails, which were all made possible through grants that 
were acquired by the FoB.
    As webmaster, I run the FoB website, which includes a live Bald 
Eagle Cam and Osprey Cam--something that the FoB pays for in its 
entirety. Because of our live online raptor cams, our website is one of 
the most popular in the Refuge System, and we spend a good deal of time 
reaching out to citizens and educating them about the Refuge System, 
wildlife conservation in America, and the need for wise management of 
our bountiful natural resources.
    But when I read about all the cuts that will come to the Refuge 
System if the $451.5 million budget is not passed, I grow very 
despondent. It seems that the American Government is defaulting on its 
responsibility to properly manage the lands and wildlife of the 
National Wildlife Refuge System, and I can't imagine that Teddy 
Roosevelt would be anything but furious.
    Without the $451.5 million budget for fiscal year 2008, the Refuge 
System will have to cut environmental education programs to thousands 
of schoolchildren, cut invasive species monitoring, cut biological 
surveys and endangered species protection, cut hunting and fishing 
opportunities, cut law enforcement, and cut Visitor Center hours. 
Poaching will increase, all-terrain-vehicle abuse will increase, and 
wildfires will increase--all without adequate oversight from the USFWS 
staff.
    Some people in the Bush administration seem to think that 
volunteers will be able to make up the difference if large amounts of 
staff are cut within the Refuge System, but that is not true. First, 
it's not the job of the taxpayers to provide manpower for the Refuge 
System--that's why we pay taxes, so the Federal Government can hire 
wildlife and recreation professionals to do the job. Second, if a 
refuge has inadequate USFWS staff then there will be fewer volunteer 
programs since volunteers need the staff to guide them and oversee 
their efforts.
    If we lose the staff, we will lose volunteers and the programs they 
provide. This will only compound the problem and create a situation 
where the Refuge System will be close to collapse from inadequate money 
and people.
    I don't understand how Congress can let this happen. It is clear 
that much money is wasted in the Federal Government due to lack of 
proper oversight. From superfluous tax breaks to wealthy oil companies, 
to waste and theft in the Iraq War funding, to farmers double-dipping 
in the farm subsidy programs, there is a lot of Federal money being 
thrown away. A small percentage of that money could literally save the 
Refuge System.
    Please approve a $451.5 million budget for the National Wildlife 
Refuge System in fiscal year 2008. Thank you for your commitment to 
conservation in America.
                                 ______
                                 
  Prepared Statement of the Friends of the Boundary Waters Wilderness
    Mrs. Chairwoman and honorable members of the committee: I 
appreciate the opportunity to present this testimony in support of a 
$1.5 million appropriation from the Land and Water Conservation Fund 
for the final phase acquisition of Long Island in the Superior National 
Forest in northeastern Minnesota. I also wish to commend the chairman 
and committee members for supporting funding for the Land and Water 
Conservation Fund to protect our public lands heritage in places such 
as the Superior National Forest.
    The mission of the Friends of the Boundary Waters Wilderness is to 
protect, preserve and restore the wilderness character of the Boundary 
Waters Canoe Area Wilderness and the Quetico-Superior Ecosystem. The 
organization formed in 1976 to protect this vulnerable area and two 
years later worked with Congress to bring full wilderness protection to 
the Boundary Waters. Today the Minneapolis, Minnesota-based 
organization has 4,000 members and subscribers nationwide.
    Long Island is the largest undeveloped island on Bumtside Lake. 
Located 30 miles southeast of Crane Lake and 3 miles northwest of Ely, 
Bumtside Lake is over 10,000 acres in size. The lake is an important 
recreational area, with two entry points into the Boundary Waters Canoe 
Area Wilderness, five campsites and six public canoe launching points. 
The lake is also the start of an 11-mile canoe trail called Bumtside-
Dead River-Twin Lakes-Everett. One of the few lakes in Minnesota that 
support a natural cold water fishery, the lake is renowned for its big 
lake trout and walleye and also supports one of the largest populations 
of loon in the State.
    Beyond its current recreational and natural qualities, Bumtside 
Lake holds significant historic and cultural value. It is the location 
of writer and conservationist Sigurd Olson's legendary Listening Point. 
As Walden was to Thoreau and Sand County to Aldo Leopold, Listening 
Point was a place of inspiration for Olson and where got the ideas for 
his books and where he crafted aspects of the 1964 Wilderness Act.
    Long Island is situated directly across from Olson's beloved 
Listening Point. From his cabin, the ancient trees of Long Island were 
within his view. He undoubtedly gazed across the water of Bumtside Lake 
on countless occasions and contemplated the island's undisturbed 
shoreline and ancient trees. While Listening Point is protected today, 
the view across the lake featuring Long Island is not.
    Long Island would be an outstanding addition to the Superior 
National Forest, boasting 1 mile of undeveloped lakeshore. The island 
has a beautiful sand beach, which would be utilized by the public for 
recreation. There are limited numbers of public beach areas within the 
forest boundaries, and this would be a rare opportunity for the public. 
The island is home to nesting osprey, blue heron and nesting loons and 
has potential for habitat for rare and sensitive species.
    The 64-acre Bumtside Islands Scientific and Natural Area, which 
features two virtually undisturbed islands, is located immediately 
southwest of Long Island. These two forested bedrock islands are home 
to old-growth Great Lakes pine forests that are extremely rare outside 
of the Boundary Waters Canoe Area Wilderness. Public acquisition of the 
Long Island property will ensure that the attributes of the boreal 
forest northwoods region, so treasured by its many visitors, will be 
protected in perpetuity.
    An appropriation of $1.5 million from the Land and Water 
Conservation Fund in fiscal year 2007 will secure the acquisition of 
the final 33 acres of Long Island, to protect its critical natural 
resources for the public, and maintain the integrity of the great 
northwoods.
    Thank you, Mrs. Chairman, for the opportunity to present this 
testimony.
                                 ______
                                 
          Prepared Statement of the Friends of Congaree Swamp
    Madam Chairman and members of the subcommittee: We appreciate the 
opportunity to present this testimony in support of an appropriation of 
$5.6 million from the Land and Water Conservation Fund to the National 
Park Service for land acquisition at Congaree National Park in South 
Carolina.
    Congaree Swamp National Monument was authorized as a unit of the 
National Park Service in 1976. In 2003, Public Law 108-108 designated 
Congaree as a National Park--South Carolina's first and only national 
park--and authorized a boundary expansion of 4,576 acres.
    Congaree National Park rests on the Congaree River floodplain in 
central South Carolina, and is recognized as an International Biosphere 
Reserve, a National Natural Landmark, a Wilderness Area, and a Globally 
Important Bird Area. All waters within the park's pre-2003 boundary 
have been designated Outstanding Resource Waters, and much of Cedar 
Creek within the park boundary is designated Outstanding National 
Resource Waters.
    With at least 75 species of trees, Congaree hosts the Nation's 
largest tract of old-growth bottomland hardwood forest, and nurtures 
some of the tallest trees in the eastern United States with some tree 
heights exceeding 160 feet.
    More than 190 species of birds have been observed within the park. 
Following rediscovery of the Ivory-billed Woodpecker in Arkansas, 
Congaree National Park is considered prime habitat for recovery of this 
species. The South Carolina Ivory-billed Woodpecker Working Group has 
coordinated searches within Congaree National Park each of the past 2 
years.
    Congaree National Park also offers excellent opportunities for 
recreation. A 2.5-mile boardwalk loop provides easy access into 
Congaree's forest, and more than 20 miles of trails are available for 
hiking. Visitors enjoy canoeing and kayaking on Cedar Creek, the only 
Outstanding National Resource Waters in South Carolina. Outdoors 
enthusiasts can also enjoy fishing, camping, birding, and picnicking.
    In fiscal year 2005, Congress appropriated $6 million from the Land 
and Water Conservation Fund to purchase the 2,395-acre Bates Fork 
tract--at the confluence of the Congaree and Wateree rivers. This is 
the largest tract within the Congaree park boundary expansion 
authorized in 2003. The National Park Service completed this 
acquisition in November 2005.
    fiscal year 2008 presents the opportunity to acquire the 1,840-acre 
Riverstone tract--the second-largest tract within the park boundary 
expansion authorized in 2003. The Riverstone tract will connect the 
previously-acquired 22,000 acres of Congaree National Park with the 
recently-acquired 2,395-acre Bates Fork tract. The Bates Fork tract, in 
turn, adjoins the 16,700-acre Upper Santee Swamp Natural Area, owned by 
the South Carolina Public Service Authority. So, the Riverstone tract 
is the link to connect Congaree National Park and the Upper Santee 
Swamp Natural Area.
    Resources on the Riverstone tract--including Bates Old River, Big 
Lake, Little Lake, Running Creek and Running Lake--have significant 
natural, recreational, and historical values. Bates Old River is the 
longest oxbow lake (4 miles) on the Congaree River and one of the 
longest oxbows in South Carolina. An unusual mix of sweetgum, bald 
cypress, water tupelo, and green ash dominates the Bates Old River 
ridge and swale system. The Riverstone tract harbors extensive areas of 
early- and mid-successional plant communities rarely found in Congaree 
National Park, plus dwarf cypress and planer tree communities not 
represented at all on existing park lands. In addition, there are 
numerous large specimen swamp cottonwoods and water hickories. 
Acquisition of the Riverstone tract will provide new and diverse 
recreational and historical interpretation opportunities for park 
visitors while adding to the park's natural resources.
    A fiscal year 2008 appropriation of $5.6 million from the Land and 
Water Conservation Fund will provide the National Park Service with 
funds to purchase this critical Riverstone tract, thereby ensuring 
permanent protection of its outstanding natural and cultural resources, 
and connecting the 22,000 acres upriver with the 19,000 acres 
downriver.
    Thank you, Madam Chairman, for the opportunity to present this 
testimony and for your consideration of our request.
                                 ______
                                 
 Prepared Statement of Friends of Lake Woodruff NWR, DeLeon Springs, FL
    My name is Elena Jarvis and I am representing the Friends of Lake 
Woodruff NWR, a volunteer, advocacy and educational group of some 100 
members. I respectfully ask that you appropriate $451.5 million for 
fiscal year 2008 for the refuge system. Realistically, if the National 
Wildlife Refuge system were operating at full capacity with the 
appropriate funding, the budget should be in the vicinity of $765 
million annually.
    Vitally important to our Nation's wildlife, refuges provide 
unparalleled opportunities to hunt, fish, watch wildlife and educate 
children about the environment. Without increased funding for refuges, 
wildlife conservation and public recreation opportunities will be 
jeopardized.
    In a larger sense, refuges also act as emissaries for the natural 
wonders of our country. As an almost daily visitor to the Lake Woodruff 
Wildlife Refuge, which is within walking distance of my home, I have 
met people from around the world who come to Lake Woodruff to witness 
its vibrant array of wildlife and plant life, including a pair of rare 
Whooping Cranes that have wintered here for the past 3 years. As you 
may know, 17 of these highly endangered birds were tragically killed 
this year during the Feb. 2 tornadoes that hit their winter home near 
Kissimmee.
    Whether from China or Chile, visitors return to their homelands 
with not only a vision of what responsible stewardship of natural 
resources can be, but also, I hope, with the inspiration to encourage 
their own countries to follow suit. Funding for wildlife refuges, when 
you think of it, pays for itself through this type of positive public 
relations, not to mention the influx of tourism dollars from the 
hundreds of birders and wildlife enthusiasts who enjoy the refuges. Of 
course, the educational programs our refuge offers--through the 
kindness of volunteers--have a lifelong impact on the young people 
touched by them.
    Refuges are vital economic engines in the local economy, fueling 
hotel stays, restaurant patronage and much, much more. According to 
Banking on Nature, a 2004 report by the U.S. Fish and Wildlife Service, 
recreational visits to national wildlife refuges generate substantial 
economic activity. Nearly 37 million people visited national wildlife 
refuges in 2004, creating almost 24,000 private sector jobs and 
producing $454 million in employment income. Recreational spending on 
refuges generated nearly $151 million in tax revenue at the local, 
county, State, and Federal level.
    Currently, the National Wildlife Refuge System suffers from a $2.75 
billion operations and maintenance stewardship funding backlog, which 
will only grow larger if the current rate of funding continues. Because 
of this, refuges such as ours, struggle to meet even its most basic 
wildlife conservation objectives. In fact, shortfalls have led to the 
decline of refuge habitats and wildlife populations, aging facilities 
and infrastructure, the cancellation of many public use programs and 
increased crime on public lands.
    More troubling, some refuges may be forced to close their doors as 
a result of declining budgets.
    Since moving to DeLand 6 years ago from Los Angeles--an area that 
knows a thing or two about unrestricted growth, as well as 
conservation--I've seen visitors to Lake Woodruff grow, as money for 
maintenance dwindles. Until 2 years ago, our refuge was able to offer 
visitors trash and recycling bins, though, even then, not everyone used 
them. Today, without the funds to pay for refuse pickup, there are no 
bins available. Consequently, the trash problem has increased. 
Volunteers help, but on many days I have observed Woodruff's program 
manager, Harold Morrow, picking up garbage himself. Not a very 
constructive use of his time, in my book. As a frequent visitor to Lake 
Woodruff, I cannot tell you how often I have picked up wads of fishing 
line, which pose an extreme danger to Lake Woodruff wildlife, including 
the Whooping Cranes.
    Currently, Mr. Morrow is planning to ask volunteers to help 
reforest an area of the refuge with native slash pine. He estimates he 
will need enough people to plant more than 20,000 seedlings. In 
addition, he hopes to improve the health of the forest bed with native 
plants which he now does not have the money or manpower to facilitate. 
Of course, dealing with invasive species and plants is an ongoing 
battle being fought largely, once again, by volunteers.
    Because we have a large population of new immigrants and illegal 
aliens in Volusia County, primarily from Mexico, it is important for 
the refuge to offer educational programs in Spanish to help these 
residents appreciate the importance of the refuge and its fragility. We 
simply do not have the money or manpower at this time to address that 
pressing issue.
    As a member of the Friends of Lake Woodruff, I respectfully request 
that you push for increased funding for the National Wildlife Refuge 
System in fiscal year 2008 to $451.5 million. I hope you support the 
Friends of Lake Woodruff and others across the country by securing 
strong funding for the National Wildlife Refuge System.
                                 ______
                                 
  Prepared Statement of Friends of the Lower Suwannee and Cedar Keys 
                       National Wildlife Refuges
    Honorable Feinstein, I would like to request an appropriation of 
$500,000,000 for the National Wildlife Refuge system. The House Report 
109-465 dated May 15, 2006 clearly identified the problems budget 
shortfalls have created for the National Refuge system. The trend to 
cut spending for our refuge system of 96 million acres is not an 
effective conservation strategy. In Florida alone, there has been a 
decrease of 14 positions from 2004-2006. With the current level of 
funding, there are expected to be another 21 positions cut in Florida 
by 2009. The H.R. 109-465 report stated that, ``Increased funding 
recommended for National Wildlife Refuge operating needs should be used 
to pay critical energy and other cost increases and to fill the most 
critical staffing vacancies.'' The problem with the proposed budget of 
$382 million is that it does not even keep pace with the normal 
increased cost of operations when compared to last year's budget.
    With an estimated $2.75 billion operations and maintenance backlog, 
the increased funding to $500,000,000 would be a positive step to 
reestablish the conservation health of our National Wildlife Refuge 
system. The $250,000 requested for the Lower Suwannee and Cedar Keys 
NWR would help reinstate cut staff positions and help cover increased 
operational expenses for these refuges.
    As president of the Friends of the Lower Suwannee and Cedar Keys 
National Wildlife Refuges, I represent over 190 members. The mission of 
the Friends of Lower Suwannee and Cedar Keys NWF ``. . . is to provide 
active advocacy and physical support for the successful stewardship of 
the refuges.'' The Florida Wildlife Federation, a statewide 
organization of 50,000 members, strongly endorses this request for 
increased funding for the National Wildlife Refuge system. The mission 
of the FWF ``. . . is the restoration, protection, wise use and 
scientific management of natural resources in Florida.''
    The Lower Suwannee NWR comprises over 50,000 acres that is split by 
the historic Suwannee River for the last 20-25 miles where the river 
empties into the Gulf of Mexico. With the exception of a small 
community, Fowler's Bluff, there are no homes on this stretch of the 
river until one reaches the Gulf. The Cedar Keys NWR is comprised of 
some 727 acres on 13 islands in the Gulf of Mexico.
    The Lower Suwannee NWR is special and unique in the following ways:
  --The pristine natural condition of the refuge helps protect the 
        environmental health of the Suwannee River and the surrounding 
        area.
  --The Suwannee River is home to a wide variety of plant and animal 
        life. The river is the most important spawning ground for the 
        protected Gulf sturgeon. The river is also an important habitat 
        for the endangered manatee.
  --The refuge contains a unique combination of upland hardwood, 
        wetland/swamp, and saltwater marsh habitats. Of particular 
        interest, one can find both temperate and tropical types of 
        vegetation in the refuge.
  --The refuge provides habitat for a wide variety of birds including 
        15 endangered or threatened species like the Bald Eagle. The 
        refuge is an important nesting site for the short-tailed hawks 
        of which there are only an estimated 200 mating pairs in the 
        wild. The swallowtail kite once widespread, now is restricted 
        to just the Southeastern portion of the United States with the 
        refuge being a very important nesting site.
  --Combined with surrounding State Parks, the refuge will become an 
        even more important conservation area as Florida's population 
        increases.
  --With constructed bat houses, the refuge has successfully 
        established a viable bat population that serves as a model for 
        future bat projects.
  --Many important cultural heritage sites are also to be found in the 
        refuge.
    The Cedar Keys NWR is special and unique in the following ways:
  --The 727 acre refuge composed of 13 islands is a major rookery for 
        pelicans and a wide variety of shore birds.
  --As studied by the University of Florida's Florida Marine Center, of 
        particular interest is the symbiotic relationship of 
        cottonmouth moccasins and nesting birds on Seahorse Key. The 
        moccasins provide protection from predators like raccoons and 
        rats for the nesting birds. In return, the birds provide a 
        steady diet of fish for the moccasins. According to Dr. Harvey 
        Lillywhite, Director of the Center, this is the only place on 
        earth that such a relationship between snakes and birds exists.
  --Historically, the refuge contains important historical structures 
        including the Seahorse Key Lighthouse designed in the 1850s by 
        Lieutenant George Meade, later to become General Meade of 
        Gettysburg fame. It is also of interest that the lighthouse 
        sits on a natural dune that is some 50+ feet above sea level. 
        This makes it one of the highest points in the Big Bend area of 
        Florida.
  --This refuge also provides a vital barrier island system.
    The biggest impact on the budget shortfall with the present 
proposed budget is that there has not been sufficient funding to 
maintain adequate staffing for the Lower Suwannee and Cedar Keys NWRs. 
The lack of staffing presents the following difficulties:
  --Not having a designated position for a biologist makes it 
        problematic to achieve the NWR mission of wildlife 
        conservation.
  --Presently, there is only one law enforcement position with the 
        refuges. The Suwannee River splits the Lower Suwannee NWR. To 
        police both the Levy County and the Dixie County side of the 
        refuge requires at least a 50-mile trip to go from one side of 
        the refuge to the other. Last year, marijuana was discovered 
        growing on the refuge, but clearly, it is problematic to patrol 
        the entire refuge. Because the Cedar Key NWR is scattered over 
        13 islands in the Gulf of Mexico, it is equally problematic to 
        be patrolled by one law enforcement officer.
  --There are not enough personnel to adequately monitor such things as 
        invasive species and generally monitor the conservational 
        health of the refuges.
  --The cut back in staffing has made it increasingly difficult to 
        provide adequate services for the 170,000 visitors to the 
        refuges each year.
  --The Cedar Keys Refuge is a satellite refuge monitored by the staff 
        at the Lower Suwannee NWR. Even with the University of Florida 
        Marine Center on Seahorse Key, there is a real concern about 
        adequately monitoring the refuge with so few personnel.
    With adequate staffing and operational funding, the refuge staff, 
with the help of the Friends of the Lower Suwannee and Cedar Keys NWR, 
would be able to:
  --Provide better monitoring of the health of the refuges' habitat,
  --Consistently police the proper utilization of the resources of the 
        refuges and to protect the habitat and its wildlife,
  --Conduct more programs for school children to learn about 
        conservation,
  --Expand the conservation efforts across other public agencies as 
        well as private stakeholders to deal with common problems like 
        invasive species eradication and the protection of endangered 
        species,
  --Upgrade and maintain public facilities like roads, docks, 
        boardwalks, observation stations and signage,
  --Expand public access and use of the refuges, and
  --Monitor, manage, and protect the floral and fauna in the refuges.
    Thank you for considering these requests.
                                 ______
                                 
  Prepared Statement of the Friends of the Tamarac National Wildlife 
                          Refuge in Minnesota
    Madam Chairwoman and members of the subcommittee: On behalf of the 
Tamarac Interpretive Association, the friend's organization of the 
Tamarac National Wildlife Refuge in Minnesota, I am submitting 
testimony for the Senate Appropriations Subcommittee on Interior, 
Environment and Related Agencies. We support a funding level of $451 
million in fiscal year 2008 for the U.S. Fish and Wildlife Service's 
(FWS) National Wildlife Refuge System Operations and Maintenance (O&M) 
account and adequate funding for Visitor Services.
    The National Wildlife Refuge System budget must increase by $15 
million each year in order to maintain services and programs from the 
previous year. The $15 million increase accounts for cost-of-living 
increases for FWS personnel, growing rent and real estate costs and 
other cost increases, while sustaining current levels of visitor 
services and wildlife management.
    As a result of several years of annual funding increases less that 
increases in costs, the Midwest region early this year was forced to 
cut 71 positions, including 27 in Minnesota--a 20 percent reduction. 
These Minnesota lost positions included nine managers/resource 
specialists, six park rangers, six biologists/biology technicians, 
three maintenance workers, and three administrative staff. Positions 
cuts included the Region Office management divisions. At the Tamarac 
National Wildlife Refuge there has been the loss of one of the 
station's maintenance positions that will result in creating a backlog 
of repairs and regular maintenance of facilities, vehicles, refuge 
roads, parking areas, and hiking trails. Since the remaining 
maintenance position is seasonal, the impacts will include reduced snow 
removal on refuge roads, parking areas and at the headquarters/visitor 
center. One staff position was lost at the nearby Detroit Lakes Wetland 
Management District causing the elimination of biological surveys used 
to influence wildlife habitat restoration and land protection 
activities. Several local partnerships will also likely be terminated 
due to lack of staff. In addition, local Hamden Slough National 
Wildlife Refuge has had its entire staff reassigned to Detroit Lakes 
Wetland Management District and has experienced the loss of the refuge 
manager position. The transfer of refuge staff will result in a 
diminished capacity to intensively manage Hamden Slough habitats. 
Without a local office, visitation is expected to decrease.
    Tamarac National Wildlife Refuge was established in 1938 to serve 
as a breeding ground and sanctuary for migratory birds and other 
wildlife. Tamarac Refuge's nearly 43,000 acres lies in the heart of one 
of the most diverse vegetative transition zones in North America, where 
tall grass prairie, northern hardwood and boreal forests converge. 
These transitional habitats provide a haven for a diversity of wildlife 
species and some, such as the timber wolf, are at their extreme edge of 
their range in Minnesota. While the needs of wildlife are the first 
priority, Tamarac Refuge also provides many opportunities for visitors 
to enjoy and learn about our natural world through wildlife-compatible 
activities.
    Tamarac National Wildlife Refuge generated $880,500 in total 
economic activity related to refuge recreational use and six jobs for 
the nearby community Detroit Lakes, according to Banking on Nature 
2004: The Economic Benefits to Local Communities of National Wildlife 
Refuge Visitation. The same report found that national wildlife refuges 
are major economic engines for communities, putting almost $1.4 billion 
into the U.S. economy. In 2004, over 35,000 visitors to Tamarac NWR 
enjoyed a variety of recreational activities, including non-consumptive 
activities, hunting, and freshwater fishing. Visitor recreation 
expenditures totaled $243,400 with non-residents accounting for 40 
percent. These expenditures generated $329,800 in final demand and 
$55,000 in tax revenue for our local Becker County. Nationally, the 
National Wildlife Refuge System created nearly 24,000 private sector 
jobs as the $1.4 billion flowed through the economy, generating about 
$454 million in employment income. Additionally, recreational spending 
on national wildlife refuges generated nearly $151 million in tax 
revenue at the local, county, State, and Federal level.
    In fiscal year 2006, there were 58,500 visitors representing 83,603 
visits to the Tamarac National Wildlife Refuge. Of these totals, 48,500 
came for wildlife observation, 6,625 for hunting, and there were 7,514 
visits to the visitor center. The lakes area in Northwestern Minnesota, 
like the areas around other refuges near populated areas, has been 
rapidly developing with lakeside and rural seasonal and year-round 
homes. With diminishing habitat, Tamarac's 43,000 acres are a key 
``refuge'' for migratory bird and other wildlife production. Due to the 
same developmental pressures, the Tamarac NWR is also increasingly an 
island of relatively natural forests, lakes, marshes, and prairie. 
Development and ``No trespassing or hunting'' signs proliferating 
across the landscape also make Tamarac NWR an important remaining 
public hunting area. Several lakes on the refuge are open to fishing, 
providing a fishing experience on a more pristine lake. The Tamarac NWR 
also has an active visitor services and education program, with 
interpretive trails, observation decks, guided tours, special weekend 
interpretive opportunities, and a visitor center. Last year, Tamarac 
staff provided programs for over 4,000 students and adults--including 
many local schools. With a primary purpose of migratory bird and 
wildlife production, these additional and sometimes competing uses are 
managed well. Tamarac NWR, as all refuges, is completing a Refuge 
Comprehensive Conservation Plan with input from public hearings, to 
better balance public use while maintaining its first priority of the 
protection of wildlife and habitat. In just 2 years, visitation has 
increased significantly making the job of balancing wildlife and people 
evermore important; a critical time for needing staff and resources.
    The Tamarac Interpretive Association, the friends group of the 
Tamarac National Wildlife Refuge, was founded in 1992. Our mission is 
to facilitate activities and programs that interpret, protect and 
restore the natural and cultural resources of the refuge. We work to 
support the refuge in any way we can and that is requested. We have 
been involved in assisting with interpretive and educational programs, 
improving of visitor center exhibits, assisting with special events, 
developing a library of educational materials, and we support the 
refuge's volunteer program. We operate a giftshop of wildlife and 
nature themed books, clothing, and other items. All proceeds, along 
with friends' group dues and other contributions go to help us in our 
refuge supporting mission. With the mounting pressure on refuge budgets 
and staff, our friends group wrote a grant this last year that was 
funded that equips a friends office with needed technology, and along 
with training of our members, attempts to enable us to carry a heavier 
load.
    Our friends group has no paid employees; all our time is volunteer 
time. Collectively, last year 54 volunteers at the Tamarac National 
Wildlife Refuge donated over 3,900 hours. Individuals assist the refuge 
with biological field studies, environmental education, facility 
maintenance, visitor center hosts, leading tours, and many other 
functions. Last year, a FWS funded observation deck was totally 
constructed with volunteer labor. With the savings, binoculars and 
spotting scopes were purchased for the visitor services program. Last 
fiscal year, I was able to provide 1,009 volunteer hours and this 
fiscal year I have 530 to date. There are many individual stories of 
commitment from dozens of hours a year to hundreds a year. Across the 
refuge system, last year nearly 38,000 volunteers donated more than 1.4 
million hours. The value of this labor has been estimated to be more 
than $25 million.
    We as volunteers and we as refuge friends groups can only do so 
much. Refuge system funding that amounts to annual cuts have not only 
eliminated any slack, but has produced maintenance and program 
backlogs. The refuge system faces a crippling budget backlog of more 
than $2.5 billion. The refuge system categorizes its operational needs 
into tiers. Considered the most urgent and important of priorities, 
unfunded Tier-1 projects currently number more than 2,320 and sum to 
over $251 million. Of these, 919 backlogged projects are considered 
``mission critical.''
    If Congress only funds the refuge system in fiscal year 2008 at the 
recent static rates--which are budget cuts in real dollars, an analysis 
by the Midwest Region of cost increases for salary (+3 percent per 
annum between 2007 to 2009, coupled with a management goal of hitting 
an 80:20 ratio of salary to management capability leads to the 
conclusion that absent positive changes in the funding trend, an 
additional 36 positions must be abolished by fiscal year 2009. At the 
Tamarac National Wildlife Refuge this will most likely lead to changes 
or reassignment in the duties of its staff. Such a change will have a 
crippling effect on the refuge's public services and educational 
programs (particularly school groups), its habitat management 
capabilities, its volunteer program, and its working with its friends 
group. Our friends group and volunteers could not even begin to make up 
the difference and programs would have to be significantly reduced. 
Static budgets would also mean a further deterioration of the refuge 
infrastructure of roads, trails, buildings, etc. This year's one full-
time maintenance position loss has already left the refuge without a 
maintenance worker over the winter months. Static budgets would also 
lead to less wildlife and wildlife habitat management, as biology staff 
duties are spread out to neighboring refuges and Federal wildlife 
management areas.
    The funding pressures on our Nation's wildlife refuge system are no 
longer a matter for refuge staff doing more with less, simply, less 
will be accomplished. As volunteers and members of friends groups, this 
situation severely stresses us. Our role is not to fill in staff and 
budget shortfalls. Yet, we try and do what we can. We now need our 
elected representatives in Congress to do their part in funding in 
fiscal year 2008 the needed $451 million.
                                 ______
                                 
   Prepared Statement of the Friends of Virgin Islands National Park
    Madam Chairwoman and honorable members of the committee: I 
appreciate the opportunity to provide testimony on behalf of an 
important land acquisition funding need at Virgin Islands National 
Park. An appropriation of $4.5 million from the Land and Water 
Conservation Fund is requested in fiscal year 2008 to begin Park 
Service acquisition of the unique Maho Bay property.
    I represent the Friends of VI National Park, a 501(c)(3) non-profit 
organization, dedicated to the protection and preservation of the 
natural and cultural resources of VI National Park and to promoting the 
responsible enjoyment of this national treasure. We have more than 
3,000 members--20 percent of whom live in the Virgin Islands and the 
balance represent every State in the union.
    We carry on the rich tradition of using private philanthropy for 
the betterment of this park as well as mobilize volunteers and 
community participation. In our 19 years of work in support of VI 
National Park we have been involved in many initiatives, projects and 
activities that help this park be a model of natural resource 
protection and cultural preservation--but none have been as important 
as our work in support of the acquisition of Estate Maho Bay and its 
incorporation within the park.
    We have played the important role of informing and motivating the 
community about the issues related to the preservation of Estate Maho 
Bay. But motivation was hardly needed; the preservation of Estate Maho 
Bay and ensuring unimpeded access to this spectacular area enjoys near 
unanimous support among native St. Johnians, residents who have moved 
here from mainland United States and visitors alike--no easy feat for a 
community that prides itself in its diversity of opinions.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place. More than 800 species of trees, 
shrubs, and flowers are found in the park, and more than 30 species of 
tropical birds breed on the island, which was designated an 
international Biosphere Reserve by the United Nations in 1976. St. John 
is also home to two species of endangered sea turtles, the hawksbill 
and the green. In addition, the park contains archeological sites 
indicating settlement by Indians as early as 770 B.C. The later 
colonial history of St. John is also represented by remnants of the 
plantations and sugar mills established by the Danes in the 18th and 
19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on earth match the breathtaking beauty of Maho Bay. A lush 
forested slope rising nearly 1,000 feet rims its crystal waters and 
soft white beaches. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green turtles and magnificent coral 
reefs. This fragile area contains large nesting colonies of brown 
pelicans, as well as the migratory warblers and terns that winter on 
St. John. In addition to its natural treasures, the largest 
concentration of historic plantations and ruins on the island is found 
within this area. Several key properties at Maho Bay lie within the 
boundaries of the park and are high priorities for acquisition by the 
National Park Service (NPS).
    Available for acquisition in fiscal year 2008 is the first phase of 
a 211-acre acquisition of properties surrounding Maho Bay within the 
Virgin Islands National Park boundaries. The Maho Bay properties offer 
spectacular views of the bay and have more than a quarter-mile of 
beachfront. These properties are extremely important because of their 
relationship to the whole undeveloped area and its cultural resources. 
The land was historically used during the plantation era for 
agricultural activities such as sugar cane, coconut, and cotton 
cultivation. With increasing growth and investment throughout the 
Caribbean--including places not far from the unspoiled beauty of St. 
John--these vulnerable lands have become the focus of intense 
development threats. In recent years, more than one investor has 
envisioned private development along these shores, which would 
jeopardize the unique character of Maho Bay. Once this land is acquired 
by the park, future visitors will be treated to spectacular views of 
Maho Bay and some of the most accessible and scenic shoreline and 
waters on St. John.
    The total estimated fair market value of the 211 acres is at least 
$25 million. These properties are being made available to the National 
Park Service for a total of $9 million over 2 years, with the balance--
approximately $16 million--to be provided through private donations of 
cash and land value. This year, an appropriation of $4.5 million is 
needed from the Land and Water Conservation Fund toward the purchase of 
the first phase (105 acres) of these valuable lands.
    Madame Chairwoman and distinguished committee members, I want to 
thank you for this opportunity to testify on behalf of this important 
national protection effort in Virgin Islands National Park. On behalf 
of the Friends of Virgin Islands National Park and the over 1 million 
visitors to the Park each year, I appreciate your consideration of this 
funding request.
                                 ______
                                 
      Prepared Statement of Friends of the Wallkill River Refuges
    Madame Chairwoman and honorable members of the committee: I 
appreciate the opportunity to submit testimony in support of the 
Friends of the Wallkill River National Wildlife Refuges for the 
proposed $451,500,000, to substantially increase the maintenance and 
operations budget for the National Wildlife Refuge System. The Wallkill 
River and Shawangunk Grasslands National Wildlife refuges, which I am 
here to talk about today, exemplify the need for this increase in 
support of the extraordinary natural heritage that hangs in the 
balance.
    I grew up 10 miles from downtown Denver, Colorado, where grasslands 
spread for countless acres beyond my house. Now, for many miles in all 
directions, development upon development cover the plains and 
mountains. What was once unlimited waves of wind through the grass and 
immense forests are now gone, replaced by growing concerns over drought 
and water rights. For me, it is just too depressing to go home. For 
this reason, I work for open space preservation.
    Under the October 9, 1997, Congressional Public Law Act, 105-57 
section 5. Administration Generally, 4(a) (16 U.S.C. 668dd(a)):
    (3) With respect to the System, it is the policy of the United 
States that--
          (A) each refuge shall be managed to fulfill the mission of 
        the system, as well as the specific purposes for which that 
        Refuge was established.
    (4) In administering the System The Secretary shall--
          (A) provide for the conservation of fish, wildlife, and 
        plants and their habitats within the System.
          (B) ensure that the biological integrity, diversity, and 
        environmental health of the System are maintained for the 
        benefit of present and future generations of Americans.
          (C) plan and direct the continued growth of the System in a 
        manner that is best designed to accomplish the mission of the 
        system, to contribute to the conservation of the ecosystems of 
        the United States, to compliment efforts of the States and 
        Other Federal Agencies to conserve fish and wildlife and their 
        habitats, and to increase support for the System and 
        participation from conservation partners and the public.
    Through this act of Congress, Americans defined what the NWRS 
should be. Without this funding, the System cannot meet this mandate. 
While we will all be able to spend time pointing fingers, the wildlife 
and habitats and people that enjoy them will suffer.
    In 2004, the Wallkill River and Shawangunk Grasslands, two separate 
refuges in two States, had a combined core budget of almost $600,000, 
with six full time staff members. Today, both Refuges have two staff 
members with a core budget of about $310,000. As disparaging as this 48 
percent cut sounds, the refuges will have their manager position 
eliminated and suffer another $120,000 cut. That leaves just the 
biologist to address all the actions the System must fulfill. It simply 
is not possible. The Wallkill River and Shawangunk Grassland NWRs are a 
prime example of how the current budget crisis facing the system is 
playing out.
    The act states: ``monitor the status and trends of fish, wildlife 
and plants of each refuge.'' The habitats cannot be managed with only 
one biologist and one soon to be lost manager for two refuges. Invasive 
plants grow unchecked, as the refuges do not have adequate manpower to 
constantly battle them. This gives rise to other problems such as loss 
of the foods and nesting sites that native species provide for 
migratory birds and native animals. It will be far more costly to come 
back years from now to reclaim these areas than it would be to simply 
provide the resources to keep invasive species in check.
    With one full time employee remaining and another scrambling to 
find a new place to live and work, the staff struggles to satisfy its 
more than 30,000 visitors a year, run one of the finest hunt programs 
in New Jersey, maintain trails, fix or demolish its decaying buildings, 
manage for endangered species and more than 200 species of songbirds, 
perform biological studies, fulfill an administrative workload that 
typically consumes 10 or more hours per week, and to generally maintain 
a 5,100-acre refuge and a 566-acre refuge. All of this is done to 
maintain the incredible wildlife habitat on the fringe of metropolitan 
New York and in the most congested State in the Union.
    To compensate the Service has ``complexed'' the refuges with the 
Great Swamp NWR in Morris County, N.J. The Complex has been designated 
``stay strong'' by the Service. The end result is a shell game that 
would impress the most experienced carnival worker. Wallkill has seen 
its equipment reassigned, its staff positions eliminated, its budget 
gutted, its public programs reduced and its borders encroached, and its 
habitat management capability reduced. The Great Swamp NWR sends some 
staff to assist when it can, but the help is a pittance compared to 
what is needed, and all the while the Great Swamp's workload piles up. 
Getting a refuge law enforcement officer to the station usually takes 
more than an hour, 2-3 hours to get to the Shawangunk. And by then the 
damage is done and the perpetrator gone. If this is ``stay strong,'' 
I'd hate to see what the status quo is.
    As a result of the lack of staff, the problems at the refuges 
bubble like a not-so-dormant volcano. ATVs regularly trespass on the 
Wallkill Refuge, ripping up trails, damaging gates and disturbing 
visitors, wildlife and habitats. People have broken into unused 
buildings causing damage and creating new safety hazards. Hunters are 
not checked as frequently as in the past and reports of hunting 
violations are all too common. Evidence of illegal drug and alcohol use 
in unpatrolled areas is on the rise
    One goal of the NWRS is to provide environmental education and 
interpretive programs. The Refuges rely on its Friends Group and 
volunteers more and more to address this requirement. The Friends Group 
supports the refuges wherever it can, but still core refuge operations 
require expertise, experience and clearance beyond the scope of Friends 
and Volunteers to help.
    The maintenance situation is perilous as well. Right now, 
nationally, there is a $1.5 billion backlog on maintenance. That is 
almost three times the entire operations budget requested for the 
system. Wallkill has 15 buildings that need to be demolished. The 
Wallkill has no maintenance staff. Great Swamp has lost one maintenance 
position; the staff there is unable to help except in dire emergencies. 
These buildings are hazards to the community, an invitation to vandals 
and drug users and a public eyesore. People are complaining.
    The cost to remove each building ranges from $5,000 to $25,000, for 
a total of about $160,000. The entire maintenance budget for the entire 
complex is about $190,000. When I speak of a backlog, this is merely 
the tip of the iceberg.
    Under subsection (C) above: ``plan and direct the continued growth 
of the system in a manner that is best designed to accomplish the 
mission of the System,'' as part of its required Comprehensive 
Conservation Plan, the Service is working to expand the Wallkill 
boundaries by almost 10,000 acres. In what is perhaps one of the most 
impressive coalitions of interested groups currently working on behalf 
of wildlife conservation in the Northeast, the refuge has taken a 
leading role in preserving almost 40,000 acres of New Jersey's best 
remaining valley habitats. Migratory birds, forests, wetlands stream 
side habitats and endangered species depend on this currently 
unprotected expansion corridor for homes and food. State, county, local 
and private organizations along with private citizens have banded 
together to bring this plan to the brink of approval. At the same time 
New Jersey's Highlands Conservation Act has made these same lands a 
prime focus for developers. The expansion area lands are in the area 
the Highlands Act directs the development into. Just in the last year, 
the Friends Group has seen the loss of some prime locations near the 
refuge as they are converted to become strip malls and McMansions. The 
Friends Group is even in an ongoing battle to protect the existing 
refuge from construction of a new high-density development and a sewage 
treatment facility 220 feet from refuge property.
    Obviously, a plan for a refuge that involves budget cuts and staff 
reductions does not seem to fit with an ambitious expansion plan. 
Clearly, the Service and the community recognize the need for an 
expanded refuge, as the alternative will mean a reduced quality of life 
for people and wildlife. Protected land is forever, and the refuge 
staff will be able to work with the land once more appropriate staffing 
levels come back to Wallkill. If the land is lost to development, no 
level of refuge staff will be able to compensate for its loss.
                       shawangunk grasslands nwr
    Even when Wallkill was fully staffed, there was little time for 
them to make the 50-minute trip up to the 566-acre Shawangunk 
Grasslands NWR. This refuge is a grassland gem. Between farming, 
development, and reforestation, habitats for grassland birds in this 
area of New York have dwindled to almost nothing. Providing one of the 
few grassland habitats for more than 200 species of grassland birds, 
the area is regionally renowned as grassland. As a result, Shawangunk 
Grasslands is the best hope for many species. Although the refuge 
manager at Wallkill has been relatively active in the area and has 
created some helpful partnerships, the Service's physical presence at 
the refuge is almost zero. This hurts the refuge and the community that 
visits the site. Vandalism, poaching and trespass can go unnoticed for 
long periods and then there is no budget for addressing these problems 
once discovered. The approved CCP for Shawangunk includes three staff 
positions for the refuge, but with only one person stationed at 
Wallkill to oversee the function of two refuges, there is little hope 
that the Shawangunk refuge will function as the Service is charged by 
law.
                            land acquisition
    Preserving land and conserving species is what the refuge system is 
all about. Without money for land acquisition, the ability of the 
service to fulfill its mission is compromised. Unique, valuable 
habitats can be lost to development very quickly. Subsection (F) of the 
1997 act states: ``assist in the maintenance of adequate water quantity 
and water quality to fulfill the mission of the System and the purposes 
of the refuge.'' It is paramount that the Wallkill River's headwaters 
be preserved to fulfill the obligation of protecting the integrity of 
this north-flowing river. The Wallkill River has only limited State 
protection, and without this, it imperative that the Wallkill River and 
its tributaries be enveloped by the protection of the wildlife refuge. 
Water availability is a big red flag that should be limiting 
development across the region. Water supplies must be protected, which 
is exactly what the State and Federal Highlands legislation New Jersey 
Highlands Act help do. In order for the Wallkill River to get to 
accomplish this task outside of the Highlands, there must be funds to 
acquire lands for protecting the river, its water and the refuge. In 
the long run, watershed protection, aquifer recharge and buffering will 
save tax payers dollars and maintain our quality of life.
    Fragmentation and nearby development often threatens the integrity 
of our national wildlife refuges, and Wallkill is the poster child for 
this issue. Bringing new land into the system reduces local fiscal and 
labor burdens on taking care of these parcels, improves the quality of 
life for local residents, improves the visitor experiences and often 
increases the value of surrounding properties. We urge you to continue 
to invest in land acquisition funding for these refuges. It is critical 
to protecting the integrity of the existing refuge wildlife and 
ensuring natural landscapes for our citizens to use and enjoy.
                                 budget
    Many organizations are supporting an increase in refuge operations 
funds to $451.5 million. The Friends of the Wallkill River Refuges 
supports this figure as well. At current levels, the only thing the 
system can do is use a complex set smoke and mirrors to appear to be 
able to accomplish the charges in the Refuge Improvement Act.
    In the Northeast Region, the regional administration believe a 3-
to-1 ratio should exist in terms of labor dollars to management 
dollars. While we support this goal, which would provide staff the 
ability to be more effective, the number of cuts proposed to reach this 
ratio underscore how underfunded the refuge system is.
    Unfortunately, the nature of government works against itself in 
this venue. Regional and Service administrators have performance 
standards based on showing increases and improvements that cannot be 
managed without creating a deficiency in another area. In order to 
effectively address this issue, the Service must be able to report 
truthfully on the condition of its facilities and the scope of its 
accomplishments. Until this changes, Service managers will have to 
continue to make sure no one notices that accomplishments and 
professionalism on paper do not constitute actual results. For example, 
the Service's own current literature on the downsizing plan and their 
fact sheets still report Wallkill as having a staff of 5, 6, or 7, and 
a budget of $1.4 million, depending on the publication. In actuality, 
the current budget is $310,000 for two staff members, with the 
management position being eliminated and the budget reduced to 
$190,000. The Service does not have the staff to keep documents and 
data updated. The downsizing explains of reducing business 
administrative staff to cut costs, that plays out with one person 
responsible for the accounting for six refuges.
    In summary, the National Wildlife Refuge System desperately needs 
to be funded at $451.5 million, or more. Without this increase in 
funding, the system and American people will lose many opportunities to 
maintain wildlife and wildlife habitat. With this funding, the System 
will have a better chance to retain its ability to manage its lands in 
a manner reflective of what is the world's most impressive system of 
lands set aside for wildlife.
    Thank you for your time and consideration.
                                 ______
                                 
   Prepared Statement of Friends of Wertheim National Wildlife Refuge
    On behalf of the Friends of Wertheim NWR, I am submitting testimony 
for the Senate Subcommittee on Interior and Related Agencies. We 
support a funding level of $451 million in fiscal year 2008 for the 
U.S. Fish and Wildlife Service's (FWS) National Wildlife Refuge System 
Operations and Maintenance (O&M) account, adequate funding for Visitor 
Services, $1 million for the Volunteer Invasive Monitoring Program and 
grants for invasive species work with Friends, and $5.7 million for the 
Long Island NWR Complex's Administrative/Visitor Center to be located 
at its headquarters, Wertheim NWR. The National Wildlife Refuge System 
budget must increase by $15 million each year in order to maintain 
services and programs from the previous year. The $15 million increase 
accounts for cost-of-living increases for FWS personnel, growing rent 
and real estate costs and other cost increases, while sustaining 
current levels of visitor services and wildlife management. Funding the 
O&M account at $451 million would allow the Refuge System, overall, to 
avoid additional employee layoffs and reductions in services that are 
important to our refuge. Hopefully this would restore at least one 
position recently eliminated at the Long Island NWR Complex which 
receives over 500,000 visitors each year.
    The Senate Subcommittee on Interior and Related Agencies should 
provide strong funding for Refuge System Visitor Services programs and 
Visitor Facility Enhancement Projects. Visitor Services funding pays 
for many Friends and volunteer programs. We depend on this funding for 
programs that allow us to remain effective stewards of our refuge.
    Recognizing invasive species as a top threat to our refuge lands, 
we also ask the subcommittee to continue their support by again 
providing $1 million ``for cooperative projects with Friends groups on 
invasive species control.'' This funding supports worthy programs like 
competitive grants for Friends groups and the Volunteer Invasive 
Monitoring Program. Utilizing the energy and enthusiasm of Friends and 
volunteers is a proven, effective and economical partnership for the 
National Wildlife Refuge System and U.S. Fish and Wildlife Service.
    The $5.7 million for an Administrative/Visitor Center for the Long 
Island National Wildlife Refuge (LINWR) Complex to be located at 
Wertheim NWR is a key focal point of LINWR Complex's 15 year 
Comprehensive Conservation Plan. The Visitor Learning Center would 
serve as a catalyst for wildlife conservation partnerships and 
collaborative efforts, bringing together diverse audiences across Long 
Island and the region--from local school children to senior citizens, 
technical experts to dedicated volunteers and neighborhood groups to 
governmental agencies. In an effort to reduce cost, time and energy 
consumption, the Service has developed a standard conceptual design for 
the Administrative/Visitor Center. Designed with ``green technology'' 
(the plans are consistent with LEED certification requirements) the 
Center will be a state-of-the-art energy efficient model. The $5.7 
million will include all phases of the project: planning, site design, 
construction, and interpretive exhibits.
    Friends of Wertheim feels this project deserves Federal funds 
because United States Fish and Wildlife is THE Federal agency charged 
with conserving, protecting, and enhancing the Nation's fish, wildlife 
and plants for the continuing benefit of the American people. Another 
top priority of the Service is connecting people with nature: ensuring 
the future of conservation. Therefore a priority of Federal funding 
must be to take action. While there is no doubt that our public lands 
need to be managed through community partnerships/community resources, 
the Federal Government should be the catalyst on Federal lands to make 
this happen.
    Additionally, we anticipate this Center will be one of the best 
locations in the Country for the U.S. Fish and Wildlife Services to 
achieve one of its highest priorities: Connecting People with Nature: 
Ensuring the Future of Conservation. The Long Island National Wildlife 
Refuge Complex has the opportunity to reach more neighbors and attract 
more visitors than any other national wildlife refuge in the country. 
This building will allow the refuge to accommodate the volume of 
visitors we anticipate both now and in the future.
    When the funding for the National Wildlife Refuge System is 
compared to the entire national spending it is not even a ``blip on the 
radar screen''. The National Wildlife Refuge System is one of our 
``National Treasures'' and the dedicated Refuge staff, friends and 
volunteers do so much with so little. It is our hope that in 2008 and 
beyond there is increased funding that will do more than maintain what 
we had last year and will enable the refuge staff to address the O&M 
backlog. Only by being ``faithful stewards'' of the National Wildlife 
Refuge System will we ensure that all of the refuges will be here for 
our children and our children's children.
    The refuges in the Long Island Complex may be small compared to 
others; but they are so important! As a fifth grade science teacher in 
the local school district I took four science classes at Wertheim NWR 
each year. One year one of the boys was standing on the trail just 
looking up and he stayed this way for some time. I went over to him and 
asked what he was doing. He replied, ``Look--the trees make a tunnel--I 
can't see the sky!'' What a beautiful discovery!! This is why we must 
give our Refuge System adequate funding and why the LINWR Complex needs 
an Administrative/Visitor Center.
    Again, on behalf of the friends of Wertheim NWR we thank you for 
your consideration of our requests. If you have any questions, we would 
certainly be happy to help in any way.
                                 ______
                                 
     Prepared Statement of the Grand Valley Water Users Association
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission
 agencies--bureau of indian affairs and environmental protection agency
1. BIA Treaty Rights Protection/Implementation--$4,266,000 ($391,000 
        above fiscal year 2007 Continuing Resolution)
    Agency/Program Line Item.--Dept. of Interior, Bureau of Indian 
Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect GLIFWC's allocation of this 
line item that also funds the 1854 Authority.
---------------------------------------------------------------------------
    Funding Authorizations.--Snyder Act, 25 U.S.C. s. 13; Indian Self-
Determination and Educational Assistance Act, 25 U.S.C. ss. 450f and 
450h; and the treaties between the United States and GLIFWC's member 
Ojibwe Tribes, specifically Treaty of 1836, 7 Stat. 491, Treaty of 
1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 
Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities, have been affirmed 
by various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
2. EPA Environmental Programs and Management--$300,000 (fiscal year 
        2004 enacted)
    Agency/Program Line Item.--Environmental Protection Agency, 
Environmental Programs and Management (funneled through the EPA's Great 
Lakes National Program Office).
    Funding Authorizations.--Clean Water Act, 33 U.S.C. s. 1268(c); and 
treaties cited above.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    As Congress has recognized for over 20 years, funding for GLIFWC's 
conservation, natural resource protection, and law enforcement programs 
honors Federal treaty obligations to eleven Ojibwe Tribes and provides 
a wide range of associated public benefits. GLIFWC seeks an inflation-
adjusted secure funding base to: (i) implement Federal court orders and 
intergovernmental agreements governing the exercise of treaty-
guaranteed hunting, fishing and gathering rights and (ii) participate 
in management partnerships in Wisconsin, Michigan and Minnesota.
                  elements of glifwc's funding request
    1. BIA Treaty Rights Protection/implementation: $4,266,000.--As its 
primary Indian Self-Determination and Educational Assistance Act 
funding base, GLIFWC seeks to:
    a. restore $166,000 in program operational costs lost to 
continually decreasing base funding over the last 4 years;
    b. preserve $92,000 in fixed pay costs that the Bureau has been 
providing;
    c. provide $150,000 to sustain enhancements in conservation 
enforcement and emergency services capabilities; and
    d. provide $75,000 to retain cultural infusion programs designed to 
sustain and foster inter-generational transfer of Chippewa language, 
lifeways and traditional ecological knowledge.
    2. EPA Environmental Programs and Management: $300,000.--As an EPA 
funding base for its primary environmental program elements, GLIFWC 
seeks to:
    a. Provide $190,000 for basic scientific/technical capabilities to: 
(i) continue participation in a number of Great Lakes initiatives 
(including the Binational Program to Restore and Protect Lake Superior 
and the Great Lakes Regional Collaboration); (ii) carry out habitat and 
human-health related research; and (iii) provide the requisite analysis 
and data to support participation in regional initiatives and to assess 
the impact of particular projects on tribal treaty rights.
    b. Provide $110,000 to undertake three habitat and human health-
related research projects regarding: (i) GLIFWC's fish consumption 
mercury advisory program; (ii) invasive species impacts on the Lake 
Superior food web; and (iii) a global climate change pilot project.
       ceded territory treaty rights--glifwc's role and programs
    Established in 1984, GLIFWC is a natural resources management 
agency for its 11 member Ojibwe Tribes regarding their ceded territory 
(off-reservation) hunting, fishing and gathering treaty rights. Its 
mission is to (1) ensure that its member Tribes are able to exercise 
their rights for the purposes of meeting subsistence, economic, 
cultural, medicinal, and spiritual needs and (2) ensure a healthy, 
sustainable natural resource base that supports those rights. GLIFWC is 
a ``tribal organization'' within the meaning of the Indian Self-
Determination and Educational Assistance Act (Public Law 93-638). It is 
governed by a Constitution developed and ratified by its member Tribes 
and by a board comprised of the Chairs of those Tribes.
    GLIFWC operates a comprehensive ceded territory hunting, fishing, 
and gathering rights protection/implementation program through its 
staff of biologists, scientists, technicians, conservation enforcement 
officers, policy specialists, and public information specialists. Its 
activities include: (i) natural resource population assessments and 
studies; (ii) harvest monitoring and reporting; (iii) enforcement of 
tribal conservation codes in tribal courts; (iv) funding for tribal 
courts and tribal registration/permit stations; (v) development of 
natural resource management plans and tribal regulations; (vi) 
negotiation and implementation of agreements with State, Federal and 
local agencies; (vii) invasive species eradication and control 
projects; (viii) biological and scientific research, including fish 
contaminant testing; and (ix) development and dissemination of public 
information materials.
               justification & use of the requested funds
    For over 20 years, Congress has recognized GLIFWC as a cost 
efficient agency that plays a necessary role in: (i) meeting specific 
Federal treaty and statutory obligations toward GLIFWC's member Tribes; 
(ii) fulfilling conservation, habitat protection, and law enforcement 
functions required by Federal court decisions affirming the Tribes' 
treaty rights; (iii) effectively regulating harvests of natural 
resources shared among the treaty signatory Tribes; and (iv) serving as 
an active partner with State, Federal, and local governments, with 
educational institutions, and with conservation organizations and other 
non-profit agencies.
    Particularly relevant to the requested EPA funds, Tribal members 
rely upon treaty-protected natural resources for religious, cultural, 
medicinal, subsistence, and economic purposes. Their treaty rights mean 
little if contamination of these resources threatens their health, 
safety, and economy, or if the habitats supporting these resources are 
degraded.
    With the requested stable funding base, GLIFWC will:
    1. Maintain its Core Capabilities to Conserve Natural Resources and 
to Regulate Treaty Harvests.--With the requested funds GLIFWC would: 
(i) restore program operational costs lost to continually decreasing 
base funding over the last 4 years; \3\ (ii) retain the knowledgeable, 
experienced staff that are relied upon to conserve natural resources, 
protect public health and safety, and promote social stability in the 
context of tribal treaty rights; (iii) solidify law enforcement and 
emergency response infrastructure improvements that have been 
instituted with a combination of BIA and U.S. Department of Justice 
COPS funds; \4\ and (iv) sustain cultural infusion programs designed to 
sustain and foster inter-generational transfer of Chippewa language, 
lifeways and traditional ecological knowledge.
---------------------------------------------------------------------------
    \3\ For example, the previously restored funding base was used to: 
(i) reinstitute fall juvenile walleye recruitment surveys to previous 
levels; (ii) restore tribal court and registration station funding 
cuts; (iii) restore Lake Superior lamprey control and whitefish 
assessment programs; (iv) restore GLIFWC's share in cooperative 
wildlife and wild rice enhancement projects; (v) replace aging 
equipment; (vi) meet expanding harvest monitoring needs; and (vii) meet 
uncontrollable increases in employee benefit costs.
    \4\ GLIFWC has: (i) upgraded its patrol capabilities with new 
vehicles, boats, snowmobiles, and off-road vehicles; (ii) increased 
officer medical training and upgraded first aid equipment; (iii) 
upgraded its radio systems to be compatible with surrounding agencies; 
and (iv) established ongoing joint training with Federal, State, and 
local agencies.
---------------------------------------------------------------------------
    2. Remain a Trusted Environmental Management Partner and Scientific 
Contributor in the Great Lakes Region.--With the requested EPA funding 
base, GLIFWC would maintain its ability to bring a tribal perspective 
to the interjurisdictional mix of Great Lakes managers.\5\  It also 
would use its scientific expertise to study issues and geographic areas 
that are important to its member Tribes but that others may not be 
examining.\6\
---------------------------------------------------------------------------
    \5\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Regional 
Collaboration, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \6\ With the requested fiscal year 2008 EPA funds, GLIFWC would: 
(i) continue its long-standing program to collect and test fish for 
mercury and to communicate testing results through health care 
providers and GIS maps; (ii) document the diet of important species of 
Lake Superior fish in order to understand potential changes over time 
due to invasive species or other causes; and (iii) identify climate 
variables that affect the presence, health and abundance of selected 
natural resources that are harvested by GLIFWC member tribes.
---------------------------------------------------------------------------
    The lack of a secure, ongoing EPA funding base jeopardizes GLIFWC's 
role as a trusted environmental management partner and scientific 
contributor in the Great Lakes Region. The Federal Government's treaty 
obligations to GLIFWC's member Tribes compel more than the mere 
opportunity to compete for a diminishing patchwork of discretionary EPA 
grants. This is particularly true given important current initiatives 
such as the Great Lakes Regional Collaboration in which GLIFWC 
participates as a full partner.
    3. Maintain the Overall Public Benefits That Derive From its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management, in emergency services networks, 
and in providing accurate information to the public. Because of its 
institutional experience and staff expertise, GLIFWC provides 
continuity and stability in interagency relationships and among its 
member Tribes, and contributes to social stability in the context of 
ceded territory treaty rights issues.
    Over the past 20 years, GLIFWC has built many partnerships the: (i) 
provide accurate information and data to counter social misconceptions 
about tribal treaty harvests and the status of ceded territory natural 
resources; (ii) maximize each partner's financial resources; (iii) 
avoid duplication of effort and costs; (iv) engender cooperation rather 
than competition; and (v) undertake projects and achieve public 
benefits that no one partner could accomplish alone.
                 other related appropriations concerns
    1. Fully Funded BIA Contract Support Costs.--GLIFWC seeks full 
funding of its contract support costs. It has experienced a $433,500 
shortfall since 1995. This shortfall cuts into program funding, and the 
lack of funding certainty throughout the year further compounds its 
effect.
    2. BIA Circle of Flight Tribal Wetland & Waterfowl Initiative.--
Once again Congress should fully find this long-standing tribal 
contribution to the North American Waterfowl Management Plan that the 
administration again proposes to eliminate.
                                 ______
                                 
        Prepared Statement of the Greater Yellowstone Coalition
    Madam Chairwoman and honorable members of the committee: I 
appreciate this opportunity to provide testimony in support of a $4.5 
million appropriation to the U.S. Forest Service from the Land and 
Water Conservation Fund to help acquire a conservation easement on the 
Sun Ranch in Montana's famous Madison Valley. I am appearing here today 
as the former manager of the Sun Ranch and as Chairman of the Greater 
Yellowstone Coalition--a nationally acclaimed advocacy group that seeks 
to protect the lands, waters and wildlife of our first national park 
and the ecologically important lands that surround it.
    Before I go any further, I would like to take this opportunity to 
commend the Chair and committee members for supporting funding for land 
acquisition accounts such as the Land and Water Conservation Fund 
(LWCF). The Sun Ranch conservation effort, which I am here to speak 
about today, is a perfect example of how programs like this can help to 
protect the critical wildlife and recreational values that make our 
Federal public lands so special.
    As most Americans know, the Greater Yellowstone Ecosystem (GYE) is 
a vestige of wild America--the birthplace of a global park movement and 
a natural benchmark for measuring our way of life.
    Embracing the mountain country in and around Yellowstone National 
Park, the GYE is home to some of our Nation's most cherished wildlife 
and landscapes. Roughly the size of West Virginia, the GYE includes the 
headwaters of the Yellowstone, Snake and Green river systems, which 
support a renowned trout fishery and provide the lifeblood for the 
region's economy and basic way of life. Yellowstone National Park--the 
region's heart and the world's first national park--holds our planet's 
most diverse and intact collection of geysers and hot springs, drawing 
visitors from around the world. The park and the lands that surround it 
also provide a refuge for hundreds of wildlife species, including rare 
trumpeter swans, wolves, one of the last viable grizzly bear 
populations in the lower 48 States and the largest elk and free-roaming 
bison herds in North America.
    In addition to its impressive wildlife values, the GYE offers some 
of the best recreational opportunities in North America. Its fisheries 
are world-renowned and attract fly fishermen from all over the globe. 
Big game hunting opportunities are abundant. In addition to these 
sporting opportunities, the GYE offers a wide range of backcountry 
recreational opportunities including skiing, snowshoeing, snowmobiling, 
hiking, camping, whitewater rafting, horseback riding, and wildlife 
viewing.
    Drawn by the area's exceptional beauty, wildlife and abundant 
recreational opportunities, people from all over the country are moving 
into the GYE in ever increasing numbers. Some of our Nation's fastest-
growing counties are located here. As newcomers build their homes 
further away from our urban cores, more and more of our most important 
agricultural lands and wildlife habitat are being lost forever.
    Virtually everyone agrees that the unprecedented growth in the GYE 
will continue unabated. People will continue to be drawn to the area 
due to its unparalleled wonder and high quality of life. The challenge, 
of course, is finding a way to channel and direct this growth so that 
it does not destroy the very qualities that draw people to the area in 
the first place. Developing ``smart growth'' strategies is part of the 
solution. Actively protecting and conserving critically sensitive areas 
is another. This is why I am testifying before you today.
    I came here today to champion the conservation of one of the GYE's 
true treasures. The 18,700-acre Sun Ranch is a wildlife paradise 
nestled in the southern end of Montana's Madison Valley, approximately 
20 miles northwest of Yellowstone National Park. Occupying almost 30 
square miles between the Madison River and the Lee Metcalf Wilderness 
Area, the ranch contains some of the most valuable wildlife habitat in 
the entire GYE. The ranch serves as critical big-game winter range for 
elk, mule deer, moose, pronghorn antelope, bighorn sheep, and mountain 
goats. Elk herds exceeding 2,500 in number are a common sight on the 
ranch during the winter and early-spring months. Grizzly and black bear 
routinely use the property, as do wolverine, Canada lynx, pine marten, 
beaver, bobcat, river otter, and mountain lion. In addition to almost 
nine miles of Madison River frontage, the ranch also includes long 
stretches of four important mountain-fed streams, which provide 
critical brood rearing habitat for various species of fish, including 
near-pure strains of westslope cutthroat trout.
    A recently completed and highly acclaimed conservation assessment 
by the Wildlife Conservation Society concludes that the Madison is one 
of the most ecologically intact valleys in the GYE. It also identifies 
the Madison Valley as playing a central role in ensuring wildlife 
linkages between the GYE and the other ecologically intact areas of the 
Central Rocky Mountains, specifically, the Northern Continental Divide 
Ecosystem and the wildlands of central Idaho. In particular, the report 
identifies the area where the Sun Ranch is located as being arguably 
the most important wildlife linkage zone in the GYE. Protection of this 
area, the report argues, is critical because it is one of the only 
places offering secure passage for forest carnivores such as grizzly 
bear, wolverine and lynx migrating between the Madison Range to the 
east and the vast area of interconnected mountain ranges to the west 
and north. Protection of the Sun Ranch and its immediate surrounds is 
absolutely vital to the long-term survival of these and other wide-
ranging species.
    During my 4 years as the day-to-day manager of the Sun Ranch, I had 
the pleasure of watching Serengeti-sized elk herds work the landscape 
during their spring migration as they calved and headed for the high 
country. I remember walking the fence line, being startled and then 
gradually catching my breath after spotting a grizzly or wolf. While 
tending 1,600 cattle, I often rested my horse atop a high hill, looking 
down on the ranch's sheer beauty, marveling at the sight of the 
surrounding mountains and knowing what it must feel like to see the 
world as a red-tailed hawk does. As you imagine the Madison Valley, 
think openness, intactness and ecological abundance and know that the 
Sun Ranch lies at the heart of all this prosperity.
    As I mentioned earlier, the Sun Ranch encompasses around 18,700 
acres. Approximately 6,700 acres at the north end of ranch are already 
protected by a conservation easement. A total of 11,300 acres will be 
protected by two separate conservation easements, which will be 
purchased and conveyed to the U.S. Forest Service and Montana, Fish, 
Wildlife and Parks (MFWP) for long-term monitoring and enforcement. The 
easements, with a likely value in excess of $30 million, will protect 
extraordinary scenery and one of the most important wildlife corridors 
in the GYE--all while providing public hunting rights to some of the 
finest big game habitat in the West.
    The Forest Service has ranked the Sun Ranch project as its #1 
national priority this year and recommended it as part of the 
President's 2008 budget for $4.5 million through the Land and Water 
Conservation Fund.
    Montana Fish, Wildlife & Parks has also ranked the Sun Ranch 
project as its highest statewide priority. Last summer, MFWP's five-
member, volunteer commission authorized the agency to set aside up to 
$4.5 million from the State's Habitat Montana program to help pay for 
the proposed easement purchase. Funded with hunter license fees, the 
Habitat Montana program seeks to preserve and restore important habitat 
for fish and wildlife and to make prime fishing and hunting areas 
accessible to the sporting public. The sheer size of MFWP's funding 
commitment in this case is remarkable. Not only does the Habitat 
Montana program receive a mere $2.5 to $3 million per year, but it has 
never contributed more than $2 million to any given easement purchase 
in its entire 20-year history.
    The Sun Ranch project enjoys broad-based support at all levels. 
Sportsmen, in particular, are extremely excited by what the project has 
to offer because without it this remarkable property would be 
unavailable. Not only will it protect some of the best big game habitat 
in Montana, but it will also provide regulated public access during the 
general hunting season once the conservation easements are in place.
    Finally, it is worth noting that the Sun Ranch project is part of 
one of the largest landscape-level land conservation efforts in the 
American West. More than 40 percent of the private land in the valley 
(almost 120,000 acres) is already under conservation easement, and this 
doesn't even include the 114,000-acre easement that covers Ted Turner's 
Flying D Ranch just to the north. With so much private land already 
conserved, some might be tempted to call it quits. But I ardently 
believe that we must press on.
    The next few years will determine the fate of the Madison Valley 
and one of the most important wildlife corridors in the GYE. With 
development pressures at an all-time high, we must act now to protect 
the best of what is left. The contemplated easement purchase on the Sun 
Ranch would be a major step in the right direction.
    As a rancher and wildlife advocate, I strongly urge you to back 
this project and support the Forest Service's and administration's 
request for $4.5 million in fiscal year 2008 from the Land and Water 
Conservation Fund. State and private funds, as well as a significant 
amount of donated land value, will make up the difference in the 
project's overall value, which is estimated to exceed $30 million.
    The Sun Ranch is a very special place. In my humble opinion, I do 
not think that you will ever find a better opportunity to help protect 
an American icon. Thank you for giving me the opportunity to make this 
request.
                                 ______
                                 
             Prepared Statement of the Highlands Coalition
    On behalf of the regional Board of the Highlands Coalition, which 
includes over 150 organizations working together to conserve priority 
lands in the Highlands region of CT, NY, NJ, and PA, we would like to 
thank you for the opportunity to comment on the fiscal year 2008 
Department of the Interior, Environment and Related Agencies 
Appropriations bill.
    Our top priorities for fiscal year 2008 include:
  --$11 million for the Highlands Conservation Act, including $10 
        million for land conservation partnership projects through the 
        U.S. Fish & Wildlife Service, and $1 million for USDA Forest 
        Service technical assistance and research programs in the 
        Highlands; and
  --$100 million for the Forest Legacy program, including $770,000 for 
        Skiff Mountain--phase II (CT) and $5.7 million for Sparta 
        Mountain South--phase II (NJ)
             highlands conservation act--land conservation
    In the fall of 2004, Congress enacted and President Bush signed the 
Highlands Conservation Act, recognizing the national significance of 
the more than three-million acre Highlands region as a source of 
drinking water, productive forests and farms, wildlife habitat and 
recreation within an hour of major metropolitan areas including 
Philadelphia, New York City and Hartford. The act authorized $10 
million annually to assist the Highlands States in conserving priority 
lands from willing landowners, and to continue USDA Forest Service 
research and assistance to private landowners in the Highlands. Under 
the act, the States are required to match Federal funds for land 
conservation partnership projects on an equal basis to greater leverage 
these funds.
    In his budget for fiscal year 2008, President Bush has provided no 
funding for the Highlands Conservation Act (HCA), through the Fish & 
Wildlife Service, to support land conservation partnership projects in 
the four Highland States of Pennsylvania, New Jersey, New York, and 
Connecticut. We strongly urge the committee to provide full funding for 
the HCA at $11 million. The Governors of the four Highlands States have 
jointly submitted land conservation projects totaling $10 million to 
the Department of the Interior for funding in fiscal year 2008, 
including:
Litchfield Farms (CT)
    Cost--$8,400,000
    HCA Request--$2,500,000
    Size--670 acres
    Matching Funds--State of Connecticut; Town of Litchfield; private 
donations
    Description--The State of Connecticut requests funds for Litchfield 
Farms which contains large areas of wetlands, prime agricultural soils, 
and diverse forests. The site hosts a known State-listed endangered 
species and contains several vernal pools. Litchfield Farms lies within 
both the Bantam and the Naugatuck watersheds. All waterways on the 
property that drain into the Bantam River are AA, or the highest-level 
water quality. Elevations on the property reach up to 1,300 feet making 
it one of the highest points in Litchfield. Preservation of this 
property would provide ridgeline and scenic vista protection for both 
the towns of Torrington and Litchfield.
Wyanokie Highlands (NJ)
    Cost--$7,700,000
    HCA Request--$2,500,000
    Size--Four parcels totaling 1,288 acres
    Description--New Jersey requests funds for this focal area which is 
ranked highly due to its value for water resources and recreation, and 
secondarily for biodiversity and forest land. The Wyanokie Highlands 
form the headwaters of Burnt Meadow and West Brooks that flow into 
North Jersey's Wanaque Reservoir, which provides drinking water for 
nearly 2 million NJ residents. These acquisitions will help complete a 
critical greenway in the Wyanokies linking Long Pond Ironworks State 
Park with Norvin Green State Forest. These parcels are the largest 
portion of the missing link and include waterways of exceptional 
ecological significance, which drain into the Wanaque Reservoir.
Oley Hills and New Holland Waters (PA)
    Cost--$8,500,000
    HCA Request--$2,500,000
    Size--3,063 acres
    Description--Oley Hills.--The Oley Hills is a Critical Treasure 
within the Highlands Region. This assemblage of properties is located 
within the Oley Hills core conservation area of the Reading Prong, the 
geologic formation that lies at the heart of the Pennsylvania 
Highlands. The Oley Hills project encompasses three State-designated 
``Exceptional Value'' streams (the Pine, Oysterville, and Saucony 
creeks). These pristine waterways provide drinking water to the 
surrounding communities, and important water quality protection for the 
Schuylkill River, Pennsylvania's first designated Scenic River and the 
spine of the Schuylkill River Heritage Corridor. The Oley Hills are 
known to provide habitat that supports substantial populations of the 
endangered Bog Turtle. The area also contains sweeping scenic vistas of 
the Highlands Region and woodlands that are exceedingly rare in 
southeast Pennsylvania.
    New Holland Waters--Pennsylvania's 800-acre New Holland Waters 
project in Lancaster County's Welsh Mountains has been identified in 
the County's 2002 Open Space Plan and the County Growth Management Plan 
Update as high priority for protection. Lancaster County Conservancy 
ranks New Hollands Waters as a ``natural gem'', the highest ranking for 
evaluating priority lands, due to contiguous forests, proximity of 
other forested or protected areas, high quality wildlife habitat, 
unique geological features, presence of rare, threatened or endangered 
species, and water resources.
Great Swamp and Sterling Forest Areas (NY)
    Cost--$10,600,000
    HCA Request--$2,500,000
    Size--1,300 acres
    Description--Great Swamp.--New York State requests funds to assist 
in the acquisition of properties that will further protect the Great 
Swamp, one of New York's most important wetland complexes and the 
largest and highest quality red maple hardwood swamp in the State. It 
also contains breeding habitat for more than 80 bird species and 
migratory habitat for more than 150 species of waterfowl and other 
birds. The Great Swamp also contains a south flowing section based on 
the East Branch Croton River, a critical part of New York City's water 
supply system; and a north flow section based on the Swamp River which 
flows into the Housatonic and, ultimately, to Long Island Sound.
    Arrow Park.--New York requests funds to assist in the acquisition 
of an addition to Sterling Forest State Park. The Arrow Park property 
is situated adjacent to the northeastern corner of Sterling Forest 
State Park and in close proximity to the Appalachian National Scenic 
Trail. The property contains a highly scenic lake, woodlands and 
wetlands, as well as significant frontage on Orange Turnpike. Portions 
of the property were acquired in 2002 as additions to the Park, while 
the disposition of the remaining 350 acres was being considered by the 
owners.
Highlands Conservation Act--Technical Assistance and Study
    The USDA Forest Service has been a valuable partner and catalyst in 
the region and $1 million is needed to allow the Forest Service to 
continue the expansion of the NY-NJ Highlands Regional Study to 
Pennsylvania and Connecticut, and to provide increased technical 
assistance to private landowners and local communities to advance 
stewardship and management of priority lands in the region.
                   forest legacy program and projects
    We also support funding for critical Forest Legacy projects in the 
Highlands region including: $770,000 for Skiff Mountain (phase II) in 
Connecticut and $5.7 million for Sparta Mountain South (phase II) in 
New Jersey. In order to ensure that there is adequate program funding 
for these critical projects in the Highlands, we urge your support for 
funding Forest Legacy at $100 million in fiscal year 2008.
                    land and water conservation fund
    Finally, we are very concerned about the proposed cuts to the Land 
& Water Conservation Fund, which is slated to receive only $58 million 
in the President's budget, one of the lowest levels of conservation 
funding for LWCF ever. LWCF is a bedrock of conservation funding for 
both the Federal and State governments, and its impacts cascade from 
internationally important conservation projects to locally important 
ones. We are urging Congress to fund LWCF at $320 million.
    Without adequate funding to the Highlands Conservation Act, Forest 
Legacy Program and Land & Water Conservation Fund, precious natural 
treasures of the Highlands may be developed and lost to conservation 
forever. Thank you again for considering our comments on the fiscal 
year 2008 Interior, Environment and Related Agencies Appropriations 
bill.
                                 ______
                                 
             Prepared Statement of the Highlands Coalition
    Thank you for the opportunity to submit comments about the fiscal 
year 2008 appropriations for the Highlands Conservation Act.
    The Litchfield Garden Club and the League of Women Voters of 
Litchfield County both place the highest priority on securing--
  --$10 million full funding for Highlands land conservation 
        partnership projects through the U.S. Fish and Wildlife 
        Service,
  --$1 million for USDA Forest Service technical assistance and 
        research programs in the Highlands, and
  --Specifically, for $2.5 million in Highlands funding for the 
        Litchfield Farms project.
                         why litchfield farms?
    Litchfield Farms has been designated as a top priority by the State 
of Connecticut because of its outstanding environmental importance. 
This large (670-acre) property, part of which has been farmed in 
Litchfield for nearly 300 years, is not only a rare property. It is a 
threatened property.
    Connecticut designated the Litchfield Farms as its Highlands 
project for fiscal year 2008 because of its special environmental 
values. In addition to prime agricultural soils, it also has large 
wetlands areas and 450 acres of diverse forests. It hosts a known 
State-listed endangered species and contains several vernal pools. It 
drains into both the Bantam and Naugatuck watersheds, and its Bantam 
waters are AA, the highest water quality level. Reaching elevations of 
1,300 feet, the farm is one of the highest points in Litchfield, and 
its ridgelines and 50-mile panoramic view scapes are unparalleled in 
the area.
    The threat to Litchfield Farms, unfortunately, is a perfect example 
of why Congress passed the Highlands Conservation Act (HCA) in 2004 
with bipartisan support. HCA responded to the realization that 
development and sprawl from the Northeast megapolitan population, if 
allowed to run its course, would quickly envelope and overwhelm the 
Highlands region and its fragile ecosystems, pristine waters, and 
recreational features.
    Litchfield is a case in point. Like other small towns in the 
northwest corner of Connecticut, Litchfield is starting to see an 
influx of population from the densely packed urban centers of the 
Northeast, principally from the New York City area. Farms, pastures, 
and woodlands are being sold for development. The huge Litchfield Farms 
acreage is a prime target currently on the market. Local and State-
level public, private and nonprofit efforts are underway to put this 
extraordinary parcel into conservation status.
                      connecticut is taking action
    Connecticut is putting its substantial public and private money 
into preservation of endangered lands and open spaces.
  --In 2005, the State enacted legislation to impose a $30 real estate 
        document recording fee which will generate nearly $15 million 
        annually for matching grants for preserving open space and 
        farmland.
  --State bonding authority for open space and farmland preservation 
        has been increased.
  --Locally, the town of Litchfield established an ``Open Space and 
        Land Acquisition Fund.''
  --Private citizens are participating through half a dozen area land 
        trusts in raising private funds locally for acquisition of high 
        priority parcels.
  --Local corporate, nonprofit and individual donors sponsored the 
        Litchfield Hills Greenprint, a GIS mapping project to identify 
        places that have significant environmental values.
  --More than 130 people turned out in the tiny borough of Bantam on a 
        cold February week night to attend a Garden Club public forum 
        last year on how we could work together to preserve high 
        priority open spaces.
    Connecticut's Governor Jodi Rell designated the Litchfield Farms in 
her request to the Interior Department jointly submitted by the four 
Highlands States (Connecticut, New York, New Jersey and Pennsylvania). 
She requested $2.5 million for the Litchfield Farms.
    A $10 million full-funding land acquisition appropriation, which 
would allow $2.5 million for the Litchfield Farms lands, not only would 
indicate that the Federal Government places a high value on the 
Litchfield Farms lands, it also would encourage national, State and 
local groups to redouble their efforts to raise the additional funds 
required to acquire these exceptional lands for conservation purposes.
    Thus our citizens put an extremely high priority on full funding 
under the new Highlands Conservation Act. We urge you to provide the 
entire $10 million authorized, plus the $1 million authorized for USDA 
Forest Service technical assistance and research in the Highlands area.
                                 ______
                                 
           Prepared Statement of the Houston Audubon Society
    Madam Chairwoman and honorable members of the committee: Thank you 
for the opportunity to testify in support of a Land and Water 
Conservation Fund request for $3 million to permit the U.S. Fish and 
Wildlife Service (USFWS) to acquire the 1,988 acre McGinnes property 
for the San Bernard National Wildlife Refuge in Texas.
    The San Bernard National Wildlife Refuge was established in 1968 to 
provide quality habitat for wintering migratory waterfowl and other 
bird life. The nearly 35,000-acre refuge is located in Brazoria and 
Matagorda counties in southeastern Texas. The refuge consists of flat 
coastal prairie and salt marsh with numerous saltwater lakes, shallow 
freshwater lakes, associated marshlands, intermittent streams, and 
bottomland hardwood forest areas.
    Houston Audubon Society has partnered with the USFWS on four recent 
acquisitions to the refuge complex. Houston Audubon's shared goal with 
the USFWS is to protect high quality habitat along the Upper Texas 
Coast. The Texas Mid-Coast National Wildlife Refuge Complex serves as 
an end point of the Central flyway for migrating waterfowl in the 
winter months and as an entry point for neotropical songbirds migrating 
north from Mexico.
    Available for acquisition in fiscal year 2008 is the 1,988-acre 
McGinnes tract located adjacent to the Linville Bayou Unit of the San 
Bernard National Wildlife Refuge. Comprised of old growth bottomland 
forest, wetland, and associated upland habitats, the McGinnes tract 
would serve as an important addition to the Linville Unit by 
consolidating over 1,400 acres of old-growth bottomland forest, making 
it one of the largest old-growth bottomland forests in public ownership 
in the State.
    Madame Chairwoman, thank you for this opportunity to testify for 
this important project at the San Bernard National Wildlife Refuge in 
Texas.
                                 ______
                                 
Prepared Statement of the Houston Regional Group and Lone Star Chapter 
                           of the Sierra Club
    Madame Chairwoman and honorable members of the committee: The 
Houston Regional Group and Lone Star Chapter of the Sierra Club (Sierra 
Club) appreciate this opportunity to testify in favor of the Land and 
Water Conservation Fund. The Sierra Club supports the request for $3 
million which will allow the U.S. Fish and Wildlife Service (FWS) to 
acquire 1,988 acres of Columbia Bottomlands, called the McGinnes tract, 
which will be added to the San Bernard National Wildlife Refuge (NWR) 
in Texas.
    The Land and Water Conservation Fund is the most important source 
of continuous, U.S. congressional funding for the acquisition of public 
lands in the United States. The Sierra Club supports full funding for 
the Land and Water Conservation Fund so that the backlog of important 
ecological, biological, archeological, historic, scenic, and other 
sensitive lands that the U.S. Fish & Wildlife Service, Bureau of Land 
Management, National Park Service, Forest Service, and countless State 
and local entities have identified and prioritized can be acquired.
    The Houston Regional Group of the Sierra Club consists of about 
5,000 members and works for the protection of wildlife habitat as well 
as the reduction of environmental pollution in Houston and its 
surrounding counties. The Lone Star Chapter of the Sierra Club is the 
State Sierra Club entity and has about 25,000 members. I serve as the 
Forestry Chair for the Houston Regional Group and the Forest Management 
Issue Chair for the Lone Star Chapter.
    The Sierra Club supported the original FWS proposal to protect 
Columbia Bottomlands in the early 1990's. We have supported acquisition 
efforts ever since. Each year the Sierra Club conducts visits to San 
Bernard and Brazoria NWRs to see and enjoy the beauty of protected 
Columbia Bottomlands.
    The Columbia Bottomlands are forested wetlands unique to Texas and 
found only along the lower Colorado, San Bernard, and Brazos Rivers in 
Fort Bend, Brazoria, Wharton, and Matagorda Counties. These forests 
have magnificent Live Oak, Pecan, Sugarberry, American Elm, Green Ash, 
Palmetto, Water Hickory, Water Oak, and other trees; many other plant 
species; and important wildlife species like migratory songbirds, 
white-tailed deer, gray squirrel, waterfowl (wood duck and mallard), 
egrets (common, cattle, and snowy), herons (great blue, tri-colored, 
little blue), amphibians, reptiles, and fish (bass, sunfish, catfish).
    Columbia Bottomlands have been incorporated in the Texas Mid-Coast 
NWR Complex, which includes the Brazoria, Big Boggy. and San Bernard 
NWRs. These NWRs are about an hour to an hour and a half south of 2 
million people in Houston, Texas, the Nation's fourth largest city. 
Houstonians and others in surrounding counties use the Columbia 
Bottomlands and other habitats found in the NWRs for hunting, fishing, 
birding, environmental education, photography, canoeing and kayaking, 
boating, wildlife observation, nature study, and many other low impact 
and compatible recreational, educational, and scientific activities.
    Over 300 species of birds can be found in the Columbia Bottomlands 
and nearby coastal prairies and wetlands, in the midst of the Central 
Flyway on the Texas Coast. The San Bernard NWR was established in 1968 
and currently has about 35,000 acres. Most of the acres protected in 
San Bernard NWR consist of coastal prairie and fresh, brackish, and 
saltwater marshes that host incredible numbers of Canada and white-
fronted geese, ducks (pintail, teal, gadwall, widgeon, and mottled), 
ibis, sandpipers, stilts, hawks, owls, vultures, kites, blue crabs, 
shrimp, spotted sea-trout, redfish, black drum, sheepshead, oysters, 
and flounder.
    For fiscal year 2008, the 1,988 acre McGinnes tract, located in the 
Linville Bayou Unit, is available for acquisition. The McGinnes tract 
has 1,400 acres of old-growth bottomland forest, along with other 
wetlands and upland habitats, and will connect and consolidate tracts 
of Columbia Bottomlands that have already been acquired by FWS.
    Madame Chairwoman, the Sierra Club very much appreciates this 
opportunity to testify and requests your help in this matter. Thank 
you.
                                 ______
                                 
     Prepared Statement of the Housatonic Valley Association, Inc.
    Madam Chairwoman and honorable members of the committee: The 
Housatonic Valley Association (HVA) appreciates the opportunity to 
present this testimony in support of a $770,000 appropriation to the 
State of Connecticut from the Forest Legacy Program for the Skiff 
Mountain project. HVA is a non-profit watershed conservation 
organization for the Housatonic River valley. Skiff Mountain sits in 
the heart of the Highlands region of this scenic valley, framing the 
nationally ranked Housatonic River corridor.
    The Highlands region of the East Coast is virtually in the backyard 
of the Nation's largest metropolitan area. Located within an hour of 
nearly 25 million Americans, the Highlands form a greenbelt of forests 
and farmland adjacent to the sprawling Hartford-New York-Philadelphia 
urban corridor. Two million acres of glacial bogs, hardwood-conifer 
swamps, rock outcrop communities, and chestnut oak forests stretch from 
western Connecticut across the Lower Hudson River Valley and northern 
New Jersey into Pennsylvania, enticing more than 14 million visitors 
each year--more than Yellowstone and Yosemite National Parks combined.
    The State has identified the Connecticut portion of the Highlands 
as a critical focus area under its Forest Legacy Program. These parcels 
total approximately 765 acres of Skiff Mountain Forest in northwestern 
Connecticut and are part of the newly legislated Upper Housatonic 
National Heritage Area. They form a network of forested properties in 
Litchfield County straddling the Kent-Sharon town line, an area under 
tremendous large-lot development pressures. Located among 6,000 acres 
of existing conservation lands, and immediately adjacent to the 
Federally protected and world-renowned Appalachian National Scenic 
Trail, the Skiff Mountain property has been identified by the State as 
its top priority for Forest Legacy funding this year.
    In fiscal year 2006, Congress appropriated $1.182 million in Forest 
Legacy Funding for the protection of the first 473 acres of the Skiff 
Mountain assemblage. In fiscal year 2008, $770,000 is needed from the 
Forest Legacy program to help preserve the remaining 292 acres of Skiff 
Mountain, and keep intact this conservation corridor of the Housatonic 
River Watershed and four-State Highlands region. These funds will be 
matched by local funding and land value donation. We hope that you will 
provide $770,000 to ensure the success of this effort in the fiscal 
year 2008 Interior appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
             Prepared Statement of the Huachuca Hiking Club
    Madam Chairwoman and honorable members of the committee: I 
appreciate the opportunity to provide testimony in support of a 
$500,000 request from the Land and Water Conservation Fund to protect 
the 38.5-mile San Pedro Rail-Trail property (containing approximately 
470 acres of fee land) at the Bureau of Land Management's San Pedro 
Riparian National Conservation Area in Arizona.
    The Huachuca Hiking Club is based in southern Arizona with members 
from Sierra Vista, Benson, Bisbee, and Tucson. Our members are outdoor 
enthusiasts who enjoy hiking, camping, backpacking, volunteer trail 
maintenance, and conserving Arizona's outstanding natural resource 
heritage. We enjoy hiking not only to experience the beauty of 
Arizona's outdoor landscapes, but also to sustain and improve our 
physical fitness. We strongly support the acquisition and protection of 
a rail-trail corridor within the San Pedro Riparian National 
Conservation Area. Trails close to local communities foster wholesome, 
outdoor recreation that can be done by families close to their homes. 
This is increasingly becoming important as society grapples with the 
problems of obesity and lack of physical fitness that are so prevalent 
in young people today. The proposed San Pedro rail-trail would fill a 
critical need for a family friendly place to hike, mountain bike, ride 
horses, watch birds and other wildlife, or explore the beauty of a rare 
desert riparian area. The attraction of a rail-trail would also bring 
significant economic benefits to our local communities through nature-
based tourism and opportunities for visitors to experience an 
outstanding recreational destination. Finally, the rail-trail would 
help protect the San Pedro Riparian National Conservation Area by 
improving awareness of this rare and critical resource and by 
eliminating non-compatible uses.
    An fiscal year 2008 appropriation of $500,000 from the Land and 
Water Conservation Fund would assist the Bureau of Land Management in 
acquiring and protecting this corridor and all of its natural resources 
for public use and enjoyment for generations to come.
    Madame Chairwoman, thank you for this opportunity to submit 
testimony.
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States, Humane 
         Society Legislative Fund, and Doris Day Animal League
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations with a combined membership of more than 10 million 
supporters nationwide. We urge the subcommittee to address these 
priority issues in the fiscal year 2008 budget.
                         polar bear protection
    We urge the subcommittee to restrict the use of funds by U.S. Fish 
and Wildlife Service for the issuance of import permits for sport-
hunted polar bear trophy hides and heads. Throughout their range, polar 
bears currently face unprecedented threats from climate change, 
environmental degradation, and hunting for subsistence and sport. The 
IUCN (World Conservation Union) Polar Bear Specialist Group announced 
that polar bear populations could drop 30 percent in the coming 35-50 
years and that they may disappear from most of their range within 100 
years.
    While long-term action is required to address the significant 
environmental factors negatively affecting polar bear survival, 
immediate action should be taken to minimize all human-caused 
mortalities, especially from trophy hunting. Following 1994 amendments 
to the Marine Mammal Protection Act, the importation of polar bear 
trophies including bear pelts and parts (excluding organs) into the 
United States from Canada was allowed. This is a precarious time for 
polar bear populations. The United States should take a leadership role 
in protecting polar bears and stop allowing the importation of these 
magnificent animals killed for sport and entertainment.
        bureau of land management--wild horse and burro program
    The BLM is charged with the management of approximately 32,000 wild 
horses in 10 Western States. The fiscal year 2008 proposed budget for 
the maintenance of this herd was reduced by $4.7 million from the 
previous year. While we support a reduction in the number of gathers, 
allowing the herd to grow without a humane, non-lethal management plan 
is a recipe for cruelty and disaster. This inadequate budget is further 
augmented through the unacceptable practice of selling ``unadoptable'' 
animals to individuals who often consider them no more than horsemeat 
for French and Belgian menus. The massive public outcry resulting from 
sales of wild horses to slaughter reflects revulsion Americans feel 
about the brutality and unseemly nature of this practice. The BLM 
should have only two mechanisms for dealing with ``surplus'' wild 
horses and burros; (1) long-term, humane pasturing and (2) adoption.
    The BLM's roundup and adoption program has resulted in an 
increasing number of wild horses being permanently warehoused in BLM 
hold centers at a significant cost to taxpayers. Studies show that 
costs could be significantly decreased by treating more mares with the 
immunocontraceptive PZP (porcine zona pellucida) and returning them to 
the range, rather than continuing current practices.
    We urge the subcommittee to restore and direct these funds to 
development and research of PZP and further ask that the subcommittee 
facilitate and encourage greater cooperation between BLM, EPA and The 
HSUS to expedite implementation of this very promising alternative 
solution for wild horse management.
       law enforcement division of the fish and wildlife service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. The United States 
remains one of the world's largest markets for legal and illegal trade 
in wildlife and wildlife products. New technology and a full complement 
of Special Agents are essential if law enforcement is to have any hope 
of effectively enforcing the Nation's endangered species trade laws. We 
are disappointed with the administration's $1.4 million decrease for 
the Law Enforcement Division in fiscal year 2008. We are hopeful that 
proposed user fee increases will make up the difference. We strongly 
support an additional increase of $2.7 million over the 
administration's request for USFWS Law Enforcement Operations and 
Maintenance, to better house and equip the Wildlife Forensics 
Laboratory and to hire and train additional Special Agents for 
enforcement of the Captive Wildlife Safety Act.
    The Captive Wildlife Safety Act was signed into law in December of 
2003, as Public Law 108-191. It passed unanimously in both the House 
and Senate and takes aim at the problem of private ownership of big 
cats as pets. We are pleased that the Service has now proposed 
regulations and urge USFWS to implement these regulations and enforce 
the Captive Wildlife Safety Act.
  environmental protection agency--office of research and development
    In 2000, the Interagency Coordinating Committee on the Validation 
of Alternative Methods, ICCVAM Authorization Act (Public Law 106-545), 
created a new paradigm for regulatory toxicology, by promoting chemical 
testing methods that are often faster and more economical than existing 
methods. The new paradigm requires Federal agencies to ensure that new 
and revised animal and alternative test methods be scientifically 
validated prior to recommending or requiring use by industry. All 15 
Federal regulatory and research agencies that compose the ICCVAM agree 
on a common definition of validation as ``the process by which the 
reliability and relevance of a procedure are established for a specific 
use.''
    In recent years, thanks to the leadership of Representatives James 
Walsh and David Price, Congress has provided specific funding for 
research, development and validation of non-animal and other 
alternative test methods that replace, reduce, or refine the use of 
animals in toxicity testing. However, EPA has under-funded validation 
studies of non-animal and other alternatives.
    For several years, the budget for the Office of Research and 
Development (ORD) has hovered at approximately $500 million. We have 
consistently supported a request for 1-2 percent of this budget to go 
for research, development, and validation of non-animal test methods. 
While we are greatly appreciative of this first-ever directive, we have 
yet to receive a detailed accounting of the expenditure of funds. The 
agency has stated that funding has been provided for bench science that 
may have future relevant applications. EPA contends it has used monies 
from the ORD's Science and Technology Account to fund research and 
development of non-animal and other alternative test methods, but the 
funding stops at the stage when a test method must be scientifically 
validated. Consequently, this approach does little to support the 
necessary validation studies for non-animal test methods with potential 
application in reducing costs and increasing efficiency in existing EPA 
programs. Moreover, no detailed reporting on the actual expenditure of 
funds under the Computational Toxicology Program to promote alternative 
methods has ever been submitted to the Congress. Therefore, we 
respectfully request the following report language be included in the 
bill:

    ``The committee recognizes the EPA's commitment to developing a 
Computational Toxicology Program to reduce the use of animal testing 
and the cost of such testing. It is the committee's expectation that, 
commensurate with Committee support for funding of the Computational 
Toxicology Program for the last several years, EPA demonstrate real 
progress not only in development of computational toxicology methods, 
but importantly, in validation of new and revised test methods, non-
animal methods, and alternative methods so that these can be utilized 
in regulatory program activities. The committee encourages EPA to 
develop, integrate, and implement specific plans for validation studies 
of new and revised, non-animal and alternative methods for chemical 
screening and priority setting within the Agency's Computational 
Toxicology Program. The committee requests that EPA submit an annual 
report, due by March 31 of the following fiscal year, detailing results 
of its Computational Toxicology program, to include a section on EPA's 
overall activities and itemized expenditures in a manner where both 
specific activities and specific expenditures devoted to validation of 
new, revised test methods, non-animal methods, and alternative methods 
are broken out from expenditures on research and development.''

    Additionally, finalization of the MOU between the EPA and the FDA, 
under which the EPA will assume the primary authority to review and 
register therapeutic and other products geared toward humane methods of 
population control, should be expedited in order to allow PZP to be 
utilized in a management capacity, rather than an investigational one.
                multinational species conservation fund
    We join a broad coalition of organizations in requesting an 
increase over the administration's request for the Multinational 
Species Conservation Fund (MNSCF) and Wildlife Without Borders. The 
MNSCF was established by Congress to benefit African and Asian 
elephants, rhinos, tigers, great apes, neotropical migratory birds and 
marine turtles. Congress has been very supportive of these programs in 
the past. Unfortunately in the past couple years, the funding has been 
consistently considerably less than the amounts necessary to carry out 
these valuable missions. We ask that you continue to support these 
highly threatened mammals and birds in fiscal year 2008 by 
appropriating $2 million each for the African Elephant Conservation 
Fund, the Asian Elephant Conservation Fund, and the Great Ape 
Conservation Fund, and $1.5 million for the Marine Turtle Conservation 
Fund. We further request $2.5 million for the combined Rhinoceros and 
Tiger Conservation Fund, $5 million for the Neotropical Migratory Birds 
Conservation Fund, and $500,000 for Wildlife Without Borders.
    While we wholeheartedly support increased funding for the MNSCF, we 
are concerned about past incidents and future opportunities for funds 
from these conservation programs to be allocated to promote trophy 
hunting, trade in animal parts, and other consumptive uses--including 
live capture for trade, captive breeding, and entertainment for public 
display industry--under the guise of conservation for these animals. 
Grants made to projects under the MNSCF must be consistent with the 
spirit of the law.
                        protection for walruses
    We urge this subcommittee to appropriate $500,000 in fiscal year 
2008 to fund the continuation of much-needed research on the Pacific 
walrus. New promising methodologies for surveying walrus populations 
have been developed and require sustained funding support. A 
comprehensive walrus survey was begun in 2005--the effort must receive 
continued support to maximize the utility of its results. Walruses are 
targeted by Native hunters for subsistence, despite a paucity of data 
regarding their current population status or population structure. 
Hundreds of walruses are killed annually; in some years this number has 
climbed to as many as 7,000. Moreover, in some hunting villages, 
females and their calves are preferentially killed, against the 
recommendation of the USFWS and standard management practice. A portion 
of the research funds could also be used to improve the Walrus Harvest 
Monitor Project, which collects basic management data.
                      endangered species programs
    While the fiscal year 2008 budget for the FWS endangered species 
program has been increased by over $5 million from fiscal year 2007, 
this amount still falls short of the funding level of fiscal year 2006.
    Candidate Conservation.--This portion of the budget is being 
increased by almost $600,000 from fiscal year 2007 to slightly exceed 
fiscal year 2006 funding. However, these increases are primarily 
focused on coordinating energy development and species conservation 
actions across areas of mixed land ownership specifically in the Green 
River Basin of Wyoming. Thus, it is doubtful that these additional 
funds will actually serve to conserve candidate species as a whole but 
rather to act as incentives to mitigate the effects of energy 
development in this one discreet area.
    Additionally, general program funds have been cut by $178,000 
suggesting that candidate conservation as a whole is experiencing 
funding declines. Considering that the pre-emptive protection of rare 
species is the best way to ensure their survival and avoid the dire 
population reductions that lead to listing it behooves the DOI to 
increase funding towards this program.
    Listing.--Although the funding of this element has been increased 
by about $500,000 from fiscal year 2007, additional funds are 
desperately needed. Of the 586 listed animals, only about 181 have 
critical habitat designations. Additional funds of at least $5 million 
should be added to alleviate the backlog of animals with no defined 
critical habitats.
    Consultation.--This item of the endangered species budget includes 
an increase, yet, a substantial portion is to provide for expedited 
energy consultations in the Green River Basin. Funds for this portion 
of the program should go towards conflict management and conservation 
needs, and not towards the approval of permits for natural resource 
mining and drilling.
    Recovery.--This component, while increased from fiscal year 2007, 
still falls short of the fiscal year 2006 budget by nearly $5.5 
million. While funds for grizzly bear and wolf conservation and 
monitoring have been transferred to the ESA program from other sources, 
there were no increases in funding for the recovery of any imperiled 
species.
                                 ______
                                 
  Prepared Statement of the Imperial Irrigation District, Imperial, CA
    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) with respect to its on-farm Colorado River Basin 
Salinity Control Program for fiscal year 2008. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. With the 
enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996 (Public Law 104-127), specific funding for salinity 
control projects in the Colorado River Basin were eliminated from the 
Federal budget and aggregated into the Department of Agriculture's 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP.
    The Program, as set forth in the act, benefits both the Upper Basin 
water users through more efficient water management and the Lower Basin 
water users, hundreds of miles downstream from salt sources in the 
Upper Basin, through reduced salinity concentration of Colorado River 
water. California's Colorado River water users are presently suffering 
economic damages in the hundreds of million of dollars per year due to 
the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California along with the other six Colorado River 
Basin States through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria in 
June 1975 for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission.
    The goal of the Colorado River Basin Salinity Control Program is to 
offset the effects of water resources development in the Colorado River 
Basin after 1972 as each State develops its Colorado River Compact 
apportionments. In close cooperation with the U.S. Environmental 
Protection Agency (EPA) and pursuant to requirements of the Clean Water 
Act (Public Law 92-500), every 3 years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured in Total Dissolved Solids--TDS) at or below 
the levels measured in the Colorado River system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams. The latest report was prepared 
in 2005 titled: 2005 Review, Water Quality Standards for Salinity, 
Colorado River System (2005 Review). The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review includes an updated Plan of 
Implementation.
    Concentrations of salts in the River annually cause about $330 
million in quantified damage in the United States (there are 
significant unquantified damages as well). For example, damages occur 
from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. Although the Program, thus far, has been able to 
implement salinity control measures that comply with the approved plan, 
recent drought years have caused salinity levels to rise in the River. 
Predictions are that this will be the trend for the next several years. 
This places an added urgency for acceleration of the implementation of 
the Program.
    Enactment of the Farm Security and Rural Investment Act of 2002 
provided an opportunity to adequately fund the Salinity Program within 
EQIP. The Colorado River Basin Salinity Control Advisory Council has 
taken the position that the USDA portion of the effort be funded at 2.5 
percent of the EQIP funding but at least $20 million annually. Over the 
past few years, the Natural Resources Conservation Service (NRCS) has 
designated 2.5 percent of EQIP funds be allocated to the Colorado River 
Salinity Control program. The Forum suggests that this is an 
appropriate level of funding as long as it does not drop below $20 
million. Funding above this level assists in offsetting pre-fiscal year 
2003 funding below this level. The Colorado River Board supports the 
recommendation of the Forum and urges this subcommittee to support 
funding for the Colorado River Basin Salinity Control Program for 2008 
at this level.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important Basin-wide 
program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
continue to be honored, it is essential that in fiscal year 2008, and 
in future fiscal years, that Congress continues to provide funds to 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California as 
well as throughout the Colorado River Basin. As stated earlier, 
preservation and improvement of the Colorado River water quality 
through an effective salinity control program will avoid the additional 
economic damages to users of Colorado River water in California, 
Arizona, and Nevada.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission. I appreciate the opportunity to 
present this statement to the committee regarding the views of the 
Compact's member States on the fiscal year 2008 Budget Request for the 
Office of Surface Mining (OSM) within the U.S. Department of the 
Interior. In its proposed budget, OSM is requesting $60.5 million to 
fund Title V grants to States and Indian tribes for the implementation 
of their regulatory programs and $52.8 million to fund discretionary 
spending for the Title IV abandoned mine land (AML) program, which 
includes some State grants. Our statement will address both of these 
budgeted items.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal as well as important noncoal minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $60.5 million for Title V grants to 
States, an amount which is matched by the States each year. As you 
know, these grants support the implementation of State regulatory 
programs under the Surface Mining Control and Reclamation Act (SMCRA) 
and as such are essential to the full and effective operation of those 
programs. For the past several fiscal years, the amount for State Title 
V grants has been flat-lined. (See figure 1) What this graph does not 
show is that these grants have been stagnant for over 12 years. The 
appropriation for State Title V grants in fiscal year 1995 was $50.5 
million. Essentially, we have attempted to operate effective, high 
performance programs with a meager $6 million increase spread over 12 
years. By most standards, this is remarkable, and clearly a bargain for 
the Federal Government. Over this same period of time, coal production 
has risen substantially and OSM's own budget for Federal program costs 
has increased by over $25 million. Given the fact that it is the States 
that operate the programs that address the environmental impacts of 
coal mining operations, a similar increase would have been expected. 
But instead, State regulatory grants have remained flat-lined. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This year, in an attempt to reverse this trend, OSM has proposed a 
modest increase for State Title V grants. However, it may be too little 
too late, especially for some States such as Virginia and Utah. In 
Virginia, for instance, coal production and operating costs have 
increased, while Federal funding for State-based coal regulatory 
programs has consistently decreased. The rise in costs associated with 
wages, employee benefits, and transportation fuels have risen 
approximately 15 percent over the past 4 years. Due to the loss of 
Federal funds, Virginia is unable to fill many staff postings, 
including that of the critical field inspector. Without a full staff of 
reclamation inspectors, Virginia may not meet Federal inspection 
guidelines. Virginia is also unable to fill technical support staff 
positions. This will limit the assistance the Commonwealth can offer to 
coal companies and significantly delay the review and approval process 
for surface mining permits. Virginia's situation is symptomatic of what 
other States are facing--or will soon face--if the debilitating trend 
for Title V grant funding is not reversed.
    It must be kept in mind that State coal regulatory program 
permitting and inspection workloads are in large part related to coal 
mine production. In general, as coal production increases, the need for 
additional permitting and operational inspections also increases. State 
programs must be adequately funded and staffed to insure that 
permitting and inspection duties are both thorough and timely as States 
experience the reality of accelerating coal mine production and 
expansion activities. As program funding shortfalls continue, States 
risk the possibility of delayed production and negative impacts to the 
environment. The situation in Colorado exemplifies this reality. From 
2002 to 2006, Colorado production increased approximately 10 percent. 
Permit revision activity increased nearly 50 percent during the same 
period. This reality has stressed existing program resources and caused 
the delay or elimination of lower priority program functions.
    Just as with the Federal Government, State regulatory programs are 
personnel intensive, with salaries and benefits constituting upwards of 
80 percent of total program costs. And, just like the Federal 
Government, State personnel costs are increasing. (See figure 2) States 
must have sufficient staff to complete permitting, inspection and 
enforcement actions needed to protect citizens of the coalfields. When 
funding falls below program needs, States may struggle to keep active 
sites free of offsite impacts, reclaim mined areas, and prevent 
injuries. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Looking again at figure 1, another disturbing trend is evident. The 
gap between the States' requests, which are based on anticipated 
expenditures, and what States are receiving in annual grants, is 
widening. The numbers in this chart are taken from OSM budget 
justification documents, OSM's website, and estimates provided to OSM 
from the States. Please note that these numbers have not been adjusted 
for inflation--which means the situation is actually more bleak. There 
is no disagreement about the need demonstrated by the States. In fact, 
in OSM's own budget justification document, OSM States that: ``the 
States have the unique capabilities and knowledge to regulate the lands 
within their borders. Providing a 50 percent match of Federal funds to 
primacy States in the form of grants results is the highest benefit and 
the lowest cost to the Federal Government. If a State were to 
relinquish primacy, OSM would have to hire sufficient numbers and types 
of Federal employees to implement the program. The cost to the Federal 
Government would be significantly higher.'' (Page 71 of OSM's Budget 
Justification)
    The enormity of this funding challenge will become increasingly 
clear as the Federal Government is faced with the dilemma of either 
securing the necessary funding for State programs or implementing those 
programs (or portions thereof) themselves--at significantly higher 
costs. In Virginia alone, for instance, the cost of OSM running the 
program would likely amount to $8-10 million based on what it currently 
costs OSM to run the comparable Federal program in Tennessee. For 
perspective, Virginia has been offered $3.175 million in Federal 
funding to operate its program (although actual needs amount to $3.6 
million--an overall shortfall of nearly $1 million when the State match 
is factored in). In the end, the increasing gap between the States' 
anticipated expenditures and actual Federal funding is compounding the 
problem caused by inflation and uncontrollable costs, undermines our 
efforts to realize needed program improvements and enhancements, and 
jeopardizes our efforts to minimize the impact of coal extraction 
operations on people and the environment. For all these reasons, we 
urge Congress to increase funding for State Title V regulatory grants 
in OSM's fiscal year 2008 budget to $67 million, as fully documented in 
the States' estimates for actual program operating costs.
    It must be kept in mind that where there is inadequate funding to 
support State programs, some States will be faced with either turning 
all or portions of their programs back to OSM (as in the case of 
Virginia) or, in other cases, will face potential lawsuits for failing 
to fulfill mandatory duties in an effective manner (as has occurred in 
Kentucky and West Virginia in the past). Of course, where a State does, 
in fact, turn all or part of its Title V program back to OSM (or if OSM 
forces this issue based on an OSM determination of ineffective State 
program implementation), the State would be ineligible for Title IV 
funds to reclaim abandoned mine lands. This would be the height of 
irony given the recent reauthorization and revitalization of the Title 
IV AML program.
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, recent congressional action to reauthorize Title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State Title IV 
grants are funded primarily by permanent appropriations. The only 
programs that continue to be funded through discretionary 
appropriations are high-priority Federal reclamation programs, State 
and Federal emergency programs and OSM operations. As a result, the 
States will receive mandatory funding in fiscal year 2008 of $288.4 
million for AML reclamation work. OSM also proposes to continue its 
support of the Watershed Cooperative Agreement program in the amount of 
$1.6 million, a program we strongly endorse.
    Assuming that permanent appropriations for State AML grants do, in 
fact, become a reality (and we trust they will), there are three 
remaining discretionary funding priorities for the States: minimum 
program funding; Federal emergency programs; and Clean Streams funding. 
With respect to minimum program States, under the new funding formula, 
all of the States and tribes will receive funding increases except for 
minimum program States. They remain stagnant for the next 2 fiscal 
years at $1.5 million, a level of funding that greatly inhibits the 
ability of these States to accomplish much in the way of substantive 
AML work. It is both unfair and inappropriate for these States to have 
to wait another 2 years to receive funding increases when they are the 
States most in need of AML moneys. We urge Congress to fund these 
States at the statutorily authorized level of $3 million in fiscal year 
2008 so as to level the playing field and allow these States to get on 
with the critical AML projects awaiting funding.
    We also urge Congress to approve continued funding for emergency 
programs in those States that have not assumed these programs. Funding 
the OSM emergency program should be a top priority for OSM's 
discretionary spending. This funding has allowed OSM to address the 
unanticipated AML emergencies that inevitably occur each year in States 
without State-administered emergency programs. Without this funding, it 
will be up to the States to address the emergencies that occur. In 
States that have Federally-operated emergency programs, the State AML 
programs are not structured or staffed to move quickly to address these 
dangers and safeguard the coalfield citizens whose lives and property 
are threatened by these unforeseen and often debilitating events. 
Finally, we urge Congress to approve continued funding for the Clean 
Streams Initiative. OSM has chosen to eliminate funding for this 
worthwhile program in fiscal year 2008. We believe this is a mistake. 
Significant environmental restoration of impacted streams and rivers 
has been accomplished pursuant to this program, to say nothing of the 
goodwill that the program has engendered among local communities and 
watershed groups. For the small investment of money that is 
appropriated for this program each year (approximately $3 million), the 
return is huge.
    We also urge the committee to support adequate funding for OSM's 
training program, including moneys for State travel. These programs are 
central to the effective implementation of State regulatory programs as 
they provide necessary training and continuing education for State 
agency personnel. IMCC also urges the committee to support adequate 
funding for TIPS, a program that directly benefits the States by 
providing needed upgrades to computer software and hardware. In this 
regard, we strongly support the proposed amounts for the training 
program and TIPS in OSM's fiscal year 2008 budget. Finally, IMCC 
requests continuing support for the Acid Draining Technology Initiative 
(ADTI), a nationwide technology development program with a guiding 
principle of building consensus among Federal and State regulatory 
agencies, universities and the coal industry to predict and remediate 
acid drainage from active and inactive coal and metal mines. We support 
continued funding for this vital initiative.
    Thank you for the opportunity to present this statement.
                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative
                      introduction and background
    My name is Ervin Carlson, a member of the Blackfeet Nation of 
Montana and President of the InterTribal Bison Cooperative (ITBC). 
Please accept my sincere appreciation for this opportunity to submit 
written testimony to honorable members of the Appropriation 
Subcommittee on Interior, Environment and Related Agencies. ITBC is a 
Native American non-profit organization, headquartered in Rapid City, 
South Dakota, comprised of 56 Federally recognized Indian Tribes within 
an 18 State region. On behalf of these members of ITBC, I would like to 
address the following issues: (1) request an appropriation of $4 
million for fiscal year 2008, to continue bison restoration efforts, to 
continue with ITBC's health care initiative, utilizing bison to treat 
and prevent diet related diseases among Native Americans, to facilitate 
marketing opportunities for ITBC member Tribes, and to continue 
providing technical assistance to ITBC member Tribes; (2) explain to 
the committee ITBC's unmet funding need of $12,344,163, and (3) update 
the committee on ITBC's present initiatives.
    Bison thrived in abundance throughout North America for many 
centuries before they were hunted to near extinction in the 1800's. 
During this period of history, bison were critical to survival of the 
American Indian. Bison provided food, shelter, clothing and essential 
tools for Indian people and insured continuance of their subsistence 
way of life. Naturally, Indian people developed a strong spiritual and 
cultural relationship with the bison that has not diminished with the 
passage of time.
    Numerous Tribes committed to preserving the sacred relationship 
between Indian people and bison informally organized the ITBC as an 
effort to restore bison to Indian lands. ITBC formally organized as a 
corporation in 1992 and began actively restoring bison to Indian lands 
after receiving funding that same year as an initiative of the first 
Bush administration. At its inception, ITBC had an aggregate of 1,500 
bison between seven Tribes. Since 1992, ITBC has been consistently 
funded by Congress and with these funds has successfully restored over 
17,000 bison to Indian Country.
    Restoration of bison to Indian Reservation lands preserves the 
sacred relationship between Indian people and bison. Further, Indian 
lands that have not been productive for mainstream agricultural efforts 
were and still are suitable for bison. Since Indian Tribes have 
maintained a historical reverence and respect for bison, they have 
demonstrated a serious commitment for successful bison herd 
development. With healthy, viable bison herds, opportunities now exist 
for Tribes to utilize bison for treatment and prevention of diet 
related diseases among Native American populations and for tribal 
economic development efforts. A primary focus of ITBC, upon successful 
restoration efforts, is the development of economically sustainable 
bison herds. Further, ITBC actively promotes bison as a healthy food 
source specifically for Native American populations, resulting in 
Tribes utilizing a culturally relevant resource to promote health and 
economic self-sufficiency.
                            funding request
    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2008 that restores funding to the 
previous fiscal year 2006 level of $4 million ($3 million that came 
from congressional actions and $1 million within the BIA's existing 
Fish and Wildlife budget). This amount will allow ITBC to continue with 
restoration efforts as well as insure successful maintenance of current 
Tribal herds. Without a restoration of the previous level of funding, 
ITBC will be unable to assist Tribes with new bison restoration efforts 
or effectively maintain existing herds. Restoration of the $4 million 
funding level will also allow continuation of the successful health 
care initiative to prevent and treat diet related diseases among Native 
American populations, and implement Tribal marketing initiatives that 
will allow Tribes to achieve economically sustainable bison projects.
                    funding shortfall and unmet need
    ITBC has been consistently funded by Congress since formal 
organization in 1992. Initially, ITBC was included in the President's 
budget until fiscal year 2000 when it was written out of the base 
budget. Since 2000, ITBC funding has been restored/appropriated by 
Congress on an annual basis.
    In fiscal year 2006, ITBC was awarded $4 million. In fiscal year 
2007, the Interior Appropriations bill, as reported by the full 
Appropriations Committee, recommended $2.7 million in funding for ITBC. 
However, as this committee is aware, that bill never became law and the 
fiscal year 2007 long term Continuing Resolution did not include much 
direction to the Bureau of Indian Affairs. ITBC was essentially zeroed 
out, but we were able to secure $1 million of base funding for direct 
support to Tribes for on-going tribal herd projects. Thus, in fiscal 
year 2007, ITBC has no Federal funding for the health initiative, 
Tribal marketing efforts, technical services to Tribes, job training, 
or ITBC administration. At the current $1 million level of funding, 
many ITBC member Tribes will not receive funding to begin or continue 
bison restoration efforts. If congressional funding is not available in 
fiscal year 2008, many ITBC member Tribes will be forced to liquidate 
their herds. Congress has invested a significant amount of funding in 
the Tribal bison restoration efforts, over a 15 year period, and to 
discontinue funds before herds reach self-sufficiency would result in a 
loss of invested funds for Congress and for Tribes.
    ITBC, while formally incorporated, is structured as a member 
cooperative and 100 percent of the appropriated funds are expended on 
the development and support of Tribal bison herds and bison product 
business ventures. A significant portion of awarded funds are 
distributed to ITBC member Tribes via a project proposal process 
developed by the consensus of members. Funds are also utilized to 
assist Tribes with technical services such as the development of herd 
management plans, identification of assured markets and the health care 
initiative.
    ITBC surveys member Tribes on an annual basis to determine unmet 
project needs and currently the total unmet need for ITBC member 
projects is approximately $12,400,000. These needs include fencing, 
supplemental feed, equipment, land management plans, veterinary 
services, and herd management staff. Thus, even the $4 million of 
funding for bison restoration we have requested will fall far short of 
the actual needs of member Tribes, but we are trying to be realistic in 
making a budget submission that indicates an understanding of budget 
realities the Interior subcommittees are faced with.
                       itbc goals and initiatives
Restoration Efforts
    ITBC's primary goal is to restore bison to Indian Country in a 
manner that is compatible with the Tribe's cultural and spiritual 
practices. ITBC remains committed to the concept that a restoration of 
bison to Indian lands under the management of Tribes will provide the 
Tribe with cultural, spiritual, economic, and health benefits. ITBC 
member Tribes have varying sizes of herds and varying goals for 
entering into bison herd development. Some Tribes have large land bases 
that allow free-ranging bison herds that may achieve sustainability as 
agricultural efforts. Other Tribes have small land bases that sustain 
small herds but have spiritual and cultural significance for the Tribe. 
Upon achieving restoration of bison to Indian country, ITBC assists 
Tribes with herd maintenance and promotes the goal of eventual self-
sufficient herds, or herds that will generate sufficient income to 
offset costs of maintenance.
Herd Maintenance and Sustainability
    In 1991, only seven Tribes had bison herds on their lands in 
varying herd sizes and the bison provided little economic benefit to 
the Tribal owners. Since then, ITBC has proven extremely successful at 
bison restoration during its relatively short 15-year history. Today, 
with the support and technical assistance of ITBC, 54 Indian Tribes are 
engaged in raising bison or developing plans to raise bison, with 
approximately 17,000 animals currently owned and managed by ITBC member 
Tribes.
    Upon the successful restoration of bison to Indian country, a new 
reservation industry has resulted that positively impacts reservation 
economies. Bison production has created jobs, directly and indirectly, 
related to herd management. As a result, a significant amount of 
revenue derived from bison products is beginning to circulate through 
Indian reservation economies.
    ITBC provides technical assistance and a job training curriculum to 
member Tribes to enter into this new emerging industry. Specifically, 
ITBC has assisted nine (9) member Tribes in the past year with 
developing comprehensive business plans that include Tribal specific 
research, data collection and tribal membership meetings. Additionally, 
ITBC has conducted four (4) herd management training sessions in 
various locations throughout Indian country. ITBC additionally 
routinely assisted member Tribes with herd roundups, on-site bison 
vaccination, ear tagging and disease treatment.
Preventive Health Care Initiative
    ITBC is committed to providing bison meat to Indian reservation 
families both as an economic development effort for Tribal bison 
producers and, more critically, as a healthy food source for Native 
Americans. Current research indicates that the diet of most Indian 
reservation families includes large amounts of high cholesterol, 
processed meats that contribute to diabetes, heart disease and other 
diet related illnesses. The epidemic rate of diabetes among Native 
American populations is well known. Bison meat, a former mainstay of 
the Native American diet, has been identified as a healthy food source 
for the prevention and treatment of diabetes.
    In April 2006, ITBC began implementation of a Health Care 
Initiative that provided bison meat to Tribes that had identified a 
specific population, through coordination with health care 
professionals, which would benefit from bison meat consumption. ITBC 
has since purchased 137,000 pounds of bison meat from member Tribes, 
processed the meat and redistributed it to 54 of the 56 member Tribes 
for health care purposes. In turn, Tribes utilized reservation based 
diabetes programs or the Indian Health Service to identify tribal 
members who would benefit from the bison meat.
    In addition to the purchase and distribution of bison meat to ITBC 
member Tribes, ITBC plans to develop an educational component to the 
health care initiative that will educate Native American families of 
the health benefits of range fed bison meat in their daily diets.
Tribal Bison Marketing Initiative.
    Numerous ITBC Tribes have expressed an interest in seeking assured 
markets for their bison as an economic development effort and to move 
toward raising self-sustaining herds. ITBC intends to provide funding 
to assist Tribes with specific projects to market their bison including 
labeling, packaging, advertising and negotiation of specific contracts 
with purchasers. Additionally, ITBC hopes to provide technical 
assistance in areas of meat processing, cold storage facility 
development, development of distribution systems for bison meat and by-
products. In addition to these goals of assisting individual Tribes, 
ITBC intends to develop an ITBC cooperative brand name with standards 
and labeling guarantees for Native American produced bison.
                               conclusion
    ITBC has demonstrated success over the years by assisting its 
member Tribes in restoring bison to their native lands for cultural 
purposes, to address health needs and for economic development. ITBC 
will continue to provide technical assistance and funding to its member 
Tribes to facilitate the development of sustainable bison herds.
    ITBC and its member Tribes have created a successful new Indian 
reservation industry, tribal bison production, resulting in new money 
for reservation economies. In addition, ITBC continues to implement the 
health care initiative, provide marketing opportunities, and assist 
Tribes with achieving economically self-sufficient bison herds.
    ITBC and its member Tribes are appreciative of past and current 
support from the Congress and the administration. I urge the committee 
to consider a restoration of previous funding at the fiscal year 2006 
level to continue, without interruption, the important and successful 
efforts of bison restoration and the above discussed related benefits.
    I would like to thank this committee for the opportunity to present 
testimony and the members of ITBC invite the honorable members of the 
committee to visit our Tribal bison projects and experience first hand 
our successes.
    Questions and/or comments regarding any of the issues presented 
within this testimony may be directed to Mr. Ervin Carlson, President 
or to Ms. Ivy Allard, Executive Director at (605) 394-9730.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
                                summary
    Mr. Chairman, I am Nolan Colegrove, Sr., President of the 
Intertribal Timber Council. I am a member of the Hoopa Tribe and serve 
as the Hoopa Tribal government's Forest Manager. I am pleased to submit 
the following recommendations for fiscal year 2008 Indian forestry-
related activities in the Bureau of Indian Affairs (BIA) and the Office 
of the Special Trustee (OST):
    (1) In BIA Forestry Projects, restore the $1 million cut from the 
Timber Harvest Initiative,
    (2) In BIA Natural Resources Management, provide $4 million for ESA 
unfunded mandates, including $2.2 million designated for Northern 
Spotted Owl and marbled murrelet surveys,
    (3) In BIA Forestry Projects, increase Forest Development by $5 
million,
    (4) In BIA Natural Resources Management, direct that Integrated 
Resource Information Program funding be retained in the BIA Division of 
Trust,
    (5) Support common cost accounting practices for Wildland Fire in 
Interior and the Forest Service, and
    (6) In OST, restore Land Consolidation at the fiscal year 2007 
$59.5 million level, and direct consolidation priority for acquisition 
of Youpee interests and forest and other high value lands.
                 intertribal timber council background
    The Intertribal Timber Council (ITC) is a 31 year old organization 
of seventy forest owning tribes and Alaska Native organizations that 
collectively possess more than 90 percent of the 18 million acres of 
timberland and woodland that are under BIA trust management. These 
lands provide vitally important habitat, cultural and spiritual sites, 
recreation and subsistence uses, and through commercial forestry, 
income for the tribes and jobs for their members. In Alaska, the 
forests of Native corporations and thousands of individual allotments 
are equally important to their owners. To all our membership, our 
forests and woodlands are essential to our physical, cultural, and 
economic well-being, and their proper management is our foremost 
concern.
(1) In BIA Forestry Projects, Restore the $1 Million Cut From the 
        Timber Harvest Initiative
    For fiscal year 2008, the ITC urges that the subcommittee reject 
the administration's proposed cut of $1 million from the BIA Forestry 
Timber Harvest Initiative and maintain funding at least at the fiscal 
year 2007 level, adjusted for inflationary and salary cost increases. 
The Forestry Timber Harvest Initiative provides additional Forestry 
personnel on reservations where harvest falls short of planned levels 
under forest management plans. Harvesting a tribe's annual allowable 
cut pursuant to its forest management plan is an integral part of the 
trust responsibility of the United States for managing Indian forests. 
The National Indian Forest Resources Management Act requires Indian 
forests to be managed for sustained yield and harvest is vital to 
protect the health of our forests from threats of catastrophic loss 
from insects, disease, and wildfire. Because these Harvest Initiative 
funds are targeted primarily at harvest and build upon existing forest 
program infrastructure, these funds are particularly efficient at 
moving additional timber out of the woods in the BIA's Northwest and 
Pacific Regions. The administration's proposed $1 million reduction to 
the program would affect ten or twelve reservations, would reduce the 
BIA's annual harvest level by about 52 million board feet (about 10 
percent of the total harvest from Indian land nation-wide), and would 
result in a loss of approximately $7.7 million in revenues to tribal 
governments, as well as jobs in logging and processing which are 
important to local communities.
    Indian forest lands remain the most productive of Federal forest 
lands. The Timber Harvest Initiative is a key element in maintaining 
that productivity and supports forest health. Without it, harvest 
levels will fall significantly, hazard fuels will build up, and Federal 
trust responsibility to effectively manage Indian forests for the 
benefit of the tribes will be compromised, tribal revenues will suffer, 
and rural jobs and the communities they support will be further 
strained. The cutting of the $1 million is imprudent, and the funds 
must be restored.
(2) In BIA Natural Resources Management, provide $4 million for ESA 
        unfunded mandates, including $2.2 million designated for 
        Northern Spotted Owl and marbled murrelet surveys
    As part of its trust responsibility to manage Indian forest land, 
the BIA must consult with the USFWS and NOAA Fisheries under the 
Endangered Species Act (ESA). The administration's fiscal year 2008 
request for ESA-related funding covers just two Central Office 
personnel. But the ESA affects many activities that must be carried out 
in the field at the reservation level. In BIA's Pacific Region, for 
example, there are over 290 federally listed species and 102 federally 
recognized Indian tribes, but there are no funds provided for surveys 
or other required ESA field work. To correct this, the ITC requests 
that BIA ESA funding be increased to $4 million. Within the range of 
the NSO and murrelet, ESA funding is needed to harvest timber and 
conduct other forest management activities. At least $2.2 million 
should be designated in BIA ESA funding to support NSO and murrelet 
impact assessments. The balance of the $4 million should be available 
for additional BIA ESA priorities.
    BLM gets slightly more than $.08 an acre for threatened and 
endangered species management on its 262 million acres. At similar 
funding levels, BIA should receive $4 million a year for the 50 million 
acres under its management.
(3) In BIA Forestry Projects, increase Forest Development by $5 million
    In two reports over the past 12 years, independent national reviews 
by blue ribbon groups of forestry professionals have recommended that 
per acre Federal funding for Indian trust forests should be comparable 
to that provided for the USDA Forest Service (USFS).\1\ Both reports 
estimate that an additional $120 million would be required. In 
recognition of the fiscal constraints confronting Congress, we 
recommend that efforts to reduce the funding gap be directed first at 
increasing support for the Forest Development budget in Forestry 
Projects in the Operation of Indian Programs Natural Resources 
Management budget activity. Forest Development funding is a dedicated 
national program. Currently, about one-sixth of the 6 million acres of 
Indian trust commercial forest is in need of either replanting or 
thinning. This backlog must be reduced to improve the productivity of 
Indian forest lands.
---------------------------------------------------------------------------
    \1\ Indian forests receive only about one third of the level 
provided for U.S. Forest Service. (Fiscal year 1991 BIA per acre: 
$4.14, USFS per acre: $11.69. See IFMAT 1 Report, November 1993, Table 
11, page V-4. fiscal year 2005 BIA per acre: $2.83, USFS per acre: 
$9.51. See IFMAT 2 Report, December 2003, Table 2, page 9.)
---------------------------------------------------------------------------
    The BIA's fiscal year 2005 Forest Development budget provided 
treatment on 58,000 acres. For fiscal year 2008, the goal is just 
52,000 acres, a reduction of more than 10 percent over 3 years. In the 
face of a million acre backlog, more acres must be treated, not less. A 
$5 million increase to the fiscal year 2008 request will treat an 
additional 30,000 acres.
    Compared to almost any other Federal forest resource, Indian trust 
forest lands continue to generate significant timber production and 
should be supported. Investing an additional $5 million to start 
reducing the BIA Forest Development backlog will help fulfill the 
Federal trust responsibility by narrowing the funding gap between BIA 
Forestry and the U.S. Forest Service. Nationally, Forest Development 
will increase timber harvest and value, improve forest health by 
reducing the threat of fire, infestation and disease, and, through 
reforestation, contribute to carbon sequestration. An additional 
benefit is that this effort will produce woody biomass to advance the 
Nation's renewable energy initiatives.
(4) In BIA Natural Resources Management, direct that the Integrated 
        Resources Information Program budget be retained in the BIA 
        Division of Trust
    ITC asks the subcommittee to direct that the $1.25 million 
requested by the administration for the Integrated Resources 
Information Program in BIA Natural Resources Management be retained in 
the Division of Trust and that those funds not be transferred to the 
Information Technology budget and the new National Geospatial Resource 
Center in Albuquerque. These funds are essential for the Division of 
Trust to retain personnel who can process and apply GIS and remote 
sensing data for BIA Trust programs--Forestry, Agriculture and Range, 
Water, Minerals. IT personnel at the new National Geospatial Resource 
Center (NGRC) simply do not have that capability, yet for the past few 
years, the Trust Division's Integrated Resource Information Program 
funding has been stripped from the Division of Trust and transferred to 
the NGRC. If those funds continue to be stripped from the Trust 
Division's GIS and remote sensing experts for Forestry and other Trust 
programs and shipped off to the NGRC, the BIA overall is in danger of 
losing its capability of processing and applying modern GIS and remote 
sensing data to trust programs serving tribes.
    While some larger tribes are able to establish their own GIS/remote 
sensing capabilities, the BIA is in danger of losing essential GIS/
remote sensing capacity it needs both to serve tribes without that 
capability and to conduct the BIA's own trust management 
responsibilities. The ability for tribes and BIA programs to receive, 
understand and use modern land management data is critical to the trust 
responsibility, and the new NGRC simply hasn't that capability. 
Assuring that Integrated Resource Information Program funds stay where 
they are budgeted and needed will help address this problem.
(5) Support common cost accounting practices for Wildland Fire in 
        Interior and the Forest Service
    The ITC supports establishment of common and consistent cost 
accounting practices and business principles for fire budget 
administration and tracking by the Department of Interior (DoI) and 
USFS. Standardization will provide more accurate and consistent costs 
for all wildland fire activities and would also allow Congress to 
appropriate fire budgets equitably between all Federal agencies.
    Currently, the USFS funds hotshot crews from Suppression Accounts 
while DoI funds its hotshot crews out of Preparedness accounts. The DoI 
practice distorts and underestimates actual suppression costs while 
placing a severe burden on agency Preparedness budgets, and, as a 
consequence, many DoI agencies are having difficulty attracting, 
training and retaining the next generation of fire fighters.
(6) In OST, restore Land Consolidation to the requested $59.5 million 
        level, and direct consolidation priority for acquisition of 
        Youpee interests and forest and other high value lands
    The ITC urges that funding for the Land Acquisition program be 
restored to the fiscal year 2007 request of $59.5 million. Land 
fractionation is a root cause for many of the Interior Department's 
difficulties and high costs in trust fund and asset administration. 
Fractionation must continue to be aggressively addressed. We disagree 
that funding should be reduced to just $10 million under the 
administration's rationale that a ``pause'' in the program is 
warranted.
    The ITC urges that consolidation focus not only on highly 
fractionated properties, but also on (a) purchase of the so-called 
Youpee interests to avoid the enormous cost of un-doing the previous 
acquisition of highly fractionated interests through escheat; and (b) 
consolidation of high value lands, including forest lands, prior to 
ownership becoming so severely fractionated that productive use of the 
property becomes problematic. Consolidating high value lands can 
generate immediate savings in administrative costs and will enable the 
United States to fulfill its trust obligations to manage the Indian 
trust estate.
    That concludes the ITC fiscal year 2008 testimony. Thank you.
                                 ______
                                 
               Prepared Statement of the Kent Land Trust
    Madam Chairwoman and honorable members of the committee: The Kent 
Land Trust (KLT) appreciates the opportunity to present this testimony 
in support of a $770,000 appropriation to the State of Connecticut from 
the Forest Legacy Program for the second phase of the Skiff Mountain 
project. KLT is a non-profit land conservation organization with a 
mission to preserve the rural character of the Town of Kent, 
Connecticut. Founded in 1989, the KLT owns over 1,000 acres and manages 
another 941 acres under conservation easement.
    Skiff Mountain is our organizations top priority for conservation 
because of its unique ecological and scenic attributes, and the 
recurring threat of development on the mountain. In 2003, the KLT 
purchased over 250 acres of property adjacent to the Appalachian Trail 
that was slated for residential development and is now managing it for 
conservation purposes. We have been encouraging private landowners on 
Skiff Mountain to pursue conservation of their private lands and we are 
very supportive of the current initiative to manage and protect 
hundreds of acres of forested land on Skiff Mountain in perpetuity 
through the Forest Legacy Program.
    Strategically located among already existing conservation lands, 
and immediately adjacent to the Federally protected and world-renowned 
Appalachian National Scenic Trail, the Skiff Mountain assemblage has 
been identified by the State as its top priority for Forest Legacy 
funding this year; this would complete the second and final phase of 
this outstanding conservation effort. This network of forested 
properties, totaling 765 acres, straddles the Kent-Sharon town line in 
Litchfield County, an area under tremendous large-lot development 
pressures. The protection of Skiff Mountain--part of the newly enacted 
Upper Housatonic Valley National Heritage Area--would conserve a large 
tract of unfragmented forest that provides linkages to over 7,000 acres 
of other protected land.
    In fiscal year 2006, Congress appropriated $1.182 million in Forest 
Legacy funding for the protection of the first 473 acres. In order to 
complete the project in fiscal year 2008, $770,000 is needed from the 
Forest Legacy Program to help preserve the remaining 292 acres and keep 
intact this conservation corridor of the Housatonic River Watershed and 
four-State Highlands region. These funds will be matched by local 
funding and land value donation. We hope that you will provide the 
$770,000 to ensure the success of this effort in the fiscal year 2008 
Interior appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    As President of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this testimony, 
which reflects the needs, concerns and issues of the tribal membership 
arising from the President's fiscal year 2008 Budget.
    Congress this year passed a number of new rules aimed at reducing 
``earmarks,'' and there is concern among tribal leaders about how these 
changes might affect tribal programs. We are especially concerned after 
the fiscal year 2007 budget was passed without any earmarks, and 
several critical tribal programs did not receive funding. As you know, 
many tribal programs are funded each year in the Interior budget only 
because Congress recognizes their importance an elects to restore them. 
This is true both for nationwide programs that the Bush administration 
seems intent on eliminating--like the Johnson O' Malley program--and 
for the base budgets of smaller regional programs--such as Circle of 
Flight--that used to be part of the BIA base budget but were 
inexplicably dropped. These programs are not ``earmarks'' of the kind 
Congress and the American people want to see eliminated. They are 
proven, important programs for which stable funding is critical. Many 
of these programs will fold entirely if they lose funding for one year. 
I hope that Congress chooses to exercise its ``power of the purse'' and 
does not simply allow the administration's cuts to go unchallenged in 
the name of earmark reform.
                        bureau of indian affairs
    Education.--We understand that education funding has been increased 
in some areas, but the increases are all targeted at improving BIA 
schools. To balance the increases, the administration proposes to cut 
education programs that benefit students outside of BIA schools, such 
as JOM and higher education scholarships. Because the Band's member 
children attend public schools, this funding forms the core of the 
Band's education program.
    For the second year in a row, the administration has proposed to 
eliminate JOM funding. The JOM program provides funding for 
supplemental education programs for Indian students attending public 
schools, such as academic support programs, counselors or cultural 
education. The administration attempts to justify this by saying that 
the Department of Education provides enough funding for all youth 
attending public school, including Indian children, so JOM funding is 
``duplicative.'' This is not true.
    There are two types of funding available from the Department of 
Education, and neither one ``duplicates'' JOM funding. First, Title I 
grants are provided to schools based on the number of low-income 
students. Those funds may be used either for school-wide improvement 
projects or for targeted programs for children identified as at-risk of 
failing. Title I funds are directed at services for low-income or low-
performing students. These services are important and, like all other 
public school resources, qualifying Indian students would have access 
to them on the same basis as other students. However, these grants do 
not support programs specifically aimed at supporting Indian students. 
The Department of Education provides some funds for Indian students 
under Title VII, but the Department has not increased for Indian 
student programs for several years. If the JOM program were eliminated, 
the net result would be that less money would be available for Indian 
student programs.
    At Lac du Flambeau, JOM money funds a staff counselor position at 
the local high school. Most of our children attend an elementary school 
that is over 90 percent Indian, and transition to a high school in 
which they are a minority. The counselor provides academic support and 
assistance with this transition. Without JOM money, this position would 
be eliminated. The high school provides no comparable services for 
Indian students and has no money available to fund the position if the 
Tribe cannot do so.
  --We urge the subcommittee to restore full funding ($16.3 million) to 
        the JOM program and to reject the proposed $5.3 million cut to 
        higher education scholarships.
    Natural Resources.--Tribes are leaders in natural resource 
protection and this funding is essential to maintain these programs. 
The Tribe has a comprehensive Natural Resource Department and dedicated 
staff with considerable expertise in natural resource and land 
management. Our activities include raising fish for stocking, 
conservation law enforcement, data collection on water and air quality, 
developing well head protection plans, conducting wildlife surveys and 
administering timber stand improvement projects on the 86,000-acre 
Reservation. We support the administration's proposal to fully fund the 
Wildlife and Parks budget, and we thanks the subcommittee for its 
support of this funding in the past. Lac du Flambeau depends on this 
funding to conduct wildlife and fisheries management activities, such 
as to electrofishing and wildlife surveys, and to collect data to 
support the fish and wildlife populations on the Lac du Flambeau 
Reservation. However, we strongly oppose any attempts by the 
administration to further cut back on natural resource funding.
    We are especially concerned about the administration's proposal to 
eliminate the Circle of Flight program. Congress has restored this 
funding when it was targeted in past years, and the Band would like to 
thank the subcommittee for understanding how important this program is 
in restoring and preserving our Nation's wetlands and waterfowl 
populations. The preservation and restoration of wetlands is vital to 
the culture and economy of the Great Lakes region. Moreover, in 
addition to waterfowl habitat and gathering areas, wetlands are 
important in providing flood control, clean water and recreation, 
benefiting residents up and down the Mississippi Flyway. Your strong 
support of this program is required again.
    We also ask the subcommittee to restore funding for Water 
Management, Planning & Development to fiscal year 2006 levels ($7.4 
million). This funding supports tribes in their efforts to establish 
Clean Water Act standards. The Band is now in the process of applying 
for ``Treatment as a State'' status under the Clean Water Act, and this 
funding is essential to us.
  --We strongly urge the subcommittee to restore $600,000 for the 
        Tribal Wetland and Waterfowl Enhancement Initiative (Circle of 
        Flight).
  --We ask the subcommittee to provide $7.4 million for Water 
        Management, Planning & Development.
  --We urge the subcommittee to reject the administration's proposal to 
        cut $1 million from the Forestry program.
    The Band also supports funding for the Great Lakes Indian Fish and 
Wildlife Commission (GLIFWC) in the amount of $4,174,000 to meet the 
needs outlined in the Commission's testimony submitted to this 
subcommittee. The Band is a member of the Commission, which assists the 
Band in protecting and implementing its treaty-guaranteed hunting, 
fishing and gathering rights.
    Pay Cost Shortages.--Under the Indian Self-Determination Act, many 
tribes have assumed responsibility for providing core services to their 
members. If these services were provided by the Federal Government, 
employees would receive pay cost increases mandated by Federal law. 
While tribal governments have assumed this responsibility, Congress and 
Interior have failed to fulfill their obligation to ensure that tribes 
have the same resources to carry out these functions. Tribes received 
only 75 percent of the pay cost adjustment in fiscal year 2002, 15 
percent in fiscal year 2003 and approximately 30 percent in fiscal year 
2004. Funding for the Band's most critical core services, including law 
enforcement, courts, education, natural resource management and social 
services, has eroded significantly in recent years because of the lack 
of appropriate pay cost increases. The requested appropriation would 
cover a 5 percent cost of living adjustment for the Band's program 
employees within TPA, Management and Development and Fish Hatchery 
Operations. This inequity threatens to undermine tribal self-
determination.
  --We urge the subcommittee to restore full Public Law 93-638 pay cost 
        funding for tribes in fiscal year 2008 and to restore pay cost 
        funding not received in fiscal year 2002-2007 through a special 
        appropriation.
  --The Band also requests an appropriation of $70,600 to provide a 5 
        percent cost of living increase for its employees.
    Law Enforcement. Conservation law enforcement officers are a 
significant part of the Tribe's police force. These officers are 
primarily responsible for enforcing hunting and fishing regulations 
related to the exercise of treaty rights, but in reality they have a 
much larger role in law enforcement. They are often first to respond to 
an emergency situations, and would be the first line of defense for any 
meth labs found on or near the Reservation. After overall law 
enforcement funding was cut in fiscal year 2006, the Department of 
Justice limited eligibility for tribal law enforcement grants, 
excluding conservation officers. As a result, our officers are now 100 
percent dependent on tribal funds. We appreciate the BIA's proposal to 
increase law enforcement funds, and we hope that some of this increase 
can go to conservation law enforcement officer fighting meth on 
Reservations like Lac du Flambeau.
  --We ask that the subcommittee direct a portion of the BIA's proposed 
        law enforcement increase to conservation officers.
                    environmental protection agency
    Clean Water Program.--The Clean Water Program provides grants to 
tribes under Section 106 of the Clean Water Act to protect water 
quality and aquatic ecosystems. The Lac du Flambeau Clean Water program 
maintains and improves water quality as development continues for the 
tremendous amount of surface water within the exterior boundaries of 
the Reservation. According to the 2000 Census, the Lac du Flambeau 
Reservation, with 27.09 square miles of water area, includes nearly 
one-half of all of the water area (56.34 square miles) within Wisconsin 
Indian Reservations. The Band's GIS Program indicates that there are 
260 lakes covering 15,600 acres within the Reservation. Additionally 
there are 71 miles of streams, and wetlands cover 24,000 acres. Surface 
waters cover nearly one-half of the Lac du Flambeau Reservation. We 
received $171,000 in fiscal year 2005, the minimum required to support 
the Band's program. In fiscal year 2006, the administration reduced 
this to $150,000. Continued operation of the program requires 
restoration of this $21,000 cut.
  --We request restoration of full funding to the Clean Water Program, 
        including restoration of $171,000 from this fund for the Band's 
        Water Resources Program.
    Indian Environmental General Assistance Program.--We also request 
that the committee increase funding for the Indian Environmental 
General Assistance Program (GAP). GAP funding is the primary Federal 
mechanism available for tribes to protect our lands. These funds, which 
provide support for many of our programs, enable tribes to assume 
environmental responsibilities delegated by EPA. Unfortunately, GAP 
funding has steadily decreased over the past several years. We ask the 
committee to increase GAP funding to at least $68.3 million to enable 
tribes to continue developing environmental management infrastructure. 
We also ask you to clarify that GAP funding can be used for 
development, implementation and continued support of tribal 
environmental programs, not merely ``capacity building.''
  --The Band requests that the subcommittee increase funding for the 
        Indian Environmental General Assistance Program (GAP) to $68.3 
        million.
                         national park service
    Historic Preservation.--In 1995, Congress began encouraging tribes 
to assume historic preservation responsibilities as part of self-
determination. There are currently 64 tribes in the United States--
eight in Wisconsin--approved by the Secretary to administer historic 
preservation programs. These programs conserve fragile places, objects 
and traditions crucial to tribal culture, history and sovereignty.
    As was envisioned by Congress, more tribes qualify for funding 
every year. In fiscal year 2001, there were 27 THPOs with an average 
award of $154,000; in fiscal year 2006 there were 58 THPOs, and Lac du 
Flambeau received $57,374. Paradoxically, the more successful the 
program becomes overall, the less each tribe receives to maintain 
professional services, ultimately crippling the programs. The requested 
appropriation would provide a modest base funding amount of $180,000 
per THPO program.
  --The Band requests that $10.4 million be allocated within the 
        Historic Preservation Fund for Tribal Historic Preservation 
        Officers (THPOs).
                         indian health service
    Contract Health.--Federal funding for health services has fallen 
dramatically behind the rising cost of health care over the past 5 
years. In fiscal year 2000, The Band's shortfall for health care was 
$1.2 million. We anticipate the fiscal year 2008 shortfall to be in 
excess of $3 million. This deficit has increased 27 percent annually. 
Despite rising costs, the administration proposes an increase of only 
$49 million for contract health service. A much more substantial 
increase is needed to address the need across Indian county.
  --We urge the subcommittee to significantly increase funding for 
        Contract Health Services.
    Service Expansion.--In order to offer expanded dental services to 
tribal members, the Tribe is now working to open our doors to Medical 
Assistance patients for dental services in the surrounding four-county 
area. Financial support ($600,000) is needed for new equipment. We also 
request $200,000 funding to increase availability of on-site optical 
services in connection with our new clinic, scheduled to be opened in 
June of 2008. All optical services for tribal members are now 
contracted to outside vendors.
                               conclusion
    We come before the committee as we have in past years to underscore 
the importance of these tribal programs and great need at Lac du 
Flambeau and across Indian country. We would also like to thank the 
subcommittee for your past support, especially for your support of the 
Lac du Flambeau Boarding School Project. With help from this 
subcommittee, our efforts to restore the old BIA boarding school and 
create a cultural and educational center are well underway, and we have 
raised additional funds from several outside sources to help with the 
project.
                                 ______
                                 
           Prepared Statement of the Mason Township Residents
    Madam Chairwoman and honorable members of the committee: I 
appreciate the opportunity to provide testimony on behalf of a request 
for a $550,000 Land and Water Conservation Fund appropriation in fiscal 
year 2008 to permit the U.S. Forest Service to acquire the 664-acre 
Haystack Notch property in the White Mountain National Forest in Maine.
    I would also like to commend the chairman and other subcommittee 
members for your support for Federal land acquisition and urge you to 
increase funding for the Land and Water Conservation Fund, which is so 
vital to protecting critical resource and recreation lands nationwide.
    The citizens and landowners of Mason Township wish to support this 
acquisition to the White Mountain National Forest. Over the last 2 
years, we have collaborated with conservation groups to protect the 
Haystack Notch Property. As new comers and 4th generation residents 
alike, we value the remote and aesthetic qualities of the National 
Forest and surroundings. Many of us have fond memories of trout 
fishing, hunting and hiking adventures. We wish for future generations 
to have the same opportunity. We believe the uniqueness of our rural 
township, characterized by the rugged mountains, is best suited for 
Federal ownership and conservation. Preserving acreage for public 
access is paramount to secure recreational opportunities, which in 
turn, support our local economy. The White Mountain National Forest 
will ensure the aquatic and terrestrial habitats are managed and 
protected in an exemplary fashion.
    With 770,000 acres of endless great granite stretching from New 
Hampshire to Maine and located just over an hour and a half drive north 
of Boston, the White Mountain National Forest is one of the most 
popular recreation areas in the highly developed Northeastern area of 
the United States. The forest contains the majestic Presidential Range, 
which includes Mt. Washington, one of the highest and most visited 
mountains in the United States. In addition, the heavily traveled 
Appalachian Trial runs throughout the forest. Moose, black bear, bald 
eagles and American peregrine falcons find home in the White Mountains, 
and a thorough network of trails provides easy access to the forest for 
the 6.5 million campers, hikers, hunters, fishermen, swimmers, boaters, 
skiers and other outdoor enthusiasts who annually visit the forest. 
Over 184 species of birds find habitat in the forest and numerous 
aquatic species such as the Eastern Brook trout and Atlantic salmon are 
found in the many pristine rivers that run throughout the forest. A 
small portion of the WMNF is located in Maine and includes the Caribou-
Speckled Mountain Wilderness Area, designated by Congress in 1990 and 
covering 12,000 acres of public land on the WMNF. It is the largest and 
one of only two Wilderness areas in Maine, located south of Route 2 
near the small town of Gilead.
    Immediately adjacent to the Caribou-Speckled Mountain Wilderness 
Area and surrounded on three sides by U.S. Forest Service ownership is 
the 664-acre Haystack Notch property available for acquisition in 
fiscal year 2008 that will provide significant public access into the 
wilderness area. The property is located in Mason Township in western 
Maine, where recently a large amount of timber company lands are being 
disposed of and turned over to development and subdivision. The local 
public desires that opportunities continue for traditional uses such as 
hiking, sightseeing, fishing, hunting, trapping and snowmobiling. In 
particular, the Miles Notch and Haystack Notch trailheads are located 
on this property and link to other trails, including the Red Rock and 
Great Brook trails, which also pass through the Caribou-Speckled 
Wilderness. From a recreational perspective, this acquisition would 
solidify access to these trails, trailheads, and this part of the 
wilderness and these opportunities could be lost if the tract is sold 
to another private entity and the property is subdivided.
    This property also provides important wildlife values and has 
natural wetlands and two key perennial streams, the West Branch of the 
Pleasant River and Miles Brook, which are tributaries of the 
Androscoggin River, along with several intermittent streams. The WMNF 
recently evaluated the West Branch of the Pleasant River and found it 
to be eligible for Wild and Scenic designation. Lower reaches of the 
West Branch are believed to have important habitat for the wood turtle, 
a Regional Forester's Sensitive Species. The river also offers 
significant fishing opportunities as it contains runs of wild rainbow 
trout and brook trout. Purchase of the property will provide additional 
protection for the watershed and the fisheries and aquatic species 
dependent on high water quality.
    The White Mountain National Forest is one of most intensively used 
national forests in the country and is within a day's drive of over 70 
million people. If this land is not acquired and protected by the U.S. 
Forest Service, it is likely that it will be developed and subdivided 
soon. Thus, the recreation, watershed, wildlife and fisheries, and 
vegetation management values would be foregone. The acquisition has 
support from the community in and around the town of Mason.
    An appropriation of $550,000 in fiscal year 2008 from the Land and 
Water Conservation Fund is needed to ensure the addition of this 
critical public access property to the forest.
    Thank you, Madame Chairwoman, for this opportunity to provide 
testimony.
                                 ______
                                 
       Prepared Statement of the Middlesboro Intermediate School
    Madame Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of a 
$1.9 million appropriation from the Land and Water Conservation Fund to 
allow the National Park Service to acquire the final 1,922 acres of the 
Fern Lake Watershed property within the Cumberland Gap National 
Historical Park in Kentucky.
    I am a fourth grade social studies teacher at Middlesboro 
Intermediate School in Middlesboro, Kentucky. As part of our fourth 
grade curriculum my students study local and State history, including 
the importance of National Parks and how they help preserve our 
environment and our past. We are fortunate to be located within five 
blocks of the Cumberland Gap National Historical Park. As a school, we 
visit the park often to gain insight into nature, pioneer life and 
Westward Expansion. The park is often used to enhance our study of 
social studies. When we found out that the park was attempting to 
acquire additional land for the park we wanted to offer our support. 
Immediately my students expressed a desire to assist with the effort to 
protect this natural resource that is vital to our community. The fact 
that the new property included Fern Lake, our only water source for the 
city of Middlesboro, strengthened our commitment to this project. The 
results of their efforts were letters they produced and sent to our 
elected officials. This opportunity has allowed us to be active 
citizens and support our community in protecting a priceless natural 
resource and national treasure. We are very grateful to Senator Mitch 
McConnell and Congressman Hal Rogers for their leadership on this 
project, and we strongly support their efforts to secure additional 
funding for Cumberland Gap so that we can protect this tremendous 
natural resource that we benefit from in so many ways.
    Cumberland Gap National Historical Park stretches for 20 miles 
along Cumberland Mountain and contains 20,000 acres of historical, 
cultural, and natural resources. Located where the State borders of 
Tennessee, Kentucky, and Virginia meet, this significant break in the 
Appalachian Mountain chain provided the first transmountain opening to 
the Mississippi Valley frontier. For thousands of years, large game 
animals moved through the Gap in their migratory journeys and created 
well-defined traces. Native Americans followed these trails and in the 
17th century established Warrior's Path, which looped southward through 
the Cumberland Gap and connected the Ohio Valley with the Shenandoah 
and the Potomac. These rich hunting lands became known to a handful of 
European settlers and in 1775, Daniel Boone was commissioned to blaze a 
road through the Gap.
    Boone's Trace evolved into Wilderness Road and marked his place in 
history as a frontiersman and pioneer. Immigration through the Gap 
began immediately, and during the Revolution, Boone and other settler's 
secured claim to western lands for the young Nation. From 1775 to 1810, 
between 200,000 and 300,000 men, women, children crossed the Gap into 
Kentucky, which concomitantly became the Union's 15 State. Cumberland 
Gap, the ``door to the West,'' funneled more than a third of a million 
people from the East to the new lands of the interior.
    In addition to its rich history, Cumberland Gap possesses the 
natural beauty of Appalachian mountain country and supports diverse 
animal life, including black bear, fox, and wild turkey. The park's 
resources provide habitat for the endangered Indiana bat and the 
threatened blackside dace, a small fish found solely in this area. In 
autumn, hawk migration takes place and as many as 50 to 100 hawks and 
other birds of prey can be seen lifting off at the Gap on their way to 
the Gulf States. Lush with vegetation, the Gap also hosts 59 state-
listed rare plant species. Further, with 50 miles of hiking trails, 
visitors can experience spectacular views and trace the footsteps of 
early settlers.
    In 2003, Congress approved the Fern Lake Conservation and 
Recreation Act. The legislation's goal was to protect Fern Lake and its 
surrounding watershed lands in order to ensure the drinking water 
supply for the City of Middlesboro, Kentucky. Among other actions, the 
act authorized the acquisition of Fern Lake watershed lands and 
expanded the Cumberland Gap NHP boundary to incorporate the lake and 
the watershed.
    This year, an opportunity exists to implement the goals of the act 
and take a critical step towards permanent protection of the Fern Lake 
watershed by acquiring the bulk of the watershed area. Available for 
acquisition in fiscal year 2008 is the final 1,922-acre parcel of the 
Fern Lake watershed property acquisition, encompassing all of the 
ridgelines that surround Fern Lake and containing numerous streams that 
flow directly into the lake, including over two miles of river frontage 
along both sides of Little Yellow Creek. This acquisition would also 
protect the vista from Pinnacle Overlook, one of the park's most 
valuable scenic resources and popular attractions, and enhance 
recreational opportunities at the park. This funding would augment 
previous LWCF appropriations for the project, including $1 million in 
fiscal year 2005 and $900,000 in fiscal year 2007. Full funding in 
fiscal year 2008 will result in the completion of this important 
project and the protection of the entire 3,795-acre Fern Lake Watershed 
property.
    I thank you, Madame Chairwoman, for the opportunity to submit this 
testimony and I respectfully request that the subcommittee provide an 
appropriation of $1.9 million from the Land and Water Conservation Fund 
account to complete this important acquisition at Cumberland Gap 
National Historic Park.
                                 ______
                                 
             Prepared Statement of the Montana Water Trust
    The Montana Water Trust is respectfully requesting that the Senate 
Interior, Environment and Appropriations Subcommittee to increase 
funding for endangered species conservation, especially incentive-based 
ESA conservation programs such as the Landowner Incentive Program (LIP) 
and the Private Stewardship Grants Program (PSGP). The Federal Budget 
for fiscal year 2008 submitted to Congress by the Bush administration 
allocated no funding for either the LIP or PSGP (fiscal year 2006 
funding was $6.9 million for PSG and $19 million for LIP). We strongly 
urge the subcommittee to increase funding in fiscal year 2008 for both 
the LIP and PSPG conservation programs to aid landowners in voluntary 
recovery efforts for ESA-listed species.
    The LIP and PSGP allow private landowners to voluntarily protect 
critical habitat, which aids in the recovery and protection of 
endangered and threatened species. In Montana, these voluntary, 
incentive-based conservation efforts on private lands are essential for 
providing connectivity for fish, wildlife, and our celebrated natural 
resources. The PSGP and LIP programs have successfully contributed to 
enhancing the economic and ecologic health of Montana's last best 
places, such as the Rocky Mountain Front and the Big Hole River.
funding from programs like the lip and psgp help montana ranchers keep 
                     fish wet and watersheds whole
    The Montana Water Trust applied to the USFWS Private Stewardship 
Grant Program in 2007 for cost-share of our project: Streamflow 
Restoration in the Clark Fork Watershed. We currently manage 20 
instream flow agreements in six of Montana's watersheds, restoring over 
45 million gallons of water each day to streams important for fish, 
wildlife, and recreation. We recognize that water is not only vital for 
fish and wildlife, but is also essential to the success of agricultural 
communities. That's why we use a variety of incentive-based agreements 
that benefit landowners, streamflows and communities.
    The Montana Water Trust requested that the PSGP provide $40,000 of 
the total project cost of $288,250. This project will restore and 
protect streamflows in dewatered tributaries important for spawning and 
migration of:
  --bull trout (``threatened'' under the ESA)
  --westslope cutthroat trout (a listing candidate for the ESA, a 
        ``sensitive'' species with BLM and USFS, and a Montana 
        ``species of concern'')
    The PSG grant will allow the Water Trust to sign long-term 
contracts with willing landowners that transfer senior water rights 
from consumptive (irrigation) use to instream flow. If funded, our PSG 
project will keep fish wet and streams flowing in the following 
prioritized tributaries:
  --Middle Clark Fork Basin: Ninemile Creek;
  --Bitterroot Basin: Lolo Creek;
  --Blackfoot Basin: Keep Cool Creek and Stonewall Creek; and
  --Flathead Basin: Dayton Creek and Ronan Creek.
    Water is the backbone of a healthy, wild landscape. Yet over 4,000 
miles of Montana's streams and rivers are ``chronically or periodically 
dewatered,'' according to Montana Fish Wildlife and Parks. Dewatering 
refers to a reduction in streamflow beyond the point where habitat is 
adequate for fish. Since over 90 percent of surface water is diverted 
for irrigation, MWT partners with willing landowners to transfer water 
rights to instream flow. We focus on re-watering small tributaries, 
during the hottest, driest months of the year, which coincides with the 
time most irrigators are diverting water from streams.
voluntary endangered species conservation programs, like the psg, allow 
 the montana water trust to partner with private landowners to protect 
     and restore imperiled stream habitat using a win-win approach
    Please consider increasing funding for ESA core and conservation 
programs, especially the PSG and LIP, to allow private landowners the 
chance to engage in voluntary habitat protection. These programs have 
provided funding for many excellent cooperative conservation projects 
in the past. We sincerely hope the subcommittee will create future 
opportunities for Montanans and all American landowners to protect our 
Nation's land, water, and wildlife resources. Thank you for your time.
                                 ______
                                 
    Prepared Statement of the Mother Lode Chapter of the Sierra Club
    The Mother Lode Chapter of the Sierra Club supports an 
appropriation of $2.5 million from the Land and Water Conservation Fund 
to the U.S. Forest Service to purchase lands along the Middle Fork 
American River and the Middle Yuba River in Tahoe and Eldorado National 
Forests, California.
    The Chapter also urges the subcommittee to recommend total 
appropriations from the Land and Water Conservation Fund much larger 
than the miniscule appropriations in the President's budget. Increased 
appropriations are urgently needed to reduce the enormous nationwide 
backlog of critical private inholdings that should be acquired.
    Land grants to the Central Pacific Railroad created an irrational 
square-mile checkerboard pattern of public and private lands around the 
railroad's route across the Sierra Nevada. The checkerboard pattern of 
ownership makes efficient and effective management of public lands in 
the checkerboard to enhance forests, water quality, wildlife habitat, 
and recreation impossible. There are numerous areas in the checkerboard 
with exceptional wildlife, recreation, and scenic values. Consolidation 
of public ownership in these exceptional areas will prevent degradation 
of their values by development on the intervening private lands.
    Consolidation of public ownership in the checkerboard areas with 
exceptional values has been a high priority of the Mother Lode Chapter 
for decades.
    Thanks to the foresight of past Congresses, thousands of acres of 
private land in checkerboard areas with exceptional values--the Castle 
Peak area and the North Fork American Wild River--have been acquired by 
LWCF appropriations. The Chapter urges you to build on these 
achievements by recommending the requested appropriations for fiscal 
year 2008.
    Checkerboard parcels along the Middle Fork American River and the 
Middle Yuba River are available for acquisition in fiscal year 2008.
                       middle fork american river
    The Middle Fork American parcels, with a total area of about 2000 
acres, are located along the river's 25 miles of deep, very rugged, 
remote, and highly scenic canyon between the French Meadows and Oxbow 
Reservoirs of the Placer County Water Agency (PCWA).
    Most of the canyon is in relatively unspoiled condition because it 
is so rugged and remote. The pure waters of the Middle Fork American 
River are a major source of high quality water for the rapidly 
expanding Sacramento metropolitan area and support an excellent trout 
fishery maintained by natural reproduction. The canyon provides 
opportunities for high quality hiking, hunting, camping, swimming, rock 
climbing, and wildlife observation to the Sacramento and San Francisco 
metropolitan areas.
    Since the river is the boundary between Tahoe and Eldorado National 
Forests, the parcels available for acquisition lie in both national 
forests. The Forests manage the public lands along the Middle Fork to 
maintain old forest habitat, protect the canyon's unique biological and 
water quality values, and provide recreation. Inconsistent management 
of the public and private lands in the canyon could significantly 
degrade the canyon and the Middle Fork's excellent water quality. 
Consolidation of public ownership in the canyon would promote 
protection of the Middle Fork's forests, riparian ecosystem, and water 
quality.
                           middle yuba river
    Four parcels in Tahoe National Forest, with an area of nearly 1,000 
acres, are available in fiscal year 2008 in the vicinity of the Middle 
Yuba River in Sierra and Nevada Counties. According to Forest Service 
biologists, there have been bald eagle sightings near these parcels, 
and the area has historically served as spotted owl territory. The 
proposed acquisitions include parcels along and adjacent to the Middle 
Yuba River in the first 4 miles downstream from Milton Reservoir. 
Acquisition of these parcels would help protect the riparian corridor 
and ensure public access to almost all of this stretch, which is 
recognized as a good to excellent trout stream. Acquisition of a 640-
acre parcel in the Milton Creek watershed north of the Middle Yuba 
would protect a segment of the Pacific Crest Trail and views from the 
trail, riparian habitat along Milton Creek, and forest lands in the 
Milton Creek watershed.
                                 ______
                                 
      Prepared Statement of the Mountains to Sound Greenway Trust
    Madam Chairwoman and honorable members of the committee: Thank you 
for this opportunity to testify in support of a fiscal year 2008 Land 
and Water Conservation Fund appropriation that will make possible a big 
leap forward in protecting a valuable wildlife ecosystem and recreation 
area in Washington's Central Cascades. This appropriation will permit 
the U.S. Forest Service to acquire three critical properties with 
multiple public benefits and further consolidate land-protection 
investments already made in this region. These properties include three 
full sections of forestland in the Mt. Baker-Snoqualmie and Wenatchee 
National Forests at Dandy Pass, Big Creek, and Jim Creek.
    I would also like to take this opportunity to thank the Chairwoman 
and subcommittee members for their leadership in supporting ample 
funding for the Land and Water Conservation Fund account, which 
provides critical Federal support for projects of importance to 
communities across the Nation.
    My name is Nancy Keith, I am the executive director of the 
Mountains To Sound Greenway Trust, located in Seattle, Washington. The 
Greenway is a broad landscape corridor that stretches along 100 miles 
of Interstate 90 in Washington State from the waterfront in Seattle and 
through the Central Cascades to the edge of desert grasslands in 
Central Washington. The Greenway includes hundreds of outdoor 
recreation trails, parks and campgrounds, spectacular alpine scenery, 
critical high country wildlife habitat, historic towns, lakes, rivers 
and over 700,000 acres of publicly-owned working farms and forests, 
just outside the Seattle Metropolitan Area.
    The Greenway Trust is an award-winning, non-profit coalition that 
has brought business, government and citizen interest groups together 
to protect this connected green corridor. Through the Trust's work, 
today, most of the landscape not already developed along I-90 is 
protected in public ownership as the Mountains to Sound Greenway. 
Because the Greenway provides a wide array of public benefits, from 
habitat, recreation and cultural and environmental values, it is a 
Federally-designated National Scenic Byway.
    By uniting hikers, corporate executives, government leaders, 
environmentalists and community advocates around shared conservation 
and quality of life goals, the Trust has built a strong program to 
encourage public land acquisition along I-90 and support environmental 
stewardship and educational activities. We provided a visible example 
of the way cooperation among diverse interests can combine careful 
planning for growth balanced with preservation of forested open spaces, 
and clean air and water, for ourselves and for future generations.
    The proposed acquisitions in the Greenway are all within the 
boundaries of the Mt. Baker-Snoqualmie and Wenatchee national forests, 
which share a common border that runs north and south along the crest 
of the Cascade Mountains. The Pacific Crest Trail that runs from Mexico 
to Canada, traverses this area between these two national forests and 
near the lands we recommend to you for Land and Water funding.
    Public acquisition of these lands will bring significant benefits. 
Most importantly, these acquisitions will continue a decades-long 
effort by both public and private foresters to consolidate fragmented 
ownerships and eliminate the checkerboard pattern left on this 
landscape by railroad land grants that are almost a century old. The 
original railroad through the Cascades was built by the Northern 
Pacific Railway, which received land grants from the Federal Government 
in alternating square miles along the route.
    This ownership pattern creates problems for both private and 
Federal land managers as they work to protect wildlife habitat, water 
quality and recreation and manage efficient, productive forestry. 
Fragmented forestlands present difficulties for both public and private 
forest managers with respect to fire suppression, containment and 
eradication of invasive species, limits on public access, and 
protection of watersheds.
    Without protection, further fragmentation is likely. The rising 
cost of housing in King County and the increasing traffic congestion 
caused by a growing population makes the Cascades attractive for those 
seeking less expensive first homes and more extravagant second homes, 
exacerbating the challenges presented by checkerboard ownership.
    Acquisition of parcels in this area is part of an ongoing program 
of consolidating lands in the central Cascades has long been a Forest 
Service priority. Forest land and Resource management plans for both 
the Mount Baker-Snoqualmie and the Wenatchee national forests address 
the need for significant land acquisition for recreation and ecosystem 
protection. This program seeks to consolidate Federal land management 
and prevent future fragmentation due to subdivision and other 
development. Major land exchanges and previous investments of Land and 
Water Funds have demonstrated the necessity and broad support for 
consolidating public ownership in this region.
    The 640-acre Dandy Pass property lies predominantly in the Mt. 
Baker Snoqualmie NF, just south of the Pacific Crest Trail (PCT). Two 
tributaries of the Green River flow through the area, East Creek to the 
north and Sunday Creek to the south. The property, which is vegetated 
with second-growth forest, is available at its appraised price of 
$725,500 and will complement the 2006 acquisition of two other Dandy 
Pass parcels, further consolidating public lands in the area and 
providing additional protection for the landscape visible from the PCT.
    The Big Creek and Jim Creek parcels are further south and east of 
the Pacific Crest Trail in the Wenatchee NF. The Big Creek and Jim 
Creek parcels are named for the Yakima River tributaries, which flow 
respectively through each parcel. These properties are not yet 
appraised, but a total fiscal year 2008 LWCF appropriation of $3 
million from the Land and Water Conservation Fund should permit Forest 
Service acquisition and protection of all of these critical properties 
in the Central Cascade Ecosystems.
    By way of background, the Mount Baker Snoqualmie and Wenatchee 
national forests are part of the majestic forests of Washington's 
Central Cascades. The Central Cascade Ecosystems project area is 
located amid several key landscapes. To the north lie the Alpine Lakes, 
Glacier Peak, and Pasayten Wilderness areas, providing connectivity as 
far as Canada. To the south lie the Norse Peak, William O. Douglas, and 
Goat Rocks Wilderness areas, which connect to Mount Rainier National 
Park and on down to the Oregon Cascade Range. The snowpack in these 
mountains is critical to water supplies for Puget Sound metropolitan 
areas and Central Washington agriculture.
    The Mt. Baker-Snoqualmie National Forest extends more than 140 
miles along the western slopes of the Cascade Mountains from the 
Canadian border to Mt Rainier National Park. The forest is rich in 
diversity with glacier-covered peaks, volcanoes, old-growth stands of 
timber, wild and scenic rivers, wilderness, and a multitude of plant, 
animal, and fish species.
    The Wenatchee, situated in the heart of Washington State, 
encompasses 8,000-foot volcanic peaks of basalt, pumice, and ash. These 
mountains simultaneously shelter secluded alpine lakes and glacier 
cirques that resemble giant cathedrals of granite and ice. Its shrub-
steppe habitat bridges the lush ecosystem of Puget Sound with the 
rugged high desert of eastern Washington. Sagebrush at lower elevations 
surrenders to pine-covered slopes and eventually to the sparse 
vegetation atop the Cascade's volcanic summits. The Yakima, Chinook, 
and Wenatchee Indians inhabited the forest before they were forced off 
the land by the gold rush of the 1880s and 1890s.
    Because of the checkerboard pattern in the Central Cascades and the 
relatively limited amount of protected land, this region has acted as a 
bottleneck for migratory wildlife. A number of threatened or endangered 
species inhabit the area, including grizzly bear, wolf, spotted owls, 
marbled murrelets, steelhead, wild salmon, and bull trout. 
Additionally, the area provides habitat for an abundance of other 
wildlife--elk, deer, cougar, coyote, bobcat, and an occasional moose. 
The high wildlife connectivity value of this landscape has been 
recognized by new Department of Transportation plans that will make 
major, innovative investments to improve wildlife passage as Interstate 
90 is expanded in the next decade.
    Because a healthy and accessible ecosystem in the Central Cascades 
provides such a wide range of benefits that should be protected under 
public ownership and because private landowners here are willing 
sellers, we believe these parcels are ideal properties for purchase 
with Land and Water Conservation Funds.
    Madame Chairwoman, we appreciate your long-standing leadership in 
supporting Federal acquisition and protection efforts for Washington's 
Central Cascades. Thank you for this opportunity to provide testimony.
                                 ______
                                 
     Prepared Statement of the National Alternative Fuels Training 
                               Consortium
    Chairman Feinstein and Members of the Interior, Environment and 
Related Agencies Subcommittee on Appropriations: I am Al Ebron, 
executive director of the National Alternative Fuels Training 
Consortium (NAFTC). With this written testimony, the NAFTC requests 
funding of $2.5 million for fiscal year 2008 to carry out the important 
work of this organization to improve air quality and decrease U.S. 
dependence on foreign oil. The NAFTC was recommended for funding in the 
Senate Report (S. Rept. 109-275) of H.R. 5386, the fiscal year 2007 
Department of Interior, Environment and Related Agencies Appropriations 
Bill for the U.S. Environmental Protection Agency in the Science and 
Technology Account for $2 million under Programs of National or 
Regional Significance.
    The NAFTC, headquartered at West Virginia University, is a 
consortium currently consisting of 29 academic institutions known as 
National Training Centers, or NTCs, located in 26 States (listed in the 
attached table). The NAFTC is the only nation-wide organization that 
develops curricula, provides training and conducts education and 
awareness events for technicians, fleet managers, local & State 
government officials, industry representatives, and many other current 
decision makers as well as our future decision makers such as high 
school teachers and students. Alternative fuel vehicles (AFVs) and 
advanced technology vehicles are viable alternatives to current 
gasoline and diesel vehicles and play a vital role in our Nation's 
quest for cleaner air and energy independence.
    The NAFTC has recently been called upon to provide First Responders 
(firemen, police officers, EMTs and others) with training to handle 
accidents and extrications involving alternative fuel and advanced 
technology vehicles. This has become a national safety and training 
concern for most First Responders. The NAFTC is beginning to develop 
and provide this training and is the only national organization poised 
to provide these services in a comprehensive nationwide manner. There 
is a huge need to expand the NAFTC to provide these services (and 
existing services), not reduce its role.
    The NAFTC's work with consumers who need to understand the growing 
mix of alternative fuel and advanced technology vehicles is another 
critical mission for the NAFTC. Rising gasoline prices, energy 
independence, additional AFVs on the road, climate change concerns and 
many newer fuels coming online have all contributed to the increased 
need for the NAFTC. The NAFTC's efforts are directly aligned with 
President Bush's goal ``to reduce gasoline usage in the United States 
by 20 percent in the next 10 years'' as stated in his State of the 
Union Address, January 23, 2007 and again during the Alternative Fuel 
Vehicle Demonstration at the White House on February 23, 2007. This is 
also a truly bipartisan issue in Congress with many congressional 
members supporting this issue and the NAFTC's efforts.
    In the transportation sector, important options include alternative 
fuel vehicles (AFVs) and advanced technology vehicles. According to the 
Energy Information Administration, 20 percent of the vehicles sold over 
the next 20 years will be AFVs and advanced technology vehicles, such 
as hybrid vehicles. Traditional AFVs increased dramatically in the 
1990s. With more hybrid models being offered by automobile 
manufacturers, thousands of hybrids are now being sold each year.
    As the number of AFVs/advanced technology vehicles increase in the 
United States, the need for trained AFV/advanced technology vehicle 
technicians and other industry representatives will increase. AFV/
advanced technology vehicle trained technicians have greater job 
opportunities with the promise of higher salaries. The NAFTC has been a 
catalyst in providing the curricula and training to support this need.
    The NAFTC has developed the Alternative Fuel Vehicle (AFV)/Advanced 
Technology Vehicle training to support the President's and Congress' 
initiatives on Hybrid, Fuel Cell, Biodiesel, Ethanol, Electric and CNG 
vehicles as the means to ensure a clean and affordable diversity of 
fuels for our future energy supply, as well as other alternative fuels 
and vehicles. Our training and education activities help train and 
inform Americans on how to reduce our addiction to oil. Trained 
technicians will ensure the continued use of these vehicles rather than 
shunting them aside when service or repairs are needed.
    The training conducted by the NAFTC and its National Training 
Centers is directly impacting the shortage of trained technicians to 
maintain this country's vehicles. Therefore, the NAFTC training 
programs provide workforce development opportunities in the regional 
areas of the member National Training Centers. Many in the automotive 
industry predict a shortage of between 250,000 and 300,000 technicians 
over the next 10 years.
    The NAFTC is making a difference. Since its inception in 1992, the 
NAFTC has developed over 20 major curricula and workshops, delivered 
over 775 courses, training almost 8,000 technicians. The NAFTC has 
conducted over 900 education and awareness events with over 200,000 
attendees. The NAFTC, and its NTCs, has nearly a 100 percent placement 
rate of its graduates due to the demand for technicians being greater 
than what they can provide.
    During the NAFTC's third National AFV Day Odyssey nationwide event 
conducted on October 12, 2006, the NAFTC reached nearly 40,000 people 
directly at 60 sites in 34 States and 3 international sites in Canada 
and Germany. Odyssey 2006 reached over 30 million people through media 
coverage at all of the events. Odyssey is the largest AFV event in the 
country to build awareness and promote the use of AFVs and advanced 
technology vehicles so that we may reduce our dependence on foreign 
oil, increase our energy security and help protect our environment.
    In the next year, the NAFTC plans to:
    a. Continue to conduct training on AFVs and advanced technology 
vehicles across the country. Additional educational institutions will 
be added to the Consortium to increase access for technicians, and 
others, to NAFTC training.
    b. Continue to develop training for hybrid vehicles highlighting 
the changes in hybrid technology and providing technicians and others 
information on the new vehicles available.
    c. Continue to develop First Responders Safety Training Course(s) 
and Workshop(s). Coordinate with Homeland Security, Fire and Rescue 
Organizations, Police Departments and other organizations for 
dissemination of this vitally important training.
    The funding for fiscal year 2008 will be used to:
    a. Continue to build the program's success, conducting AFV and 
advanced technology vehicle training across the United States. 
Additional NTCs will be added to the Consortium.
    b. Develop new curricula and revise existing curricula in support 
of AFV and advanced technology vehicle needs. For example, heavy-duty 
hybrid vehicles are being introduced into cities. Training for these 
vehicles needs to be developed for the large group of municipal fleet 
technicians.
    c. Conduct the fourth biennial National AFV Day Odyssey in 2008. 
Preparations will build upon past events. Continued consumer education 
and awareness of AFVs and advanced technology vehicles is needed to 
ensure the continued use of these technologies in improving air quality 
and decreasing U.S. dependence on foreign oil and increasing our energy 
security.
    Next year, these funds will support between 35 and 45 schools, as 
new schools continue to join the NAFTC. The NAFTC's activities are at 
the forefront of helping to improve air quality and decrease U.S. 
dependence on foreign oil. The NAFTC is a strong organization that has 
developed and can provide the training, education and awareness about 
AFVs and advanced technology vehicles to the general public, those who 
work on these vehicles, those who purchase these vehicles, and those 
First Responders who are exposed to these vehicles during critical 
situations. This program should be allowed to continue and flourish so 
the efforts of the past are maximized.
    The NAFTC and all of its current and future members respectfully 
ask that you support a continued appropriation of $2.5 million in the 
fiscal year 2008 Interior, Environment and Related Agencies 
Appropriations bill, U.S. Environmental Protection Agency, Science and 
Technology Account.
    Thank You.

                    CURRENT NATIONAL TRAINING CENTERS
------------------------------------------------------------------------
                                     Edducational
             State                    Institution             City
------------------------------------------------------------------------
Arizona.......................  Gateway Community       Phoenix
                                 College.
California....................  Rio Hondo College.....  Whittier
Connecticut...................  Gateway Community       North Haven
                                 College.
Florida.......................  Traviss Career Center.  Lakeland
Illinois......................  Morton College........  Cicero
Indiana.......................  Ivy Tech Community      Gary
                                 College of Indiana.
                                Ivy Tech Community      Lafayette
                                 College of Indiana.
Iowa..........................  Des Moines Area         Ankeny
                                 Community College.
Louisiana.....................  Louisiana Technical     Baton Rouge
                                 College.
Maryland......................  Com. Col. of Baltimore  Baltimore
                                 County (Catonsville).
Massachusetts.................  Wentworth Institute of  Arlington
                                 Technology.
Michigan......................  Lansing Community       Lansing
                                 College.
                                Kalamazoo Valley        Kalamazoo
                                 Community College.
Missouri......................  Ranken Technical        St. Louis
                                 College.
Nebraska......................  Central Community       Columbus
                                 College.
Nevada........................  Community College of    North Las Vegas
                                 Southern Nevada.
New York......................  Onondaga Community      Syracuse
                                 College.
North Carolina................  Wake Technical College  Raleigh
Ohio..........................  University of           Lima
                                 Northwestern Ohio.
                                Ohio Technical College  Cleveland
Oregon........................  Portland Community      Portland
                                 College.
Rhode Island..................  New England Institute   Warwick
                                 of Technology.
South Carolina................  York Technical College  Rock Hill
Tennessee.....................  Nashville Auto-Diesel   Nashville
                                 College.
Texas.........................  Tarrant County College  Ft. Worth
Virginia......................  Northern Virginia       Alexandria
                                 Community College.
Washington....................  Shoreline Community     Shoreline
                                 College.
West Virginia.................  West Virginia           Morgantown
                                 University.
Wisconsin.....................  Madison Area Technical  Madison
                                 College.          POSSIBLE NATIONAL TRAINING CENTERS IN NEAR FUTURE \1\Alaska........................  University of Alaska..  Anchorage
Utah..........................  Salt Lake Community     Salt Lake City
                                 College.
Vermont.......................  Vermont Technical       Randolph Center
                                 College.
California....................  San Diego Miramar       San Diego
                                 College.
California....................  Shasta Collage........  Redding------------------------------------------------------------------------
\1\ Additional training centers are being recruited in Alabama,
  California, Colorado, Idaho, New Mexico, New York, Oklahoma,
  Pennsylvania and other States.

                                 ______
                                 
   Prepared Statement of the National Assembly of State Arts Agencies
    The National Assembly of State Arts Agencies (NASAA), representing 
the State and special jurisdictional government arts agencies of the 
United States, is pleased to submit testimony in support of funding at 
$176 million for the National Endowment for the Arts (NEA) in fiscal 
year 2008. Current NEA funding at $124.4 million for fiscal year 2007 
amounts to just 41 cents per capita, compared to 69 cents per capita in 
fiscal year 1992. A total appropriation of $176 million for fiscal year 
2008 would restore the agency to its 1992 level.
    In addition, NASAA supports the administration's budget proposal to 
streamline partnership grants to State arts agencies and regional arts 
organizations by allocating the 40 percent of NEA grantmaking funds to 
basic plan support and underserved grants, consolidating funds for 
Challenge America and American Masterpieces. This proposal would give 
each State greater flexibility in funding projects to address local and 
statewide artistic and cultural initiatives, and would improve 
administrative efficiencies for the NEA and the State arts agencies.
                         appropriations request
    In supporting a budget of $176 million for the NEA, NASAA and the 
member State arts agencies believe that a steady Federal commitment is 
important, as a foundation for funding the arts, to help communities 
maintain their artistic resources. Appropriations at $176 million would 
enable the NEA to expand its core mission to support and promote the 
creation, preservation and presentation of the arts, to fund the 
Challenge America initiative, and to increase funds to the State arts 
agencies--identified among his priorities by NEA Chair Dana Gioia in 
recent testimony before the subcommittee. New funding would also 
support the American Masterpieces initiative, aimed at broadening the 
availability of America's acknowledged masterpieces through touring, 
presentation and arts education.
                     the federal-state partnership
    NEA funds granted to State arts agencies ensure that every State 
receives a significant share of Federal funds. NEA grants to State arts 
agencies, representing 40 percent of NEA program money, combine with 
State legislative appropriations and other dollars to ensure that 
Federal funding reaches far, broadening access to the arts for 
communities throughout the State and strengthening the State's arts 
infrastructure. This partnership ensures for each State a stable source 
of arts funding and policy.
    The principles of public support for the arts which State arts 
agencies work to address are a good fit with the objectives of the NEA. 
State arts agencies help government to achieve broad public policy 
goals, such as promoting education excellence, stimulating economic 
growth and strengthening communities. State arts agencies depend on the 
NEA as a full partner in projects to promote the arts around the 
country. State arts agencies use Federal funds to increase access to 
the arts and support the programs of arts organizations and artists in 
communities. With the level of increase we propose in NEA funding, the 
State arts agencies, and indeed all arts organizations, can expand on 
the possibilities to bring to Americans in every corner of the country 
full opportunities to experience the arts.
    In 2007, State arts agencies will manage nearly $426 million in 
Federal, State, and non-governmental funds for distribution through 
State arts agency-funded projects. Each year, State arts agencies fund 
approximately 18,000 organizations, schools and artists in more than 
5,300 communities across the United States. Funding from the NEA is an 
essential form of support for State arts agencies.
    We are encouraged that Congress in recent years has voted to 
support the arts with modest increases in NEA funding. We urge Congress 
to support a budget of $176 million for the NEA in the fiscal year 2008 
Interior Appropriations bill to restore funding for the creation, 
preservation, and presentation of the arts in America through the NEA's 
core programs and to build upon the work of the special initiatives, 
such as American Masterpieces, which serve to highlight the best in 
American creativity.
                     state arts agency grant making
    State arts agencies, enabled by Federal dollars, provide a wide 
array of citizen services, including public information, partnership 
building, technical assistance, research and planning. Among the most 
important of these services is grant making designed to foster:
  --educational success, by investing in arts education opportunities 
        for students;
  --arts participation and accessibility, by supporting programs that 
        widen the availability of the arts, especially in rural areas 
        and among underserved populations;
  --cultural infrastructures, by investing in operating support for 
        cultural organizations and by supporting the development of 
        grassroots arts networks;
  --innovation, by supporting individual artists and development of new 
        creative programs; and
  --artistic heritage, by investing in the preservation of cultural 
        traditions.
                           arts in education
    All State arts agencies, with assistance from the NEA, support arts 
education programs, aiming to incorporate the arts into learning, for 
example, through artist residencies, curriculum development, and 
teacher training. Communities demand that schools promote higher 
student achievement, reform the teaching process and improve the 
environment in which students are expected to learn. The arts address 
all these needs. Educational research shows that instruction in the 
arts improves student achievement and arts in education produces the 
kind of creative problem solvers sought by employers.
    The California Arts Council, recognizing the importance of 
sequential arts instruction in California's schools, supports its 
Artists in Schools program to integrate community arts resources--
artists and professional arts organizations--into a comprehensive, 
standards-based program that underscores the critical role that the 
arts play in shaping a student's overall well-being and academic 
achievement. The North Dakota Council on the Arts supports Schools and 
Artists as Learning Teams (SALT) with grants for professional 
development that builds partnerships between North Dakota schools and 
artists and arts organizations to provide meaningful learning 
experiences through the arts aimed at improving student achievement. 
The Arts Learning in Schools Artist Residency program of New Mexico 
Arts supports guest individual artists teamed with teachers to create 
programs that promote learning in and through the arts, with a 
preference given to underserved schools.\1\ 
---------------------------------------------------------------------------
    \1\ Ruppert, Sandra S. (2006). Critical Evidence: How the Arts 
Benefit Student Achievement. National Assembly of State Arts Agencies, 
Washington, D.C.
---------------------------------------------------------------------------
                           access to the arts
    State arts agencies use their funds to broaden, deepen and 
diversify participation in a wider variety of art forms through support 
for touring and presentation of exhibits and performances within their 
States, arts festivals and fairs, and distribution of information and 
artwork through various channels, including broadcast and internet. 
Public arts spending is especially important, for example, in rural 
areas which are often artistically underserved due to their geographic 
and economic isolation. NEA funds to State arts agencies for grants to 
underserved areas are an important source of this support.
    The North Dakota Council on the Arts provides Community Access 
Grants to nonprofit organizations that present arts programming in 
small and rural communities in North Dakota, as well as for support of 
programming that makes a deliberate and focused effort to serve a 
special constituency or an underserved audience in that community. The 
Alaska State Council on the Arts through its Community Arts Development 
Grants, designed to stimulate grassroots arts activity and to encourage 
arts participation throughout Alaska, helps small nonprofit Alaskan 
organizations in developing art programs in underserved areas of the 
State. The West Virginia Commission on the Arts offers Accessibility 
Services grants to nonprofit arts organizations to support acquisition 
and installation of ramps, assistive listening equipment, and alternate 
formats for materials such as large print programs, Braille, cassette 
tapes, and captioning to improve access to arts and cultural 
programming in the State. The Tennessee Arts Commission offers support 
through a variety of programs to improve access to the arts for its 
citizens, including Arts Access grants, with NEA funds, to support 
projects of arts organizations of color and organization whose arts 
programs primarily benefit persons of color; its Rural Arts Project 
Support which funds quality arts projects located outside a 
metropolitan area; and Student Ticket Subsidy to supplement student 
attendance at arts events.
                 supporting the cultural infrastructure
    Public spending on the arts is a good investment in the economic 
growth of every community. State arts agencies recognize that cultural 
development is a vital part of economic development strategies, 
attracting businesses and new residents and generating jobs.
    The Kansas Arts Commission provides grants for operational support 
to arts and cultural organizations for programming and administrative 
costs based on the expense budget of the organization, with a 
requirement for matching funds. The New York State Council on the Arts 
Capital Projects offers support for the improvement, expansion, or 
rehabilitation of existing nonprofit cultural facilities, for such 
needs as roof replacement, accessible bathrooms, theatrical lighting 
and sound systems, dance floors, and facade restoration. The Virginia 
Commission for the Arts offers general operating support to arts 
organizations, major arts institutions, and local arts agencies with 
the aim of providing funds to maintain stability and allow 
organizations to strengthen and expand their programs. The Washington 
State Commission on the Arts offers financial support to nonprofit arts 
organizations through operating and project grants for organizations 
intended to reduce the cost of producing or presenting artistic events 
for the general public, making them more accessible to the State's 
residents.
                           individual artists
    State arts agencies recognize the vital role that professional 
artists and traditional artists have in their communities, and the 
importance of supporting the creativity offered by individual artists 
in their States. Through fellowship grants and residencies, State arts 
agencies fund activities to help artists further their work, encourage 
the excellence of individual artists in their States, promote and 
showcase the artistic creations of their artists, and acknowledge the 
diversity of cultural and artistic expression throughout their States.
    The Idaho Commission on the Arts offers support through its Writer-
in-Residence award, the highest literary recognition and largest 
financial award accorded an Idaho writer. It carries an obligation to 
share the literary work at community public readings throughout the 
State over the 3-year term and seeks to encourage an appreciation for 
excellence in literature throughout Idaho. The Kentucky Arts Council's 
support for individual artists includes the Craft Marketing Program 
which enables craft artists and craft businesses in Kentucky to reach 
regional, national, and international markets through State-sponsored 
wholesale and retail promotional venues. The Kansas Arts Commission 
through its visual arts program provides grants to Kansas arts and 
cultural organizations to develop new public exhibitions of works by 
Kansas visual artists. The Mississippi Arts Commission's All Write! 
Initiative promotes the South's rich literary heritage as a resource to 
improve literacy and the opportunities for writers, hiring creative 
writers to work with adult literacy programs in community centers, 
colleges, prisons, libraries, or other literacy program, with an effort 
to reach rural and underserved areas.
                     cultural heritage preservation
    State arts agencies help to document and preserve cultural heritage 
by supporting: the work of master folk artists; apprenticeships in the 
traditional arts; supporting festivals, on-line sites, and heritage 
trails; and the work of State folklorists.
    The Folk Arts Program of the Washington State Commission on the 
Arts includes the Apprenticeship Program designed to help communities 
preserve their traditional arts by offering stipends to master artists 
to instruct students in their culture and artistic skill. Recent 
recipients have included masters in Salish hide tanning, Cambodian 
music, the Egyptian oud, and Haida basketry. The California Arts 
Council, with American Masterpieces program funding from the NEA, 
highlights California's heritage through residencies and touring 
performances of jazz tap dance masters to revisit the great dance 
performances in film of the 1930s and 40s, as well as the African-
American roots of the tap dance art form; and Musica Festiva de las 
Misiones, presenting the choral music of the Mexican-Hispano era, to 
increase the public awareness of California's culture and history. The 
Maryland State Arts Council in cooperation with the Maryland Historical 
Trust, and with funds from the NEA, supports Maryland Traditions, 
enabling communities, cultural institutions and individuals to preserve 
and sustain the State's traditional arts and culture and to encourage 
the vitality of living traditions and folk arts.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    The National Association of Clean Air Agencies (NACAA)--formerly 
known as STAPPA and ALAPCO--represents the state and local air 
pollution control agencies in 54 States and territories and over 165 
metropolitan areas across the country. The association appreciates this 
opportunity to testify on the fiscal year 2008 proposed budget for the 
United States Environmental Protection Agency (EPA), particularly 
Federal grants for State and local air pollution control agencies under 
sections 103 and 105 of the Clean Air Act, which are part of the State 
and Tribal Assistance Grant (STAG) program. Congress has vested State 
and local agencies with ``primary responsibility'' for the control of 
air pollution through the Clean Air Act (section 101(0(3)) and found 
that ``Federal financial assistance is essential for the development'' 
of State and local air pollution control programs (section 101(a)(4)). 
NACAA is extremely concerned that the proposed fiscal year 2008 budget 
calls for a reduction of $35.1 million (nearly 16 percent) in grants to 
State and local air pollution control agencies, compared to fiscal year 
2006 levels. Worseyet, this reduction would come on the heels of a 
$20.5-million decrease that State and local air agencies suffered in 
fiscal year 2007, and at a time when these agencies, which are already 
severely underfunded, need additional resources to protect the Nation's 
air quality and public health. NACAA recommends that grants within the 
STAG program for State and local air pollution control agencies under 
sections 103 and 105 of the Clean Air Act be increased in fiscal year 
2008 by $80.5 million above the President's request, for a total of 
$265.8 million. Additionally, NACAA recommends that grants for the 
particulate matter monitoring program not be shifted from section 103 
authority to section 105 authority.
              air pollution is a significant health threat
    Tens of thousands of people die prematurely every year as a result 
of air pollution. In addition, millions more are exposed to unhealthful 
levels of a variety of air contaminants. In fact, more than 150 million 
people in this country live in areas that violate at least 1 of the 6 
health-based National Ambient Air Quality Standards (NAAQS). For 
example, fine particulate matter, just one of these pollutants, is 
responsible for most of the premature deaths each year and results in 
many other health problems, such as aggravation of existing respiratory 
and cardiovascular disease, damage to lung tissue, impaired breathing, 
irregular heart beat, heart attacks and lung cancer.
    In addition to the pollutants covered by the. NAAQS, there are many 
others that threaten public health. EPA's most recent National-Scale 
Air Toxics Assessment (NATA) provides extensive data about toxic air 
pollution across the country. According to NATA, when the cancer risks 
from all toxic air contaminants listed as known, probable or possible 
human carcinogens are combined, more than 270 million people are 
estimated to live in census tracts where the combined upper-bound 
lifetime cancer risk exceeded 10 in 1 million risk (1 in 1 million risk 
is generally considered acceptable). Additionally, more than 92 percent 
of the population in this country lives in areas with ``hazard index'' 
values for respiratory toxicity greater than 1.0 (with 1.0 being the 
level above which adverse effects to the respiratory system occur).
      funding for state and local clean air programs has declined 
                             significantly
    Section 105 of the Clean Air Act authorizes the Federal Government 
to provide grants for up to 60 percent of the cost of State and local 
air quality programs, while states and localities must provide a 40-
percent match. In reality, however, the Federal Government provides 
only about 25 percent of the total (not including income from Title V 
permit fees, which State and local agencies collect from major sources 
and can use to fund only permit-related activities). In a time of 
limited resources, when State and local agencies face dramatically 
increasing responsibilities and are straining to maintain existing 
programs, additional Federal funding is needed to meet the ever-growing 
challenges and costs associated with implementing the Federal Clean Air 
Act and achieving and sustaining clean, healthful air.
    The total amount needed to fund State and local efforts to 
implement the Clean Air Act is estimated to be in excess of $1 billion 
each year. If the Federal Government were to provide 60 percent of that 
amount, as the Clean Air Act envisions, federal grants would amount to 
approximately $600 million annually. However, Federal grants have 
fallen far short of this level--amounting only to about one-third of it 
in recent years--and are now being cut even more. Further, over the 
past 15 years, Federal grants for State and local air pollution control 
agencies to operate their programs (not including the separate fine 
particulate monitoring program) have decreased by approximately one-
third in terms of purchasing power.
   further funding reductions in fiscal year 2007 have increased the 
                                hardship
    Notwithstanding the fact that Federal grants to State and local air 
pollution control agencies were already insufficient in fiscal year 
2006, there are further devastating reductions this year. For the 
proposed budget in fiscal year 2007, EPA requested a reduction of $35.1 
million in grants. Additionally, EPA's budget request proposed shifting 
funds for the fine particulate monitoring network from Clean Air Act 
section 103 authority to section 105 authority, which means that state 
and local agencies would have to provide additional matching funds in 
order to accept the grants, pursuant to section 105 requirements.
    NACAA was extremely concerned about the adverse effects such a 
decrease in fiscal year 2007 would have on air quality programs and 
urged Congress to restore grants to fiscal year 2006 levels. The 
association was pleased, then, that the Continuing Resolution that was 
finally adopted for fiscal year 2007 generally called for funds to 
remain steady at fiscal year 2006 levels. Unfortunately, in its 
operating plan for distributing the funds that Congress provided 
through the fiscal year 2007 continuing resolution, EPA included a 
reduction, from fiscal year 2006 levels, of $20.5 million in the State 
and local air quality grant program under the STAG account. Since this 
significant reduction must be absorbed over only a 6-month period, the 
impact is even more devastating than the original budget cut the 
administration had recommended for fiscal year 2007.
 proposed fiscal year 2008 reductions would severely hamper clean air 
                                efforts
    For fiscal year 2008, the administration has again requested $185.2 
million, which is a reduction of $35.1 million compared to fiscal year 
2006 levels and would be extremely detrimental to State and local air 
pollution control progams. If this proposed budget cut is enacted, on 
average, each State will lose $700,000 compared to fiscal year 2006 
amounts (i.e., an average reduction of approximately $340,000 in fine 
particulate monitoring and $360,000 from the other elements of the air 
quality program). While some agencies will experience greater or lesser 
reductions than the average, virtually all agencies will suffer adverse 
effects.
    NACAA analyzed the impacts of the proposed fiscal year 2008 budget 
cuts, which the association shared with the members of the Senate and 
House Appropriations Committees in February 2007. The analysis, 
detailed in the report: Impacts of the President's Proposed Fiscal Year 
2008 Budget on State and Local Clean Air Programs, is available at 
www.4cleanair.org/documents/FY2008budgetanalysisfinal022607.pdf. The 
severity of the cuts is so substantial that, in many cases, state and 
local air agencies would have to lay off existing personnel and/or not 
fill empty positions. Many agencies would have to cease operating 
existing monitors or otherwise curtail their monitoring programs. The 
reductions would impair their ability to inspect sources and carry out 
enforcement activities, making clean air requirements less effective. 
Additionally, permits for smaller sources will take longer to process 
and customer service will diminish.
    The funding cuts could seriously impair the ability of State and 
local air pollution control agencies to prepare new plans for 
implementing ozone and particulate matter standards. The development of 
effective State Implementation Plans (SIPs) is essential to ensure that 
measures will be adopted that reduce air pollution and protect public 
health. Without funds to develop and carry out the SIPs, some areas 
currently meeting the standards may no longer attain them. Not only 
would such areas experience degraded air quality, they would also be 
subject to the more rigorous requirements applicable to nonattainment 
areas.
    Finally, some smaller agencies might even have to cease operations 
entirely, posing a terrible loss for those local areas. Overall, these 
reductions in State and local air quality programs would be extremely 
detrimental to efforts to reduce air pollution and maintain the 
improvements that this country has already worked so hard to achieve.
    The cuts would be further exacerbated by the administration's 
proposal to shift grants in the particulate matter monitoring program 
from section 103 authority (which does not require a 40-percent match 
from state and local recipients) to section 105 authority. Under the 
budget proposal, State and local agencies would need to supply 
additional funds in order to accept the Federal grants. Some agencies 
do not currently have additional resources for the match and could be 
forced to turn away some much-needed grant funds.
    NACAA urges the subcommittee to review its analysis to learn about 
the very real adverse effects the proposed fiscal year 2008 reductions 
would have on state and local efforts to protect public health. This 
information will make it clear that increases--rather than cuts--are 
necessary for these programs. Also, the subcommittee may wish to review 
a report NACAA prepared when similar reductions were proposed for 
fiscal year 2007. The document, Impact of Proposed fiscal year 2007 
Budget Cuts on State and Local Air Quality Agencies (March 14, 2006), 
provides state-by-state accounts of the serious impacts of such deep 
cuts on air quality programs. The association shared this report with 
members of the Appropriations Committee last year. It is also available 
at www.4cleanair.org/StateandLocalExamplesoflinpactsofCuts.pdf.
   broad coalition supports increase in clean air grants and diesel 
                            retrofit funding
    NACAA is not alone in seeking increases for State and local air 
grants. The association is a member of a broad coalition of over 150 
organizations, ranging from public-interest groups, such as the 
American Lung Association, to business organizations, such as the U.S. 
Chamber of Commerce. This coalition recognizes the importance of 
adequate funding for State and local air pollution control agencies and 
has also requested that Congress provide increases to these grants. 
Additionally, the coalition supports the appropriation of $49.5 million 
in fiscal year 2008 for programs authorized by the Diesel Emissions 
Reduction Act (DERA). These programs are designed to reduce the 
prevalence of harmful microscopic particles in the ambient air. Studies 
indicate that exposure to these particulates greatly increases the risk 
of asthma and other respiratory disorders. Initiatives under DERA 
provide incentives to retrofit the approximately 11 million diesel 
engines on trucks, buses, locomotives and agricultural vehicles with 
technologies to limit their emissions. NACAA urges Congress to provide 
this funding to these important DERA, efforts.
                               conclusion
    Significant increases in Federal grants to State and local air 
pollution control agencies are necessary if they are to continue 
efforts to improve and maintain air quality and protect public health. 
However, NACAA recognizes that Congress faces many competing funding 
priorities. Therefore, the members are asking for only a fraction of 
what is really needed. When the President issued the fiscal year 2008 
budget request for EPA, NACAA originally recommended an increase of $25 
million above fiscal year 2006 levels for State and local air grants 
under sections 103 and 105 of the Clean Air Act--for a total of $245.3 
million. Since EPA unexpectedly reduced fiscal year 2007 grant levels 
by $20.5 million, a cut that State and local air agencies must absorb 
over a mere 6-month period, NACAA is now recommending that those funds 
be restored in fiscal year 2008 as well. Therefore, the association 
recommends that fiscal year 2008 grants within the STAG program for 
State and local air pollution control agencies under Sections 103 and 
105 of the Clean Air Act be $265.8 million (an increase of $80.5 
million above the fiscal year 2008 request). Additionally, NACAA 
recommends that grants for the particulate matter monitoring program 
not be shifted from section 103 authority to section 105 authority.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the subcommittee, I am Peter Smith of 
New York, and Chair of the National Association of State Energy 
Officials (NASEO). NASEO represents the energy offices in the States, 
territories and the District of Columbia. NASEO is submitting this 
testimony in support of funding for the Energy Star program (within the 
Climate Protection Division of the Office of Air and Radiation) at the 
U.S. Environmental Protection Agency (EPA). NASEO supports funding of 
at least $90 million, including specific report language directing that 
the funds be utilized only for the Energy Star program. We were 
extremely disappointed with the $43.5 million fiscal year 2008 request 
and the $45 million funding level established in fiscal year 2007. At 
the present time, Congress is seriously considering new energy 
legislation and is also intending to address climate change. The Energy 
Star program is successful and cost-effective. It should be expanded, 
not reduced.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and over 40 States are Energy Star Partners. In 2005, EPA and NASEO 
announced a new Clean Energy and Environment State Partnership program, 
which already has 15 State members, including California, Colorado, 
Hawaii, New Mexico and Utah. We are working closely with EPA on the new 
National Action Plan for Energy Efficiency, the Energy Star Challenge, 
Home Performance with Energy Star, etc. We worked with EPA to have over 
half the States declare ``Change a Light'' Day. With very limited 
funding, EPA's Energy Star program works closely with the State energy 
offices to give consumers and businesses the opportunity to make better 
energy decisions, without regulation or mandates.
    Energy Star focuses on energy efficient products as well as 
buildings. In 2006, 300 million Energy Star products were purchased. 
The Energy Star label is recognized across the United States. It makes 
the work of the State energy offices much easier, by working with the 
public on easily recognized products, services and targets. In order to 
obtain the Energy Star label a product has to meet established 
guidelines. Energy Star's voluntary partnership programs include Energy 
Star Buildings, Energy Star Homes, Energy Star Small Business and 
Energy Star Labeled Products. The program operates by encouraging 
consumers, working closely with State and local governments, to 
purchase these products and services. Marketplace barriers are also 
eradicated through education.
    In addition to the State partners, the program has more than 9,000 
company partners. More than 750,000 families now live in Energy Star 
homes, saving $170 million annually. The ``Home Performance'' with 
Energy Star activity allows us to focus on whole-house improvements, 
not simply a single product or service. This will be extremely 
beneficial to homeowners. Pilots have already been undertaken in New 
York, Illinois, Texas and Wisconsin. We are also working closely with 
EPA in the implementation of the Energy Star Challenge, which is 
encouraging businesses and institutions to reduce energy use by 10 
percent or more, usually through very simple actions. We are working 
with the building owners to identify the level of energy use and 
compare that to a national metric, establish goals and work with them 
to make the specified improvements. A variety of ``benchmarking'' tools 
have been developed by EPA, which have now been used to evaluate energy 
use in 30,000 buildings, representing 5 billion square feet. Again, 
this is being done without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. This expansion will continue. EPA has been expanding the 
technical assistance work with the State energy offices in such areas 
as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.
                             state examples
    In Alaska, there are 22 companies and public entities participating 
in Energy Star. Investments already made will save more than $200 
million and will prevent the emissions of 720,000 metric tons, which is 
equivalent to eliminating the vehicle emissions from 480,000 cars.
    In California, businesses and residents will save more than $14 
billion through investments already made in Energy Star products. This 
will prevent the emissions of 30 million metric tons. Over 750 
companies and public entities participate in Energy Star. Over 110,000 
homes in the State have earned the Energy Star.
    In Colorado, over $2 billion will be saved through Energy Star 
investments thus far. Colorado has focused on investments in building 
energy efficiency, with a robust energy performance contracting 
program. More than 240 companies and public entities have been Energy 
Star participants.
    In Idaho, more than 190 companies and public entities have been 
actively involved in Energy Star. The investments thus far will save 
$300 million for consumers and will reduce emissions of 790,000 metric 
tons. The State energy office has been working to expand the Energy 
Star program for homes.
    In Maryland, residents will save more than $2 billion through 
Energy Star investments made thus far, which will prevent emissions of 
8 million metric tons. With State legislation passed this year, 
additional State and utility investment in energy efficiency and 
renewable energy should allow the expansion of the program beyond 140 
public entities and companies.
    In Massachusetts, businesses and residences will save $3 billion in 
Energy Star investments that have already been made, which will also 
reduce emissions by 9 million metric tons. Energy Star products are 
sold at 870 locations within the State, 12,000 homes have earned Energy 
Star and 260 companies and public entities directly participate in the 
program.
    In New Hampshire, over 70 companies and public entities are 
participating in the program. There are already 6 manufacturers of 
Energy Star products within the State. Emissions reductions from 
investments made thus far will exceed 1.5 million metric tons.
    In New Mexico, businesses and residents will save more than $500 
million through Energy Star investments that have already been made. 
This will reduce emissions by 1 million metric tons. Thirty companies 
participate in Energy Star and over 3,300 homes are Energy Star 
compliant.
    New York has been one of the most aggressive States in implementing 
Energy Star, tailored to the unique needs of the State. Residents and 
businesses in the State will save more than $9 billion through Energy 
Star investments that have already been made. These investments will 
prevent the emissions of 24 million metric tons of greenhouse gases 
(equivalent to eliminating 16 million vehicles). Within the State, 
9,000 homes have earned Energy Star ratings, and 670 companies and 
public entities participate in Energy Star. The New York State Energy 
Research and Development Authority (NYSERDA), the State energy office, 
has contributed more than $12 million to promote Energy Star within the 
State. NYSERDA's unique air-conditioning bounty and buy-back program in 
New York City, utilizing Energy Star air-conditioners, resulted in a 
complete market transformation. Approximately 200,000 high efficiency 
air-conditioners were sold, with the disposal of older, inefficient 
units. This produced a measurable drop in peak demand. Companies with 
extremely active Energy Star programs in the State include Canon 
U.S.A., Eastman Kodak, Starwood Hotels and Verizon Communications.
    Over 60 manufacturers of Energy Star products are located in 
Pennsylvania. The State and EPA have been focusing efforts on improving 
the energy performance of schools. Over 900 retail locations throughout 
the State carry Energy Star qualified products. Recent developments 
have included evaluation of the energy performance of almost 800 
buildings in order to facilitate the implementation of energy 
improvements.
    In Rhode Island, more than $390 million will be saved with the 
Energy Star investments already initiated, which is equivalent to 
eliminating 1 million metric tons of emissions and 700,000 vehicles. 
Thirty-nine companies are involved and 1,900 homes have already earned 
Energy Star.
    In Tennessee, more than 120 companies and public entities are 
involved in the program. More than 8 million metric tons of emissions 
will be reduced through these efforts.
    In Utah, H.B. 351, passed by the State legislature this year, will 
create a $5 million revolving loan fund for energy efficiency 
investments in schools. The State also reauthorized residential and 
commercial energy tax credits.
    In Vermont, over 600,000 metric tons of emissions will be reduced 
and customers will save $200 million from Energy Star investments that 
have already been made. Fifty-eight companies and local governments are 
involved in the program and 4,600 buildings have earned the Energy 
Star.
    In Washington State more than 320 companies and public entities are 
participating in Energy Star, with significant small business 
participation. The State energy office, working with the Northwest 
Energy Efficiency Alliance, businesses and utilities throughout the 
region, has been promoting market transformation activities focused on 
Energy Star. In 2002 alone, the savings attributed to improved 
residential lighting was 45 megawatts.
    In West Virginia, over $400 million will be saved through Energy 
Star investments. Over 1.5 million metric tons of emissions will also 
be avoided through the program.
    In Wisconsin, almost 500 companies and local governments (including 
42 manufacturers) are involved in Energy Star. This will lead to 
emissions reductions of 5 million metric tons. Over 8,000 Wisconsin 
homes have earned the Energy Star.
    We can provide a myriad of other State examples at your request.
                               conclusion
    Increases in funding for the Energy Star programs are justified. 
NASEO endorses these activities and the State energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    The National Association of State Foresters (NASF) supports 
sustainable forests managed for the public interest.\1\ We are pleased 
to submit the following testimony on the proposed fiscal year 2008 U.S. 
Forest Service Budget for the programs that fund the State and Private 
Forestry programs. NASF recommends that the fiscal year 2008 budget for 
the State and Private Forestry programs of the USDA Forest Service be 
increased by $230.9 million from the fiscal year 2007CR of $351.7 
million to $582 million in fiscal year 2008. One-third of the Nation's 
landscape is forested and 57 percent of these forests (290 million 
acres) are privately owned and over 7 percent are owned by State and 
local governments. These programs are directed at that ownership. 
Working collaboratively with Federal, State, and private forest 
landowners improves the effectiveness of forest conservation and 
management programs and provides substantial environmental, economic 
and social benefits to society.
---------------------------------------------------------------------------
    \1\ NASF is an association that represents the State Foresters of 
the 50 States and the 9 directors of forestry in the U.S. territories 
and the District of Columbia.
---------------------------------------------------------------------------
    Over 200 million acres of Federal forests are at increased risk for 
catastrophic wildfire caused by the buildup of biomass fuel loads which 
pose a significant increased threat to adjacent private forestlands, 
air and water quality, and wildlife habitat. Insect epidemics and 
invasive plant species have now covered millions of acres of forests, 
which create additional risks to private forestlands, increase 
catastrophic wildfire risks, and if left unmanaged could virtually 
eliminate the carbon sequestration capacity of the United States.\2\
---------------------------------------------------------------------------
    \2\ Fearing the effects of forest fires and tree-destroying insect 
infestations, the Canadian Federal government has decided against using 
Canada's forests in its calculations for totaling up Canada's 
greenhouse gas emissions. In fact forests could become a net source if 
projections for 2008-2012 are realized. In contrast, the United States 
takes a 13 percent reduction in its emissions due to sequestration with 
93 percent of this sequestration from forests. From 1990 to 2004 the 
total sequestration in forests has declined by 14 percent. Source: EPA 
Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-2004, 2-20-
2007.
---------------------------------------------------------------------------
    Fragmentation and parcelization of private forest ownership 
increase the challenge of effectively addressing these threats to 
sustainable forest resource management. More importantly, adequate and 
necessary resources through the State and Private Forestry Programs 
need to be provided to focus on active management strategies to 
maximize the public benefits, such as air and water quality, wildlife 
habitat, carbon sequestration, timber and fiber, and human health and 
well being, of this critical natural resource.
    While the President has proposed a 26 percent reduction in the 
State and Private Forestry Program from the 2007 CR budget level, the 
NASF endorses a 38 percent increase in these essential programs. For 
the State and Private Forestry programs within the Wildland Fire 
Management budget, the President has proposed reducing these programs 
by 14 percent from the 2007 levels, and the NASF recommends a 59 
percent budget increase to address the ever increasing risks from 
growing fuel loads and insect infestations. The President's proposal 
offsets a 10 year running average increase in the wildland fire 
suppression costs of $220 million by slashing other program areas.\3\ 
This budgeting requirement necessitates a fundamental reform in the 
budget rules and the resultant budget structure and priorities.
---------------------------------------------------------------------------
    \3\ The Forest Service wildfire suppression budget over the last 16 
years has increased from 13 percent of the total agency's budget to 45 
percent, and it is predicted to increase.
---------------------------------------------------------------------------
    Efficiency gains in management can provide funds for some of the 
program enhancements discussed below. At the national office, regional 
offices, and fire management level there are opportunities to improve 
productivity without jeopardizing program deliverables. The current 
effort to ``Redesign'' the State and Private Forestry Programs led by 
the USDA Forest Service and the National Association of State Foresters 
represents a significant effort to achieve these opportunities.
    State Fire Assistance (SFA) is the primary program that delivers 
Federal funding to States to support local firefighting preparedness, 
capacity building, and fire mitigation for wildland fire management. 
This program aids in initial attack success and helps reduce overall 
Federal fire costs. It's effective. Ninety-four percent of wildfires 
are suppressed during the initial attack and another 4 percent are 
suppressed during extended initial attack. Funds are used to assist 
communities prepare Community Wildfire Protection Plans and SFA is the 
only Federal program that targets the wildland-urban interface issues, 
which is a large component of the 10-year National Fire Plan. There are 
11,000 communities adjacent to Federal forestlands and another 45,000 
communities at risk to wildfires. SFA has only helped a fraction of 
these at-risk communities and drastic cuts in these programs only 
increases their risk to catastrophic fires. Federal funds are also 
matched dollar-for-dollar from States and other sources, including 
businesses at the local level. While wildfire risks are increasing, 
public policy should not reduce the preparedness capacity to address 
these risks or reduce programs that focus on mitigating these risks.
    NASF recommends funding SFA at $50 million under State and Private 
Forestry and $95 million under Wildland Fire Management. An exclusive 
focus on Federal lands is an incomplete solution and will ultimately 
undermine success by not taking a landscape-scale approach to planning 
and implementation of hazardous fuels reduction projects.
    Forest Stewardship is the program that provides technical, 
educational and related services to family forest landowners to help 
them better protect, maintain, restore and preserve forest lands. 
Funding has been relatively consistent for the past 9 years but 
significantly lags demand. To date, the program has assisted over 2.5 
million landowners and fostered the development of 272,677 Stewardship 
Plans covering 31.2 million acres.
    There are 290 million acres non-industrial private forest lands 
owned by 9.6 million private owners in the U.S. Stewardship Plans 
assist these landowners to manage their forests in a sustainable way 
which maximizes public benefits for air and water quality, wildlife 
habitat, carbon sequestration, timber, recreation, and open space. NASF 
recommends funding this program at $45 million which is a $3.1 million 
increase over the 2007 budget level and $25 million more than the 
President's proposed 2008 budget.
    Forest Health.--Cooperative Lands serves to minimize the spread of 
established invasive species and lessen the damage of native insects 
and diseases. Over 27 million acres of non-Federal lands are at risk of 
insect and disease damage. There are now more than 400 non-native 
insects and 24 non-native pathogens permanently established in North 
American woodlands. With no specialized predators or resistant hosts to 
keep them under control, these pests can spread aggressively and raise 
havoc with our forests. Damaged, unhealthy forests increase the 
corresponding risks for wildland fires. Dead or damaged trees don't 
sequester carbon. State and Private Forestry funding provides States 
with support for prevention, detection, and suppression of harmful 
insects and diseases. Funds from Wildland Fire Management are used 
primarily for forest insect and disease mitigation in high hazard 
areas. NASF recommends a total of $66 million for this program, divided 
between S&PF ($53 million) and WFM ($13 million). This represents a $9 
million increase over the 2007 CR budget and $17.9 million over the 
President's budget proposal.
    Urban and Community Forestry provides technical assistance and 
cost-share grants to States, local governments, and non-profit 
organizations to enhance environmental services provided from urban 
trees (energy cooling and flood protection, for example) and the 
quality of life for citizens in urban and rural communities. Projects 
can include funds to plant and maintain urban forests, disease and 
insect mitigation, tree ordinance development, drought resistance 
studies, riparian restoration and many more. Demand for these programs 
exceeds the available funding. Cities and particularly towns do not 
have the ability to fund full time urban forestry expertise and rely on 
the State forestry agencies with Federal funding to provide technical, 
education, and financial assistance. These programs efficiently reach 
the vast majority of a State's residents. Urban forests account for 
over 11 percent of the total carbon sequestered in the U.S. NASF 
recommends that this program be funded at $36 million, a $5.9 million 
increase over the 2007 CR budget, and $18.6 million more than the 
President's proposal.
    Forest Inventory Analysis (FIA) is the ongoing census of America's 
forests. Using current ecosystem data to project how the forests will 
appear 10-15 years in the future, FIA reports on the status and trends 
in forest area using a variety of indicators over time. These data are 
critical to provide the metrics to assess the effectiveness of resource 
management programs and provide important information on current and 
emerging threats to this natural resource which is vital to human 
health. FIA funding is managed by the USFS Research and Development 
branch with additional funds provided by States which support State 
inventory crews and work with forest landowners to participate in these 
inventories. NASF recommends total funding of FIA at $73.4 million and 
maintaining the State and Private Forestry component at $5 million to 
ensure an all-lands approach to this program. The President's proposed 
budget is $62.3 million.
    The Forest Legacy program identifies and protects important private 
forestlands that are threatened by conversion to non-forest uses. 
Fragmentation of the ownership base is not only a significant 
management challenge for sustainable forest resource management, but 
this growing trend severely impacts eco-system regimes for wildlife, 
water quality, and air quality. This program promotes the use of 
conservation easements from willing landowners to sustain the integrity 
and traditional uses of private working forestlands that provide 
substantial public benefits. Until a robust eco-system benefits market 
trading system is in place, the Forest Legacy program provides a 
critical means to continue the production of public benefits absent an 
alternative compensation system. Currently 46 States and territories 
qualify for Forest Legacy funding and 5 other States are in the process 
of qualifying. In fiscal year 2007, 31 projects were submitted for 
Federal funding of over $61.5 million and their total project costs of 
almost $220 million. Of those, 24 projects were selected with $57.2 
million funding made available. NASF supports fully funding this 
program at $75 million compared with the 2007 CR level of $56.5 
million. The President's proposal is $29.3 million.
    Volunteer Fire Assistance and the related Rural Fire Assistance 
(DOI's related program) is targeted at assisting rural communities with 
populations of 10,000 or less to establish new fire departments and to 
upgrade fire suppression capabilities of existing departments. As 
industrial forestlands have been sold or transferred to other owners, 
the fire fighting infrastructure supported by those industrial owners 
has disappeared but the need has not gone away. Rural communities apply 
for cost-share grants to aid them in purchasing firefighting equipment, 
training personnel, or supported related needs. Requests for funding 
every year exceed available resources. This program is one of the 
Federal Government's most cost effective programs. NASF proposes 
funding this program at $35 million. The 2007 CR level is $13.7 million 
and the President proposed an increase to $17 million.
    The Watershed Forestry Assistance Program seeks to maximize the 
benefits of sound forestry for the improvement of water quality in 
priority watersheds. Forested watersheds produce high quality water and 
active forest management can resolve a variety of environmental 
problems associated with agricultural and developed land uses. Riparian 
forests can be a cost effective solution to thermal impacts on aquatic 
wildlife, particularly when compared to capital intensive technology 
alternatives. NASF recommends funding this program at $30 million.
    Budget reform for wildfire suppression costs is critical. There is 
a need to meet this Nation's wildland fire protection needs in a 
reliable, consistent, and cost effective manner without decimating 
other active forest management programs that address threat reductions 
and optimization of public benefits of forests. The rising costs of 
fire suppression exacerbate this conundrum.
    Conclusion: NASF appreciates the opportunity to provide testimony 
to the Senate subcommittee regarding the fiscal year 2008 budget. Non-
industrial private forestland is invaluable to the economic, social, 
and environment quality of our country providing more fish and wildlife 
habitat, more watershed protection, and produces more direct economic 
benefits than all of the other forest ownerships combined.
    For more information, please contact: C.T. Kip Howlett, Executive 
Director, NASF, 202-624-5976, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="244f4c4b5348415050645750455041424b564157504156570a4b5643">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the tribal nations of the National Congress of 
American Indians, we are pleased to present written testimony on the 
fiscal year 2008 Interior and related agencies appropriations bill. We 
include our funding recommendations for programs in the Bureau of 
Indian Affairs, Office of Special Trustee, and the Indian Health 
Service.
    Tribal leaders, through consultation with various agencies and 
through NCAI convenings, have identified the following areas for 
meaningful Federal investment in Indian Country: public safety and 
justice, health care, education, and natural resources. However, NCAI 
would like to emphasize that, although tribal leaders have developed 
the above priority areas for fiscal year 2008, the unconditional 
underpinnings for all of the funding recommendations in this testimony 
are tribal self-determination and self-governance. NCAI's support for 
areas in the Federal budget that support self-determination and self-
governance is uncompromising.
    Although tribal people in the United States have inherited the 
challenges stemming from centuries of unjust policies and broken 
agreements, a promising resurgence in self-government and self-
determination has allowed tribes to flourish in ways unimaginable 50 
years ago. When tribes are able to operate as governments responsible 
for their own people and resources, which is the essence of tribal 
sovereignty, the resulting achievements have led to reversing the poor 
conditions created by centuries of injustice. Accordingly, before 
addressing our various programmatic funding recommendations, we would 
like to call attention to the very alarming proposal for reductions to 
the very category at the Bureau of Indian Affairs (BIA) that directly 
supports tribal self-determination and represents the Federal trust 
responsibility to tribes: Tribal Priority Allocations (TPA).
    NCAI understands that the administration and Congress must make 
difficult budget decisions this year and must support the most 
efficient and worthy programs in the Federal budget while taking into 
account efforts to reduce the national deficit. While tribes will 
advance the priorities detailed in this testimony, the priority 
initiatives cannot come at the expense of Tribal Priority Allocations. 
In the Bureau of Indian Affairs budget request, TPA would be reduced by 
$20.5 million from the fiscal year 2007 CR amount, which constitutes 
the majority of the cuts proposed to the BIA Operation of Indian 
Programs. TPA has long been one of the most important funding areas for 
tribal governments, as they have the flexibility to use these funds to 
meet the unique needs of individual tribal communities, making TPA the 
main resource for tribes to exercise their powers of self-governance. 
The current proposed reductions undermine the very self-determination 
policy that has driven Indian Country's success in addressing the long 
enduring socio-economic disparities.
                       public safety and justice
    A primary role of tribal government is to ensure the security and 
safety of Indian communities and families, tribal lands and resources, 
and the United States through law enforcement, detention, and strong 
judicial systems. Tribal governments serve as the primary instrument of 
law enforcement for the more than fifty million acres of land that 
comprise Indian country. On April 24, 2007, Amnesty International 
issued a report, ``Maze of Injustice: The failure to protect Indigenous 
women from sexual violence in the USA,'' which detailed 
disproportionately high rates of rape of Native women due, in addition 
to the complex maze of jurisdiction, to chronic under funding of law 
enforcement and the Indian Health Service. This report highlights the 
results of under resourced tribal justice systems that tribal leaders 
have been attempting to address for years.
    Law Enforcement.--Current funding for tribal law enforcement and 
first responders lags well behind that for non-tribal law enforcement. 
According to a gap analysis the BIA performed in 2006, Indian Country 
has 2,555 law enforcement officers, yet needs a total of 4,409, 
resulting in a gap of 1,854 officers, or a 42 percent unmet staffing 
need. This gap in police to service population is based on the FBI's 
2004 Uniform Crime Report (UCR) and recent BIA preliminary data. 
Excluding tribal policing, BIA has 358 officers overall, yet needs 
1,153, resulting in a gap of 759 officers, or a 69 percent unmet 
staffing need. This gap is based on the UCR rate of 3.3 officers/1,000 
inhabitants for rural areas under 10,000. The current police force of 
358 officers provides 0.9 officers/1,000 inhabitants. In any attempt to 
bring law enforcement officers up to par with non-Indian communities' 
coverage, it's also important to consider that the Community Oriented 
Policing Services grants at the Department of Justice are expiring. 
These grants have provided direct funding to tribes on a government to 
government basis, but between 2004 and 2006, more than 700 officer 
positions expired. On the ground at Standing Rock, for instance, this 
shortfall means there are six or seven patrol officers and two 
investigators to patrol 2.3 million acres of land. Sometimes there is 
only one officer on duty for the whole reservation.
    Tribal Courts.--Tribal judicial systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
However, tribal court systems frequently are overburdened due to lack 
of Federal funding. A recent Wall Street Journal article highlighted 
some of the issues resulting from inadequate resources.\1\ The front 
page article illustrated how the laws that protect the rights of Indian 
people cannot be effectively enforced due to lack of funding. The 
article included an example from the Tohono O'odham Nation. After the 
attacks of Sept. 11, 2001, the Federal Government clamped down on 
illegal immigration in the urban areas of the Mexican border. As a 
result, the Tohono O'odham reservation saw a huge increase in illegal 
immigration, drug smuggling, and related crime. Tribes, including the 
Tohono O'odham Nation, have repeatedly asked for additional Federal 
resources to help them govern their international borders. Yet, Indian 
tribes are not eligible to directly receive any of the billions that 
the Federal Government distributes to State governments to help them 
patrol the borders and combat drug-trafficking. Thus, these tribes are 
forced to allocate their scarce resources among many competing 
priorities. Any discussion of public safety in Indian Country is 
inextricably tied to the strength of tribal courts to maintain order in 
tribal communities. Although police and detention centers have received 
funding increases in recent years, tribal court funding has remained 
flat or decreases, which poses a significant obstacle to truly 
improving the safety of Indian people on tribal lands.
---------------------------------------------------------------------------
    \1\ ``Native Americans on Trial Often Go Without Counsel,'' Wall 
Street Journal, February 1, 2007.
---------------------------------------------------------------------------
    Detention Facilities.--In September 2004, the U.S. Department of 
Interior Inspector General's Office issued a report, `` `Neither Safe 
Nor Secure': An Assessment of Indian Detention Facilities,'' which 
outlined the deplorable and life-threatening conditions of Indian 
jails.
    Funding Recommendations.--NCAI commends the Secretary of Interior's 
departmental Safe Indian Communities Initiative which includes a $16 
million increase for public safety programs at BIA. This initiative is 
congruent with the tribal leaders' priority to strengthen public safety 
and justice in Indian Country. Tribal leaders have prioritized public 
safety and justice, which includes tribal courts, as the top priority 
for fiscal year 2008. NCAI urges Congress to help Indian Country law 
enforcement resources reach levels comparable to non-Indian 
communities. NCAI supports sustained 10 percent annual increases for 
Indian Country public safety program and especially urges this increase 
for tribal courts as part of making Indian communities safer.
                             indian health
    Poor health continues to inhibit the economic, educational and 
social development of all of Indian Country. A vast range of public 
health indicators show that American Indians continue to suffer 
disproportionately from a variety of illnesses and diseases. Indians 
have a shorter life expectancy and have higher rates of disease than 
the general population. One of the key recommendations from the Amnesty 
International report ``Maze of Injustice,'' was to permanently increase 
funding for the IHS to ensure adequate levels of medical attention. The 
fiscal year 2008 budget request for IHS is contrary to tribal 
consultation and would not maintain current services for basic health 
programs.
    Fund the Urban Indian Health Program.--President Bush has proposed 
the elimination of the Urban Indian Health Program within the Indian 
Health Service. Health problems associated with the Indian population 
can only be successfully combated if significant funding is directed at 
the urban Indian population as well as the reservation population. 
Rather than the President's proposal, NCAI recommends increased funding 
for Urban Indian Health Programs by 10 percent. This increase will 
elevate the Urban Indian Health Program funding from $32.7 million to 
$36 million and represents a necessary step towards closing the funding 
gap for urban programs. While this in no way addresses the total need, 
it will make a difference in access to and quality of care for American 
Indians/Alaska Natives living in urban areas.
    Maintain Existing Service.--American Indians and Alaska Natives 
receive life or limb service under current conditions, meaning funds 
are only available to treat the most life threatening illnesses leaving 
other serious health needs unaddressed. Failing to fund mandatory costs 
for pay costs, inflation, and population growth results in lost 
purchasing power and in even less services for Indian people. The 
administration reports a $212 million increase for mandatory costs in 
its justification, however, the increase is financed at the expense of 
the Urban Indian health program, a loss which tribes resoundingly 
oppose. The President's fiscal year 2008 budget would not fund $350 
million in mandatory costs. NCAI urges Congress to fund IHS at least to 
maintain current services.
    $150 Million for Contract Support Costs.--In 2005, the United 
States Supreme Court issued a unanimous decision in Cherokee Nation and 
Shoshone-Paiute Tribes v. Leavitt lawsuit, which powerfully reaffirms 
the enforceability of government contracts between Indian Tribes and 
agencies such as IHS and BIA. The Court's ruling compels corrective 
action from Congress, where historically insufficient funds have been 
appropriated to pay government contracts with Tribes, while all other 
government contracts are fully paid.
                            indian education
    Effective and culturally relevant educational systems are critical 
for nurturing strong, prosperous tribal youth and lay the foundation 
for healthy communities. A dangerous pattern has developed in recent 
years where Indian programs receive smaller increases in years where 
overall funding is up and bigger cuts in years when overall funding is 
down, and the proposed budget for fiscal year 2008 continues this trend 
in the Department of Education and Department of Interior. Although 
NCAI supports Interior Secretary Kempthorne's proposal to increase 
funding for the Bureau of Indian Education as part of an Indian 
Education Initiative, many of the education programs supported by 
tribal leaders were eliminated or reduced in the fiscal year 2008 
budget request, such as scholarships and adult education (reduced by $5 
million) and the Johnson O'Malley program (proposed to be eliminated).
    Johnson O'Malley Program.--: The President proposes to completely 
eliminate the Johnson O'Malley program (JOM) in fiscal year 2008. Once 
again, the administration justifies eliminating JOM stating other 
government programs can provide this funding. JOM is not duplicative of 
Department of Education programs. The U.S. Department of Education 
oversees the Title VII Indian Education Act programs which the 
President considers ``a similar funding'' source for Indian Education. 
The Title VII program is run directly through the school districts and 
is not subject to tribal control. The tribes have no actual authority 
over the design or implementation of the Title VII programs. NCAI urges 
Congress to restore the funding for this critical Indian education 
program.
                           natural resources
    Tribal communities maintain significant spiritual, economic, 
cultural, and material relationships with their natural environment. 
Natural resource programs are of immense importance to tribal cultures, 
including resource development, fish and wildlife, conservation, 
wetlands protection, and water resources. Protection of these resources 
form an integral part of the Federal Indian trust responsibility.
    BIA Natural Resources.--At the Bureau of Indian Affairs/Tribal 
Budget Advisory Council, tribal leaders and bureau representatives 
placed natural resources in the top four funding priorities for tribes 
and the BIA in fiscal year 2008. However, a partial list of 
disinvestments from fiscal year 2004 proposed in the President's fiscal 
year 2008 budget include: a $1.9 million cut, an 88 percent reduction, 
for Endangered Species from fiscal year 2004 levels; a $5.4 million 
cut, a 55 percent reduction, for Tribal Management/Development; $2 
million, a 52 percent reduction, for Noxious Weed Eradication; a $6.2 
million reduction for Rights Protection Implementation; and complete 
elimination of the Wetlands and Waterfowl Management program. Such 
diminishing resources leads to the dismantling of both the tribes' 
abilities to manage their natural resources and the Interior 
Secretary's trust responsibility to protect them. Overall, BIA natural 
resources funding should be restored to at least their fiscal year 2004 
enacted levels.
    Indian Land Consolidation.--Tribal leaders continue to stress that 
Indian land consolidation is critical for addressing the problem of 
fractionation, which creates an accounting nightmare for the Federal 
Government and enormous difficulties for Indian land owners in putting 
land to economic use. Land consolidation will improve Federal 
administration and management, and saves substantial Federal dollars 
that currently go to tracking tiny interests. The administration 
proposed $10 million for Indian land consolidation for fiscal year 
2008, $24.5 million below the enacted amount for fiscal year 2006. NCAI 
understands that the reduction to land consolidation may have been 
proposed at a time when Cobell settlement legislation, which included 
further measures to address fractionation, was anticipated to be passed 
during the 109th Congress. Considering that the Cobell settlement 
legislation was not enacted, NCAI urges Congress to fund the Indian 
Land Consolidation program in the very least at the fiscal year 2006 
enacted level of $34.5 million. However, NCAI would encourage Congress 
to fund ILCP at the level proposed by the administration in fiscal year 
2007, $59.5 million. Our understanding is that the Land Consolidation 
Office can effectively utilize these funds without the need to scale up 
the size of the office, and that land transactions costs are decreasing 
as the new title system is implemented. This investment in land 
consolidation will do more to save on future trust administration costs 
than any other item in the trust budget.
                                 other
    Data Management.--A persistent problem affecting all areas of 
Indian Country is the lack of efficient and effective data management 
and reporting. Tribes and Federal agencies badly need to improve 
capacity to identify existing needs and deficiencies and NCAI urges 
Congress and the President to invest in improved data management for 
programs affecting American Indians. For instance, in the Department of 
Interior, Indian Affairs programs do not maintain collected data in a 
ready access fashion for instant analysis and reporting, resulting in 
weeks or months to compile a report on standard program practices. The 
Bureau's lack of data management also leads to duplicate data calls, 
missed deadlines, and incomplete reporting. It appears that all 
programs collect standard program data on a regular basis, but fail to 
maintain it. NCAI urges an increased investment in data management to 
more efficiently and effectively use program funding; improve 
justification for budget formulation, budget allocations, and fund 
distribution; enhance data credibility and analysis for use by decision 
makers in critical processes (including GPRA and PART).
    Housing Improvement Program.--The President proposed complete 
elimination of the $18.8 million that funds the Housing Improvement 
Program in Tribal Priority Allocations. HIP serves the poorest of the 
poor in Indian Country by reducing substandard housing and homelessness 
through providing housing repairs and renovations of existing homes, 
construction of a modest replacement home, or construction of a modest 
home. NCAI urges Congress to restore this critical program in the 
fiscal year 2008 budget process.
                               conclusion
    NCAI realizes Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that you must weigh over the coming months. 
However, the Federal Government's solemn responsibility to address the 
serious needs facing Indian Country remains unchanged, whatever the 
economic climate and competing priorities may be. We at NCAI urge you 
to make a strong, across-the-board commitment to meeting the Federal 
trust obligation by fully funding those programs that are vital to the 
creation of vibrant Indian Nations.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Request: $50,000,000 State Historic Preservation Programs and 
$10,000,000 competitive grants to States for historic site survey 
digitization and emergency preparedness from U.S. Department of the 
Interior, National Park Service, Historic Preservation Fund
    The National Conference of State Historic Preservation Officers 
presents a two-part request: 1. $50,000,000 for the State Historic 
Preservation Offices (SHPOs) to fulfill the Federal commitment to 
historic preservation in the National Historic Preservation Act 2 (16 
U.S.C. 470) and 2. $10,000,000 for SHPOs for historic site survey 
digitization and emergency preparedness.
            $50,000,000 state historic preservation offices
    The $50,000,000 withdrawal from the $150,000,000 deposited into the 
Historic Preservation Fund in fiscal year 2008 constitutes formula 
matching grants to State Historic Preservation Offices to carry out the 
National Historic Preservation Act. This is a $14,283,324 increase over 
the administration's request.
    The National Historic Preservation Act sets out goals for the 
preservation of America's heritage: find every historic place, nominate 
significant places to the National Register, establish formal 
partnerships with local governments, review every Federal project for 
impacts on historic properties, advise project sponsors on historic 
rehabilitation, provide historic preservation education to all, conduct 
statewide planning, make matching grants for restoration, monitor 
covenants and easements. Since 1981, the administration budget requests 
have fallen woefully short of the need without a concomittant reduction 
in State responsibilities. $50,000,000 will bring the financial reality 
to the program demands.
     $10,000,000 competitive grants to shpos for digitization and 
                             identification
    Partly as a result of the Preserve America Summit--a national 
gathering of preservation experts in New Orleans in October 2006--the 
administration included a request for $5,000,000 in its budget for the 
digitization of historic site survey information. The National 
Conference commends the administration for acknowledging the need and 
for committing to a 7-year funding stream. We fully support $5,000,000 
in competitive grants to State Historic Preservation Officers to 
convert existing data on historic sites into electronic databases tied 
to a geographic information system.
    This effort will benefit the Federal Government. Federal agencies 
are required to take historic properties into account in project 
planning. The ``taking into account'' cost is dramatically reduced if 
agencies have on-line access through a GIS system to the location of 
historic properties. The administration's approach is realistic and 
doable. National Park Service's staff studies indicate that the 
digitization of paper records in State Historic Preservation Office 
files will require a $25,000,000 Federal commitment. (All HPF 
withdrawals are matched.) The administration's 7-year commitment will 
meet that goal.
    However, more is needed. The Katrina experience taught SHPOs that 
completing the identification of America's historic places is 
essential. The lack of information on the location of historic places 
significantly and unnecessarily delayed recovery. Had information on 
the location of historic places in the impact area been available in an 
electronic geographic information system, the historic preservation 
component of recovery could have begun virtually immediately.
    A second $5,000,000 would go for competitive grants to States for 
new field work to identify historic properties in areas prone to impact 
from disasters. Just as EMT's need addresses in responding to 9-1-1 
calls, when disaster strikes, agencies need to know the ``addresses'' 
of historic properties.
                               background
    Forty years ago, the National Historic Preservation Act of 1966 
(NHPA) established the Nation's historic preservation program to be 
carried out through State Historic Preservation Offices (SHPOs ). 
States continue to struggle to achieve bare minimum NHPA mandates as 
funding--in real dollar terms--declines. HPF withdrawals dropped by 
over 25 percent from fiscal year 2001 to fiscal year 2003 and has been 
essentially flat since then. Our request would return the national 
program to levels comparable to fiscal year 2001, adjusted for 
inflation.
    Declining HPF withdrawals continue to force SHPOs to prioritize and 
frequently lay aside the preservation needs of their States to respond 
to Federal requirements. Economic Research Associates, an 
internationally economic consulting firm, analyzed SHPO's activity and 
concluded.\1\
---------------------------------------------------------------------------
    \1\ Economic Research Associates, ``Section 106 Cost Assessment,'' 
for NCSHPO, January 2006, ERA Project No. 15755. Copies available 
through NCSHPO.
---------------------------------------------------------------------------
    Section 106 is a paradox in that it is an un(der)funded Federally 
mandated program that States are required to complete, whether or not 
sufficient budgets are available; as such, reallocation of funding from 
other program areas to cover the costs of section 106 funding have a 
negative effect on other historic preservation priorities.
    Historic preservation is and has been an effective domestic policy 
tool that both addresses key priorities for the conservation of our 
priceless heritage and generates significant economic benefits to the 
Nation. At $50,000,000, SHPOs could achieve much more as illustrated 
below.
                benefits of a $50,000,000 hpf withdrawal
    Economic Impact.--Aside from its incalculable cultural benefits, 
historic preservation also provides an opportunity to generate local, 
regional and national economic growth by revitalizing valuable historic 
neighborhoods and communities, enticing private capital investment and 
fostering heritage tourism. HPF programs such as the Rehabilitation Tax 
Credit have proven their worth using the modest Federal operating funds 
to stimulate as much as $3 billion in construction annually.
    Heritage Tourism.--Historic preservation is the foundation of 
heritage tourism, which is a multi-billion dollar industry ($200 
billion annually by 2005). Heritage tourists stay longer and spend more 
than other tourists do ($623 per historic/cultural trip as compared to 
$457 for an average U.S. trip), providing local jobs and creating 
local, State, and Federal tax revenues. SHPOs promote heritage tourism 
through historic site survey and National Register programs, and they 
further American history education by generating interest in urban and 
rural landmarks across America.
    Sample of State-Specific Benefits.--Here is a sampling of new tasks 
SHPOs would take on with a $50,000,000 appropriation.
    Alabama and New York: tackle their dual problems of rural 
depopulation and urban sprawl
    California: address the hard questions about significance of 
buildings from the recent past--the key period in California's history
    Idaho: combat looting of archeological sites; educate about 
historic buildings and energy conservation and handicapped 
accessibility
    Washington: cultivate the young generation with a keen interest in 
the architecture of the recent past
    Rhode Island: address the structural deficit in the human capital 
needed to promote the credit and assist developers to rehab rotting 
industrial complexes into a new, property tax-paying life
    New Mexico: famous for historic preservation around Santa Fe, most 
of the State needs advice on how retain its varied culture and historic 
homes and businesses.
                            why $50,000,000?
    The National Park Service Historic Preservation Fund Grants Manual 
in Chapter 2 Apportionment Formula determines that $50,000,000 is the 
appropriate amount (when matched) to run the basic national historic 
preservation program. The program components, all of which are 
mandatory, include identification of historic places; maintenance of 
historic site survey information and making it available for 
preservation use; National Register nomination process; consultation 
with Federal agencies on every action in the State; education for 
Federal agencies and the public; assistance to and entitlement funding 
for local government partners; statewide historic preservation 
planning; advising owners about and reviewing plans for historic 
rehabilitation tax credit applications; and on-going monitoring of 
easements and covenants for Historic Preservation Fund restoration 
grants from the 1970s. In addition to these mandated responsibilities, 
SHPOs coordinate and oversee Preserve America and Save America's 
Treasures grant projects.
    The HPF Fund allocations to State Historic Preservation Offices are 
operational funding, not a discretionary grant program. Unlike the Land 
and Water Conservation Fund grants for acquisition projects, the 
Historic Preservation Fund covers operational costs--salaries and 
benefits, office space, telephone, supplies, etc. Inflation and fixed 
costs directly impact State Historic Preservation Offices just as they 
do the National Park Service. A reduction in a LWCF appropriation 
results in doing fewer projects. State Historic Preservation Officers 
do not have that flexibility. Fixed costs are fixed. A flat HPF 
appropriation in dollar terms means an absolute reduction, a decrease.
            hpf allocations to the states--money well spent
    Under the administration's Program Assessment Rating Tool, 
management of Historic Preservation Programs receive a score of 89 
percent indicating exemplary performance of mandated activities.\2\  
The National Conference is disappointed that this success is not 
reflected in an increase in program funding in the administration's 
budget request.
---------------------------------------------------------------------------
    \2\ State LWCF grants, in contrast, received a review score of 43 
percent.
---------------------------------------------------------------------------
                               conclusion
    The National Conference of State Historic Preservation Officers 
appreciates the opportunity to present the States' HPF case to the 
Congress. We urge your careful consideration of the States' request 
($50,000,000 and $10,000,000, see p. 1) and that of Tribal Historic 
Preservation Officers ($12,000,000) and Preserve America ($10,000,000 
and Save America's Treasures ($30,000,000). The total request of the 
national historic preservation community is $112,000,000, $3,000,000 
less than the 2006 total (with emergency expenditures).
    Thank you.
                                 ______
                                 
       Prepared Statement of the National Cooperators' Coalition
                                summary
    The National Cooperators' Coalition (NCC) urges the subcommittee to 
increase the operational budget of the U.S. Geological Survey's 
Cooperative Fish and Wildlife Research Units (CFWRUs) by $5 million 
above the fiscal year 2008 request, and to provide additional funding 
of $20 million in subsequent years to initiate a competitive, matching 
fund program for support of high priority research and training by the 
CFWRUs. These increases above the fiscal year 2008 request are 
essential to successfully address the natural resource management 
challenges posed by climate change, energy development needs, invasive 
species, infectious diseases, wildfire, increased demand for limited 
water resources, and retirement and replacement of an unprecedented 
number of natural resource professionals over the next 10 years.
    The National Cooperators' Coalition is an alliance of more than 60 
nonfederal CRU program cooperators and other supporters of the CFWRU 
program. Its members include State wildlife agencies, universities, and 
non-governmental organizations. The mission of the NCC is to build a 
stronger and more coordinated base of support to serve research, 
education, and technical assistance needs of the nonFederal CFWRU 
program cooperators.
   funding the ncc vision for natural resources research and training
    The State agencies, universities, and organizations of the NCC have 
worked together to develop a Vision and Strategies for the Future of 
the CFWRUs, which identifies our most pressing natural resource 
challenges and outlines how greater use of the CFWRUs can help meet 
these needs. The CFWRUs are crucial to successfully addressing the 
natural resource management challenges posed by climate change, energy 
development needs, invasive species, infectious diseases, wildfire, and 
increased demand for limited water resources. These challenges also 
include replacing the unprecedented number of natural resource 
professionals who will be retiring over the next 10 years.
    As you know, each of the CFWRUs in 38 States is a true Federal-
State-university-private partnership among the U.S. Geological Survey, 
a State natural resource agency, a host university, and the Wildlife 
Management Institute. The CFWRUs build on these partner contributions 
to leverage more than $3 for every $1 appropriated to the program by 
Congress.
    Finding workable solutions to our natural resource challenges 
requires the CFWRU's management-oriented, community-based approach to 
research, which relies on interdisciplinary efforts and fosters 
collaboration and accountability. The CFWRUs also are well positioned 
to help replace our retiring workforce. They have an established record 
of educating new natural resource professionals who are management-
oriented, well-versed in science, grounded in State and Federal agency 
experience, and able to assist private landowners and other members of 
the public.
    To begin meeting these high priority research and training needs in 
fiscal year 2008, the NCC asks you to begin implementation of the NCC 
Vision by establishing a competitive, matching fund program within 
existing CFWRU legislative authority that eventually would make 
available $20 million annually in new funds beyond base operational 
costs. These new funds would support future cooperative, high priority 
research efforts and essential training of new natural resource 
professionals to replace the large number who will retire within the 
next decade.
    The fiscal year 2008 USGS appropriation also needs to provide 
approximately $5 million more than the fiscal year 2006/2007 funding 
levels for the CFWRUs to restore seriously eroded operational funds for 
each CFWRU, enhance national program coordination, and fill current 
scientist vacancies. This additional funding would restore necessary 
capacity in the CFWRU program for it to meet the Nation's research and 
training needs. Importantly it also would ensure that the Interior 
Department provides the Federal scientist staffing agreed to with 
partners so that the return on their continuing investment in the 
CFWRUs is realized and fully leveraged. Without an infusion of funds, 
one fifth of all CFWRU scientist positions (24) will need to be vacant 
by the end of fiscal year 2008 to remain within allowable spending 
levels.
    The NCC urges you to make greater use of this important research 
and training partnership, which already brings together State fish and 
wildlife agencies, State universities, and Federal agencies around a 
local, applied research agenda. With your assistance, the Cooperative 
Fish and Wildlife Research Units can become even more effective in 
using science and collaboration to address the natural resources 
challenges facing the Interior Department and other Federal, State, and 
local agencies.
    This effort is supported by the following hunting, angling, and 
conservation organizations: Archery Trade Association, Bear Trust 
International, Boone & Crockett Club, Bowhunting Preservation Alliance, 
Congressional Sportsmen's Foundation, Ducks Unlimited, Foundation for 
North American Wild Sheep, Izaak Walton League, National Trapper's 
Association, North American Bear Foundation, North American Grouse 
Partnership, Pheasants Forever, Pope & Young Club, Quail Forever, 
Quality Deer Management Association, Safari Club International, 
Theodore Roosevelt Conservation Partnership, Wildlife Forever, The 
Wildlife Society, and the Wildlife Management Institute.
    Thank you for consideration of this request. With your assistance, 
the CFWRUs can become even more effective in using science and 
collaboration to address the natural resources challenges facing the 
Interior Department and other Federal, State, and local agencies.

    University of Arkansas; University of Arizona; Arizona Game and 
Fish Department; Humboldt State University; Colorado State University; 
Colorado Division of Wildlife; University of Florida; Florida Fish & 
Wildlife Conserv. Comm.; University of Georgia; Georgia Dept. of 
Natural Resources; University of Hawaii; University of Idaho; Idaho 
Dept. of Fish and Game; Indiana Dept. of Natural Resources; Purdue 
University; Iowa State University; Iowa Dept. of Natural Resources; 
Kansas Dept. Wildlife and Parks; Louisiana State University; Maine 
Dept. Inland Fisheries & Wildlife; University of Maryland Eastern 
Shore; University of Minnesota; Minnesota Dept. Natural Resources; 
University of Missouri; Missouri Dept. of Conservation; University of 
Montana; Montana State University; Montana Fish, Wildlife and Parks; 
University of Nebraska-Lincoln; Nebraska Game and Parks Commission; 
University of Nevada, Reno; New Mexico Dept. of Game and Fish; New 
Mexico State University; North Carolina State University; North 
Carolina Wildlife Resources Commission; Oklahoma Dept. of Wildlife 
Conservation; Oklahoma State University; Oregon State University; 
Pennsylvania Game Commission; Pennsylvania Fish & Boat Commission; 
Clemson University; South Dakota Game, Fish and Parks; South Dakota 
State University; Tennessee Wildlife Resources Agency; Texas Parks and 
Wildlife Department; Texas Tech University; Utah State University; 
Virginia Tech University; Vermont Fish and Wildlife Department; 
Wisconsin Dept. Natural Resources; University of Wisconsin--Madison; 
Wyoming Game & Fish Department; University of Wyoming; Ducks Unlimited, 
Inc.; Association of Fish and Wildlife Agencies; Izaak Walton League of 
America; Midwest Assoc. Fish & Wildlife Agencies; Western Assoc. Fish & 
Wildlife Agencies; National Association of University Fish and Wildlife 
Programs; North American Grouse Partnership; The Wildlife Society;and 
Wildlife Management Institute.
                                 ______
                                 
    Prepared Statement of the National Council for Science and the 
                              Environment
                                summary
    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate $1.2 billion for the U.S. Geological Survey 
(USGS) in fiscal year 2008. NCSE recommends a minimum appropriation of 
$700 million for EPA's Office of Research and Development (bringing it 
back to fiscal year 2004 levels), including at least $150 million for 
EPA's Science to Achieve Results (STAR) research grants program and $20 
million for EPA's STAR graduate fellowship program. NCSE recommends a 
total of $900 million for EPA's Science and Technology account. NCSE 
also urges Congress to restore full funding for the Office of 
Environmental Education at a level of at least $10 million.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.
                         u.s. geological survey
    The U.S. Geological Survey provides essential services for the 
Nation yet suffers from a long-term funding shortfall. In real terms, 
funding for the USGS is currently at its lowest level since fiscal year 
1996, when the National Biological Service was first integrated into 
the USGS (Figure 1). The USGS budget has declined in real dollars for 5 
consecutive years and is targeted for another budget cut in fiscal year 
2008. The President's budget request would cut funding for the USGS by 
approximately $8 million or 1 percent to $975 million in fiscal year 
2008.
    As a founding member and co-chair of the USGS Coalition, NCSE joins 
with numerous other organizations in recommending an appropriation of 
$1.2 billion for the U.S. Geological Survey in fiscal year 2008. This 
increase would enable the USGS to restore the science cuts proposed in 
the budget request, accelerate the timetable for deployment of critical 
projects, launch new science initiatives that provide the scientific 
basis for addressing emerging national needs, and begin to reverse the 
cumulative effects of the long-term funding shortfall that has left the 
USGS budget stagnant for the past decade. After years of stagnant 
funding and absorption of uncontrollable cost increases, the USGS has a 
large and growing backlog of science and monitoring needs. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The USGS provides essential services that address many of the 
Nation's highest domestic priorities. A few examples are provided 
below:
  --In the wake of recent floods, wildfires, earthquakes and 
        hurricanes, there is a growing appreciation of the role of USGS 
        science in preventing natural hazards from becoming natural 
        disasters.
  --As the Nation grows increasingly concerned about energy, water, 
        mineral and biological resources, it will rely increasingly on 
        the USGS for resource assessments and under-standing to improve 
        the scientific basis for managing our natural resources.
  --The potential for an avian flu pandemic remains a global concern, 
        and the USGS is conducting targeted surveillance of birds for 
        avian flu in North America. The USGS provides information 
        necessary to track and respond to other infectious diseases 
        that can be transmitted from wildlife to people. It also 
        monitors the spread of invasive species that can pose 
        significant economic threats.
  --The USGS is poised to make greater contributions to climate change 
        science by taking advantage of its unique multidisciplinary 
        expertise and distributed geographic infrastructure to 
        interpret the consequences of climate variability to the 
        Nation's ecosystems and land and water resources.
  --The USGS is producing a new generation of digital geospatial data 
        products that provide a virtual infrastructure for resource 
        management, science, commerce, recreation, and homeland 
        security.
    Proposed budget cuts would adversely affect the ability of the USGS 
to achieve its mission. For example, more than $20 million would be cut 
from the Mineral Resources program, a devastating decrease of more than 
40 percent. The entire budget ($6.4 million in fiscal year 2006) for 
the Water Resources Research Institutes, which are located in all 50 
States, would be eliminated. We encourage Congress to restore these and 
other cuts proposed in the fiscal year 2008 budget request, but this 
funding should not come at the expense of other high priority programs 
elsewhere in the USGS.
    The USGS benefits every American every day. It deserves the 
continued support of Congress. NCSE is grateful to Congress for its 
past support of the USGS and for restoring proposed budget cuts. More 
investment is needed to strengthen USGS partnerships, improve 
monitoring networks, produce high-quality digital geospatial data and 
deliver the best possible science to serve the needs of the Nation.
                    environmental protection agency
    EPA's research and development portfolio has declined while the 
Nation's environmental challenges continue to grow. In order to fulfill 
its mission, EPA needs increased investments in both its intramural and 
extramural science programs, as well as such associated services as 
environmental education and information. EPA's strategic plan calls for 
science-based decisionmaking, but the agency will be unable to achieve 
this goal if its capacity to conduct science is not improved.
    EPA's funding for R&D is at its lowest level in nearly two decades 
in real dollars and would fall even further under the President's 
budget request for fiscal year 2008 (figure 2). After several years of 
steady declines, EPA's R&D funding level in fiscal year 2008 would be 
27 percent below the fiscal year 2004 funding level in real dollars, 
according to data compiled by the American Association for the 
Advancement of Science. EPA's extramural research grants program has 
suffered disproportion-ate budget cuts since fiscal year 2002.
    NCSE recommends a minimum appropriation of $700 million for EPA's 
Office of Research and Development (bringing it back to fiscal year 
2004 levels), including at least $150 million for EPA's STAR research 
grants program and $20 million for EPA's STAR graduate fellowship 
program. NCSE recommends a total of $900 million for EPA's Science and 
Technology account. NCSE also urges Congress to restore full funding 
for the Office of Environmental Education at a level of at least $10 
million.
    EPA created the extramural Science to Achieve Results (STAR) 
program as part of a set of reforms proposed by the National Academy of 
Sciences in the 1990s. The STAR program provides EPA with an 
opportunity to take better advantage of the intellectual and scientific 
resources of the academic community and apply these resources to the 
challenges faced by EPA. The STAR program has been widely praised. The 
National Academies issued a laudatory report, The Measure of STAR, 
which concludes that the program supports excellent science that is 
directly relevant to the agency's mission. According to the report, the 
STAR program has ``yielded significant new findings and knowledge 
critical for regulatory decision making.'' The report says, ``The 
program has established and maintains a high degree of scientific 
excellence.'' It also concludes, ``The STAR program funds important 
research that is not conducted or funded by other agencies. The STAR 
program has also made commendable efforts to leverage funds through 
establishment of research partnerships with other agencies and 
organizations.'' The National Academies report says, ``The STAR program 
should continue to be an important part of EPA's research program.'' 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Funding for the STAR program has been cut repeatedly over the past 
several years. The fiscal year 2008 request for the STAR programs 
(including fellowships) is $61.9 million, which is approximately 44 
percent below the fiscal year 2002 level of $110 million and 28 percent 
below the fiscal year 2004 level of $85.5 million. NCSE proposes that 
the STAR research budget be increased to $150 million, which would 
allow expansion of areas and scientists supported and would send a 
signal that Congress is serious about merit-based science for 
environmental decisionmaking.
    EPA created the STAR graduate fellowship program to ensure a strong 
supply of future environmental scientists and engineers. It is the only 
Federal program aimed specifically at students pursuing advanced 
degrees in environmental sciences. According to the National Academies, 
``The STAR fellowship program is a valuable mechanism for enabling a 
continuing supply of graduate students in environmental sciences and 
engineering to help build a stronger scientific foundation for the 
Nation's environmental research and management efforts.''
    The STAR Graduate Fellowship program has been repeatedly proposed 
for budget cuts, only to be restored by Congress each year. The budget 
for the fellowship program has been slightly under $10 million for much 
of its 10 year history. NCSE recommends doubling the funding for STAR 
fellowships to $20 million, which can be accomplished without any 
decrease in the quality of the awardees.
    The fiscal year 2008 budget request again proposes no funding for 
the EPA Office of Environmental Education. NCSE strongly encourages 
Congress to restore full funding of at least $10 million to support the 
congressionally mandated programs administered by this office. These 
programs provide national leadership for environmental education at the 
local, State, national, and international levels, encourage careers 
related to the environment, and leverage non-Federal investment in 
environmental education and training programs.
                                 ______
                                 
       Prepared Statement of the National Endowment for the Arts
    I am honored to report on the state of the National Endowment for 
the Arts (NEA) and the President's fiscal year 2008 budget request for 
$128,412,000. We are pleased that the President's budget contains an 
increase of $4 million for the NEA.
                               background
    As I begin my second term as chairman of the National Endowment for 
the Arts, I am proud to report that the NEA is currently operating with 
high artistic standards, unprecedented democratic access, inclusive 
partnerships, and improved efficiency. We have made remarkable progress 
in recent years and today have a strong sense of confidence in our 
public mission, reputation and record of service.
    The Arts Endowment's programs now reach into every corner of our 
Nation--bringing the best of the arts and arts education to the 
broadest and most varied audiences possible. While maintaining the 
highest artistic and educational standards, the agency has effectively 
democratized its programs, while also keeping them relevant to the 
needs of diverse communities. This expanded reach has been made 
possible by national initiatives such as Shakespeare in American 
Communities, NEA Jazz in the Schools, Operation Homecoming, Great 
American Voices, Poetry Out Loud, The Big Read, and American 
Masterpieces that together reach thousands of communities, classrooms, 
and military bases--collectively serving millions of Americans.
    Meanwhile our grants process has been broadened through our 
Challenge America: Reaching Every Community program that helps to 
ensure that direct grants reach arts organizations in every 
congressional district in the United States in addition to our State 
arts agency and regional arts organization grants. In 2007 we will 
achieve for the third consecutive year our goal of reaching every 
community in the United States--with many grants once again going to 
organizations that have never before received Endowment support.
                    fiscal year 2008 budget request
    The National Endowment for the Arts (NEA) is proud to support the 
President's budget request for fiscal year 2008 and to report on our 
progress during the past year. To support our vital mission, we are 
requesting a budget of $128,412,000, which includes $102.942 million 
for grant-making activities with $61.765 million committed to American 
Masterpieces, Challenge America, and basic grant programs and $41.177 
million allocated for State and regional partnerships.
                    agency goals and accomplishments
    The past 4 years have been a period of enormous innovation, 
sustained energy, and meaningful renewal at the NEA. We have made a 
series of significant changes that enable the agency to serve the 
Nation more efficiently and effectively.
    NEA grants are producing economic benefits throughout the country 
by nurturing local arts groups and enhancing local economies. With each 
dollar awarded by the NEA generating on average $6-$7 from other 
sources, the NEA is triggering an investment of approximately $600 
million for the arts from private donors and non-Federal sources.
    We welcome this opportunity to showcase the following programs that 
exemplify NEA's commitment to excellence, broad geographic reach and 
arts education.
Challenge America: Reaching Every Community
    The creation of the Challenge America program in 2001 marked a 
turning point in NEA history. This program built upon the agency's 
strengths in supporting the arts and arts education but challenged the 
NEA to broaden its service to Americans outside established cultural 
centers. The program quickly broadened the geographic distribution of 
grants, but it did not fully realize its original goals of reaching the 
entire Nation. In an average year, direct grants reached only about 
three quarters of the Nation (as measured by congressional districts). 
Consequently, areas of the Nation representing more than 70 million 
citizens received limited service from the agency.
    Four years ago, we set the goal of delivering a direct grant to 
every congressional district in the United States. In 2005, and again 
in 2006, the NEA realized 100 percent coverage with direct grants 
awarded to high-quality organizations in all 435 districts. In 2007 the 
NEA will again achieve that 100 percent coverage goal. The Arts 
Endowment considers the new Challenge America program one of its 
central achievements.
International Initiatives
    When I came to the NEA, I was dismayed to learn how little was done 
in international cultural exchange. Over the past few years, the NEA 
has focused on developing several programs that showcase America's 
artistic creativity and excellence abroad. We now provide assistance to 
U.S. music and dance ensembles invited to perform in international 
festivals abroad. We have joined with the Open World Leadership Program 
to support short-term residencies for Russian artists and arts 
administrators with U.S. arts groups.
    Most recently, as a partner in the State Department's Global 
Cultural Initiative launched in September, the NEA has begun a series 
of International Literary Exchanges. In partnership with other 
countries and U.S. independent presses, the NEA is providing American 
readers with access to literary works by contemporary writers of other 
countries and providing foreign readers with access to the work of 
highly talented living American writers. Building on the success of a 
United States-Mexico poetry anthology published in 2006, the NEA is 
currently developing similar projects with Russia, Northern Ireland and 
Pakistan.
                          national initiatives
    The Arts Endowment's national initiatives allow the agency to 
create partnerships with hundreds of local arts organizations, schools, 
and public institutions to achieve common goals. Creating these 
partnerships allows Federal dollars to be spent more effectively. Over 
the past 4 years these widely applauded initiatives have reached 
millions of Americans with programs of the highest quality and truly 
egalitarian reach. Managed through the regional arts organizations, the 
initiatives have provided hundreds of grants to arts organizations and 
employment to thousands of actors, singers, writers, musicians, and 
artists as well as directors, designers, stagehands, and technicians--
all directed at providing cultural services greatly needed and 
appreciated by local communities and schools.
American Masterpieces
    Many adults and young people are unfamiliar with the significant 
artistic and cultural achievements of our Nation. They have few 
opportunities in school or daily life to learn about the arts or 
acquire skills to appreciate or participate in them. To address this 
challenge, the Arts Endowment established American Masterpieces: Three 
Centuries of Artistic Genius. It vividly embodies the goals of 
excellence and outreach and features educational programs along with 
presentations of artistic works themselves.
    Now in its third year, American Masterpieces is fully under way 
with five major components--visual arts, dance, choral music, musical 
theater, and literature. American Masterpieces grants have enabled 27 
museums in 14 States to tour exhibitions to 136 cities across the 
Nation, reaching an estimated audience of 4.1 million. Choral music 
grants have supported the creation of eight regional festivals 
celebrating American choral music in seven States and the District of 
Columbia. Fifty dance companies are reviving and touring American 
choreographic masterpieces nationwide. In Musical Theater, 13 theater 
companies in 11 States are reviving and touring significant works of 
American musical theater. All these programs are reaching into 
underserved rural and urban American communities and introducing new 
generations to their rich artistic legacy.
The Big Read
    The National Endowment for the Arts' widely discussed 2004 report, 
Reading at Risk, identified a critical decline in reading among 
American adults. Drawn from a U.S. Census sample of 17,000 Americans, 
Reading at Risk established an especially alarming fact: literary 
reading is rapidly declining among Americans of all ages, races, 
genders, income and levels of education.
    Challenged to stem the decline in reading, the NEA developed a 
literary component of American Masterpieces called The Big Read. With 
Mrs. Laura Bush as its honorary chair, the Endowment is uniting 
communities and generations through the reading and discussion of a 
common book. To make the Big Read work, communities are creating new 
partnerships involving schools, libraries, literary centers, arts 
councils, dance and theater companies, symphony orchestras and museums, 
television and radio stations, as well as mayor's offices and chambers 
of commerce to broaden the reading of quality literature in every 
segment of the community.
    Piloted in 10 cities in 2006, Big Read programs are underway in 72 
towns and cities across the country during the Spring months of 2007. 
Our goal is for Americans to reconnect to the pleasure of reading great 
American novels in 200 communities across all 50 States in 2007 with 
400 communities participating in 2008.
    We have an opportunity to impact America profoundly with The Big 
Read. With additional funds for the Big Read requested by the 
President, we believe that we can make a significant difference in 
making the United States a better place to live for individuals, for 
families and for communities. The decision to expand The Big Read into 
400 communities is a pivotal moment in connecting Americans to their 
culture.
Shakespeare in American Communities
    The NEA's Shakespeare program is now in its fourth year with 
Shakespeare for a New Generation, a program that focuses on providing 
American students an opportunity to see a live professional performance 
of Shakespeare. Since the program began in September 2003, the 
Endowment has awarded 100 grants to 59 theater companies that have 
brought new productions of Shakespeare to more than 1,400 communities 
in mostly small and mid-sized cities, and to 18 military bases. More 
than 2,000 actors have performed for students attending 2,500 middle 
and high schools.
    The award-winning NEA Shakespeare classroom toolkit has been 
distributed free to 20,000 schools--32 percent of which are located in 
rural communities--reaching 15 million students. The NEA's Shakespeare 
program has reached deeply into all 50 States with an overwhelming 
positive response from teachers and students alike.
NEA Jazz in the Schools
    The Arts Endowment's long-standing support of jazz was broadened in 
2006 with the NEA Jazz in the Schools program, an engaging and 
substantive introduction to jazz created for high schools. Developed 
with Jazz at Lincoln Center and with support from Verizon and the 
Verizon Foundation, an academic tool-kit, made available in January 
2006, has already been provided free to 8,800 classrooms across all 50 
States. Used by teachers during Black History Month, some 4.5 million 
students have participated in the program, which introduces jazz as a 
distinctively American art form as well as a powerful and positive 
force in African-American social history. This new educational program 
was added while the agency maintained all of its 50 State NEA Jazz 
Master touring, and radio and awards programs.
Operation Homecoming and Other Programs for the Military
    Operation Homecoming was created by the National Endowment for the 
Arts to help U.S. troops and their families write about their wartime 
experiences. We are proud to report that the program achieved its goals 
well beyond our expectations. Operation Homecoming began in 2004 with 
50 writing workshops conducted by some of America's most distinguished 
writers on 30 military installations here and abroad. In response to a 
call for submissions, military personnel and their families submitted 
more than 12,000 pages of written material that was judged by an NEA 
panel of distinguished writers, editors and historians. With Andrew 
Carroll as editor, Random House published an anthology of the best 100 
literary works in Operation Homecoming: Iraq, Afghanistan, and the Home 
Front in the Words of U.S. Troops and Their Families.
    The program now draws to a close with the production of two films 
showcasing wartime writing and the creative process. This initiative 
was supported by the Boeing Company, which also funded Great American 
Voices that sponsored performances by 24 opera companies on 39 U.S. 
military bases with visits to neighboring schools. The response has 
been excellent, and the performers have consistently played to packed 
houses.
                               conclusion
    As we contemplate the future of the National Endowment for the 
Arts, we remain dedicated to our stated mission of bringing the best of 
the arts--new and established--to all Americans. Too few Americans, 
especially younger Americans, have the opportunity to know and 
experience the best of our Nation's rich artistic legacy. Too few 
students have access to arts education in their schools and 
communities. The Arts Endowment's mission is to enrich the civic life 
of the Nation by making excellent art and arts education truly 
available throughout the United States. A great Nation deserves great 
art.
                                 ______
                                 
    Prepared Statement of the National Environmental Services Center
    Chairwoman Feinstein, ranking member Craig, and members of the 
subcommittee: The National Environmental Services Center provides 
technical services, distributes information, and develops and delivers 
training programs to small and rural communities in the areas of 
drinking water, wastewater, and municipal solid waste. We accomplish 
our mission through two major programs, the National Small Flows 
Clearinghouse (Clearinghouse) and the National Environmental Training 
Center for Small Communities (Training Center). We seek your continued 
support for the Clearinghouse and the Training Center.
                                  need
    Small and rural communities (populations less than 10,000) require 
assistance in developing, maintaining, and managing their 
infrastructure for municipal wastewater treatment facilities. Well-
managed facilities protect public health and meet environmental 
regulations. Many communities use decentralized technologies such as 
septic systems or small water treatment systems. Small and rural 
communities generally have few financial resources and are overseen by 
elected officials who have limited time for hands-on management of 
treatment system, and limited staff support to assist in administering 
and maintaining their infrastructure.
    The Environmental Protection Agency (EPA) recognized that septic 
and small wastewater treatment systems are a significant component of 
the Nation's wastewater infrastructure. In 2005, EPA developed its 
Decentralized Wastewater Treatment Systems Program Strategy in response 
to Congress' 2003 request that EPA help small and rural communities 
make more efficient use of the limited funding available for wastewater 
infrastructure. EPA observed that the deployment of decentralized 
wastewater treatment systems also extends to suburban areas near larger 
cities where water treatment systems are too expensive to install. 
Approximately 40 percent of new developments use decentralized 
treatment systems. There are over 13,000 communities in the United 
States which fit the definition of small flow systems (less than 1 
million gallons of wastewater per day) compared to 533 systems serving 
our largest communities (more than 10 million gallons of wastewater per 
day). EPA's strategy addresses the largest number of systems and 
communities which have the least ability to pay for services.
    EPA requires the assistance of programs such as our Clearinghouse 
and Training Center to execute its strategy and attain our national 
goals in wastewater management. To that end, EPA has entered into a 
Memorandum of Understanding with nine other national water 
organizations, including the National Small Flows Clearinghouse, under 
which all participants are working cooperatively to meet strategic 
goals in the Decentralized Treatment Program.
    EPA has continually relied on the Clearinghouse and the Training 
Center to provide information services, technical assistance, and 
training for small and rural community officials and for service 
providers who work with these communities. However, the administration 
routinely does not request financial support for such programs in the 
EPA budget. Consequently, congressional action is required each year to 
support Clearinghouse and Training Center services. Other major 
providers such as the National Rural Water Association, the Rural 
Community Assistance Partnership, and the Groundwater Protection 
Council must also obtain congressional support on an annual basis 
because their programs are also not included in the administration 
budget request.
    We recommend that Congress continue to support the larger national 
effort in wastewater programs, including support for our Clearinghouse 
and Training Center. Without such congressional action, our small 
communities would suffer environmentally and economically from poor 
water treatment systems.
            about the clearinghouse and the training center
    Our programs assist agencies, organizations, and industries that 
focus on decentralized wastewater treatment. Theses technologies are 
referred to as ``decentralized'' because they do not require the large 
infrastructure investment common to centralized municipal collection 
and treatment systems. Because decentralized systems do not usually 
have dedicated operating personnel, specialized technologies and 
specialized training are needed to ensure safe and effective operation.
    Congress mandated the creation of a national small flows 
clearinghouse through the Federal Water Pollution Control Act of 1977 
under section 1254(q)(3). In 1991, Congress established the Training 
Center to expand the mission of the Clearinghouse to include training 
in addition to information dissemination. The Clearinghouse provides a 
comprehensive body of information and technical assistance services 
unique to the wastewater industry. Users of these services include 
individual homeowners, small town officials who do not have staff 
support to address regulatory requirements, developers, State 
regulators, and professionals who install and service alternative 
treatment systems. The training center develops curricula, trains 
trainers, and sponsors educational courses for these users.
    Accomplishments and services under the Clearinghouse and Training 
Center programs include:
  --Toll-free phone service providing technical assistance from our 
        staff of engineers and information experts to operators, 
        engineers, scientists, regulators, manufacturers, and 
        homeowners;
  --Magazines and newsletters, including Small Flows Quarterly, a 
        related publication called Pipeline, and a newsletter called E-
        train, that cover and drinking water and wastewater issues for 
        small communities, with a combined mailing list of 70,000 
        individuals or organizations nationwide;
  --More than 1,000 information products such as pamphlets, ``how-to'' 
        guides and handbooks, design manuals, videos, checklists, 
        equipment manufacturers catalogs and an outreach resource 
        guide, directories of various water and wastewater experts 
        nationwide, informational posters, case studies, and related 
        information;
  --Comprehensive web site and searchable online databases featuring 
        water, wastewater, security, and emergency preparedness 
        resources for communities of 10,000 or fewer residents;
  --Demonstration projects at more than 100 sites in 27 States showing 
        the latest onsite sewage treatment technologies and management 
        strategies at work;
  --The intensive State Onsite Regulators Conference: a one-of-a-kind 
        annual event for wastewater regulators and industry 
        professionals;
  --An annual week long national environmental training institute for 
        small communities and service providers;
  --The Nation's only Wastewater Vulnerability Assessment Guide for 
        small communities;
  --A ``Top Ten'' list of security and emergency preparedness actions 
        for small wastewater systems.
    With the support of Congress and cooperation and guidance from EPA, 
both programs have expanded their capabilities and level of service 
over time to address the ever increasing complexity of infrastructure 
issues as they pertain to smaller systems.
                                request
    Congressional support to continue the work of the Clearinghouse and 
Training Center is imperative because the State agencies and 
communities these programs assist cannot pay on a fee-for-service 
basis. Neither can State allocations for water and wastewater 
infrastructures pay for these programs' services. By virtue of the 
congressional appropriation, we are able to offer most of our services 
free of charge. Without congressional support, these programs will be 
unable to attain sufficient funding to continue. We request an 
appropriation of $2.25 million in fiscal year 2008 to continue the 
combined programs of the Clearinghouse and the Training Center. As in 
the past, we will confer extensively with EPA to develop a plan of work 
responsive to national needs and the goals of the EPA program.
    Thank you for considering our request.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
    Madam Chairman and members of the subcommittee: I appreciate the 
opportunity to submit testimony regarding the fiscal year 2008 funding 
request for the National Fish and Wildlife Foundation (Foundation). The 
Foundation respectfully requests that the committee fund these efforts 
at the following levels:
  --$9 million through the U.S. Fish and Wildlife Service's Resource 
        Management General Administration appropriation;
  --$3 million through the U.S. Fish and Wildlife Service's Resource 
        Management Endangered Species appropriation to conserve and 
        restore Pacific salmon in Washington State;
  --$4 million through the Bureau of Land Management's Management of 
        Lands and Resources appropriation; and
  --$4 million through the Forest Service's National Forest System 
        appropriation.
    This request lies well within the authorized levels and will allow 
the Foundation to better meet the demand for new or expanded strategic 
conservation programs. The appropriations provided by the committee are 
also used by the Foundation to attract additional funding for 
conservation projects through mitigation, settlements, and direct 
gifts.
    These dollars will be focused on mutually agreed upon projects 
across the country. Furthermore, the appropriated $20 million will be 
turned into a minimum of $40 million, according to the Foundation's 
Congressional Charter which requires a minimum of a one-to-one match. 
We have been operating on a three-to-one match historically, which 
means that the $20 million has the potential to turn into $80 million 
or more for on-the-ground conservation. One other note of special 
interest is that according to the Foundation's Charter, all directly 
appropriated funds have to be obligated to grants as they are not 
available to the Foundation for any direct or indirect expenses.
    Since our inception in 1984 through fiscal year 2006, the 
Foundation has supported over 8,865 grants and leveraged over $374 
million in Federal funds for more than $1.2 billion in on-the-ground 
conservation. This has resulted in more than 18.35 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and stronger 
education programs in schools and local communities. We recognize that 
without the seed money this committee provides many of these 
conservation benefits would not be realized.
    Our efforts encompass many boundaries and missions of our U.S. Fish 
and Wildlife Service (FWS), Bureau of Land Management (BLM) and USDA-
Forest Service (FS) partners. Whether it involves habitat conservation, 
species management, conservation education or international 
conservation, the Foundation strategically invests the Federal funds 
entrusted to us in sound projects. In fiscal year 2006, we received 
three times as many good project proposals as we could fund. With our 
FWS, BLM, and FS appropriations, we were able to fund 339 projects 
representing over $11.6 million in Foundation Federal funds, leveraging 
it with $1.7 million in other Federal funds and $51.7 million in non-
Federal funds to commit $65 million to on-the-ground conservation. This 
will result in thousands of acres of vital habitat being enhanced, 
restored, and protected as well as hundreds of stream miles improved. 
The remaining $1.5 million in appropriated funds was held back to 
support our spring special grant programs; when these pending projects 
are approved, it will bring our total on-the-ground conservation to 
more than $69 million.
    In fiscal year 2006, the FWS, BLM and FS partnerships we forged 
with our appropriated dollars are anticipated to help the Foundation 
permanently protect 2,362 additional acres; restore 14,149 acres; 
better manage 939,472 acres of public and private lands; and aid the 
restoration of 92 river and stream miles, as well as management of 175 
miles of rivers and streams. As our grantees continue to report to us 
on their restoration and management efforts, we expect to see increases 
for all of these performance measurements by year's end.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the most, cost-effective conservation program funded in part by 
the Federal Government. Congress established the Foundation 23 years 
ago, and since that time the Foundation's vision for more healthy and 
abundant populations of fish, wildlife, and plants has flourished 
through the creation of numerous valuable partnerships. The breadth of 
our partnerships is highlighted through our active agreements with 14 
Federal agencies, as well as numerous corporations, foundations and 
individual grantees. Through these unique arrangements we are able to 
leverage Federal funds, bring agencies and industry together, as well 
as produce tangible, measurable results. Our history of collaboration 
has given way to programs and initiatives such as the North American 
Waterfowl Management Plan, the Neotropical Migratory Bird Conservation 
Program, the National Fish Habitat Initiative, the Chesapeake Bay Small 
Watershed Grants Program, and the Pulling Together Initiative. With the 
support of the committee in fiscal year 2008, we can continue to uphold 
our mission of enriching fish, wildlife and the habitat on which they 
depend.
    Working Landscapes and Healthy Habitats.--The Foundation places one 
of our highest priorities on projects integrating conservation 
practices on ongoing agricultural, ranching, and forestry operations, 
with the goal of improving the ecological health of working lands.
  --Great Lakes Watershed Restoration Program (GL).--A multi-agency 
        partnership between the Environmental Protection Agency, FWS, 
        the National Oceanic and Atmospheric Administration, FS, and 
        the Natural Resources Conservation Service to promote ecosystem 
        restoration within the Great Lakes. The program provides grants 
        to State and local governments, as well as community 
        organizations, working to improve the conditions of their local 
        watersheds, while building citizen-based resources stewardship. 
        In fiscal year 2006, the Foundation awarded 22 projects 
        throughout the Great Lakes basin that leveraged over $1 million 
        in Federal funds to more than $3 million for on-the-ground 
        projects through the GL program.
    Conserving Fish, Wildlife, and Plants.--With our FWS, BLM, and FS 
appropriations, the Foundation also leveraged resources to fund 
projects that directly benefit diverse fish and wildlife species, 
including sage grouse in the intermountain west, cutthroat trout in the 
west and quail in the south. We also measure our success in part by 
preventing the listing of species under the Endangered Species Act, as 
well as by stabilizing and hopefully moving others off the list. We 
invested in common sense and innovative cooperative approaches to 
endangered species, building bridges between the government and the 
private sector.
  --Species benefiting from Foundation grants in fiscal year 2006 
        include the golden-cheeked warblers, whooping cranes, black-
        footed ferrets, California condors, cerulean warblers, northern 
        swift foxes, cutthroat trout, Chinook salmon, sage grouse, 
        Atwater's prairie chickens, sea turtles, Delmarva fox squirrel, 
        and red-cockaded woodpeckers.
  --Bring Back the Natives (BBN).--A longstanding Foundation grant 
        program is being modified to directly assist our agency 
        partners in implementing the National Fish Habitat Action Plan. 
        The BBN program is a public-private partnership, including FS, 
        BLM, FWS, Trout Unlimited and the Foundation; it is focused on 
        restoring native populations of sensitive or listed aquatic 
        species. Priority is provided to aquatic joint ventures and to 
        those projects that directly implement the recommendations of 
        the National Fish Habitat Action Plan. In fiscal year 2006, the 
        Foundation awarded 18 projects that leveraged over $1.2 million 
        in Federal funds to more than $4.7 million for on-the-ground 
        projects through the BBN program.
    New Strategic Plan.--During 2006, the Foundation underwent a 
detailed self-evaluation, which resulted in the development of a new 
strategic plan for the organization. The strategic planning process 
revealed that the Foundation maximizes conservation benefits when it 
targets a series of grants towards a specific geographic region, 
habitat type, or conservation challenge. To ensure that future grants 
achieve a sustainable and measurable conservation impact, the 
Foundation is establishing targeted Keystone Initiatives around the 
core conservation investment areas in which the Foundation has 
historically specialized. The Keystone Initiatives represent the new 
core portfolio of the Foundation's grant making with clearly defined 
long-term goals, well-articulated strategies, and defined budgets to 
reach desired outcomes.
    The four initial Keystone Initiatives, launched by the Foundation 
in 2007, include Birds; Wildlife and Landscape Scale Habitats; 
Freshwater Fish and Habitats; and Marine and Coastal Life and Habitats. 
Additional Keystone Initiatives being developed include Wildlife and 
Agriculture, Wildlife and Energy Development, Invasive Species, and 
Future Conservation Leaders. Each grant approved under a Keystone 
Initiative will be designed to provide a measurable outcome that brings 
us one step closer to the final long-term conservation goal of the 
Initiative. Where appropriate, the strategies and outcomes of the 
Foundation's Special Grant Programs, such as the Great Lakes 
Restoration Fund, Bring Back the Natives, and the Coral Reef 
Conservation Fund, will be designed to directly contribute to the long-
term Keystone Initiative goal. Through our targeted grants, the 
Foundation seeks to achieve measurable success in ``moving the needle'' 
on these critical conservation objectives over the next 5 to 10 year 
period.
    Accountability and Grantsmanship.--During the strategic planning 
process, Foundation staff spent time listening to feedback from our 
agency partners and grantees. Choke points in our grant making process 
were identified, and the Foundation is in the process of revising 
portions of our grant review and contracting process to ensure we 
maximize efficiency while maintaining strict financial and evaluation-
based requirements. The Foundation has also launched a new website that 
is more user-friendly and content rich than the previous version. This 
new interactive tool will allow the Foundation to improve communication 
with our stakeholders and will help streamline our grant making 
process.
    To ensure that only those grants with the greatest likelihood of 
obtaining conservation outcomes directly related to a Keystone 
Initiative are funded, the Foundation has implemented a thorough review 
process. Applicants are required to submit a pre-proposal which allows 
staff to proactively work with applicants to refine and improve their 
application before submitting a full proposal. All full proposals are 
then submitted to a peer review process which involves five external 
reviews representing State agencies, Federal agencies, affected 
industry, environmental non-profits, and academics. Grants are also 
reviewed by the Foundation's Keystone Initiative staff, as well as 
evaluation staff, before being recommended to the Board of Directors 
for approval. In addition, the Foundation provides a 30-day 
notification to the Members of Congress for the congressional district 
and State in which a grant will be funded, prior to making a funding 
decision, according to our congressional Charter.
    Basic Facts About the Foundation.--The Foundation is governed by a 
25-member Board of Directors, appointed by the Secretary of Interior 
and in consultation with the Secretary of Commerce. At the direction of 
Congress, the Board operates on a nonpartisan basis. Directors do not 
receive any financial compensation for service on the Board; in fact, 
most all of our directors make financial contributions to the 
Foundation. It is a diverse Board, and includes the Director of the 
U.S. Fish and Wildlife Service, the Administrator of the National 
Oceanic and Atmospheric Administration, as well as corporate and 
philanthropic leaders with a tenacious commitment to fish and wildlife 
conservation.
    None of our Federally appropriated funds are used for lobbying, 
litigation, or the Foundation's administrative expenses. By 
implementing strategic real-world solutions with the private sector, 
while avoiding regulatory or advocacy activities, we serve as a model 
for developing cooperative solutions to environmental issues. We are 
confident that the money you appropriate to the Foundation is making a 
positive difference.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
    This testimony is submitted on behalf of the National Humanities 
Alliance and its 91 member organizations in support of the National 
Endowment for the Humanities (NEH). The National Humanities Alliance 
respectfully urges the subcommittee to support funding of $177 million 
for fiscal year 2008 for the National Endowment for the Humanities, an 
increase of $36 million above the fiscal year 2007 level and the 
President's request. This increase would represent an important step 
forward in restoring NEH funding to its historic levels of demonstrated 
effectiveness.
    While we are pleased that the President continues to voice support 
for the humanities, we are disappointed that the administration has 
again recommended flat funding for the agency, at a level of $141.355 
million for fiscal year 2008. The President's budget proposal not only 
fails to address inflationary costs, it would cut funding for NEH core 
programs by an estimated $1.1 million to meet administrative and 
overhead increases.\1\
---------------------------------------------------------------------------
    \1\ This estimate is based on allocations outlined in the 
President's fiscal year 2007 and fiscal year 2008 budget proposals.
---------------------------------------------------------------------------
    The National Humanities Alliance supports an increase for all NEH 
program funds to help reverse the effects of budgetary cuts and 
inflation and ensure the long-term effectiveness of the agency. We are 
particularly concerned about recent declines in the capacity of the NEH 
core programs, which have suffered disproportionately from these 
downward forces. These programs are Research, Education, Challenge 
Grants, Preservation & Access, Public Programs, and the Federal/State 
Partnership. We propose that restored funding be routed through these 
core programs, and that it be directed, in so far as possible, in 
support of a new emphasis on the global context of the American 
experience. This new emphasis would reflect the country's need to 
comprehend the broader world we engage in such complex ways. The effort 
would complement both the agency's We the People initiative to promote 
study and understanding of American history, culture, and civic 
institutions, as well as the agency's recently launched Digital 
Humanities Initiative, which supports projects that develop innovative 
information technologies in humanities education and scholarship.
    We support the administration's request of $15.2 million for 
continued funding of the NEH We the People initiative, and $1.4 million 
to extend the Digital Humanities Initiative in fiscal year 2008.
           renewing the federal investment in the humanities
    Our members, and the thousands of teachers, scholars, organizations 
and institutions they represent, use NEH grants to maintain a strong 
system of academic research, education and public programs in the 
humanities. Even at an ebb, NEH is, today, the single largest source of 
support for the humanities in the United States.\2\  As such, NEH plays 
an important leadership role in the education of our Nation's citizens; 
the creation and dissemination of new knowledge; and the preservation 
and enrichment of American intellectual and cultural life. The 
significance of NEH funding is multiplied by the ability of NEH grants, 
and the high regard in which they are held, to stimulate additional 
project support. Since its founding, NEH has leveraged more than $2 
billion in direct, non-Federal giving for humanities projects across 
the United States. Though a relatively small agency, the NEH is 
nevertheless critical to the humanities infrastructure of the United 
States.
---------------------------------------------------------------------------
    \2\ According to data compiled by the Foundation Center and the 
American Academy of Arts and Sciences, the NEH provides almost six 
times the support for humanities programs as the largest private 
funder, and more than the top fifteen combined. Foundation Funding for 
the Humanities: An Overview of Current and Historical Trends, June 
2004.
---------------------------------------------------------------------------
    The combined impacts of inflation and budget cuts on the agency 
raise serious concerns about NEH's long-term ability to carry out the 
mandate for which it was established. The funding table below 
illustrates the decline, both in nominal and constant dollars, in the 
agency's operational capacity. NEH reached its nominal funding peak of 
$177.5 million in fiscal year 1994, which when adjusted for inflation, 
would be equivalent to $241 million today. Reinstituting the 1994 
budget level would constitute a significant reversal of this trend, and 
put the agency on a path toward full restoration of its grantmaking 
capacity.

                                                       NEH APPROPRIATIONS, FISCAL YEARS 1977-2007
                                                                [in millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                        Fiscal year
                                                                 ---------------------------------------------------------------------------------------
                                                                   1977    1979    1980    1990    1994    1995    2000    2004    2005    2006    2007
--------------------------------------------------------------------------------------------------------------------------------------------------------
Nominal $.......................................................    99.4   145.2   150.1   156.9   177.5   172.0   115.3   135.3   138.1   140.9   141.0
Constant $ (2006 $).............................................   330.6   403.3   367.2   242.0   241.4   227.5   134.9   144.4   142.5   140.9   141.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note.--Constant dollar values are adjusted for inflation according to the annual CPI-U.

             the global context of the american experience
    NEH's We the People initiative has been a noted success. We propose 
complementing that success in the study of the American experience with 
an extended effort aimed at support for understanding of cultures 
around the world. The increase we advocate--$36 million--would help 
support programming designed to enhance Americans' understanding of the 
world and our place within it. Like We the People, this emphasis on 
global cultural perspectives could be routed, administratively, through 
the core programs named above. This would restore those core programs 
to a level at which need has been demonstrated, while focusing the new 
funding primarily on issues of contemporary urgency.
    The well-being of this country depends now, as perhaps never 
before, on our ability to understand the ways of life and thought of 
peoples in disparate cultural traditions within and without our 
borders. One cannot understand the American experience without 
knowledge of the historical and cultural experiences that have informed 
the lives of new Americans arriving to this country from around the 
world. Moreover, we cannot succeed in aiding those we wish to assist or 
in defending ourselves against those who wish us ill, unless we bring 
insights cultivated uniquely and effectively in the humanities.
                            funding analysis
    In the legislation establishing NEH more than 40 years ago, 
Congress found that ``An advanced civilization must not limit its 
efforts to science and technology alone, but must give full value and 
support to the other great branches of scholarly and cultural activity 
in order to achieve a better understanding of the past, a better 
analysis of the present, and a better view of the future.'' Yet today, 
this vision remains unfulfilled. Federal funding for the humanities 
through NEH has failed to keep pace with either our Nation's economy, 
or its investment in science and engineering.
    In fiscal year 1979, the year in which NEH funding reached its real 
historical peak, Congress funded NEH at a level of more than $400 
million (2006 constant dollars)--a level equivalent to about 16 percent 
of the budget for the National Science Foundation. In 2007, NEH funds 
represent only 2.5 percent of the NSF budget. Over the last 30 years, 
Federal funding for NSF has grown by over 200 percent and has kept pace 
with the Nation's economic output. In contrast, NEH funding has 
declined by nearly 60 percent over the same time period, and, today, 
NEH is operating at less than half of its demonstrated funding capacity 
of 30 years ago.\3\
---------------------------------------------------------------------------
    \3\ Data sources include: NEH Office of Strategic Planning (NEH 
Annual Appropriations), NSF Office of Budget, Finance & Award 
Management (NSF FY Actuals), U.S. Department of Commerce Bureau of 
Economic Analysis (Real Gross Domestic Product).
---------------------------------------------------------------------------
    While we applaud the advances made in research and development in 
science and engineering, we cannot forget the importance of the 
humanities to our country's workforce and civic institutions. Our 
Nation faces many challenges in the 21st century. The information and 
skills imparted by study of the humanities--critical thinking and 
analysis, knowledge of world history, literature and cultures, and 
multiple language proficiency--are vital to our citizens' success in an 
increasingly complex and competitive global environment. The humanities 
are the vehicle through which our students and the public learn about 
and reflect on our Nation's history and civic institutions. They are 
equally an important conduit for promoting knowledge of our culture and 
institutions abroad. A greater investment in the humanities is 
necessary to ensure the knowledgeable citizenry upon which the 
preservation of our country's democratic ideals and long-term economic 
strength depends. It is time to renew our Nation's commitment to the 
education and enrichment of its citizens in all areas of learning.
                 funding shortfall in neh core programs
    The NEH core programs are at the center of the agency's mission to 
create, preserve, and disseminate knowledge in the humanities. Yet, 
since 1994, these programs have suffered disproportionately from budget 
cuts and inflation. In fiscal year 1994, NEH awards in the core program 
divisions of Research/Fellowships, Education, Preservation & Access, 
Public Programs and Challenge Grants totaled $126.8 million (not 
adjusted for inflation).\4\ In fiscal year 2006, awards in these 
divisions totaled only $80.8 million--a 36 percent decline.\5\
---------------------------------------------------------------------------
    \4\ NEH FY 1994 Annual Report.
    \5\ NEH Summary of Grants and Awards, fiscal year 2006. Division 
totals include We the People funds.
---------------------------------------------------------------------------
    While we recognize that Congress continues to face difficult 
choices this year, we are asking the subcommittee to recommend a 
funding increase for the agency of $36 million, signaling that the 
110th Congress is ready to make a significant new investment in the 
Nation's education and research infrastructure through the National 
Endowment for the Humanities.
    Thank you for your consideration of this request.
    Founded in 1981, the National Humanities Alliance is a coalition of 
more than 90 national, State, and local nonprofit organizations and 
institutions dedicated to the advancement of humanities education, 
research and public programs. Membership includes associations of: 
scholars and scholarly societies, libraries, museums, State humanities 
councils, historical societies, higher education associations, 
university-based and independent humanities research centers.
    Phi Beta Kappa is the Nation's oldest academic honor society. 
Founded in 1776, it has chapters at 276 institutions and half a million 
members throughout the country. Its mission is to champion education in 
the liberal arts and sciences, to recognize academic excellence, and to 
foster freedom of thought and expression. Among its programs are 
academic and literary awards, lectureships, a fellowship, a 
professorship, and publication of The American Scholar, an award-
winning quarterly journal.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
    Mr. Chairman, last December Congress unanimously passed Public Law 
109-471 which reauthorized Water Resources Research Act program for 
grants to States for water resources research institutes and for 
research focused on water problems of a regional or interstate nature 
through fiscal year 2011. The National Institutes for Water Resources 
respectfully request the addition of $8,775,000 to the 2008 budget of 
the U.S. Geological Survey to continue support for the Water Resources 
Research Act program.
    I would like to take this opportunity to thank you and the 
subcommittee members for your longtime support of the program and your 
support for the reauthorization. You have recognized the importance of 
university cooperation with local, State, and Federal Government 
agencies to produce new knowledge, and to ensure the education and 
training of the professionals who design and manage our water systems.
    The Water Resources Research Act of 2006, which reauthorizes the 
original Act of 1964, authorized the establishment of a water resources 
research institute at the land grant colleges in all 50 States, and in 
the Virgin Islands, Guam, the District of Columbia, and Puerto Rico. 
The program is administered by United States Geological Survey in the 
Department of Interior. The institutes were charged with: (1) arranging 
for competent research that addresses water problems or expands 
understanding of water and water-related phenomena; (2) aiding the 
entry of new research scientists into the water resources fields; (3) 
helping to train future water scientists and engineers; and (4) getting 
results of sponsored research to water managers and the public.
    The Water Research Institutes are uniquely positioned to address 
the interdisciplinary challenges of sustaining the reliability of water 
supplies in the face of new challenges and uncertainties. For more than 
40 years, the Institutes have conducted applied research that links 
science to innovative and cost-effective policies to increase the 
preparedness of water supply systems to withstand hazards.
    In administering the water resources research program the U.S. 
Geological Survey, distributes appropriated funds equally among the 
institutes. The institutes, in turn, award research funds through a 
competitive, peer review process. Each institute maintains one or more 
advisory panels comprised of local, State, and Federal water officials, 
representatives from water user groups, and other interested parties. 
Annually, these groups develop research priorities for their States and 
review the allocation of funds among various competing projects. In 
this way, each institute is able to focus grants on the most pressing 
water problems and issues affecting their State.
    The grants that support this water resources research, as well as 
information transfer and the training of research scientists, engineers 
and technicians must be matched with $2 non-Federal for each Federal 
$1. Thus, the Federal appropriation results in a larger pool of 
research funding. In Wisconsin, for example, the Federal dollars are 
matched with State dollars allocated to the University System to 
address groundwater issues. These Federal and State dollars in turn 
attract additional funding from Wisconsin Department of Natural 
Resources, Department of Health, and Department of Agriculture and 
Consumer Protection, all administered by the Wisconsin Water Resources 
Institute. This Federal/State/university effort would most likely not 
exist without the modest seed funding from the Water Resources Research 
Act.
    A second component of the act provides competitive Federal grants 
focusing on regional and interstate water resources problems beyond 
those affecting a single State and must be matched on a dollar-for-
dollar basis. By continuing and enhancing these collaborative efforts, 
the Institutes can better address critical issues on long-term water 
planning and supply that may exceed the resources of any one State.
                                request
    The requested $8,775,000 to the 2008 budget of the USGS for the 
Water Resources Research Act Program would be allocated as follows: 
$7,000,000 in base grants for the water institutes, as authorized by 
Section 104(b) of the act, for competitive research seed grants and 
outreach; $1,500,000 to support activities authorized by section 104(g) 
of the act, the national competitive grants program; and $275,000 for 
program administration.
    The increase from the fiscal year 2007 appropriation that is 
recommended herein would partially offset the sharp increase in 
university costs of the last 3-5 years, especially the cost of tuition.
                             justification
    ``At the dawn of the 21st century the United States faces a panoply 
of water problems that are significantly more numerous, complex, and 
larger in scope than those of the past.'' So stated an expert committee 
of the National Research Council in 2004, in an assessment that was 
initiated by this subcommittee and reported in Confronting the Nation's 
Water Problems: The Role of Research. These problems, paradoxically, 
stem from our Nation's progress and success. As the U.S. population 
grows and its economy drives forward, demands on water resources 
intensify. As the built environment expands, more value is jeopardized 
by each flood and drought. As we learn more about natural processes, we 
strive to bring our water management practices into alignment with our 
new understanding. As our general prosperity increases, we raise our 
expectations--for drinking water quality, the availability of irrigated 
farm produce and the abundance of wild fish. Meeting these demands 
requires high levels of research, outreach to water managers and water 
users, and education of future specialists.
    Federal agencies support and conduct a great deal of water research 
and training. But, as the NRC report points out, these are driven and 
constrained by agency missions, which means that important topics are 
often neglected--most notably the institutional aspects of water 
management, where important economies and innovations may be realized. 
Furthermore, other Federal research funding agencies--for example, NSF, 
EPA, USDA--while often focused on various themes, are mainly 
investigator initiated and dissemination of results often have to rely 
on peer reviewed journal articles and professional conferences. The 
Water Resources programs do that as well. However, there is value 
added. The Water Resources Institutes, most of them administered and 
situated on our Nation's premier research universities, work to 
integrate local, regional, national, and often global water research 
priorities on a network basis, train students, and get involved in 
outreach activities. As an extra value added, the institutes cooperate 
with USGS in a number of ways, making it a win-win situation for both 
the States and our Federal Government. It is our united vision that our 
institutes would be the ``go-to'' educational resource network and that 
our Nation would fully use the vast intellectual resources of our 
universities for the coming challenges on water resources issues.
    In response to the National Academy report on water research 
issues, NIWR has developed a national strategic plan. The plan 
basically articulates a research, outreach and education plan for our 
major research universities and how they can contribute to priorities 
presented in the report. Each of NIWR's eight regions was asked to 
prioritize research outreach and education issues, these were then 
incorporated into a national plan with metrics and measures of success.
    According to the NRC's 2004 report, private organizations and State 
natural-resource agencies need water research, education and training 
but seldom have the capacity to conduct these activities themselves. We 
maintain that it is necessary to tap the intellectual capacity that 
resides within universities and that these universities must play a 
major role. The question is: by what characteristics should the Water 
Resources Research Act Program be judged worthy to fill this role, at a 
time of unprecedented demand on the Federal budget? We propose four 
criteria: relevance, quality, efficiency and need.
    Congress was quite deliberate in originally directing the 
establishment of water institutes at land grant universities. These are 
the schools that specialize in identifying problems within their 
States, developing solutions, and conducting technology transfer. The 
institutes' research and outreach are further tuned to State needs, 
because the institutes are required by the act to consult with panels 
of advisors representing the water interests in their States. Regional 
and national priorities are addressed when the institutes collaborate 
on larger projects. Examples of past and present activities at 
different scales include:
  --The University of California Center for Water Resources is 
        sponsoring research to advance the monitoring of California 
        water resources from space. This work will allow monitoring of 
        water storage changes within the major drainage basins and 
        mountain ranges of the State, for the first time.
  --Collaborating with the USGS and Washington State University, 
        investigators from the Idaho Water Resources Research Institute 
        have constructed a water budget for the Spokane Valley/Rathdrum 
        Prairie aquifer and defined its implications for water 
        management. The project responds to the need to understand the 
        interaction between surface and ground water, and to develop 
        tools to predict how changes in water resources management 
        within the region will impact flows in the Spokane River.
  --Investigations of the causes of changes in groundwater recharge 
        rates in southeast Wisconsin.
    The President's budget recommends the water institute program for 
elimination in fiscal year 2008. This recommendation is justified by 
stating that the institutes generally have been successful in obtaining 
other sources of funding and should be able to support themselves. In 
fact, it is the congressional designation as a focal point of water 
investigation and outreach as well as the ongoing Federal support, that 
enable the institutes to exist and to augment their base grants from 
other funding sources. It is very likely that some of the institutes 
would cease to exist without the Federal base grant. Others would 
greatly curtail their activities. In my own State, it is doubtful that 
the university system would be such a strong contributor to the water 
resources knowledge base without the seed money provided by Congress.
    The investments the subcommittee makes in the USGS and its programs 
underpin responsible natural resource stewardship and contribute to the 
long-term health, security and prosperity of the Nation. Together, the 
Survey and the water resources research institutes meet important 
public needs and are a reasonable priority within a responsible 
appropriations bill.
    I thank you for your past support, and hope that the institutes 
have earned your continued confidence.
                                 ______
                                 
         Prepared Statement of the National Mining Association
                       department of the interior
    U.S. Geological Survey (USGS)--Mineral Resources Program (MRP). 
Reject the proposed $25.6 million reduction in funding for the MRP, 
including the $5.1 million proposed cut for the Minerals Information 
Team (MIT).
    Bureau of Land Management (BLM)--Mining Law Administration. Support 
the administration's request of $35 million to support administration 
of the mining law.
    Office of Surface Mining (OSM). An increase of $7 million is 
recommended for the Surface Mining Control and Reclamation Act (SMCRA) 
Title V State grants program.
               u.s. environmental protection agency (epa)
    Asia-Pacific Partnership on Clean Development and Climate (APP)--
Support the $5 million request for EPA's participation in this effort.
    Center for the Study of Metals in the Environment (CSME). $1.175 
million is recommended for the continuation of this program.
                               background
Mineral Resources Program
    The USGS is the only source for most of the United States' 
statistical data on mining and minerals commodities. The proposed 
reduction of $25.6 million in MRP funding (from the enacted fiscal year 
2006 budget) would result in the elimination of more than 210 full time 
employees (FTEs). The $5.1 million reduction proposed for the Minerals 
Information Team will result in the discontinuation of data collection 
and analysis for 100 mineral commodities in 180 countries and more than 
50 reports. The reduction will also result in the loss of employees 
with invaluable expertise in global and domestic production and 
consumption of mineral commodities. As a result, information on United 
States and international minerals will no longer be available to the: 
(1) U.S. Department of Commerce's Bureau of Industry and Security, 
which uses the data and analyses to resolve trade disputes; (2) the 
Federal Reserve Board, which uses global minerals information in 
preparation of economic forecasts; and (3) U.S. intelligence agencies 
that must understand the effect changes in natural resource markets 
have on economic and political stability of developing countries.
    Information provided by USGS is the basis for informed policy 
decisions and is extensively used by government agencies, by members of 
Congress and by State and local governments, as well as industry, 
academia and nongovernmental organizations. Mineral resource supply and 
demand issues are global in nature, and our Nation is becoming more 
dependent upon foreign sources to meet our metals and minerals 
requirements.
    The MRP is the leading source of unbiased research on the Nation's 
mineral resources. The guidance and research the program provides is 
important in maintaining the growing value of processed materials from 
mineral resources that accounted for $542 billion in the U.S. economy 
in 2006 as well as assessing the environmental impacts of mining.
Mining Law Administration Program
    NMA supports the BLM fiscal year 2008 request to increase the 
Mining Law Administration Program (MLAP) budget by $2 million. NMA 
remains concerned, however, that the increase will be insufficient to 
meet the agency's obligations to process notices and plans of 
operations necessary for domestic exploration and mining projects. The 
number of mining claims filed over the past 5 years has increased by 
more than 300 percent. In 2001, only 13,561 new mining claims were 
filed as compared to 57,494 in 2005. During the same time frame, the 
number of full-time equivalent (FTE) employees assigned to the program 
fell from 397 to 332.
    Additional staffing and other resources are necessary in order to 
process the notices and plans of operations required for expanding our 
domestic mineral supplies. Delays in obtaining permits and other 
authorizations remain a substantial impediment to the financing and 
development of mining projects in the United States. To that end, it is 
worth noting that the National Academy of Sciences has found that the 
permitting of domestic mining projects entails an inordinate amount of 
time and resources. According to Behre Dolbear, the United States ranks 
among the worst of the top 25 mining nations in terms of time and 
expense for obtaining required permits for mineral exploration and 
development.
    The consequence of this State of affairs is substantially longer 
lead times to get projects up and running so that they begin to 
generate a return on investment. As a result, permitting delays 
discourage companies from exploring in the United States and impair the 
ability to attract the capital investment required for mine 
development. In short, investment capital will flow to areas where 
investors experience a quicker return on their investment.
    In a 2005 report to the Congress, BLM identified insufficient 
staffing as one cause of permitting delays, noting that many BLM 
offices were not backfilling positions as they were vacated. BLM 
recommended that a portion of the increased location and maintenance 
fees could be used to maintain adequate staffing levels needed to 
review, analyze and approve plans of operations. NMA agrees that the 
increased location and maintenance fees should be used to address MLAP 
budget needs. In fact, BLM's budget request acknowledges that its $2 
million increase can be recouped from the increased fees. To address 
this regulatory bottleneck that impairs our Nation's economic growth 
and security, NMA provides the following recommendations:
  --Location and maintenance fees collected that exceed the MLAP budget 
        should be dedicated to the MLAP instead of being deposited in 
        the General Fund. In 2005, the amount collected from such fees 
        exceeded the budgeted amount by approximately $15 million. Such 
        funds would allow the hiring by BLM State offices of 
        approximately 100 FTEs to allow either backfilling of currently 
        vacated positions or new hires and;
  --Allocation of funds to the State offices should be prioritized 
        based on number of notices and plans filed in each office and 
        current unfilled openings in MLAP.
                        office of surface mining
    NMA recommends an increase of $7 million for the SMCRA Title V 
grants to the States. The increase is justified due to anecdotal 
evidence that States are not always receiving their full 50 percent 
match in funding to which they are entitled for their Title V 
regulatory programs under SMCRA. In some cases, this is caused by the 
Federal Government not accepting State estimates of operating costs and 
substituting their own, usually lower, estimates. NMA urges the 
Congress to ensure that State regulatory programs are provided matching 
funds at the full 50 percent rate of their actual costs. Failure to 
address this problem could eventually result in some States returning 
their regulatory authority back to the Federal Government, which would 
then lead to even higher costs for the U.S. Treasury.
       asia-pacific partnership on clean development and climate
    NMA supports the administration's request of $5 million to fund 
EPA's participation in APP and specifically their role in efforts to 
reduce greenhouse gas emissions. The APP will spur development of 
cutting edge technologies and practices that support economic growth 
while reducing emissions, including greenhouse gas emissions. It will 
result in expansion of market opportunities for U.S. mining and 
equipment companies and other U.S. businesses. The APP, involving the 
United States, Australia, China, India, Japan and South Korea, is 
important for a number of reasons:
  --It will result in real emissions reductions: With the participation 
        by China and India, APP is the only international agreement 
        addressing rapid emissions growth in the developing world, 
        which is forecast to surpass emissions of industrialized 
        nations in 2010. APP is a voluntary, technology-based approach 
        to emissions reduction geared towards future economic growth 
        and energy security and will be more effective than unrealistic 
        mandates or treaties.
  --It builds on Methane-to-Markets and other successful programs that 
        reduce greenhouse gas emissions: The U.S. coal industry has 
        captured and re-used 308 billion cubic feet of coal mine 
        methane--the equivalent of removing 40 million automobiles per 
        year from the roads. APP, working with the EPA's Methane-to-
        Markets program will use U.S. experience and expertise to 
        accelerate large-scale capture and recycling of methane in 
        China and India.
  --It helps preserve coal as an important energy source: The United 
        States, China, India, and Japan will be at the center of a 
        significant rise in population, economic activity and energy 
        use in the next 50 years. Coal is essential to sustaining 
        America's competitiveness and vitality in a changing world, as 
        it is in China and India. APP supports improvements in 
        efficiency in both coal mining and use through the acceleration 
        of clean coal technologies, industrial technology strategic 
        planning and energy efficiency best practices.
  --It creates new markets for U.S. companies in the emerging economies 
        of China and India.
           center for the study of metals in the environment
    The CSME is a multi-investigator team of scientists and engineers 
from the University of Delaware and Pennsylvania State University. The 
purpose of the CSME is to further the understanding of processes 
affecting the fate and effects of metals in aquatic and terrestrial 
ecosystems.
    NMA recommends $1.175 million in funding for the CSME. A sound 
understanding of the chemistry, toxicology and fate of metals in the 
environment is critical to the development of appropriate regulatory 
programs. The CSME will use the requested funding to develop 
quantitative tools for understanding and predicting the fate and 
effects of metals in soils and water. This work will include: 
understanding and modeling the fate of metals in streams, rivers and 
lakes; and conducting research into metal sequestration in soils, a 
natural process that can lower the risk of metals in soil and, thereby, 
decrease cleanup costs at mining, military and industrial sites.
    The National Mining Association (NMA) represents producers of over 
80 percent of the coal mined in the United States. Coal continues to be 
the most reliable and affordable domestic fuel used to generate over 50 
percent of the Nation's electricity. NMA members also include producers 
of uranium--the basis for 20 percent of U.S. electricity supply. NMA 
represents producers of metals and minerals that are critical to a 
modern economy and our national security. Finally, NMA includes 
manufacturers of processing equipment, mining machinery and supplies, 
transporters, and engineering, consulting, and financial institutions 
serving the mining industry.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's 325,000 members, we appreciate 
the opportunity to share our funding priorities and respectfully 
request the committee consider these views as the fiscal year 2008 
Interior budget is developed. NPCA strongly supports the 
administration's request of $1.97 billion for the Operations of the 
National Park System (ONPS), an increase of more than $200 million 
above current fiscal year 2007 funding levels. However, other National 
Park Service accounts are woefully inadequate in the President's budget 
request, most notably, funding for land acquisition. Funding for Park 
Service land acquisition under the Land and Water Conservation Fund 
(LWCF) is requested at only $22.5 million, a cut of more than 50 
percent from current fiscal year 2007 levels, and over $100 million 
below levels only 5 years ago. NPCA recommends at a minimum restoring 
funding for Park Service land acquisition to current fiscal year 2007 
levels, and working toward restoring LWCF to its historic levels.
                 operations of the national park system
    A top NPCA priority is to significantly increase funding for Park 
Service operations. NPCA strongly supports the $1,969,010,000 requested 
for ONPS, an increase of $206 million above current fiscal year 2007 
levels. This budget increase was supported by 40 Senators in a recent 
bipartisan letter sent to the committee.
    If enacted, the requested increase of $206 million would greatly 
benefit our parks across the country. In particular, this budget would 
provide:
  --Nearly 500 permanent full-time employees
  --1,000 new seasonal maintenance employees
  --1,000 new seasonal interpretive rangers
  --1,000 new seasonal visitor and resource-protection rangers
    As the subcommittee is well aware, the Park Service faces a 
significant operational shortfall, estimated to exceed $800 million 
annually. In recent years, unbudgeted cost-of-living increases, un-
reimbursed storm damage, and insufficient funding for new 
responsibilities such as homeland security, have stretched park budgets 
thin. Since 2001, the Park Service has absorbed $149 million for 
unbudgeted pay increases alone.
    Another significant shortcoming has been the across-the-board cuts 
required to appropriations bills as a result of insufficient 
allocations to the committee. Since fiscal year 2001, across-the-board 
cuts have cost the Park Service $111 million.
    We know that the subcommittee is aware of these shortcomings and 
welcomed the Chairman's efforts in the fiscal year 2007 Continuing 
Resolution to focus an extra measure of attention on them.
    Park Service operations funding is not keeping pace with park 
needs. As a result, the Park Service cannot provide adequate resource 
protection and services for millions of visitors to our Nation's 390 
national parks every year. Securing a substantial increase for park 
operations funding in fiscal year 2008, and building upon it in the 
years ahead toward 2016, will help to restore our parks by their 
centennial.
                  national park centennial initiative
    When the Eisenhower administration launched Mission 66, it made a 
10-year commitment of $1 billion ($7 billion in today's dollars) in 
preparation for the 50th anniversary of the National Park System. 
Today, the American people are united around the idea of fully 
addressing the needs of the parks in time to celebrate the 100th 
anniversary of the National Park System and Park Service in 2016.
    The proposed National Park Centennial Initiative offers an 
opportunity to restore our parks, but this will require a sustained and 
comprehensive effort by the American public, Congress, and the White 
House. The central element of such an effort must involve the Federal 
Government meeting its primary stewardship responsibility to protect 
and fund our national parks.
    There are five key areas in which the Centennial Initiative can 
make a measurable difference to help our parks:
  --Restore.--Restore the health of the cultural and natural resources 
        of our national parks by taking action to overcome external and 
        internal threats.
  --Reinvest.--Reinvest in our national parks by establishing reliable 
        sources of sustainable public funding and strategic private 
        investments.
  --Reinvigorate.--Reinvigorate the management capacity and efficiency 
        within the National Park Service by facilitating mission-driven 
        decision-making, encouraging innovation, and stimulating 
        stakeholder collaboration.
  --Research.--Ensure that the parks have current science and active 
        research to inform decisions about park protection, as these 
        decisions should be based on science and informed expertise to 
        the greatest extent possible.
  --Represent.--Ensure that the National Park System continues to grow 
        and evolve to represent and interpret nationally significant 
        landscapes, ecosystems and the full range and diversity of 
        American history and culture, and reflects and engages all 
        Americans.
                            land acquisition
    Federal funding for national park land acquisition under the Land 
and Water Conservation Fund (LWCF) program has decreased dramatically 
in recent years. In 2001, Federal land acquisition was funded at $125 
million, and benefited 46 national park sites; by 2007, Federal funding 
for land acquisition had dropped 81 percent to only $22 million for one 
park.
    This drastic cut could not come at a worse time. Unplanned 
development in and around national parks threatens park resources, 
scenic views, and air and water quality. Today, the Park Service 
estimates that more than 11,000 tracts or 1.8 million acres are in need 
of funding for acquisition, with an estimated value to developers of 
$1.8 billion. For instance, at Gettysburg National Military Park, the 
Park Service does not own nearly 20 percent of the land within its 
boundary.
    From the world-class paleontolgical resources at Petrified Forest 
National Park in Arizona to the historical resources associated with 
the encampment of General Washington's Continental Army at Valley Forge 
National Historical Park, parklands across the Nation are threatened. 
We must provide adequate LWCF funding to protect these national 
treasures.
    The consequences of insufficient land acquisition funding are 
dramatically illustrated at Petrified Forest National Park--a site of 
top concern to NPCA and the Park Service. Petrified Forest contains 
more than 500 archaeological and historical sites that reflect 10,000 
years of human history, and a rich fossil record of the Triassic 
Period. The site's significance was underscored last week when the 
Department of the Interior nominated it among 36 U.S. sites for UNESCO 
World Heritage status. Despite support from the Park Service, and 3 
years after Congress authorized expanding Petrified Forest, little 
Federal funding has been appropriated for this important project, and 
the willing sellers in the area are growing increasingly impatient as 
years pass and developers offer greater and greater incentives to sell.
    In fiscal year 2001, Congress appropriated $2 million for the 
Bureau of Land Management to acquire lands now within the boundary of 
the park, yet these monies were reprogrammed in fiscal year 2002 for 
fire suppression activities. We request at a minimum that these monies 
be restored. Additionally, we appreciate that the 110th Congress 
recognized the importance of this land acquisition need, adding 
Petrified Forest to the list of projects in the final fiscal year 2007 
Appropriations bill. Unfortunately, only $135,000 was allocated, which 
is not sufficient to purchase any of the congressionally-approved 
125,000 acres of private and public land.
    NPCA is seeking $4 million in fiscal year 2008 as a down payment. 
With land values rapidly increasing in the Sunbelt, further delay will 
only add to the cost of acquiring these lands.
    Other examples of Park Service priority land acquisition projects 
that NPCA would like to see funded in fiscal year 2008 include:
  --$1.5 million for acquisition of 440 acres in the Carbon River 
        Gateway at Mount Rainier National Park in Washington to enhance 
        visitor access to the park and conserve lands along the Carbon 
        River that provide habitat for fish and wildlife;
  --$3.5 million for Valley Forge National Historical Park in 
        Pennsylvania to acquire lands within the boundary of the park 
        that preserve and interpret the encampment of General 
        Washington's Continental Army in one of the fastest-growing 
        areas in the State; and
  --$1.9 million for Fern Lake at Cumberland Gap National Historical 
        Park in Kentucky and Tennessee to protect both a historical 
        landscape, scenic viewshed, and critical water supply in the 
        park.
    Finally, NPCA supports greater LWCF funding the Emergency Hardship, 
Deficiency, and Relocation Fund--key to the acquisition of inholdings, 
particularly in Alaska's national parks. The Hardship Fund is used 
effectively by the Park Service's Alaska Regional Office to secure 
critical inholdings in national parks from willing sellers. Through the 
Hardship Fund, remote parcels have been secured, thus removing the 
threat of heirs of original allotees subdividing and selling their lots 
for commercial use in the middle of Alaska's premier wilderness parks. 
Currently, the Hardship Fund is funded at $2.3 million. NPCA is seeking 
$4.6 million in fiscal year 2008 for the fund.
                underground railroad network to freedom
    The Park Service's Underground Railroad Network to Freedom (NTF) 
program is the only national program dedicated to the preservation, 
interpretation, and dissemination of Underground Railroad history. 
Established by Congress in 1998 to increase public knowledge and 
awareness of the Underground Railroad and the desperate struggle by 
enslaved people to resist slavery through escape and flight, the NTF 
has 285 members (institutions, programs, and facilities) in 27 States 
and the District of Columbia.
    The NTF program is an excellent public-private partnership 
program--a proven success and one of the best diversity-enhancing 
initiatives ever developed by the Park Service. Staff matches Park 
Service resources with local expertise to enable communities, scholars, 
and park sites across the United States to more capably tell their part 
of the Underground Railroad story.
    Funding woes, however, threaten the future of this dynamic program. 
Originally funded at $500,000 annually, the NTF has suffered from a 
woefully inadequate budget since its inception. At its current funding 
level of $479,000, the NTF cannot cover staff salaries, benefits, nor 
pay for basic programmatic services. In November 2006, the Park 
Service's own core budget projections indicated that without 
assistance, the NTF budget will be reduced by 72 percent by the year 
2011, effectively terminating the program.
    NPCA is seeking a modest $2-million increase to the annual 
operating budget of the NTF program. This important funding would 
resolve its financial needs and ensure the survival of this important 
program. Representatives Hastings and Castle have introduced bipartisan 
legislation (H.R. 1239) in the U.S. House of Representatives to 
reauthorize the National Underground Railroad Network to Freedom Act to 
provide funding and staffing levels more appropriate to the actual 
needs of the program. NPCA supports the passage of H.R. 1239 to 
increase the authorization for this important program.
                              great lakes
    There are 18 popular national parks in and around the Great Lakes 
watershed. Like the Grand Canyon and Everglades, the Great Lakes define 
the soul of a region and the landscape of our Nation. But this 
invaluable resource--which provides economic and recreational benefits, 
as well as drinking water for 30 million Americans--needs greater 
support.
    NPCA co-chairs the Healing Our Waters coalition, which is calling 
on Congress to fully fund the Great Lakes Legacy Act with $54 million, 
and the Great Lakes Fish and Wildlife Restoration Act with $16 million, 
among other programs. These programs, when funded in tandem with the 
Park Service, will help our parks, restore the Great Lakes watershed, 
and protect vital wildlife habitat.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    Mr. Chairman, members of the Subcommittee: On behalf of the 
National Wildlife Federation, our nation's largest conservation 
advocacy and education organization, and our more than 4 million 
members and supporters, I thank you for the opportunity to provide 
funding recommendations for Department of the Interior and USDA 
programs for fiscal year 2008. The purpose of this testimony is to 
recommend levels of funding for specific programs we believe are vital 
to NWF's mission to inspire Americans to protect wildlife for our 
children's future.
                     u.s. fish and wildlife service
State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the nation's core 
program for preventing wildlife from becoming endangered in every 
State. It is a mission-critical element of the Interior Department's 
budget as no other Federal program is focused solely on this goal. It 
provides State wildlife agencies and their partners a broad suite of 
proactive conservation tools to allow for meaningful, proactive and 
cost-effective species conservation. When Congress created the program 
in fiscal year 2001, every State wildlife agency was asked to complete 
a State wildlife action plan. In the 6 years since, this program has 
yielded detailed strategies for protecting wildlife in each State and 
territory across the country, called Wildlife Action Plans. With the 
creation and recent final approval of State Wildlife Action Plans, we 
now have a national conservation blue-print in place for wildlife for 
the first time in history. This is truly a landmark for wildlife 
conservation. The National Wildlife Federation supports these plans and 
is actively working in several States as a partner to State wildlife 
agencies to promote these plans as foundations for State wide 
conservation agendas. We urge Congress to honor its commitment to this 
effort and to protect its own investment in the State Wildlife Grants 
Program by providing the Federal share of support as the program enters 
this new phase of implementation. The Administration's request for 
$69.5 million in the fiscal year 2008 budget is a slight increase 
relative to the 2006 enacted level, but is insufficient to meet the 
large and growing needs of this program. We respectfully request that 
the subcommittee restore State Wildlife Grants funding to $85 million, 
or the fiscal year 2002 level, which represents the highest level of 
funding for this program to date.
National Wildlife Refuge System Operations and Maintenance
    The President's budget request of $394.8 million for the National 
Wildlife Refuge System Operations and Maintenance budget, although a 
modest increase over fiscal year 2007 levels, fails to reverse severe 
erosion in the Refuge System budget in the last 4 years. We note with 
concern that when inflation and increases in salaries, rents, cost-of-
living adjustments, energy prices, and increasing levels of visitor 
services and wildlife management requirements are taken into account, 
this would be an effective cut in refuge funding, and thus a 
significant decrease in refuge services. NWF supports the Cooperative 
Alliance for Refuge Enhancement (CARE) recommendation of $451.5 
million, which would equal the fiscal year 2004 Refuge System budget 
($391 million) when adjusted for inflation. This level of funding would 
ensure a ``no-net-loss'' budget which would allow the Refuge System to 
avoid layoffs and reductions in services, maintain protections for 
wildlife and habitat, and provide for addressing the backlog in coming 
years.
Endangered Species Program
    The Endangered Species Act (ESA) is a safety net for wildlife, 
plants and fish that are on the brink of extinction. The ESA has been 
almost 100 percent effective in preventing the extinction of plants and 
animals. However, the U.S. Fish and Wildlife Service (FWS) needs more 
funding in order to implement the ESA effectively and get more species 
on the road to recovery. The Service has lost 600 staff members in the 
last 2 years alone. Each of the programs responsible for implementing 
the Act is missing at least thirty percent of the staff it once 
contained. In order to recover more species, Congress must provide the 
Service with the funds it needs to do its job. We urge the subcommittee 
to appropriate at least $185.2 million toward the Endangered Species 
Program in order for FWS to meet its ESA implementation 
responsibilities through the following critical activities:
  --Listing Program.--This program will require $25.2 million for 2008 
        (the President's budget request is 18.3 million) in order to 
        allow the FWS to address both new species and the backlog of 
        species awaiting action on proposed listings and critical 
        habitat designations.
  --Recovery Program.--Despite the fact that Congress repeatedly States 
        that recovery is the most important element of the ESA, 
        recovery funding has remained almost stagnant in recent years. 
        For an effective recovery program, FWS needs $84.8 million. 
        This is $16.7 million more than the President's request.
  --Consultation Program.--Under provisions of section 7 of the ESA, a 
        Federal agency that permits, licenses, funds, or otherwise 
        authorizes activities must consult with the FWS as appropriate 
        to ensure that its actions will not jeopardize the continued 
        existence of any listed species. In 1999, FWS participated in 
        40,000 consultations and received $36 million in funding. In 
        2006, FWS participated in approximately 77,000 consultations--
        with only $48 million. While the amount of work almost doubled 
        for FWS staff, funding to ensure consultations are done 
        accurately and efficiently has not. To ensure an accurate and 
        efficient consultation program, FWS needs $63.2 million. The 
        President's request is only $51.6 million.
  --Candidate Conservation.--Candidate species are plants and animals 
        for which the service has sufficient information on their 
        biological status and threats to propose them for listing as 
        endangered or threatened under the Endangered Species Act, but 
        for which listing is precluded due to a lack of resources and 
        other higher priority listing activities. To allow species to 
        gain the full protections of the ESA--and start moving towards 
        recovery--FWS needs $12 million in 2008. This is a $3.4 million 
        increase over the President's request.
    In addition to the core endangered species programs, FWS needs 
$134.6 million to increase incentives for cooperative conservation in 
order to protect endangered wildlife. The Bush Administration recently 
zeroed out funding for two successful land owner incentive grant 
programs. NWF would like to see the programs adequately funded. The 
Private Stewardship Program provides grants and other assistance on a 
competitive basis to individuals and groups engaged in local, private 
and voluntary conservation efforts that benefit federally listed, 
proposed, or candidate species, or other at-risk species. We would like 
to see this program receive $11 million in 2008.
    The Landowner Incentive Program (LIP) provides States with grants 
for incentive programs. These grants are designed to establish or 
supplement landowner incentive programs that protect and restore 
habitats on private lands to benefit federally listed, proposed or 
candidate species or other species determined to be at-risk. NWF would 
like to see it funded at $27.4 million (the President's request is $0).
    The Cooperative Endangered Species Conservation Fund (authorized 
under section 6 of the Endangered Species Act) offers grants to States 
for participation in a wide array of voluntary conservation projects 
for candidate, proposed, and listed species. These funds may in turn be 
awarded to private landowners and groups for conservation projects. 
Section 6 grants include: Recovery Land Acquisition Grants; Habitat 
Conservation Plan (HCP) Land Acquisition Grants; HCP Planning 
Assistance Grants; and Grants to States. We would like to see this 
program receive $96.2 million. This would be a $16.2 million increase 
over the President's budget.
                        bureau of land managment
National Landscape Conservation System (NLCS)
    The National Landscape Conservation System is an American treasure 
that consists of 26 million acres of some of the last best places where 
one can experience the history and wild beauty of the American West. 
Since its creation in June 2000, however, the System has been 
chronically under-funded and starved for adequate resources to meet its 
core responsibilities and manage the growing number of visitors. The 
President's fiscal year 2008 budget is the lowest level of funding ever 
proposed for the National Landscape Conservation System: $49.2 million, 
or less than $2 an acre. This constitutes a destructive cut of almost 
$3 million from the already inadequate fiscal year 2007 enacted budget, 
and nearly $10 million, or more than 16 percent, from the insufficient 
fiscal year 2006 enacted level of $59 million. When accounting for 
inflation alone, and not normal uncontrollable operating increases, the 
President's proposal is over 20 percent below average funding over the 
last 5 years. The total proposed budget of just $49.2 million would 
leave critical BLM responsibilities and needs unmet, including law 
enforcement, management of illegal off-road vehicle traffic, 
archaeological site protection, control of invasive species, and the 
implementation of new Resource Management Plans. We urge the committee 
to increase the System's fiscal year 2008 budget by $19.76 million, for 
operations and maintenance, to provide a total of $69 million to 
conserve the unique National Monuments, Conservation Areas, Trails, 
Rivers, and other areas that comprise the 26 million acre System. This 
would bring the System's funding only modestly above historic levels 
when adjusting for inflation. Priority unmet needs include additional 
rangers and field staff, investments in monitoring and restoration, 
cultural and historical site protection, and volunteer program support. 
We also ask the committee to support any member requests for additional 
funding for Conservation System units in their districts. To promote 
greater management transparency and accountability for the System, we 
urge the committee to request expenditure and accomplishment reports 
for each of the System's Monuments and Conservation Areas for fiscal 
year 2007, and to ask BLM to include unit-level allocations by major 
sub-activities for all System units but Wilderness and Wilderness Study 
Areas (WSAs). These unit-level allocations are to be combined with 
Wilderness and WSAs under a new activity account for the entire System.
    Roan Plateau.--Last September, the BLM approved energy development 
on 74,000 acres on top of and around the Roan Plateau in western 
Colorado. This area is home to mule deer, elk, sage grouse, cutthroat 
trout and hundreds of other native species. The BLM plan, which has 
prompted opposition from sportsmen's groups, local cities and counties, 
business owners and recreation groups, allows drilling in areas too 
sensitive to withstand the intense energy development that is planned. 
The National Wildlife Federation asks that Congress legislate a funding 
limitation that will prevent the BLM from initiating the proposed Roan 
Plateau energy development until September 30, 2008 in order to allow 
additional time for further study and analysis.
               u.s. forest service: forest legacy program
    NWF is concerned by the President's request of $29 million for the 
Forest Legacy Program, over $30 million less than last year's request. 
The needs of this program are much larger and growing, so we ask the 
subcommittee to appropriate $100 million for the program, or an 
increase of $71 million. Forest Legacy protects environmentally 
important forests that are threatened with conversion to non-forest 
uses, while protecting local communities and their way of life. The 
program has been especially important in States where there are few 
Federal land holdings and timber companies are in the process of 
consolidating and selling their lands.
                land and water conservation fund (lwcf)
    LWCF provides funding for the acquisition of valuable wildlife 
habitat by Federal land management agencies. The LWCF is an invaluable 
tool to help enhance wildlife habitat, preserve natural, cultural, and 
historic sites, restore declining native species, and halt the 
destruction and fragmentation of millions of acres of habitat occurring 
annually across the U.S. NWF is concerned to see that the President's 
budget slashes Federal LWCF funding to only $83.6 million. LWCF has 
been cut by more than 75 percent since 2001. We urge the subcommittee 
to provide at least $220 million for Federal LWCF.
    NLCS LWCF Projects.--We support the President's fiscal year 2008 
request for Land and Water Conservation Fund projects for Colorado's 
Gunnison Gorge National Recreation Area, Idaho's Upper Snake/South Fork 
Snake River Area of Critical Environmental Concern and New Mexico's El 
Malpais National Conservation Area. We recommend that the President's 
request for $200,000 for El Malpais be increased to $250,000; the 
President's request for $1.5 million for Upper Snake/South Fork Snake 
river Area of Critical Environmental Concern be increased to $2 million 
and we recommend $4.9 million for six additional projects:
  --Las Cienegas National Conservation Area, Arizona: $550,000
  --Canyons of the Ancients National Monument, Colorado: $2 million
  --Carrizo Plain National Monument, California: $500,000
  --Sandy River/Oregon National Historic Trail, Oregon: $500,000
  --Oregon National Wild & Scenic Rivers (Rogue National Wild & Scenic 
        River), Oregon: $500,000
    NWF also supports USFS LWCF acquisitions of $6 million in the Swan 
Valley of Montana and $5 million for the Pinhook Swamp/Suwanee River 
Wildlife Corridor in Florida.
    We are extremely disappointed to see that the Administration's 
budget cuts all funding for stateside LWCF. State-side LWCF provides 
matching funds for State and local recreation and conservation 
programs. Eliminating this fund would seriously impact locally 
sponsored recreation projects that provide opportunities for youth, 
seniors and the physically challenged. We ask the subcommittee to 
restore $100 million for Stateside LWCF.
    Thank you, again, for providing the National Wildlife Federation 
with the opportunity to provide testimony.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Mr. Chairman and members of the subcommittee: My name is Evan 
Hirsche, President of the National Wildlife Refuge Association (NWRA). 
On behalf of the NWRA and its membership comprised of current and 
former refuge professionals, more than 138 refuge Friends organization 
affiliates and thousands of concerned citizens throughout the United 
States, thank you for the opportunity to offer comments on the fiscal 
year 2008 Interior Appropriations bill. Specifically, we respectfully 
request that the subcommittee support the following:
  --An overall funding level of $451.5 million for the operations and 
        maintenance (O&M) budget of the National Wildlife Refuge 
        System, managed by the U.S. Fish and Wildlife Service (FWS);
  --Of the $6 million increase requested by the administration for the 
        Partners for Wildlife Program, allocate $1 million to implement 
        Refuge Landscape Conservation Initiatives, strategic 
        partnerships among the FWS, NWRA, refuge Friends and other 
        national, regional and local interests that work with States, 
        counties and municipalities to identify, prioritize and 
        implement land and water conservation opportunities beyond 
        refuge boundaries;
  --An allocation of $1 million to continue to support volunteer 
        projects on and in connection with refuges, including the 
        Cooperative Volunteer Invasives Monitoring Program (VIMP) and 
        competitive grants, which utilize Friends and volunteers to 
        identify and eradicate invasive species;
  --Withhold funding for implementation of a new National Bison Range 
        Annual Funding Agreement, pending the conclusion of an 
        investigation by the Department of the Interior Inspector 
        General into FWS employee grievances and pending completion of 
        a FWS Refuge Tribal AFA policy;
  --An allocation of $100 million in the FWS land acquisition budget 
        through the Land and Water Conservation Fund (LWCF) to acquire 
        vital habitat from numerous willing sellers across the country;
  --An increase in the FWS construction budget to prevent further 
        degradation of Refuge System infrastructure;
  --For Midway Atoll NWR, $3.23 million to initiate the public 
        visitation program, provide needed equipment for safety and 
        cooperative work, and to stop the deterioration of facilities 
        that will be integral to visitor use;
  --An allocation of $85 million for the State and Tribal Wildlife 
        Grants Program;
  --An allocation of $9 million for the National Fish and Wildlife 
        Foundation (NFWF) in the FWS' Resource Management General 
        Administration appropriation.
    The National Wildlife Refuge System continues to be crippled by a 
$2.75 billion funding backlog that harms every refuge in the System. 
Specifically, funding shortfalls limit the ability of refuges to 
successfully conduct important biological programs and hire essential 
staff, while also hindering opportunities for the public to engage in 
compatible wildlife-dependent recreation.
    Significant strides were made to reduce the budget shortfall in 
connection with the 100th anniversary of the National Wildlife Refuge 
System in 2003, and we are grateful to the subcommittee for its work in 
this regard. Since then, however, annual appropriations have failed to 
keep pace with ever-increasing fixed costs and inflation. The 
Cooperative Alliance for Refuge Enhancement (CARE), consisting of the 
NWRA and 20 other diverse conservation and sporting organizations, has 
determined that the annual Refuge System budget of $765 million is 
required simply to meet the System's top tier needs. CARE details these 
needs in a recently released report, Restoring our Wildlife Legacy. Our 
groups, representing a national constituency numbering more than 5 
million Americans, recognize the value of a healthy Refuge System to 
both the wildlife and habitats refuges were established to protect and 
the 40 million visitors that frequent these special places each year. 
At a minimum, it is crucial that the cost-of-living and other 
inflationary needs are covered in the fiscal year 2008 budget. To keep 
the modest 100th Anniversary budget (fiscal year 2004) on pace with 
inflationary costs, the Refuge System needs $451.5 million for its 
operations and maintenance accounts for fiscal year 2008.
    While providing adequate funding to operate and maintain the Refuge 
System is of vital importance, unfortunately most refuges are too small 
in size to achieve their conservation mission and objectives alone. 
Their integrity depends on the health of surrounding State, Federal, 
and private lands and waters. Consequently, there is a growing need to 
provide funding to ensure that lands and waters beyond refuge 
boundaries are conserved. Today, the alarming rush to convert rural 
land to subdivisions and strip malls has caught wildlife managers off 
guard and requires quick action. In response, the National Wildlife 
Refuge Association (NWRA) launched Beyond the Boundaries, a campaign 
designed to identify and prioritize crucial additions to the Nation's 
conservation estate, improve connectivity between refuges and other 
conservation lands, and protect buffer zones. Beyond the Boundaries 
employs sound conservation science to integrate State Wildlife Action 
Plans (WAP), refuge Comprehensive Conservation Plans (CCP) and other 
conservation planning tools, and engages diverse stakeholders at the 
State and local levels to develop bold strategies for protecting 
critical wildlife habitat, while strengthening economies through 
improved quality of life, clean water and outdoor recreation and 
appreciation.
    Accordingly, for fiscal year 2008 we respectfully ask that the 
subcommittee allocate $1 million of the administration's $6 million 
request above fiscal year 2007 levels for the Partners for Fish and 
Wildlife Program to implement Refuge Landscape Conservation Initiatives 
in FWS regions 1, 3, and 5, with a focus on the Silvio Conte National 
Fish and Wildlife Refuge in the latter. Each initiative will bring 
together diverse stakeholders in creating conservation visions for 
landscapes surrounding targeted refuges, and develop shared priorities 
for conservation action. The final visions--Refuge Landscape Action 
Plans--will serve as blueprints for use of State, Federal, and private 
conservation dollars and will expedite implementation of State Wildlife 
Action Plans.
    We also encourage the subcommittee to continue its strong support 
``for cooperative projects with [F]riends groups on invasive species 
control'' by again appropriating $1 million for this valuable program. 
With annual allocations by Congress since fiscal year 2003, more than 
300 separate refuges have taken actions to control invasives, and the 
Refuge System has identified approximately $260 million of invasive 
species projected needs. A competitive grants program for cooperative 
invasive species projects with refuge Friends and volunteers 
constitutes the majority of previous allocations. In fiscal year 2006, 
a total of 811 volunteers contributed 16,176 hours and participated in 
the treatment, inventory and restoration of 74,786 refuge acres.
    Likewise, the Cooperative Volunteer Invasives Monitoring Program 
has demonstrated powerful results at the 31 currently participating 
refuges. A partnership among the NWRA, FWS, United States Geological 
Survey (USGS) and The Nature Conservancy, the program trains refuge 
volunteers to identify invasives and collect extensive data using 
inexpensive but sophisticated global positioning system (GPS)/
geographic information system (GIS) data-collection equipment. To date, 
an estimated 23,651 acres of refuge lands, in addition to 220 water 
bodies, have been inventoried and mapped by 170 trained volunteers 
contributing 6,552 hours. Refuges participating in the program have 
used the data to engage an additional 791 volunteers in invasive plant 
management actions such as control and restoration measures. 
Importantly, the Chairs and Vice-Chairs of the Wildlife Refuge Caucus 
have recognized the value of this program, including it as a component 
of H.R. 767, the ``REPAIR Act,'' that directs the Secretary to 
establish a Cooperative Volunteer Invasives Monitoring and Control 
Program to document and combat invasive species in national wildlife 
refuges.
    In December 2006, FWS Director Dale Hall terminated the National 
Bison Range Tribal Annual Funding Agreement (AFA), citing work 
performance issues and documented employee grievances that illustrated 
a severely strained and counterproductive work environment with the 
Confederated Salish and Kootenai Tribes. While we believe it's vitally 
important that the FWS have a collaborative working relationship with 
the tribes at the Bison Range, we believe that the grievances, now 
under review by the Inspector General at the Department of the 
Interior, must be resolved before any consideration of a new agreement. 
Accordingly, we ask that the subcommittee include bill language 
withhold funding for negotiating or implementing a new AFA pending 
results of the Inspector General's investigation and pending completion 
of a FWS Refuge Tribal AFA policy.
    The NWRA encourages the subcommittee to allocate sufficient funding 
to purchase high-priority lands and conservation easements through the 
Land and Water Conservation Fund (LWCF). The Refuge System land 
acquisition backlog is estimated at $4 billion, with 15.4 million acres 
remaining to be acquired within approved refuge boundaries. While a 
full suite of conservation strategies should be employed in working 
with private landowners, in cases where fee title acquisition is 
preferred by the landowner and the refuge has identified it as a top 
priority, the FWS should acquire the land. The NWRA believes that $100 
million should be allocated toward Refuge System land acquisition, yet 
even at that rate, it would take at least 40 years to acquire priority 
lands. Within this request, the NWRA encourages the subcommittee to 
provide funding for the following projects through the Land and Water 
Conservation Fund: $750,000 for Alaska Peninsula NWR (AK); $1.5 million 
for Togiak NWR (AK); $750,000 for Yukon Delta NWR (AK); $710,000 for 
Stewart B. McKinney NFWR (CT); $3 million for Bayou Sauvage NWR (LA); 
$500,000 for Tensas NWR (LA); $4 million for Silvio O. Conte NFWR (MA); 
$2 million for Blackwater NWR (MD); $1 million for Lake Umbagog NWR 
(NH); $2 million for Cape May NWR (NJ); $1.2 million for Great Swamp 
NWR (NJ); $2 million for Wallkill River NWR (NJ); $275,000 for Balcones 
Canyonlands NWR (TX); $3 million for San Bernard NWR (TX); $750,000 for 
Back Bay NWR (VA); $3.1 million for James River NWR (VA); $459,000 for 
Rappahannock River Valley NWR (VA); and $3 million for Canaan Valley 
NWR (WV).
    We encourage the subcommittee to resist the $25.5 million cut to 
the construction budget proposed in the president's fiscal year 2008 
budget request. The FWS has identified $1 billion in construction 
projects, which in many cases will result in replacing quickly 
deteriorating structures that are becoming more expensive to maintain.
    Midway Atoll NWR is an integral part of the newly established 
Northwest Hawaiian Islands National Monument and the sole area 
designated for public visitation. Accordingly, FWS will need adequate 
funding to fully realize its potential both for conservation and 
carefully coordinated public visitation. NWRA supports $3.23 million to 
initiate the public visitation program, provide needed equipment for 
safety and cooperative work, and to stop the deterioration of 
facilities that will be integral to visitor use.
    The NWRA urges the subcommittee to appropriate at least $85 million 
for the State and Tribal Wildlife Grants Program in fiscal year 2008 to 
implement statewide conservation plans. Program grants support projects 
to restore degraded habitat, reintroduce native species, develop 
partnerships with private landowners, and collect useful data. These 
state-based plans can dovetail with the Comprehensive Conservation 
Plans (CCPs) that all refuges are required to produce, complementing 
the mission of the National Wildlife Refuge System. Further, adequate 
and consistent funding for State Wildlife Grants is essential to 
fulfilling the shared Federal/State responsibility for keeping our 
Nation's wildlife from becoming endangered.
    We encourage the subcommittee to allocate $9 million for the 
National Fish and Wildlife Foundation through the FWS' Resource 
Management General Administration appropriation. NFWF works to achieve 
healthy and abundant fish, wildlife and plant populations through 
valuable partnerships. Each year, NFWF receives more project proposals 
than they are capable of funding. Adequate funding will ensure NFWF has 
the ability to leverage resources to fund projects that directly 
benefit diverse fish and wildlife species in, around and outside of 
national wildlife refuges across the country.
    In conclusion, the NWRA believes the National Wildlife Refuge 
System can meet its important conservation objectives only with strong 
and consistent funding leveraged by the valuable work of refuge 
volunteers. We extend our appreciation to the subcommittee for its 
ongoing commitment to our National Wildlife Refuge System.
                                 ______
                                 
      Prepared Statement of the New Jersey Conservation Foundation
    The New Jersey Conservation Foundation thanks you for the 
opportunity to comment on the fiscal year 2008 Department of the 
Interior and Related Agencies Appropriations bill. The NJ Conservation 
Foundation is a member-supported, non-profit 501.c.3 statewide 
organization whose mission is to preserve New Jersey's land and natural 
resources for the benefit of all. Since 1960, NJCF has worked to 
protect the State's farmland, forests, urban parks, wetlands, wildlife 
habitat, water quality and special places.
    NJCF's top priorities include:
  --$100 million for the Forest Legacy Program, including $5.7 million 
        for the protection of Sparta Mountain South (NJ)--Phase II 
        ($1.8 million was provided in fiscal year 2006 for Phase I);
  --$11 million for the Highlands Conservation Act, including $2.5 
        million for protection of the Wyanokie Highlands (NJ); and
  --$2.0 million from the Land and Water Conservation Fund for the New 
        Jersey Pinelands Forked River Mountain Preserve Expansion 
        Project.
                       usda/forest legacy program
    Sparta Mountain South (NJ).--Fiscal Year 2008 Forest Legacy Program 
Project: $5.7 million is sought to acquire 1,000 acres located in the 
Sparta Mountain/Lubber's Run Conservation Focal Area identified in the 
USDA/Forest Service New York-New Jersey Highlands Regional Study 2002 
Update. Sparta Mountain South, located in Sussex County, forms the 
westernmost ridge of New Jersey's northern Highlands, where it creates 
a key linkage between Allamuchy State Park and four State wildlife 
management areas to the north.
    There is currently the potential, in densely populated New Jersey, 
to preserve more than 5,000 privately-held acres in the Sparta Mountain 
Greenway. In fiscal year 2006, the Forest Legacy Program provided 
funding for 1,200 easement acres. Now, we seek $5.7 million for the 
State of New Jersey to acquire and preserve 1,000 acres in its top 
ranked Forest Legacy project.
    At the northern end of 15-mile long Sparta Mountain, Hamburg 
Mountain (State) Wildlife Management Area, 1,200-acre Gerard Woods WMA, 
3,200-acre Sparta Mountain WMA and 1,300-acre Weldon Brook WMA preserve 
over 10,000 acres. Sparta Mountain South forms a critical linkage 
between these WMA's and Allamuchy State Park to the south, as mapped in 
Garden State Greenways, a vision of connected lands created by New 
Jersey Conservation Foundation and New Jersey's Green Acres Program. 
New Jersey's Highlands Millennium Trail, initiated in 1994 with 
National Park Service Rivers and Trails Conservation Assistance, 
travels along Sparta Mountain on its 150-mile route between the Hudson 
and Delaware Rivers.
    Sparta Mountain South's magnificant vistas overlook pristine lakes 
and ponds and a diversity of natural communities, including grasslands 
and wetlands. Mature forests of oak, beech, hickory, maple, and tulip 
poplar clothe its steep ridges, and hemlock groves still stand despite 
the wooly adelgid blight that has devastated many hemlock forests in 
the State. Federally endangered bog turtle and State threatened red 
shouldered hawk, wood turtle, spotted salamander, timber rattlesnake 
and bobcat live here. The forests protect groundwater aquifers and 
water quality, while wetlands and ponds provide flood control and 
habitat for wading birds, neo-tropical migrant songbirds and 
amphibians.
    Sparta Mountain South and the Lubber's Run Watershed form the upper 
part of the watershed of the Musconetcong River. Legislation adding 24 
miles of the Musconetcong River to the National Wild and Scenic Rivers 
System was signed by the President in December 2006. Nevertheless, 
recent development threatens the biological and resource integrity of 
Sparta Mountain South, endangering the Federal investment in the area.
                       highlands conservation act
    In the fall of 2004, Congress enacted and President Bush signed the 
Highlands Conservation Act, recognizing the national significance of 
the more than three-million acre, four-state Highlands region as a 
source of drinking water, productive forests and farms, wildlife 
habitat and recreation within an hour of major metropolitan areas 
including Philadelphia, New York City and Hartford. The act authorized 
$11 million annually to assist the Highlands States in conserving 
priority lands from willing landowners, and to continue USDA Forest 
Service research and assistance to private landowners in the Highlands.
    The administration's fiscal year 2007 budget included $2 million 
for the Highlands Conservation Act (HCA), through the Fish & Wildlife 
Service, to support land conservation partnership projects in the four 
Highland States of Pennsylvania, New Jersey, New York and Connecticut. 
The Governors of the four Highlands States have jointly submitted 
projects totaling $10 million in need to the Department of the Interior 
for funding in fiscal year 2008.
 wyanokie highlands (nj), fiscal year 2008 highlands conservation act 
                                project
    New Jersey requests $2.5 million in funding to acquire four parcels 
totaling 1,288 acres in the Wyanokie Highlands in Ringwood and 
Bloomingdale Boroughs and West Milford Township in Passaic County. The 
total cost of this project is $7.7 million. The Wyanokie Highlands were 
identified as a Conservation Focal Area in the USDA Forest Service NY-
NJ Highlands Regional Study: 2002 Update.
    The Wyanokie Highlands encompass critical watersheds that protect 
New Jersey's most significant and most threatened water supply--the 
Wanaque Reservoir--on which nearly two million people rely. The 
Wyanokies contain the headwaters of Burnt Meadow and West Brooks, 
waterways of exceptional ecological significance, which flow directly 
into the Wanaque Reservoir. Acquisition will provide essential 
protection for this critical water supply, which the U.S. Forest 
Service identified as highly threatened by development.
    In addtion, preservation will complete a missing greenway link 
between Norvin Green State Forest and Long Pond Ironworks State Park, 
and extend a direct connection to New York's Sterling Forest State Park 
along the route of New Jersey's Highlands Millenium Trail. The 
Highlands Trail, nearly completed, runs 150 miles between the Hudson 
and the Delaware Rivers. The Wyanokie Highlands boast an extensive 
network of historic hiking trails and dramatic scenic overlooks, as 
well as significant ecological values.
                    land and water conservation fund
    Forked River Mountain Preserve Expansion Project.--New Jersey 
Conservation Foundation is seeking $2.0 million from the Land and Water 
Conservation Fund (authorized by section 502 of the National Parks and 
Recreation Act) to preserve 622 acres in the Forked River Mountain 
Project area, towards the project's total cost of $4.425 million. The 
622 privately owned acres are located in various parcels wholly within 
the Pinelands National Reserve, in and near New Jersey Conservation 
Foundation's 3,000-acre Forked River Mountain Preserve.
    The New Jersey Conservation Foundation is working to permanently 
preserve thousands of acres throughout the New Jersey Pinelands 
Commission's Preservation Target Areas in partnership with the 
Pinelands Commission, N.J. Department of Environmental Protection and 
other governmental and non-governmental agencies. Over $40 million 
would be needed to protect all the unpreserved, targeted lands. The 
money sought will match existing funds to purchase the property from 
the current landowner.
    The permanent preservation of critical natural resources in the 
Pinelands National Reserve (PNR) ensures that the specific goals and 
overall mission of the Pinelands Comprehensive Management Plan (CMP) 
are realized. The New Jersey Conservation Foundation has a long history 
of supporting the CMP and the Pinelands Commission land preservation 
initiatives throughout the PNR. If funded, our efforts will result in 
the preservation of thousands of acres leveraged by additional State, 
local and private funding that will protect natural areas, connect 
existing isolated preserved lands, and provide the public with areas 
for hunting, fishing, hiking and other outdoor pursuits. Management 
will include active and passive measures to ensure the survival and 
possible expansion of known populations of threatened and endangered 
species found on these properties.
    The Forked River Mountain Preserve Expansion Project is within a 
Land Preservation Target Area approved by the Pinelands Commission. It 
consists of a mosaic of tracts that are entirely forested with no 
history of development or other significant disruption. Pine-oak forest 
dominates the property with some significant stands of Atlantic White 
Cedar in the lower areas along the North Branch of the Forked River. 
This area is known to be habitat for a number of rare and endangered 
Pine Barrens species such as Pine Barrens treefrog (Hyla andersonii), 
Knieskern's beaked-rush (Rynchospora knieskernii), northern pine snake 
(Pituophis melanoleucus) and curly grass fern ( Schizaea pusilla). A 
portion of the property is located in the Oyster Creek Watershed, 
recently given additional protections by the Pinelands Commission 
through a zoning change to better protect species diversity and high 
water quality. Many adjacent properties are already protected as part 
of the 3,000-acre Forked River Mountain Preserve.
    Thank you again for considering the New Jersey Conservation 
Foundation's comments on the fiscal year 2008 Interior and Related 
Agencies Appropriations bill.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
                                summary
    This statement is submitted in support of fiscal year 2008 
appropriations for Colorado River Basin salinity control program 
activities of the Bureau of Land Management. I urge that $5,900,000 be 
appropriated for the Bureau of Land Management for activities that 
benefit the control of salinity in the Colorado River Basin, and of 
that amount, $1,500,000 be marked specifically for the Colorado River 
Basin Salinity Control Program. In addition, I support the President's 
requested appropriation of $33,343,000 for the Land Resources 
Subactivity: Soil, Water, and Air Management, but request an increase 
of $700,000 in that amount to provide for the needed Colorado River 
Basin salinity control activities of the Bureau of Land Management.
    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined all of the features needed to control the salinity of the 
Colorado River. Those features include activities by the cooperating 
States, the Bureau of Reclamation, the Department of Agriculture, and 
the Bureau of Land Management (BLM). The salinity control program has 
been adopted by the seven Colorado River Basin States and approved by 
the EPA as a part of each State's water quality standards. Also, water 
delivered to Mexico in the Colorado River is subject to minute 242 of 
the United States treaty with Mexico that sets limits on the salinity 
of the water.
    About 75 percent of the land in the Colorado River basin is owned, 
administered or held in trust by the Federal Government. BLM is the 
largest landowner in the Colorado River Basin, and manages public lands 
that are heavily laden with salt. When salt-laden soils erode, the 
salts dissolve and remain in the river system, affecting the quality of 
water used from the Colorado River by the Lower Basin States and 
Mexico. BLM needs to target the expenditure of at least $5.9 million 
for activities in fiscal year 2008 that benefit salinity control in the 
Colorado River Basin. In addition, BLM needs to target the expenditure 
of $1,500,000 of the $5.9 million specifically for salinity control 
projects and technical investigations. Experience in past years has 
shown that BLM projects are among the most cost-effective of the 
salinity control projects.
    As one of the five principal Soil, Water and Air Management program 
activities, BLM needs to specifically target $5.9 million to activities 
that benefit the control of salinity on lands of the Colorado River 
Basin. In the past, BLM has allocated $800,000 of the Soil Water and 
Air Management appropriation for funding specific project proposals 
submitted by BLM staff to the BLM salinity control coordinator. 
However, some of that funding has been eliminated in recent years by 
budget rescissions or transfers to other uses to balance budget needs. 
Consequently, the $800,000 allocated by BLM from the Soil, Water and 
Air Management Subactivity for Colorado River Basin salinity control 
has been reduced, limiting the implementation of needed salinity 
control efforts. The recently released annual report of the Federally 
chartered Colorado River Basin Salinity Control Advisory Council 
reports that BLM has identified projects that could utilize funding in 
the amount of $1.5 million for fiscal year 2008. Consequently, I 
request that $1.5 million of the Soil, Water and Air Management 
Subactivity be marked specifically for Colorado River Basin salinity 
control activities. Achieving this level of appropriation for the 
critically needed cost effective salinity control work by BLM requires 
an increase of $700,000 in the BLM budget request of $33,343,000 for 
the Soil, Water and Air Management Subactivity.
    I believe and support past Federal legislation that finds that the 
Federal Government has a major and important responsibility with 
respect to controlling salt discharge from public lands. Congress has 
charged the Federal agencies to proceed with programs to control the 
salinity of the Colorado River Basin with a strong mandate to seek out 
the most cost-effective solutions. BLM's rangeland improvement programs 
can lead to some of the most cost-effective salinity control measures 
available. In addition, these programs are environmentally acceptable 
and control erosion, increase grazing opportunities, produce dependable 
stream run-off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $330 million per 
year. Unquantified damages increase the total damages significantly. 
For every increase of 30 milligrams per liter in salinity concentration 
in the waters of the Colorado River, an increase in damages of $75 
million is experienced by the water users of the Colorado River Basin 
in the United States. Control of salinity is necessary for the Basin 
States, including New Mexico, to continue to develop their compact-
apportioned waters of the Colorado River. The Basin States are 
proceeding with an independent program to control salt discharges to 
the Colorado River, in addition to up-front cost sharing with Bureau of 
Reclamation and Department of Agriculture salinity control programs. It 
is vitally important that BLM pursue salinity control projects within 
its jurisdiction to maintain the cost effectiveness of the program and 
the timely implementation of salinity control projects to avoid 
unnecessary damages in the United States and Mexico.
    At the urging of the Basin States, BLM has created a full time 
position to coordinate its activities among the BLM State offices and 
other Federal agencies involved in implementation of the salinity 
control program. The BLM 2008 Budget Justification States that BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation and the U.S. Department 
of Agriculture and reports salt retention measures to implement and 
maintain salinity control measures of the Federal salinity control 
program in the Colorado River Basin. BLM is to be commended for its 
commitment to cooperate and coordinate with the Basin States and other 
Federal agencies. The Basin States and I are pleased with the BLM 
administration's responsiveness in addressing the need for renewed 
emphasis on its efforts to control salinity sources and to comply with 
BLM responsibilities pursuant to the Colorado River Basin Salinity 
Control Act, as amended. While it is commendable that BLM's budget 
focuses on ecosystems and watershed management, it is essential that 
funds be targeted on specific subactivities and the results of those 
expenditures reported. This is necessary for accountability and 
effectiveness of the use of the funds.
    I request the appropriation of at least $5.9 million in fiscal year 
2008 for Colorado River salinity control activities of BLM, and that 
$1,500,000 of that amount be marked specifically for the Colorado River 
Basin Salinity Control Program, including projects and technical 
investigations. In addition, I request the appropriation of a minimum 
of $33,343,000 for the Land Resources Subactivity: Soil, Water, and Air 
Management as requested by the President. However, I request that 
$34,043,000 be appropriated for the Land Resources Subactivity: Soil, 
Water, and Air Management to provide for the increase of $700,000 
needed for a total of $1.5 million marked specifically for Colorado 
River salinity control activities without causing any reduction of 
other activities funded from the Soil, Water and Air Management 
appropriation. I very much appreciate favorable consideration of these 
requests. I fully support the statement of the Colorado River Basin 
Salinity Control Forum submitted by Jack Barnett, the Forum's Executive 
Director, in request of appropriations for BLM for Colorado River 
salinity control activities.
                                 ______
                                 
          Prepared Statement of the Nisqually Tribe of Indians
    Over the past 30 years, the Nisqually Tribe has embarked on an 
aggressive effort to develop a viable tribal community on our 
Reservation. Today we have, with Federal assistance, built a tribal 
center, community health clinic, alcohol and drug outpatient facility, 
law enforcement facility, Elders center, tribal library, several tribal 
enterprises, two salmon hatcheries and over 125 homes for the more than 
400 Indian persons who now live on reservation lands. We have also 
placed a major emphasis on natural resource issues, youth mental health 
services, and land acquisition, to address serious community 
development issues for our Tribe. On behalf of the Tribe, I would like 
to submit the following written testimony on the fiscal year 2008 
budget for the Bureau of Indian Affairs, the Indian Health Service and 
the Fish & Wildlife Service. We need your assistance to protect 
critical base funding, and to provide increases in several priority 
areas to address our unmet needs.
                          bia law enforcement
    I would like to give you a picture of the law enforcement system on 
the Nisqually Reservation. We are located in Washington State. Our 
Reservation is approximately 5,000 acres. We serve over 6,000 Indian 
people in our service area, about 600 of whom are enrolled tribal 
members living on the reservation, and the rest of whom live in 
surrounding areas. We have a land-based police force with nine 
officers. Our officers are solely responsible for enforcing tribal law, 
and they also work closely with local police on other matters. Our 
police also have extensive marine water enforcement duties. We employ 
two water patrol officers to patrol over 100 square miles of Puget 
Sound for both the treaty salmon fishery and treaty shellfish 
harvesting. We also provide hunting enforcement for over 50,000 acres 
of land in the tribe's usual and accustomed area within the Nisqually 
River watershed. Besides our police department, we have a tribal court 
with two full-time judges, and we employ 10 detention officers at our 
45-bed detention facility (built in 2002). Like many other tribes, we 
are struggling to cope with escalating methamphetamine use and 
associated increases in gang activity and property crime related to 
dealing and manufacturing.
    We support the administration's decision to increase law 
enforcement funding by $16 million under its Safe Indian Communities 
Initiative. However, this increase still falls short of meeting the 
severe need in Indian country for additional law enforcement resources. 
The need is especially acute this year in light of significant cuts to 
Indian programs proposed by the Department of Justice. We ask that the 
subcommittee increase the President's request by an additional $16 
million.
    Additionally, we ask you to ensure that that the funding is 
allocated in a manner that helps strengthen tribal justice systems, not 
hobble them. We understand the need to target high-crime areas, but the 
need for law enforcement resources across Indian country is severe. It 
is estimated that BIA programs alone require an additional 1,500 
officers just to meet minimum safety standards. At Nisqually, nine 
officers patrol 5,000 acres (approximately eight square miles) of 
reservation and near reservation lands and serve a population of 
approximately 6,000. This is roughly one officer per square mile, and 
1.5 officers per 1,000 people. To compare, rural non-Indian law 
enforcement agencies generally have 2.2 officers per 1,000 people 
(based on 2003 estimates), and far more officers per square mile of 
patrol area. Short-term increases targeted to specific problems or 
specific areas do little to address these core shortages. Long-time 
under-funding of BIA and tribal law enforcement agencies is part of 
what contributes to the perception that reservations are ``lawless,'' 
which makes our reservations attractive to drug dealers. We request 
that the subcommittee earmark at least half of any law enforcement 
funding increase for formula distribution to tribes.
    Finally, it is important that the subcommittee understand that 
effective crime prevention takes more than just police officers. Our 
officers see firsthand every day all the problems our youth face that 
can lead them to become involved in criminal activity. This is why the 
Nisqually Tribe has committed to use tribal funds to open a youth 
center. We hope that by providing out children with a safe place to 
pursue healthy activities, we can keep crime rates down in the future. 
For those that are already in the system, we have a state-of-the-art 
detention facility responsible for the ``safekeeping, care and 
custody'' of the people detained there. But we also need functioning 
courts, drug treatment services and alternatives to detention. As a 
government, we recognize our responsibility for fostering positive 
change and rehabilitation, even in our jail. More often than not, the 
inmates are people from our community who will be returning to the 
community when they are released, so we have a particular incentive to 
help them pursue positive changes. Without all of these services, 
though, we are stuck in a cycle of arresting and locking up our own 
people. We therefore ask that the subcommittee consider parallel 
increase to the Tribal Courts program and to Alcohol and Substance 
Abuse Programs within the Indian Health Service.
                 bia natural resources and environment
    The Tribe supports the request from the Northwest Indian Fisheries 
Commission (NIFWC) on behalf of its member tribes, including the 
request of $1.8 million to restore previous budget reduction to our 
Fisheries Management Base funding; $7.575 million to the Western 
Washington Fisheries Management program to provide trust resource 
protection in the face our growing obligations and responsibilities; 
restoration of Pacific Coastal Salmon Recovery Fund to $100 million 
with a set aside for NWIFC member tribes of $9 million; $3.172 million 
for Hatchery Reform Implementation so tribes can integrate hatchery 
reform with salmon recovery under ESA; $1.74 million (to restore full 
funding of $3 million) for the Western Washington Timber-Fish-Wildlife 
program to match local funds to make the program whole; and, $2.5 
million through the BIA for mass marking and monitoring of salmon 
production in the region.
                             bia education
    We ask you to restore the proposed cuts to education programs--
specifically the Johnson-O'Malley program ($16.3 million) and higher 
education scholarships ($5.3 million). While we support the 
administration's initiative to improve performance at BIA schools, we 
cannot support balancing these increases with cuts that would harm 
children attending public schools and our youth who are pursuing a 
college education. As Chair, I have worked hard to emphasize the 
importance of education to our youth. The JOM program provides 
important funding to support Indian students attending public schools, 
such as academic support programs, counselors or cultural education. If 
the JOM program were eliminated, the net result would be that less 
money would be available for Indian student programs. And scholarships 
make it possible for our tribal members to obtain the college education 
that is necessary for many careers today.
                       bia contract support costs
    The Tribe supports the administration's proposal to increase 
contract support costs by $7 million. The administration has indicated 
that this increase will permit the United States to fully fund indirect 
contract support costs. This funding supports critical administrative 
functions that allow tribes to successfully operate programs contracted 
under the Indian Self-Determination and Education Assistance Act. We 
ask that the subcommittee support this increase and consider adding 
report language to that effect. In addition, we ask that the 
subcommittee support the proposed deletion of the word ``indirect'' in 
the text of the Interior Appropriations bill. This change would permit 
tribes to allocate unused Tribal Priority Allocation (TPA) funds to 
cover unmet direct contract support costs, which is important because 
the administration proposes full funding for only indirect costs, 
leaving a significant unmet need.
                           ihs health service
    While we support the President's proposal to increase the budget 
for Indian Health Services, the amount of that increase ($212 million 
above the current funding level) still will not meet the actual costs 
of providing health care to Indian people. The proposed increase fails 
to address the high rates of medical inflation and the substantial 
unmet need for health care among Indian people. The Northwest Portland 
Area Indian Health Board estimates that at least $480 million is 
required to maintain even the current level of services in fiscal year 
2008. And keeping pace with current levels would only allow most 
clinics to be funded at 40-60 percent of the Level of Need Formula. We 
support the efforts of all Indian tribes to receive 100 percent of the 
Level of Need Formula, which is absolutely critical for tribes to 
address the serious and persistent health issues facing our 
communities.
    We also ask that the Indian Health Service be exempted from any 
future rescissions. Given the poor health status of Indian people and 
the limited funding available to many clinics and health programs, 
across the board rescissions have an extremely damaging effect on 
Indian health care. For example, in 2006, rescissions cut almost half 
of the IHS budget increase. The only other non-entitlement Federal 
health program, the Veteran's Administration, is exempted from 
rescissions for just this reason. We ask that you do the same for the 
IHS.
                        fish & wildlife service
    The Tribe strongly endorses the FWS Nisqually National Refuge in 
its full implementation of its Comprehensive Conservation Plan. In 
particular, we fully support restoration of 700 acres of salt marsh 
through the relocation of a series of dikes. This effort in combination 
with the Tribe's restoration of 150 acres on our property in the 
Nisqually Delta will nearly double the survival of our listed fall 
Chinook as well as provide ecosystem benefits to the entire region. We 
also ask your support for the Tribe's funding requests for the 
following FWS project proposals:
    1. Hatchery Reform/ESA Implementation--Weir Construction ($2.5 
million).--The Tribe requests $2.5 million to construct a 300 foot 
floating weir in the mainstem Nisqually River. A weir is a barrier that 
is installed in the river to allow handling of all fish that attempt to 
pass. A serious obstacle to our long term salmon recovery objectives is 
the constant and overwhelming influence of hatchery fish on the 
spawning grounds. The intent of our plan, and the direction given by 
NOAA in the Puget Sound Fall Chinook Salmon Recovery Plan, is to reduce 
in the short term the composition of hatchery fish on the spawning 
grounds to less than 30 percent with a long term goal of getting below 
10 percent. The proposed weir will solve our salmon recovery while 
maintaining harvest opportunities dilemma and serve as a model for 
other watersheds. This project is supported by the independent Hatchery 
Scientific Review Group, the Puget Sound Technical Review Team, FWS and 
NOAA Fisheries Division.
    2. Ohop Creek Restoration ($4 million).--The Tribe requests $4 
million to complete an $8 million restoration of 4.5 miles of Ohop 
Creek, a tributary to the Nisqually River. The Tribe has identified 3 
major salmon habitat projects essential to recover the ESA-listed 
Nisqually Fall Chinook salmon--restoration of 700 acres in the 
Nisqually Estuary, construction of a weir in the river to prevent 
straying of hatchery fish onto the spawning grounds and the 
comprehensive restoration of 4.5 miles of Ohop Creek near Eatonville. 
Ohop is an important creek for Chinook, coho, pinks, and steelhead. Its 
ability to support salmon was severely reduced in the late 1800's and 
early 1900's when most of the trees in the Ohop Valley were cut down 
and the lower part of the creek was diverted into a deep ditch for 
approximately 4.5 miles. The Tribe's plan involves the full restoration 
of the stream by recreating its original channel in the floodplain, 
filling in the ditch and replanting 400 acres along the valley floor 
with native vegetation. This project will be one of the largest most 
comprehensive salmon habitat restoration projects in the region.
    3. Managing for Success ($1.2 million).--The Tribe requests $1.2 
million for the development of Managing for Success (MFS), a new 
adaptive management tool, as a model for the region. A key component of 
salmon recovery is the ability to make better decisions over time as 
new information becomes available. This is referred to as adaptive 
management. MFS is a modeling tool that brings together years of work 
to tie biological and project management pieces together in a web based 
application, allowing us to more closely tie our actions to predicted 
outcomes and resulting in better informed decision-making.
                                 ______
                                 
     Prepared Statement of the North Cascades Conservation Council
    I am writing on behalf of the North Cascades Conservation Council 
to request Land and Water Conservation funding for acquisition of two 
critical inholdings in the Mt. Baker Snoqualmie National Forest of 
Washington State. The North Cascades Conservation Council has been 
working for over 50 years to protect lands in the Cascade Range of 
Washington State. We believe funding is needed to acquire the following 
inholdings in the Mt. Baker Snoqualmie National Forest:
    Maloney Creek.--This is a half section of land directly south of 
the town of Skykomish, Washington, comprising the south half of section 
35, township 26 N., R 11 E., Willamette Meridian. This half section of 
land is owned by the Longview Fiber Company, and is completely 
surrounded by National Forest land. Some of it was logged about 60 or 
more years ago, and some of it is untouched old growth forest. Some of 
the best remaining lowland old growth forest in the Washington Cascades 
is located on National Forest land immediately adjacent to this 
inholding, and would be adversely affected were logging activity to 
occur on the Longview Fiber land. Conservation groups have proposed 
construction of a trail from the town of Skykomish to the very 
impressive grove of old growth forest directly above and near the town 
which is next to this Longview Fiber property. A rocky ledge nearby 
would also provide a dramatic viewpoint of the town below, and the 
valley and mountains beyond. Acquisition of the immediately adjacent 
Longview Fiber property is necessary to allow construction of this 
trail. Such a trail would be expected to draw many visitors, and would 
be a great asset to the community of Skykomish.
    No appraisals have been done on the Longview property to our 
knowledge, but we estimate the cost to be in the neighborhood of $2 
million.
    Buse/Index.--This is an area of approximately 40 acres immediately 
south of the town of Index, in section 20, township 27 N., range 10 
east. This area of mature, naturally regenerated second growth forest 
is directly across the North Fork Skykomish river from the town of 
Index, the most scenic mountain town in Washington State. It is 
immediately adjacent to National Forest land. Index is the main gateway 
community to the proposed and hopefully soon to be enacted Wild Sky 
Wilderness. Although most of the area around Index was logged about 80 
years ago, these lands have grown back with very impressive naturally 
regenerated forest, with many trees 3 feet in diameter and over 150 
feet high. These forests are critical to protect the health of the 
North Fork Skykomish river, one of the most important salmon spawning 
rivers in the Puget Sound basin. Estimated cost of this parcel is $1.3 
million.
    We hope that the committee will be able to give serious 
consideration to these proposals, both of which are very important to 
protect the ecological health of the Skykomish watershed. Hundreds of 
millions of dollars have been spent to acquire lands to the south along 
the Interstate 90/Snoqualmie Pass corridor in the Mountains to Sound 
Greenway area. That investment has yielded great dividends. No LWCF 
monies have gone to the U.S. Highway 2/Stevens Pass corridor to the 
north. Most of this corridor is public land, much of it hopefully to be 
included in the proposed Wild Sky Wilderness. The time has come to 
acquire some of the key pieces of private property in this corridor, 
and the North Cascades Conservation Council believes these two parcels 
deserve priority for funding.
    Thank you for your efforts in this regard.
                                 S6621_
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District
    On behalf of the Board of Directors of the Northern Colorado Water 
Conservancy District and Municipal Subdistrict, Northern Colorado Water 
Conservancy District, I am requesting your support for appropriations 
in fiscal year 2008 to the U.S. Fish and Wildlife Service (FWS) for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program, consistent with the 
President's recommended budget as follows:
    1. Appropriation of $697,000 in ``recovery'' funds to the FWS to 
allow FWS to continue its essential participation in the Upper Colorado 
River Endangered Fish Recovery Program;
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 line item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah; and
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS' Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
           Prepared Statement of the Northern Forest Alliance
    On behalf of the Northern Forest Alliance, a coalition of fifty 
non-profit organizations across New York, Vermont, New Hampshire, and 
Maine, I would like to offer testimony in support of fiscal year 2008 
funding for the U.S. Forest Service's Forest Legacy Program and the 
Department of Interior's Land and Water Conservation Fund (LWCF). 
Specifically, we request funding for Forest Legacy and LWCF projects 
from the Northern Forest totaling $7.965 million and $9.8 million, 
detailed in tables below. In order to cover these urgent requests and 
similar meritorious requests from across the Nation, we also urge 
strong overall program allocations of $100 million for Forest Legacy 
and $320 million for LWCF, including $220 million for Federal LWCF 
projects and $100 million for the State grants program.
    The Northern Forest is a rural region of 26 million acres 
stretching from the Tug Hill Plateau in central New York through the 
Adirondacks, Vermont's Green Mountains, New Hampshire's White 
Mountains, and into northern Maine. Much like the Southern 
Appalachians, the Northern Forest is an eastern forest region that has 
retained its rural character and resource-based economy in the face of 
overwhelming changes in the broader eastern landscape. However, this 
rural region is changing rapidly. The recently released U.S. Forest 
Service report, Forests on the Edge, projects that much of the private 
forestland in the Northern Forest will see ``medium'' or ``high'' 
change from development through 2030. The study focused its assessment 
by watershed and identified seven watersheds in the Northern Forest 
States as among the top 25 in the Nation for projected development 
through 2030, including parts of the Connecticut River watershed, 
Androscoggin River watershed, and the Penobscot River watershed. We are 
recommending fiscal year 2008 conservation projects in all three of 
these watersheds.
    The kind of forest parcelization and development that the report 
projects are already affecting not only natural resources but also the 
Northern Forest way of life. Our region was the Nation's original fiber 
basket and continues to be a place where many citizens earn a living 
from the woods as loggers and sugarmakers or in forest products 
manufacturing. Parcelized forestlands are less valuable for forestry 
and new owners often make them unavailable for timber harvest and 
neglect even basic forest stewardship. This is having economic and 
environmental impacts. Our region also prides itself on a long 
tradition of open travel across private lands, a tradition that is 
increasingly at risk thanks to rising forest parcelization. Posting of 
land is increasing across the Northern Forest as lands are subdivided, 
closing opportunities for hunters, hikers, and other recreationists.
          conserving land conserves our northern forest legacy
    Despite some recent mill closings in Berlin, New Hampshire and 
other Northern Forest communities, forest products remain the largest 
industrial sector in the Northern Forest. The forest products industry 
in Maine alone contributes $6.5 billion annually to the Northern Forest 
economy with wages and salaries of more than $1 billion. To maintain 
this important economic activity, all of the fiscal year 2008 Forest 
Legacy projects in our region have been designed to maintain working 
forests that might otherwise be converted for private development.
    One of the most innovative conservation approaches in the Northern 
Forest is the growing use of community ownership of forestland to 
maintain traditional uses. The Brushwood Community Forest project in 
Vermont, sponsored by the Trust for Public Land, is perhaps the 
foremost example. The Forest Legacy project will help the Town of West 
Fairlee purchase over 1,800 acres of the most productive sugar maple 
stands in the State the land for community ownership and continued 
timber harvest and sugaring. In addition to its forestry values, the 
land will also be heavily used for community recreation, forest-based 
education, and model forest stewardship to educate private landowners. 
The Brushwood project is part of a new statewide effort, the Northern 
Forest Alliance-led Vermont Town Forest Project, which is helping 
communities statewide to purchase forestland and enhance management and 
use of existing town forests.
    The Nature Conservancy is also leading innovative and exciting 
community forest conservation projects using Forest Legacy. The Lower 
Penobscot Forest project outside Bangor, Maine will conserve more than 
40,000 acres in the shadow of this fast growing city. The project area 
is in the most threatened watershed in the Nation for development, 
according to the USFS, and will sustain not only highly productive 
forestry operations but also popular youth hunting programs and other 
community activities. The Ossipee Pine Barrens project in the Lakes 
Region of New Hampshire has similar community forest values. It will 
conserve more than 2,200 acres of a globally rare forest system and 
link with existing town forests and other conserved lands for a 5,800-
acre block of outstanding habitat and locally important recreation 
lands.
    Like other rural regions across the country, the Northern Forest is 
also seeking to diversify its economy through tourism and other 
measures. Tourism has already grown to include 10 percent of all 
Northern Forest jobs, with a payroll of $455 million. Many of the 
fiscal year 2008 Forest Legacy projects in the Northern Forest would 
have a significant impact on tourism. In particular, we are supporting 
a complementary fiscal year 2008 Forest Legacy projects along the 
Mahoosuc Range of Maine and New Hampshire--one of the Northern Forest's 
most famed recreation areas and a magnet for tourism. The Mahoosuc 
Range features famed Mahoosuc Notch, the most rugged and challenging 
section of the entire 2,100-mile Appalachian Trail (AT) and subject of 
recent profiles in USA Today and the New York Times. Thanks to the work 
of volunteers and non-profit organizations, the region is poised to 
complete the newly-developed Grafton Loop Trail that will enable hikers 
to swing almost fifty miles off the AT in the Mahoosucs. When complete, 
this trail will complement the AT to create a complex of hiking trails 
less than three hours from Boston, Portland, and Concord.
    Maine's Stowe Mountain fiscal year 2008 Forest Legacy project lies 
in the Mahoosucs adjacent to the State and Nation's top-ranked fiscal 
year 2007 Forest Legacy project, Grafton Notch. Grafton Notch was 
recently approved for fiscal year 2007 funding and will soon add 3,688 
acres to State holdings in the Mahoosucs. Stowe Mountain would add 
another 3,400 acres to this historic effort to conserve one of 
America's truly iconic natural landscapes. Stowe Mountain includes nine 
miles of the Grafton Loop Trail and virtually all of the remaining 
unprotected land in the Bear River Valley. Funding Stowe Mountain would 
be a major step toward completing the conservation and recreation 
vision for the Mahoosucs.
    The Northern Forest is also notable for containing the headwaters 
of many major northeastern rivers, including the Hudson, Connecticut, 
Androscoggin, and Penobscot. Many of our projects clearly address the 
threats to these forested watersheds identified in Forests on the Edge. 
The Tahawus Additions project in New York is one important example. The 
project will conserve six private inholdings totaling more than 1,600 
acres of the Hudson River headwaters among the High Peaks region of New 
York's Adirondack Park. The signature parcel among these six would 
protect more than 1,400 acres on the flanks of Santanoni Mountain--one 
of the High Peaks' most famed and scenic mountains. The project is a 
remarkable value per acre, seeking only $660,000 to accomplish 
significant conservation.

    NORTHERN FOREST ALLIANCE FISCAL YEAR 2008 FOREST LEGACY REQUESTS
------------------------------------------------------------------------
State                       Project                           Request
------------------------------------------------------------------------
   VT Brushwood Community Forest                            $1,500,000
   ME Lower Penobscot Forest                                 2,300,000
   ME Stowe Mountain                                         1,125,000
   NH Ossipee Pine Barrens                                   2,380,000
   NY Tahawus Additions                                        660,000
                                                       -----------------
            Total                                            7,965,000
------------------------------------------------------------------------

         fulfilling our potential: lwcf for the northern forest
    The fiscal year 2008 LWCF projects for the Silvio Conte National 
Wildlife Refuge, Lake Umbagog National Wildlife Refuge, and White 
Mountain National Forest will help realize the potential conservation, 
economic, and community benefits of our region's few Federal public 
land units. These Federal lands are strategically situated to conserve 
some of the Northern Forest's most important natural and recreational 
resources, but are being compromised as private inholdings within the 
units are developed. Often these lands are developed by private owners 
who would have preferred to sell to the relevant agency but were unable 
to for lack of Federal LWCF funding for acquisition.
    The Conte and Umbagog National Wildlife Refuges have already 
brought previously unimagined levels of tourism and related economic 
benefits to rural towns in the far northern reaches of our region like 
Island Pond, Vermont and Errol, New Hampshire. The Silvio Conte 
National Fish and Wildlife Refuge is unique in the Nation for its 
strategic conservation value: the proclamation area covers select lands 
of highest conservation value throughout the entire 7.2 million-acre 
Connecticut River watershed and the legislation creating the refuge 
envisioned that it would catalyze conservation activity throughout the 
entire area. To better support this unique refuge, the Northern Forest 
Alliance has worked with other supporters across four States to create 
the Friends of Conte Refuge and is now chairing this organization. The 
Friends are enthusiastically supporting an $8.25 million request for 
fiscal year 2008. The funding request covers important acquisitions 
from willing sellers in all four States that the refuge crosses--
Vermont, New Hampshire, Massachusetts, and Connecticut--and includes 
projects that were approved for fiscal year 2007 funding but lost when 
the Joint Resolution rendered moot the significant Conte NWR earmarks 
of $3 million and $4 million that were in the House and Senate Interior 
bills.
    The fiscal year 2008 request of $1 million for Lake Umbagog 
National Fish and Wildlife Refuge and the $550,000 request for the 
Haystack Notch Trailhead project on the White Mountain National Forest 
will both contribute to conservation of the Mahoosuc region, profiled 
above as one of the Northern Forest's foremost natural and recreational 
treasures. The Lake Umbagog NWR lands to be conserved include more than 
5,000 acres of the Mollidgewock Brook watershed. This rich parcel would 
connect existing refuge lands to the Errol Town Forest, a more than 
5,000 acre conservation area that was recently conserved through Forest 
Legacy. In sum, these lands would conserve the richest natural and 
wildlife lands in the New Hampshire portion of the Mahoosucs.
    The Haystack Notch Trailhead project on the White Mountain National 
Forest in Maine has been driven by overwhelming local interest in this 
rural community. Local residents want the national forest to acquire 
these lands for conservation of the pristine Pleasant River as well as 
trailhead access to highly popular trails. The lands in question are 
highly developable, yet surrounded on three sides by national forest. 
The parcel will aid USFS management of the area and is strongly 
supported by the district ranger. The project is notable as the only 
USFS project in the President's LWCF budget that lies east of Montana. 
Given the highly fragmented nature of most eastern national forests, it 
is essential that the Congress continue to make investments in 
acquisition of these kinds of strategic inholdings.

  NORTHERN FOREST ALLIANCE FISCAL YEAR 2008 LAND AND WATER CONSERVATION
                              FUND REQUESTS
------------------------------------------------------------------------
     State                       Project                      Request
------------------------------------------------------------------------
    NH/VT/MA/CT Silvio Conte National Fish and              $8,250,000
                 Wildlife Refuge
             NH Lake Umbagog National Fish and               1,000,000
                 Wildlife Refuge
             ME White Mountain National Forest                 550,000
                 (Haystack Notch Trailhead)
                                                       -----------------
                      Total                                  9,800,000
------------------------------------------------------------------------

    All of the Forest Legacy and LWCF projects included in our fiscal 
year 2008 request represent the best that our region has to offer, a 
highly select group drawn from the total range of projects seeking 
funding across the Northern Forest. In appreciation of the severe 
constraints on Federal resources for the upcoming fiscal year, we have 
gone through careful evaluation to develop this prioritized set of 
time-sensitive strategic investments that will leverage other funding 
sources and deliver critically important public benefits. We would be 
grateful for your consideration of this testimony as you go through the 
appropriations process.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Thank you for the opportunity to appear before this committee and 
provide oral testimony on the Department of the Interior and the 
Environmental Protection Agency for fiscal year 2008 Appropriations for 
Natural Resource Management of Tribal Programs for twenty (20) Treaty 
Indian Tribes in Western Washington. We would like to highlight the 
following requests:
           summary of fiscal year 2008 appropriations request
Secure and Enhance Western Washington Fisheries Management Base Funding
    $1.8 million--restore reduction incurred in the President's fiscal 
year 2008 Budget for BIA/Natural Resources Management/Rights 
Protection.
    $7.575 million--enhance the BIA/Natural Resource Management/Rights 
Protection/Western Washington Fisheries Management (WWFM) Base Funding.
Salmon Habitat Restoration, Hatchery, Maintenance/Rehabilitation and 
        Reform
    $1.5 million--increase BIA/Natural Resources Management/Fish, 
Wildlife and Parks/Fish Hatchery Repair account to support tribal 
hatcheries.
    $3.172 million--increase to the BIA/Natural Resources Management 
accounts for Hatchery Reform Implementation.
Maintain the Timber-Fish-Wildlife Program
    $1.74 million--to the BIA/Natural Resource Management/Rights 
Protection/Timber-Fish-Wildlife Program to maintain the overall program 
service level.
Maintain the Mass Marking Program
    $2.5 million--an increase of $1.5 million to BIA/Natural Resource 
Management to fully mark salmon at tribal hatcheries and to implement 
new selective fisheries plans.
Protect Marine Resources of Pacific and Puget Sound and Co-manage 
        Natural Resources
    $2.5 million--to the EPA/National Estuaries Program Puget Sound 
Partnership for tribal participation in ocean and Puget Sound planning 
and management.
Strengthen Tribal Wildlife Management and Assure Treaty-Protected 
        Hunting Rights
    $2.0 million--to BIA/Natural Resource Management/Rights Protection 
to support Tribal Treaty Rights.
Fulfill Puget Sound Regional Shellfish Settlement Commitment
    $7.0 million--to BIA/Indian Land and Water Claims Settlement 
Account to fully fund the shellfish settlement.
        fiscal year 2008 appropriations requests justifications
Secure And Enhance Western Washington Fisheries Management Base Funding
    Restore reduction of $1.8 million to BIA/Natural Resources 
Management/Rights Protection.
    This reduction, which targeted the U.S.-Canada Pacific Salmon 
Treaty, would affect the Northwest Indian Fisheries Commission, as well 
as the Columbia River Inter-Tribal Fish Commission and the Metlakatla 
Indian Community. The NWIFC portion of this cut is about 67 percent, or 
a reduction of $1.2 million. Tribes receive important value from the 
PST monies through direct contracts from the BIA for research and 
monitoring work, as well as from NWIFC policy coordination, technical 
assistance, and personnel contract support. These monies are critical 
for the successful renegotiation of portions of the treaty that are set 
to expire in 2008.
  --Enhance the BIA/Natural Resource Management/Rights Protection/
        Western Washington Fisheries Management (WWFM) Base Funding by 
        $7.575 million.
    Tribes have had to take on many new obligations over the years 
since Congress provided the original ``Boldt'' monies in the mid 
1970's. Responsibilities for shellfish management, groundfish 
management, Endangered Species Act requirements, and other tasks have 
received little or no funding. NWIFC proposes that the WWFM base be 
increased by $7.575 million to bring tribal and NWIFC programs up to a 
minimal new level commensurate with current obligations.
Salmon Habitat Restoration, Hatchery Maintenance/Rehabilitation & 
        Reform
  --The BIA/Natural Resource Management/Fish, Wildlife and Parks/Fish 
        Hatchery Repair Account should be increased to $1.5 million per 
        year for Tribal hatcheries.
    According to a study done by the BIA at the request of Congress, 
Tribal hatcheries are estimated to be worth almost $120 million, with a 
residual maintenance need of over $48 million. Yet the BIA account for 
maintenance and rehabilitation has essentially been frozen at $500,000 
for a number of years. We request an annual increase in this line item 
to help Tribes begin to address serious health and safety issues at 
Tribal facilities.
  --Hatchery Reform Implementation needs to be funded at $3.172 million 
        so Tribal hatcheries can address both ESA and production 
        issues. This request is from the BIA/Natural Resources 
        Management accounts.
    The Tribes, State of Washington and the Federal Government have 
undertaken significant planning through the Hatchery Reform Process. 
Regional and hatchery specific reviews resulted in over 900 
recommendations and guidelines to modify hatcheries operation and 
facilities. Tribes have developed a scientifically sound Tribal ranking 
process that has identified over $3.172 million worth of necessary 
monitoring and construction projects for this fiscal year. Additional 
projects will be ranked in coming years.
Maintain the Timber-Fish-Wildlife Program
  --The BIA/Natural Resource Management/Rights Protection/Timber-Fish-
        Wildlife Program (TFW) account requires funding of $1.74 
        million to maintain the overall program service level.
    TFW has served as the cornerstone-funding source for Tribal habitat 
management capabilities for almost 20 years. Since 2000, Congress has 
provided an allocation for additional Tribal participation in TFW and 
the Forest and Fish Report (FFR) development. Originally at $3.08 
million, this level was decreased in fiscal year 2006, but has been 
supplemented by a special request for funds from the State of 
Washington. In an effort to make the TFW program whole and allow Tribes 
to continue to implement TFW and the adaptive management provision in 
the FFR plan, which has been adopted as a HCP under the Endangered 
Species Act, an additional $1.74 million is needed to supplement the 
funds received by the Tribes from the State of Washington.
Maintain the Mass Marking Program
  --BIA/Natural Resource Management funding of $2.5 million is needed 
        to fully mark salmon at Tribal hatcheries and to use these 
        marked fish to scientifically monitor salmon populations and 
        watersheds in Western Washington.
    Federal requirements to mass mark Pacific Salmon raised in 
facilities funded in whole or in part by Federal dollars require 
program funding for Tribes. Tribes have agreed to mark salmon at their 
facilities, but require necessary funding to do so. It is also 
critically important to scientifically monitor salmon populations 
through spawning escapement studies to determine how the marking 
program and marked selective fisheries may be affecting existing data 
and assumptions. Funding levels have stagnated at $1 million, despite 
the expectation that the level would rise to $1.7 million in fiscal 
year 2006. New plans to implement more extensive selective fisheries 
require additional monies above the amount we originally thought to be 
adequate.
Protect Marine Resources Of Pacific & Puget Sound & Co-manage Natural 
        Resources
  --Funding for Tribal participation in the ocean and Puget Sound 
        planning and management work requires $2.5 million. Of this 
        amount, $2 million should be provided to the Puget Sound Tribes 
        from the overall partners request (via the State of Washington) 
        to the EPA/National Estuaries Program/Puget Sound Partnership.
    Marine resources are essential for all the NWIFC Tribes. Inside 
Puget Sound, the Tribes are actively working in the context of the 
Puget Sound Partnership. This effort brings together key marine issues 
of salmon recovery, storm water runoff, management and regulatory 
changes and a host of other issues. Tribes need $2.0 million to 
actively participate.
Strengthen Tribal Wildlife Management and Assure Treaty-protected 
        Hunting Rights BIA Natural Resource Management/Rights 
        Protection should include a Tribal Wildlife
  --Management Initiative of $2.0 million to support Tribal treaty 
        rights.
    This is a new initiative. Existing sources within the BIA to 
address wildlife management issues have been eliminated at the same 
time Tribal treaty rights to hunt are being constantly challenged 
either through unfriendly legal processes or through loss of important 
habitat and access to open and unclaimed lands. An appropriation of $2 
million would provide each of the member Tribes with a basic 
infrastructure to deal with Tribal wildlife management and treaty 
hunting rights.
Ensure that Puget Sound Regional Shellfish Settlement Commitment Is Met
  --The BIA Indian Land and Water Claim Settlements account must 
        include $7.0 million for the Puget Sound Regional Shellfish 
        Settlement this fiscal year.
    The Federal Government is committed under terms of recently enacted 
Federal legislation to fully fund the shellfish settlement. To complete 
the Federal obligation, $7 million is required in fiscal year 2008 and 
$5 million for fiscal year 2009-fiscal year 2011.
                               conclusion
    Our ancestors reserved rights to manage indigenous species of fish, 
wildlife and vegetation when they signed treaties with the United 
States a century and a half ago. Whether salmon or waterfowl, deer or 
cedar trees, all species of life have sustained the Tribes for 
thousands of years. Our dependence on these species for our economies, 
food, medicines, clothes, tools and cultural traditions has defined us 
as a people and strengthened our identity as caretakers of the land. In 
1974, the U.S. v. Washington (Boldt) Decision reaffirmed Tribes' treaty 
rights to these resources. The decision, confirmed by the U.S. Supreme 
Court in 1979, reaffirmed the Tribal fishing right and confirmed that 
Tribes have co-management authority with the State. A comparable 
relationship exists with Federal agencies. This is appropriate, since 
treaties are nation-to-nation accords and established a bond between 
our governments underscored by a Federal trust responsibility to the 
Tribes. Co-management has fostered increased cooperation and team 
spirit in natural resource management and it has helped the Tribes 
strengthen their natural resource management infrastructure. This 
enables us to do the policy and technical work necessary to achieve 
management objectives critical to the protection and restoration of 
fish, wildlife and native plant species.
    The administration has ushered funding cuts for Tribal natural 
resource management programs over the past 6 years. In the BIA's Rights 
Protection Implementation Account we have seen a 20 percent cut from 
fiscal year 2006 alone. This action compromised and jeopardized the 
management programs and infrastructure that are critically important to 
co-management and to the health and vitality of natural resources and 
the Tribal and non-tribal people they sustain.
    Our requests are bare minimums and we are sensitive to the budget 
challenges that Congress faces. We recognize that this administration 
has greatly reduced the allocation to discretionary domestic spending 
during the last several years, which makes it increasingly difficult 
for this committee to address the many requests it receives. We are 
also reaching out to the Budget Committee to champion the critical need 
for it to increase its allocation for domestic discretionary spending 
which is the major source of funding to Tribes. There is a critical 
need for adequate allocations of funds in the Pacific Northwest, and 
nationwide.
    We are actively involved in supporting efforts to increase the 
overall congressional investment in natural resource/environmental 
management. We do believe natural heritage should be a top priority of 
this country, and we do wish to work on a government-to-government 
basis with the United States and the States to meet the challenges of 
today's environment in a cooperative and coordinated way. But the 
challenges we are facing in natural resource management requires 
adequate funds for the Tribes to be active partners in these important 
natural resource management initiatives. It would be our pleasure to 
provide any additional information you might require related to these 
issues.
    I thank the committee for allowing me this opportunity to make 
these budget requests of the fiscal year 2008 Appropriations for the 
Department of the Interior and the Environmental Protection Agency.
                                 ______
                                 
                  Prepared Statement of OPERA America
    Madam Chairwoman and distinguished members of the subcommittee, I 
am grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors, and its 116 American member companies 
and the 16 million audience members we serve with our performances and 
education programs. We strongly urge you to support an increased 
appropriation of $176 million for the National Endowment for the Arts 
for fiscal year 2008. This testimony and the funding examples described 
below are intended to highlight the importance of Federal investment in 
the arts so critical to sustaining a vibrant cultural community 
throughout the country.
    The not-for-profit arts industry stimulates the economy, creates 
jobs, and attracts tourism dollars. The not-for-profit arts generate 
$134 billion annually in economic activity, support nearly 5 million 
jobs, and generate more than $10 billion in Federal income taxes. 
Federal Government funding of the arts generates on average $7 for 
every $1 granted--NEA funding of worthy arts programs is truly an 
economic investment in the cultural richness of our communities.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. Past NEA funding has 
directly supported projects in which arts organizations, artists, 
schools, and teachers collaborated to provide opportunities for adults 
and children to create, perform, and respond to artistic works. NEA 
funding has also made the artform more widely available in all States, 
including isolated rural areas and inner cities; indeed, NEA funded 
projects cross all racial, geographic, and socioeconomic lines.
    The following are some examples of the impact of NEA funding on 
opera programs in 2007:
    From the NEA's 2007 Access to Artistic Excellence Program:
    Boston Academy of Music, Inc. of Boston, MA received $10,000 to 
support a consortium festival project titled Opera Unlimited. In 
collaboration with the Boston Modern Orchestra Project, the second 
biannual festival will present contemporary chamber operas with an 
emphasis on new American works and recent works that are rarely 
performed. Additional activities will include composition workshops, 
staged readings of works in progress, seminars for adult audience 
members, and an outreach program designed for charter high school 
students in an underserved Boston neighborhood.
    Cedar Rapids Opera Theatre of Cedar Rapids, IA received $10,000 to 
support a production of Carlisle Floyd's Susannah. Outreach activities 
will include a free performance for youth and adults served by Big 
Brothers Big Sisters, Osada, and the McAuley Center for Women.
    Chinese Culture Foundation of San Francisco of San Francisco, CA 
received $10,000 to support the commissioning and presentation of an 
opera by composer Gang Situ. Based on Mozart's Don Giovanni, the work 
will fuse musical elements of traditional Cantonese opera with those of 
western composition.
    Glimmerglass Opera, Inc. of Cooperstown, NY received $22,500 to 
support a new production of Jenufa by Leos Janacek. Related activities 
will include illustrated lecture presentations, visual exhibitions, 
pre-concert ``Meet the Artists'' presentations, Young American Artist 
recitals, and Behind the Scenes production and rehearsal previews on 
the opera's Web site.
    Houston Grand Opera Association, Inc. of Houston, TX received 
$25,000 to support the Discover Opera: Community Connections 
Initiative. In its fourth year the program aims to educate and nurture 
new audiences through educational outreach in schools and community 
centers, including a program of portable operas for elementary school 
students, Opera Camps, and a year-long training program for high school 
voice students.
    Lake George Opera Festival Association, Inc. of Saratoga Springs, 
NY received $10,000 to support the production of Our Town, a new opera 
by composer Ned Rorem and librettist Sandy McClatchy based on the novel 
by Thornton Wilder. Related activities will include a screening of the 
film version of Our Town and panel discussions with project principals.
    Long Beach Opera of Long Beach, CA received $15,000 to support a 
condensed production of Wagner's Der Ring des Nibelungen (The Ring). 
Educational and outreach activities, in collaboration with the Goethe-
Institut and the Wagner Society, will include a series of film 
screenings, recitals and pre-performance lectures.
    Metropolitan Opera Association, Inc. of New York, NY received 
$100,000 to support a new production of Mazeppa by Peter Ilyich 
Tchaikovsky. The production will be conducted by Valery Gergiev and 
produced by Yuri Alexandrov, with sets by George Tsypin and costumes by 
Tatiana Noginova.
    Michigan Opera Theatre of Detroit, MI received $30,000 to support a 
new production of Verdi's Aida.The production will feature a diverse 
cast, including African American singers Indra Thomas, Lisa Daltirus, 
and Gregg Baker; Chinese bass Hao Jiang Tian; Russian American mezzo-
soprano Irina Mishura; and Italian singers Salvatore Licitra, Antonello 
Palombi, and Giuliano Carella.
    Minnesota Opera Company of Minneapolis, MN received $20,000 to 
support the American premiere of a new production of Saverio 
Mercadante's 1846 opera Orazi e Curiazi. The rarely performed bel canto 
opera dramatizes the struggle between family and duty during a war 
between the Romans and the neighboring Albans.
    Opera Company of Philadelphia of Philadelphia, PA received $20,000 
to support a production of Margaret Garner by composer Richard 
Danielpour and librettist Toni Morrison. The title role will be sung by 
mezzo-soprano Denyce Graves, who will be joined by soprano Angela 
Brown, baritone Gregg Baker, and bass-baritone Rodney Gilfry.
    Opera Omaha, Inc. of Omaha, NE received $20,000 to support the 
world premiere of Dream Horses by composer Anthony Davis and librettist 
Yusef Komunyakaa. The new opera is inspired by historical events that 
occurred in Nebraska between 1877 and 1879; with themes of loss and 
mourning that resonate locally and nationally.
    Santa Fe Opera of Santa Fe, NM received $55,000 to support the 
American premiere of Tea: A Mirror of Soul by Tan Dun with libretto by 
Xu Ying and the composer. Education and outreach programs will include 
free public lectures about the opera and a symposium involving the 
composer, librettist, and director.
    Sarasota Opera Association, Inc. of Sarasota, FL received $10,000 
to support the Apprentice and Studio Artists Program. Improvements 
designed to provide training and performance opportunities in the 
development of young singers will include vocal coaching, language 
coaching, master classes, and seminars on auditions.
    Seattle Opera of Seattle, WA received $50,000 to support a new 
production of Verdi's Macbeth. Performances of this rarely produced 
opera will be accompanied by preview talks, lectures, and radio 
broadcasts. Through Experience Opera, the company will work with 
teachers to incorporate opera into foreign language, philosophy, 
literature, and arts curricula and also provide multimedia lectures and 
presentations at ten schools.
    These examples are just a few of the many programs supported by the 
National Endowment of the Arts. As we continue into the 21st century, 
these programs display the power of opera to bridge different cultural 
backgrounds and traditions and attract new audiences with new 
programming and education efforts that reflect the wide diversity of 
our Nation.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, and its programs are 
seriously underfunded. OPERA America and other performing arts service 
organizations work hard each year to strengthen support for the NEA in 
Congress. We urge you to increase the 2008 NEA funding allocation to 
$176 million.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
   Prepared Statement of the Orange County Land Trust, Middletown, NY
    On behalf of the Orange County Land Trust and Partner Organizations 
responsible for the grass roots preservation of Sterling Forest State 
Park I would like to thank you for the opportunity to comment on the 
fiscal year 2008 Department of the Interior, Environment and Related 
Agencies Appropriations bill.
    Our top priorities include:
  --$11 million for the Highlands Conservation Act, including $10 
        million for land conservation partnership projects through the 
        U.S. Fish & Wildlife Service, and $1 million for USDA Forest 
        Service technical assistance and research programs in the 
        Highlands; and
  --$100 million for the Forest Legacy program.
                       highlands conservation act
    The recently enacted Highlands Conservation Act established the 
importance of protecting the critical Highlands geological formation 
surrounding the New York metropolitan region and it adjacent areas. 
This 3-million acre region has productive forests and farms, critical 
wildlife habitat, and superb recreational resources within an hour of 
major metropolitan areas, but it also provides drinking water for 
millions of local citizens. The Highlands Conservation Act authorized 
$10 million annually to assist the Highlands States in conserving 
priority lands from willing landowners, and to continue USDA Forest 
Service research and assistance to private landowners in the Highlands. 
Under the act, the States are required to match Federal funds for land 
conservation partnership projects on an equal basis which will give 
greater leverage to these Federal funds.
    In his budget for fiscal year 2008, President Bush included no 
appropriation for the Highlands Conservation Act (HCA). This is 
unacceptable, and we strongly urge the Senate to increase the budget 
allocation to $11 million which includes the full $10 million 
authorized by the legislation for land acquisition plus $1 million to 
the USDA Forest Service for continued research into the Highlands 
ecosystems and for administration of the Highlands Act implementation. 
The Governors of the four Highlands States have jointly submitted 
projects totaling $10 million to the Department of the Interior for 
funding in fiscal year 2008, thus indicating their willingness to 
provide matching State monies.
                              our request
    New York's Arrow Park is a priority area for funding under the 
Highlands Conservation Act, and it is an important priority of the 
Orange County Land Trust, NYS Office of Parks, Recreation, and Historic 
Preservation, the Palisades Interstate Park Commission and the grass-
roots volunteer organization Sterling Forest Partnership. I want to 
explain the importance of this area and how your action on the fiscal 
year 2008 Appropriations bill impacts its protection.
    The value of Sterling Forest State Park, to which the Arrow Park 
parcel will be added, has been recognized regionally and nationally for 
its natural resource value, and includes designations as a New York 
Important Bird Area, Significant Habitat for State listed Cricket Frog 
and Eastern Timber Rattlesnake, a Critical Resource for clean waters 
flowing into the Wanaque Reservoir watershed providing drinking water 
for over 2 million residents in New Jersey, and classified as a Park 
Preserve, providing the greatest environmental protection within the NY 
State Park system.
    Arrow Park is an under-used private 334-acre resort contiguous with 
the northern border of Sterling Forest State Park. It consists of 
woodlands, small fields, a few buildings, and a pristine 43 acre lake 
which drains into Sterling Forest, . . . It is located in southeastern 
Orange County, the fastest growing county in the State, in an area 
where unchecked development has altered the landscape from farmland to 
suburbia in just a few years. The Orange County Land Trust has 
negotiated a purchase with the owners for well below the current fair 
market value of land in this area and has partnered with the Palisades 
Interstate Park Commission and the NYS Office of Parks, Recreation, and 
Historic Preservation to purchase 278 acres of the 334 acres. To 
protect the remaining 56 acres and facilities including an old stone 
lodge, cabins and recreation hail, the property will be turned over to 
a not-for-profit entity to continue current activities and create new 
programs using the natural landscape as a healing landscape.
    Currently successful programs taking place and to be expanded 
include:
  --A pediatric bereavement camp, run by Calvary Hospital for children 
        who have suffered death and trauma.
  --Use by Orange County hospices and like agencies for their programs.
  --Healing programs for children of war from Sierra Leone, Africa and 
        other locations. The New York City Fire Department's program 
        for children and widows from the 9/11 terror attack.
  --Occupations Inc. special support programs for the disabled.
  --A new program being developed by the Military Order of the Purple 
        Heart for veterans from Iraq and Afghanistan and their 
        families.
    Placing this area under public protection is important because:
  --This property is under extreme development pressure and the current 
        owner is willing to sell it for a much higher price than the 
        amount currently under contract with the Land Trust;
  --The water from the lake flows into a habitat for State listed 
        Cricket Frogs which, if degraded by development and unmanaged 
        use, could endanger this species further;
  --The region serves as a nesting area for migratory birds, partly due 
        to its north-south orientation and partly to its habitat 
        diversity; and
  --It is a natural extension of Sterling Forest State Park which is 
        the largest contiguous forest in the tri-state area providing 
        habitat for an unusually diverse flora and fauna.
    Other public values to be protected include a variety of 
recreational, educational, and research activities currently underway. 
The open space provided by the greater Sterling Forest region and the 
Highlands is a major attraction for people moving into the area which 
is within commuting distance of New York City. Fishing is enjoyed by 
hundreds of anglers, ranging from serious fly-fishermen to children 
having their first experience putting a worm on a hook. Deer hunting is 
pursued in much of the area, and it is an important management tool as 
the deer populations continue to reshape our forest communities. 
Hiking, bird-watching, nature study from flora to butterflies and 
dragonflies, and photography are other activities commonly occurring in 
the forest. Yet public access to the rivers and the open space has 
become more limited in recent years. The healing inspiration provided 
by lake and forest natural landscapes have proved their worth in the 
programs that have taken place here. All of these values and activities 
are destined to be severely degraded in the near future if no 
protective action is taken.
                              the problem
    Shopping malls and residential development pressure in the area is 
severe and increasing annually. This proximity to metropolitan 
population centers of New York City and northern New Jersey, combined 
with the upgrading of highway and rail corridors into the area, produce 
extraordinary pressures on this landscape. It is the fastest growing 
region of New York State, yet it also provides drinking water for 
millions of New Jersey residents. Land is being converted into 
developments at an alarming rate as pressure for housing at almost any 
cost leads to rapid changes from forest and fields to lawns, driveways, 
malls, and sprawl. This causes declines in wildlife habitat, water 
quality, and all the other values provided by the forests and wetlands, 
and once the land has been converted, these environmental services are 
essentially impossible to recover. And as more land is converted, the 
costs to protect the increasingly rare open space that remains rises 
even more rapidly.
    The window of opportunity to save Arrow Park and similar Highlands 
areas is rapidly closing. The longer we take to protect our valuable 
Highlands resource, the less effective we will be and the more it will 
cost.
    The $11 million funding request for the Highlands Act is an 
extremely important investment in protecting our future. The Forest 
Legacy funding will also contribute to protecting these resources and 
should be fully funded as well.
                                 ______
                                 
            Prepared Statement of the Pacific Rivers Council
    Requesting $30 million for the Washington Watershed Restoration 
Initiative: Road Renovation and Removal in the Puget Sound and Hood 
Canal Watersheds of the Mt. Baker-Snoqualmie and Olympic National 
Forests.
    As a credentialed watershed and aquatic scientist and an 
experienced natural resources lawyer, we ask the committee for 
appropriations to fix a problem that science tells us is ecologically 
urgent and the law tells us we are obligated to address.
    The Forest Service needs significantly more funding in order to 
build agency and community watershed restoration capacity to do more 
and better road remediation and removal projects.
                          what is the problem?
    Forest roads have widespread, pervasive and--if left untreated--
long-lasting biological and physical impacts to our stream systems that 
continue long after initial construction. Roads change the way water is 
routed within watersheds, and almost always increase instream sediment 
and reduce water clarity. Road crossings can become barriers to 
movement of fish and other aquatic organisms, disrupting migration and 
making populations less likely to survive. In most cases, these effects 
cannot be alleviated without human intervention.
    Nationwide, roads contribute sediment to streams, rivers, and lakes 
more widely than any other form of land management activity, and are 
the main source of sediment to water bodies from forestry operations. 
National forest roads are no exception. A 2002 Forest Service report 
found that ``construction of high density and insufficiently maintained 
road networks poses severe problems and risks for forest resources,'' 
and that effective watershed restoration requires ``decommissioning and 
obliterating non-critical road systems.''
    But roads can be treated. Thanks to experience and good research, 
we know how to do it, and how to do it efficiently. In many cases, the 
most effective way to reduce road-related water quality degradation is 
to decommission roads, a task which requires significant investment. 
For roads that cannot be removed, upgrading design and drainage, and 
executing regular maintenance is critical to minimizing impacts on 
freshwater ecosystems. But these are also outside the reach of current 
agency budgets. (Shockingly the total deferred maintenance backlog on 
Forest Service roads nationwide is estimated conservatively to be at 
least $4.05 billion).
    Current budget trends are heading us in the wrong direction: 
Federal funding to fix roads and restore watersheds has greatly 
diminished in recent years. The Washington State piece of the Federal 
budget currently provides only $3 million annually for Forest Service 
road maintenance--allowing an already staggering maintenance backlog to 
grow by at least $8 million each year. Field investigation confirms 
that inadequate maintenance is largely to blame for more than $30 
million of road damage in Washington's national forests following heavy 
rains last November. According to the Forest Service, if the needed 
road work begins now, it will cost an estimated $300 million to bring 
Washington's national forests into compliance with today's standards.
     what needs to be done to ``stormproof'' a forest road system?
    Roads are ``stormproofed'' when sediment delivery to streams is 
strictly minimized. The techniques for remediation of road-related 
sediment delivery risks are well-established. In order to protect 
aquatic ecosystems, roads should be constructed, reconstructed, 
maintained, and operated such that:
  --Roads do not initiate or contribute to gully and landslide erosion 
        processes.
  --Road-related sediment (both coarse and fine) does not reach 
        watercourses.
  --Fish movement is not restricted.
  --Natural drainage and hydrology are maintained--neither extended nor 
        reduced.
  --Chemicals applied for forest management and those associated with 
        road traffic do not come in contact with water, either directly 
        or via sediment and aerosol transport.
    The Washington Watershed Restoration Initiative: A Six-Step 
Solution.--A coalition \1\ including the Washington State Department of 
Ecology, Department of Fish and Wildlife, and a dozen of Pacific Rivers 
Council's fellow conservation groups has prepared a ``Watershed 
Restoration Initiative'' for the State's national forests, suggesting 
the following 6-step solution.
---------------------------------------------------------------------------
    \1\ The members of the Washington Watershed Coalition are: 
Washington Department of Ecology, Washington Department of Fish and 
Wildlife, Olympic Forest Coalition, Sierra Club Cascade Chapter, Public 
Employees for Environmental Responsibility, Pacific Rivers Council, 
American Whitewater, The Wilderness Society, Wild Fish Conservancy, 
Alpine Lakes Protection Society, North Cascades Conservation Council, 
Pilchuck Audubon Society, and Washington Wilderness Coalition.
---------------------------------------------------------------------------
    1. Adequate Funding.--$30 million in fiscal year 2008 and for each 
of the next 10 years. The Forest Service road maintenance backlog can 
be wiped out in the next decade state-wide with about $30 million 
annually. A sensible approach is to start with the national forests 
watersheds that flow into the already ailing Puget Sound and Hood Canal 
Basin--i.e. the Mount Baker-Snoqualmie National Forest and the eastern 
Olympic National Forest.
    2. Prioritize to get the biggest bang for the buck.--We need to 
spend smarter. A strategic approach to public investment in road-
related watershed restoration will optimize the ecological benefits of 
our investments across the landscape--an approach that is also 
consistent with the recovery needs of native fish. This means: 
targeting the ``best'' or highest ecological priority watersheds first 
and fully treating--i.e. ``stormproofing''--whole watersheds to meet 
ecologically adequate road-related risk and impact benchmarks.
    Specifically, we want to avoid treating only the ``worst'' roads in 
high-risk, high-value basins and leaving behind high road densities and 
conditions that still pose substantial risk of future harm to habitat 
and fish. It is a waste of scarce resources if our actions result in 
making highly impacted basins only slightly less highly impacted 
because the slight reduction provides negligible biological benefit.
    The goal should be to invest in ways that secure the maximum area 
of native fish habitat, that maintain the largest areal extent of 
existing high quality waters, and that allow relatively rapid recovery 
of high-quality conditions. Some subwatersheds with extensive, 
concentrated high-risk roads may go untreated for the first few years, 
while resources are invested to secure higher quality waters from being 
harmed by an existing road system that is not yet as severely 
compromised as the more heavily roaded areas. With the goal of 
ecological effectiveness as the primary driver, targeting choices may 
also be influenced by considerations such as partnership opportunities 
and complementary restoration projects in the same watershed.
    Within the priority watersheds, we strongly recommend that 
restoration projects must focus on the following objectives:
  --re-routing road runoff to eliminate or reduce direct delivery of 
        sediment to streams;
  --decommissioning high-risk, unstable, and unneeded roads;
  --fixing culvert crossing to restore fish passage;
  --renovating road drainage features to minimize future maintenance 
        and diminish the risk of road failures.
    3. Field Assessment.--The Initiative calls for improved inventories 
of road systems so we are able to use sound, field-based information to 
make road management decisions. The Forest Service has already 
collected useful data through Access and Travel Management Plans and 
Watershed Analyses that provide a good head start on large parts of the 
Mt. Baker-Snoqualmie and Olympic National Forests, in particular. Funds 
can get to the ground quickly and effectively in those places.
    4. Capacity Building to Support Partnerships.--In order to protect 
our public investment, we are also asking the committee to specify that 
funding be directed to increased professional capacity within the 
Forest Service to effectively design, implement and create local 
partnerships around roads projects. More Forest Service staff are 
needed to support project partnerships with landowners, tribes, and 
other agencies and organizations.
    5. Monitoring.--Watershed restoration projects must be monitored to 
ensure that road work is properly designed and implemented to meet the 
intended environmental objectives, and to allow for program adjustments 
where indicated. The Initiative suggests dedicating 2 percent of 
project funds to monitoring. PRC recommends that monitoring be 
conducted by the Forest Service's Pacific Northwest Research Station, 
the best branch to execute and report on restoration effectiveness.
    6. Strategic Re-deployment of Expert Agency Staff.--One potential 
way to stretch agency funding for staff is to enable the Forest Service 
to temporarily deploy outside Federal agency personnel with expertise 
in project implementation and oversight. In addition to supplementing 
local personnel, a generation of field and management staff will gain 
critical field experience that will build capacity for restoration 
nationwide.
    In conclusion, we believe that this is a chance to fulfill unkept 
promises. The problems caused by outdated and deteriorating Forest 
Service roads were highlighted during the early years of the 1993 
Northwest Forest Plan. Our request today reflects the unwelcome truth 
that we have not fulfilled the promise of this Plan to restore our 
forested watersheds, or our obligations to meet the goals of the Clean 
Water Act under a Memorandum of Understanding with the Washington 
Department of Ecology.
    The Watershed Restoration Initiative for national forest roads is 
the Forest Service counterpart of the road restoration work now being 
undertaken by private timberland owners in Washington State to protect 
fish habitat and water quality under the statewide Forest Practices 
Habitat Conservation Plan. Timber industry reports tell us that road 
maintenance and abandonment plans are proceeding to provide fish 
passage, reduce road impacts to streams and restore habitat. The Forest 
Service is lagging behind by allowing its road problems to grow.
    In conclusion, Pacific Rivers Council and our coalition partners 
are very grateful for your support of watershed restoration in 
Washington State and across the Northwest. We look forward to working 
with you ensure that neglected Forest Service roads don't prevent us 
from meeting our goals for clean water and healthy fisheries in Puget 
Sound and elsewhere.
                          selected references
    Angermeier, Paul L., A. P. Wheeler, and A.E. Rosenberger. 2004. ``A 
Conceptual Framework for Assessing Impacts of Roads on Aquatic Biota,'' 
29 Fisheries 12, 19-29 (2004).
    Butler, Brett J. and Earl C. Leatherberry. 2004. USDA Forest 
Service, Forest Inventory and Analysis: National Woodland Owner Survey, 
2003, Preliminary Results. (July 12, 2004 draft).
    Gucinski, Hermann, Michael J. Furniss, Robert R. Ziemer, and Martha 
H. Brookes (eds.). 2001. Forest roads: A synthesis of scientific 
information. General Technical Report PNW-GTR-509. Portland, Oregon: 
U.S. Dept. of Agriculture, Forest Service. 103 p.
    Schlosser I. J. and P. L. Angermeier, 1995. Spatial variation in 
demographic processes of lotic fishes: conceptual models, empirical 
evidence, and implications for conservation. American fisheries Society 
Symposium. 17:392-401.
    USDA Forest Service, Forest Service Roads: A Synthesis of 
Scientific Information. General Technical Report PNW-GTR-509, May 2001, 
page 27.
    USDA Forest Service. ``Major Issues Facing the Forest Service,'' 
Report of the Forest Service Fiscal Year 2002: Healthy Forests and 
Grasslands--Financial and Performance Accountability. May 2003 (page 
6).
    USDA Forest Service, 2007. Fiscal Year 2008 President's Budget: 
Budget Justification. 17-24
    USEPA. 2002. National Water Quality Inventory: 2000 Report. EPA-
841-R0902-001, Aug., 2002
    USEPA. 2005. National Management Measures to Control Nonpoint 
Source Pollution from Forestry. EPA-841-B-05-001.
    Trombulak, S.C., and C.A. Frissell. 2000. Review of ecological 
effects of roads on terrestrial and aquatic communities. Conservation 
Biology 14:18-30.
    Weaver, W. E., D. K. Hagans, and E. Weppner. 2006. Part X, Upslope 
Erosion Inventory and Sediment Control Guidance, in California Salmonid 
Stream Habitat Restoration Manual, available at http://www.dfg.ca.gov/
nafwb/manual.html
    Weaver. W.E. 2005. Storm Proofing Your Roads: Practical Advice and 
Case Histories, Power Point Presentation and Oral Presentation, at USDA 
Forest Service, Oregon Department of Forestry, and Western Forestry and 
Conservation Association Workshop: Forest Roads: Advancements in 
Science and Technology, Eugene, Oregon, December 13-14, 2005.
                          contact information
    Mary Scurlock, Pacific Rivers Council, 917 SW Oak Street, #403, 
Portland, OR 97205 Phone: 503-228-3555 Fax: 503-228-3556 Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="117c706368516170726378677463623f7e6376">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Madam Chairwoman and members of the subcommittee: The Partnership 
for the National Trails System appreciates your support over the past 
dozen years, through operations funding and earmarked Challenge Cost 
Share funds, for the national scenic and historic trails administered 
by the National Park Service. We also appreciate your increased 
allocation of funds to support the trails administered and managed by 
the Forest Service and your support for the trails in the Bureau of 
Land Management's National Landscape Conservation System. To continue 
the progress that you have fostered, the Partnership requests that you 
provide annual operations funding for each of the 25 national scenic 
and historic trails for fiscal year 2008 through these appropriations:
  --National Park Service: $11.915 million for the administration of 20 
        trails and for coordination of the long-distance trails program 
        by the Washington Park Service office.
  --USDA Forest Service: $3.79 million to administer 4 trails and $1 
        million to manage parts of 16 trails administered by the NPS or 
        BLM; Construction: $2.1 million for the Continental Divide 
        Trail, $1.35 million for the Florida Trail, and $1 million each 
        for the Pacific Crest and Iditarod Trails.
  --Bureau of Land Management: to coordinate its National Trails System 
        Program: $250,000; to administer the Iditarod National Historic 
        Trail: $420,000, the Camino Real de Tierra Adentro National 
        Historic Trail: $230,000, the Old Spanish National Historic 
        Trail: $331,000 and $3.67 million to manage portions of 10 
        trails administered by the Park Service or the Forest Service; 
        $1,460,000 for operating five National Historic Trail 
        interpretive centers; $500,000 for planning and projects for 
        the Iditarod National Historic Trail Centennial.
  --We ask that you appropriate $4.5 million for the National Park 
        Service Challenge Cost Share Program and continue to direct 
        one-third of it ($1,500,000) for national scenic and historic 
        trails or create a separate $1.5 million National Trails System 
        Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and allocate it for the national 
        scenic and historic trails it administers or manages.
  --We ask that you appropriate $1.253 million to the National Park 
        Service office of Conservation and Outdoor Recreation to 
        support the second year of a 5-year interagency project to 
        develop a consistent system-wide National Trails System 
        Geographic Information System (GIS).
    We ask that you appropriate from the Land and Water Conservation 
Fund for land acquisition:
  --to the Forest Service: $23.8 million for the Pacific Crest Trail, 
        $5 million for the Florida Trail; $9.32 million for the 
        Appalachian Trail; $4 million for the Ottawa National Forest/
        North Country Trail; $195,000 for the Overmountain Victory 
        Trail;
  --to the Bureau of Land Management: $200,000 for the Continental 
        Divide Trail in New Mexico;
  --to the Park Service: $4.75 million to grant to the State of 
        Wisconsin to match State funds to acquire land for the Ice Age 
        Trail.
                         national park service
    We request $1.253 million to fund the second year of a 5-year 
interagency effort to develop a consistent GIS for all 25 national 
scenic and historic trails as described in the August 2001 report 
(requested by Congress in the fiscal year 2001 appropriation) ``GIS For 
The National Trails System.'' This builds upon work underway on the Ice 
Age, Appalachian, Florida, Oregon, California, Mormon Pioneer and Pony 
Express Trails to develop consistent information gathering and mapping 
that can be applied across the National Trails System. This funding 
will be shared with the Bureau of Land Management and the Forest 
Service.
    We support the administration's proposed $850,000 for the Connect 
Trails To Parks project to enhance the public's understanding of the 
National Trails System and its relationship to the National Park 
System.
    The $11.915 million we request for Park Service operations includes 
increases for many of the trails to continue the progress and new 
initiatives made possible by the $975,000 funding increase provided for 
nine of the trails in fiscal year 2001 and the $500,000 increases 
provided in fiscal year 2004, fiscal year 2005, and fiscal year 2006. 
The increases we request--$80,000 for El Camino Real de Tierra Adentro 
and $135,000 for Old Spanish--will enable the Park Service to continue 
full-time management and help implement Comprehensive Management Plans 
for these new historic trails, co-administered with the Bureau of Land 
Management.
    We request an increase of $641,000 to continue and expand Park 
Service efforts to protect cultural landscapes at more than 200 sites 
along the Santa Fe Trail, to develop GIS mapping, and to fund public 
educational outreach programs of the Santa Fe Trail Association. An 
increase of $521,000 for the Trail of Tears will enable the Park 
Service to work with the Trail of Tears Association to develop a GIS to 
map the Trail's historical and cultural heritage sites so they can be 
protected and interpreted for visitors.
    The $232,000 increase we request for the interagency Salt Lake City 
Trails office will enable the Park Service to continue developing 
comprehensive interpretation and auto tour guides for the Oregon, 
California, Mormon Pioneer and Pony Express Trails with a library of 
trail images linked with the GIS map database of the trails.
    We request $1,948,000 for the Lewis & Clark Trail to complete 
resource protection and interpretation projects and to work with the 
public/private and inter-agency partnerships forged through the 
successful Lewis & Clark Bicentennial commemoration to foster long-term 
cooperative stewardship of the Trail.
    The $879,000 we request for the 4,200 mile North Country Trail will 
enable the Park Service and Forest Service to collaborate more 
effectively while also providing greater support for the regional and 
local resource inventory and GIS mapping, trail building, trail 
management, and training of volunteers led by the North Country Trail 
Association, hastening the day when our Nation's longest national 
scenic trail will be fully opened for use.
    The $936,000 we request will enable the Park Service to help 
Wisconsin DNR and other partners to accelerate land acquisition for the 
Ice Age Trail and further development of the Trail GIS to more 
efficiently plan resource protection, trail construction and 
maintenance to correct unsafe conditions and better mark the Trail for 
users. The funds will also assist the Ice Age Park & Trail Foundation 
to better equip, train and support the volunteers who build and 
maintain the Trail and manage its resources.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $4.5 million in Challenge 
Cost Share funding to the Park Service for fiscal year 2008 as a wise 
investment of public money that will generate public benefits many 
times greater than its sum. We ask you to continue to direct one-third 
of the $4.5 million for the national scenic and historic trails to 
continue the steady progress toward making these trails fully available 
for public enjoyment. We suggest, as an alternative to the annual 
earmarking of funds from the Regular Challenge Cost Share program, that 
you establish a separate National Trails System Challenge Cost Share 
program with $1.5 million funding.
                          usda--forest service
    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 16 other trails. We ask you to appropriate $3.79 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Full-time managers have been assigned 
for each of these trails by the Forest Service. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 650 miles of the North Country 
Trail, and sections of the Ice Age, Anza, Caminos Real de Tierra 
Adentro and de Tejas, Lewis & Clark, California, Iditarod, Mormon 
Pioneer, Old Spanish, Oregon, Overmountain Victory, Pony Express, Trail 
of Tears and Santa Fe Trails, we ask you to appropriate $1 million 
specifically for these trails. We also request $1 million for the 
Chugach National Forest to begin to develop the Southern Trek of the 
Iditarod National Historic Trail.
    Work is underway, supported by funds you provided over the past 6 
years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association has built 100 miles of new Trail 
across Eglin Air Force Base, in the Ocala National Forest, Big Cypress 
National Preserve and along Lake Kissimmee and the Choctawahatchee 
River. FTA volunteers helped clear trees and other debris scattered 
across 850 miles of trail by four hurricanes in 2004. The Partnership 
requests an additional $1.35 million for trail construction in fiscal 
year 2008 to enable the Forest Service and FTA to build 18 more miles 
and to manage 3,410 acres of new Florida Trail land.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3,200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new CDT construction, begun with fiscal year 1998 funding, we 
ask you to appropriate $2.1 million to build or reconstruct 89 more 
miles.
    A Forest Service lands team is working with the Pacific Crest Trail 
Association (PCTA) and the Park Service National Trail Land Resources 
Program Center to map and acquire better routes for the 300 miles of 
the Pacific Crest Trail located on 227 narrow easements across private 
land or on the edge of dangerous highways. We request $200,000 to 
continue the work of the fulltime Trail Manager and the lands team and 
$100,000 for Optimal Location route planning. We also request 
$1,000,000 for new trail construction and reconstruction of fire and 
flood damaged bridges along the PCT in California and Washington by the 
Forest Service and the PCTA.
                       bureau of land management
    While the Bureau of Land Management has administrative authority 
only for the Iditarod, El Camino Real de Tierra Adentro, and the Old 
Spanish National Historic Trails, it has on-the-ground management 
responsibility for 641 miles of three scenic trails and 3,115 miles of 
seven historic trails administered by the National Park Service and 
U.S. Forest Service. The significance of these trails was recognized by 
their inclusion in the National Landscape Conservation System and, for 
the first time, in fiscal year 2002, by provision of specific funding 
for each of them. The Partnership applauds the decision of the Bureau 
of Land Management to include the national scenic and historic trails 
in the NLCS and to budget specific funding for each of them. We request 
that you provide funding for the Bureau to begin to implement its 10 
Year ``National Scenic & Historic Trails Strategy and Work Plan.''
    We ask that you increase funding by $19.76 million to provide $69 
million as new permanent base funding for the National Landscape 
Conservation System and that you appropriate as new permanent base 
funding $250,000 for National Trails System Program Coordination, 
$420,000 for the Iditarod Trail, $230,000 for El Camino Real de Tierra 
Adentro Trail, $331,000 for the Old Spanish Trail, and $3,421,000 for 
management of the portions of the ten other trails under the care of 
the Bureau of Land Management. We request $166,000 for construction of 
new sections of the Continental Divide Trail, $115,000 for maintenance 
of the Pacific Crest Trail, $500,000 to begin planning and projects for 
the Iditarod Trail Centennial, and $1,460,000 to operate five historic 
trails interpretive centers.
    We request that you add $500,000 to the Challenge Cost Share 
program and allocate the money for the National Trails System as you 
have done for many years with the Park Service's Challenge Cost Share 
program.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2007 and to direct the 
Bureau to include unit-level allocations by major sub-activities for 
each of the scenic and historic trails, monuments, wild and scenic 
rivers, and conservation areas within a new activity account for the 
NLCS in future budgets. Existing accounts for Wilderness Areas and 
Wilderness Study Areas should also be included in this new National 
Landscape Conservation System activity account.
                    land and water conservation fund
    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the Land and Water 
Conservation Fund and that you make the specific appropriations for 
national scenic and historic trails detailed at the beginning of this 
statement and in Attachment 2.
    The $23.8 million we request for the Pacific Crest National Scenic 
Trail will continue acquisition underway by the Forest Service and Park 
Service, protecting 12 miles of PCT in Washington and taking 34 miles 
off of roads in southern California. The $5 million requested for the 
Florida National Scenic Trail will continue another successful 
collaboration between these two agencies to protect another 13 miles of 
Trail and the $9.32 million requested will protect sections of the 
Appalachian National Scenic Trail in three national forests in three 
States. The $4 million requested for the Ottawa National Forest will 
protect the Sturgeon River Gorge adjoining the North Country National 
Scenic Trail in Upper Michigan. The $195,000 requested for the 
Overmountain Victory National Historic Trail will protect a key link 
and access to a 7-mile section of the trail in the Pisgah National 
Forest in North Carolina.
    The $200,000 requested for the Bureau of Land Management will close 
a gap in the Continental Divide Trail in New Mexico.
    The National Trails System Act encourages States to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Wisconsin has matched $10.9 million of fiscal year 
2000-2006 LWCF funding with $16.6 million to help conserve the 
resources of the Ice Age National Scenic Trail. With this 2:1 match of 
State to Federal funds, Wisconsin has purchased 35 parcels totaling 
6,539 acres and now has another 28 parcels under negotiation, appraisal 
or option to purchase. All of the LWCF funds appropriated by Congress 
for the Ice Age NST have been spent. The requested $4.75 Million Land 
and Water Conservation Fund grant to Wisconsin will continue this very 
successful Federal/State/local partnership for protecting land for the 
Ice Age Trail.
    The essential funding requests to support the trails are detailed 
in Attachment 2.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The private trail organizations commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2006 the trail organizations channeled 687,904 
hours of documented volunteer labor valued at $12,409,472 to help 
sustain the national scenic and historic trails. The organizations also 
applied private sector contributions of $7,934,074 to benefit the 
trails. These contributions are documented in Attachment 1.

 ATTACHMENT 1.--CONTRIBUTIONS MADE IN 2006 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                             Estimated value
                      Organization                        Volunteer hours      of volunteer        Financial
                                                                                  labor          contributions
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference...........................            190,017         $3,427,600         $4,230,000
Camino Real Trail Association..........................              1,025             18,482              4,849
Continental Divide Trail Society.......................          \1\ 1,500             27,060  .................
Continental Divide Trail Alliance......................             31,225            563,299            645,197
Florida Trail Association..............................             62,380          1,125,335            177,248
Ice Age Park & Trail Foundation........................             49,524            893,413            257,164
Iditarod National Historic Trail, Inc..................              1,898             34,240         \1\ 80,000
Heritage Trails/Amigos De Anza & others................              2,625             47,355  .................
Anza Trail Coalition of Arizona........................              4,377             78,961  .................
Lewis & Clark Trail Heritage Foundation................             61,424          1,108,089            405,568
Mormon Trails Association..............................          \1\ 1,800             32,472              3,653
Iowa Mormon Trails Association.........................            \1\ 750             13,530              1,820
Nebraska Mormon Trails Association.....................            \1\ 125              2,255              2,580
National Pony Express Association......................             32,072            578,579            143,672
Nez Perce Trail Foundation.............................              6,830            123,213             12,048
North Country Trail Association........................             32,090            578,903            257,397
Old Spanish Trail Association..........................             11,948            215,542             48,353
Oregon-California Trails Association...................             60,200          1,086,008            714,178
Overmountain Victory Trail Association.................              8,783            158,445             15,000
Pacific Crest Trail Association........................             55,439          1,000,120            695,841
Potomac Heritage Trail Association.....................          \1\ 2,000             36,080  .................
Santa Fe Trail Association.............................             37,420            675,057            193,239
Trail of Tears Association.............................             32,452            585,434             46,267
                                                        --------------------------------------------------------    Totals.............................................            687,904         12,409,472          7,934,074
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.


                               ATTACHMENT 2.--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM--REQUESTED FISCAL YEAR 2008 APPROPRIATIONS FOR THE NATIONAL TRAILS SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal year
                                             ------------------------------------------------
                Agency/Trail                    2006 cong.      2008 admin.    2008 partners                           Project/Programs possible with increased funding
                                                  approp.         request         request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                PARK SERVICEAla Kahakai.................................        $259,000        $264,000        $264,000  Continue preparation of Comprehensive Management Plan (CMP) for new trail;
Appalachian.................................       1,205,000       1,341,000       1,719,000  Support ``A Trail to Every Classroom'' project with teachers and children, resource monitoring
                                                                                               through AT Mega-Transect project, & Comprehensive Facility Management;
Natchez Trace...............................          27,000          27,000          29,000  Planning & building new trail & bridges; backlog maintenance with SCA;
El Camino Real Tejas........................          49,000          49,000          50,000  Start up administration for new national historic trail;
El Camino Real Tierra.......................         140,000         140,000         220,000  Full-time administrator; implement CMP with Bureau of Land Management
California..................................         278,000         278,000         348,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
Captain John Smith..........................  ..............         151,000         151,000  Begin administration & Comprehensive Management Plan for new national historic trail;
Ice Age.....................................         631,000         704,000         936,000  Accelerate Trail corridor planning and land acquisition by agency partners; Increase Trail
                                                                                               development, maintenance and resource management by IAP&TF volunteers;
Juan Bautista de Anza.......................         305,000         360,000         360,000  Coordination of Trail site protection, interpretation & development projects with local agencies &
                                                                                               organizations; Outreach to schools and Latino communities;
Lewis & Clark...............................       1,798,000       1,948,000       1,948,000  Planning, coordination & support for local L&CNHT projects after the Bicentennial;
Mormon Pioneer..............................         128,000         128,000         183,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
North Country...............................         684,000         732,000         879,000  Advance Trail construction, route planning, protection and public awareness by providing regional
                                                                                               services, GIS, and technical assistance for volunteers and partners;
Old Spanish.................................         101,000         101,000         236,000  Full-time administrator; continue preparing CMP with Bureau of Land Management;
Oregon......................................         286,000         304,000         356,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
Overmountain Victory........................         170,000         177,000         335,000  New route signs & interpretive exhibits; Historic Preservation Study of Gilbertown; feasibility
                                                                                               study for location of Trail headquarters and visitor contact site;
Pony Express................................         182,000         182,000         237,000  Prepare & print Four Trails Auto Tour Route Guides for Wyoming, Utah/Idaho, Nevada;
Potomac Heritage............................         276,000         280,000         280,000  Assistance to local agencies & organizations for planning & educational projects;
Santa Fe....................................        722,0001         875,000       1,516,000  Preserve cultural resources; GIS mapping; produce interpretive media with SFTA;
Selma to Montgomery.........................         328,000         611,000         611,000  Trail interpretation in collaboration with citizen support organizations & local agencies;
Trail of Tears..............................         361,000         361,000         882,000  Develop GIS mapping, interpret Trail sites & provide new visitor facilities with TOTA;
NTS--Washington Office......................         336,000         347,000         375,000  Program coordination and funding for special projects and training for staff & partners
                                             ------------------------------------------------
      National Trails System................       8,266,000      10,212,000      11,915,000  Total National Trails System operations funding
                                             ================================================
Challenge Cost Share........................   \2\ 4,843,000   \3\ 2,380,000       4,500,000  One-third of $4.5 million for the National Trails System
Interagency GIS Project.....................  ..............  ..............   \4\ 1,253,000  Development of GIS for National Trails System;                     BLMIditarod Trail..............................         420,000         248,000         420,000  Coordination and support for collaborative management with other Federal agencies, Iditarod Trail
                                                                                               organizations and State of Alaska; bridges and cabins; Interpretive Plan;
El Camino Real de Tierra Adentro............          15,000          15,000         230,000  Collaborative administration and management with National Park Service; Full-time Trail
                                                                                               Administrator; Site certification and protection;
Old Spanish.................................         273,000         225,000         331,000  Full-time Trail Administrator; Collaborative administration and management with National Park
                                                                                               Service; Continue preparation of Comprehensive Management Plan; Site protection and
                                                                                               interpretation;
Continental Divide..........................         650,000         179,000         650,000  Planning 101 miles of CDNST in Idaho, Montana and New Mexico; Interagency management
                                                                                               collaboration; Full-time CDNST Liaison;
Pacific Crest...............................         294,000          65,000         100,000  PCNST maintenance in California and Oregon; Interagency management collaboration;
Juan Bautista de Anza.......................          95,000          76,000          76,000  Interpretive exhibits for Anza Trail in Arizona and California;
California..................................         155,000         126,000         179,000  California NHT resource inventories in Utah, Nevada and California;
Lewis & Clark...............................       1,902,000         695,000       1,680,000  Completion of Lewis & Clark Bicentennial projects in Idaho and Montana;
Mormon Pioneer..............................         227,000         227,000         227,000  Mormon Pioneer NHT resource inventories in Utah and Wyoming;
Nez Perce...................................          27,000          27,000         149,000  Completion of Lewis & Clark Bicentennial projects in Idaho and Montana;
Oregon......................................          18,000          23,000         210,000  Interagency management collaboration and Oregon NHT resource inventories;
Pony Express................................         100,000         105,000         147,000  Marking Pony Express Trail in Utah and Nevada;
Potomac Heritage............................  ..............           3,000           3,000  Completion of Lewis & Clark Bicentennial projects in Idaho and Montana;
NTS--Coordinator............................  ..............  ..............         250,000  Program coordination and funding for special projects and training for staff & partners;
                                             ------------------------------------------------
      National Trails System................       4,176,000       2,014,000       4,652,000  Total National Trails System operations funding
                                             ================================================
Iditarod....................................  ..............  ..............         500,000  Planning and grants for Iditarod NHT Centennial activities;
Challenge Cost Share........................  ..............  ..............         500,000  Projects along the various national scenic and historic trails;
California, Casper, Oregon, Sacajawea, &           1,460,000       1,440,000       1,460,000  Operating ONHT, CNHT, MPNHT, L&CNHT, CRTANHT and PXNHT interpretive centers;
 Camino Real Centers.
Construction of:
    Pacific Crest Trail.....................  ..............  ..............         115,000  Funding for maintenance and re-construction of Pacific Crest NST in California;
    Continental Divide Trail................  ..............  ..............         166,000  Funding for construction and re-construction of 102 miles of Continental Divide NST in Idaho,
                                                                                               Montana, and New Mexico;               FOREST SERVICEContinental Divide..........................        +742,000       1,500,000       1,500,000  Continued support for full administrative responsibility and for consistent interagency
Florida.....................................        +639,000       1,000,000         650,000   collaboration for each trail; support for consistent management with trail organization and local
Pacific Crest...............................        +832,000       1,297,000       1,000,000   agency partners; trail brochures, signs, project planning etc.; Also $250,000 to administer new
Nez Perce Trails............................        +634,000         640,000         640,000   miles of CDT; $200,000 for work of full-time Trail administrator and $100,000 for Optimal
                                                                                               Location Planning for PCT and $100,000 to increase Trail maintenance by volunteers coordinated by
                                                                                               PCTA; $650,000 to certify 150 miles of the Florida Trail and continue collaboration with Florida
                                                                                               Trail Association to inventory 430 miles and further develop Trail GIS; $92,000 for Nez Perce
                                                                                               Trail Foundation education and public outreach work and other projects;
                                             ------------------------------------------------
      Total.................................   \5\ 2,847,000       4,437,000       3,790,000
                                             ================================================
Appalachian, North Country, Ice Age,                 916,000         918,000       1,000,000  Improved trail maintenance, marking, interpretation, archaeological studies, historic site
 Iditarod, California, Juan Bautista de                                                        protection and trailhead facilities for trail segments in National Forests; $200,000 to address
 Anza, Caminos Real Tierra Adentro & Tejas,                                                    deferred maintenance, remove blowdown trees on 30 miles of trail, make improvements and provide
 Lewis & Clark, Oregon, Old Spanish, Mormon                                                    liaison for collaborative management of the North Country Trail with National Park Service; Re-
 Pioneer, Overmountain Victory, Pony                                                           location and reconstruction of sections of the Appalachian Trail, replacement of major bridges
 Express, Santa Fe, Trail of Tears.                                                            and installation of toilets at shelters;
Construction of.............................  ..............  ..............  ..............  New trail construction and re-construction throughout these national trails.
Continental Divide Trail....................         995,000  ..............       2,100,000  Trail construction projects along the Continental Divide Trail: reconstructing or building 89
                                                                                               miles of trail in Montana, Idaho, Wyoming, Colorado and New Mexico;
Florida Trail...............................         498,000  ..............       1,350,000  Trail construction projects totaling 18 miles of new trail and management of 3,410 acres acquired
                                                                                               by the Forest Service for the FNST;
Pacific Crest Trail.........................         995,000  ..............       1,000,000  Trail construction projects along the Pacific Crest Trail, including reconstruction of fire and
                                                                                               storm damaged bridges and structures in California and Washington; Fabrication and installation
                                                                                               of roadside interpretive signs at Trail highway crossings;
Iditarod Trail..............................  ..............  ..............       1,000,000  Construction of the Southern Trek of the Iditarod NHT in the Chugach National Forest;
                                             ------------------------------------------------
      National Trails System................       6,251,000       5,355,000      10,240,000  Total: National Trails System funding
                                             ================================================
Nat. Forest System Capital Improvement &          74,205,000      66,387,000      90,000,000  Trail maintenance and new trail construction throughout the National Forest System.
 Maintenance--Trails.               LWCF FOR TRAILSLWCF grant--FS Pacific Crest................         600,000  ..............      23,800,000  Forest Service acquisition of lands in southern California (Tejon Ranch & Agua Dulce), and
                                                                                               southern Washington to preserve the scenic integrity of the Pacific Crest Trail.
LWCF grant--FS Florida......................  ..............  ..............       5,000,000  Forest Service acquisition of lands in the Northwest Florida Greenway near Eglin Air Force Base,
                                                                                               along Suwannee River, and adjacent to St. Marks National Wildlife Refuge.
LWCF grant--FS Appalachian..................  ..............  ..............       9,320,000  Forest Service acquisition of 10,020 acres in the Cherokee NF in Tennessee, 425 acres in the
                                                                                               Jefferson NF in Virginia (last unprotected segment of the Appalachian NST), and 90 acres at
                                                                                               Wesser Bald in North Carolina.
LWCF grant--FS North Country................  ..............  ..............       4,000,000  Forest Service acquisition of 2,000 acres in the Sturgeon River Gorge Wilderness Area in the
                                                                                               Ottawa National Forest in Michigan will protect viewshed of North Country Trail.
LWCF grant--Ice Age--Wisconsin \6\..........       1,000,000  ..............       4,750,000  Assistance provided to State of Wisconsin to protect threatened Ice Age Trail corridor and connect
                                                                                               trail segments across private land in Dane, Chippewa, Kewaunee, Langlade, Lincoln, Manitowoc,
                                                                                               Marathon, Polk, Portage, Sheboygan, Taylor, Washington, Waupaca and Waushara Counties.
LWCF grant--BLM Oregon......................       1,600,000  ..............  ..............  BLM acquisition of land along the Sandy River in Oregon.
LWCF grant--FS Overmountain Victory.........  ..............  ..............         195,000  Forest Service acquisition of land to protect key link in the Overmountain Victory Trail near
                                                                                               North Cove in North Carolina.
LWCF grant--BLM Continental Divide..........  ..............         200,000         200,000  BLM acquisition of land between El Malpais National Conservation Area and the Gila National
                                                                                               Forest.
LWCF grant--NPS Lewis & Clark...............       1,600,000  ..............  ..............  ..................................................................................................
                                             ------------------------------------------------
      Total.................................       4,800,000         200,000      47,265,000  ..................................................................................................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes $261,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Includes $2.463 million earmarked for Lewis & Clark Bicentennial projects. One-third of the remaining funds (about $813,000 of $2.44 million) are earmarked for National Trails System
  projects.
\3\ Administration request does not allocate any funds for the National Trails System. The congressional earmark is needed to accomplish this.
\4\ Funding request reflects budget detailed in Park Service GIS report delivered to Congress in January 2002.
\5\ Appropriation includes: $2.9 million for administration of the Continental Divide, Florida, and Pacific Crest National Scenic Trails and the Nez Perce National Historic Trail, funding for
  full-time administrators for each trail and land acquisition teams for the Florida and Pacific Crest Trails.
\6\ This would be a grant to the State of Wisconsin to be matched at least 1:1.

                                 ______
                                 
           Prepared Statement of the Ponca Tribe of Nebraska
    Madam Chairwoman, members of the committee, my name is Larry 
Wright, Jr. I am the Chairman of the Ponca Tribe of Nebraska. On behalf 
of the Ponca Tribe, I would like to submit the following written 
testimony on fiscal year 2008 Appropriations for the Bureau of Indian 
Affairs and the Indian Health Service.
    Since our Federal restoration in 1990, the Ponca Tribe has 
diligently worked to address the socioeconomic needs of our people, 
including educational assistance, health services, and social services, 
to name just a few. Restored without a reservation, the Ponca Tribe has 
designated ``service'' areas in twelve Nebraska counties where we 
provide social services to our tribal members and health services to 
all Indian people. While we support those parts of the President's 
fiscal year 2008 budget which propose increases in funding, we are 
concerned that those increases do not fully address the tremendous 
unmet needs in Indian country. We are especially concerned about those 
portions of the President's budget that would reduce or cut funding for 
programs. All of these programs are critical to our ability to educate 
our children, provide much needed social services programs, provide 
health care to a large population of Nebraska's Indian people and 
protect our natural resources. We urge Congress to restore or increase 
funding in these areas on which we rely to provide essential services 
to our members.
                        bureau of indian affairs
    Education.--We urge Congress to restore the proposed cuts to 
education programs--specifically the Johnson O'Malley program ($16.3 
million) and higher education scholarships ($5.3 million). We 
understand that the administration has requested an increase of $14 
million in the Bureau's Improving Indian Education Initiative and to 
offset this increase, the administration proposes to cut education 
programs that benefit students outside of BIA schools, such as JOM and 
higher education scholarships. While we generally support the 
administration's initiative to improve performance at BIA schools for 
Indian youth, we cannot support balancing those increases by cutting 
programs that harm our children who attend public schools and who are 
pursuing a college education.
    As in past years, the administration has proposed to eliminate JOM 
funding. JOM funding helps Indian children with tutoring, cultural 
enrichment and Native language education, and is critical to tribal 
education programs. The majority of Ponca tribal members attend public 
schools. For the Ponca Tribe, JOM money supports an ongoing partnership 
with a public school district in one of the Tribe's five primary 
communities. The already small amount of JOM funding ($6,365) enables 
the Title VII JOM Coordinator to provide tutoring to Indian students. 
The balance of the JOM money covers the cost of annual awards and 
recognition events focused on student attendance, academic performance 
and senior graduate achievements. Should JOM funds be cut, then the 
only joint effort of positive encouragement our students receive from 
both the Ponca Tribe and the local public school will cease. Further, 
without JOM funding the partnership will end. Thus, we request that 
Congress restore full funding to these vitally important education 
programs. A complete cut of funding for this program, as is proposed, 
would severely erode this irreplaceable source of funds for essential 
educational services. The administration has attempted to justify the 
elimination of JOM funding by claiming that JOM funding duplicates 
funding provided by the Department of Education, but this is not the 
case. While the Department of Education provides some funds for Indian 
students under Title VII, the Department has failed to increase the 
overall budget for Indian student programs for several years. In fact, 
the Department of Education has indicated that it has not adjusted its 
budget to cover this loss of funds.
    The President's Budget also proposes to cut $5.3 million in funding 
for higher education scholarships. Again, the President proposes to 
increase funding for elementary-age students at BIA schools while 
eliminating funding for Indian youth who are pursuing post-secondary 
education. The Ponca Tribe is strongly committed to educating our youth 
and providing them with the necessary tools to succeed in a 4-year or 
community college. The funding for higher education scholarships is 
critical to helping our youth achieve their career goals. Last year, we 
provided 88 scholarships to deserving and hard-working tribal members. 
In order to continue to provide educational scholarships to our 
members, we strongly encourage Congress to restore this critical 
funding.
    Human Services.--We urge Congress to reject the administration's 
proposal to decrease Human Services and Indian Child Welfare funding. 
These programs are historically under-funded, and an additional 
decrease in these essential services will be detrimental to protecting 
our children, elderly and disabled from abuse and neglect. We rely on 
these funds to provide to our members child care assistance, domestic 
abuse and family violence services, family outreach and support 
services and family preservation and reunification services.
    Natural Resources.--We strongly support continued funding to the 
Inter-Tribal Bison Cooperative (ITBC), as was provided in fiscal year 
2006. We have been reintroducing the bison to our native homelands 
since the Tribe was restored in 1990. With assistance from the ITBC, 
the Ponca Tribe now has a herd of nearly 100 animals in two pastures. 
Grants from ITBC made it further possible for the Ponca Tribe to 
install fencing around our two buffalo pastures. Our goal is to 
continue working with ITBC and to use the bison for education, 
cultural, and health purposes. We are also working to develop a 
comprehensive hide-tanning project which will provide Tribal members 
with employment, as well as give an outlet for bison hide to ITBC 
member Tribes. As an active member of the ITBC, we urge Congress to 
fund this important program.
                         indian health service
    It is well known that additional funding is needed for health care 
throughout Indian country. While we support the President's proposal to 
increase the budget for Indian Health Services, the amount of that 
increase ($212 million from the current funding level) still fails to 
meet the actual costs of providing health care to Indian people. The 
proposed increase fails to address the high rates of medical inflation 
and the substantial unmet need for health care among Indian people. For 
instance, Ponca tribal members, like Indian people throughout the 
Nation, face disproportionately higher rates of diabetes and the 
complications associated with diabetes, than the rest of the 
population. Heart disease, cancer, obesity, chemical dependency and 
mental health problems are also prevalent among our people. While other 
Federal programs, like Medicare and Medicaid, have seen annual 
increases in funding of 5-10 percent to address inflation, the budget 
for IHS has never had comparable increases, and, as a result, IHS 
programs have consistently fallen short of meeting the actual needs. We 
support the efforts of all Indian tribes to receive 100 percent of the 
Level of Need Formula (LNF), which is absolutely critical for tribes to 
address the serious and persistent health issues that confront our 
communities.
    The Ponca Tribe is in a unique position as a ``non-reservation'' 
Tribe. This gives us the opportunity to provide health care services to 
Ponca members as well as other Federally recognized and enrolled urban 
Indians from various Tribal affiliations. We opened the Fred LeRoy 
Health and Wellness Center (Center) in Omaha, Nebraska in order to 
provide health services to all Federally recognized and enrolled 
Indians in the Omaha metropolitan area and surrounding counties. The 
Center is the only IHS health facility operating within an urban 
setting in Nebraska. Its services are in high demand among urban 
Indians. Presently, the Center has over 4,000 clients which represent 
over 100 different Tribes and Bands. We are proud to provide quality 
health care to over 31.8 percent of the Indian population residing in 
Nebraska who are typically low to moderate income individuals and 
families. Notwithstanding our significant need, we have been able to do 
a great deal with the limited resources that we have. Currently we have 
a Medical Director, a Physical Therapist, Registered Nurse, a Licensed 
Practical Nurse, a Public Health Nurse, a Licensed Nurse Practitioner, 
one Dentist, and two Dental Hygienists along with support staff for the 
Medical and Dental clinics. Many of these professionals however, only 
provide part-time services at the Center, which results in limited 
appointments for our patients. We need additional funding in order to 
provide full-time Medical and Dental services. Additionally, the Center 
does not operate a Pharmacy, which places a large strain on our 
patients who are forced to travel a significant distance to receive 
their prescriptions. Our vision for the Center's Medical and Dental 
staff is to provide high quality, comprehensive health care in order to 
improve the health of Indian individuals and families. This can only be 
achieved with an increase in the IHS budget, above and beyond the 
proposed $212 million increase.
                               conclusion
    In conclusion, the needs of the Ponca Tribe and throughout Indian 
country are substantial. Your support on these funding issues is 
essential to our ability to maintain vitally important programs and 
improve the delivery of services to our Tribal members.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Katherine E. Morgan 
at Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington D.C. 20005; 202-682-0240 (tel); 202-682-0249 
(fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e38e938295868fa3908c8d8c90889acd808c8e">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7acaaa8b5a0a6a987b4a8a9a8b4acbee9a4a8aae9">[email&#160;protected]</a>
                                 ______
                                 
               Prepared Statement of the Potapaug Audubon
    Madam Chairwoman and honorable members of the committee: On behalf 
of the Potapaug Audubon, I appreciate the opportunity to present this 
testimony in support of a $710,000 appropriation from the Land and 
Water Conservation Fund for land acquisition within the Stewart B. 
McKinney National Wildlife Refuge. With these funds, the Refuge will 
permanently protect the 20-acre Menunketesuck Salt Meadow Marsh, which 
contains important coastal marsh, tidal streams, and forested upland.
    Potapaug Audubon has been a ``Friend'' of Salt Meadow, 1 of the 10 
units in the Stewart B. McKinney National Wildlife Refuge, for the last 
5 years. Potapaug, a chapter of National Audubon, never had a physical 
address to call home. Since nurturing this relationship with the refuge 
and its staff Potapaug now feels right at home there. We hold special 
programs, meetings and field trips there throughout the year in 
addition to what we do elsewhere, and hope to continue to do so for 
years to come. We, and all the people who attend our programs at Salt 
Meadow, have learned an awful lot about the natural world through 
walking the trails and hands-on demonstrations. Adding these 20 acres 
of land to the refuge will preserve critical habitat and will prevent 
the inevitable disruption of migration if this land is developed.
    Named to honor the late U.S. Congressman who was instrumental in 
its creation, the Stewart B. McKinney National Wildlife Refuge was 
established to protect migratory bird habitat considered important to 
wading and shorebird species, including heron, egrets, terns, plovers 
and oystercatchers among others. Stewart B. McKinney NWR is currently 
comprised of eight units stretching along 60 miles of Connecticut's 
coastline. In addition to the increase in habitat protection over the 
years, the refuge now provides opportunities for scientific research, 
environmental education, and fish and wildlife-oriented recreation. 
Located in the Atlantic Flyway, the refuge provides important resting, 
feeding, and nesting habitat for many species of wading birds, 
shorebirds, songbirds and terns, including the endangered roseate tern. 
Adjacent waters serve as wintering habitat for brant, scoters, American 
black duck and other waterfowl. Overall, the refuge encompasses over 
800 acres of barrier beach, tidal wetland and fragile island habitats.
    The 20-acres of land available for acquisition is comprised of 
pristine coastal tidal marsh, a forested upland, scrubland, and a rock 
outcropping that towers above 1,000 feet of frontage along the gentle 
Menunketesuck River as it winds its way to Long Island Sound. As a 
stopover for neotropical migratory birds, this riparian area is the top 
priority for acquisition for the refuge. The marsh property will 
enhance the resources of the current Salt Meadow Unit of the refuge--
designated as an Important Bird Area by the National Audubon Society--
as it contains part of the least developed upland borders of any 
remaining tidal marsh in all of Connecticut. As much of the State's 
coastline has been built upon, it is rare to find such a large 
undeveloped marsh area in Connecticut. Under imminent threat of the 
development of condominiums, this parcel must be acquired by the refuge 
if it is to continue to serve as an island of forested habitat land on 
an otherwise highly developed coastline.
    In order to acquire the Menunketesuck Salt Meadow Marsh property, 
an appropriation of $710,000 is needed from the Land and Water 
Conservation Fund in fiscal year 2008. This priority acquisition will 
increase wildlife habitat protection at the Stewart B. McKinney NWR and 
ensure the public continued opportunities for recreation and 
environmental education along Connecticut's coastline.
    I respectfully request that you include an appropriation of 
$710,000 for the Stewart B. McKinney NWR in the fiscal year 2008 
Interior and Related Agencies Appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
               Prepared Statement of Preservation Action
                                summary
    Preservation Action, representing grassroots historic preservation 
interests nationwide, asks that your subcommittee commit $50 million in 
fiscal year 2008 to support State Historic Preservation Offices, $12 
million to support Tribal Historic Preservation Offices, $30 million 
for the Save America's Treasures Program, $10 million for the Preserve 
America Program and $10 million for a historic resource inventory 
effort that will help identify vital historic assets and integrate 
existing digital historic resource inventories.
                  state historic preservation offices
    The Historic Preservation Fund plays a vital role in cultivating 
leadership, inspiring understanding of American history, and 
revitalizing local economies. Programs supported by the HPF are an 
integral part of local and State efforts to protect places of the 
highest value to local residents. The photo attached, of students 
restoring Illick's Mill in Bethlehem, Pennsylvania, represents how a 
small amount of Federal engagement in local preservation can provide 
needed leadership. In this case, the HPF provided funds for the State 
Historic Preservation Office that reviewed the many drafts of a 
student-written National Register of Historic Places nomination for 
Illick Mill, during which students learned about researching and 
documenting American heritage, learned about history on site, worked 
with their hands, and contributed to the general public's recognition 
of the site's value and put into place a tool for Federal-level 
recognition. The cost of the review of the nomination was nominal, 
especially when weighed with its benefits.
    Bethlehem is home to many historic resources that have become a 
critical element of the town's economic revitalization. The town was 
built on industry--steel and shipbuilding--and is finding its way in a 
new economy. Illick Mill and Bethlehem Iron Works are exemplary of a 
shift in our national economy and the role preservation can play in 
reinventing communities. How the Federal Government recognizes the 
value of historic assets in places like Bethlehem is tied directly to 
the work of SHPO offices. Though most of the funding for revitalization 
comes from private sources and agencies other than the Department of 
Interior, SHPOs and programs they help administer, like the National 
Register of Historic Places and the Federal Rehabilitation Tax Credit 
(as well as State tax credits in many cases) insure that the Federal 
Government recognizes special community assets, and that review of 
projects involving these assets is professional and quick.
    The Historic Preservation Fund (HPF) receives its funding through 
offshore oil lease revenue. In the 1970s, $150,000,000 in OCS revenues 
was authorized to be deposited into the HPF. SHPOs received nearly $47 
million in 1979. Last year, these offices received $35.7 million. This 
drop means fewer people to say ``yes'' when projects are proposed for 
the Federal and State tax credits, fewer people to reach out to 
communities who need to understand their opportunities, and fewer 
people to work proactively to document communities that are not 
necessarily threatened, but missing out on opportunities because there 
is no official understanding or documentation of these places' historic 
value.
                  tribal historic preservation offices
    Tribal Historic Preservation Offices (THPO) reflect a growing 
sensitivity to the diversity of cultural heritage and needs of 
indigenous populations in this country. THPOs identify, evaluate and 
protect significant places and practices are based on an understanding 
that cultural and spiritual values.
    The National Park Service anticipates that 77 THPOs will be 
requesting funding in fiscal year 2008. Since the program first 
received HPF funding in 1996, the number of THPO offices has 
substantially increased while funding for THPOs appropriated over the 
last several years has decreased and leveled out. The result is a 
winnowing average per office appropriation. In 2001, the THPO average 
Federal contribution, per office, was around $150,000. This year, with 
the increased number of THPOs now recognized, the per office average is 
expected to be around $45,000. The result is slowed tribal engagement 
in projects that could potentially erase sites and artifacts of 
extraordinary significance. We ask that you appropriate $12 million for 
THPOs this year.
                        save america's treasures
    Save America's Treasures is the only Federal ``bricks and mortar'' 
program supporting historic preservation. The SAT program supports the 
protection of our Nation's most significant historic resources--those 
considered nationally significant on the National Register of Historic 
Places and National Historic Landmarks. This program has helped restore 
assets as diverse as the Rosa Parks Bus (Dearborn, Michigan), John 
Quincy Adam's diary (Boston, Massachusetts), Frank Lloyd Wright's Robie 
House (Chicago, Illinois), William Faulkner's Home (Oxford, 
Mississippi) and Mesa Verde National Park (Cortez, Colorado). This 
program is threatened by recent cuts. The President's budget has 
recommended the program receive $10 million of the $30 million it 
received in recent years. We ask that you restore full funding and 
appropriate $30 million for the Save America's Treasures program in 
fiscal year 2008.
                            preserve america
    Preserve America provides grant to historic places that demonstrate 
a great degree of historic integrity and are designated as Preserve 
America Communities. These grants support heritage tourism and 
educational programming activities that maximize the economic and 
educational value of historic assets. These communities include 
distinctive American places like: Wichita, Kansas; Spokane, Washington; 
Annapolis, Maryland; Biloxi, Mississippi; and Dayton, Ohio. There are 
now approximately 400 Preserve America Communities all representing our 
Nation's unique heritage. We ask that you appropriate $10 million for 
the Preserve America program this year.
                       resource inventory grants
    Finally, we ask that you provide funding that would complement 
decades of work at the State and local level, and provide $10 million 
for competitive historic resource inventory grants. Digital inventory 
information is invaluable during natural disasters, such as the 2005 
hurricanes. Knowing what historic resources are located within disaster 
areas expedites response time and provides as basis for establishing 
recovery costs and opportunities. Invaluable in times of crisis, the 
same information is useful for Federal agencies engaged in projects in 
the States, and for local communities as they plan thoughtfully. Much 
of this work is ongoing around the country and needs to be pulled 
together into a central database. An investment now will save money in 
the future.
    By adequately funding the offices and programs that support 
preservation nationwide (State Preservation Offices, Tribal 
Preservation Offices, Save America's Treasures, Preserve America and 
the historic resource inventory, you are validating and facilitating 
the hard work of countless individuals who believe in the value of 
community. These individuals have recognized that without a discernable 
connection with a shared past, we cannot move ahead with a sense of 
identity that leads to informed decisions about our present and future. 
Parks, houses, barns, courthouses, schools, landscapes, bricks and 
mortar--the elements of a place, public or privately owned--are 
functional reminders of a common past with slightly different meaning 
to each of us. This rich and abiding legacy cannot survive without your 
help.
    Thank you for this opportunity to testify on behalf of our members.
                                 ______
                                 
     Prepared Statement of the Public Service Company of New Mexico
    Chairman Feinstein and Senator Craig: I am requesting your support 
for appropriations in fiscal year 2008 to the Fish and Wildlife Service 
(FWS) for the Upper Colorado River Endangered Fish Recovery Program and 
the San Juan River Basin Recovery Implementation Program, consistent 
with the President's recommended budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
         Prepared Statement of the Pueblo Board of Water Works
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program,
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS' s Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the committee for past support of many tribal issues 
and for your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 32,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Interior--Bureau of Indian Affairs.--The 
Puyallup Tribe has analyzed the President's fiscal year 2008 budget and 
submit the following detailed written testimony to the Senate Interior 
Subcommittee on the proposed funding bill for the Dept. of Interior and 
Related Agencies. We look forward to working with the 110th Congress to 
insure that funding levels for programs necessary for the Puyallup 
Tribe to carry-out our sovereign responsibility of self-determination 
and self-governance for the benefit of the 3,705 Puyallup tribal 
members and the members from approximately 345 Federally recognized 
Tribes who utilize our services are included in the budget.
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 17,000+ Native Americans from over 345 Tribes and Alaskan 
Villages. The Puyallup Nation Law Enforcement Division currently has 27 
commissioned officers to cover 40 square miles of reservation in 
addition to the usual and accustomed areas. The officers are charged 
with the service and protection of the Puyallup Reservation 7 days a 
week, 24 hours a day. With the continuing increase in population, 
increase in gang related activities on the Puyallup Reservation and the 
impact of the manufacturing of methamphetamines in the region, the 
services of the Puyallup Nation Law Enforcement Division are exceeding 
maximum levels.
    A major area of concern is the status of the Tribe's Detention 
Facility. Due to damages from the February 2001 Nisqually earthquake, 
we have had to relocate to modular/temporary facilities. Operated as a 
``regional detention facility'' the Puyallup Tribe was able to provide 
detention service to surrounding Tribes. Since the relocation to 
modular facilities, the Tribe's ability to effectively and safely 
incarcerate detainees has been compromised due to the condition of the 
temporary detention facilities. These and other issues regarding the 
deplorable conditions existing in Indian Detention facilities are 
documented in the September 2004 report issued by the U.S. Department 
of Interior Inspector General's Office. In an effort to protect the 
safety and welfare of the native community the Puyallup Tribe has 
initiated the planning and development of a Justice Center to be 
located on the Puyallup Indian Reservation. The Justice Center will 
provide necessary facilities for the delivery of judiciary services 
including a Tribal Court, Court Clerk, Prosecution, Probation, Public 
Defender and Law Enforcement services including Police Headquarters and 
a 32 bed Adult Detention facility. As stated earlier, the current 
facility is inadequate in size/number of beds, was designed as a 
temporary facility and was not built to any Federal/State or tribal 
health or construction standards.
  --Request subcommittee support to fund the BIA Public Safety and 
        Justice Law Enforcement activities at the $201 million level 
        proposed in the fiscal year 2008 budget to operated law 
        enforcement services;
  --Support from the subcommittee on the Tribe's request for funding to 
        design and construct a regional 32 bed Detention Facility on 
        the Puyallup Reservation. The Tribe has committed 1.5 acres of 
        tribal land for the facility valued at $816,750 and $100,000 
        for the initial ``space needs assessment'' study(s). For fiscal 
        year 2008 the Puyallup Tribe is requesting appropriations 
        assistance in the amount of $374,850 for the A/E Construction 
        Drawing phase of the project;
  --Support from the subcommittee to restore proposed funding cuts to 
        the Tribal Courts budget in the amount of $5.3 million and 
        request that the subcommittee issue directive language to the 
        BIA to include this amount as line item funding for the Tribal 
        Courts in the fiscal year 2008 budget.
    Fisheries & Natural Resources Management.--The Puyallup Tribe as 
steward for land and marine waters in the Usual and Accustomed fish and 
shellfish areas has treaty and Governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
regional community. Despite our diligent program efforts, the fisheries 
resource is degrading and economic losses are incurred by Indian and 
Non-Indian fishermen, and surrounding communities. Our Resource 
Management responsibilities cover thousands of square miles in the 
Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish and shellfish 
resources. Existing levels of support are inadequate to reverse the 
trend of resource/habitat degradation. Resource management is 
constrained due to funding shortfalls. We seek support and endorsement 
in the following areas:
  --Tribal Fisheries Resource Management, Hatchery Operation and 
        Maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on Bull Trout and Chinook 
        Salmon which is in an highly urbanized setting more so than any 
        other Pacific Northwest Tribe. We request committee support to 
        increase base contract funding in the amount of $350,000 for 
        additional fisheries staff. We further ask that the existing 
        BIA hatchery maintenance budget be increased to $1.5 million 
        per year for the next decade to meet basic infrastructure 
        maintenance costs for tribal hatcheries;
  --Western Washington Timber-Fish-Wildlife Program/Forest and Fish 
        Report (TFW-FFR). The TFW-FFR Program has allowed for the 
        expansion of tribal participation in the State forest practice 
        rules and regulations that have an affect on listed salmon 
        populations. Tribes bring a high level of skills and technical 
        capabilities that if appropriately funded, would greatly 
        facilitate and enhance a successful outcome in State forest 
        practice, rules, regulations and greater fish protection. 
        However, base funding for this program is being proposed to be 
        discontinued in the President's fiscal year 2008 budget. 
        Continued funding in this area is essential to facilitate 
        tribal participation in monitoring, research, data analysis and 
        adaptive management processes that are a cornerstone to the 
        TFW-FFR process. We request committee support for base funding 
        level of $3 million in base funding for the TFW fiscal year 
        2008 budget. We further support the Northwest Indian Fisheries 
        Commission's request that the subcommittee issue directive 
        language to the Bureau of Indian Affairs to include this amount 
        in their fiscal year 2009 budget;
  --Unresolved Hunting and Fishing Rights Program--The Medicine Creek 
        Treaty secured the Puyallup Tribe and other tribes the right to 
        hunt on open and unclaimed lands. This treaty right is reserved 
        in the same paragraph that also reserved the right to fish and 
        gather shellfish. Unfortunately, the BIA program that is 
        designed to support this treaty activity has not received 
        adequate, if any, appropriations in the last several years. 
        Funds that were made available to tribes have been on a 
        competitive basis with a maximum amount per program due to 
        limited funding. The Puyallup Tribe has established a Hunting-
        Wildlife Management program that works cooperatively with 
        signatory Tribes to the Medicine Creek Treaty, Washington 
        Department of Fish and Wildlife, U.S. Forest Service and the 
        National Park Service. For further development and 
        participation in unresolved hunting issues, the Puyallup Tribe 
        is requesting committee support to establish annual base 
        funding of $95,000 for the Hunting-Wildlife Management Program.
    Operation of Indian Programs & Contract Support Costs.--The 
President's fiscal year 2008 budget calls for $1.966 billion to be 
allocated to the Bureau of Indian Affairs Operation of Indian Programs, 
which is an increase of $4.4 million from the fiscal year 2007 enacted 
level. For the fiscal year 2008 budget, the Department of Interior 
reformulated its presentation of the Operation of Indian Programs 
funding. Previous formulations were based on Tribal Priority 
Allocations (TPA). The Interior's new format groups program funding 
according to functions which are; Tribal Government; Human Services; 
Trust-Natural Resources Management; Trust-Real Estate Services; 
Education; Public Safety and Justice; Community and Economic 
Development; and Executive Direction and Administrative Services. These 
budget functions include the majority of funding used to support on-
going services at the ``local tribal'' level, including; law 
enforcement, natural resources management (fisheries), child welfare, 
housing, tribal courts and other tribal governmental services. These 
functions, as detailed in previous ``TPA'' allocations have not 
received adequate funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases ``TPA'' has received over the past few years has not been 
adequate to keep pace with inflation. At a minimum, we request your 
support and endorsement in the following;
  --Support by Congress to fund the Operation of Indian Programs fiscal 
        year 2008 request, at a minimum, at the requested amount of 
        $1.99 billion, an increase of $28.7 million over current level;
  --Support by Congress to restore funding for the Johnson O'Malley 
        Program in the amount of $16 million.
    Another concern the Puyallup Tribe has with the fiscal year 2008 
budget request is the on-going issue of contract support costs. The 
President's fiscal year 2008 budget request for contract support is for 
$149 million which is $19 million less than the fiscal year 2007 
request. At a minimum, we request your support and endorsement in the 
following;
  --The Puyallup Tribe is in agreement with the U.S. House of 
        Representatives Committee on Natural Resources and requests 
        support by Congress to fund BIA Contract Support Costs for 
        fiscal year 2008 at $187 million, a $37 million increase over 
        the President's fiscal year 2008 budget request. Full funding 
        of Contract Support is a mandate towards the full realization 
        of Self-determination and Self-governance.
    DHHS Indian Health Service.--Funding for the Indian Health Service 
fails to meet the needs of health services for Native Americans. The 
Puyallup Tribe has been operating their health care programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to an expanding population in Tacoma and Pierce 
County, Washington. There are no IHS hospitals in the Portland Area so 
all specialties and hospital care have been paid for out of our 
contract care allocation. In recent years our Health Authority has had 
the highest patient visits in both medical and dental services in the 
Portland Area of Washington, Oregon and Idaho. It is operating at twice 
the capacity it was designed and staffed for. The Puyallup Tribe is now 
faced with having to subsidize the Puyallup Tribal Heath Authority when 
its own tribal members constitute only 14 percent of the patient 
population. Because of the excessive demand for service we have added 
staff without the IHS funding to match the workload. An additional $4.8 
million is needed to operate at this rate.
    Adequate funding for the continued operations and delivery of 
quality care is essential. PTHA, like most IHS and tribal facilities, 
are annually asked to do more with less whether the Federal budget is 
in a surplus or a deficit. This is no longer possible. This continued 
philosophy has put our clinic system into a funding crisis. IHS has 
lost $1.9 billion in purchasing power since 1992. Preserving purchasing 
power and ensuring that medical needs are met must be paramount to 
Tribes, IHS and HHS.
    The IHS Budget request is for an increase of $212 million over the 
fiscal year 2007 level for pay costs, population growth, inflation and 
staffing requirement at new facilities. Budget analysis by the 
Northwest Portland Area Indian Health Board indicate that the actual 
increase for the IHS budget at only $115.3 million and that the 
President's fiscal year 2008 budget will leave $356 million in unfunded 
mandatory costs. It is estimated that it will take an increase of $471 
million to maintain current facilities and services in fiscal year 
2008. We request congressional support for the fiscal year 2008 IHS 
budget in the following areas:
  --Fund IHS Contract Support Costs at 100 percent. While the 
        President's budget includes an increase of $6.9 million for 
        Contract Support Costs funding, this will not fund tribes' 
        actual contract support costs. It is estimated that IHS 
        Contract Support Cost real funding need to inflation requires 
        an additional $22 million. Funding for IHS Contract Support 
        Costs at 100 percent is requested at $288 million;
  --We oppose the proposed elimination of the Urban Indian Health 
        Program, which was funded at $32.7 million in fiscal year 2007. 
        The budget request States that this program duplicates other 
        community health center services, with no evaluation or 
        evidence to support this contention or the impacts of 
        eliminating funding for this program will have on the American 
        Indian and Alaska Native populations. We urge the subcommittee 
        to restore funding for the Urban Indian Health Program, at a 
        minimum $32.7 million, and issue directive language to the 
        Indian Health Service to include this amount in their fiscal 
        year 2009 budget;
  --Fund the Puyallup Tribal Health Authority contract health care fund 
        an additional $4.8 million to match documented expenditures 
        paid with Puyallup Tribal resources;
  --Index Contract Care to population growth and the medical inflation 
        rate. Contract care is most vulnerable to inflation since 
        services are provided by vendors constrained by IHS guidelines. 
        There are no IHS hospitals in the Pacific Northwest which makes 
        our clinic dependent on Contract Care for necessary specialty 
        referrals and hospital care. Contract Health Services should be 
        funded at $606 million for fiscal year 2008;
  --The Indian Health Care Improvement Act (Public Law 94-437) provides 
        funding for the Indian Health Services and has been pending re-
        authorization since fiscal year 2000. IHCIA re-authorization 
        has been introduced in the 107th, 108th, 109th Congress. While 
        the Health and Human Services Secretary has pledged support for 
        the IHCIA, the bill has failed to satisfy the administration 
        for re-authorization. In fact, amendments to the IHCIA, S. 
        1057, were derailed from passage during the pre-election 
        session of the 109th Congress by a Department of Justice white 
        paper released to Senate offices in the last hours of the 
        session. The Puyallup Tribe supports all efforts by Congress 
        and the administration to pass the Indian Health Care 
        Improvement Act during the 110th session of Congress.
                                 ______
                                 
    Prepared Statement of the Rivers & Trails Conservation Coalition
    Madame Chairman and members of the subcommittee, the Rivers & 
Trails Coalition, composed of local, regional, statewide, and national 
organizations representing hundreds of thousands of Americans 
nationwide committed to conservation and recreation, respectfully asks 
that you fund the National Park Service Rivers, Trails and Conservation 
Assistance (RTCA) program at $12 million in fiscal year 2008.
    Through its Rivers, Trails and Conservation Assistance program, the 
National Park Service (NPS) implements its natural resource 
conservation and outdoor recreation mission in communities across 
America. The Rivers & Trails Coalition formed many years ago to support 
this valuable field-based technical assistance program that yields 
enormous conservation and recreation benefits to communities by 
fostering partnerships between Federal, State, and local interests. The 
resulting cooperation of local, State, and Federal partners restores 
rivers and wildlife habitat, develops trails and greenway networks, 
preserves open space, and revitalizes communities--all contributing to 
improved quality of life and close-to-home recreation.
    RTCA is a very successful and popular program, coordinating nearly 
300 projects annually. On average, the program partners protect nearly 
700 miles of rivers, create more than 1,300 miles of trails, and 
conserve more than 61,000 acres of open space each year. RTCA staff 
provides on-the-ground assistance solely at the request and invitation 
of communities in coordinating projects, facilitating public meetings, 
serving as a liaison and convener of government and non-profit groups, 
assessing and mapping resources, developing promotional materials and 
events, and identifying sources of funding. Current demand for RTCA 
services greatly exceeds the program's capacity.
    In addition to regional trail systems and greenway development, and 
open space and river corridor protection, projects include 
transportation alternatives, brownfield redevelopment, youth 
conservation projects, and floodplain planning, among numerous other 
conservation and recreation initiatives. RTCA plays a critical role in 
creating a nationwide, seamless network of parks and open spaces, 
supporting conservation partnerships, promoting volunteerism, and 
encouraging physical activity. The administration's HealthierUS 
Initiative explicitly highlights RTCA for its efforts in promoting 
physical activity through the development of local trails, greenways, 
and parks.
    Despite RTCA's demonstrable successes each year, RTCA funding has 
remained relatively stagnant during the last decade and has lagged well 
behind the rate of inflation.
    The program was cut by $200,000 in fiscal year 2006 and remains 
flat funded at just above $8 million for fiscal year 2007. As a result, 
the program's real budget has declined significantly and resulted in 
substantial staff reductions. Cuts have also reduced staff 
participation in on-the-ground projects diminishing essential services 
of this field-based program. RTCA had 90 positions (FTE's) in 2002, and 
currently has only 66 program staff in 2007.
    RTCA receives .003 percent of the total funding for the NPS yet it 
succeeds in leveraging this investment many times over in local, State, 
and partnership direct funding and in-kind matches. Each year, the 
modest amount of NPS funding for staff time has helped leverage 
millions of dollars from other sources for its projects. Highly 
effective and cost efficient, the RTCA program is an excellent value 
for the American taxpayer and merits increased funding to accomplish 
its mission as a community-based NPS technical assistance and outreach 
program.
    The President's budget for fiscal year 2008 calls for a program 
increase of $650,000 to provide technical assistance to connect trails 
to parks through new trail partnership projects. Although the Coalition 
heartily endorses this increase, it is still well below the amount 
required to restore this program to its former status. Members of the 
Coalition believe that the RTCA budget should be increased by $3.8 
million in fiscal year 2008 to $12 million to remedy the program's 
steady erosion, compensate for losses due to inflation, and enable the 
program to respond effectively and efficiently to growing needs and 
opportunities in communities throughout the country.
    We see evidence in communities across America of the tremendous 
value of RTCA-assisted projects and partnerships, and we can report the 
unparalleled success of RTCA in bringing greenways, blueways, and 
creative conservation partnerships to fruition.
    The requested funding level by the Coalition would allow this 
extremely beneficial program to continue current projects without 
interruption, restore recent cuts, put staff closer to the people they 
serve, and meet the outstanding requests from communities around the 
Nation. We strongly believe the National Park Service and Congress 
should strengthen programs such as RTCA that support communities 
through partnerships and capacity-building, enabling local stakeholders 
to better manage and conserve their recreational and natural resources 
from the bottom-up.
    We urge the subcommittee to fund the Rivers, Trails and 
Conservation Assistance program at $12 million in the fiscal year 2008 
Interior Appropriations bill to remedy the program's continued erosion, 
compensate for losses due to inflation, and enable the program to 
respond to growing needs and opportunities in communities throughout 
the country.
    Respectfully submitted by the Rivers & Trails Conservation 
Coalition comprised of the following organizations:
    The Accokeek Foundation; American Canoe Association; American 
Hiking Society; American Outdoors; American Rivers; American Society of 
Landscape Architects; American Trails; American Volkssport Association; 
American Whitewater; Appalachian Mountain Club; Association of State 
Floodplain Managers; Bay Circuit Alliance; Bicycle Federation of 
America; Bikes Belong Coalition; Conservation District of Southern 
Nevada; East Coast Greenway Alliance; International Mountain Bicycling 
Association; Jacksonville Woodlands Association; Land Legacy; Land 
Trust Alliance; League of American Bicyclists; National Association of 
Service & Conservation Corps; National Audubon Society; National Parks 
Conservation Association; National Recreation and Park Association; New 
York-New Jersey Trail Conference; New York Parks and Conservation 
Association; North American Water Trails; Northern Forest Canoe Trail; 
Ohio & Erie Canal Corridor Coalition; Outdoor Industry Association; 
Outside Las Vegas Foundation; Parks & Trails New Yor; Partnership for 
the National Trails System; Pennsylvania Organization for Watersheds 
and Rivers; Rails to Trails Conservancy; River Network; Scenic America; 
South Carolina Dept. of Parks, Recreation, and Tourism; Sporting Goods 
Manufacturers Association;Student Conservation Association; Trout 
Unlimited; Walk Boston;Washington Area Bicyclist Association; 
Washington Trails Association; andWashington Water Trails Association.
                                 ______
                                 
        Prepared Statement of the Rocky Mountain Elk Foundation
    Mrs. Chairwoman and honorable members of the subcommittee: I 
appreciate the opportunity to present testimony in support of an 
appropriation of $6.3 million from the Land and Water Conservation Fund 
for the acquisition of the Moose Lake property as well as other key 
properties within the Wisconsin Wild Waterways of the Chequamegon 
National Forest in Wisconsin. I also would like to commend the 
committee for its leadership and general support of Federal land 
acquisition funding for programs such as the Land and Water 
Conservation Fund.
    We are fortunate to be facing some wonderful opportunities to 
protect critical properties for their wildlife values and undeveloped 
lakeshores. Not only are these properties important from a wildlife 
perspective, but with their loss and development we lose a part of 
Wisconsin's Northwoods culture that is dependant upon providing ample 
space for the public to enjoy the outdoors. The Rocky Mountain Elk 
Foundation is committed to preserving this habitat through our Great 
Lakes Conservation Initiative. We are fortunate to have the Forest 
Service and other land trusts as key partners in this effort, and we 
are working with them to protect these properties for the public and 
natural good. Several properties included in this current funding need 
are expected to be important to the future of Wisconsin's wild elk herd 
as it grows and expands into new areas. And the demand on public lands 
is sure to increase as we see more private timberlands sold and closed 
to public use.
    The northern hardwood forests of Wisconsin are a considerable 
natural treasure in our State. The forests are interspersed with an 
abundance of lakes, rivers, and streams, providing residents and 
visitors outstanding recreational opportunities. They also provide tens 
of thousands of acres of prime habitat for a variety of fish and 
wildlife.
    The Forest Service has recognized the unique attributes of the 
northern forests in Wisconsin and has undertaken a land protection 
program focused on undeveloped properties along lakes and rivers and 
the consolidation of publicly owned lands for the benefit of recreation 
and natural resources. The Wild Wisconsin Waterways program has been 
supported by annual congressional funding from the Land and Water 
Conservation Fund. This year, we have the opportunity to protect a 
large contiguous tract at Moose Lake and other key inholdings.
    The Moose Lake property is a 1,040-acre contiguous tract that the 
Elk Foundation is especially concerned with as it is surrounded by the 
Chequamegon-Nicolet National forest. The property and the National 
Forest share a common 8-mile boundary. The tract includes two entire 
small lakes and 50 acres of wetlands. It is within the territory of a 
known gray wolf pack that I have personally seen on the property, and 
is habitat for fisher and a variety of other game and non-game animals. 
Again, this property is expected to be important elk habitat for the 
Wisconsin elk herd.
    Also available in Bayfield country is a 987-acre assemblage of 
inholding parcels consisting of 10 tracts ranging in size from 33 to 
240 acres. These inholdings are nearly surrounded by national forest 
land and share a common 12 mile boundary. They include a one-quarter 
mile of creek frontage, a tributary to Trapper Lake, 40 acres of 
wetlands, an entire small lake, and the remaining private ownership on 
three other small lakes. The tracts are within the planned habitat 
range of the released Wisconsin elk herd.
    The Rocky Mountain Elk Foundation supports these acquisitions for 
their benefits to elk and other wildlife. These acquisitions enhance 
hunting opportunities as well as other multi-season recreation 
including snowmobiling, fishing, hiking, camping, birding, cross-
country skiing and snowshoeing. RMEF is involved with the purchase of 
the Moose Lake property and is working with other organizations to 
permanently conserve and secure this property.
    Due to increased development and conversion of land from forest 
uses in northern Wisconsin, these properties and their important 
natural and recreational resources are highly threatened. An 
appropriation of $6.3 million will protect Moose Lake and several other 
properties in the Chequamegon National Forest and ensure the continued 
success of the Wild Wisconsin Waterways program.
    I thank you, Mrs. Chairwoman, for your consideration of this 
testimony in support of these acquisitions, and for your leadership in 
general support for land acquisition funding of the Land and Water 
Conservation fund account.
                                 ______
                                 
 Prepared Statement of Roots and Shoots for the Jane Goodall Institute
    Madam Chairwoman and honorable members of the committee: I 
appreciate the opportunity to testify in support of funding for land 
conservation in New Mexico and, particularly, for two current important 
land acquisition projects: A $3 million appropriation from the Land and 
Water Conservation Fund to permit the purchase of 75-acre Canyon River 
Ranch by the Bureau of Land Management in the La Cienega ACEC, and, a 
$4.05 million appropriation for the acquisition of a conservation 
easement protecting 6,000 acres of the Vallecitos High Country property 
under the New Mexico Forest Legacy program.
    New Mexico continues to grow at a rapid pace and lands of 
tremendous ecological and cultural significance are being converted 
into developed lands every day. During the 1990's alone, the population 
of New Mexico increased 20 percent. Unlike many States experiencing 
enormous growth, New Mexico does not have dedicated State funding to 
acquire open space and parkland or protect our farms and ranches. 
Without Federal funds through the Land and Water Conservation Fund, New 
Mexico will lose the opportunity to protect our trails, parks, ranches, 
farms, and natural areas that are vital to our heritage and our future. 
These protected lands are critical to our physical, economic, and 
environmental health, and they provide us all with the places where we 
can form a deep and meaningful connection with the natural world and 
with each other. A relationship between people and nature is essential 
for healthy people and a healthy landscape.
    Specifically, these two project requests exemplify the historic 
importance of both the Federal Land and Water Conservation Fund and 
Forest Legacy programs in assisting communities to protect our Nation's 
most critical landscapes. The Land and Water Conservation Fund has been 
the primary funding source to protect our most prized conservation and 
recreation lands through our Federal parks and forests for over 40 
years. In addition, over the past 15 years, the Forest Legacy program 
has prevented the loss of over 1 million acres of forest and leveraged 
an equal amount of matching State, local, and private funding. I 
commend the chairwoman and committee members for your leadership in 
supporting adequate land conservation spending in these accounts.
    By way of introduction, I am a veterinarian and I received my 
Doctorate of Veterinary Medicine from Tufts University, with emphasis 
in wildlife rehabilitation, in 1985. I received my Bachelor's degree in 
Anthropology and Biology, and a Master's degree in Botany and Plant 
Ecology from the University of New Mexico, in Albuquerque.
    In the early 1990's I served as Special Assistant to Governor Bruce 
King, with responsibility for environment, natural resources, health, 
and recreation. I learned how critical it was to invest in protecting 
sensitive and unique lands for the future and what an enormous cost is 
incurred when you don't.
    During my tenure as the elected New Mexico State Land Commissioner 
from 1993-2002 I was responsible for 13 million acres of State trust 
land. I worked to establish collaborative and cooperative partnerships 
with numerous public and private groups to protect sensitive lands for 
future generations while earning revenues to support our public 
schools, universities, and hospitals.
    As a former President of the 22 member Western States Land 
Commissioners Association I saw the clear difference in the quality of 
life and economic prosperity between States that took care of their 
unique and special lands and those that did not.
    As a member of the United States Secretary of Agriculture's Foreign 
Animal Disease Board I became acutely aware of the need for healthy 
landscapes in the prevention of disease among humans, wildlife 
populations, companion animals, and domestic animals used for 
agriculture.
    During my career I have worked very hard to bring various groups 
together to find common ground and solve problems and I strongly 
believe that the projects mentioned in this testimony represent 
important efforts to protect critical lands. These projects represent a 
true investment in our future and I strongly believe that this type of 
effort will pay important dividends for generations to come.
             vallecitos high country forest legacy request
    The State of New Mexico has identified the Vallecitos High Country 
project as its number one Forest Legacy Program priority for fiscal 
year 2008. The Federal request for $4.05 million, to be matched by $1.3 
million in land value donation, will protect the first 6,000 acres of 
this 11,375 acre heavily forested property. Other partners in this 
project include the New Mexico Forestry Division, New Mexico Department 
of Game and Fish, the Carson National Forest, Natural Resources 
Conservation Service, Forest Trust, Continental Divide Trail Alliance, 
Rio Chama Watershed Group, Southern Rockies Ecosystem Project, the 
Forest Guild, The Trust for Public Land, and Vallecitos Mountain 
Refuge.
    The Vallecitos High Country property, located within the Rio 
Vallecitos watershed in Rio Arriba County, is an 11,375-acre parcel of 
mixed conifer, aspen, and spruce-fir forests interspersed with mountain 
meadows and creeks. It adjoins Carson National Forest on three sides 
and is visible from the Continental Divide Trail. The Rio Vallecitos, 
an important cold water fishery, is managed by the U.S. Forest Service 
as a Wild and Scenic River. It provides irrigation and municipal 
domestic water to the downstream villages of Vallecitos and La Madera. 
The property boasts critical wildlife habitat that includes old growth 
forest, wet meadows and clear creeks. The wide diversity of wildlife on 
the property includes several threatened and endangered species. In 
addition, several miles of riparian woodlands, considered relatively 
rare in New Mexico, are found along the Rio Vallecitos, Jarosa Creek, 
and North Creek. The important Rio Vallecitos runs five miles across 
the property near the national forest boundary, and another 12 miles of 
tributary creeks on the property feed the Rio Vallecitos.
    The old growth mixed conifer and spruce-fir forests on this 
property provide suitable habitat for the Federally threatened Mexican 
spotted owl and the State threatened boreal owl and pine marten. The 
property also provides important habitat for peregrine falcon, bald 
eagle, northern goshawk, and king fisher. Since it is a large forested 
property, it is capable of supporting populations of territorial 
wildlife species with large home ranges such as black bear, mountain 
lion, bobcat, turkey, and birds of prey. The property is within an area 
classified as a major wildlife dispersal corridor by the Southern 
Rockies Ecosystem Project, whose goal is to maintain a network of 
undeveloped habitats and migratory pathways in the region. The wet 
meadows and beaver ponds on the property are suitable reintroduction 
sites for the extirpated boreal toad. This State-endangered amphibian 
may still exist as an undiscovered remnant population on the property. 
Recognizing these critical habitat lands, the landowner has been 
working with the New Mexico Department Game and Fish to protect the 
boreal toad habitat.
    I respectfully request that the subcommittee provide the necessary 
$4.05 million in Forest Legacy funding for this critical New Mexico 
project.
 canyon river ranch, la cienega acec land and water conservation fund 
                                request
    Also available for acquisition in fiscal year 2008 is the 75-acre 
Canyon River Ranch property located within the Bureau of Land 
Management's La Cienega Area of Critical Environmental Concern (ACEC), 
near the historic village of La Cienega.
    The La Cienega ACEC is made up of over 4,500 acres of ecologically 
and historically significant lands just 8 miles from the city of Santa 
Fe. In an arid region with little rainfall and few perennial streams, 
the Santa Fe River, which flows through the ACEC, sustains a thick 
canopy of cottonwoods and coyote willows, habitat to nesting songbirds 
such as the southwestern willow flycatcher and numerous other wildlife. 
Ancient rock art can be found etched into the canyon walls, most likely 
produced in the 14th through the 17th centuries by the inhabitants of 
La Cieneguilla Pueblo, a prehistoric Native American site with remnants 
of adobe rooms and stone and pottery artifacts.
    The 75-acre Canyon River Ranch property is located at the 
confluence of the Santa Fe River and La Cienega Creek. Another stream, 
Alamo Creek, also flows through this property. The property's western 
mesa includes petroglyphs and pit houses, erected by ancient Pueblo 
Indians. It has more than one-half mile frontage on the Santa Fe River, 
meandering hundreds of feet below the deep canyon walls.
    The location of this property and its important historical themes 
and unique environmental conditions make the protection of Canyon River 
Ranch extremely important to the future management of the ACEC. The El 
Camino Real de Tierra Adentro National Historic Trail, the main road 
that led from colonial New Mexico to Chihuahua and Mexico City, runs 
near the property. The road dates back to 1598 when the Spanish made 
their way to northern New Mexico and established the first capital city 
near San Juan Pueblo. La Cieneguilla Pueblo lies along this historic 
route, as does a nearby 17th century Spanish hacienda that was burned 
in the Pueblo Revolt of 1680.
    Support for this acquisition has come from the community, local and 
State governments, archaeological groups, environmental groups, and 
local pueblos to protect this property. The ACEC and surrounding lands 
contain important historical and ecological resources that need to be 
protected as growth from the city of Santa Fe puts additional 
development pressure on outlying areas.
    In fiscal year 2008, $3 million is needed from the Land and Water 
Conservation Fund to protect 75 acres of the Canyon River Ranch 
property, before the opportunity to protect this outstanding resource 
is lost forever. I respectfully request that the subcommittee provide 
funding to permit the acquisition by the Bureau of Land Management for 
this project.
    Thank you, again, for the opportunity to submit this testimony in 
support of funding for land conservation in New Mexico and especially 
these two important New Mexico land conservation initiatives. 
Protecting our special places gives our communities their character and 
reminds us of what we value and appreciate in our relationship with the 
natural world.
                                 ______
                                 
       Prepared Statement of the San Diego County Water Authority
    Your support is needed to secure adequate funding for the Bureau of 
Land Management (BLM) for the subactivity that assists the Title II 
Colorado River Basin Salinity Control Program (Program). To continue 
the essential work of the Program, the Water Authority urges funding of 
$5.9 million for fiscal year 2008 with $1.5 million to be designated 
specifically to salinity control efforts that have been identified.
    The Program has been carried out through the Colorado River Basin 
Salinity Control Act (1974) (Public Law 93-320) and the Clean Water 
Act. The salinity control projects through the Program benefit water 
users from seven States through more efficient water management and 
reduced salinity concentrations in Colorado River water. In addition, 
the Program assists the delivery of quality water to Mexico in 
accordance with Minute 242 of the 1944 Water Treaty.
    The Colorado River is the primary and single most important source 
of drinking water for more than 3 million people in San Diego County. 
Excess salinity causes economic damages in the San Diego region worth 
millions of dollars annually, and hundreds of millions of dollars 
nationally.
    For every 30 milligrams per liter increase in salinity 
concentrations there are $75 million in additional damages in the 
United States. Locally, impacts of excess salinity in the San Diego 
region include, but are not limited to, the following:
  --Reduced crop yields, impacting more than $1 billion of agricultural 
        products in the San Diego region.
  --Decreased useful life of commercial and residential water pipe 
        systems, water heaters, faucets, garbage disposals, clothes 
        washers, and dishwashers.
  --Increased household use of expensive bottled water and water 
        softeners.
  --Increased water treatment facility costs and a decrease in the life 
        of the treatment facilities.
  --Increased treatment to meet Federal and California wastewater 
        discharge requirements.
  --Fewer opportunities for water recycling due to excess salt in the 
        product water, which limits usefulness for commercial and 
        agricultural irrigation.
    The BLM budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management Program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal, 
and international agreements to control salinity of the Colorado River.
    Due to geological conditions, much of the lands that are controlled 
and managed by the BLM, the largest landowner in the Colorado River 
Basin, are heavily laden with salt. Past management practices have led 
to human-induced and accelerated erosional processes from which soil 
and rocks, heavily laden with salt have been deposited in various 
stream beds or flood plains. As a result of this disposition, salt is 
dissolved into the Colorado River system causing water quality problems 
downstream. Congress has charged Federal agencies, including the BLM, 
the Bureau of Reclamation and the U.S. Department of Agriculture, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available.
    In keeping with the congressional mandate to maximize the cost-
effectiveness of the salinity control program, the Colorado River Basin 
Salinity Control Forum (California and the other six Basin States) has 
recommended that Congress appropriate $5.9 million to BLM in fiscal 
year 2008 for activities that help control salt contributions from BLM 
managed lands in the Colorado River Basin. In the past, BLM has used 
$800,000 of this funding for salinity control project proposals 
submitted by BLM staff for consideration. The BLM has now identified 
projects that in fiscal year 2008 could use $1.5 million. We believe 
this amount of funding should be specifically marked for the Colorado 
River Basin Salinity Control Program, consistent with subcommittee 
direction in past years.
    The Program has proven to be a very cost-effective approach to 
mitigate the impacts of increased salinity in the Colorado River, which 
is an investment that avoids millions of dollars in economic damages 
caused by excess salinity.
    The Water Authority supports the recommendation for BLM funding and 
urges this subcommittee to support this level of funding for fiscal 
year 2008. The Water Authority appreciates your assistance in securing 
adequate funding for this vital water resource.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
                  Prepared Statement of Save the Sound
    Madam Chairwoman and honorable members of the committee: I 
appreciate this opportunity to testify in support of a $710,000 Land 
and Water Conservation Fund appropriation for the Stewart B. McKinney 
National Fish and Wildlife Refuge in Connecticut to acquire the 20-acre 
Menunketesuck Salt Meadow Marsh property. Although this testimony 
focuses on this one important land acquisition need in Connecticut, it 
is representative of the general importance of Federal land acquisition 
funding provided by the Land and Water Conservation Fund program. 
Therefore, I would also like to take this opportunity to commend the 
Chairman and subcommittee members for your leadership in supporting 
LWCF and other land acquisition accounts, and to urge you to provide 
increased funding for these programs in fiscal year 2008.
    Save the Sound, a Program of Connecticut Fund for the Environment, 
is dedicated to the protection and restoration of Long Island Sound and 
its watershed through advocacy, education and research. Save the Sound 
collaborates with government agencies and other non-profits on the 
restoration and stewardship of key areas around the Sound. As an active 
member of the Long Island Sound Stewardship Initiative Work Group of 
the of the EPA Long Island Sound Study, we collaborate with the 
Connecticut Department of Environmental Protection, Connecticut 
Audubon, the Trust for Public Land, the U.S. Fish and Wildlife Service, 
and other partners to identify critical areas needing increased 
protection and stewardship. Salt marshes are recognized as a priority 
habitat type, providing important ecosystem functions such as flood 
control, filtering of polluted runoff, provision of wildlife habitat, 
and recreational opportunities. The protection of the Menunketesuck 
Salt Marsh as a component of the Stewart B. McKinney Wildlife Refuge is 
an important step in increasing the protection of critical habitats 
with high ecological, educational and recreation value.
    Named to honor the late U.S. Congressman who was instrumental in 
its creation, the Stewart B. McKinney National Wildlife Refuge was 
established to protect migratory bird habitat considered important to 
wading and shorebird species including heron, egrets, terns, plovers 
and oystercatchers among others. The refuge, which is located on the 
southeastern coast of the Connecticut on the Long Island Sound, was 
initially designated with 150 acres located in four separate units. 
Since that time, additional protected lands have more than doubled the 
habitat in the area, significantly increasing populations of shore and 
wading birds. Stewart B. McKinney NWR is currently comprised of eight 
units stretching along 60 miles of Connecticut's coastline. In addition 
to the increase in habitat protection over the years, the refuge now 
provides opportunities for scientific research, environmental 
education, and fish and wildlife-oriented recreation.
    Located in the Atlantic Flyway, the refuge provides important 
resting, feeding, and nesting habitat for many species of wading birds, 
shorebirds, songbirds and terns, including the endangered roseate tern. 
Adjacent waters serve as wintering habitat for brant, scoters, American 
black duck and other waterfowl. Overall, the refuge encompasses over 
800 acres of barrier beach, tidal wetland and fragile island habitats.
    This area is one of the most important fall migratory stopover 
areas for Neotropical migratory landbirds along the Long Island Sound, 
providing important habitat for numerous species of songbirds. At least 
29 species of warblers have been recorded in the fall migration. This 
habitat type of relatively unfragmented coastal forest, scrubland and 
high salt marsh are extremely rare in Connecticut.
    Available for refuge acquisition in fiscal year 2008 is the 20-acre 
Menunketesuck Salt Meadow Marsh in Westbrook, Connecticut. The property 
is comprised of pristine coastal tidal marsh, a forested upland, 
scrubland, and a rock outcropping that towers above 1,000 feet of 
frontage along the gentle Menunketesuck River as it winds its way to 
Long Island Sound.
    As a migratory stopover for neotropical migrant land birds, this 
riparian area is the top priority for acquisition for the refuge. The 
marsh property will enhance the resources of the current Salt Meadow 
Unit of the refuge, as it contains part of the least developed upland 
borders of any remaining tidal marsh in all of Connecticut. As much of 
the State's coastline has been built upon, it is rare to find such a 
large undeveloped marsh area in Connecticut. Under imminent threat of 
development into condominiums, the refuge must acquire this parcel if 
it is to continue to serve as an island of forested habitat land on an 
otherwise highly developed coastline.
    The total cost of this property is approximately $1.11 million, and 
the FWS has already directed $400,000 of existing funds towards this 
purchase. In order to complete the acquisition of the Menunketesuck 
Salt Meadow Marsh property, an appropriation of $710,000 is needed from 
the Land and Water Conservation Fund in fiscal year 2008. This priority 
acquisition will increase wildlife habitat protection at the Stewart B. 
McKinney National Wildlife Refuge and ensure the public continued 
opportunities for recreation and environmental education along 
Connecticut's coastline.
    Mr. Chairman, thank you for this opportunity to submit testimony 
about this important Connecticut protection effort at the Stewart 
McKinney National Fish and Wildlife Refuge Association.
                                 ______
                                 
              Prepared Statement of the Sharon Land Trust
    Madam Chairwoman and honorable members of the committee: The Sharon 
Land Trust (SLT) appreciates the opportunity to present this testimony 
in support of a $770,000 appropriation to the State of Connecticut from 
the Forest Legacy Program for the second phase of the Skiff Mountain 
project. SLT is a non-profit land conservation organization with a 
mission to preserve important conservation lands in the Town of Sharon, 
Connecticut. Founded in 1982, the SLT owns over 1,000 acres and manages 
another 1,000 acres under conservation easement.
    Our organization strongly supports the effort to protect the 
assemblage of forested properties on Skiff Mountain, due to its high 
conservation value and the recurring threat of development in the area. 
In 2004, the SLT purchased over 200 acres of adjacent forestland that 
was slated for residential development and is now managing it for 
conservation purposes. This opportunity to protect hundreds of acres of 
forested lands on Skiff Mountain through the Forest Legacy Program will 
greatly enhance our ongoing conservation efforts in the area.
    Located on the town line between Sharon and Kent, the Skiff 
Mountain properties are within a patchwork of other protected lands and 
are in an area with significant development pressures. The assemblage 
is directly west of the Appalachian National Scenic Trail and the 
Housatonic River (a major supplier of freshwater to Long Island Sound) 
and is located within the newly legislated Upper Housatonic National 
Heritage Area.
    The protection of these properties will curb additional development 
pressures in the northwestern part of the State, help preserve the 
Housatonic watershed, and conserve a large tract of unfragmented forest 
that provides linkages to over 7,000 acres of other protected land. The 
protection of forests on Skiff Mountain will also enhance efforts to 
preserve wildlife habitat within the Housatonic watershed. In fact, 
forty-four species identified as endangered, threatened, or species of 
special concern by the CT Department of Environmental Protection are 
found on or near Skiff Mountain.
    In fiscal year 2006, Congress appropriated $1.182 million in Forest 
Legacy funding for the protection of the first 473 acres. In order to 
complete the project in fiscal year 2008, $770,000 is needed from the 
Forest Legacy Program to help preserve the remaining 292 acres and keep 
intact this conservation corridor of the Housatonic River Watershed and 
four-state Highlands region. These funds will be matched by local 
funding and land value donation. We hope that you will provide the 
$770,000 to ensure the success of this effort in the fiscal year 2008 
Interior appropriations bill.
    Thank you for the opportunity to present this request.
                                 ______
                                 
 Prepared Statement of the Shoshone-Bannock Tribes Fort Hall Business 
                                Council
    BIA Facilities Construction.--The Tribes are operating our Police 
Department, detention center, and Tribal courts in unsafe and 
deteriorated conditions. Our corrections facility operates at 132 
percent over capacity. Many buildings were built in the late 19th 
century. The tribal courts building was built in 1868 and the building 
is now condemned and will be preserved as a historic site. We have 
designed a comprehensive, state-of-the-art facility to house all three 
programs and have contributed $4 million of our own funds toward this 
project. The site work was completed in June 2006, but without adequate 
BIA and other Federal funds to assist us in this effort--an additional 
$13.7 million is required--the project will be delayed and the costs 
only increase. We will need to purchase a trailer to house a portion of 
our Tribal Court staff since the existing structure is too old and too 
costly to renovate and it is currently unsafe. We encourage you to 
support requested funding to construct and properly staff the Tribal 
Justice Center.
    Sanitation Facilities Construction.--Restore and increase the IHS 
Facilities Construction budget by at least $75 million above previously 
enacted levels so that Indian tribes may address issues such as water 
contamination on their reservations. We are building a 145 mile water 
line to provide safe drinking water for Fort Hall Reservation 
communities. Ethylene Dibromide and nitrates have contaminated our 
Reservation's drinking water to unsafe levels. We should not have to 
wait a generation to provide safe drinking water to our Reservation, 
yet Federal funds remain inadequate for this critical program. Over $68 
million is needed to complete this vital project.
    BIA Fisheries.--Many of the Tribe's streams and tributaries have 
been negatively affected by various environmental factors which have 
caused a loss of riparian vegetation, down-cutting, spawning and 
rearing substrates. The Tribes resident fisheries program works to 
restore and protect Reservation streams so that they can support native 
fish populations. Please increase funding to the BIA's Wildlife and 
Parks budget so the Tribes can protect our fish and wildlife.
    Local Tribal Programs.--By far the greatest consequence to the 
Tribes will be the planned cut of $20.5 million in Tribal Priority 
Allocations (TPA) funding from fiscal year 2007 levels, while military 
spending is increasing dramatically. Instead of escalating funding in 
foreign lands, it would be far better to increase funding for the 
health and safety of the first Americans. This reduction in Tribal 
Priority Allocations will undermine Law Enforcement and Tribal court 
efforts, as well as Social Service programs (which include child 
protection and child welfare initiatives). Our members will feel these 
impacts in job creation, job training, economic development efforts, 
scholarships, training for Indian youth and adults, and the management, 
protection and preservation of natural resources such as fisheries, 
forestry, minerals/mining and agriculture and water resources.
    The Tribal Priorities Allocations account funds thousands of jobs 
in Indian country. Unless planned cuts are restored, many tribal 
employees will lose their jobs and the efficiency and capabilities of 
many Tribal and agency offices will be compromised.
    BIA Budget Cuts.--The administration's announcement that current-
year funds would be shifted away from Indian programs to pay the fees 
of Cobell attorneys adds insult to injury by compounding cuts for 
Indian programs in the fiscal year 2007 budget proposal. The impact to 
elderly, women and children is unfathomable, and is a violation of the 
Federal trust responsibility. We are opposed to any legislation that 
will terminate the Federal trust responsibility and end any pending 
litigation for mismanagement of trust assets.
    Johnson O'Malley Funding.--The Tribes support full restoration of 
$16.4 million in funding for the Johnson O'Malley grant program which 
supports Indian children attending public schools. The program provides 
grants to tribes so that tribes can distribute the money to public 
schools for tutoring, counseling and other services for Indian 
students.
    FDIR Programs.--Another change comes from the Commodity 
Supplemental Food Program at the Department of Agriculture. The USDA 
program is initiating a new funding methodology for allocating funds to 
tribes for a gradual implementation of a funding methodology that will 
take several years to stabilize and will not impact current funding 
levels. Some smaller tribes receive more funding than larger tribes and 
this will be changed in the future. The new methodology seeks to 
improve funding on a more equitable basis which provides monthly food 
packages to low-income women, infants, children and elderly in 32 
States.
    Indian Health Care Improvement Act.--We are entering the seventh 
year without reauthorization of this important act, which authorizes 
funding for Indian health care. The administration proposes to cut 
funding for urban health care center facilities. In previous year, the 
administration has failed to provide access to better health care for 
families in Native communities. It is essential that the government 
lives up to the promises of providing better access to health care for 
Indians, which is the reason why the government should reauthorize the 
Indian Health Care Improvement Act.
    Urban Health Clinics.--Impending budget cuts for urban health care 
will end health care for Indians living in urban areas. The urban 
population must find jobs in cities or do not have housing. This 
creates problems for Tribal elders who cannot afford to or cannot drive 
to reservations located hundreds of miles from their homes. Federal 
trust responsibility does not end at the reservation boundaries.
    Indian Housing.--Currently, 40 percent of Americans are under-
housed, but the administration has terminated the BIA's Housing 
Improvement Program (HIP)--a vital initiative that provides native 
families with money to repair a leaky roof, or provide heat and 
electricity for their families. Sanitation funding has also been 
slashed in the Presidents budget, failing to take into account the 
long-standing backlog of needs for basic sanitation facilities and 
clean drinking water.
    Welfare Assistance.--We oppose the administration's intent to 
significantly decrease BIA Welfare Assistance grants program, because 
48 percent of the American Indians residing on the Fort Hall 
reservation are below the poverty level and 50 percent of the Indian 
people are unemployed or under-employed.
    Contract Support.--Full Funding for Contract Support Costs must be 
provided in order to provide quality health care for contract programs. 
The proposed increase is inadequate and forces tribes to subsidize IHS 
programs by using direct program funds to pay for administrative costs 
not paid for by the IHS as mandated by Public Law 98-638 and the 2005 
Supreme Court decision in Cherokee Nation v. Leavitt. The subcommittee 
should fund the estimated $92 million short fall in IHS Contract 
Support Costs in the fiscal year 2008 budget.
    Trust Management.--The management of trust assets for Indian tribes 
needs great improvement. Such improvement should not include 
interruption of services to Indians and for drastic changes in BIA 
regulations and reduction of employees to manage trust assets that 
ensure tribal sovereignty and the trust responsibility, including 
government to government relationships. The bill also includes $226.1 
million for the Office of the Special Trustee, with $58 million for 
historical accounting activities.
    Indian Education.--Education of our youth is a high priority for 
Indian tribes. For that reason, we cannot understand the 
administration's plans to reduce funding for safe and drug free schools 
program, the JOM Program, TRIO Upward Bound, comprehensive school 
reform, vocational education, handicapped and many more programs 
assisting Indian schools. The White House budget for special programs 
for Indian Children is $19.4 million, but only $5.7 million is 
available for programs similar to JOM, a fact not mentioned in the OMB 
report. Further, the administration is proposing to severely cut funds 
for the Morris K. Udall Foundations Native Nations Institute, which, 
for years has provided training for over 1,700 tribal leaders 
representing 360 tribes to attend its executive education courses.
    BIA Law Enforcement.--We encourage funding for the COPS program. We 
are experiencing an alarming increase in gang violence and the presence 
of methamphetamines on our reservation. We strongly urge the 
subcommittee to build on the administration's proposal and 
significantly increase BIA Law Enforcement funding above the $16 
million proposed by the administration for staffing new detention 
facilities, hiring officers, and fighting Methamphetamine abuse. This 
funding is far too limited to provide adequate law enforcement 
services, especially on large Indian reservations such as the Fort Hall 
Indian Reservation which has witnessed an increase in crime and gang 
violence.
    Other Program Reductions.--The proposed budget cuts includes 
reductions in programs due to mismanagement of Indian trust funds and 
neglect of the Federal trust responsibility. These reductions include 
$11 million for welfare assistance, $2.6 million for road maintenance, 
$1.1 million for community fire protection, and $1.9 million for water 
management and planning. Indian tribes, and their members, served by 
the programs of the Interior Department deserve adequate funding of 
Federal programs designed to improve their living conditions.
    Thank you for affording the Shoshone-Bannock Tribes the opportunity 
to present testimony on the fiscal year 2008 Interior and Related 
Agencies budget.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State
    My name is Denese LaClair, I am Chair of the Skokomish Tribe of 
Washington State. The Skokomish Indian Reservation is a rural community 
located at the base of the Olympic Peninsula with a population of over 
1,000 people. The 5,300 acre Reservation is a fraction of the 2.2 
million acre of the Tribe's Treaty area. The Skokomish Tribe 
appreciates the work of the subcommittee and asks that you provide 
funding in areas that are key to the continuing development of tribal 
communities: Law Enforcement, Education, Environment and Health Care.
    Law Enforcement.--The Skokomish Tribe respectfully requests 
increased funding for our law enforcement programs within the Bureau of 
Indian Affairs. We commend the BIA's requested increase of $16 million 
for law enforcement services, but more needs to be done.
    In the last 11 years, the Skokomish Department of Public Safety has 
grown from one untrained officer, to a force of 10 Washington State 
certified/Washington State equivalency trained or BIA certified law 
enforcement officers. To be fully staffed at a baseline minimum for the 
area and scope of service that the Skokomish Department of Public 
Safety is tasked with, we need a total of 18 officers. Thus, we are 
almost 50 percent below what is needed to safely serve our community.
    The Tribe experienced a significant growth in the Reservation's 
population during the 1980s and early 1990s. Along with the increased 
population, the Skokomish Indian Tribe experienced an alarming increase 
in the extent and severity of drug abuse among the residents of the 
Reservation. In the last 4 months, our tribal police officers have 
responded to approximately 1,600 calls for service, which are 
classified as Part One and Other than Part One Offenses or Other 
Service Incidents.
    It is not uncommon to find our officers working shifts alone. Our 
tribal police agency has used strategies such as requesting assistance 
from outside agencies to respond and provide the second officer for 
backup during high risk incidents. We have been lucky so far that those 
other agencies, in the time of our officer's need, were available. 
Increasingly however this resource is becoming almost nonexistent 
because surrounding agencies are also finding themselves with less 
staff due to continued population growth and cost of living increases.
    These cost of living increases are forcing officers to consider 
other departments for employment because of the higher pay and 
additional benefits which also magnifies our inability to attract 
qualified applicants.
    The scope of our service responsibility is broad because the 
Skokomish Department of Public Safety frequently provides immediate 
marine law enforcement and boat rescue services in Hood Canal.
    Our tribal officers also play a pivotal role in the suppression of 
crimes related to illicit drug and alcohol abuse on the reservation. By 
our continued working relationship with non-tribal law enforcement 
agencies, we combat the scourge of drug problems in this isolated rural 
area by sharing; gathered intelligence, conducting surveillance on 
suspected traffickers and or their residences as well as forwarding 
completed felony drug investigations to the Mason County Sheriff`s 
Office for prosecution. As an example, the latest case forwarded 
involved two adults being charged with soliciting a minor to sell pills 
at his school
    Despite the growth in law enforcement need, there has not been a 
corresponding growth in law enforcement funding. The Skokomish Tribe 
does not received an appropriate share of funding from the BIA, as 
compared to other Tribes in the State. In fact, the Skokomish Tribe 
receives only $90,000 in BIA law enforcement base funding. This is the 
same amount we have received for the last several years. This is the 
lowest in our Region. The next closest Tribe, the Shoalwater Bay Tribe, 
receives $142,000 in BIA law enforcement funding. The Shoalwater Bay 
Tribe has approximately 235 members as compared to Skokomish's 
approximately 700 members. Consequently, to adequately fund our 
department, we are forced to cut other programs like education and 
social services. To address this, we ask that Congress increase the 
overall funding for law enforcement by at least twice the amount BIA 
has requested (an additional $16 million) and that the additional funds 
be earmarked for personnel and equipment.
    Education.--The BIA once again proposes to eliminate Johnson 
O'Malley funding. The Johnson O'Malley program provides funding to 
local public schools to provide outreach and academic assistance to 
Indian children attending these schools. At Skokomish, most of our 
children attend two public schools--Hood Canal Elementary and Jr. High 
and Shelton High School. Both are public schools, and without the JOM 
program, we could not track or assist our children to succeed 
academically. We believe the JOM funding is money well spent and we 
would urge Congress to maintain funding for this Program.
    The Skokomish Tribe is especially disheartened by the 
administration's proposed elimination of higher education scholarships. 
For any of our children who are lucky enough to be accepted into a 4 
year college or a community college, it is important that the Tribe 
have some resources to help them succeed. I can spend an entire day 
sharing stories of people who would not have made it through college if 
they did not have this assistance from the BIA. These people will be 
our nurses, doctors, business managers and biologists in the future. We 
need to be able to invest in them now.
    Environmental Protection Agency.--We greatly appreciate the 
subcommittee's continuing support of funding for critical programs 
within the Environmental Protection Agency. We ask for increased 
funding for the Clean Water Act Revolving Loan Fund and State Tribal 
Assistance Grants (STAG). We are especially concerned CWA--Section 106 
funding may be at risk. This program has provided successful base-
funding for many tribes, improving tribal capacity.
    Our homeland, the Hood Canal, is considered the jewel of the Puget 
Sound. Unfortunately, the health of the Hood Canal is in danger. Last 
year, our Natural Resource and Fisheries staff identified a 6 mile Dead 
Zone in the Hood Canal. Nothing in this 6 mile area was alive--not 
shellfish, finfish or plant life. In one fifty foot area, we found 25 
dead Dungeness crab. Apparently, once life entered the area it could 
not escape and it died. The floor of the Hood Canal in this area was 
covered with white bacterial mats and the surface with a jelly like 
substance.
    We know the cause of the Dead Zone is the Low Dissolved Oxygen 
Levels (LDOLs) in the Hood Canal, which creates a breeding ground for 
the bacteria Beggiatoa. Essentially the animal and plant life are 
suffocating in the Hood Canal. We also know the primary causes of the 
LDOLs are man-made. Sewage waste discharged directly into the Hood 
Canal and nonpoint source agricultural runoff in the Hood Canal are the 
biggest contributors.
    This issue is so important to the Skokomish people, because the 
Hood Canal is not just a place where we live and recreate, it is the 
very life blood of the Skokomish People. It is the foundation of our 
economy and more importantly it is the foundation of our culture. 
Consequently, anything that threatens the health and vitality of the 
Hood Canal threatens the health and vitality of the Skokomish people. 
Thus, improving the health of the Hood Canal is a top priority for the 
Skokomish Tribe. We are committed to working with all local, State, and 
Federal agencies to address what we believe to be a crisis. We cannot 
stand by and allow this issue to only be studied. We believe the 
solutions already exist to the known problems, and we want to be part 
of the team that brings these solutions to the table.
    Specifically, we urge the subcommittee to continue funding for the 
efforts to build regional sewage treatment facilities for the people 
who live and work on the Hood Canal. We greatly appreciate the 
subcommittee's past support of these efforts and hope for your 
continued support through the STAG process and the Clean Water Act 
Revolving Loan fund.
    Forest Service.--The Skokomish Tribe strongly supports the 
Skokomish Watershed Action Team's (SWAT) request for $4.6 million. The 
Skokomish Watershed Action Team--a diverse, informal partnership of 
governments, land managers, and others who are working collaboratively 
to restore the Skokomish watershed--has a 3-year action plan to help 
inspire and guide Skokomish River restoration work. The Skokomish River 
lies within a critical watershed for recovery of multiple species of 
endangered fish and wildlife, for recovery of our troubled Hood Canal 
marine ecosystem, and for rejuvenation of local communities threatened 
by significant, persistent flooding. Salmon recovery for the Hood Canal 
and Puget Sound is keyed on Skokomish River restoration.
    The requested $4.6 million funding will be used for road 
stabilization, culvert repair and road decommissioning on roads within 
the Olympic National Forest. Undertaking these activities will reduce 
the delivery of fine and coarse sediment into the South Fork Skokomish 
River mainstem and its tributaries, which contributes to the channel 
aggradation and decreased carrying capacity of the mainstem Skokomish 
River. This will improve aquatic and terrestrial species habitat and 
decrease flooding. Significantly, these efforts will also increase the 
quality of water flowing into the Hood Canal, which will assist in 
addressing the low dissolved oxygen problem in the Hood Canal.
    Indian Health Service.--The need for increased funding for health 
care throughout Indian country is well known. While we support the 
President's proposal to increase the budget for Indian Health Services, 
the amount of that increase ($212 million from the current funding 
level) still will not meet the actual costs of providing health care to 
Indian people. The proposed increase fails to address the high rates of 
medical inflation and the substantial unmet need for health care among 
Indian people. At Skokomish, like Indian people throughout the Nation, 
we face disproportionately higher rates of diabetes and the 
complications associated with diabetes. Heart disease, cancer, obesity, 
chemical dependency and mental health problems are also prevalent among 
our people. While other Federal programs, like Medicare and Medicaid, 
have seen annual increases in funding of 5-10 percent to address 
inflation, the budget for IHS has never had comparable increases, and, 
as a result, IHS programs have consistently fallen short of meeting the 
actual needs. We supports the unified tribal effort to increase funding 
so that all tribes receive 100 percent of the Level of Need Formula 
(LNF), which is absolutely critical for tribes to address the serious 
and persistent health issues that confront our communities. We 
understand that an additional $800 million is necessary to bring tribes 
to this level.
    Notwithstanding our significant need, we have been able to do a 
great deal with the limited resources that we have. We have eight 
health professionals at our clinic (one Doctor, one Physicians 
Assistant; one Nurse Practitioner; two Nurses, three CHRs), who provide 
primary care, women's health services, and diabetes prevention 
services.
    However, we do not have a pharmacy. Consequently forty-percent of 
our contract health dollars are spent to purchase medicine for our 
patients who have chronic illnesses like hypertension, heart disease 
and diabetes and because we are a small ambulatory clinic, the 
remainder of our contract health funds are used for our patient who 
must be hospitalized at the local hospitals in Shelton and Olympia or 
if the case is serious to Seattle. These facilities provide terrific 
care to our patients, but when we have reached the limit of funding for 
contract health care we have no ability to pay for the care that our 
patients have received. Consequently, our contract health care program 
remains at Priority I, which means that only those patients who are in 
need of life or limb care can receive care. As many have said, this is 
penny wise and pound foolish in terms of health care treatment and 
prevention.
                               conclusion
    I want to thank the subcommittee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
  Prepared Statement of the Society for Animal Protective Legislation
    The Society for Animal Protective Legislation (SAPL) respectfully 
requests that the Senate Appropriations Subcommittee on Interior, 
Environment and Related Agencies appropriate a total of $215.8 million 
to the U.S. Fish and Wildlife Service (FWS) for Endangered Species Act 
enforcement, and an additional $45 million to the FWS Office of Law 
Enforcement (OLE). The President's fiscal year 2008 proposed budget 
falls far short of providing the funds needed by agencies within the 
Department of the Interior to preserve, recover and manage America's 
wildlife, including threatened and endangered species, as required by 
law and by their public trust obligations to the American people. SAPL 
also asks Congress to reign in the mismanagement of America's wild 
horses and burros by the Bureau of Land Management (BLM).
                endangered species listing and recovery
    The FWS is the principal agency responsible for implementing the 
Endangered Species Act. The ESA is a landmark law that has provided 
protection and prevented the extinction of thousands of species since 
it was promulgated in 1972.
    FWS biologists estimate that 200 currently listed species are on 
the verge of extinction because of a lack of funding for recovery 
activities. An additional 280 candidate species are waiting to be 
listed under the ESA, with some languishing without ESA protection for 
years due to insufficient funds to cover the costs of listing. Despite 
these facts, the President has again proposed a budget that is 
inadequate to the many responsibilities under the ESA. SAPL 
respectfully requests that Congress appropriate a total of $215.8 
million for the FWS endangered species program with $13.6 million, $30 
million, $55.5 million, and $113.6 million allocated to candidate 
species conservation, listing, consultation, and recovery, 
respectively.
                       office of law enforcement
    A seeming increase for this function in the President's budget is 
actually a decrease when higher uncontrollable and fixed costs are 
taken into account. SAPL requests that an additional $45 million be 
allocated to the FWS to increase and expand the activities of its 
Office of Law Enforcement in its critical role of combating wildlife 
crime. The OLE investigates both domestic and international wildlife 
crimes that involve the transgression of over a dozen Federal wildlife 
and conservation laws. Though it is well known that the illegal trade 
in wildlife and wildlife products is second only to the trade in 
narcotics in terms of revenue generated globally, and despite the fact 
that the United States remains a source of or destination for much of 
this contraband, the OLE has consistently been underfunded and 
understaffed and, thus, shortchanged in its efforts to combat this 
illegal trade.
    SAPL has heard that, for budgetary reasons, the FWS has closed or 
has proposed to close its covert wildlife crimes investigation unit. 
Given the severity of the illegal wildlife trade problem and the 
inherent underground nature of the trade, covert investigations are 
essential for enforcing wildlife laws and identifying, capturing, and 
prosecuting those responsible for wildlife crimes. The OLE and its 
employees cannot effectively enforce Federal wildlife laws without a 
covert investigations unit. Congress must direct the Secretary of the 
Interior to reinvigorate the OLE, including its covert investigations 
unit and provide the funding necessary to restore the OLE as the 
preeminent wildlife law enforcement organization in the world.
    FWS Special Agents.--Federal and State wildlife law enforcement 
agents perform what is consistently ranked as one of the most dangerous 
jobs as they attempt to fulfill their mandate to protect this Nation's 
and this world's wildlife heritage. In fiscal year 2006, FWS agents 
inspected over 180,000 wildlife shipments; they pursued over 15,000 
investigations resulting in over $11 million in fines, 60 years of jail 
time for the perpetrators, and 446 years of probation. Following are a 
few examples of cases resolved. An investigation of illegal interstate 
trafficking in live endangered ocelots resulted in Federal criminal 
charges against six individuals in four States and secured civil 
penalties from three others. A Chicago couple involved in the unlawful 
purchase and sale of 101 leopard sharks in the pet trade agreed to pay 
$10,000 to the Lacey Act Reward Account. Prosecutions were completed in 
a multiyear investigation of the illegal harvest and sale of U.S. 
paddlefish in the black market caviar trade. Defendants paid $470,941 
in fines and restitution and were sentenced to serve 93 months in 
Federal prison.
    Despite these impressive statistics, the illegal trade in wildlife 
and wildlife products continues to imperil wildlife species in the 
United States and around the world. The ability of the OLE to expand 
its efforts to combat this trade requires far greater funding than what 
has been proposed in the fiscal year 2008 budget.
    Currently, there are only 207 FWS agents responsible for the 
enforcement of Federal wildlife laws throughout the entire United 
States. This number is 4 fewer than in fiscal year 2006, which was 11 
fewer than existed in 2005 and is 56 fewer than the number of agents 
that are authorized. Filling these 56 vacancies is essential to 
protecting wildlife and stemming the increasing threat of illegal 
trade. SAPL respectfully requests an additional $11.2 million ($200,000 
each) to fill these 56 agent vacancies and an additional $12 million to 
ensure sufficient operational funds for the existing agents and for 
those hired in the future.
    Port Inspectors.--Given the events of September 11, 2001, and the 
recent scrutiny applied by Congress on the security of U.S. ports, the 
value of FWS inspectors should be indisputable. In addition to being 
the first and only line of defense against the illegal import of 
protected wildlife and wildlife products into this country, FWS 
inspectors along with their colleagues from the U.S. Coast Guard, 
Department of Homeland Security, and other agencies involved in port 
inspections, represent America's best hope of intercepting bioterrorism 
agents or items that may represent a security threat to America. Often 
contraband is hidden in the body cavities of wildlife or in their 
transport containers; who except FWS wants to look inside the box of a 
dangerous animal?
    Though it may be hard to see that thwarting an illegal shipment of 
wildlife is as important as thwarting an illegal shipment of weapons, 
wildlife pose much greater risks to America due to the potential for 
the wildlife to be vectors for non-native diseases or insects that 
could pose a threat to public health (e.g. avian flu), domestic 
wildlife health, domestic livestock health (e.g. Newcastle's disease, 
foot and mouth disease), or to our native flora. A recent news report 
noted that ``five of the six diseases the [CDC] regards as top threats 
to national security are zoonotic'' Because legal shipments, which 
amounted to 650 million animals in the last 3 years, are not screened 
properly, Americans are left ``vulnerable to a virulent disease 
outbreak that could rival a terrorist act.'' \1\ Couple the threats 
from the legal trade with those from the illegal trade, including the 
surge in the amount of bushmeat entering the country, and the potential 
for catastrophe is mind boggling.
---------------------------------------------------------------------------
    \1\ (``Imports of exotic animals mean health risks,'' AP, Nov. 27, 
2006).
---------------------------------------------------------------------------
    The North American Free Trade Agreement has exacerbated the problem 
through increased movement of wildlife and wildlife products across the 
United States border with Mexico. Such contraband includes highly 
endangered neotropical parrots, cacti, reptiles, and exotic wildlife 
leather products. The United States border with Canada is a conduit for 
the illegal import of a variety of international species including the 
Asian arowana fish, the rare Madagascar radiated tortoise, and 
protected corals and domestic species including black bear gall 
bladders, bald eagle parts, and other wildlife products. The current 
lack of sufficient operational funds for the FWS port inspection 
program weakens FWS efforts to promote the conservation of species of 
international concern, to protect all natural resources, and to sustain 
biological processes. The virtually unregulated smuggling of parrots 
not only has put new pressure on Western hemisphere parrot species, 30 
percent of which are already on the brink of extinction, but also 
presents a disease transmission risk to the U.S. poultry industry and 
native U.S. birds. The illegal import of parrots into California has 
been linked to an outbreak of Newcastle's disease in that State. 
Moreover, smugglers are dealing in both illegal wildlife and illegal 
aliens. For example, a cooperative investigation by FWS, Immigration 
and Customs Enforcement (ICE), and the U.S. Coast Guard documented the 
smuggling of illegal aliens and live Clarion angelfish from Mexico. A 
Los Angeles man was sentenced to 46 months in Federal prison and 
ordered to pay a $60,000 fine.
    Clearly, then, to protect domestic and international wildlife and 
to secure our borders, Congress must provide the funding to hire and 
train a sufficient number of FWS inspectors to ensure round-the-clock 
coverage at each designated U.S. port of entry. $3.1 million is 
requested for the ports of entry. An example of how understaffed the 
FWS port inspection staff may be can be found at the United States/
Canada border crossing at Blaine, Washington, where a single inspector 
is responsible for inspecting all imports even though that point of 
entry has experienced a 45 percent increase in the number of wildlife 
shipments in the past decade.
     clark r. bavin national fish and wildlife forensics laboratory
    We respectfully request that Congress appropriate $4 million for 
the FWS forensic laboratory in fiscal year 2008. Despite the lab's 
expanding workload and a $1.7 million increase in fixed costs, the 
President's budget calls for a $1.4 million decrease in funds.
    The FWS forensic laboratory is a key resource used by FWS 
investigators and inspectors for prosecuting wildlife crimes. It uses 
complex tests and tools to identify wildlife products as to species, 
determine cause of death, and make other findings critical to a 
successful legal case. All such findings must adhere to exacting 
evidentiary standards to be used in court, thus increasing the cost of 
testing each sample. Due to an increasing backlog of samples (from16 at 
the end of fiscal year 2002 to 3,451 in fiscal year 2006), the lab is 
running 6 to 18 months behind in its casework, causing FWS 
investigators, inspectors, and Federal prosecutors to wait longer to 
continue their investigations or initiate prosecutions. The new 
protocols that will be needed in the crackdown on shark finning will 
only worsen this problem. This lab is the only such facility in the 
world and it has historically aided the fish and game departments of 
all 50 States and the 162 CITES countries. But the backlog jeopardizes 
this cooperation and has forced it to stop accepting samples from State 
and international wildlife investigators, weakening the longstanding 
partnerships supporting cooperative conservation efforts in this 
country and around the world.
    The backlog is largely a product of staffing shortages. These 
shortages, combined with a loss of expertise when seasoned veteran 
forensics experts retire before new experts are trained, threaten the 
forensics lab's ability to help solve wildlife crimes. To reduce both 
these staffing shortages and the existing analytical workload and 
backlog, SAPL respectfully requests that Congress appropriate $4 
million for the lab. Such funds would allow both for the hiring of 
three new senior forensics examiners (for mammals, birds and reptiles), 
one new chemist, one new technician, and for much needed spending on 
training, travel, equipment, and supplies.
                multinational species conservation fund
    Since 1988, the U.S. Congress has made clear its commitment to 
global conservation efforts through the passage of a number of funds to 
benefit specific species. These funds include the African Elephant 
Conservation Fund, the Asian Elephant Conservation Fund, the Rhinoceros 
and Tiger Conservation Fund, and the Great Ape Conservation Fund. To 
address these problems, SAPL respectfully requests that Congress 
appropriate an additional $4 million above the President's request for 
each of these funds.
                      captive wildlife safety act
    In December 2003 the Captive Wildlife Safety Act was signed into 
law. It is intended to prevent the interstate and foreign commerce in 
lions, tigers, leopards, cheetah, jaguars, or cougars, or any hybrid of 
such species--for personal possession as ``exotic'' pets. This law is 
needed to reduce the number of big cats kept by inexperienced persons 
who do not have the training or facilities to properly, humanely or 
safely care for these animals. Such ``exotic'' pets frequently become 
news when they bite, maul, or kill those responsible for their care or 
innocent victims. The legislation authorized an appropriation of up to 
$3 million to ensure that the FWS can enforce this important law yet we 
are unaware of any funding specifically earmarked for this purpose. 
SAPL, therefore, respectfully requests that Congress appropriate a 
minimum of $2 million for the implementation of this law.
                        wild horse and burro act
    The BLM continues to use virtually all of its budget simply to 
remove and warehouse wild horses and burros, despite the fact that 
numerous herds have already been eliminated and many others are 
currently managed at population targets that seriously jeopardize their 
genetic health and viability. To make matters worse, the BLM has 
embraced a devastating rider requiring the sale of certain wild horses 
and burros without restrictions. With no legal authority to protect 
these horses once sold, they will be re-sold for slaughter--the very 
thing which prompted Congress to act to protect wild horses over 30 
years ago.
    From the very inception of the act in 1971, the BLM has ignored the 
clear intent laid out in the Senate Interior and Insular Affairs 
Committee report, which said, ``It is the expressed intent of the 
committee to remove the possibility of monetary gain from the 
exploitation of these animals.'' Thirty-five years later the Congress 
must swiftly act again before the BLM's reckless actions wipe out our 
wild horses and burros forever. With nearly as many, if not more, 
animals in holding facilities as are in the wild today, SAPL 
respectfully requests that Congress instruct the BLM that, until such 
time as the agency either finds qualified adopters for those animals 
now being held and/or returns animals to suitable herd areas 
(particularly those from which all wild horses and burros have been 
removed or whose populations are not self-sustaining), that no funds be 
used to conduct further round-ups. In addition, we request that 
Congress instruct the BLM to use its statutory authority to explore the 
potential for further designating and maintaining specific ranges on 
public lands as sanctuaries for the protection and preservation of wild 
horses and burros as provided in the Wild Free-Roaming Horses and 
Burros Act.
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District
    On behalf of SWCD, I am requesting your support for appropriations 
in fiscal year 2008 to the Fish and Wildlife Service (FWS) for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program, consistent with the 
President's recommended budget. The SWCD was established by the 
Colorado legislature in 1941 to ensure the waters of the Dolores and 
San Juan Rivers in all or parts of nine counties in southwest Colorado.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
       Letter From the State Engineer's Office, Cheyenne, Wyoming
                                   State Engineer's Office,
                                 Cheyenne, Wyoming, April 18, 2007.
Hon. Dianne Feinstein, Chairman,
Hon. Larry Craig, Ranking Member,
Subcommittee on Interior, Environment and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Washington, DC.
    Support for funding of $5,900,000 in fiscal year 2008 within the 
Bureau of Land Management's Soil, Water and Air Account Management 
Program for implementing Colorado River Salinity Control Program 
measures; Requesting the Specific Designation of $1,500,000 be spent on 
identified salinity control and salinity control-related projects and 
studies.

    Dear Chairman Feinstein and Ranking Member Craig: This letter is 
sent in support of fiscal year 2008 funding for the Bureau of Land 
Management (BLM) for activities directly benefiting the Colorado River 
Salinity Control Program. The activities needed to control salts 
reaching the Colorado River system from lands managed by the BLM fall 
within that agency's Land Resources Subactivity--Soil Water and Air 
Management Program. We request $5,900,000 be directed to enhancing 
Colorado River water quality and accomplish salt loading reduction in 
the Basin.
    The State of Wyoming is a member State of the seven-State Colorado 
River Basin Salinity Control Forum, established in 1973 to coordinate 
with the Federal Government to assure maintenance of basin-wide Water 
Quality Standards for Salinity that have been in place for more than 
three decades. The Forum is composed of gubernatorial representatives 
who interact with the involved Federal agencies on the joint Federal/
State efforts to control the salinity of the Colorado River. The Forum 
annually makes funding recommendations, including the amount believed 
necessary to be expended by the Bureau of Land Management for its 
Colorado River Basin Salinity Control Program. Overall, the combined 
efforts of the Basin States, the Bureau of Reclamation, the Bureau of 
Land Management and the Department of Agriculture have resulted in one 
of the Nation's most successful non-point source control programs.
    The basin-wide water quality standards for salinity consist of 
numeric water quality criteria established and maintained at three 
Lower Colorado River points (Below Hoover Dam, Below Parker Dam and At 
Imperial Dam) and a Plan of Implementation that describes the Program's 
components, including the specific salinity control projects being 
implemented to remove sufficient salt from the River system to assure 
the River's salinity concentrations at the Standards' three points do 
not exceed the numeric criteria values. Pursuant to the Clean Water 
Act, the water quality standards for salinity are reviewed at least 
once each 3 years. At those intervals, the Plan of Implementation is 
jointly adjusted and revised by the States and involved Federal 
agencies, including representatives of the Bureau of Land Management, 
to ensure that the planned actions are sufficient to maintain 
continuing compliance with the numeric criteria.
    Successful implementation of land management practices by the 
Bureau of Land Management to control soil erosion and the resultant 
salt contributions to the Colorado River system is essential to the 
success of the Colorado River Basin Salinity Control Program and 
compliance with the water quality standards adopted by each of the 
seven Colorado River Basin States and approved by the Environmental 
Protection Agency. Inadequate BLM control efforts will result in 
significant additional economic damages to downstream water users.
    The BLM's fiscal year 2008 Budget Justification document reports 
that the agency continues to implement on-the-ground projects, evaluate 
progress in cooperation with the Bureau of Reclamation and the 
Department of Agriculture and report salt-retaining measures in 
furtherance of implementing the Plan of Implementation. As noted in the 
testimony subjected by the Colorado River Basin Salinity Control Forum 
(as submitted by Jack A. Barnett, the Forum's Executive Director), the 
Forum's member States, including the State of Wyoming, believe that 
fiscal year 2008 Soil, Water and Air Management Program funds should be 
used, in part, to continue efforts that will directly reduce salt 
contributions from BLM-managed lands within the Colorado River Basin, 
consistent with BLM's fiscal year 2008 Budget Justification document. 
At its recent October 2006 meeting, the Forum, in consultation with BLM 
officials, recommended that the U.S. Bureau of Land Management should 
expend $5,900,000 in fiscal year 2008 for salinity control. 
Accordingly, we request that the BLM be directed to expend from Soil, 
Water and Air Management Program funds not less than $5,900,000 for 
activities to reduce salt loading from BLM-managed lands in the 
Colorado River Basin in fiscal year 2008.
    As one of the five principal Soil, Water and Air Program priorities 
identified by the BLM, projects that will directly provide salinity 
control should also be funded. In the past, the BLM has used $800,000 
of Soil, Water and Air Program funding for specific salinity control 
project proposals submitted by BLM staff in the seven Colorado River 
Basin States to BLM's salinity control coordinator. Through this 
competitive proposal consideration process, the funds have been awarded 
to those projects having the greatest merit (as measured by their salt 
loading reduction and ability to quantify the salinity reduction that 
would be accomplished). At the October 2006 Forum meeting, the BLM and 
the member States of the Colorado River Basin Salinity Control Forum 
cooperatively determined that BLM has proposals in hand totaling over 
$1,500,000 that are of sufficient merit that they should be funded. 
Accordingly, the Forum's testimony to this subcommittee requests 
designation of $1,500,000 for this purpose. As one of Wyoming's Forum 
members, I wish to advise that the State of Wyoming concurs in that 
request.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado and Wyoming, the collaborative efforts of the collective 
State/Federal agencies and organizations working through the auspices 
of the Colorado River Basin Salinity Control Forum have selected 
several watersheds where very cost-effective salinity control efforts 
can be implemented without additional delay or study. In keeping with 
the congressional mandate to maximize the cost-effectiveness of 
salinity control, the State of Wyoming joins with the Forum in 
requesting that the Congress appropriate and the administration 
allocate adequate funds to support the BLM's portion of the Colorado 
River Salinity Control Program as described in the adopted Plan of 
Implementation.
    The State of Wyoming appreciates the subcommittee's funding support 
of the Bureau of Land Management's statutorial responsibility to 
participate in the basin wide Colorado River Salinity Control Program 
in past years. We continue to believe this important basin-wide water 
quality improvement program merits funding and support by your 
subcommittee.
            With best regards,
                                        Patrick T. Tyrrell,
                                            Wyoming State Engineer.
                                 ______
                                 
            Prepared Statement of the Swan Ecosystem Center
    Madam Chairwoman and honorable members of the committee: My name is 
Neil Meyer from the Swan Valley of Northwest, Montana. I am chairman of 
the nonprofit Swan Ecosystem Center. We thank you for the opportunity 
to testify in support of continued Federal investment in the Swan 
Valley conservation effort, specifically a fiscal year 2008 $8 million 
appropriation to the U.S. Forest Service from the Land and Water 
Conservation Fund (LWCF) and a $4 million appropriation to the State of 
Montana from the Forest Legacy Program (FLP).
    I've been a logger all my life. My wife and I have managed the 
timber on our land for over 50 years and we still have trees for the 
future. As a longtime resident of this place, myself and others have a 
deep concern for what is happening. This area has been rural forest-
based with woods jobs--logging, outfitting and small ranches. It is the 
best, most diverse, healthy wildlife and fish habitat in the State and 
probably the best tree-growing site. Bull trout and other endangered 
species in the Swan Valley have the best habitat in Montana. This 
provides for a diversity of plant species and the scenic and recreation 
opportunities are superb.
    Now the problem we face with land ownership issues: The valley 
floor is every other section industrial timber ownership, with the 
balance in State forest, national forest and small private ownership. 
The industrial forestland, some 80,000 acres, that has historically 
been managed for timber and open for public access is now being put on 
the market, a few sections at a time for real estate development. Such 
development means land clearing, private roads, houses, fences, and No 
Trespassing signs--the results being a big impact on wildlife and 
public access and added risk to streams and fisheries. These changes in 
forestland use not only reduce acreage under forest management but also 
constrain the management of adjacent forestlands.
    Swan Valley residents are being closed out of lands long cherished 
for hunting, fishing and huckleberry picking. Native wildlife species, 
such as grizzly bears, are increasingly at risk as second-home 
development encroaches on their habitat. State and county resources for 
roads and other services are stretched thin. Fire fighters are spending 
more time than they should protecting homes, due to new development, 
when they are needed to fight wildfires.
    People in the Swan Valley have been working effectively since 1999 
on a multi-partner effort that has resulted in considerable 
conservation success. Yet, much remains to be accomplished if the Swan 
Valley and Mission Mountains Wilderness are going to remain connected 
to the greater Bob Marshall Wilderness. Residents care deeply about 
this place and need help protecting it. As I look around this Swan Land 
it occurs to me that at sometime every one of us will leave this place. 
Shouldn't we leave it as good or better than it is today. Please read 
our written testimony and support this program.
    Swan Ecosystem Center (SEC) formed in 1996 as an inclusive 
501(c)(3) nonprofit community group in the Swan Valley of northwest 
Montana. Anyone who lives in the Swan Valley and participates is a 
member. Swan Ecosystem Center has an office and visitor center in the 
U.S. Forest Service Condon Work Center through a partnership with the 
Forest Service. SEC staff and volunteers with diverse backgrounds and 
opinions annually contribute over 6,000 hours each year, a substantial 
commitment from a community of about 900 people. According to surveys, 
most people in the Swan Valley want to protect forests, wildlife and 
public access. This request is an important component of our multi-
stakeholder strategy as indicated in the Swan Ecosystem Center Mission: 
We, citizens of the Upper Swan Valley, Montana, have a self-imposed 
sense of responsibility to maintain a strong, vital community, one 
involved in setting its own destiny through partnerships that encourage 
sustainable use and care of public and private land.
    The Swan Valley conservation effort is a cooperative venture among 
private landowner's, public land management agencies, public resource 
management agencies, the community, and non-governmental organizations. 
These groups are working to develop a multi-faceted, long-term 
conservation strategy that effectively protects the significant 
ecological and recreational resources of the Swan Valley, while 
promoting the sustainable management of the valley's forest resources. 
This process has included a science-based assessment of wildlife and 
fisheries resources, timber productivity, and recreational activities 
as well as considerable input from a broad base of Swan Valley 
residents. Conservation strategies include:
  --Land and Water Conservation Fund program to protect critical 
        habitat and public recreation opportunities through Forest 
        Service acquisitions.
  --Forest Legacy Program to protect working timberlands with multiple 
        resource values through conservation easements and limited 
        acquisitions by the State of Montana.
  --Residential land conservation easement program through local land 
        trusts.
  --Habitat Conservation Plan program and other mitigation programs to 
        protect core habitat for threatened or endangered species.
  --Special conservation areas to be managed by a nonprofit community 
        group with a broad representation of interests and backgrounds.
  --Private foundation funding and investment capital to further 
        conservation objectives.
    This year, 1,222 acres are available for acquisition through the 
Land and Water Conservation Fund to continue the conservation efforts 
in the Swan Valley. The parcels are located within grizzly bear habitat 
and are important for species recovery. Some parcels also contain 
stream reaches important for bull trout habitat and other native 
species, important habitat for elk and other big game, and/or 
recreation resources important to Montana residents and visitors alike. 
These acquisitions will prevent further fragmentation of forestland 
ownership and land uses, and improve coordinated land management 
through blocking up of public ownership in areas of checkerboard 
ownership.
    The Swan Forest Legacy Program conservation easements and 
acquisitions will promote a sustainable working forest in the Swan 
Valley in order to maintain the forest-based economy of the Valley by 
protecting the most productive forestlands from conversion to non-
forest uses. This year's proposal helps to protect access to public 
lands, maintain traditional outdoor recreation activities and conserve 
important wildlife and fisheries habitats. The proposal includes 
acquisition of 910 acres of Plum Creek lands within the Swan River 
State Forest checkerboard area, which would be conveyed to the State of 
Montana for on-going forest management.
    It should be noted that private investment and commitment to 
conservation in the Swan Valley plays a significant role alongside the 
public conservation efforts. There is growing recognition that the 
conservation resources of the area blanket much of the Swan Valley, 
regardless of land ownership boundaries and that effective resource 
protection requires a multi-faceted approach. The efforts of private 
landowners, the Swan Ecosystem Center, other organizations, and private 
foundations are all contributing toward successful implementation of 
the conservation strategy.
    The funding this committee has most generously provided for fee and 
easement acquisitions in the Swan Valley in previous fiscal years has 
reduced the checkerboard ownership pattern in the area, protected 
sensitive habitat and recreation lands from development, and protected 
forestlands from conversion to non-forest uses. We are extremely 
grateful for those past appropriations, and we ask you for your 
continued support as the committee considers the fiscal year 2008 
Interior and Related Agencies Appropriation bill. Please support the 
Swan Valley Conservation Effort. Thank you for the opportunity to 
present this request.
                                 ______
                                 
   Prepared Statement of the Teaming With Wildlife National Steering 
                               Committee
    On behalf of the Teaming with Wildlife National Steering Committee, 
we urge you to support funding in the amount of $85 million for the 
State Wildlife Grants Program in the fiscal year 2008 Interior, 
Environment, and Related Agencies Appropriations Act.
    Teaming with Wildlife is a coalition of more than 5,000 
organizations, agencies and businesses who support increased funding 
for state-level wildlife programs of conservation, education, and 
recreation aimed at keeping wildlife from becoming endangered. The 
Teaming with Wildlife coalition includes wildlife biologists, hunters 
and anglers, birdwatchers, hikers, visitors' bureaus, nature-based 
businesses and other conservationists who believe that working together 
to advance proactive wildlife conservation will save both wildlife and 
tax dollars over the long term.
    The State Wildlife Grants Program supports proactive on-the-ground 
conservation projects aimed at declining fish and wildlife species and 
their habitats. State Wildlife Grants is not just a grants program. It 
is the Nation's core program for preventing wildlife from becoming 
endangered in every state. As a coalition of conservation 
organizations, wildlife management professionals, outdoor enthusiasts, 
and other supporters of wildlife conservation we have seen the tangible 
benefits of these projects in the communities where we live and work. 
Now, in response to a charge from Congress, the state wildlife agencies 
and their many conservation partners have worked together to complete 
Wildlife Action Plans for every state and territory. These plans were 
all officially approved by the U.S. Fish and Wildlife Service in 
January 2007. Organizations like ours and the State wildlife agencies 
we work with are eager to take the next step and begin implementation, 
but we are counting on funding from the State Wildlife Grants Program 
to help us put these plans into action. It is the only funding 
nationwide that is dedicated for this purpose.
    We understand the difficult decisions you have to make during this 
time of tight budgets. Now more than ever, Congress should be focusing 
limited resources on this kind of smart, proactive conservation 
investment. Experience shows that efforts to restore imperiled wildlife 
are difficult and costly. State Wildlife Grants enable States to be 
proactive and avert such conservation catastrophes, concurrently saving 
wildlife and taxpayer dollars, and improving our quality of life by 
conserving wildlife for the benefit of millions of Americans. The 
program also leverages significant funding from private, State, and 
local sources to magnify the impact of Federal dollars.
    We are very pleased that the President has recognized the 
significance of this program and supported an increase above fiscal 
year 2007's enacted level of $67.5 million. A funding level of $85 
million would help bring this program back up to the highest level of 
funding it has ever received, in fiscal year 2002, and would send an 
important message about the Congress's commitment to following through 
on providing the support needed to implement the state wildlife action 
plans. By restoring funding to this program at this critical juncture 
in the program, the Congress would help protect the foundation of the 
investment it has made in this program to date. We are pleased that at 
least 58 have already formally signed on to this commitment in the form 
of a ``dear colleague'' and we hope you will match that strong 
demonstration of support.
    Additionally, the President's budget proposes that $5 million of 
the new funds recommended for State Wildlife Grants be set aside for a 
new competitive grants program. The Teaming with Wildlife Steeling 
Committee strongly believes that it would not be an effective use of 
taxpayer dollars to carve out a new program at current funding levels. 
The strength of the State Wildlife Grants Program has been the boost it 
has provided to the capacity of every State to address wildlife 
conservation. However, considerable work remains to be done at current 
funding levels. Injecting a competitive program in the current context 
would serve primarily to reward states that already have high-capacity 
conservation programs and punish those that are still developing. 
Allocating funds in this manner would aggravate disparities rather than 
advance the national interest in keeping wildlife from becoming 
endangered. We recommend that the Congress hold off on carving out any 
kind of competitive program until funding for State Wildlife Grants has 
reached the stable, increased levels that were outlined when the 
program was created.
    We are very grateful for your leadership in funding this program 
over the last several years. You have helped make this program and its 
emphasis on preventive conservation a priority for the U.S. Fish and 
Wildlife Service. Although the budget is tight, we look forward to the 
U.S. Congress continuing to provide reliable and adequate funding to 
ensure the continued success of the State Wildlife Grants Program.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Theatre Communications Group--the national service organization for 
the American theatre--is grateful for this opportunity to submit 
testimony on behalf of our 445 not-for-profit member theatres across 
the country and the 32.5 million audience members that the theatre 
community serves. We urge the subcommittee to support an increased 
appropriation of $176 million for the National Endowment for the Arts.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs and attracts tourism dollars. The not-for-profit 
arts generate $134 billion annually in economic activity, support 4.85 
million jobs and return $10.5 billion in Federal income taxes. Art 
museums, exhibits and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding of the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In a difficult economy where corporate 
donations and foundation grants are diminished, and increased ticket 
prices would undermine efforts to broaden and diversify audiences, 
these Federal funds simply cannot be replaced. Maintaining the strength 
of the not-for-profit sector, along with the commercial sector, will be 
vital to restoring the economic health of our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.
    Here are some examples of NEA funding impact:
          from the nea's access to artistic excellence program
    Through a grant of $30,000, Perseverance Theatre in Douglas, AK, 
will present the world premiere production of The Raven Odyssey. The 
project will weave together folkloric Raven stories to create a 
contemporary pan-Alaskan celebration of the State's history and 
indigenous cultures. Combining traditional song and dance, and gathered 
through interviews with Elders and storytellers, this theatrical 
retelling brings together Alutiiq, Athabascan, Haida, Inupiaq, Siberian 
Yup'ik, Tlingit and Yup'ik performers from around the State.
    The Idaho Shakespeare Festival in Boise, ID, has received a $25,000 
grant to support its educational touring programs. The annual tour of 
Idaho Theater for Youth will bring 50-minute contemporary plays to 
elementary schoolchildren, and the Shakespearience program will bring 
fully staged Shakespeare productions to middle and high school 
students. The Festival annually reaches over 50,000 school-age 
children, particularly those in rural and underserved communities, and 
integrates theatre arts programming into the curricula of approximately 
95 percent of the school districts in Idaho as well as to parts of 
Oregon, Wyoming and Nevada.
    The National Endowment for the Arts has been a major contributor to 
Greenbrier Valley Theatre. NEA funding has enabled the theatre to 
further its arts educational outreach programs into the State of West 
Virginia, in addition to enriching the experience of the 15,000 patrons 
that are served yearly. Most recently the Access to Artistic Excellence 
Award (2006) afforded Greenbrier the ability to produce The Diary of 
Anne Frank for 3,000 middle and high school students in State of West 
Virginia. This project encompassed a multi-disciplinary approach to 
history, theatre, literature and current events to students, many of 
whom have never attended a theatrical event. Greenbrier is grateful to 
the NEA for the financial assistance and the prestige that accompanies 
an award from such an important agency.
    Support from the NEA is allowing California Shakespeare Theater to 
realize an immediate and revelatory production of Shakespeare's King 
Lear and to expand and deepen their relationships with community-based 
organizations serving at-risk youth in Oakland and San Francisco as 
part of their New Works/New Communities program. Targeted Oakland 
participants are primarily low-income, African American and Latino 
youth, hailing from neighborhoods suffering from high rates of 
unemployment and violent crime, lack of services, and low-scoring 
public schools. San Francisco youth partners are at-risk gay, lesbian, 
transgender, and questioning teens, whose sense of isolation, fear of 
discovery, and experiences with verbal and physical harassment have led 
to high risk behavior. Cal Shakes will engage 280 of these youth in 
discovering and creating short plays inspired by King Lear, then host a 
culminating event at the Theater. At this event, professional actors 
will present these original plays written by participating youth, whose 
unique voices will be affirmed before an audience of their peers, adult 
mentors, and Cal Shakes patrons. This reading will be followed by a 
picnic lunch and a matinee performance of King Lear on the main stage. 
California Shakespeare's target population for the full run of King 
Lear includes 5,000 subscribers, and 4,500 single and group ticket 
buyers, including 1,000 patrons developed through the New Generations 
program, which targets 18 to 35 year-olds. Funding from the NEA is 
vital to achieving their goals of stimulating individual creative 
expression, giving voice to the experience and perspective of 
marginalized communities, and developing the academic engagement and 
performance of participants. The impact that this process will have on 
youth in seeing their work performed by professional actors, is 
expected to boost their confidence in their own unique voices and their 
investment in creative pursuits.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theater Program is able to fund only 40 percent of the 
applications it receives, so 60 percent of the theatres are turned away 
because there aren't sufficient funds. Theatre Communications Group 
urges you to support increased funding for fiscal year 2008 for the 
NEA, so that more not-for-profit professional arts organizations can 
continue to educate and entertain audiences, train the next generation 
of artists, and generate local revenue nationwide.
    The American public favors spending Federal tax dollars in support 
of the arts. Today, Federal arts funding enjoys solid bipartisan 
support in the House and Senate. Unfortunately, the NEA is funded at 
only $124 million in the present fiscal year (fiscal year 2007); it has 
never recovered from a 40 percent budget cut in fiscal year 1996 and 
its programs are seriously under-funded. It has had only small 
incremental increases in the past 6 years. A total appropriation of 
$176 million for fiscal year 2008 would represent an increase of $52 
million, restoring the agency to its 1992 level of $176 million, which 
was then equal to 69 cents per capita. In 2007, 15 years later, the 
Federal Government spends only 41 cents per capita. If adjusted for 
inflation, this per capita spending cut would be even deeper.
    Thank you for considering this request.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society appreciates the opportunity to provide 
comments on the proposed fiscal year 2008 budget for the Department of 
Interior, Environment, and Related Agencies. The Wildlife Society is 
the association of over 7,500 professional wildlife biologists and 
managers dedicated to excellence in wildlife stewardship through 
science and education.
                     u.s. fish and wildlife service
    Funding assistance for State wildlife agencies is one of the 
highest priority needs for wildlife at this time, providing essential 
resources to conserve wildlife, fish, and habitat, and to prevent 
further declines in at-risk wildlife populations in every State. We 
appreciate the administration's recognition of the importance of the 
State Wildlife Grants Program through the $69.5 million request, but we 
strongly encourage even greater funding to achieve species 
conservation. States have recently completed their comprehensive 
wildlife conservation plans as mandated by Congress. These Wildlife 
Action Plans detail each State's species of greatest concern, their 
related habitats, limitations, and related needed conservation actions. 
With the completion of all 56 State and territorial Wildlife Action 
Plans, it is critical this program receive increased funding to assist 
States with the implementation of on-the-ground actions associated with 
the plans. We recommend that $85 million be appropriated for State 
Wildlife Grants in fiscal year 2008.
    Federal programs, such as the State Wildlife Grants and the 
Partners for Fish and Wildlife Programs provide key support for 
Wildlife Action Plan implementation but equally critical is the 
Landowner Incentive Program, which acts in a unique way to bring a 
source of funds to landowners from the States. TWS urges you to fund 
the Landowner Incentive Program at the fiscal year 2006 level of $21.7 
million. This program is both an essential tool for wildlife 
conservation and a cost-saving mechanism that institutes actions on the 
ground that prevent wildlife species from becoming threatened or 
endangered. Funds invested in LIP today mean potential savings of 
millions in the future, by preventing species from declining to a point 
that requires listing under the Endangered Species Act. Maintaining 
funding for LIP is essential to sustaining the investment in delivery 
infrastructure already in place at State agencies, as well as 
supporting participation by private landowners in cooperative 
conservation.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. We are pleased by the administration's support of this 
program through its $42 million request, but recommend that you 
appropriate $50 million for the North American Wetlands Conservation 
Fund in fiscal year 2008.
    The Neotropical Migratory Bird Conservation Act provides a broad-
spectrum approach to bird conservation. The Wildlife Society recommends 
that Congress fund the Neotropical Migratory Bird Conservation Act at 
its full authorization of $5.5 million in fiscal year 2008.
    We are pleased by the $29.52 million request for Migratory Bird 
Management in fiscal year 2008, especially since public interest in 
migratory birds and the need for migratory bird management are 
increasing, and support funding at the recommended level.
    Over the last several years, the Cooperative Alliance for Refuge 
Enhancement (CARE), a broad coalition of 21 conservation organizations, 
including The Wildlife Society, has worked cooperatively with Congress 
and the administration to highlight the needs of the National Wildlife 
Refuge System and secure strong investments in this remarkable network 
of lands and waters. We are grateful for the budget increases that 
Congress provided the Refuge System leading up to its 100th 
anniversary, and seek your support as Congress considers fiscal year 
2008. The backlog in operations and maintenance needs within the Refuge 
System budget now total more than $2.5 billion. Several years of 
stagnant or declining budgets have also exacerbated the operations and 
maintenance backlog, and forced a dramatic 20 percent cut in staff 
across the Nation. The FWS stopped filling vacant positions in the 
Refuge System after its centennial in 2003, in recognition that funding 
was not keeping pace with cost of living increases and inflation. The 
reduction in staff has already impacted the day-to-day services and 
achievements of the national wildlife refuge system. Refuge visitors 
often find roads and visitor centers closed, biological and education 
programs eliminated and a reduced or non-existent law enforcement 
presence.
    Congress provided modest but significant funding increases leading 
up to the Refuge System's centennial in fiscal year 2004. Since then, 
however, annual appropriations have consistently failed to keep pace 
with ever-increasing fixed costs and inflation. Based on an analysis of 
rising fixed costs, the Refuge System needs an annual $15 million 
increase just to break even each year. Simply put, to keep the modest 
fiscal year 2004 budget on pace with inflationary costs, the Refuge 
System needs $451.5 million for its operations and maintenance accounts 
for fiscal year 2008.
    The Wildlife Society supports maintaining the funding levels for 
all subactivities within the Endangered Species Program, and is 
especially concerned with the proposed reduction of $5.5 million from 
fiscal year 2006 for the Recovery Program. Endangered species recovery 
efforts can ultimately lead to delisting actions that result in 
significant benefits to species through State management efforts. We 
recommend that Congress restore the $5.5 million to the Endangered 
Species Program for use in recovery efforts.
    The Wildlife Society is very disappointed that funding for the 
Science Excellence Initiative has been discontinued. The $493,000 
reduction will prevent the Office of the Science Advisor from expanding 
the Service's on-the-ground scientific capacity in adaptive resource 
management (ARM), structured decision analysis, and conservation 
genetics. These key programs have allowed FWS to partner with USGS in 
the application of ARM principles and practices on National Wildlife 
Refuges in Regions 3 and 5, improving refuge planning and management; 
to ensure that FWS employees in the field have access to the expertise 
and assistance they need to make more frequent use of the principles 
and practices of ARM in managing natural resources; to apply structured 
decision analysis principles and practices in documenting, explaining 
and defending its decisions more thoroughly and more effectively; and 
to focus on expanding the Service's capacity in conservation genetics. 
We are concerned that the elimination of these programs will reduce the 
Service's capacities in these key areas and prevent the expansion of 
these programs to other regions of the Service. The Wildlife Society 
strongly recommends that Congress reinstate the proposed reduction and 
fund the Science Excellence Initiative at $493,000 in fiscal year 2008.
                       bureau of land management
    The proposed fiscal year 2008 budget for BLM's Wildlife Management 
program is $28.347 million, a $181,000 increase over fiscal year 2006. 
This will allow BLM to maintain and restore wildlife and habitat by 
conserving and monitoring habitat conditions, conduct inventories of 
wildlife resources, and develop cooperative management plans. However, 
in light of the many wildlife management needs on our public lands, The 
Wildlife Society urges Congress to increase the Wildlife Management 
budget by an additional $3 million to meet ongoing needs.
    The President has requested a $740,000 increase in BLM's Threatened 
and Endangered Species Management Program from fiscal year 2006 levels. 
However, this request ignores the Agency's March 2001 Report to 
Congress which called for a doubling of the current Threatened and 
Endangered Species budget to $48 million and an additional 70 staff 
positions over 5 years. The fiscal year 2008 request is woefully 
inadequate to meet identified needs or allow the BLM to carry out its 
important responsibilities under the ESA. In view of this gross 
inequity between resource needs versus funding levels, The Wildlife 
Society strongly encourages Congress to add an additional $5 million to 
the Threatened and Endangered Species fiscal year 2008 budget.
          u.s. geological survey biological resources division
    As a member of the USGS Coalition, The Wildlife Society supports 
$1.2 billion in funding for USGS in fiscal year 2008. This level of 
support would enable USGS to meet new challenges while continuing to 
provide essential data for land-use management, sustainable natural 
resource development, economic growth, and enhanced security from 
natural and manmade hazards. More investment is needed to strengthen 
USGS partnerships, improve monitoring networks, produce high-quality 
digital geospatial data and deliver the best possible science to 
address critical environmental and societal challenges.
    We also request sufficient fiscal year 2008 funding to make greater 
use of the U.S. Geological Survey's Cooperative Fish and Wildlife 
Research Units (CFWRU) in this Nation's pressing natural resource 
challenges. To begin meeting the CFWRU's high priority research and 
training needs in fiscal year 2008, we ask that you request 
establishment of a competitive, matching fund program within existing 
CFWRU legislative authority that would make available $20 million 
annually in new funds beyond base operational costs. These new funds 
would support future cooperative, high priority research efforts and 
essential training of new natural resource professionals to replace the 
large number who will retire within the next decade.
    In order to fill current scientist vacancies, restore seriously 
eroded operational funds for each CFWRU, and enhance national program 
coordination, the fiscal year 2008 budget for the CFWRUs must increase 
by approximately $5 million over the recommended fiscal year 2007 
funding level. This support would restore necessary capacity in the 
CFWRU program and allow it to meet the Nation's research and training 
needs. It would also ensure that the Interior Department provides the 
Federal scientist scientific staffing agreed to with partners, so that 
the return on their continuing investment in the CFWRUs is realized and 
fully leveraged. Without an infusion of funds, one quarter of all CFWRU 
scientist positions (29) will be vacant by the end of fiscal year 2008.
                          u.s. forest service
    The Wildlife Society is deeply concerned that the President's 
budget proposes a $14 million decrease from fiscal year 2006 for the 
Wildlife and Fisheries Habitat Management Program. We urge Congress to 
restore $17 million, for a total of $135 million in fiscal year 2008. 
The Wildlife Society requests that the USFS closely coordinate use of 
these funds with State fish and wildlife agencies to recognize and 
fully utilize the State's authorities for fish and wildlife management. 
To maximize benefits from these funds, however, the USFS needs to 
facilitate cooperative design and conduct of programs and activities to 
reduce duplication with State programs and to increase utility of 
programs in achieving measurable land and resource objectives.
    The Wildlife Society is very concerned about the Forest Service's 
proposal to sell about 175,000 acres of National Forest System lands 
around the Nation for a total of $800 million, through the National 
Forest Land Adjustment for Rural Communities Act. The National Forest 
System lands provide valuable habitat for our Nation's wildlife, as 
well as research and recreational opportunities for our members and 
others. The proposal to sell 175,000 acres of public land to raise 
funds for rural schools is shortsighted and unwise. While we understand 
the need to find alternate funding for rural schools in light of 
decreasing timber revenue, the best way to meet these needs is not by 
permanent reduction of the Federal land base. The land targeted for 
sale provides important habitat for wildlife and is necessary to 
maintain healthy and productive terrestrial and aquatic ecosystems on 
our Federal lands. We understand that land exchanges, and in some cases 
sales, can serve important management purposes, where they are 
carefully planned and analyzed. However, we see a clear distinction 
between decisions made to exchange land and thereby improve available 
habitat and the current proposal to permanently reduce the Federal land 
base for short-term profits.
    Thank you for considering the comments of wildlife professionals. 
We are available to work with you and your staff throughout the 
appropriations process.
                                 ______
                                 
              Prepared Statement of The Wilderness Society
    Madam Chairman, The Wilderness Society (TWS) would like to thank 
you for the opportunity to provide recommendations and comments on the 
fiscal year 2008 Department of the Interior and Related Agencies 
Appropriations bill. On behalf of the more than 250,000 members and 
supporters of TWS, a 70-year-old organization dedicated to preserving 
America's last remaining wild places, I provide below our fiscal year 
2008 funding recommendations for a number of important conservation 
programs. Adequate funding for the programs discussed below is vital to 
protect America's wild areas and environmental values.
    Land and Water Conservation Fund.--The Land and Water Conservation 
Fund (LWCF) is our Nation's premiere tool to create and preserve parks, 
forests, wildlife refuges and open space. Unfortunately, the 
administration's proposed fiscal year 2008 budget provides only $58 
million for LWCF's core programs--funding Federal land acquisition at 
$22.5 million and eliminating the stateside assistance grants 
completely. National treasures from the Santa Rosa and San Jacinto 
Mountains National Monument and Long Island near the Boundary Waters 
Canoe Area Wilderness to our neighborhood parks will suffer unless 
funding is increased for the LWCF program.
    We urge the subcommittee to provide $220 million for Federal land 
acquisition and $100 million for stateside assistance grants in fiscal 
year 2008, and to make a commitment to fully fund these programs at the 
authorized level of $900 million annually in the coming years. Funding 
in the President's Budget for National Park Service, Fish and Wildlife 
Service, Bureau of Land Management and U.S. Forest Service land 
acquisition is cut from a proposed $130 million in fiscal year 2006 to 
$58 million proposed for fiscal year 2008. Americans have long relied 
on Federal land acquisition to protect and complete its parks, forests 
and refuges. The administration's cuts would result in degraded lands 
and fewer recreation experiences.
    We recommend LWCF Federal land acquisition funding for 49 priority 
projects for fiscal year 2008, listed in Appendix A. Federal 
acquisition of these lands is necessary to avert immediate and 
permanent environmental damage, and to protect and restore wildlands of 
significance (e.g. those with rare ecosystems, endangered species, and/
or other special qualities).
    Forest Legacy.--We urge the subcommittee to allocate $100 million 
for the Forest Legacy program. The Forest Legacy program is a popular 
and effective means to combat the conversion of privately-owned 
timberlands to development. According to the recent USDA Forest Service 
report, ``Forests on the edge,'' over 40 million acres of private 
forestlands are likely to be developed in the next three decades, 
threatening critical water and other ecological resources. In fiscal 
year 2008, 41 States submitted 82 projects totaling $192 million in 
need from Forest Legacy. Despite these enormous needs, the President's 
budget proposed only $29 million for 14 projects, leaving many forests 
at risk. Funding to the Forest Legacy program must rise to respond to 
these increasing development pressures and better meet demand from 
participating States.
    Fish and Wildlife Service.--National wildlife refuges throughout 
the country face a crippling $2.5 billion budget backlog. A 
restructuring of the Refuge System workforce cut national staffing 
levels 20 percent and eliminated 565 essential employees. Nearly $800 
million annually is needed to fully fund the Refuge System, but for 
fiscal year 2008 President Bush requested a mere $396 million. This 
amount fails to factor-in inflation costs and falls $55 million short 
of the amount needed to keep pace with current needs. As a step toward 
full funding of the Refuge System, we urge the subcommittee to 
appropriate $451.5 for fiscal year 2008.
    National Park Service.--We support increased funding for operations 
of the National Park System at $206 million over the enacted fiscal 
year 2007 funding level. Investing in interpretation, enforcement, and 
natural resource protection staff is critical in order for the agency 
to provide visitors with safe, enjoyable, and educational experiences 
in the park system. We continue to have serious concerns about the 
growing backlog on critical systems deferred maintenance which has 
reached over $1 billion according to the agency as well as a 
significant back log for land acquisition needs. A crumbling 
infrastructure will only get worse over time. We strongly recommend a 
larger investment in the maintenance backlog than the administration's 
proposal.
    Forest Service Open Space Preservation.--The Forest Service has 
identified the loss of open space as one of the four major threats to 
forests across our Nation. The United States loses approximately 6,000 
acres of open spaces and forests every day (the equivalent of 240 
football fields per hour). These are fish and wildlife habitats, the 
sources of clean water, and places where Americans recreate. In 
addition to funding programs like Forest Legacy and LWCF, which aid in 
the acquisition and protection of open spaces, other programs within 
the Forest Service also aid in protecting our open spaces and require 
funding adjustments. We urge that the Wildlife and Fisheries Habitat 
Management program receive $160 million, Recreation, Heritage, & 
Wilderness program receive $64 million for Wilderness and Wild & Scenic 
Rivers, Road Maintenance be increased to $500 million to address the 
maintenance backlog and to decommission roads that cannot be 
sustainably maintained, and Urban and Community Forestry receive at 
least the fiscal year 2003 funding level of $36 million. Reducing 
timber funding levels to the fiscal year 2000 level of $237 million and 
reducing the construction and reconstruction funding for new logging 
roads would also prevent the degradation of wildlife habitat, soils, 
streams and recreation sites and aid in the protection of open spaces.
    Forest Service Wildfire Management.--The Wilderness Society 
believes there are two key actions that can address the escalating cost 
of suppressing wildland fires: expanding Wildland Fire Use (WFU) and 
increasing funding for the community fire assistance program. We urge 
Congress to provide increased resources specifically for WFU training 
and staffing and increase funding for State Fire Assistance to $145 
million to meet projected needs for local communities throughout the 
country.
    BLM's Oil and Gas Program.--We support the administration's 
proposal to repeal provisions of Sec. 365 of the Energy Policy Act of 
2005 and the $3.1 million request for inspection and monitoring. 
However, any allocations for this purpose should be accompanied by a 
clear directive that such funds be used solely for inspection and 
enforce activities, and not be diverted to other uses, such as 
processing drilling permit applications, as has been the case in recent 
years.
    The BLM's oil and gas program budget has ballooned from $57.8 
million in fiscal year 2000 to a record $121.2 million request for 
fiscal year 2008, a more than doubling in appropriations for this 
program during a period when overall appropriations for the BLM's 
conservation programs have either stagnated or declined. Despite the 
fact that about 24 million acres of leased public lands are idle, the 
BLM continues to issue new leases to industry on demand, often in 
environmentally sensitive areas, some of which have been proposed by 
Members of Congress for Wilderness designation. We recommend that this 
overall request be reduced by $15 million and the savings be used to 
cover other BLM programs that are badly in need of funding, such as the 
National Landscape Conservation System and the ``Healthy Lands 
Initiative.''
    The committee should demand from the BLM more information about the 
``Healthy Lands Initiative''--for example, how much money will be spent 
on what activities over how long a period of time. Since a major 
rationale for the ``Healthy Lands Initiative'' is to address the damage 
that has occurred to public lands as a result of oil and gas 
activities, the committee should insist on precise information from the 
BLM about what the industry's responsibilities are for preventing 
damage to wildlife, fisheries, and other environmental values, and to 
what extent the industry will be held responsible for financing the 
clean-up and restoration efforts that are needed. Sufficient funds 
should also be allocated to the National Academy of Sciences to 
complete the coal bed methane water study authorized in sec. 1811 of 
the Energy Policy Act, but which heretofore the BLM has refused to 
fund.
    Oil Shale.--We urge the committee to adopt language to prohibit the 
BLM from developing a commercial oil shale lease program in fiscal year 
2008. The BLM has recently issued a number of research and development 
oil shale leases however, the results of this program will not be known 
for several years. Nevertheless, the BLM intends to finalize commercial 
oil shale regulations by the end of this year, and issue commercial 
leases by the end of calendar year 2008. The BLM should await the 
results of the R&D programs of its various lessees, take into account 
the results of that program, incorporate the relevant knowledge into 
its regulatory program, and only then decide whether it is prudent to 
offer commercial oil shale leases.
    BLM and Forest Service Land Sales.--The administration has once 
again proposed to sell BLM and Forest Service lands for ``deficit 
reduction'' and other purposes. This proposal is virtually identical to 
the administration's proposal last year, which was not accepted by the 
committee. We urge the subcommittee to reject this proposal again this 
year.
    National Landscape Conservation System.--We urge the committee to 
provide $69 million in fiscal year 2008 for operations and maintenance, 
to conserve the unique National Monuments, National Trails, and other 
areas that comprise the 26 million acre System. This modest increase in 
funding will help address priority unmet needs including additional 
rangers, investments in monitoring and restoration, cultural site 
protection, and volunteer program support. We also ask the committee to 
support member requests for Conservation System units in their 
districts. To promote accountability, we urge the committee to request 
expenditure and accomplishment reports for each of the System's 
Monuments and Conservation Areas for fiscal year 2007 and inclusion of 
unit-level allocations by major sub-activities for all System units but 
Wilderness and Wilderness Study Areas (WSAs). These unit-level 
allocations should be combined with Wilderness and WSAs under a new 
System activity account.

    TABLE A.--RECOMMENDED FEDERAL LWCF PROJECTS FOR FISCAL YEAR 2008
------------------------------------------------------------------------
State                     Project name                        Amount
------------------------------------------------------------------------
   AL Alabama National Forests                              $1,800,000
   AR Ouachita National Forest                               1,500,000
   AZ San Pedro National Conservation Area (rail-              500,000
       trail)
   CA Sierra Nevada Checkerboard                                 2,500
   CA Santa Rosa and San Jacinto Mountains National          4,200,000
       Monument
   CO Uncompahgre National Forest (Ophir Valley)             2,500,000
   CO Gunnison Gorge National Conservation Area                856,000
   CO Canyons of the Ancients National Monument              7,000,000
   CT Stewart McKinney National Wildlife Refuge                710,000
       (Menunketesuck)
   CT Highlands Conservation Act                             2,500,000
   CT Silvio Conte National Fish & Wildlife Refuge           3,250,000
   GA Chattacchoochee River National Recreation Area         5,000,000
       (Hyde Farm NPS portion of project)
   GA Chattahoochee-Oconee National Forests--Riparian        4,000,000
       Project (USFS portion of project)
   KY Cumberland Gap National Historic Park (Fern            1,900,000
       Lake)
   LA Bayou Savage National Wildlife Refuge                  3,000,000
       (Brazilier)
   LA Tensas National Wildlife Refuge (Chicago Mill)           500,000
   MA Cape Cod NS                                            4,000,000
   MA Silvio Conte National Fish & Wildlife Refuge           4,000,000
   ME White Mountain National Forest (Haystock Notch)          550,000
   MI Ottawa National Forest (Sturgeon River Gorge)          4,000,000
   MN Superior National Forest (Long Island)                 1,500,000
   MT Flathead National Forest                               8,000,000
   MT Greater Yellowstone Ecosystem (Sun Ranch)              4,500,000
   NC Uwharrie National Scenic Trail                           800,000
   NC Appalachian National Scenic Recreation Trail,            270,000
   NH Lake Umbagog National Wildlife Refuge                  1,000,000
       (Mollidgewock)
   NH Silvio Conte National Fish & Wildlife Refuge           1,230,000
   NJ E.B. Forsythe National Wildlife Refuge                 1,375,000
   NJ Delaware Water Gap (Minisink Bluffs)                   1,200,000
   NJ Highlands Conservation Act                             2,500,000
   NM La Cienega ACEC                                        3,000,000
   NY Highlands Conservation Act                             2,500,000
   OH Cuyahoga National Park                                 8,000,000
   OR Rogue WSR (Winkle Bar)                                 1,500,000
   OR Cascade Siskiyou National Monument                     1,800,000
   OR Steens Mountain Cooperative Management and             1,800,000
       Protection Area
   PA Delaware Water Gap (Santos Farm)                       4,000,000
   PA Highlands Conservation Act                             2,500,000
   TN Rocky Fork                                             7,000,000
   TN Chickamauga Chattanooga NMP                            2,200,000
   TN Appalachian National Scenic Recreation Trail,            500,000
   TX Balcones Canyonlands National Wildlife Refuge            275,000
   TX San Bernard NWR                                        3,000,000
   VI Virgin Islands National Park (Maho)                    4,500,000
   VT Silvio Conte National Fish & Wildlife Refuge             261,000
   VT Green Mountain National Forest                         2,883,000
   WA Mt. Ranier (Carbon River)                              1,500,000
   WA Central Cascades (Dandy Pass)                          1,925,000
   WI Chequamegon National Forest                            6,200,000
                                                       -----------------
            Total                                          129,487,500
------------------------------------------------------------------------

                                 ______
                                 
              Prepared Statement of The Wilderness Society
    The Wilderness Society (TWS) appreciates this opportunity to 
provide recommendations and comments on the fiscal year 2008 
appropriations for wildfire management (at both the Department of the 
Interior and the U.S. Forest Service) in the Department of the Interior 
and Related Agencies Appropriations bill. There are four areas in which 
we would like to provide recommendations or convey concerns: (1) 
Wildland Fire Use (WFU), (2) insufficient funding for State and Local 
Assistance programs, (3) hazardous fuels treatments, and (4) 
suppression funding.
                        wildland fire use (wfu)
    The default response to most fires, even those burning in remote 
areas, has been to fight them; contributing to $1 billion in 
suppression costs in four of the last seven fire seasons. Ironically, 
the resulting absence of fire has lead to unnaturally dense vegetation 
in many areas, resulting in more intense fires that require more 
aggressive attack. Fire spending has already eroded other agency 
programs--like improving fish and wildlife habitat, managing 
wilderness, and providing needed assistance to States. In fact, funding 
for non-fire Forest Service programs decreased 14 percent between 
fiscal year 2002 and fiscal year 2006 (adjusted for inflation). Fire 
costs now threaten to totally eclipse the agencies' other mission 
areas. The Forest Service's (USFS) wildland fire costs increased from 
13 percent of their budget in fiscal year 1991 to a staggering 45 
percent projected in fiscal year 2008, and experts are predicting that 
global climate change will only lengthen the fire season. It's clear 
that something needs to change--a mandate for restoration is needed. To 
put us on a path towards restoration, fire must be returned to the 
landscape, where safe and where appropriate. A tool that land managers 
can use to accomplish this is WFU, the practice of actively managing 
naturally-ignited fires in designated sections of forests to accomplish 
resource management goals.
    WFU is widely accepted by scientists and practitioners alike as an 
important tool to help restore forests, and reduce fire suppression 
costs. For example, in 2006 the Sequoia National Monument completed a 
9,000 acre WFU fire in the South Sierra Wilderness for only $149 an 
acre. The USDA IG recently recommended that the Forest Service expand 
its WFU program and other policy initiatives, including the National 
Fire Plan (NFP), the 10-year Strategy, and the Healthy Forests 
Restoration Act (HFRA), have endorsed the use of fire to improve 
ecosystem health. The Forest Service's fiscal year 2008 budget proposes 
some important shifts in the way fire is managed, introducing the 
concept of a ``risk-based fire suppression approach'' that acknowledges 
that wildland fires should be managed according to the risk they pose. 
TWS supports this shift in wildland fire management. However, we 
recognize that while these are promising changes, institutional shifts 
like this one require resources and the right incentives to be 
successful and measurable milestones to mark progress. Currently, the 
agencies have inadequate funding and staffing to expand WFU, and 
internal policies act as disincentives. It is critical that Congress 
engage to both increase opportunities for the application of WFU as 
well as provide the additional resources necessary to capitalize on 
these opportunities. As such, we recommend that the subcommittee: (1) 
designate funding from the suppression or preparedness line items to 
increase training and staffing for WFU at DOI and USFS; (2) direct the 
agencies to make fire policy changes that allow a wildland fire to be 
managed for both suppression and WFU and that allow the agencies to 
``get credit'' for hazardous fuels treated using WFU; (3) direct the 
agencies to develop performance measures for WFU; (4) direct the 
agencies to recognize that WFU, not suppression, should be the 
``default'' fire management action, with the land management plan and/
or Fire Management Plan designating specific areas (like near 
communities) where WFU is not appropriate; (5) use the fiscal year 2008 
Interior Appropriations bill to strongly endorse WFU.
                       state and local assistance
    To successfully reduce suppression costs and restore forests, we 
must approach fire management on the terms dictated by fire itself--
across ownership boundaries. Significant investments must be made in 
cross-jurisdictional management. In 2001, the USFS and the Department 
of the Interior identified over 11,000 communities adjacent to Federal 
lands that are at risk from wildland fire; State Foresters estimate at 
least 45,000 communities at risk. TWS research has shown that up to 85 
percent of the land around communities that is at the highest risk for 
wildfires is State or private. State and Local Assistance programs have 
been designed to help promote fire-adapted communities in fire-
dependent landscapes, but funding for these programs has been minimal 
and continues to decline--the fiscal year 2008 budget proposes a 17 
percent reduction in community fire funding. In fact, total funding 
dedicated to forest and fire management activities by non-Federal 
partners \1\ amounts to less than 10 percent of the $14 billion 
appropriated to the NFP in the last 5 years. One of the most important 
community assistance programs is State Fire Assistance (SFA). It is a 
key part of a long-term strategy to reduce suppression costs because it 
funds proactive fire risk reduction activities, fire prevention 
campaigns, public education, and most critically, Community Wildfire 
Protection Planning (CWPP). This program has significant and wide-
ranging support; TWS has joined with over 40 diverse groups, ranging 
from the Society of American Foresters to the Idaho Conservation 
League, to ask for increased and sustained funding for SFA. 
Unfortunately, the President's fiscal year 2008 Budget proposes 
reducing the already woefully underfunded State Fire Assistance program 
by 14 percent (from $78.7 million to $68.1 million). The National 
Association of State Foresters estimates fiscal year 2008 SFA funding 
needs at a minimum of $145 million--the program's fiscal year 2008 
proposed budget is less than half that. We appreciate that the 
subcommittee has consistently provided stable SFA appropriations 
responsive to on-the-ground realities. We again request your leadership 
to restore and enhance SFA funding. TWS recommends no less than 20 
percent of the 5-year average of NFP appropriations be allocated to 
State and Local Assistance Programs generally, and 50 percent of that 
be targeted specifically to SFA, through a steady increase over 3 
years. The first year should reflect an 80 percent increase above the 
historical average for SFA, resulting in a $144 million appropriation 
that would meet the State Forester's projected 2008 needs.
---------------------------------------------------------------------------
    \1\ Specifically Forest Health Management (Coop Lands), State Fire 
Assistance and Volunteer Fire Assistance under Wildland Fire Management 
and Forest Health Management (Coop Lands), State Fire Assistance and 
Volunteer Fire Assistance under State and Private Forestry 
Appropriations, as well as other State and Private Forestry programs 
that assist communities in managing forests, including the Economic 
Action Program, Forest Stewardship, Urban & Community Forestry and 
Forest Research & Information Analysis (except Forest Legacy) Data 
source: USFS Budget Justifications 2005, 2006, 2007, and 2008.
---------------------------------------------------------------------------
    For restoration to be successful and suppression costs reduced, the 
agencies also need programs that deliver technical assistance, business 
training, and grants to build restoration-based businesses and 
community capacity to participate in collaboration, planning and 
monitoring. The Forest Service's Economic Action Programs (EAP) 
provided this assistance, served as leverage for additional private 
dollars, and was another critical Federal funding source for CWPPs. TWS 
supports Chairman Rahall's recommendation that funding for this program 
be restored and increased to $52.6 million, with $40 million for the 
base program and $12.6 million for the NFP portion.
    TWS also recommends that funding for the BLM's Rural Fire 
Assistance program be restored to $10 million or an additional $10 
million be added to USFS's Volunteer Fire Assistance program.
                            hazardous fuels
    While it is agreed that many forest types have been altered by fire 
suppression and thus require active fuel reduction, the debate over 
where to target these projects is contentious. Current methods for 
identifying treatment priorities and tracking and reporting 
accomplishments hamper efforts to achieve the desired outcomes. Current 
incentive structures strongly favor treating a high number of acres, 
without requiring consistent priority-setting or ensuring those acres 
treated actually reduce risk. This is because most targets are in the 
form of ``acres treated''.
    To identify those acres, the agencies largely rely on a method of 
classifying vegetation called Fire Regime Condition Class (FRCC), which 
purports to represent the degree of departure of current vegetation 
from historical conditions. FRCC has been misinterpreted as a measure 
of ``fuel load'' and has widely--and inappropriately--been applied to 
identify treatment priorities. Excitement over the use of FRCC in 
priority setting has led to its incorporation into agency performance 
measures and inclusion in HFRA. FRCC has never undergone formal 
scientific scrutiny, and many in the scientific and management 
communities have expressed concerns about over-reliance on FRCC for 
priority-setting. TWS supports the concept behind FRCC. However, we 
have identified a number of ambiguities and methodological flaws that 
undermine our confidence in using it to prioritize fuel treatments, 
assess performance, and measure financial return on taxpayer 
investments. For example, FRCC classification relies on subjective, 
unrepeatable expert opinion; FRCC tells us nothing about reducing risk 
to communities; and FRCC accounts for any and all departures from 
historical conditions, including disturbances that are not likely to 
result in fuel build-up, like grazing or road-building. Accordingly, 
TWS recommends that the subcommittee (1) require an objective, 
scientific review of FRCC and (2) direct the agencies to review the 
efficacy of all the current performance measures that use FRCC as a 
metric.
    In addition, despite the HFRA requirement that community 
priorities, as expressed in a CWPP, are considered when implementing 
hazardous fuel treatments, it is unclear if this is occurring, as 
reported recently by the USDA IG. TWS recommends that the subcommittee: 
(1) ask the agencies to report on the status of CWPPs, how priorities 
identified in CWPPs are incorporated into fuel treatments, and the 
number of fuel treatment projects that resulted from a CWPP and (2) 
direct the agencies to prioritize funding for those projects that are 
developed collaboratively.
    Lastly, despite problems identifying priorities for hazardous fuels 
treatments, some Forests have implemented hazardous fuels projects that 
are successful in reducing risk, particularly using prescribed fire. 
TWS has specifically documented these successes in National Forests in 
California, particularly in mixed conifer, ponderosa pine and other 
short interval fire regimes. We have found that reintroducing low 
severity fire has significantly reduced both potential fire intensity 
and beetle risk in these forest types. For example, a prescribed fire 
on the Los Padres National Forest in 2004 virtually ``fire-proofed'' a 
stand of old growth pine. When the 130,000 acre Day Fire burned through 
this area last year it killed almost no trees and left a green healthy 
stand in this prescribed fire treatment area. On the Mendocino National 
Forest, fire managers are regularly using prescribed fire in pine 
stands as young as 35 years old, safeguarding adjacent communities and 
preventing bark beetle epidemics. Despite widespread support from local 
communities, this is unfortunately happening only on a very small scale 
on in these California Forests because of lack of funding. Accordingly, 
TWS recommends that the subcommittee: (1) designate increased hazardous 
fuels funding for Forests that have demonstrated success in 
implementing hazardous fuels projects that reduce risk and are cost 
effective, like the Los Padres National Forest and the Mendocino 
National Forest in California.
                          suppression funding
    The cost of suppression continues to grow and threatens to eclipse 
the agencies' other critical mission areas (as described above). 
Despite increases in suppression funding, appropriated dollars often 
fall short. As a result, the agencies have to borrow money from other 
programs. Recognizing that past borrowing caused significant problems, 
Congress provided emergency funding intended to preclude this practice 
in 2004 through a supplemental appropriation of $500 million ($100 
million to the DOI and $400 million to the USFS) that the agencies 
could use when their normal suppression appropriations were exhausted. 
Congress also included similar authority and funding in its fiscal year 
2005 appropriations. Both the House and Senate Interior Appropriations 
Subcommittees have requested that authority and funding in this year's 
emergency supplemental (which is still pending passage). TWS supports 
maintaining this reserve account and appreciates that the subcommittee 
included it in the supplemental.
    While this reserve account will help to reduce the negative impacts 
associated with transferring funds, it is a short-term solution. 
Longer-term solutions are also needed, including those outlined above: 
increasing WFU and better funding community fire assistance programs. 
Another option is to take a portion of suppression funding out of the 
agencies' suppression budgets and place it in an emergency account. 
Though we recognize that off-budget accounting does nothing to lessen 
our national deficit, in some emergency situations, it may be 
warranted. This funding would be used to pay for those large fires that 
can be correctly categorized as ``emergencies'' (generally those 
approximately 2 percent of fires that are responsible for over 85 
percent of all suppression costs). For example, in 2006 the 20 largest 
fires cost more than $400 million to suppress. TWS encourages the 
subcommittee to explore this possibility, with appropriate sideboards. 
Those sideboards should require that a portion of the funding ``freed 
up'' from suppression be returned to the agencies' base funding to be 
used only for (1) core mission programs outside of Wildland Fire that 
have been reduced due to increased suppression costs--like Recreation 
and Wilderness and Fish and Wildlife Management; (2) those activities 
that are part of Wildland Fire that are proven to reduce suppression 
costs, like community fire assistance and expanded WFU.
                                 ______
                                 
 Prepared Statement of The Wilderness Society, Pacific Northwest Region
    Thank you, Chairman Feinstein and members of the committee, for 
this opportunity to present testimony in support of funding to the USDA 
Forest Service for watershed restoration in Washington State's national 
forests. The Wilderness Society requests appropriations for two 
complementary restoration proposals--one for the Skokomish River 
Watershed on the Olympic Peninsula, and the other for national forest 
watersheds throughout the Puget Sound and Hood Canal Basin (including 
the Skokomish). Both proposals deal with a common theme--the impacts of 
old Forest Service roads on water quality, flooding, and fish habitat. 
The proposals request funding for the Forest Service in fiscal year 
2008 to fix road problems and improve watershed conditions through 
appropriations of (a) $4.6 million in the Skokomish Watershed and (b) 
$30 million in the Puget Sound/Hood Canal Basin.
                    skokomish watershed action team
    The Skokomish River Watershed in the southeast corner of the 
Olympic Peninsula exemplifies many of the challenges and opportunities 
in fixing roads and restoring watershed health. The Skokomish River is 
the largest source of freshwater in the southern end of Hood Canal. It 
is notorious as the most frequently flooded river in Washington State. 
It is also one of the most heavily logged and roaded national forest 
watersheds in the Pacific Northwest, due to accelerated timber 
production after World War II. Excessive sediment and gravel have 
washed down from roads, ditches, and culverts in the upper watershed's 
steep slopes and deposited in the river channel that runs through the 
flat and fertile Skokomish Valley. Consequently, the river overflows 
its banks much more frequently and floods the valley's farm lands and 
homes, including the Skokomish Indian Reservation near the mouth of the 
river. Furthermore, in recent years portions of the river have gone 
completely dry by late summer, blocking all salmon migration into the 
upper watershed during spawning season.
    Recognizing the dire condition of the watershed, a diverse 
partnership quickly came together in 2005 to form the Skokomish 
Watershed Action Team (SWAT). The SWAT includes representatives from 
more than 20 organizations, including the Skokomish Tribe, Mason 
County, State and Federal regulatory agencies, conservation groups, and 
the timber industry. The Olympic National Forest staff participates in 
an ex-officio capacity and has been very cooperative in providing 
technical information and logistical assistance to the group.
    The SWAT works together to promote and implement appropriate 
restoration projects in the Skokomish Watershed. While our primary 
focus is on projects in the upper watershed on Forest Service lands, we 
also share information and provide mutual support for restoration work 
throughout the watershed. I am pleased to say that the SWAT has been 
remarkably successful in fostering cooperation and coordinated action 
in the Skokomish. One sign of our success has been to raise more than 
$2 million for restoration work in the watershed, including $250,000 
generated last year through timber sale receipts from the Flat 
Stewardship Project.
    This winter, the SWAT reached another milestone when it produced a 
detailed 3-year action plan and funding strategy to restore the 
Skokomish Watershed. For the upper watershed, based on information 
provided by the Forest Service at the SWAT's request, the plan 
identifies a total of $17.8 million of projects, with a need for 
Federal funds totaling $15.5 million. On the basis of our 3-year action 
plan, the SWAT has submitted an appropriations request of $4.6 million 
for the Forest Service in fiscal year 2008.
    The 3-year plan's upper watershed actions will improve water 
quality and flows, promote recovery of endangered salmon and bull 
trout, and reduce flooding impacts, primarily through implementation of 
road treatments such as decommissioning, stabilization and drainage 
upgrades, and culvert replacements. The watershed restoration work will 
benefit the Skokomish Tribe and other residents of the lower watershed 
whose homes and livelihoods have been so devastated by the frequent 
winter flooding.
    In the lower watershed, the SWAT's plan identifies projects 
totaling $24.5 million, along with $1.73 million to complete the U.S. 
Army Corps of Engineers' General Investigation of the Skokomish River 
Basin.\1\  The SWAT recognizes that implementation of these restoration 
projects will require funding from a variety of sources. Accordingly, 
the 3-year plan includes a Capital Improvement Program and funding 
strategy for Skokomish Watershed restoration that identifies 25 
separate sources of financial support. However, most of these funding 
sources are only available for projects in the lower watershed and 
estuary. Restoration of the upper watershed will likely have to rely 
predominantly on Forest Service funding.
---------------------------------------------------------------------------
    \1\ The Mason Conservation District, Skokomish Tribe, and Mason 
County have submitted a separate appropriations request for the 
Skokomish General Investigation.
---------------------------------------------------------------------------
           washington state watershed restoration initiative
    While the Skokomish is a dramatic example of watershed restoration 
needs and collaboration, many other Pacific Northwest watersheds are 
also in serious need of help. Unfortunately, Federal funding to fix 
roads and restore watersheds has greatly diminished in recent years. 
Currently in Washington State, the Federal budget provides only $3 
million annually for Forest Service road maintenance, allowing the 
maintenance backlog to grow by at least $8 million each year. 
Inadequate maintenance is largely to blame for more than $30 million of 
road damage in Washington's national forests following heavy rains last 
November. According to the Forest Service, if the needed road work 
begins now, it will cost an estimated $300 million to bring 
Washington's national forests into compliance with today's standards.
    What should be done about the roads problem? A coalition including 
Governor Gregoire, the Washington State Department of Ecology, 
Department of Fish and Wildlife, the Western Washington Treaty Tribes, 
and 12 conservation groups has prepared a ``Watershed Restoration 
Initiative'' for the State's national forests. Our coalition is 
suggesting the following 6-step solution.
    First, the Federal Government should significantly increase funding 
to fix Forest Service roads. Wiping out the Forest Service road 
maintenance backlog in the next decade state-wide will cost about $30 
million annually. We think it makes sense initially to prioritize the 
national forests watersheds that flow into the already ailing Puget 
Sound and Hood Canal Basin--i.e. the Mount Baker-Snoqualmie National 
Forest and the eastern Olympic National Forest. We believe we must pay 
attention to the top of the watersheds if we are going to heal Puget 
Sound and Hood Canal.
    Second, the Forest Service and its restoration partners should pick 
watersheds where road work will deliver the biggest bang for the buck. 
These are areas with threatened or endangered fish, sensitive 
geologies, partnership opportunities, and complementary restoration 
projects occurring elsewhere in the watershed. Within the priority 
watersheds, we are encouraging restoration projects to emphasize--
  --re-routing road runoff to eliminate or reduce direct delivery of 
        sediment to streams;
  --decommissioning high-risk, unstable, and unneeded roads;
  --improving fish passage;
  --renovating road drainage features to minimize future maintenance 
        and risk of road failures.
    Third, the Initiative calls for improved inventories of road 
systems so we are able to use sound, field-based information to make 
road management decisions. Fortunately, the Forest Service has already 
collected useful data through Access and Travel Management Plans and 
Watershed Analyses that provide a good starting point in some areas.
    In addition, more Forest Service staff are needed to support 
project partnerships with landowners, tribes, and other agencies and 
organizations. One potential solution to inadequate funding for staff 
is to bring in outside Federal agency personnel with expertise in 
project implementation.
    Finally, watershed restoration projects must be monitored to ensure 
that road work is properly implemented and is effectively achieving the 
intended environmental benefits. The Initiative suggests dedicating 2 
percent of project funds to monitoring.
    The Watershed Restoration Initiative for national forest roads 
would be consistent with the road restoration work by hundreds of 
private timberland owners in Washington State to protect fish habitat 
and water quality under the auspices of the statewide Habitat 
Conservation Plan. According to industry statistics, road maintenance 
plans have been developed covering 8,000 miles of stream; already 1,400 
fish blockages have been repaired, opening 800 miles of stream.
    In conclusion, The Wilderness Society and our partners in 
Washington State want to emphasize our commitment to work with Congress 
to take on the serious challenge of watershed restoration to heal the 
Skokomish River, Hood Canal, and Puget Sound. Thank you for considering 
the information and funding requests that we have provided, and we look 
forward to working with you to solve the problems associated with 
Forest Service roads.
                                 ______
                                 
           Prepared Statement of the Town of Ophir, Colorado
    Madam Chairwoman and honorable members of the committee: As Manager 
of the Town of Ophir, located in southwest Colorado, I am writing to 
respectfully request that $2.5 million be allocated to the U.S. Forest 
Service's fiscal year 2008 budget from the Land and Water Conservation 
Fund for the Ophir Valley Project. These funds will be used for the 
400-acre second phase of the proposed public purchase of 1,200 acres of 
privately owned patented mining claims in the Ophir Valley by the 
Uncompahgre National Forest. In the fiscal year 2007 budget, $850,000 
was appropriated for the initial phase of the Ophir Valley Project. 
This is a great start, but in order to complete the project, additional 
funding is needed in subsequent years. In fiscal year 2008 an 
appropriation of $2.5 million from the LWCF will permit acquisition of 
the 400-acre phase II of this outstanding land conservation project.
    The Ophir Valley Project enjoys broad and deep community support in 
San Miguel County, and throughout southwest Colorado, for the following 
reasons:
    (1) The Ophir Valley is one of Colorado's most breathtaking places, 
and is a cherished corner of San Miguel County. Against a backdrop of 
unsurpassed alpine scenery, the Ophir Valley offers an abundance of 
recreational opportunities for residents and visitors. Hiking, camping, 
mountain biking, cross-country skiing, four-wheeling, and fishing are 
all popular pastimes. In addition, the Ophir Valley supports habitat 
for the Canadian lynx, a Federally listed threatened species, and 
provides important habitat for the endangered Uncompahgre fritillary 
butterfly and other sensitive species. It also contains the headwaters 
of the Howards Fork, a key tributary to the San Miguel River, which 
sustains globally rare streamside habitats.
    (2) Federal acquisition of this property will facilitate improved 
public lands management in eastern San Miguel County and will protect 
access to surrounding public lands. The property to be acquired 
consists of patented mining claims that occur as inholdings within 
surrounding National Forest system lands. Purchasing these inholdings 
will ensure that they can be managed for their natural and recreational 
values in a manner that is consistent with management of adjacent lands 
already in public ownership. Importantly, acquisition of the property 
will guarantee access to surrounding public lands, and will help avoid 
conflicts between traditional public access expectations and private 
property rights.
    (3) The current property owner, Mr. Glenn Pauls, is a willing 
seller. Mr. Pauls has purchased the mining claims that comprise his 
property from many different sellers over the last several years. He 
has offered them for sale to the public through the Trust for Public 
Land (TPL), a national non-profit land conservation organization with a 
successful track record of acquiring thousands of acres of mining 
claims in the area under the Red Mountain Project. The opportunity that 
Mr. Pauls has afforded the public to acquire such a large number of 
mining claims from a single seller is a rare one that should not be 
missed.
    The Town of Ophir is located in San Miguel County, approximately 10 
miles south of Telluride, in an alpine mountain valley at an elevation 
of 9,600 feet, surrounded by mountain peaks and ridges rising to 13,000 
feet. Incorporated in 1881, Ophir has a long and colorful history, 
beginning as a mining town, later becoming a ghost town, and now is a 
thriving residential mountain community. The mountainsides surrounding 
the town are as of yet undeveloped, but these hillsides are 
checkerboarded with fee simple patented lode claims--including the 
Pauls claims--which are developable, privately owned inholdings within 
the national forest.
    Recognizing the development potential of the patented claims, the 
Ophir community has actively sought to protect this stunning area from 
sprawl development for more than 13 years through a town-funded and 
staffed Open Space Protection Program. With limited financial 
resources, the town has shown its commitment to conservation over the 
past 15 plus years. By working cooperatively with landowners, Ophir has 
acquired and conserved over 200 acres of remote lands, which are 
protected through conservation easements and are open to the public for 
recreational purposes.
    The Ophir Valley Project is part of a larger regional preservation 
project, the San Juan Skyway Initiative, which seeks to protect key 
natural landscapes in order to develop and ensure outdoor recreational 
opportunities along the San Juan Skyway, one of only 21 designated All 
American Roads in the National Scenic By-ways Program. An extension of 
the successful Red Mountain Project, funding for the Ophir Valley 
Project will be used as matching funds for a $5.7 million grant awarded 
in 2004 from the Great Outdoors Colorado Trust Fund to purchase and 
protect public access on additional mining claims along the San Juan 
Skyway.
    The scenic value of the high country in the San Juan Mountains has 
long been recognized by San Miguel, Ouray and San Juan Counties. All 
three counties have portions of dramatic mountain jeep passes within 
their jurisdictions which attract visitors from around the globe. 
Protection of the high country open space will guarantee the future 
existence of the scenic vistas that are an important asset to the 
regional economic engine.
    We want to thank you for your support and leadership in conserving 
Colorado's land and water resources. Protection of the Ophir Valley 
with LWCF funding will contribute greatly to ensuring that Colorado 
remains the special place that it is.
    Thank you for your consideration of this request.
                                 ______
                                 
             Prepared Statement of the Town of West Fairlee
    Madame Chairwoman and Honorable Members of the subcommittee: Thank 
you, Madame Chairwoman, for the opportunity to provide testimony in 
support of a $1.5 million request from the Forest Legacy Program to 
protect the 1,800-acre Brushwood Community Forest property connecting 
the towns of West Fairlee and Fairlee, Vermont.
    West Fairlee, like most Vermont towns, is still blessed with an 
abundance of forestland despite the rate of new development in our 
area. New residents are moving to the Upper Valley with good reason: 
it's a fabulous place to live and raise a family. By establishing the 
Brushwood Community Forest--a municipally-owned working town forest 
that will be open to the public--West Fairlee will be grabbing its 
destiny in its own hands. We will be conserving a key community asset 
under local control for the long-term well being of our culture, 
community, and quality of life. By creating this new community forest, 
we believe we can retain--and even enhance--the land-based economy and 
rural way of life our current residents treasure.
    As a member of West Fairlee's Selectboard, I am one of the three 
elected officials on the town's governing body. Our town, chartered in 
1797, is small: we have 726 residents according to the 2000 census. We 
are also a community of moderate means. Our per capita income is just 
$18,000, 15 percent below the State average. Some of our residents have 
deep roots in town with local ties dating back two centuries. They are 
most likely to work in town, perhaps plowing our roads, logging our 
forests, or repairing our cars. Other residents are new, drawn to the 
area because of its quality of life. They are most likely to commute 45 
minutes to an office job or telecommute from home. Due to our cultural 
and economic differences, our community often does not see eye to eye 
on issues. But there is one topic we all do agree on: creating a town 
forest.
    The selectboard and town have been discussing the idea of creating 
a town forest in the Brushwood area since the idea was first proposed 
in 1971. The Orange County Natural Resource Technical team recommended 
the town establish a town forest with the vision of consolidating ``a 
[single, expansive] tract in public ownership.'' Consistent with their 
vision, the Brushwood Community Forest will strategically link town 
forests in the adjacent communities of Fairlee and Bradford to create 
more than 3,300 acres of contiguous public lands.
    In 2004, 86 percent of respondents in a town-wide survey said that 
``the town should work with landowners and land trusts to conserve 
land.'' To our surprise, no other question received as strong a 
response as this one. Then, at our Town Meeting in March 2006, we voted 
unanimously in favor of the town establishing a community forest 
through the purchase of privately owned forestland. Today, we are 
hoping to secure a Federal Forest Legacy grant of $1.5 million in order 
to realize our shared dream.
    Town forests and woodlots are a tradition in Vermont. In the past, 
harvested wood might have been used to pay the local schoolmaster or 
provide firewood to residents. Historically, these woodlands have been 
managed primarily for timber production but often also looked to for 
public recreation, wildlife, and watershed conservation.
    I would also like to take this opportunity to urge your support for 
a significant increase in funding for the Forest Legacy Program in 
fiscal year 2008 to enable the protection of more forest resources than 
are proposed in the President's budget. As you may know, States and 
territories submitted 92 projects this year, but only 14 are proposed 
for funding. This is inadequate if we are to ensure the continued 
existence of forests across this country, and your support is 
appreciated. For example, the Brushwood Community Forest property was 
not among those included in the President's budget.
    The Forest Legacy Program in Vermont seeks to achieve significant 
conservation goals for the State by protecting large contiguous and 
productive forest blocks, wildlife habitats dependent on such large 
contiguous forest blocks, threatened and endangered species habitat, 
State fragile areas and undeveloped shoreline, significant wetlands, 
and important recreation corridors.
    The State's top Forest Legacy Program priority for fiscal year 2008 
is the 1,800 acre Brushwood Community Forest. Located between the towns 
of West Fairlee and Fairlee in Vermont, the Brushwood Community Forest 
initiative is a collaborative effort to conserve and connect 3,300 
acres by consolidating 11 separate ownerships into one contiguous 
forested parcel and connecting it with previously created town forest 
lands that encompass 1,500 acres. By reversing the pattern of forest 
fragmentation that is occurring in Vermont and other forested States 
across the Nation, the Brushwood Community Forest project will ensure 
public access to a variety of recreational opportunities and protect a 
highly productive and diverse forest for wildlife habitat and water 
quality protection.
    The Brushwood Community Forest conservation effort is particularly 
significant because it will help protect the ecological integrity and 
water quality of the upper Connecticut River, an important ecological 
focus area for Vermont and New Hampshire. The assembled properties are 
located in the upper Connecticut River watershed and encompass more 
than 10 miles of stream frontage, numerous vernal pools, and the entire 
40-acre Mill Pond Brook wetland complex. In addition, the Brushwood 
Forest project is located within the focus area of the Silvio O. Conte 
National Fish and Wildlife Refuge, which was designated by Congress for 
the purpose of preserving, protecting and enhancing the Connecticut 
River watershed.
    Trails throughout the Brushwood Forest connect people to each other 
and the landscape, by not only connecting towns, but also by providing 
a place for year-round recreation. Conservation of the Brushwood 
Community Forest would help complete one of the last missing links in 
the 40-mile Cross Rivendell Trail, which connects to the Appalachian 
National Scenic Trail in New Hampshire. Residents hike, snowshoe, 
cross-country ski, snowmobile, hunt, trap, and watch wildlife in the 
Brushwood Forest. There are miles of mountain bike trails throughout 
the Brushwood Forest, and there are over ten miles of hiking trails 
maintained by Lake Morey Trails Association. The Vermont Association of 
Snow Travelers (VAST) also maintains trails for snowmobiling that run 
through this property.
    Wildlife abounds in the Brushwood forest property due to its 
unfragmented nature, diverse mixture of forest cover types and 
proximity to the ecologically-rich Connecticut River Valley. Since the 
property has an abundance of mast-producing trees, such as beech and 
red oak, and also many shelter species such as hemlock and pine, the 
Brushwood Forest supports a large concentration of wildlife, including 
deer, moose, bear, bobcat, snowshoe hare, beaver, and a mix of 
amphibians and birds. The University of Vermont recognizes the 
Brushwood Community Forest as a ``hot block'' for bird conservation due 
to its species richness and diverse habitat areas. A 15-20 acre old 
growth northern hardwood forest--approximately 185 years old--and an 
old growth hemlock forest are located within the Brushwood Forest on 
the West Fairlee/Fairlee town border. The northern hardwood forest 
includes a wet cove forest and a scrubbier hardwood forest on the 
ledges and borders adjacent to the ridge tops.
    This area of New England is in high demand for residential 
development as outlined in the U.S. Forest Service's ``Forests on the 
Edge'' report. Already adjacent properties are being marketed for 
potential residential development, and construction of private 
residences is already occurring. Since affordable low and moderate 
priced housing in the Hanover region is scarce, towns such as West 
Fairlee and Fairlee are within easy commuting distance and targets for 
housing developments. Agreements to sell for conservation have been 
reached with several private landowners and negotiations are ongoing 
with the remaining owners to secure these acres and ensure their 
permanent protection.
    In fiscal year 2008, $1.5 million in Forest Legacy Program funds is 
needed to acquire and protect the properties that will make up the 
Brushwood Community Forest. Federal funds will be matched by $500,000 
in private donations and land value donations. In addition to the Town 
of West Fairlee, partners in this project are the State of Vermont 
Department of Forest Parks and Recreation, Town of Bradford, Town of 
Fairlee, Quebec-Labrador Foundation, the Northern Forest Alliance, the 
Eastern Forest Partnership, the Vermont Town Forest Project, Upper 
Valley River subcommittee of the Connecticut River Joint Commission, 
and the Cross Rivendell Trails Association.
    I thank you again, Madame Chairwoman, for the opportunity to 
present this testimony and to express my support of this project to the 
subcommittee.
                                 ______
                                 
Prepared Statement of the Tribal Council of the Confederated Salish and 
                 Kootenai Tribes of the Flathead Nation
    Honorable Chairman Feinstein, Ranking Member Craig, and members of 
the subcommittee, the Confederated Salish and Kootenai Tribes of the 
Flathead Nation (CSKT or Tribes) present testimony on the President's 
fiscal year 2008 budget request for the Department of the Interior. Our 
testimony will address our concerns and specific budgetary requests for 
the Bureau of Indian Affairs, Office of the Special Trustee for 
American Indians, Indian Health Service, and National Park Service. 
Overall, our goal is to promote and perpetuate our sovereignty, self-
determination, and self-sufficiency as all are key to our prosperity 
and survival. In the immediate, we strive to improve the well-being of 
our people and to preserve and protect our homeland and resources for 
future generations.
                              introduction
    The CSKT's homeland, the Flathead Indian Reservation, is a result 
of the cession of tribal lands made by the Salish, Kootenai, and Pend 
d'Oreille Indians under the Hellgate Treaty of 1855. In the Hellgate 
Treaty the Tribes ceded over 20 million acres of ancestral land (much 
of what is now considered western Montana) in exchange for a 
reservation of title to lands within an area of 1.3 million acres in 
northwestern Montana. In 1904, Congress opened the Flathead Reservation 
to allotment and widespread transfer of tribal land into the hands of 
individual tribal members and ultimately to non-Indians took place. 
Beginning in the 1940's, the CSKT began to recover some of the lands 
over which the Tribes had lost ownership. Currently, we have over 
600,000 acres of land in trust, almost 71,000 owned by the Tribe in 
fee, as well as over 36,000 acres owned in trust by individual tribal 
members, within the Reservation. The Flathead Nation has been on the 
cutting edge not only of land consolidation in Indian Country, but also 
in the exercise of tribal self-determination. As of December 31, 2006, 
the enrolled membership of the Tribes is 7,101.
    The CSKT is a Self-Governance tribe, which means that we operate 
almost all of the programs and services that the Federal Government, 
mainly through the Bureau of Indian Affairs and Indian Health Service, 
would be required to provide. In addition to the more traditional 
programs that many tribes operate, we operate the Land Realty program, 
operate and manage the electric power utility (Mission Valley Power), 
and the Financial Trust Services program, including Individual Indian 
Money (IIM) accounts, as well as most Indian Health Service functions. 
While we are confident that the Tribe is the entity best suited to 
carrying out all of these activities, they require major obligations of 
financial support from the Federal Government.
           requests for the fiscal year 2008 interior budget
    The CSKT participated in the DOI Tribal/Budget Advisory Committee 
(TBAC) meetings in fiscal year 2006 when the fiscal year 2008 budget 
priorities were formulated. In general, the CSKT does not object to the 
DOI's priorities of Public Safety and Justice, Education, Natural 
Resources, and Contract Support Costs. However, we are compelled to 
advocate for issues specifically impacting our people and our homeland 
as described in the following.
                          health care funding
    The CSKT is greatly encouraged that the United States Senate 
Committee on Indian Affairs, in its views and recommendations regarding 
the fiscal year 2008 budget, is giving great emphasis on health care 
funding for Indians. The CSKT has continually advocated for substantial 
increases in the Indian Health Service's budget, particularly in the 
funding appropriated for Contract Health Services (CHS), which is the 
cornerstone of our health care system on the Flathead Reservation with 
a beneficiary population of almost 11,000 people in a four-county area. 
We do not have an IHS or Tribal Hospital or any type of a large 
facility with direct care and we are therefore especially dependent on 
contract heath services. For the entire IHS-funded system, the funding 
requested for CHS is about $550 million while the true need is at least 
$1 billion. The most important aspect of CHS funding is that it 
provides services beyond the limited care that is provided in IHS-
funded clinics and hospitals. CHS funding provides services for 
specialty care, surgical procedures, and other services that the 
average American can receive through mainstream health insurance plans. 
With the limited funding presently allocated to CHS, Indian people 
receive health care on a ``threat to life and limb'' basis. The CSKT 
knows firsthand the tremendous need for CHS funding because we operated 
that program under self-governance from 1993 through 2005, and with 
great reluctance had to return the program to the Indian Health Service 
due to increasing financial liability for health care claims. In fiscal 
year 2005, the final year that CSKT operated the CHS program, the 
funding we received from the IHS budget was just over $8 million but 
our actual CHS expenditures were over $17 million. On a final note, the 
infusion of CHS funding benefits the non-Indian community on the 
Flathead Reservation because it supports the private health care sector 
of doctors and hospitals.
                  flathead land consolidation project
    The CSKT requests funding in the amount of $658,000 for our ongoing 
ILCA program. We have received money from the BIA ILCA program for the 
past 3 years (fiscal year 2004, 2005, and 2006) and it is critical that 
it be continued. Our congressional delegation has written to the 
Interior Department urging continued funding in fiscal year 2007, which 
would have been directed via report language had an fiscal year 2007 
Interior bill been enacted. To our knowledge the CSKT are the only 
Tribes in the country that are using limited tribal dollars to 
supplement the ongoing BIA ILCA program, essentially creating a local 
match and further demonstrating the importance of this program to our 
people. Additionally, we can demonstrate progress in reducing 
fractionated parcels, and we frankly wonder if such progress can be 
demonstrated in areas where OMB has pressured BIA to direct ILCA funds. 
While the CSKT has purchased hundreds of undivided fractional interests 
of trust and fee land allotments using both Tribal and Indian Land 
Consolidation Act (ILCA) funding, we still have surface interests and 
severed mineral interests that remain fractionated.
    The fractional surface interests and severed mineral interests are 
negatively impacting Tribal ownership and land management including 
negative impacts on Tribal economic development initiatives. This 
committee is aware of how surface acres became fractionated. Beyond 
that surface acreage became separated from mineral ownership through 
BIA policies which encouraged Indians to retain mineral ownership when 
selling or deeding surface ownership. Fractionation limits economic 
development in several ways. For example, without consent from a 
majority of the owners, Indian trust land cannot be leased. With 
hundreds of owners in some allotments, obtaining consent can be time-
consuming and prohibit a lease agreement. Once leased, rental income 
for small-interest owners can be as little as a few cents and higher-
return business leases cannot be negotiated if most owners do not agree 
on the type of use proposed. Some ownership interests are so small that 
subdividing the land into portions for each owner would result in 
parcels too small for building even a home.
    With additional funding, Tribal Land Acquisition Technicians would 
contact landowners with fractional interests to determine if they are 
willing to sell their undivided, ownership interests. If they are a 
land sale application is developed; fair market value determined; a 
deed is prepared to transfer undivided, fractional interests to the 
Tribe; and the owners paid for their fractionated parcel. In our 
meetings last year with staff in the BIA's Indian Land Consolidation 
Office we were told that the ILCA monies could be used to consolidate 
both surface and mineral fractions but only if the mineral interests 
were appraised by someone certified in that field. Under our proposal 
we will budget money for land and subsurface appraisals and 
consolidation efforts and believe that over the course of 2 years we 
can make significant progress is fixing this problem on our 
reservation.
                       trust programs management
    The White House, Congress, and the Department of the Interior 
continue to be challenged by resolution of the Cobell litigation. In 
the interim, it is imperative that funding for trust programs 
management be sufficiently allocated to achieve trust reform whether 
the programs are managed by the Federal Government or by tribes. 
Nationwide, there continue to be significant backlogs in probates, 
appraisals, leasing, and fee-to-trust transactions. The backlogs 
contribute to delays and other issues affecting Indian beneficiaries as 
well as the tribes. As a self-governance tribe, the CSKT is the only 
tribe in the United States that operates all trust resource programs 
(lands, forestry, water, etc.) in addition to Individual Indian Money 
Accounts. As with Indian health care funding, trust programs funding 
must double in order to make meaningful progress. In fiscal year 2006, 
the CSKT documented an additional funding need in trust programs of 
$2.7 million for land planning, records, forest management, individual 
indian money accounts supervision, and other program needs.
    The CSKT further requests that Interior funding for trust programs 
include earmarks for the CSKT, Salt River-Pima Maricopa Community, 
Chippewa-Cree Tribes, and California Tribal Trust Reform Consortium to 
demonstrate the funding, staffing, and program capacity needed to 
operate our trust programs as envisioned in the Fiduciary Trust Model 
developed by the Department of the Interior. The CSKT's earmark totals 
$2.7 million, but the funds requested by the other tribes are unknown 
at this time. The aforementioned tribes were excluded from the Trust 
Reorganization of the Department of the Interior due to those tribes 
operating trust programs under self-governance.
                        water rights negotiation
    The CSKT's need is $450,000 for stream gaging, litigation and 
negotiation support, development of the Tribal/Federal work plan, 
groundwater resource evaluation and other activities.
    In 1979, the State of Montana established the Reserved Water Rights 
Compact Commission (RWRCC) as part of a statewide General Stream 
Adjudication. The Montana RWRCC negotiates water rights settlements 
with Tribal governments and Federal agencies claiming Federal and 
Indian reserved water rights in the State of Montana. The CSKT first 
met with the Montana RWRCC in the mid 1980's. In 1995 the United States 
created the Federal Flathead Water Rights Negotiation Team (Federal 
Team), chaired by Chris Kenney, Bureau of Reclamation. In 1996 and 
1997, the CSKT and Federal Team established a data sharing agreement. 
In 1998, the CSKT, State, and Federal teams established a Memorandum of 
Understanding to create a framework for communications between the 
parties.
    At the December 19, 2002, formal negotiation meeting, the CSKT 
requested clarification from the State of Montana on their 
consideration of the CSKT's proposed framework for negotiations. The 
State of Montana would not consider the proposed framework and the CSKT 
proceeded to develop our claims. Meanwhile, the State of Montana is 
moving ahead on the water right adjudication process. On July 3, 2003, 
the Montana Water Court filed an Order directing the Montana Department 
of Natural Resources and conservation (DNRC) to examine claims in the 
Jocko River hydrologic sub-basin 76L within the exterior boundaries of 
the Flathead Indian Reservation.
    Funding is critical to the continued progress and success of the 
water rights negotiations for the CSKT. The CSKT first submitted a 
proposal to the Bureau of Indian Affairs for funding in 1996, and have 
continued to submit proposals every year. While the level of 
negotiation activities has increased, the level of funding is 
decreasing. For instance, the CSKT have received only partial funding 
each year and in the last few years have been funded only for stream 
gaging (USGS and Tribal) and Tribal participation. This is a concern 
for CSKT with the Montana Water Rights Compact Commission scheduled to 
terminate in June 2009. The Tribal water rights negotiations are 
currently funded primarily with Tribal funds. It has operated as such 
since fiscal year 1982. In fiscal year 1995, its size and 
responsibilities increased substantially in preparation for water 
rights negotiations with the State of Montana. Partial funding from the 
BIA, as has been pointed out, has been inadequate for this effort. The 
requested $450,000 for 2008 funding is necessary to continue this 
important effort.
                        ancestral trails project
    The CSKT requests $223,000 through the National Park Service for 
this project. For the Salish, Kootenai, and Pend d'Oreille people, 
ancestral trails are woven into nearly every facet of tribal history, 
culture and tradition. They form the foundation upon which legends, 
place names, cultural practices, sacred areas, daily life and life 
patterns of the people converge. Creation of a resource toolbox 
including video, audio, oral histories, aerial images and written 
documentation is essential to ensuring long-term understanding of the 
ancestral trails and their impact upon the past and present people of 
this region. Drawing upon previous studies conducted by local Tribes, 
Federal and State agencies, and academic institutions in the northern 
Rockies, the CSKT will develop a baseline trails map of the study area 
using GIS. A comprehensive review of tribal oral history archives and 
linguistic resources will be undertaken including oral history 
interviews with tribal elders and historical experts to obtain 
information about trail systems used by the CSKT. A special emphasis 
will be placed on working with language specialists and archived oral 
history resources at the CSKT in documenting Salish and Kootenai 
language place names that identify the travel routes and important 
natural and cultural features contained within these corridors.
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
                  Prepared Statement of William Ullman
    I appreciate the opportunity to provide testimony on behalf of a 
request for a $550,000 Land and Water Conservation Fund appropriation 
in fiscal year 2008 to permit the U.S. Forest Service to acquire the 
664-acre Haystack Notch property in the White Mountain National Forest 
in Maine.
    I would also like to commend the Chairman and other subcommittee 
members for your support for Federal land acquisition and urge you to 
increase funding for the Land and Water Conservation Fund, which is so 
vital to protecting critical resource and recreation lands nationwide.
    I am a resident of Mason Township, active in Outward Bound and the 
National Outdoor Leadership School. I am in the process of donating my 
property to a non-profit organization that will use it for outdoor 
educational purposes.
    With 770,000 acres of endless great granite stretching from New 
Hampshire to Maine and located just over an hour and a half drive north 
of Boston, the White Mountain National Forest is one of the most 
popular recreation areas in the highly developed Northeastern area of 
the United States. The forest contains the majestic Presidential Range, 
which includes Mt. Washington, one of the highest and most visited 
mountains in the United States. In addition, the heavily traveled 
Appalachian Trail runs throughout the forest. Moose, black bear, bald 
eagles and American peregrine falcons find home in the White Mountains, 
and a thorough network of trails provides easy access to the forest for 
the 6.5 million campers, hikers, hunters, fishermen, swimmers, boaters, 
skiers and other outdoor enthusiasts who annually visit the forest. 
Over 184 species of birds find habitat in the forest and numerous 
aquatic species such as the Eastern Brook trout and Atlantic salmon are 
found in the many pristine rivers that run throughout the forest. A 
small portion of the WMNF is located in Maine and includes the Caribou-
Speckled Mountain Wilderness Area, designated by Congress in 1990 and 
covering 12,000 acres of public land on the WMNF. It is the largest and 
one of only two Wilderness areas in Maine, located south of Route 2 
near the small town of Gilead.
    Immediately adjacent to the Caribou-Speckled Mountain Wilderness 
Area and surrounded on three sides by U.S. Forest Service ownership is 
the 664-acre Haystack Notch property available for acquisition in 
fiscal year 2008 that will provide significant public access into the 
wilderness area. The property is located in Mason Township in western 
Maine, where recently a large amount of timber company lands are being 
disposed of and turned over to development and subdivision. The local 
public desires that opportunities continue for traditional uses such as 
hiking, sightseeing, fishing, hunting, trapping and snowmobiling. In 
particular, the Miles Notch and Haystack Notch trailheads are located 
on this property and link to other trails, including the Red Rock and 
Great Brook trails, which also pass through the Caribou-Speckled 
Wilderness. From a recreational perspective, this acquisition would 
solidify access to these trails, trailheads, and this part of the 
wilderness and these opportunities could be lost if the tract is sold 
to another private entity and the property is subdivided.
    This property also provides important wildlife values and has 
natural wetlands and two key perennial streams, the West Branch of the 
Pleasant River and Miles Brook, which are tributaries of the 
Androscoggin River, along with several intermittent streams. The WMNF 
recently evaluated the West Branch of the Pleasant River and found it 
to be eligible for Wild and Scenic designation. Lower reaches of the 
West Branch are believed to have important habitat for the wood turtle, 
a Regional Forester's Sensitive Species. The river also offers 
significant fishing opportunities as it contains runs of wild rainbow 
trout and brook trout. Purchase of the property will provide additional 
protection for the watershed and the fisheries and aquatic species 
dependent on high water quality.
    The White Mountain National Forest is one of most intensively used 
national forests in the country and is within a day's drive of over 70 
million people. If this land is not acquired and protected by the U.S. 
Forest Service, it is likely that it will be developed and subdivided 
soon. Thus, the recreation, watershed, wildlife and fisheries, and 
vegetation management values would be foregone. The acquisition has 
support from the community in and around the town of Mason.
    An appropriation of $550,000 in fiscal year 2008 from the Land and 
Water Conservation Fund is needed to ensure the addition of this 
critical public access property to the forest.
    Thank you, Madam Chairwoman, for this opportunity to provide 
testimony.
                                 ______
                                 
  Prepared Statement of the Uncompahgre Valley Water Users Association
    I am requesting your support for appropriations in fiscal year 2008 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program, consistent with the President's recommended 
budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475,000 in operation and maintenance funds 
within the $45,147,000 item entitled ``National Fish Hatchery 
Operations'' to support the ongoing operation of the FWS' Ouray 
National Fish Hatchery in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 38 years, United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from throughout the Nation. We are governed 
by the five tribes located wholly or in part in North Dakota. We have 
received funding through the Bureau of Indian Affairs (now Bureau of 
Indian Education) every year since our founding, and since 1978 under 
Public Law 93-638 (Indian Self Determination Act) contract authority.
    The administration's proposal to eliminate funding for UTTC for 
fiscal year 2008 signals a failure in understanding our educational 
mission and our accomplishments in Indian education. We do appreciate 
that the Office of Management and Budget and the Department of Interior 
determined that UTTC meets merit-based criteria and should be provided 
funding for the balance of fiscal year 2007, under the appropriations 
approved by Congress on February 15 of this year.
    UTTC is an educational institution that consistently has excellent 
results, placing Indian people in good jobs and also enabling them to 
pursue education beyond UTTC. The elimination of BIE funding for UTTC 
would result in, among other things, cancellation of courses, laying 
off of instructors, and of course, denying services to students and 
their families. It would negatively affect our ability to compete for 
discretionary funds, such as those in the Department of Agriculture and 
the National Science Foundation, to enhance our curricula. BIE funds 
constitute half of our operating budget. We do not have a tax base or 
State funds on which to rely. We are hopeful that the North Dakota 
Legislature will soon enact legislation to provide modest support for 
the non-Indian students that attend UTTC and the other tribal colleges 
in the State.
    The request of the United Tribes Technical College Board for the 
fiscal year 2008 BIE budget is:
  --$4.5 million in BIE funds for UTTC, which is $1.01 million over the 
        fiscal year 2007 level.
  --Requirement that the BIA/BIE place more emphasis on funding and 
        administrative support for job training and vocational/
        technical education. The administration's fiscal year 2008 
        request for Job Placement and Training is $8,051,000 with an 
        additional $2,441,000 under TPA adult education for a total of 
        $10.5 million. This is a $5 million reduction from fiscal year 
        2005 a shadow of its former self. The fiscal year 1970 
        appropriation for this program was $60 million. There is no 
        BIA/BIE leadership or advocacy for job training or vocational/
        technical education at the central or regional office levels.
    UTTC Performance Indicators. UTTC has:
  --An 87 percent retention rate.
  --A placement rate of 95 percent (job placement and going on to 4-
        year institutions).
  --A projected return on Federal investment of 1 to 20 (2005 study 
        comparing the projected earnings generated over a 28-year 
        period of UTTC Associate of Applied Science and Bachelor degree 
        graduates of June 2005 with the cost of educating them.).
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations.
    The demand for our services is growing and we are serving more 
students. For the 2006-2007 school year we enrolled 1,018 students (an 
unduplicated count). The majority of our students are from the Great 
Plains States, an area that, according to the 2003 BIA Labor Force 
Report, has an Indian reservation jobless rate of 76 percent. We are 
proud of our annual placement rate of 95 percent.
    In addition we served 237 students in our Theodore Jamerson 
Elementary school and 317 children in our Child Development Center age 
birth to five during school year 2006-2007.
    Course Offerings.--We offer 15 vocational/technical programs and 
award a total of 24 2-year degree and 1-year certificates, including:
    Licensed Practical Nursing.--This is our program with the highest 
number of students. We have an agreement with the University of North 
Dakota system that allow our students to transfer their credits to 
these 4-year nursing programs.
    Medical Transcription and Coding Certificate.--Our newest academic 
endeavor is our Medical Transcription and Coding Certificate Program 
which is offered through our Exact Med Training program and supported 
by Department of Labor funds.
    Tribal Environmental Science.--Through a National Science 
Foundation grant we are undertaking a 5-year project to establish and 
implement a 2-year Associate of Applied Science degree in Tribal 
Environmental Science.
    Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians, which is 2.8 times that 
of the U.S. population. With IHS initial assistance, we now offer the 
only degree-granting Injury Prevention program in the Nation. Injuries 
are the leading cause of mortality among Native people for ages 1-44 
and the third for overall death rates.
    Online Education.--We are working to bridge the ``digital divide'' 
by providing web-based education and Interactive Video Network courses 
from our North Dakota campus to Indians residing at other locations and 
as well as to students on our campus. This Spring semester 2007, we 
have 61 students registered in online courses, of which 48 students are 
studying exclusively online (approximately 34 FTE) and 13 are campus-
based students. These online students come from Colorado, Georgia, 
Hawaii, Idaho, Kentucky, Nebraska, North Dakota, Oklahoma, Oregon, 
South Dakota, West Virginia and Wisconsin.
    Online courses provide the scheduling flexibility students need, 
especially those students with young children. Our online full degree 
programs are in the areas of Early Childhood Education, Injury 
Prevention, Health Information Technology, Nutrition and Food Service 
and Elementary Education. We are accredited by the Higher Learning 
Commission of the North Central Association of Colleges and Schools to 
provide associate degrees online. This approval is required in order 
for us to offer Federal financial aid to students enrolled in these 
online courses. We are the only tribal college accredited to offer 
associate degrees online. All totaled, 156 online course seats are 
filled by students this semester. Over 50 courses are currently offered 
online, including those in the Medical Transcription and Coding program 
and those offered through an MOU with Owens Valley Career Development 
Center.
    Our newest on-line course is suicidology--the study of suicide, its 
causes, and its prevention and of the behavior of those to threaten or 
attempt suicide--and we expect that with additional outreach that there 
will be a significant demand for this course. We are also offering a 
training program through the Environmental Protection Agency to 
environmental professionals in Indian Country. The Indian Country 
Environmental Hazard Assessment Program is a training course designed 
to help mitigate environmental hazards in reservation communities.
    Computer Information and Technology.--The Computer Support 
Technician program is at maximum student capacity because of 
limitations on learning resources for computer instruction. In order to 
keep up with student demand and the latest technology, we will need 
more classrooms, equipment and instructors. Our program includes all of 
the Microsoft Systems certifications that translate into higher income 
earning potential for graduates.
    Nutrition and Food Services.--UTTC will meet the challenge of 
fighting diabetes in Indian Country through education. Indians and 
Alaska Natives have a disproportionately high rate of type 2 diabetes, 
and have a diabetes mortality rate that is three times higher than the 
general U.S. population. The increase in diabetes among Indians and 
Alaska Natives is most prevalent among young adults aged 25-34, with a 
160 percent increase from 1990-2004. (fiscal year 2008 IHS Budget)
    As a 1994 Tribal Land Grant institution, we offer a Nutrition and 
Food Services Associate of Applied Science degree in an effort to 
increase the number of Indians with expertise in nutrition and 
dietetics. Currently, there are only a handful of Indian professionals 
in the country with training in these areas. Among our offerings is a 
Nutrition and Food Services degree with a strong emphasis on diabetes 
education, traditional food preparation, and food safety.
    We also established the United Tribes Diabetes Education Center to 
assist tribal communities and our students and staff in decreasing the 
prevalence of diabetes by providing diabetes educational programs, 
materials and training.
    Business Management/Tribal Management.--Another of our newer 
programs is business and tribal management designed to help tribal 
leaders be more effective administrators. We continue to refine our 
curricula for this program.
    Job Training and Economic Development.--UTTC is a designated 
Minority Business Development Center serving Montana, South Dakota and 
North Dakota. We also administer a Workforce Investment Act program and 
an internship program with private employers in the region.
    Economic Development Administration funding was made available to 
open a ``University Center.'' The Center is used to help create 
economic development opportunities in tribal communities. While most 
States have such centers, this center is the first-ever tribal center.
    Upcoming Endeavors.--We continue to seek a Memorandum of 
Understanding with the BIA's Police Academy in New Mexico that would 
allow our criminal justice program to be recognized for the purpose of 
BIA and Tribal police certification, so that Tribal members from the 
BIA regions in the Northern Plains, Northwest, Rocky Mountain, and 
Midwest areas would not have to travel so far from their families to 
receive training. Our criminal justice program is accredited and 
recognized as meeting the requirements of most police departments in 
our region. We also anticipate providing similar training for 
correctional officers, a vital need in Indian country.
    We are also interested in developing training programs that would 
assist the BIA in the area of provision of trust services. We have 
several technology disciplines and instructors that are capable of 
providing those kinds of services with minimum of additional training.
    Facility/Housing Needs.--The 1998 Carl Perkins Act required the 
Department of Education to study the facilities, housing and training 
needs of our institution. That report was published in November 2000 
(``Assessment of Training and Housing Needs within Tribally Controlled 
Postsecondary Vocational Institutions, November 2000, American 
Institute of Research''). The report identified the need for $17 
million for the renovation of existing housing and instructional 
buildings and $30 million for housing and instructional facilities. 
These figures do not take into account the costs of inflation since the 
study was completed in 2000.
    While we continue to identify housing as our greatest need, UTTC 
has worked hard to combine sources of funding for desperately needed 
new facilities--within the past few years we have built a 86-bed 
single-student dormitory on campus, a family student apartment complex, 
and a Wellness Center.. Sources of funds included the U.S. Department 
of Education, the U.S. Department of Agriculture, the American Indian 
College Fund, the Shakopee-Mdewakanton Sioux Tribe, among others. We 
still have a critical housing shortage and more housing must be built 
to accommodate those on the waiting list and to meet expected increased 
enrollment. We also have housing which needs renovation to meet safety 
codes.
    UTTC has acquired an additional 132 acres of land. We have also 
developed a master facility plan. This plan includes the development of 
a new campus on which would be single-student and family housing, 
classrooms, recreational facilities, offices and related 
infrastructure. A new campus will address our need for expanded 
facilities to accommodate our growing student population. It will also 
enable us to effectively address safety code requirements, Americans 
with Disabilities Act requirements, and to become more efficient in 
facility management.
    Thank you for your consideration of our request. We cannot survive 
without the basic core vocational/technical education funds that come 
through the Bureau of Indian Education. They are essential to the 
operation of our campus and to the welfare of Indian people throughout 
the Great Plains region and beyond.
                                 ______
                                 
   Prepared Statement of the Upper Gunnison River Water Conservancy 
                                District
    We are requesting your support for appropriations in fiscal year 
2008 to the Fish and Wildlife Service (FWS) for the Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River Basin 
Recovery Implementation Program, consistent with the President's 
recommended budget.
    1. Appropriation of $697,000 in ``recovery'' funds to the U.S. Fish 
and Wildlife Service (FWS) to allow FWS to continue its essential 
participation in the Upper Colorado River Endangered Fish Recovery 
Program.
    2. Appropriation of $475 in operation and maintenance funds within 
the $45,147,000 item entitled ``National Fish Hatchery Operations'' to 
support the ongoing operation of the FWS' Ouray National Fish Hatchery 
in Utah.
    3. Allocation of $200,000 in ``recovery'' funds for the San Juan 
River Basin Recovery Implementation Program to meet FWS's Region 2 
expenses in managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2008 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five States' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for the water programs 
of the U.S. Environmental Protection Agency (EPA), including: State 
Water Pollution Control Grants, the Clean Water State Revolving Fund, 
State Nonpoint Source Grants, the Hypoxia Action Plan, and the 
Environmental Monitoring and Assessment Program. The UMRBA States are 
also concerned that the EPA has not adequately addressed the need for 
coordinated interstate implementation of the Clean Water Act on the 
Upper Mississippi River, and are therefore requesting that specific 
funding be directed to such an effort.
           state water pollution control grants (section 106)
    Under section 106 of the Clean Water Act, Federal funds are 
allocated to be used in combination with the States' matching dollars 
to support core State water quality programs. These core programs 
include water quality assessment and monitoring, water quality planning 
and standard setting, total maximum daily load (TMDL) development, 
point source permitting, training, and public information, as well as 
the implementation of rules governing concentrated animal feeding 
operations (CAFOs). Adequate funds are particularly critical to 
supporting the States' development and implementation of TMDLs, which 
have the potential to overwhelm State agency resources that are already 
strained.
    The administration's proposal for funding section 106 State Water 
Pollution Control Grants in fiscal year 2008 is essentially the same as 
its proposed fiscal year 2007 level ($221.7 million). While this amount 
is 2.5 percent greater than the fiscal year 2006 enacted funding level 
of $216.2 million, it is still slightly below the fiscal year 2005 
funding level of $222.4 million. Additionally, the UMRBA States have 
experienced a small, but consistent, decline in their allocation of 
section 106 funding in recent years, from $21.5 million in fiscal year 
2004 to $21.3 million in fiscal year 2007.
    The UMRBA States remain concerned with the adequacy of funding in 
the baseline section 106 program, which has remained largely static in 
recent years. UMRBA States are concerned that section 106 funding will 
not be sufficient to effectively maintain core Clean Water Act programs 
and will not reverse the erosion of resources being provided to the 
Upper Mississippi River States. Thus, the UMRBA recommends that 
Congress provide $300 million for section 106 grants, in accordance 
with the fiscal year 2008 authorized funding level in H.R. 720.
                   clean water state revolving funds
    The Clean Water State Revolving Fund (CWSRF) program is widely 
acknowledged as having been pivotal in improving the Nation's water 
quality by addressing wastewater infrastructure needs. However, the 
President's proposed fiscal year 2008 budget continues a trend of 
under-funding this critical infrastructure program. The UMRBA States 
are deeply concerned with the administration's continued lack of 
support for the CWSRF.
    The President's proposed CWSRF budget for fiscal year 2008 is 
$687.6 million, essentially the same as the proposed fiscal year 2007 
budget. However, the proposed fiscal year 2008 level is down 22.5 
percent from the fiscal year 2006 enacted level of $886.7 million, and 
represents a drop of nearly 50 percent from the $1.34 billion provided 
in fiscal year 2004. The five UMRBA States have experienced a reduction 
in CWSRF funding in excess of 50 percent over the same time period, 
receiving a total of $79.7 million in fiscal year 2007, down from 
$176.6 million in fiscal year 2004.
    EPA's own estimates show multi-billion dollar annual funding gaps 
for clean water and drinking water infrastructure over the next 20 
years. The UMRBA States acknowledge that Federal financial assistance 
is not the sole solution to this problem, but the appropriate response 
to this daunting challenge is most certainly not to further reduce 
Federal support for this program. In order to best address the 
identified and continuing needs for clean water infrastructure 
improvements, the UMRBA recommends that Congress increase CWSRF fiscal 
year 2008 appropriations to $2.0 billion, consistent with the 
authorization in H.R. 720, recently passed by the House.
               state nonpoint source grants (section 319)
    Nonpoint sources are one of the major causes of water pollution in 
the Upper Mississippi River Basin, which drains the Nation's 
agricultural heartland. The administration has requested $194 million 
for the section 319 State nonpoint source grant program, equivalent to 
its fiscal year 2007 proposal, a 5 percent decrease from the fiscal 
year 2006 appropriation of $204 million, and an 18 percent overall 
decrease since fiscal year 2004.
    The prospect of a sustained decline in section 319 funding is 
particularly troubling to the UMRBA. For each year from fiscal year 
2001 to fiscal year 2004, the five States in the Upper Mississippi 
River Basin were allocated a total of $34.0 million in nonpoint source 
grants. The proposed fiscal year 2008 funding level for section 319 
grants would result in $27.5 million for the UMRBA States, a reduction 
of 19 percent from the fiscal year 2001 to fiscal year 2004 period.
    Increased resources for the USDA's agricultural conservation 
programs have previously been cited as justification for decreases in 
section 319 funding. However, the USDA programs do not have water 
quality improvement as their primary purpose and do not include a 
monitoring component to measure efficacy. Thus, while the UMRBA 
encourages coordination with USDA conservation programs, it continues 
to be essential to appropriately fund the section 319 program as well. 
Without adequate funding, section 319-supported programs cannot work in 
tandem with the USDA's conservation programs, as originally envisioned, 
and certainly cannot address other pressing nonpoint source needs 
unrelated to agriculture, such as urban runoff and degraded urban 
streams and lakes.
    The UMRBA States urge Congress to restore funding for State 
nonpoint source grants to the fiscal year 2004 level of $237 million, 
at minimum, recognizing that continued progress in addressing nonpoint 
pollution will require significantly increased resources.
                          hypoxia action plan
    The UMRBA is disappointed that the administration's fiscal year 
2008 budget proposal does not include the resources needed to address 
recommendations in the Hypoxia Action Plan, submitted by the 
Mississippi River/Gulf of Mexico Watershed Nutrient Task Force in 
January 2001. The States in the Upper Mississippi River Basin have 
consistently stated that reductions in nutrient inputs to the Gulf of 
Mexico and monitoring to evaluate the effectiveness of these efforts 
will only be possible if the Federal Government provides significant 
new budgetary resources.
    While the UMRBA States support the President's fiscal year 2008 
funding proposal for the Gulf of Mexico Program Office (a total of $4.5 
million), this effort does not supply the major resources needed for 
Upper Mississippi River efforts. Moreover, Targeted Watershed Grants, 
which in past years have supported some hypoxia-related efforts, have 
been proposed for elimination in the fiscal year 2008 budget. The UMRBA 
States are deeply concerned about terminating this successful and well-
received program.
    While the States continue to support the goals and strategies set 
forth in the Action Plan, little progress will be made to reduce the 
Gulf hypoxic zone and improve water quality conditions throughout the 
basin without a major Federal financial commitment. The States of the 
Midwest heartland are being left to work largely through their existing 
programs, with limited resources, to reduce nutrient loading to the 
Gulf of Mexico. This approach is simply not adequate to make progress 
on a problem with the complexity and spatial scope of Gulf hypoxia.
         environmental monitoring and assessment program (emap)
    Within EPA's Human Health and Ecosystems Research program, the 
President has proposed a $5.8 million cut to the Environmental 
Monitoring and Assessment Program (EMAP) in fiscal year 2008. A portion 
of the EMAP program has been dedicated to Great River Ecosystems (EMAP-
GRE), including the Mississippi, Missouri, and Ohio Rivers. EMAP-GRE 
has worked to develop improved science and practical tools that States 
can use to assess the ecological conditions of these Great River 
ecosystems. The proposed cuts in the EMAP budget will likely result in 
the reduction or early termination of important collaborative efforts 
currently taking place between States and EPA on the Upper Mississippi 
River. Additionally, the proposed EMAP budget reduction would likely 
prevent EMAP-GRE from being able to conduct work in the lower 
Mississippi River and would impair the ability to share knowledge 
gained on the upper River with States on the lower River. While the 
UMRBA recognizes that EMAP was conceived as a ``technology transfer'' 
effort rather than an ongoing monitoring program, premature reductions 
in funding will significantly impair knowledge transfer and undercut 
States seeking to implement statistically valid approaches to 
monitoring and assessment. Thus, the UMRBA States urge Congress to 
reject the proposed cut to EMAP's budget and restore EMAP funding in 
order to allow the program to complete its important technology 
transfer mission.
    coordinated implementation of the clean water act on the upper 
                           mississippi river
    Under the Clean Water Act, each State is independently responsible 
for setting water quality standards, conducting water quality 
monitoring, and determining if its waters are ``impaired.'' While this 
framework is appropriate and successful for the waters contained within 
the boundaries of a State, it can be problematic for large border 
waters, such as the Mississippi River. On the Mississippi River, 
differences in States' approaches can result in an unequal and 
uncertain regulatory environment for economic investment, public 
confusion about the quality of the river, inefficient allocation of 
resources, and vulnerability to legal challenge.
    The Mississippi River is at a disadvantage compared to other major 
interstate waterbodies in the United States. There is no program 
designed exclusively to address the unique water quality problems of 
this greatest of all American rivers. While the States have worked 
diligently to protect the quality of the river, they must take funds 
from their budgets allocated to all their rivers, lakes, and streams to 
pursue work on the Mississippi River. The States currently dedicate 
approximately $600,000 annually to Upper Mississippi River water 
quality efforts from their overall water quality budget. In contrast, 
other nationally significant waterbodies receive substantial dedicated 
Federal funds. Examples include:
  --The Great Lakes EPA water quality program is funded at 
        approximately $20 million per year.
  --The Chesapeake Bay Program is slated to receive over $28 million in 
        EPA's fiscal year 2008 budget.
  --The Ohio, Delaware, Susquehanna, and Potomac Rivers all have 
        interstate water quality agencies that receive funding under 
        section 106 of the Clean Water Act, in addition to the funds 
        received by their States. Annual funding for each interstate 
        commission ranges between $500,000 and $1.2 million.
    In order to address the challenges of coordinated Clean Water Act 
program implementation, the UMRBA States propose the creation of a 
unified water quality monitoring, assessment, and standards program for 
the Upper Mississippi River, to be administered by the States of 
Illinois, Iowa, Minnesota, Missouri, and Wisconsin, through the UMRBA. 
To support this initiative, the UMRBA States request that Congress 
provide annual funding to the UMRBA, through the EPA budget, beginning 
at $200,000 in fiscal year 2008 and increasing, by fiscal year 12, to a 
level commensurate with the funding provided to other interstate river 
commissions. This Federal funding will be used in conjunction with 
funding contributions from the Basin States to support this coordinated 
program. Importantly, the UMRBA States believe that this dedicated 
funding for the Upper Mississippi River must be in addition to the 
allocation they currently receive under section 106 of the Clean Water 
Act, and not be taken from their existing section 106 allotments.
                                 ______
                                 
   Prepared Statement of the Upper Peninsula Environmental Coalition
    Mrs. Chairwoman and honorable members of the subcommittee: I 
appreciate the opportunity to present testimony in support of an 
appropriation of $4 million from the Land and Water Conservation Fund 
for the acquisition of 2,000 acres in the Sturgeon River Gorge 
Wilderness by the Ottawa National Forest in the Upper Peninsula of 
Michigan. Although I appear today to speak on behalf of this one 
important Forest Service acquisition need, I commend the chairman and 
subcommittee members for their overall support of Federal land 
acquisition accounts such as the Land and Water Conservation Fund.
    The Upper Peninsula Environmental Coalition was a strong advocate 
for passing the Michigan Wilderness Act of 1987, in which Sturgeon 
River Gorge and other areas in Michigan were designated as U.S. Forest 
Service Wildernesses. I personally have a long, active involvement 
with, and attachment to, this very special place. As a volunteer I 
helped draft the Forest Service's initial management plan for the 
Wilderness. I worked for a number of years as an Ottawa National Forest 
wilderness ranger, primarily in Sturgeon Gorge, mapping out trails and 
campsites, interacting with the public, keeping records of visitor use 
statistics, supervising a prison crew that closed an old eroding trail 
to Sturgeon Falls and built a new trail in a better location, and much 
more. I have led numerous hikes into the gorge, primarily to look at 
the spectacular scenery and geology at and near the Falls, and each 
year I lead birders to several spots in the Wilderness to record bird 
counts for the Ottawa's annual Breeding Bird Census.
    As soon as I began working on the initial management plan, it 
became obvious to me that the core of the Wilderness, and the area that 
primarily made this place special, was on private land. The longer I 
worked there as a wilderness ranger, the more I realized that 
Wilderness visitors, both local and from elsewhere, spent most of their 
time in this area of private land, and it this area that received the 
most impact and contacts among visitors. One encounter with visitors is 
particularly telling. When hiking on the Sturgeon Falls Trail one day, 
I was approached by a hiker who said that he and his family were 
disturbed by a young man lying nude on the rocks by the Falls. Most 
disturbing, though, was that a handgun was on the rocks next to him. 
Unfortunately, since the incident took place on private land, I could 
do little besides write up an incident report. It is because of events 
like this, which represent potential serious problems for the public as 
well as difficult issues in terms of Forest Service management, that I 
am so strong an advocate of public ownership for this land. I am also a 
strong advocate of public ownership because if the land is sold to 
private investors, there is the risk of loss of public access for the 
thousands of people who annually visit the Falls and other parts of the 
Gorge.
    The Ottawa National Forest is located within the glaciated 
landscape of Michigan's Upper Peninsula, where hundreds of lakes and 
streams pool and tumble across nearly 1 million acres. The forest, 
which is defined by Lake Superior to the north, offers a remote sense 
of solitude that is unique to the Upper Midwest. The value of the 
forest lies in its many diverse ecosystems, and is known in particular 
for its hardwood forests, bountiful streams, rivers, lakes, spectacular 
fall foliage, and heavy winter snowfall. The forest offers a wide 
variety of outdoor recreation opportunities, and provides habitat for 
deer fox, snowshoe hares, bald eagles, loons, and bears.
    Located on the Kenton Ranger District of the Ottawa National 
Forest, the Sturgeon River Gorge Wilderness Area was designated by 
Congress in 1987 and is approximately 14,000 acres in size. Among its 
outstanding attributes, the wilderness area includes the spectacular 
Sturgeon River Gorge, a distinctive landform and unique geologic 
feature that is unlike anything else in the Lake States. Congress 
designated the Sturgeon River part of the National Wild & Scenic River 
system in 1992, considered a national natural treasure by many.
    As it cuts through the gorge, the Sturgeon National Wild and Scenic 
River has carved falls, rapids, ponds, oxbows, and terraces along its 
13 mile run. The Wild segments of the Sturgeon River that rushes 
through the wilderness is a spectacular valley gorge 200 to 300 feet 
deep and a mile wide in places, making it the deepest valley in 
Michigan. Here, the river changes from large boulder expanses and sandy 
silt edges of bedrock to rocky, multicolored cliffs pressing on the 
sides of the River. There are numerous and substantial rapids at the 
20-foot Sturgeon Falls, a very prominent waterfall. From the eastern 
rim of the gorge, there are stunning views to take in, particularly in 
the fall when autumn colors create a vivid tapestry. With its rugged 
terrain, mature forests, and remote location, the Sturgeon River Gorge 
Wilderness offers outstanding recreational opportunities including 
hiking, primitive camping, canoeing, whitewater kayaking, hunting and 
fishing. A 10 mile portion of the North Country National Scenic Trail 
runs immediately adjacent to the wilderness on its eastern boundary.
    The Sturgeon River Gorge Wilderness also hosts a variety of 
wildlife habitat, including gray wolves, ruffed grouse, minks, 
woodcocks, snowshoe hares, beavers, fishers, skunks, foxes, and black 
bears. During the winter, white tailed deer occupy the area as a winter 
range. The wilderness area also contains a Lynx Analysis Unit (LAU), 
used to monitor potential habitat for the threatened Canada lynx, and 
contains some of the best habitat in Michigan's upper peninsula for the 
wood turtle, a species listed as a Species of Special Concern by the 
State of Michigan. The Sturgeon River and its tributaries are also 
primarily trout streams, while bald eagles and osprey feed off of what 
is found in the river as well.
    An immediate and short-term opportunity exists this year to acquire 
the last remaining inholding within the Sturgeon River Gorge 
Wilderness, a 2,000-acre property that includes 6.6 miles of the 
Sturgeon Wild & Scenic River as well as Sturgeon Falls and is 
completely surrounded by Forest Service ownership on all sides. The 
available acreage is part of a larger landholding being placed on the 
open market by a utility company divesting portions of its ownership. 
The landowner has agreed to separate out this 2,000-acre natural 
resource gem in order to allow the Ottawa NF to purchase it. If this 
parcel were sold for development or split into fragmented ownerships, 
the Sturgeon River Gorge Wilderness would be irreparably harmed and its 
wilderness character lost forever.
    An appropriation of $4 million from the Land and Water Conservation 
Fund in fiscal year 2008 is necessary for the immediate protection of 
the 2,000-acre Sturgeon River Gorge property, ensuring the integrity of 
the wilderness experience and the protection of a truly unique natural 
resource area.
    Thank you, Mrs. Chairwoman and other distinguished committee 
members, for this opportunity to tell you about this important land 
protection initiative in Michigan's Sturgeon River Gorge Wilderness. 
Again, I commend the committee for your leadership in funding the Land 
and Water Conservation Fund so that our Federal public lands heritage 
in places such as the Ottawa National Forest can be preserved.
                                 ______
                                 
                Prepared Statement of the USGS Coalition
                                summary
    The USGS Coalition appreciates the opportunity to submit testimony 
in support of increased appropriations for the United States Geological 
Survey (USGS) in fiscal year 2008. We continue to believe that the USGS 
budget request is below what is required to ensure the long term 
vitality of the agency. The USGS Coalition urges Congress to increase 
the budget of the U.S. Geological Survey to $1.2 billion in fiscal year 
2008.
    The USGS Coalition is an alliance of 70 organizations united by a 
commitment to the continued vitality of the unique combination of 
biological, geographical, geological, and hydrological programs of the 
United States Geological Survey. The Coalition supports increased 
Federal investment in USGS programs that underpin responsible natural 
resource stewardship, improve resilience to natural and human-induced 
hazards, and contribute to the long-term health, security and 
prosperity of the Nation.
    The USGS plays a crucial role in protecting the public from natural 
hazards such as floods and earthquakes, assessing water quality, 
providing emergency responders with geospatial data to improve homeland 
security, analyzing the strategic and economic implications of mineral 
supply and demand, and providing the science needed to manage our 
natural resources and combat invasive species that can threaten 
agriculture and public health. The USGS is working in every State and 
has nearly 400 offices across the country. To aid in its 
interdisciplinary investigations, the USGS works with over 2,000 
Federal, State, local, tribal and private organizations.
                           funding shortfall
    The President's fiscal year 2008 budget request for the USGS is 
$975 million, a decrease of approximately $8 million or 1 percent below 
the fiscal year 2007 operating plan. The USGS budget has declined in 
real dollars for 5 consecutive years and it would decline for a sixth 
year if the fiscal year 2008 budget request is enacted (Figure 1).
    In real terms, funding for the USGS is currently at its lowest 
level since fiscal year 1996, when the National Biological Service was 
first integrated into the USGS (Figure 1). The decline in funding for 
the USGS during this time period would have been greater if Congress 
had not repeatedly restored proposed budget cuts. By contrast, overall 
Federal funding for research and development has increased 
significantly in real terms since fiscal year 1996.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Over the past several years, natural hazards negatively affected 
communities across the country, including flash floods in California 
and hurricanes in Florida. Forest fires, which burned a total of 
8,653,883 acres of land in the United States between January 1 and 
September 12, 2006, exceeded the totals for the same period of any 
other year since 2000. Since an earthquake generated a tsunami that 
caused approximately 230,000 fatalities near the Indian Ocean in 2004, 
people around the globe have a greater awareness and appreciation of 
the need to improve environmental monitoring, forecasting, and warning 
systems that can prevent natural hazards from becoming natural 
disasters
    Mitigating the impacts of natural disaster is a core function of 
the USGS. It operates seismic networks and conducts seismic hazard 
analyses that are used to formulate earthquake probabilities and to 
establish building codes across the Nation. The USGS monitors volcanoes 
and provides warnings about impending eruptions. It operates a stream 
gage system that enables the National Weather Service to issue flood 
warnings. Research on ecosystem structure and function assists forest 
and rangeland managers with forecasting fire risk and managing natural 
systems following fires. The USGS plays a pivotal role in reducing 
risks from floods, wildfires, earthquakes, tsunamis, volcanic 
eruptions, landslides and other natural hazards that cost hundreds of 
lives and billions of dollars in damages every year.
    Equally as important, the USGS plays a critical role in 
bioinformatics and managing natural resources, essential to our 
economy, security, and environment. The. USGS provides fundamental 
scientific data for wildlife and ecosystem management (e.g., data for 
Fish and Wildlife Service on polar bear populations), control of 
invasive species (e.g., snakehead fish, zebra mussels, and tamarisk) 
and wildlife diseases (e.g., Chronic Wasting Disease) that can cause 
billions of dollars in agricultural losses.
    Evolving technology requires recurring USGS assessments of 
previously unexploited mineral and emerging energy resources, including 
unconventional fossil fuels, geothermal resources, and renewable energy 
sources such as biofuels.
    Greater investment in the USGS is required. This investment could 
be used to strengthen USGS partnerships, improve monitoring networks, 
produce high-quality digital geospatial data and deliver the best 
possible science to address societal problems and inform 
decisionmakers.
    The USGS Coalition is grateful to Congress for its leadership in 
restoring past budget cuts and strengthening the U.S. Geological. 
Survey. The House Appropriations Committee has expressed the importance 
of funding USGS science programs in the base budget. Likewise, the 
Senate Appropriations Committee said: ``The strength of the Survey's 
existing efforts in many program areas is deserving of additional 
support. The committee urges that future budget requests place a 
stronger emphasis on the Survey's core programs, which have proven 
value and strong public support'' (S. Rpt. 108-341).
                          usgs budget request
    The USGS Coalition urges Congress to increase the budget of the 
U.S. Geological Survey to $1.2 billion in fiscal year 2008, which is 
necessary for the agency to continue providing critical information to 
the public and to decisionmakers at all levels of government. The 
budget increase recommended by the Coalition would enable the USGS to 
restore the science cuts proposed in the budget request, including the 
Mineral Resources program, the Water Resources Research Institutes, the 
Priority Ecosystem Science program and the Contaminant Biology program, 
accelerate the timetable for deployment of critical projects (e.g., the 
National Streamflow Information Program and the multi-hazards 
initiative), and launch new science initiatives (e.g., pilot phase of 
the National Water Quality Monitoring Network).
    The President's fiscal year 2008 budget request would cut funding 
for the USGS by approximately $8 million or 1 percent to $975 million 
compared with the fiscal year 2007 operating plan. The budget request 
would add approximately $24 million for fixed costs as well as $5 
million to support the Healthy Lands Initiative and $3 million for the 
Ocean Action Plan. The USGS budget request would provide funding for 
several initiatives, including the continued development of Landsat 8, 
increased energy research, and cooperative research units. These 
initiatives deserve the support of Congress.
    The USGS budget request would cut more than $20 million from the 
Mineral Resources program, a decrease of more than 40 percent that 
would decimate the program and necessitate buyouts of hundreds of 
Federal workers. The budget request would also eliminate all funding 
for the Water Resources Research Institutes ($6.4 million in fiscal 
year 2006), which are located in all 50 States. It would also cut 
$650,000 from the Contaminant Biology program to study endocrine 
disruptors, particularly right here in the Nation's capital. We 
encourage Congress to restore these cuts, but this funding should not 
come at the expense of other high priority programs elsewhere in the 
USGS budget.
    The USGS Mineral Resources program is an essential source of 
unbiased research on the Nation's mineral resources. This guidance is 
important to reduce the environmental impacts of mining and to maintain 
the growing value of processed materials from mineral resources that 
accounted for $478 billion in the U.S. economy in 2005, an increase of 
8 percent over the previous year. The proposed cuts would terminate 
multidisciplinary research that has important implications for public 
health (such as studies on mercury, arsenic and other inorganic 
toxins), environmental protection, infrastructure, economic 
development, and national security.
    In addition to restoring proposed program cuts, we encourage 
Congress to consider additional increases that would enable the USGS to 
meet the tremendous need for science in support of public policy 
decisionmaking. More investment is needed to strengthen USGS 
partnerships, improve monitoring networks, implement important 
bioinformatics programs, produce high-quality digital geospatial data, 
and deliver the best possible science to address societally important 
problems. The USGS has a national mission that directly affects all 
citizens through natural hazards monitoring, water resource studies, 
biological and geological resource assessments, and other activities.
    Thank you for your thoughtful consideration of our request. For 
additional information or to learn more about the USGS Coalition, 
please visit www.USGScoalition.org or contact co-chairs Robert Gropp of 
the American Institute of Biological Sciences (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91e3f6e3fee1e1d1f0f8f3e2bffee3f6">[email&#160;protected]</a>) or 
Craig Schiffries of the National Council for Science and the 
Environment (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2655454e4f40404f4f4355666865756349484a4f484308495441">[email&#160;protected]</a>).
                                 ______
                                 
          Prepared Statement of the USGS Streamgage Coalition
    The 27 undersigned organizations support the U.S. Geological 
Survey's Cooperative Water Program (CWP) and National Streamflow 
Information Program (NSIP) and urge your support for a significant 
funding increase for these two important programs. For fiscal year 
2008, we believe a $78 million appropriation for the CWP and a $34 
million appropriation for the NSIP are necessary. These levels of 
support are equivalent to the request presented to the Interior 
Department and the OMB in a September 30, 2005 letter endorsed by 
Senators Bingaman, Bunning, Cornyn, Craig, Domenici, Jeffords, Kyl, 
Murkowski, Sarbanes, and Smith. The $4.2 million increase requested by 
the administration for the NSIP is a step in the right direction, but 
we are concerned about a corresponding $4.2 million decrease proposed 
for the CWP.
    Many of our members are active, financial partners in the 
Cooperative Water Program and all of us rely on the trustworthy data 
collected and disseminated by both of these important programs.
    The fiscal year 2006 appropriation of $62.8 million for the CWP was 
not sufficient to stop the continuing erosion of program capability 
which has lead to the failure, elimination or obsolescence of many 
long-term streamgages and reduced our water-related planning, 
forecasting and emergency warning capabilities. This ongoing erosion 
has been amplified substantially by the loss of Cooperators' cost-
share. An appropriation of $78 million this year would be quite modest 
in light of the $138 million the Cooperators have contributed annually 
since fiscal year 2004.
    Similarly, at $13.9 million for fiscal year 2006, NSIP was 
seriously under-funded. In 1998, given the Cooperators' inability to 
continue to absorb increasing Federal costs associated with many gages 
with long-term records of national significance, the Congress created 
the NSIP with the idea it would be 100 percent Federally funded. The 
National Research Council's Committee on Water Resources Research 
concluded in 2004 that USGS plans for NSIP would provide a ``sound, 
well-conceived program that meets the Nation's needs for streamflow 
measurement, interpretation, and information delivery.'' Still, NSIP 
appropriations have not covered even 20 percent of the annual program 
cost.
    The need for accurate streamflow, groundwater and other water 
resource data continues to increase as our population, economy and 
myriad uses of land and water continue to grow. Information from the 
NSIP and CWP is used on a regular basis by Federal, State, tribal, and 
local agencies and by many private businesses, landowners, public 
interest organizations and individuals. These two USGS programs have a 
proven record of providing reliable information that is essential to 
public and private decision makers for a wide variety of planning, 
design and management functions that include:
  --forecasting of flood and drought conditions and issuing emergency 
        advisories;
  --identifying flood risk areas for protection of lives and property 
        and reducing disaster relief expenses;
  --projecting future water needs and availability for agricultural, 
        municipal, and industrial uses;
  --designing of bridges, dams and other infrastructure;
  --managing hydropower, water supply, environmental and navigation 
        releases from reservoirs;
  --managing fisheries and protecting endangered species and their 
        habitat;
  --protecting water quality; and
  --planning water-related recreation.
    The demand for timely information is clearly reflected in the 
number of requests to the USGS internet sites providing streamflow 
data, which are visited at an average rate of 1 million times each day; 
this rate has been increasing at approximately 30 percent annually.
    While so many depend on CWP and NSIP data, USGS funding for these 
programs--with flat or nearly flat appropriations in the face of 
continually rising costs--threatens the availability of critical data 
needed to inform many complex issues.
    The Cooperative Water Program has served for over 110 years as a 
Federal/non-Federal partnership. Historically, the CWP was funded 
through 50/50 cost-share agreements. Today, however, approximately 69 
percent of the funding for the CWP comes from non-USGS sources as 
Federal funding has not kept up with increases in personnel and 
operating expenses. During this decade, more than 1,100 valuable 
stations, many with over 30 years of continuous operation, have been 
lost. Another 216 stations are currently at risk due to the lack of 
adequate Federal funds.
    Severe and recurring flooding and drought have caused extensive 
loss of life, property damage and economic hardship in so many parts of 
our country, and reliable science to support sound water resource 
management has never been more important. Without timely information 
from the CWP and NSIP, our safety, health, property, businesses and 
many elements of our natural environment are at greater risk.
    Considering the magnitude of our ongoing disaster and emergency 
expenses and the wide range of Federal responsibilities and programs 
that depend on CWP and NSIP information, an increase of $35 million for 
these programs in fiscal year 2008 is clearly in the national interest. 
It would reverse the loss of long-term gages and provide essential 
information for analysis of climate change, forecasting floods and 
droughts, administration of water rights, managing interstate water 
supplies and fulfilling Federal treaty, compact and Native American 
trust responsibilities.
    Together, we urge you and the Senate Appropriations Committee to 
give a high priority to appropriating sufficient funds for these vital 
programs to better match non-USGS funding and fully realize the 
potential benefits to the Nation. If we can provide additional 
information, please contact Peter Evans at the Interstate Council on 
Water Policy (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4939212c093b203f2c3b3a3e263b22672a2624">[email&#160;protected]</a> or 703-622-6660) or any other of the 
signatories below.
               endorsed by the following 27 organizations
    American Canoe Association; American Institute of Hydrology; 
American Rivers; American Society of Civil Engineers; American Water 
Works Association; American Whitewater; Appalachian Mountain Club; 
Association of American State Geologists; Association of State Dam 
Safety Officials; Association of State Floodplain Managers; Association 
of State and Interstate Water Pollution Control Administrators; Coastal 
States Organization; Environmental Defense; Federation of Flyfishers; 
Hydropower Reform Coalition; Interstate Council on Water Policy; 
Irrigation Association; National Association of Flood and Stormwater 
Management Agencies; National Flood Determination Association; National 
Ground Water Association; National Water Resources Association; 
National Wildlife Federation; River Network; The Nature Conservancy; 
Trout Unlimited; Water Environment Federation; and Western States Water 
Council.
                                 ______
                                 
        Prepared Statement of the Village of Wellington, Florida
    Mr. Chairman and members of the subcommittee: On behalf of the 
Village of Wellington, I am pleased to submit this statement for the 
record in support of our request for funding in the amount of $2.7 
million in the fiscal year 2008 Appropriation Bill for Interior, 
Environment & Related Agencies to support the Village's efforts to 
comply with the mandates of the Everglades Forever Program.
                       project executive summary
    The 1994 Everglades Forever Act (EFA) established water quality 
goals for the restoration and preservation of the Everglades Protection 
Area. It also identified Basin B within the Village of Wellington as an 
area that had to meet the new phosphorus standard by December 31, 2006 
for its stormwater discharges into the Arthur Marshall Loxahatchee 
National Wildlife Refuge (conservation Area No. 1). To meet these 
mandates, the Village created the Village of Wellington Water Clean Up/
Phosphorus Removal Project.
    The Acme Basin B drainage has been one of the biggest issues and 
challenges the Village has faced. Wellington has spent the last several 
years working toward compliance with the EFA. In March 2005, the 
Village of Wellington began constructing its improvement per the 
approved Memorandum of Understanding (MOU) with the South Florida Water 
Management District (SFWMD) to redirect Basin B waters to the C-51 
canal and then to STA 1-E.
                          project description
    The Acme Basin B Discharge project is one of 55 projects that 
comprise the Comprehensive Everglades Restoration Plan (CERP). The 
Basin B drainage area is part of the Acme Improvement District, which 
was created by the State of Florida in 1953 to provide drainage for 
agricultural land in central Palm Beach County. During the 50 years 
since its inception, land uses within the improvement district have 
changed dramatically. The Acme Improvement District now serves the 
Village of Wellington with over 55,000 residents, and impacts the West 
Palm Beach metropolitan area with a population of approximately 1.3 
million. Basin B consists of 8,680 acres of low-density development 
located in the southern half of the Improvement District. The western 
boundary of Basin B abuts the Loxahatchee Refuge.
    The benefits created by the CERP Acme Basin B Discharge project are 
largely related to restoration of the natural environment. The health 
of the Loxahatchee Refuge and Everglades National Park will be enhanced 
with improved quality and quantity of water generated from within the 
basin. Specifically, the project will provide the equivalent of 28.5 
million gallons of water per day to the Everglades, which, without the 
project, would be needlessly sent to the ocean via the Lake Worth 
Lagoon.
    Wellington was the first Everglades community to develop and 
implement a comprehensive Everglades strategy with the South Florida 
Water Management District, which included:
  --Removing phosphorus at the source to reduce the need for costly 
        infrastructure; Best Management Practices have lowered the 
        phosphorus levels and helped reduce clean up costs;
  --Use of partnership opportunities to make environmental water 
        cleaner and available when and where the Everglades need it;
  --Wise use of resources to ensure the most cost effective solution, 
        taking the least land out of productive use and giving the most 
        up front clean-up;
  --Complete redesign of the Wellington drainage system to divert 
        unclean water from direct discharge to Loxahatchee Wildlife 
        Preserve;
  --This non-traditional, Best Management Practices focus will allow 
        the Basin B Project to use a large portion of a section of land 
        for recreation and environmental education in addition to flood 
        attenuation rather than building another clean-up marsh.
    As part of its Basin B Water Clean Up Initiative, the Village of 
Wellington assembled a ``Surface Water Action Team'' (SWAT) comprised 
of key personnel and expert consultants. This Initiative is presently 
working on a Phase II BMP Ordinance, along with an updated Cooperative 
Agreement with SFWMD.
    The ongoing water quality monitoring program has indicated a fairly 
significant decrease in average phosphorus concentrations since 1999. 
In 1999, the average Basin B phosphorus concentration discharged to the 
Loxahatchee Refuge was 189 parts per billion (ppb). In 2004, the 
average concentration had dropped to 67 ppb, which is a large decrease 
in phosphorus levels. Although inconclusive, it is likely that the 
implementation of the BMP Ordinance played a part in this decrease in 
phosphorus concentrations.
    In March 2005, the Village of Wellington began constructing its 
improvement per the approved Memorandum of Understanding (MOU) with 
SFWMD to redirect Basin B Waters to the C-51 Canal and then to STA 1-E. 
The Village projects all its improvements to be completed well ahead of 
schedule.
    One of the final components to this project is the successful 
implementation of Section 24 Recreational Wetland Acquisition, Planning 
and Development Study. This project was established to examine land 
that is presently owned by the South Florida Water Management District 
for potential development by the Village as a wetlands park for the 
purpose of preserving the wetlands and for potential environmental and/
or recreational uses. The main use of the property is flood 
attenuation. Other potential uses include recreational use, consisting 
of elevated nature boardwalks, trails, horse trails, storm water 
retention and a recharge area. The Village is seeking assistance with 
this project through matching grant opportunities as part of the Basin 
B solution.
    Wellington is currently refining its agreements with the South 
Florida Water Management District to ensure that structured parts of 
the project are built on time and within budget, and that the unique 
recreational aspects fit into the Wellington Community and enhance 
citizen opportunities to understand the Everglades. To do this, 
Wellington and the SFWMD continue to work together to complete the 
project and review operational progress to determine the optimal and 
practical operations of the redesigned system.
    Carol Wehle, Executive Director of South Florida Water Management 
District has stated the cooperative mission very well: ``Restoring the 
Everglades is one of the most significant restoration efforts world-
wide not only because of the significance of its natural communities, 
but also because of the urban communities that live within its 
watershed. Science and engineering can only go so far. Residents and 
communities also have a critical role, and we are especially proud of 
the working relationship we have developed with Wellington. The 
commitments from communities like Wellington are proving that it is 
possible to work cooperatively toward solutions that create benefits 
for everyone involved, including the environment.''
                             funding needs
    Since 1999, the Village has invested over $5 million (not including 
$5.4 million for Pump Station renovations currently scheduled in 
conjunction with this project) of its own funds toward the preservation 
and, in some cases, restoration of environmentally sensitive land. We 
are committed to continuing our investment and our progress, and we 
anticipate additional costs to the Village of $3.25 million. The 
project under the recently approved Basin B agreement has a total 
estimated cost of approximately $22 million (which will be shared with 
South Florida Water Management District and the Federal Government).
    For fiscal year 2008, the Village of Wellington is seeking $2.7 
from the Environmental Protection Agency through your Appropriations 
subcommittee.
    Thank you for your consideration of our request.
                                 ______
                                 
        Prepared Statement of the Virginia Native Plant Society
    The Virginia Native Plant Society is dedicated to the conservation 
of our native flora. We strongly urge the subcommittee to provide 
increases to the President's Budget for fiscal year 2008 including a 
major research initiative on the effect of climate change on native 
flora, recovery of endangered species, habitat conservation, native 
plant materials development, biological research, and control of 
invasive species as follows:
New research initiative on the effect of climate change on native flora 
        and ecosystems
    U.S. Geological Survey (USGS) Surveys, Investigations and 
Research--+$10.0 million
Land acquisition
    U.S. Fish and Wildlife Service (FWS)--+$35.0 million
    National Park Service (NPS)--+$30.0 million
    U.S. Forest Service (USFS)--+$35.0 million
Endangered species recovery
    FWS Resource Management--+$25.0 million
Habitat Conservation
    FWS Resource Management--+$10 million
Land Management Agency Botanist Staffing
    Bureau of Land Management (BLM)--Management of Land & Resources--
+$15 million
    FWS--Resource Management--+$5 million
    NPS Operation of the National Park System--+$5 million
    USFS--National Forest System--+$20 million
Native Plant Materials Development Program
    BLM Wildland Fire Management--+$4.0 million
    USFS--NFN3--+$5.0 million
Invasive exotic species research, monitoring, and control
    USGS--Surveys, Investigations and Research--+$2.0 million
    FWS--Resource Management--+$7.0 million
    National Fish and Wildlife Foundation--+$2.0 million
    NPS--Operation of the National Park System--+$2.0 million
    Bureau of Indian Affairs (BIA)--Operation of Indian Programs--+$1.0 
million
    USFS--National Forest System--+$5 million
    State and Private Forestry--+$25 million
    Research--+$2 million
    Madam Chairman, it is time to take up the biggest challenge of this 
century--climate change and its effect on our natural resources, 
particularly our native flora. Plants are the basis of virtually all 
life on earth, including our own, in an intricate web of 
interdependence. Some of the following is excerpted from a recent 
statement by the New England Wildflower Society:
    The increase in surface temperature over the 20th century for the 
Northern Hemisphere is likely to have been greater than for any other 
century in the last 1,000 years, and it is projected that on a global 
basis in the 21st century, earth will experience higher maximum 
temperatures, higher minimum temperatures, more intense precipitation 
events, increased summer drying, and increased storm events, among 
other changes. These changes pose a threat to all forms of life and 
ecosystems and pose a direct challenge to the conservation of the flora 
and fauna of the United States. Among the changes we can expect are:
  --Plant species are expected to shift with their climate zones. The 
        new plant communities that result from these shifts are likely 
        to be different from current plant communities because 
        individual species will very likely migrate at different rates 
        and have different degrees of success in establishing 
        themselves in new places.
  --The geographical ranges of many species in North America, 
        especially forest species, are projected to shift northward. By 
        the end of the 21st century for example, the optimal range for 
        some northeastern tree species could have moved 100 to 300 
        miles (or more) northward.
  --The numbers of endangered plant and animal species are likely to 
        rise, as habitats change.
  --An increase in diseases, parasites, and invasive species can be 
        expected. Temperature changes can weaken the immune systems of 
        many species while encouraging the growth of many pests and 
        pathogens.
    Nearly one-third of the land of this country is Federally-
administered. It is up to the Federal Government to take the lead in 
plant and habitat protection and conservation action based on the best 
scientific rationale. Plant community concepts will likely need 
revision as assemblages of plants become rearranged and more plants 
become threatened and endangered.
    We propose a major $10 million initiative under biological research 
in the U.S. Geological Survey to bring together some of the best 
scientific minds from other agencies, from universities, and elsewhere 
to develop long term strategies and plans of action to deal with the 
climate crisis and its effect on flora, on habitat for wildlife, and on 
ecosystems.
    Furthermore, large tracts of unfragmented land are important for 
plant and animal species to be able to migrate during the coming 
climate crisis. We propose a re-examination of the land acquisition 
priorities of the bureaus to look at such tracts of land, and an 
increase of $100 million to the President's budget to acquire high 
priority land.
    Within the Fish and Wildlife Service we propose an increase of 
$25.0 million for endangered species recovery and an increase of $10 
million to be used for the highest priority habitat conservation 
projects.
    We fully concur with the assessment of the Native Plant 
Conservation Campaign of the Center for Biological Diversity that the 
country's land management agencies are not properly staffed with an 
adequate number of botanists to address the huge habitat issues which 
face natural resource managers. We propose an increase in the number of 
botanists for BLM +$15 million, FWS +$5 million, NPS +$5 million, and 
USFS +20 million.
    The native plant materials development program has been a 
successful partnership among Federal and State agencies to supply and 
manage native plant materials for restoration and rehabilitation 
projects on Federal lands. We propose an increase of $4 million for 
this program for the Bureau of Land Management and $5 million for the 
U.S. Forest Service.
    Finally, Madam Chairman, our Federal land managers continue to wage 
a war of insurgency from invasive exotic species. These threats will 
only increase with major climate shifts.
    In the Commonwealth of Virginia our bountiful and diverse flora are 
under serious threats from invasive exotic plant species. We in the 
Virginia Native Plant Society have been working locally with the Nature 
Conservancy to help control invasives at National Park Service sites in 
the Potomac Gorge, which is ``one of the most important natural areas 
in the Mid-Atlantic Region, because of its plant diversity,'' (Virginia 
Natural Heritage program). Eighty-seven percent of all plots surveyed 
by the Virginia Department of Conservation and Recreation in the 
Potomac Gorge on the Virginia side had at least one species of invasive 
exotic plants present.
    The California Invasive Plant Council States that invasive plants 
are one of the most serious environmental issues facing California. 
They displace native plants; degrade or eliminate habitat and forage 
for wildlife; threaten endangered species; impact recreation; affect 
fire frequency; alter soil properties; and decrease biodiversity. 
Thousands of acres of National Forests and Grasslands in the Pacific 
Southwest Region are degraded by infestations of invasive, non-native 
plants. We propose an increase of $5 million for the National Forest 
System for invasives control and monitoring.
    The Forest Service's State and Private Lands funding is vital to 
keep the U.S. economy and environment from being severely affected by 
invasive species which threaten agriculture, forests, rangeland, water, 
and natural areas. We ask for a $25 million increase for State and 
Private Lands.
    With the greater exchange of global goods also comes greater 
transfer of invasive species, including exotic pests and pathogens. We 
propose that the subcommittee add $1 million for insect and disease 
research and $1 million for invasive plant research.
    Madam Chairman, the National Wildlife Refuges need particular 
support in controlling invasive exotic plant species that threaten 
habitat, because their primary mission is to preserve refuges for 
wildlife. Birds and pollinators and other wildlife depend on a diverse 
array of plants to provide food through all the seasons and during 
migration. Invasive exotic plants become huge monocultures, which 
destroy that diversity and threaten the survival of species. Invasive 
species now spread at an estimated rate of 14 million acres per year, 
making them the number one threat to the Nation's 100-million-acre 
National Wildlife Refuge System. Climate change with further exacerbate 
this problem.
    We ask that the committee add a total of $7.0 million to the budget 
request: $2 million for control and management and $2 million for 
restoration; $1 million for the Invasives with Friends program; $1 
million for early detection and rapid response; and $1 million for 
prevention.
    Madam Chairman, we also strongly support the work of the National 
Fish and Wildlife Foundation in its Pulling Together Initiative, which 
helps create partnerships among Federal, State, and local agencies, 
private landowners, and others to develop invasive plant management 
projects. We propose an increase of $2 million for the Pulling Together 
Initiative.
    We propose an increase of $2 million to the operations budget of 
the National Park Service to fund invasives control and management.
    We also propose an increase of $2 million for research related to 
invasive species in the U.S. Geological Survey for the National 
Institute of Invasive Species Science. Such biological research can 
benefit all the land managing bureaus.
    Finally, with tribal land exceeding 50 million acres, we propose an 
increase of $1 million for the Bureau of Indian Affairs for control and 
management of invasive species.
    Madam Chairman, please support funding increases to protect our 
native flora, habitats, and ecosystems. Thank you for the opportunity 
to provide this testimony to the subcommittee.
                                 ______
                                 
  Prepared Statement of the Wilderness and Public Lands Izaak Walton 
                           League of America
    I thank you for the opportunity to present this testimony in 
support of an appropriation of $3.5 million from the Forest Legacy 
Program to protect more than 38,000 acres of forestlands in Koochiching 
County, Minnesota.
    I also urge your support for a significant increase in funding for 
the Forest Legacy Program in fiscal year 2008 to enable the protection 
of more forest resources than are proposed in the President's budget. 
As you may know, States and territories submitted 92 projects this 
year, but only 14 are proposed for funding. Though Koochiching was 
included in the budget proposal, it was included for $1.75 million--
only half the level of Federal funding needed for the project. The 
proposal is inadequate if we are to ensure the continued existence of 
forests across this country, especially in Minnesota, and your support 
is appreciated.
    The Izaak Walton League of America is a nonprofit conservation 
organization of some 40,000 hunters, anglers, and others who enjoy the 
outdoors. Since our founding in 1922, League members and staff have 
worked on a host of forest conservation issues such as the Forest 
Legacy Program. Our Minnesota Division and our Grand Rapids Wes Libbey 
Chapter (located in north-central Minnesota) have already made the 
Forest Legacy Program a high priority for funding and support.
    Minnesota's forests are facing great challenges from fragmentation 
of ownership and the conversion of land to nonforest uses. The 
extensive recreational opportunities and the scenic serenity of the 
northern woods crisscrossed by clear streams and dotted by fishable 
lakes and ponds attract visitors who enjoy the natural resources 
present in the forests as well as development that threatens them. In 
order to protect these forestlands and resources, multiple efforts and 
partnerships at different levels are underway, including the Forest 
Legacy Program.
    A 38,300-acre portion of a larger 127,000-acre block of forestland 
in Koochiching County in northern Minnesota is now available for 
protection through the Forest Legacy Program. The purchase of the block 
has been separated into three phases. The first phase, protecting over 
51,000 acres, will be completed with funding from State and private 
sources in 2007. The second and third phases, each including 
approximately 38,300 mostly consolidated acres, will use State funds as 
well as Federal Forest Legacy appropriations of $3.5 million for each 
phase. In total $7 million of Federal funds will be leveraged with $24 
million from State and private sources for a conservation easement on 
the entire property, which is owned by a timber investment company.
    The conservation of these forestlands will have significant local 
and regional benefit. The various tracts are adjacent to the Superior 
National Forest, lands conserved on the Bois Forte Indian Reservation, 
and the largest complex of State forests in Minnesota. Connecting these 
conserved tracts protects vast wildlife habitat, ensures public access 
for recreation, and maintains the practice of sustainable forestry that 
supports the local economy.
    The northern forests of Minnesota provide exceptional habitat for a 
variety of species. The Koochiching forests include habitat for two 
Federally listed threatened species: bald eagles and Canada lynx, and 
also include habitat for 17 State-listed threatened or endangered 
species. Additionally, black bears, moose, martens, and fishers are 
found on the Koochiching property. Portions of the property contain 
peatland ecosystems, a resource that the State has recognized for 
protection. Minnesota is second only to Alaska in the acreage of 
peatlands in the United States. Miles of streams and rivers on the 
property flow into Rainy River and Rainy Lake on the Canadian border 
and support fish habitat. The area is located on a principal route of 
the Mississippi flyway for migrating waterfowl.
    The diversity of wildlife in the Koochiching forests also provides 
hunters with exceptional opportunities. The area is well known for the 
availability of hunting grouse, woodcock, and white tail deer. In 
addition to hunting, these forestlands provide opportunities for 
camping, hiking, biking, fishing, skiing, snowmobiling, and ATV use. 
The outdoor recreation industry in Minnesota contributes $4.2 billion 
annually to the State's economy and provides 70,000 jobs to 
Minnesotans.
    The Koochiching forests themselves are a significant socio-economic 
engine in the region. The 127,000 acres protected in the conservation 
easement will remain available as permanent working forests using 
sustainable timber management. The timber harvested from the forest is 
transported to mills in International Falls, Bemidji, Duluth, and Grand 
Rapids. Industries associated with timber and forestry in Koochiching 
County provide 75 percent of the working population with jobs. 
Additionally the Bois Forte Indian Tribe produces over 4 million pounds 
of organically certified wild rice from Nett Lake annually using 
traditional tribal methods of agriculture developed over centuries. 
Sections of the Koochiching forestlands are in the Nett Lake watershed. 
The conservation of forests associated with Nett Lake will ensure the 
continued rice growing practices of the tribe, sustaining their culture 
and economy.
    The Koochiching property's forest ecosystem thrives on the high 
water quality of the streams, creeks, rivers, and lakes in the broader 
Rainy River watershed. Portions of the property drain south into Nett 
Lake; other rivers and lakes on the property flow north through western 
Ontario and Manitoba into Hudson Bay, more than 600 miles north of 
Koochiching County. Clean water from these streams not only benefits 
wildlife and the peatlands ecosystem, but also residents of the 
watershed, notably in International Falls, who use it for drinking 
water, and recreational users at Voyageurs National Park and the 
several State forests and parks in the region. The Koochiching property 
also includes Beaver Brook Falls, a 20-foot waterfall that is a unique 
natural feature in the watershed that was left level by glaciers.
    Because of the exceptional natural, economic, and recreational 
resources on the Koochiching property, the purchase of the conservation 
easement has a broad coalition of support. Partners include the 
Minnesota Department of Natural Resources, The Nature Conservancy, the 
Minnesota Forest Resources Council, Koochiching County, business and 
timber groups, sportsmen and recreational associations, and 
conservation organizations.
    An appropriation of $3.5 million in fiscal year 2008 from the 
Forest Legacy Program for the second phase of this project will protect 
over 38,000 acres of northern Minnesota forest and complement 51,000 
acres of previously protected land under the same ownership.
    Thank you again, Madame Chairwoman, for the opportunity to present 
this testimony in support of the Koochiching Forest Legacy project.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alabama Trails Association, prepared statement...................   131
Alexander, Senator Lamar, U.S. Senator from Tennessee, statement 
  of.............................................................    91
Allard, Senator Wayne, U.S. Senator from Colorado:
    Prepared statements.......................................5, 39, 90
    Questions submitted by......................................78, 125
    Statements of................................................ 4, 89
Alliance to Save Energy, prepared statement......................   132
American:
    Arts Alliance, prepared statement............................   134
    Forest & Paper Association, prepared statement...............   140
    Institute of Biological Sciences, prepared statement.........   147
    Public Power Association, prepared statement.................   148
    Rivers, prepared statement...................................   150
    Society for Microbiology, prepared statement.................   153
    Symphony Orchestra League, prepared statement................   155
APS-Four Corners Power Plant, prepared statement.................   159
Archery Trade Association, prepared statement....................   160
Association of:
    American Universities, prepared statement....................   161
    Fish and Wildlife Agencies, prepared statements............160, 163
    Preserve Cape Cod, prepared statement........................   166
    State Drinking Water Administrators, prepared statement......   167

Bear Trust International, prepared statement.....................   160
Bennett, Senator Robert F., U.S. Senator from Utah, prepared 
  statement......................................................    68
Biomass Energy Research Association, prepared statement..........   170
Bird Conservation Funding Coalition, prepared statement..........   172
Boone and Crockett Club, prepared statement......................   160
Bowhunting Preservation Alliance, prepared statement.............   160
Bunn, Rosemary S., prepared statement............................   173

California:
    Industry and Government:
        Central California Ozon Study Coalition..................   174
        Coalition, prepared statement............................   175
    State Coastal Conservancy, prepared statement................   177
Cascade Land Conservancy, prepared statement.....................   178
Cedar City/Brian Head Tourism & Convention Bureau, prepared 
  statement......................................................   180
Central Arizona Water Conservation District, prepared statement..   181
Chugach Regional Resources Commission, prepared statement........   183
City of Healdsburg, CA, prepared statement.......................   184
Coachella Valley Water District, prepared statement..............   185
Cochise Trails Association, prepared statement...................   186
Cochran, Senator Thad, U.S. Senator from Mississippi:
    Prepared statements..........................................39, 84
    Statement of.................................................    84
Colorado:
    River:
        Basin Salinity Control Forum, prepared statement.........   188
        Board of California, prepared statement..................   190
        Commission of Nevada, prepared statement.................   191
    Springs Utilities, prepared statement........................   191
    Water Congress, prepared statement...........................   192
Confederated Tribes of the:
    Umatilla Indian Reservation (CTUIR), prepared statement......   192
    Warm Springs Reservation of Oregon, prepared statement.......   195
Congressional Sportsmen's Foundation, prepared statement.........   160
Connecticut:
    Chapter of the Sierra Club, prepared statement...............   197
    Ornithological Association, prepared statement...............   198
Conservation:
    Commission of Westbrook, Connecticut, prepared statement.....   201
    System Alliance, prepared statement..........................   198
Coquille Indian Tribe, prepared statement........................   202
Corps Network, prepared statement................................   204
Cradle of Texas Conservancy, prepared statement..................   207
Craig, Senator Larry, U.S. Senator from Idaho:
    Questions submitted by.......................................   120
    Opening statements of.....................................2, 36, 83

Dance/USA, prepared statement....................................   208
Defenders of Wildlife, prepared statement........................   210
Delaware Highlands Conservancy, prepared statement...............   213
Denver Water, prepared statement.................................   214
Domenici, Senator Pete V., U.S. Senator from New Mexico:
    Questions submitted by.......................................    75
    Statement of.................................................     6
Dorgan, Senator Byron L., U.S. Senator from North Dakota, 
  statement of...................................................     4
Doris Day Animal League, prepared statement......................   254
Ducks Unlimited, prepared statement..............................   160

Eastern Forest Partnership, prepared statement...................   215
Endangered Species Coalition, prepared statement.................   218
Environmental Council of the States, prepared statement..........   220

Federation of State Humanities Councils, prepared statement......   223
Feinstein, Senator Dianne, U.S. Senator from California:
    Questions submitted by......................................69, 117
    Opening statements of.....................................1, 35, 81
Florida State University, prepared statement.....................   226
Fond du Lac Band of Lake Superior Chippewa, prepared statement...   227
Fort River Partnership, prepared statement.......................   230
Foundation for North American Wild Sheep, prepared statement.....   160
Friends of:
    Archie Carr Refuge, prepared statement.......................   231
    Blackwater National Wildlife Refuge, prepared statement......   231
    Boundary Waters Wilderness, prepared statement...............   232
    Congaree Swamp, prepared statement...........................   233
    Lake Woodruff NWR, DeLeon Springs, FL, prepared statement....   234
    Lower Suwannee and Cedar Keys National Wildlife Refuges, 
      prepared statement.........................................   235
    Tamarac National Wildlife Refuge in Minnesota, prepared 
      statement..................................................   237
    The Wallkill River Refuges, prepared statement...............   240
    Virgin Islands National Park, prepared statement.............   239
    Wertheim National Wildlife Refuge, prepared statement........   243

Galveston Bay Foundation, prepared statement.....................   207
Grand Valley Water Users Association, prepared statement.........   244
Great Lakes Indian Fish and Wildlife Commission, prepared 
  statement......................................................   244
Greater Yellowstone Coalition, prepared statement................   247

Highlands Coalition, prepared statements.......................249, 251
Housatonic Valley Association, Inc., prepared statement..........   253
Houston:
    Audubon Society, prepared statement..........................   252
    Regional Group, prepared statement...........................   252
Huachuca Hiking Club, prepared statement.........................   253
Humane Society:
    Legislative Fund, prepared statement.........................   254
    Of the United States, prepared statement.....................   254

Imperial Irrigation District, Imperial, CA, prepared statement...   257
Interstate Mining Compact Commission, prepared statement.........   258
Intertribal:
    Bison Cooperative, prepared statement........................   261
    Timber Council, prepared statement...........................   264

Johnson, Stephen L., Administrator, Environmental Protection 
  Agency.........................................................     1
    Prepared statement...........................................     8
    Summary statement............................................     6

Kempthorne, Hon. Dirk, Secretary, Office of the Secretary, 
  Department of the Interior.....................................    35
    Prepared statement...........................................    42
    Summary statement............................................    40
Kent Land Trust, prepared statement..............................   267
Kimbell, Abigail, Chief, Forest Service, prepared statement......    97

Lac du Flambeau Band of Lake Superior Chippewa Indians, prepared 
  statement......................................................   267
Lago, Lenise, Budget Director, Forest Service, Department of 
  Agriculture....................................................    81
    Statement of.................................................    97
Lone Star Chapter of the Sierra Club, prepared statement.........   252

Mason Township Residents, prepared statement.....................   270
Middlesboro Intermediate School, prepared statement..............   272
Montana Water Trust, prepared statement..........................   273
Mother Lode Chapter of the Sierra Club, prepared statement.......   274
Mountains to Sound Greenway Trust, prepared statement............   275

National:
    Alternative Fuels Training Consortium, prepared statement....   277
    Assembly of State Arts Agencies, prepared statement..........   279
    Association of:
        Clean Air Agencies, prepared statement...................   282
        State:
            Energy Officials, prepared statement.................   285
            Foresters, prepared statement........................   287
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   293
    Congress of American Indians, prepared statement.............   290
    Cooperators' Coalition, prepared statement...................   296
    Council for Science and the Environment, prepared statement..   297
    Endowment for the Arts, prepared statement...................   300
    Environmental Services Center, prepared statement............   303
    Fish and Wildlife Foundation, prepared statement.............   305
    Humanities Alliance, prepared statement......................   308
    Institutes for Water Resources, prepared statement...........   310
    Mining Association, prepared statement.......................   312
    Parks Conservation Association, prepared statement...........   315
    Trappers Association, prepared statement.....................   160
    Wildlife:
        Federation, prepared statement...........................   317
        Refuge Association, prepared statement...................   320
New:
    Jersey Conservation Foundation, prepared statement...........   323
    Mexico Interstate Stream Commission, prepared statement......   325
Nisqually Tribe of Indians, prepared statement...................   327
North:
    American:
        Bear Foundation, prepared statement......................   160
        Grouse Partnership, prepared statement...................   160
    Cascades Conservation Council, prepared statement............   329
Northern:
    Colorado Water Conservancy District, prepared statement......   330
    Forest Alliance, prepared statement..........................   330
Northwest Indian Fisheries Commission, prepared statement........   333

OPERA America, prepared statement................................   336
Orange County Land Trust, Middletown, NY, prepared statement.....   338

Pacific Rivers Council, prepared statement.......................   339
Partnership for the National Trails System, prepared statement...   342
Peacock, Marcus, Deputy Administrator, Environmental Protection 
  Agency.........................................................     1
Pheasants Forever, prepared statement............................   160
Ponca Tribe of Nebraska, prepared statement......................   351
Pope and Young Club, prepared statement..........................   160
Potapaug Audubon, prepared statement.............................   353
Preservation Action, prepared statement..........................   353
Public Service Company of New Mexico, prepared statement.........   355
Pueblo Board of Water Works, prepared statement..................   355
Puyallup Tribe of Indians, prepared statement....................   356

Quail Forever, prepared statement................................   160
Quality Deer Management Association, prepared statement..........   160

Rey, Hon. Mark, Under Secretary, Forest Service, Department of 
  Agricul- 
  ture...........................................................    81
    Prepared statement...........................................    94
    Summary statement............................................    92
Rivers & Trails Conservation Coalition, prepared statement.......   359
Rocky Mountain Elk Foundation, prepared statement................   360
Roots and Shoots for the Jane Goodall Institute, prepared 
  statement......................................................   361

Safari Club International, prepared statement....................   160
San:
    Diego County Water Authority, prepared statement.............   363
    Juan Water Commission, prepared statement....................   364
Save the Sound, prepared statement...............................   365
Sharon Land Trust, prepared statement............................   366
Shoshone-Bannock Tribes Fort Hall Business Council, prepared 
  statement......................................................   366
Skokomish Tribe of Washington State, prepared statement..........   368
Society for Animal Protective Legislation, prepared statement....   371
Southwestern Water Conservation District, prepared statement.....   374
State Engineer's Office, Cheyenne, Wyoming, letter from..........   374
Stevens, Senator Ted, U.S. Senator from Alaska, statement of.....    85
Swan Ecosystem Center, prepared statement........................   376

Teaming With Wildlife National Steering Committee, prepared 
  statement......................................................   377
The Wildlife Society, prepared statements............380, 382, 385, 388
Theatre Communications Group, prepared statement.................   378
Theodore Roosevelt Conservation Partnership, prepared statement..   160
Town of:
    Ophir, Colorado, prepared statement..........................   390
    West Fairlee, prepared statement.............................   392
Tri-County Water Conservancy District, prepared statement........   396
Tribal Council of the Confederated Salish and Kootenai Tribes of 
  the Flathead Nation, prepared statement........................   393

Ullman, William, prepared statement..............................   397
Uncompahgre Valley Water Users Association, prepared statement...   398
United Tribes Technical College, prepared statement..............   398
Upper:
    Gunnison River Water Conservancy District, prepared statement   401
    Mississippi River Basin Association, prepared statement......   401
    Peninsula Environmental Coalition, prepared statement........   404
USGS:
    Coalition, prepared statement................................   405
    Streamgage Coalition, prepared statement.....................   407

Village of Wellington, Florida, prepared statement...............   409
Virginia Native Plant Society, prepared statement................   411

Wehrum, Bill, Acting Assistant Administrator, Office of Air and 
  Radiation, Environmental Protection Agency.....................     1
Wilderness and Public Lands Izaak Walton League of America, 
  prepared statement.............................................   413
Wildlife:
    Forever, prepared statement..................................   160
    Management Institute, prepared statement.....................   160
    Society, prepared statement..................................   160


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page

Borrowing Funds to Fight Fires...................................   109
Budding Invasion.................................................    86
Capital Improvement and Maintenance..............................   102
Categorical Exclusion..........................................116, 123
Continuing Transitional Support to Rural Communities Through the 
  National Forest Land Conveyance for Rural Communities Act......    96
Fighting Fire With Funding.......................................    90
Fire Preparedness................................................   120
Firefighting.....................................................   105
Forest:
    And Rangeland Research.......................................   100
    Legacy.......................................................   112
    Planning Process.............................................   121
    Service Fiscal Year 2008 Budget..............................    98
Grazing:
    Permit Backlog...............................................   115
    Permits......................................................   122
Land Acquisition.................................................   102
Law Enforcement and Marijuana Eradication......................105, 110
Marijuana Eradication............................................   105
Mexican Cartels and Marijuana Growing............................    85
National Forest System Appropriations............................   101
Personnel Cutbacks...............................................   124
Preparedness Funding.............................................   115
Quincy Library Group...........................................105, 106
Recreation Budget................................................   122
State and Private Forestry.......................................   100
The Mexican Cartels Have Made Marijuana a Cash Crop Worth 
  Billions of Dollars by Infiltrating America's National Forests 
  and Turning Them Into Vast Pot Plantations. Can Anyone Halt the 
  Harvest?.......................................................    86
Timber Budget....................................................   123
Tongass Land Management Plan Amendment...........................   111
White Mountain National Forest Funding...........................   113
Wilderness Management............................................   125
Wildland:
    Fire.........................................................    95
        Outlook for This Year....................................   124
        Risk...................................................107, 110

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

Budget Overview..................................................    46
Drugs on Federal Lands...........................................    51
Endangered Species Act Regulations...............................    59
Energy...........................................................    65
Fire Preparedness................................................    53
Fixed Costs......................................................    41
Government Performance and Results Act...........................    60
Great Smoky Mountains National Park..............................    56
Healthy Lands Initiative.................................41, 44, 67, 73
Improving Indian Education.......................................42, 45
Increased Funding for Streamgages................................    54
Indian Water Rights..............................................    66
    Settlements..................................................    65
Inspector General Report on Interior Department Contracting......    69
Invasive Species.................................................    55
Land and Water Conservation Fund.................................    57
Landsat Sensors..................................................    61
Maintaining Core Programs........................................    47
Methamphetamine..................................................    52
    Crisis in Indian Country.....................................    45
National Park Centennial:
    Challenge....................................................41, 63
    Initiative...................................................    43
1998/1999 Leases.........................................50, 64, 66, 76
Oil and Gas Legislative Proposal.................................    74
Other Budget Priorities..........................................    47
Platte River Recovery Implementation.............................    54
Polar Bears......................................................    72
Safe Indian Communities..........................................    42
San Francisco Bay Restoration....................................    69
Save America's Treasures.........................................    59
Streamgages......................................................    54
Supporting the Department's Mission..............................    45
Thermal Sensor for the Landsat Data Continuity Mission...........    62
2008 Budget Request..............................................    40
U.S Geological Survey:
    National Stream Gaging Network Modernization.................    75
    United States-Mexico Transboundary Aquifer Assessment........    76
    Water Resources Research Institutes Funding..................    75
Volunteer Programs...............................................    73
Weaver's Cove Liquid Natural Gas (LNG) Project...................    58
Wildland Firefighting............................................    71

                    ENVIRONMENTAL PROTECTION AGENCY

Acid Rain Program................................................    28
Arsenic Standard.................................................18, 21
Cap-and-Trade:
    Program......................................................    24
    System.......................................................    26
Carbon Capture and Storage--Energy Strategy......................    29
Clean:
    Air:
        And Global Climate Change................................     8
        Interstate Rule..........................................    22
    And Safe Water...............................................     9
    Diesel Grant.................................................    13
    Water:
        Act......................................................    19
        Funding..................................................    20
        State Revolving Fund.....................................    14
Compliance and Environmental Stewardship.........................    11
Cost-Benefit Analysis............................................    16
Enforcement......................................................    11
Good Samaritan Bill..............................................    17
Hastings, Nebraska...............................................    33
Healthy Communities and Ecosystems...............................    10
Homeland Security................................................    12
Impacts of Title IV of the Clean Air Act Amendments on U.S. 
  Competitiveness................................................    26
Land Preservation and Restoration................................     9
Nonattainment Areas..............................................    13
Omaha Lead Site..................................................    30
Private Activity Bonds...........................................    15
Research.........................................................    11
San Joaquin Valley...............................................    12
STAG Program--Reductions.........................................    20
Superfund Cleanup--Hastings, Nebraska............................    33
Timeframe for Cleanup............................................    32

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
